<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENTS OF COMMERCE, JUSTICE, AND
                   STATE, THE JUDICIARY, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES

                    HAROLD ROGERS, Kentucky, Chairman

JIM KOLBE, Arizona                 ALAN B. MOLLOHAN, West Virginia
CHARLES H. TAYLOR, North Carolina  DAVID E. SKAGGS, Colorado
RALPH REGULA, Ohio                 JULIAN C. DIXON, California
MICHAEL P. FORBES, New York        
TOM LATHAM, Iowa                   

 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

 Jim Kulikowski, Therese McAuliffe, Jennifer Miller, and Mike Ringler, 
                           Subcommittee Staff
                                ________

                                 PART 6

                              THE JUDICIARY
                                                                   Page
The Supreme Court of the United States............................    1
Architect of the Capitol..........................................   29
The Federal Judiciary and the Administrative Office...............   47

                          DEPARTMENT OF JUSTICE

Attorney General..................................................  199
Justice Inspector General.........................................  495
Federal Bureau of Investigation...................................  577
Counterterrorism..................................................  647
Drug Enforcement Programs.........................................  699
State and Local Law Enforcement...................................  897
Immigration....................................................... 1011
Prisons and Related Issues........................................ 1125
                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

41-832 O                    WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director









DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 1998

                              ----------                              

                                          Thursday, March 13, 1997.

                   SUPREME COURT OF THE UNITED STATES

                               WITNESSES

HON. ANTHONY M. KENNEDY, ASSOCIATE JUSTICE
HON. DAVID H. SOUTER, ASSOCIATE JUSTICE
JAMES C. DUFF, ADMINISTRATIVE ASSISTANT TO THE CHIEF JUSTICE
DALE B. BOSLEY, MARSHAL
FRANK LORSON, CHIEF DEPUTY CLERK
TONY DONNELLY, DIRECTOR OF BUDGET AND PERSONNEL

                            Opening Remarks

    Mr. Rogers.  The hearing will come to order.
    We are pleased to be here today to discuss the 1998 budget 
request of the Supreme Court. We welcome before the 
Subcommittee again this year Justices Anthony Kennedy and David 
Souter in their fourth appearance together before us. We think 
it is star billing on the marquee out there.
    Justice Kennedy. We don't do this act any other place, Mr. 
Chairman.
    Mr. Rogers.  I'm glad we have an exclusive. This is a 
unique opportunity for the Congress to interact with the 
Judicial Branch, two separate and independent branches, but 
working within the system of checks and balances included by 
our Founding Fathers.
    One check held by the Congress, over the other two branches 
enshrined in the Constitution, is the power of the purse. It 
might be said in this case that we provide the check and hope 
that you make it balance. The budget request for the Supreme 
Court is $29,278,000, an increase of $2,121,000, or 7.8 percent 
over the amount we provided for fiscal year 1997.
    There is an additional request of $3,997,000 for appearance 
of the buildings and grounds, which is an increase of 
$1,197,000 above the fiscal year 1997 appropriation. This 
particular appropriation is managed by the Architect of the 
Capitol. After hearing from the Supreme Court we will then hear 
from the new Architect of the Capitol, Alan Hantman. Mr. 
Justice Kennedy, Mr. Justice Souter, we are pleased to have you 
here today. Justice Kennedy, we will make your prepared 
testimony a part of the record.
    Justice Kennedy. Thank you.
    Mr. Rogers.  If you'd like to proceed informally briefly, 
we'd love to hear from you.
    Justice Kennedy. Thank you very much.
    Mr. Rogers.  The same for Justice Souter.

                      Statement of Justice Kennedy

    Justice Kennedy. Thank you for your welcome.
    Mr. Chairman and Members of the Committee, it's a pleasure 
to be here and we thank you for giving some special attention 
to the Supreme Court, which has a small budget compared to the 
other matters that this Committee must consider. But it is a 
good opportunity for you to look at this small part of the 
Federal Judicial System.
    Justice Souter and I have with us today various of our 
Court Officers; the Administrative Assistant to the Chief 
Justice, Mr. Jim Duff; our Marshal of the Court, Mr. Dale 
Bosley; Chief Deputy Clerk, Frank Lorson; our Public 
Information Officer, Toni House; and our Director of Budget and 
Personnel, Tony Donnelly. In the second row I think we have 
Frank Wagner, our Reporter of Decisions.
    Mr. Rogers.  I'd like to interrupt you for a second to say 
that Mr. Duff is an extremely talented man. I wonder where he 
received his education.
    Justice Kennedy. We are well-aware of that, Mr. Chairman 
and he's done a terrific job for us and for the Chief Justice.
    Mr. Rogers.  Could you tell me where he was educated?
    Justice Kennedy. Yes. I believe it was somewhere near 
Kentucky.
    Mr. Rogers.  I know his family, in Owsley County which is 
in my district, and he has a fine family. Now, do they play 
basketball down there?
    Justice Kennedy. I have not seen him play on the highest 
Court in the country which is our basketball court. I'll have 
to go and watch him work out there sometime.
    Mr. Rogers.  He played for Adolph Rupp at the University of 
Kentucky.
    Justice Kennedy. He's been well-prepared for the challenges 
that he faces with us.
    Our budget, as you've indicated, Mr. Chairman, if you 
include the buildings and grounds budget which is the 
Architect's portion, is for $33,275,000. As you indicated, Mr. 
Hantman, the new Architect of the Capitol will present that 
portion of the budget that pertains to buildings and grounds.
    I have read his submission and we should say that the Court 
is in full agreement with it. One of the things he is going to 
tell you is that our building, of which he writes with great 
elegance in his report, is more than 60 years old. We are concerned 
about its structural features; the internal parts of the building that 
are inadequate; wiring, plumbing, and other building basics.
    A study is going to have to be made to see what upgrades 
are needed. We're concerned that the wiring, particularly, is 
inadequate. And we hope that the Committee gives careful 
attention and support to that request.
    With reference to our portion of the budget we do, as you 
have indicated, ask for an increase of $2,121,000. $1,504,000 
of that is an adjustment to base. It does not represent new 
programs. And the adjustment figures are based on the standard 
cost projections that you're well-aware of.
    As we've indicated before, it seems that books and some of 
the services we use go up by much more than the ordinary 
inflation rate. And then there is the question of word 
processing equipment and computerized equipment. We go between 
cycles where we buy hardware in one year, and then we must have 
new software for three or four years after that, then new 
hardware. This cycle seems endless.
    I was wondering why we need new hardware. Well, one of the 
reasons is after it gets four or five years old, there is no 
one around who can fix it. So, you have to buy the new things.
    Also, our new people are trained on the newest systems. And 
so we have to keep up. You see that reflected in the 
adjustments to base.
    We do ask for one programmatic increase. And that pertains 
to our police and our security system. We've asked, as we 
indicated that we might last year, for six new positions. We 
also need an updated radio network to keep our officers in 
touch with each other.
    We have reports pending from various security agencies, 
including the Secret Service, that will make some 
recommendations that may require us to come back next year for 
some capital improvements with reference to the building 
structure and the building perimeter. Those studies have not 
yet been formally presented to the Court.
    But we do understand that the experts agree with us on the 
necessity for the new police positions. We ask for six new 
positions. That's two per shift. And it will result, we think, 
in some savings in the overtime that our police now incur.
    As to the Court as a whole, the picture is one of constancy 
and stability. As you can see at 1.10 of the budget estimate 
that you have in front of you, the caseload, in terms of 
filings, pushes up to the 8,000 level. This has been so for the 
last four or five years or so. And we can handle that caseload 
with the existing staff and facilities we have.
    It would be a mistake, as the Committee is well-aware, to 
assume that the relatively stable picture of Supreme Court 
filings is a reflection of the condition of the Court system as 
a whole. That, of course, is not true. In the Courts of 
Appeals, filings are up by over 5 percent. On a base where the 
Courts of Appeals are already over-burdened, this is a very 
substantial increase.
    At the District Court level, as you know, there are also 
increases both in the civil and criminal filings. The criminal 
cases particularly in the District Courts are more complex than 
they once were. This is the nature of the federal criminal 
jurisdiction.
    So, we are very concerned about the condition of the Courts 
of Appeals and the District Courts; and we recognize that the 
Committee and the Congress have, I think, consistent, Mr. 
Chairman with your earlier comments, acted with care and 
concern for your Constitutional responsibilities.
    The Committee has been most receptive to the needs of the 
Court, and we appreciate your consideration. I have no further 
remarks by way of opening. Perhaps Justice Souter would like to 
supplement my introduction.
    Justice Souter. Thank you, Mr. Chairman. I really don't. I 
realize I'm here in case he gets laryngitis. He has not.
    [The statement of Justice Kennedy follows:]

[Pages 5 - 10--The official Committee record contains additional material here.]


                      additional police positions

    Mr. Rogers. We welcome your remarks. If you care to go 
straight into questions, we do have another witness after you 
this morning. So, we want to get you out of here quickly, for 
your own purposes and for ours as well.
    It is good to have both of you here. You are requesting a 
steady state budget, more or less--an increase to cover the 
cost of inflation and personnel benefits, with one exception, 
and that involves security. Is that generally correct?
    Justice Kennedy. That's correct, Mr. Chairman.
    Mr. Rogers.  Now, last year at your request we provided 
$150,000 in the Architect of the Capitol's budget for a study 
of security at the Supreme Court. Are the additional six police 
that you requested in anticipation of what the study would have 
included, or is that separate?
    Justice Kennedy. We think it's separate. We have 
identified, based on our own assessments, the necessity for 
additional staff. What the Architect's report is going to cover 
are questions of basic building security, in so far as design 
and perimeter protection.
    We anticipate, based on what we've heard, that this is 
going to require some capital expenditures in our next budget 
request. But we have not seen that report yet.
    Mr. Rogers.  When do you expect that report?
    Justice Kennedy. I'll ask Mr. Donnelly.
    Mr. Donnelly.  They're just starting that report. So, 
sometime this fiscal year.
    Justice Kennedy. Sometime this fiscal year.
    Mr. Rogers.  You will complete your study?
    Justice Kennedy. Yes. And there is a Secret Service report 
that is in.
    Mr. Rogers.  Do you already have that report?
    Justice Kennedy. Not yet; in about two weeks.
    Mr. Rogers.  Two weeks?
    Justice Kennedy. Yes.
    Mr. Rogers.  Where did the additional request for police 
originate?
    Justice Kennedy. It was basically generated by us. The 
Secret Service has told us that they are in full support of it 
and think that it is absolutely required.
    Mr. Rogers.  Well, of course we're very interested in 
hearing about the progress of the security report so that we 
can make our plans as well. There is one thing we want to be 
sure of and that's to provide adequate security to the Court.
    Justice Kennedy. We can certainly arrange to have it 
furnished to you as soon as we get it. The last thing I thought 
I saw was it was over 600,000 people a year visit the building. 
So, just from a standpoint of control of that influx of 
visitors, we require a substantial presence. We also have 
increased our expertise in the assessment of threats of a more 
serious nature.
    Mr. Rogers.  I'm just curious here. Sometimes you make 
decisions that are controversial, and immediately there are 
groups of people that want to carry signs and voice their 
objection or their agreement on some issue.
    Where is the line? Where does your own security police 
force leave off and other police forces come in?
    Justice Kennedy. We have a standing arrangement with the 
Capitol Police. And when there is going to be a major 
demonstration, we would notify them in advance. We have 
assistance from the Capitol Police. Our jurisdiction is 
basically the block of the Court, plus wherever the Justices 
happen to be. The working relationship, I understand, between 
the Capitol Police and our own force has been very good.
    Mr. Rogers.  How many police do you have?
    Justice Kennedy. About 80, and that's for 24 hours a day.

                          police radio system

    Mr. Rogers.  Now, in your request for a police radio 
system, there is included the cost of an evaluation for remote 
communications. Is the evaluation something that another agency 
like Secret Service could do, or do you need to go to an 
outside firm to do that?
    Justice Kennedy. The evaluation was generated by our police 
in talking with independent contractors and with the Secret 
Service.
    Mr. Rogers.  What I'm asking you is, could that be done by 
the Secret Service as opposed to hiring an outside contractor?
    Justice Kennedy. Well, I take it that this is for the 
purchase of the equipment; the budget that we're talking about. 
Apparently, the channel that they're on has been crowded and 
they've had inadequate communication. So, they need a system 
that works on some different or more efficient channel. That's 
my understanding.
    Mr. Rogers.  The $400,000, as I understand, you've 
requested for evaluation of the remote communication needs of 
the police and purchases.
    Justice Kennedy. And purchase of the equipment.
    Mr. Rogers.  What I'm saying is, can we get the study done 
by the Secret Service and give you money for the equipment? I'm 
just trying to save some money.
    Justice Kennedy. I'll have to ask our Marshal. My 
understanding is that the Secret Service has made the 
recommendation, but that we have to go outside to an 
independent contractor to get both the design and the equipment 
that we need. The Secret Service doesn't have it.
    I might indicate also, Mr. Chairman, that we are very, very 
pleased with the work that our police force does. One of the things 
we're always concerned about is the security and the confidentiality of 
the Court's documents. And we have our young law clerks working there 
until the early hours of the morning; coming in and out at all times. 
The police know every law clerk by name. They are very sensitive about 
document control.
    And the Court has been fortunate that we have not had 
breaches of security with reference to the Court's pending 
decisions. As you know, for any single decision that we are 
hearing, there are many other cases that will depend upon it. 
And leaks of our decisional processes could be damaging, both 
to the Court's reputation and to litigants in many, many cases.
    So, our police are very well-trained and sensitive that. 
We're very pleased with the performance that they render on a 
day-to-day basis.

                            SCHEMATIC DESIGN

    Mr. Rogers.  Well, you mentioned in your testimony your 
support of the Architect's request for a schematic design to 
substantially renovate the building and its utilities. That 
could lead to about a $22 million project. I know it's 
important. Do you think it is urgent enough to undertake that 
sizeable cost?
    Justice Kennedy. We think it's urgent that you do the 
study. It was requested last year and funding was not available 
for it. We're concerned about both wiring and plumbing because 
in the event of a failure the damage to the building could be 
severe. The building was built in 1934 for under $9 million, 
including furnishings.
    And so when you think that $20 million may be necessary to 
upgrade it, you tend to wonder. But I think we ought to look at 
the study and then make up our mind based on the 
recommendations.
    Mr. Rogers.  We will wait for that with you. I'm just 
concerned about that size of a project when we're trying to 
balance the budget. But we want to be sure that the Court has 
an adequate facility. Mr. Mollohan.
    Mr. Mollohan.  Mr. Chairman, I'd like to welcome the 
Justices to the hearing today. And I have no other questions.

                                CASELOAD

    Mr. Rogers.  In 1996, you experienced your first decline in 
caseload, but your projections for 1997 are rising again. Do 
you think that's accurate?
    Justice Kennedy. Indications are that they are rising. From 
this graph you see it is perceptible, but not in the size to 
cause any concern. We don't see a huge influx of petitions 
based on the construction of any new Federal enactments or new 
Federal regulatory schemes, substantive changes in the criminal 
law. Our predictions are that the case load should be fairly 
constant.
    Mr. Rogers. Is there any reason for the slight decline in 
this one year?
    Justice Kennedy. None that we can figure. No. I don't know 
the reason for the slight decline.
    Mr. Rogers.  Mr. Latham.
    Mr. Latham.  Good morning, Justices.
    Justice Kennedy. Good morning, Mr. Latham.

                           JUDICIAL SALARIES

    Mr. Latham.  I guess I was more curious about salaries. How 
much of a problem is it to attract people to the Bench today 
because of the salary situation we have?
    Justice Kennedy. From what I can see and in checking my old 
community in Sacramento and in California, we still attract to 
the Bench practitioners from the highest ranks of the Bar. It 
is a matter of continuing concern to us, however, with 
reference to the District and the Circuit Courts, the Judges 
see an erosion of their salary by reason that no cost of living 
index is granted to them as there is to other Federal 
employees.
    And I think it has been four or five years now since there 
has been a COLA increase. This is demoralizing to the Judges. 
People do come from the really fine parts of the practicing 
bar, and are willing to take something of a pay cut often in 
order to have the honor to serve on the Federal Bench. But that 
should not be interpreted as giving the political branches 
incentives to treat them shabbily.
    Federal judicial salaries are much more substantial than 
state salaries. We know that; than state judicial salaries. On 
the other hand it's very important I think for Congress and the 
Executive Branch to be aware that the respect for the Judiciary 
depends in large part on the caliber and the dedication and the 
zeal of those Judges who are serving.
    We think it's urgent that Congress make up the COLA 
increases that were not granted in the past four or five years 
for our District and our Circuit Judges.
    Mr. Latham.  Perhaps you can make some kind of a ruling for 
Members of Congress too.
    Justice Kennedy. Well, I'll let Justice--maybe Justice 
Souter may want to comment on that. But it is true, as you know 
that there has been perhaps an unstated policy of linking the 
two. I think that's unwise. It's not a question of which 
position should be paid more or less.
    It's a question of independently assessing the needs of the 
Courts and coming to a decision as to what their salaries ought 
to be, quite independent of the political concerns that affect 
the salaries of the other Branches. Maybe Justice Souter will 
comment.
    Justice Souter. Well, I think the only thing I would say in 
supplement is if there is going to be a link, I think it makes 
sense for the link to be with the other class, the Federal employees 
that you want to attract and keep in for the long haul.
    When you get a Judge appointed, you figure you're making a 
lifetime appointment and so does the Judge. The closest example 
of that, I guess, is in the, what do they call them, the 
general schedule employees whom you hope are going to be 
serving the government for a long time once they get there.
    And I think the fair case for the link is the case to treat 
the Judges the same way you're treating the general schedule 
employees. Which is not to say that there ought to be some kind 
of an automatic policy of adjustments every year, but that if 
you're going to adjust for the government generally, you 
shouldn't exclude the Judiciary from it, because the concerns 
are the same.
    The only other thing I would say is that I think it's 
inevitable that if something doesn't happen, the Congress and 
the Judiciary are going to begin to see the phenomenon which I 
know took place before I became a Federal Judge in which the 
erosion got to the point where there were noticeable 
resignations in the District Courts.
    You don't want a Judicial system, nobody does, in which the 
only people who can really afford to enter it are either 
independently wealthy so that they don't have to care about the 
salary or are getting a big increase by the appointment. I know 
a good many District Judges and, characteristically, the 
District Judges I know took a substantial pay cut when they 
went from law firms and went onto the Bench.
    They did that because they wanted to. But they've also got 
to figure their earning capacity in relation to what their 
families are going to require. And if you take a Judge who is 
in, let's say his 40s with kids coming along to be educated, 
he's got to make a very practical judgment about the capacity 
of his judicial salary to pay the cost of raising his kids.
    When you have erosion as we have seen for I guess four 
years now, that begins to hurt. And I think it's going to hurt 
in terms of decisions to desire and accept Judicial 
appointments and decisions to stay.
    I think the concern that those particular Judges have, I 
know Justice Kennedy and I have, would be addressed not only by 
the catch-up, which I know is being considered, in this session 
of the Congress, but by a link with general schedule employees 
so that the Judges get treated the same way the people working 
for them get treated.
    Mr. Latham. I admire you. The number one concern should be 
for the quality of the people who are serving.
    Justice Kennedy.  We've been very concerned, Congressman, 
over our history in that we have a unified Bar. We don't have 
the Barrister/Solicitor distinction.
    And from earliest times, the leaders of the business bar, 
beginning around the 1870s what we call the corporate bar, 
encouraged their partners who were litigators to go on the 
Federal Bench because they knew the importance of having the 
highest quality lawyers on the Federal Bench; lawyers that can 
try complex anti-trust cases, a securities case, a class action 
torts case. This requires a high degree of skill. And our 
Federal Judiciary is the most skilled Judiciary in the world.
    If you have an environment, if you have a tradition, if you 
have a practice, if you have a custom in which the Judges are 
ignored with reference to salary requests, they are not going 
to have the urging and the support of their partners and their 
colleagues to go on the Federal Bench. Their colleagues will 
say ``Stay here. That job isn't worth taking.'' And this must 
never happen to a great judicial system.
    Mr. Latham. Are you hearing from people now about retiring 
earlier? Are we to the point where you are seeing an erosion in 
quality?
    Justice Souter. I can tell you personally that I have heard 
it in a couple of instances. I have no anecdotal evidence. Most 
of the Judges we have that I know are so dedicated to their 
work, and are so honored to be the trustees of the Constitution 
and of our rule of law and of our tradition that they will stay 
on that Bench.
    But that does not mean, it seems to me that you should use 
a supply and demand calculus in order to determine what is fair 
and adequate compensation for people of that caliber.
    Mr. Latham. We certainly don't want to have a situation 
where there is outside financial pressure on people in judicial 
positions.
    Justice Kennedy. Well, of course, during what I've always 
thought were the years when salaries were very, very small, 
there were those of us who are professional teachers, now we 
have had a severe limit put on the amount of money that could 
be made from outside teaching. That was imposed by the 
Congress.
    So, these are just additional constraints. And it's quite 
appropriate that Judges should not have outside income except 
from very traditional and appropriate sources.
    Mr. Latham. Thank you, Mr. Chairman.

                          HABEAS CORPUS REFORM

    Mr. Rogers. I'd like to ask you about the Anti-Terrorism 
and Effective Death Penalty Act of 1996 in which we passed the 
so- called Habeas Corpus Reform last year. Have you felt the 
impact of that yet? If not, when do you expect to?
    Justice Kennedy. There are two parts to the bill and we 
felt the impact in one part and not in the second part. The 
first part of the bill limits the rights of petitioners in 
Habeas cases to file successive petitions. You must have the permission 
of the United States Court of Appeals before you can file a second 
Habeas petition.
    That permission is given only in extreme circumstances such 
as new evidence or a new rule of law. We have seen the 
difference. We've seen the difference on our Court. There are 
fewer petitions that are successive. They've been screened out 
in the Courts of Appeals very well. The encouragement and the 
message to the bar and to the defense bar is that Habeas 
claims, Constitutional claims on collateral attack, must be 
made in the first Habeas proceeding. Multiple Habeas 
proceedings are very expensive. All collateral proceedings are 
very expensive in capital cases. It's of a great concern.
    But we have seen the effect. It has somewhat lightened the 
work load of our Court. We still get emergency requests for 
stays. We still have to act sometimes at the last minute, but 
it has become much more orderly, I think, as a result of the 
new statute.
    The second part of the statute requires that the states be 
certified as providing adequate counsel in collateral cases. 
And if that certification is made, then all federal collateral 
proceedings must be filed within strict limits and disposed of 
by the Courts very quickly.
    There is a 180-day limit. I think I'm correct with 
reference to the District Courts acting. I think only five 
states have been certified and the procedure is moving rather 
slowly. We have not seen the impact of that. And I think that 
part of the Act has yet to take hold.
    Mr. Rogers.  When do you expect that impact?
    Justice Kennedy. The certification procedure is apparently 
somewhat murky and is not proceeding very fast. The advantage 
of having the certification from a systemic standpoint is that 
there is a limit on the amount of time that the District Courts 
and the Circuit Courts can hold the cases.
    I am not aware of too many cases in the capital area that 
are being held by the District Courts. We will see cases when 
collateral proceedings will take six, seven years and a lot of 
that delay is often in the state courts. But we do think the 
certification procedure should make a difference. But it is 
slow to take hold.
    I know Virginia has received the certification. So, cases 
from the State of Virginia are now going to have to be 
processed in the Federal Courts within the guidelines.

                        in forma pauperis cases

    Mr. Rogers.  Let me ask you this. Will Prisoner Litigation 
Reform likely have a very direct impact on your workload by 
reducing the In Forma Pauperis cases?
    Justice Kennedy. Well, I suppose it depends on how far 
reaching the changes are.
    Mr. Rogers.  Well, more than two-thirds of your estimated 
case workload for 1997 is In Forma Pauperis cases.
    Justice Kennedy. Yes. But those remember are not just 
prisoner cases. Those are simply cases in which a filing fee is 
waived based on the financial position of the petitioner. It 
doesn't mean that they are prisoner petitions in all cases. And 
it doesn't mean that they're without representation.
    Mr. Rogers.  Do you have an idea of what percent of those 
cases, the In Forma Pauperis cases, are prisoner cases?
    Justice Kennedy. In our Court, let's see. Thirty-five to 40 
percent are pro se prisoner petitions. But not all of those are 
1983. Those include collateral attack on the criminal 
conviction as well as civil.
    Mr. Rogers.  So, any version of prison litigation reform 
would have an impact on that workload; would it not?
    Justice Kennedy. Yes. It would.
    Mr. Rogers.  It's a matter of degree; isn't it?
    Justice Kennedy. Yes.
    Mr. Rogers.  Well, the 1996 law that we passed did include 
some Prisoner Litigation Reform. Have you noticed the impact of 
that?
    Justice Kennedy. We have seen no discernable reduction in 
the cases because of that. It's a little too early to tell.

                      televising court proceedings

    Mr. Rogers.  Now, Mr. Justice Souter, there are those who 
think that television cameras ought to be allowed in the 
Supreme Court.
    Justice Souter. Are you asking whether I've been converted?
    Mr. Rogers.  I guess I am.
    Justice Souter. I'm right where I was a year ago.
    Mr. Rogers.  Well, briefly state that position, please.
    Justice Souter. I have a number of reasons for it. One is, 
despite all of the protest to the contrary that I occasionally 
hear, I've had experience with cameras in Appellate Courts and 
I am convinced beyond a peradventure that they do affect the 
behavior of counsel and they do affect the behavior of the 
Bench.
    The entertainment value of it, and I use that term 
advisably, is not worth skewing the process. I think the 
entertainment value is in itself another reason not to have it. 
I think there is great importance in preserving for the country 
and its people, the confidence that a process which is supposed 
to be reasoned is going to remain as reasoned as it can be 
without the kind of influence that the aura of entertainment 
glitz brings to it.
    I think it is, thirdly, important for the Judicial Branch 
not to be subject to the same kind of publicity that 
isappropriate in the political Branches for the very reason that much 
of that publicity is appropriate because the other Branches are 
political. We are not, so far as it is humanly possible to isolate us 
from the political process.
    And I think it's important to preserve the kind of 
symbolism, negative symbolism if you will, that makes that 
distinction.
    Mr. Rogers. Well, we have used television in the House of 
Congress going some years back. Are you saying that Members of 
Congress show off for the cameras?
    Justice Souter. Far be it from me to say that Members of 
Congress show off to the cameras. It's not a question in my--in 
the experience that I've had. I think I may have mentioned this 
before. It's not a question of showing off necessarily. It's a 
question of changing the process sometimes for good reason.
    I think I used the example, when we were talking about this 
before, of some times that I can recall when I was on the New 
Hampshire Supreme Court which does allow TV in. I tend to ask a 
fair number of questions, and I did then.
    I can remember instances in which I decided not to ask a 
question because what I was afraid of was that the only thing 
that was going to be shown on the news that evening was going 
to be my question, out of context, quite probably giving a 
wrong impression either of my partiality or impartiality, or 
the point that I was trying to get at by the question.
    So, I can attest to the fact that it changed my behavior, 
not by showing off, but by becoming reticent about something, 
about a part of a process that is very valuable to me in making 
a decision. And I don't want to see the process skewed that 
way.
    Mr. Rogers.  How do you distinguish between that point of 
view and the freedom of the printed press?
    Justice Souter. I suppose it's not only a difference in 
degree, but a difference in kind. The printing press simply 
doesn't lend itself--take the example that I just used to that 
kind of extreme excerpting treatment that is likely to mislead. 
And I know how that works because I've been in public life and 
in Judicial life for a long time now. But I also know from 
experience how the TV cameras work and they work differently.
    Mr. Rogers.  Mr. Justice Kennedy, would you like to comment 
on that question?
    Justice Kennedy. I've always thought, and I've indicated 
this before today, that this is a very close issue and a very 
hard issue. There is much merit in what my colleague, Justice 
Souter says. By having the cameras out of our courtroom, we in 
effect teach a lesson. The lesson we teach is that our Branch 
is different.
    We operate with a different rationale, a different 
timeline, a different logic, a different grammar, a different 
language. And I think the public knows and understands that. 
That is one reason the Court's judgments are held in respect. 
And the only authority a Court has is the respect the people 
wish to give to its judgments.
    On the other hand, I think it's very valuable for the 
public to know what goes on in certain trial Courts and in 
their public institutions generally. If those Courts aren't 
working well, television seems to show it. It seems odd in a 
trial context that we would exclude cameras from the most 
rational, dispassionate part of the trial process and then 
allow a commentary outside the courtroom. That seems to have it 
upside down.
    Our Court, I'm willing to say recognizing that there is 
some inconsistency in my position, can operate the way it does 
now in part because my colleauges are so confident in our 
traditional procedures. I have said, so long as any of my 
colleagues are concerned that it will change the way in which 
the Court decides or hears its cases, or the way the Court 
behaves, the way counsel behaves, I am willing to accept that 
judgment.
    It would be--I used to teach--and we could get the 
cassettes of, audio cassettes, of the Supreme Court arguments. 
In those days you couldn't get them until the arguments were 
five years old. I think we now make them available at the end 
of the term. But the students would be huddled around this 
little cassette recorder. And they'd say, who is that?
    And I'd say, well, that's Justice Stuart asking a question 
or Chief Justice Burger or whatever. And it was a marvelous 
teaching tool. And it would be a very good teaching tool for 
oral advocates who are trying to prepare for their argument and 
to see how better to understand our function and to relate to 
it in their own presentation.
    So, there are a lot of plusses to it. But for now, I'm 
quite willing to acknowledge that the Supreme Court is 
particularly bound to traditions. The public holds it in esteem 
in part because it reveres its own traditions. For that reason 
I am not a strong objector at all to the policy to exclude the 
cameras from our Court.
    Mr. Rogers.  Well, we've found that Congress more or less 
can control the cameras in our Body. With C-SPAN, the in-House 
direct system, we can minimize, Mr. Justices, the 
sensationalism that perhaps would exist otherwise.
    It may be worth you looking at down the pike to have your 
own cameras, if for no other purpose than for training the new 
students out there that will get the delayed tapes, perhaps, of 
oral arguments for that purpose. But that's your business. And 
I don't want to interfere.

                             civil caseload

    Let me ask you this. The common assumption is that the 
driving factor in the increasing caseload in our court system is 
legislation that we passed increasing the crimes that can be prosecuted 
in the Federal system. But the finger seems to point to civil cases 
rather than criminal as the source of recent increases in caseload.
    For example, the caseloads in Federal Courts rose from 
278,000 in 1992 to an estimated 305,000 in 1996. But the 
largest increase was in civil cases. The civil caseload rose 
from 230,000 in 1992 to 269,000 in 1996. The criminal cases 
actually declined from 48,300 to 47,900.
    Am I correct that the increasing caseload problem, it is a 
problem, is a function of the civil caseload? And if so, why is 
that happening?
    Justice Kennedy. It's not just the number of filings, of 
course, that we have to be concerned with, but with the median 
time that it takes to dispose of the case. I looked at the 
statistics that you did and I confess that I was somewhat 
surprised that those criminal filings had not increased to 
more. I expected to see that particularly because of the 
addition of new Federal crimes.
    Of course federal criminal prosecutions are a direct 
function of the number of United States Attorneys; especially 
where there is discretionary jurisdiction when the state has 
concurrent jurisdiction for prosecuting the same crime. If you 
increase the number of United States Attorneys, you would get 
an increase in criminal trials.
    One of the things we are concerned about is that the median 
time for disposing of the trials is increasing. The federal 
criminal cases are now more complex; drug dealerships, money 
laundering schemes. These take a long time to try. Just under 
50 percent of the United States District Judges' trial time is 
spent in criminal matters, quite without reference to the 
disparity in filing.
    The median time for the disposition of civil cases has gone 
up. You're quite correct. I think the filings in the District 
Courts have gone up 7 percent in the civil area. And this slows 
down the median disposition times for all civil proceedings. 
Also, civil proceedings are becoming more complex and are 
taking longer to try.
    Why it is that there has been an increase in federal civil 
filings with no new federal statutes is not clear, other than 
in bankruptcy. As you know bankruptcy filings are now over 
1,100,000 a year. We projected two years ago that they'd hit 
1,000,000. Now, they're already 1,100,000.
    But the civil cases are up in part, I think, because of the 
awareness that the discovery rules in the Federal Court make 
this an advantageous forum for litigants.
    Justice Souter. May I throw out just a couple of anecdotal 
thoughts on that? And they are purely anecdotal. I think that 
we have to consider the fact that sometimes civil causes of 
action, like Constitutional causes of action, for reasons that 
sometimes it's hard to understand, at least on a legal plane as 
opposed to a social plane, just lay dormant for a long time 
before somebody wakes up to them.
    I remember years ago hearing former Solicitor General 
Griswold describe how, as a young man, he once mentioned voting 
rights to either a teacher or someone who was older than he 
was. And the response that he got was, oh yes, that's the right 
they don't enforce. And Dean Griswold said that he found that 
strange and irritating. Well, look at the voting rights 
litigation today.
    Another example I came upon oddly enough at breakfast this 
morning. I was reading through last Sunday's New York Times 
Magazine, which is devoted largely to aging, a subject whose 
interest increases for me every year. I started reading the 
article on age discrimination litigation.
    The person who wrote it said when age discrimination was 
included along with others in the bill of whatever it was 30 
years ago that established basically the cause of action for 
it, nobody really noticed. There was very little litigation 
about age discrimination.
    Well, now the baby boomers are getting older. And there is 
a lot of age discrimination litigation going on. So, frequently 
these opportunities for civil litigation at the federal level 
just sit there for a long time until society or people with 
good ideas catch up to them and then they catch on.
    It may well be that a part of the explanation that we don't 
have in a systematic way may depend on sort of catch-up sorts 
of discoveries like these.
    Justice Kennedy. There are federal statutes that are on the 
books that remarkably reduce civil litigation. One is the 
Federal Arbitration Act. If you buy an automobile, if you buy 
stock from a stockbroker, if you go into a hospital and you 
sign these forms, you waive your right to sue. You go to 
arbitration, and this is a federal law.
    We have interpreted the law according to what it says and 
the states can't do anything about it. If that law would 
change, the states would certainly and perhaps the Federal 
Courts would see a tremendous increase in litigation. At some 
point, Congress ought to determine whether or not it's wise 
policy to be deferring so much litigation to the arbitral 
process.
    Judges, of course, like it because it reduces their 
workload. But it has serious policy implications. And I think 
the Congress ought to be aware of what's happening in the 
arbitration area.

                               federalism

    Mr. Rogers.  What is your sense of the overall balance of 
the workload in the courts between the States and the Federal 
system? Are we at the right balance, or are there issues that 
need to be aired?
    Justice Kennedy. Roughly 95 percent of the litigation--
criminal and civil--is in the state system. Again, federal 
criminal offenses are of the more serious character. I think 
under 4 percent of the felony trials in this country are in 
Federal Courts, yet we have 10 percent of the prisoners in our 
prison system.
    We have, in some of our recent cases, indicated that 
Congress must be very careful with reference to the federal 
balance. That the framers, after all, devised the federal 
system not just as a workload division, but in order to 
preserve the freedom of the citizens, so that the citizen can 
have a very direct contact with his or her government. That's 
the meaning of federalism. And the Court, in recent years, has 
reaffirmed that the states have certain areas of concern that 
must be left to them. So, we are continuing to explore the 
federal balance, but in large part the federal balance is 
remitted to the Congress.
    We have very few cases on the subject and can do very 
little about it. Congress must come to a sense of what is the 
appropriate balance. If we have 95 percent of the litigation in 
the state courts, that seems to me not an astounding federal 
intrusion.
    But as Justice Souter has indicated, you're not sure how 
some of these new federal acts will be interpreted and 
discovered to alter that balance.

                          mandatory sentencing

    Mr. Rogers.  One that has proved somewhat controversial is 
the sentencing guidelines, the mandatory sentencing, that 
Congress enacted sometime back. Do we need to take a second 
look at that procedure?
    Justice Kennedy. You're quite correct to identify that 
there are two problems; the sentencing guidelines and mandatory 
sentences. So far as the guidelines, I've always said the only 
thing worse than sentencing under the guidelines is sentencing 
without them.
    The perception and the fact, the reality, was that there 
was a lot of disparity in the sentencing depending on the Judge 
that you appeared before. And this was unfortunate. The 
sentencing guidelines, as complex, mechanical, and 
statistically oriented as they are, I think brought some 
balance into the system. Mandatory sentences are a quite 
different matter. I do not think that Judges should have their 
sentencing discretion controlled by mandatory sentences.
    We talk to the United States Marshals who are with us in 
other cities in the United States and they routinely will go to 
a home and take some young 20 year old away. And his mother and 
his relatives say, how long is he going to be gone? And they'll 
say 15 years. Why a 20 year old doesn't know how long 15 years 
is.
    And if you have a certain amount of drugs, plus your 
hunting rifle, plus a friend in the distribution network, these 
add up to a mandatory 15-year sentence for a first offense. And 
some Judges have resigned over this issue in a very principled 
way. Others have wept when they've imposed the decisions. I do 
not like mandatory sentences. I think they can lead to 
injustice.
    Mr. Rogers.  Justice Souter.
    Justice Souter. Well, I can only echo that. I've never been 
a Federal Trial Judge so I have never personally done 
sentencing under the Federal Mandatory Minimums. But I know 
that in talking with the Trial Judges that I do at Circuit 
Conferences over the years, the principal concern is with the 
mandatory minimums because a substantial number, maybe all of 
the Judges, simply believe that ultimately they become 
instruments of injustice. I find that plausible because I was a 
State Trial Judge once, and I remember going through 
sentencing. And without getting bogged down in details, there 
was--I remember I had a general rule as a Sentencing Judge.
    I made no exceptions to it because I thought there was a 
very good, as we would now say, systemic reason for not making 
exceptions to it. The day came when I had to make one. I had 
someone in front of me whom, had I sentenced according to my 
general rules, I would have damaged so badly that it would have 
been unconscionable.
    And I had to sit there in open court and say, I have this 
general rule, for the exercise of my discretion in sentencing, 
but this is the case in which I cannot apply it. It would be 
wrong. A Federal Judge, under sentencing guidelines, cannot do 
what I did. The Sentencing Judge would have to do the wrong 
thing.
    And there are a lot of District Judges out there who 
believe they are forced into that position too much of the 
time. Presumptive sentencing is one thing, but absolute 
mandatory minimums are another thing. And of course, we're 
talking about really the first time offender.
    Justice Kennedy. There is no question that by incarcerating 
and incapacitating career criminals, society is safer. If you 
go down to the cell block and talk to new prisoners in any 
prison, federal prison or state prison, and say how many 
felonies did you commit in the year before the felony that you 
were arrested for, they will say 12; basically one serious 
felony a month.
    Burglars, I guess, they commit 30 burglaries for every one 
they're caught for. So, if you factor that in, there are some 
good reasons for incapacitating them. And the same thing 
happens in the drug system. It's necessary to incarcerate bad 
people.
    On the other hand the mandatory guidelines give the Judge 
no discretion for the exercise of that humanity and that 
compassion on which the laws are ultimately based.

                       dividing the ninth circuit

    Mr. Rogers.  On somewhat of a parochial question; there has 
been discussion about dividing up the Ninth Circuit, separating 
California from the other states in the West. Given your 
background in that state, what do you think about that?
    Justice Kennedy. I was on the Ninth Circuit. As you know 
it's a 28-Judge Court for nine states. It has over 22 percent 
of the nation's judicial business. The way it is now structured 
a three-Judge panel with one Judge dissenting can in effect 
bind over 20 percent of the nation's population to a decision.
    That Court, in my view, should take En Banc cases and 
invoke En Banc procedures more often. I am seriously concerned 
about the ability to attract a Judge who is a practicing 
lawyer, say, to become the Junior Judge on a 28-Judge Court. 
And I think we ought to look very hard at dividing the Ninth 
Circuit.
    I understand there is a Commission that's been appointed or 
being proposed for that purpose. And I'm going to await that 
report. The difficult problem, Mr. Chairman, as you know, is 
the State of California with its population of over 30 million 
people. It would require probably 15 Judges, so then you have a 
fairly big circuit just with that one state.
    The sensible way to do it, just from the workload 
standpoint, would be to divide the State of California as well, 
but then you would have to have some mechanisms for an inter- 
Circuit reconciliation of Public Law decisions that affect the 
State of California that come out differently.
    So, it's a complex problem. I know the Judges in that 
Circuit are very dedicated and many of them oppose the idea of 
a split. But my--when I originally came on that Court, I 
thought that we should experiment with a large Circuit to see 
if we could find some efficiencies in the allocation of 
Judgeship resources.
    I've now come to the conclusion that the Circuit is larger 
than it ought to be for that collegiality, that deliberation, 
that accountability that's required of a Circuit Court. I 
recognize most of the Judges in the Ninth Circuit do not share 
that view. And I'm willing to await the report of the 
Commission.
    Mr. Rogers.  Justice Souter, what do you think about the 
West Coast?
    Justice Souter. I echo what Justice Kennedy says about the 
West Coast. I don't have, as you probably know, I don't have 
any personal experience with the Ninth Circuit. So, I have 
nothing that I can usefully add.
    Mr. Rogers.  Mr. Latham.

                      TELEVISING COURT PROCEEDINGS

    Mr. Latham.  I'd like to return to the line of questioning 
you had earlier regarding television in the Court. I was 
interested when you talked about tapes, that after five years 
or after the session was over with, are now available for 
educational uses.
    If you were to hear proceedings and then grant a release, 
let's say, five years later in the same way you do now with the 
audio system, would that affect your line of questioning 
knowing that someday it was found to be helpful?
    Justice Souter. Well, in part, I think that would depend on 
whether I could control the use of the tapes after they got 
out. Because part of the line of questioning problem is not the 
impression that would be given by a complete hearing or 
screening or taping, but by the problem of editing and 
excerpting. I suppose with a long delay the temptation to edit 
and excerpt for the same of sort of the immediate entertainment 
value will wane. But I suppose it's still the case that 
ultimately whether it's going to be used for good or ill is 
going to depend on whether there is editing and who does it.
    The fact is that there has never been much of any problem 
that I know of in the audio tape because it just doesn't 
present the kind of temptation to be an entertainment vehicle 
which the visual image brings to it. So, personally I wouldn't 
take the chance. The proceedings are public. Anybody can walk 
in off the street and hear a Supreme Court argument.
    They have to wait in line. They have to get there early for 
a given case, but anybody can get in. The audio tapes are made 
available as soon as the term is over now. I just wouldn't take 
a chance on losing, what I described a moment ago, that it was 
important to preserve in the process.
    Mr. Latham.  So, you think it could possibly have an effect 
on your line of questioning?
    Justice Kennedy. Yes. I think it could. We have to be 
frank. I think we value our relative anonymity. It's helpful to 
us in day-to-day life and for security reasons. It's helpful 
for us to do our work and to concentrate on writing our opinion 
without a lot of distractions.
    Justice Souter. That's true.
    Mr. Latham.  Thank you.
    Mr. Rogers.  We have had the pleasure of having C-SPAN with 
us today and I don't think it's hindered either one of you. 
Perhaps without the cameras, it would more likely show a 
different perspective.
    Justice Souter. We'll never know.
    Mr. Rogers.  Well, we're thankful for your being here 
today. This is probably the only interface that exists between 
these two Branches of government. It is a unique situation that 
we are in on this Subcommittee of the Committee on 
Appropriations, to appropriate funds for a whole separate 
Branch.
    And the framers of the Constitution couldn't get around 
that fact that there has to be somebody that counts the dollars 
and decides how to spend it in some fashion. It's always been 
the policy of this Subcommittee, and frankly of the Congress, 
to give the Court, the Supreme Court especially, its budget 
without too many questions.
    So, we don't want to be seen as in any way trying to push 
some position of the Court. So, we will be generous and do the 
best we can, especially on the security needs of the Supreme 
Court that should be taken care of without any doubt or 
question.
    Justice Kennedy. Well, thank you, Mr. Chairman. The framers 
of the Constitution were quite conscious of the fact that the 
Congress, at various points in the exercise of its 
responsibilities, is the last in line and must exercise its 
Constitutional responsibilities in a principled fashion.
    And the Congress of the United States has done that for 200 
years. And we appreciate being a very small part of that 
history and of that process. Thank you for your courtesy.
    Mr. Rogers.  Thank you both. Thank you very much. We will 
be in recess for five minutes.

[Pages 26 - 27--The official Committee record contains additional material here.]


                                          Thursday, March 13, 1997.

                   SUPREME COURT OF THE UNITED STATES

                    CARE OF THE BUILDING AND GROUNDS

                               WITNESSES

ALAN M. HANTMAN, ARCHITECT OF THE CAPITOL
W. STUART PREGNALL III, BUDGET OFFICER

    Mr. Rogers.  The hearing will come to order.
    We are pleased to have with us and I congratulate, the new 
Architect of the Capitol, Alan Hantman, who has jurisdiction 
over the care of the Supreme Court building and grounds. Mr. 
Hantman, welcome.
    We will make your written statement a part of the record, 
and if you would like to summarize your statement briefly, will 
you please begin.

                           Opening Statement

    Mr. Hantman.  Thank you. First, may I introduce Stuart 
Pregnall, our Budget Officer. And we have behind us a crew of 
people who are very competent in their areas. Dan Hanlon, 
Director of Engineering; William Holmes, our Superintendent of 
Construction; and Jim Miller, who is the Building Facilities 
Manager for the Supreme Court.
    As you well know, Mr. Chairman, under provisions of Public 
Law 101-163 which was enacted on November 21, 1989, I was named 
the primary candidate of three candidates sent to the President 
for consideration for the bipartisan, bicameral, Architect of 
the Capitol Search Commission.
    I've been greatly honored by the faith the Commission 
placed in me through their recommendation, by the President's 
formal nomination, and by the subsequent confirmation by the 
Senate.
    I officially assumed my duties on February 3rd; just over a 
month ago. And as you can appreciate, the process of mastering 
the complexities of my new position will take a bit longer than 
that.
    Mr. Chairman, as you know, a significant part of the 
responsibility of the Architect of the Capitol was given by the 
authority of the Act of May 7, 1934. And that's for the 
Judiciary Branch, which encompasses the structural, mechanical 
care of the United States Supreme Court building and grounds. 
And clearly that's the reason for my appearance before this 
Committee today.
    We are not charged with responsibility for custodial care, 
which is under the jurisdiction of the Marshal of the Supreme 
Court, and is provided for in the Supreme Court's salaries and 
expenses appropriation.
    The core mission of the AOC is to provide for the Congress, 
as well as the Judiciary, on a bicameral, non-partisan basis, 
expertise and advice relating to preserving the physical 
environment and operating the infrastructure supporting the 
jurisdictional areas.
    In so doing, the AOC utilizes staff and consultants with 
architectural and engineering professional expertise to provide 
the Congress and the Judiciary with appropriate, timely, and 
cost effective recommendations.

                      building improvements study

    This is precisely why the new budget includes $225,000 for 
a study of building improvements and utility system upgrades. 
As Justice Kennedy stated, the need for this is readily 
apparent and is supported by the Court in full. As you know, 
the Supreme Court building was initially occupied in 1935.
    And there have been various alterations to the building 
systems in that time. The roof was worked on some 15 years ago. 
The marble terrace pavers have been taken care of. But a 
complete evaluation and upgrade of all systems within the 
building has not been performed. After more than 60 years of 
operation I believe this will be a prudent path to follow.
    It's anticipated that this will confirm the need to replace 
systems such as outdated electrical equipment and wiring, the 
installation of new conduits and wire ways for data and 
telecommunications, installation of high efficiency lighting, 
security, and HVAC improvements, plumbing systems, ADA 
compliance.
    The Schematic Design Study that we're requesting in this 
budget will be submitted to the Supreme Court Officials in 1998 
for approval with the likely request for fiscal year 1999 to 
follow, which would include approximately $2 million to prepare 
full detailed architectural and engineering drawings, which 
would serve as the basis for an accurate estimate for follow 
through on construction funding which would come in the year 
2000 and beyond.
    This would be done in the context of a five-year capital 
budget for the care of the building and grounds of the Supreme 
Court. Now, this was a process wisely begun by Bill Ensign who 
has recently retired as Acting Architect of the Capitol. I 
applaud Mr. Ensign for having initiated this systematic, 
agency-wide planning effort, which has also included in-depth 
involvement by all of the managers and their clients.
    This effort has been coordinated with the Marshal and 
approved by the Chief Justice. The budget presented to you 
today was, of course, prepared under the stewardship of Mr. 
Ensign. And I'm in the process of evaluating these needs in 
detail, reviewing the priority level assigned to them, and 
assessing their budgetary implications.
    As a point of information, please note that a request for 
$130,000 is being removed from the budget request for 
prototypical development of a lab for the data systems office. 
This can be dealt with internally and will not be a part of the 
final budget. Also, a request of $20,000 for uniforms is 
withdrawn.
    I look forward to working with this Subcommittee on this 
process as it continues, and I'd be pleased to answer whatever 
questions I can at this point.
    [The biography and statement of Mr. Hantman follows:]

[Pages 32 - 41--The official Committee record contains additional material here.]


                      capital reinvestment issues

    Mr. Rogers.  Thank you for your testimony. I know, as 
you've said, your budget was not prepared under your watch, 
since you've just come on board. But you're starting out with a 
bang as your request reflects a 43 percent increase in the 
budget prepared for the building and the grounds of the Supreme 
Court.
    How is it that decision was made to request a whole series 
of facility projects, eight in number, compared to what was in 
last year's budget?
    Mr. Hantman.  I think that there has clearly been a drive 
within the Congress and all agencies that work with the 
Congress to keep the budgets down; to make sure that issues are 
not brought before Congressional committees that, in all 
likelihood, would not be approved.
    When I testified before the House Subcommittee on the 
Legislative Branch, similar questions were asked. The budget 
overall for the Capitol Complex was structured to be something 
like $54 million, up from $14 million in the prior year.
    One of the cases I try to put forth more clearly is we're 
dealing with an aging infrastructure here. Clearly, 1935 for 
the Supreme Court is one date that we've heard. Certainly, the 
U.S. Capitol goes back a lot further than that as do some of 
the Library buildings.
    My sense is that over the past several years, some of the 
cyclical maintenance issues have really not been dealt with as 
they probably should have been. We tried to deal with the 
issues on a case-by-case basis in terms of the merits of each 
individual project for which that funding is requested.
    But before the Appropriations Committee, I did try to give 
a benchmark that gave us some sense of the magnitude of dollars 
that might need to be reinvested for cyclical maintenance of 
this aging infrastructure. And I referred to a study that had 
been done back in 1992. I tried to compare similar campuses, if 
you will.
    And three university campuses were measured and discussed 
in terms of what kind of reinvestment do they make on an annual 
basis relative to the value of their campus. The percentage 
investment was 1.7% of replacement value as an average of those 
campuses, in terms of dollars that they reinvest on an annual 
basis.
    If we look at the total value of the Capitol Complex, we're 
looking at a value conservatively estimated in excess of $3 
billion. So, the argument there was 1.7 percent of $3 billion 
was roughly $50 million a year.
    If we look at the Supreme Court, although Justice Kennedy 
mentioned that there was roughly a $9 million cost in 1935; 
back when the study was done in 1992, the replacement value for 
the Supreme Court was estimated to be in the range of $170 
million to $175 million.
    If we escalate that to today's dollars, we're talking in 
the range of $200 million as a replacement value for the 
building. If we look at the 1.7 percent value on $200 million 
that's roughly $3.5 million per year, on an average, that might 
be a reasonable number to take a look at in terms of 
reinvestment in the basic infrastructure. That's the facades, 
the roofs, the electrical and mechanical equipment in the 
building.
    Clearly, when we look at the charts over the past several 
years, for 1997 there was an estimate of $410,000 requested. 
1996 was $565,000; $260,000 in 1995; fairly low levels of 
expenditure for keeping a facility of that magnitude and value 
up.
    A building of 60 years old needs to be inspected in real 
detail. Then we can come back to you and come back to the 
Supreme Court with issues that really make sense. That is, 
whether it's an ADA compliance issue; whether it's other 
regulatory issues that we need to comply with; whether it's a 
new communication age that needs to be taken into account, or 
life safety issues.
    All of these issues, as well as replacement of mechanical 
equipment are things that need to be looked at. So, I certainly 
support Justice Kennedy's comment that certainly the study at a 
minimum should be funded. In time, my sense is that the $20 
million that goes out in the five-year plan may well be an 
order of magnitude that goes up or goes down.
    It's really just a target at this point. And our intention 
is certainly that this five-year plan gets updated on an annual 
basis. So that we're trying to give this Committee a real 
target to look at over time and see how it fits into an overall 
package of upgrading and maintaining this facility as it should 
be.
    Mr. Rogers.  Well, it's quite a shocker, a total of 
$26,754,000 over the next five years just for the building and 
grounds of the Supreme Court. Having gone through what you've 
just said about the total value, it's still a shocker.
    But I do congratulate you on five years of a capital budget 
outline as a part of the budget this year. Can you give us a 
little bit of the reason why you went to a capital budget 
system?

                         5-year capital budget

    Mr. Hantman.  Once again, Bill Ensign did initiate this 
project and the five-year plan prior to my coming on. We're 
actually speaking about putting band aids and Scotch tape on 
problems on an annual basis, I don't think that was really 
doing justice to this subcommittee or to any of the other 
appropriations subcommittees.
    To see just a little snapshot in time of what's needed 
right now I think, again, we really need to take a look at the 
big picture; what needs to be done for all of our buildings, 
the Supreme Court, the Library of Congress, the entire Capitol 
Complex that we have here and try to put it into a perspective 
that makes sense.
    Whether we try to measure it against a benchmark of true 
replacement value or reinvestment of cyclical costs, we need 
still to take project-by-project and evaluate it for its 
merits. And that's what we plan to do. We're going to look at 
all of these projects, come back to you, and have the back-up 
that says why we are recommending to you, sir, that we need to 
expend dollars of this nature.
    Mr. Rogers.  Your capital budget request includes $225,000 
to do the initial study for building improvements and utility 
systems upgrades for the Court. I know you weren't here, but a 
similar study was proposed last year on which we deferred. Last 
year the estimated cost of the improvements that would come out 
of the study were $7 million. This year it's $22 million 
estimated; more than triple from just last year. What's the 
reason for that huge increase?
    Mr. Hantman.  I'd have to defer to my Budget Officer on 
that.
    Mr. Pregnall.  Mr. Chairman, as we undertook this full 
building-wide analysis of all of the systems, we incorporated 
the talents of all of our engineers, our Facility Manager 
there, our Architectural Division, and we talked with the 
Marshal and his staff to find out exactly what the Court might 
have in the way of projected needs in the future for some of 
their infrastructure requirements.
    As you heard, the Justices this morning discussed their 
needs for increased computer and telecommunications support. 
The building does not now support pathways to install those 
wiring situations. We need to find architecturally sensitive 
solutions that can provide those pathways.
    We've also undertaken a full-scale systematic analysis of 
all of the systems in the building; HVAC, electrical, and so 
forth. Based on our order of magnitude, best guess at this 
time, and using similar renovations that we've done in the 
Cannon and Longworth House Office Buildings, the Russell Senate 
Office Building, we now feel that $20 million is an order of 
magnitude range of cost.
    The schematic design will give us more facts to bring back 
to this Subcommittee next year when we ask for design funding. 
And that design will, as Mr. Hantman stated, give us firm 
project cost estimates which we will then bring to the 
Committee when we ask for construction funding.
    Mr. Rogers.  We have a vote on the Floor. I must go 
register my vote and I will be back in just a few minutes. So, 
we will stand in recess for a few minutes.
    [Recess.]

            building improvements study, further discussion

    Mr. Rogers.  We're back on the record. Give us a summary or 
a brief description, if you will, of the components of the 
project, and a rough idea of the cost of those components.
    Mr. Hantman.  Of the study projects?
    Mr. Rogers.  On the building and grounds--the overall 
project.
    Mr. Hantman.  Well, the project is going to include, most 
likely, the replacement of outdated electrical equipment and 
wiring; the installation of increased and improved conduits and 
wire ways for data and telecommunications; replacement 
lighting, modern, high efficiency lighting. There will be a 
cost saving accrued from that.
    I think our study came back indicting that new lighting 
supplied on the House and the Senate sides will approximate 
close to $1 million savings in energy efficiency. Security 
issues and improvements are a part of that, as well as HVAC, 
that's heating, ventilating, air conditioning improvements, to 
improve control and energy efficiency.
    Renovations to the plumbing system, 60-plus year old 
plumbing system. One of the worst enemies of an architect or an 
engineer, Mr. Chairman, is water; whether it's internal water 
through a plumbing system or external water that comes through 
the facade.
    It has no mercy on any building and it is something that 
needs to be addressed clearly. The nature of the water in the 
District, especially, we're talking about pipes that do clog up 
fairly quickly. The high chlorine level in the pipes also 
causes problems in terms of the zinc leaching out from some of 
the fittings and things of that nature.
    These are issues we've looked at in some of the other 
buildings that Mr. Pregnall has mentioned. And my instinct is 
we're going to find them in the Supreme Court as well. We will 
also be looking at modifications and compliance with ADA and 
other pertinent code requirements. We're basically going to 
have to bring this building up to the 21st Century. That's the 
sense of it.
    Mr. Rogers.  Any external improvements or projects?
    Mr. Hantman.  Stuart?

                         security improvements

    Mr. Pregnall.  Mr. Chairman, in fiscal year 1999 we have a 
guesstimate at this point, quite frankly, of $1 million for 
perimeter security improvements. That estimate will be refined 
based on a study which is now underway that was discussed 
earlier today.
    Once that design is completed, the evaluation of what needs 
to be done will be gone over with the Marshal of the Court. We 
will bring that to the Justices and we'll bring back any 
recommendations that may come out of that study to this 
Subcommittee as we prepare our fiscal year 1999 budget.
    We do have some existing exterior security improvements 
underway at this time. This Committee funded guard houses in 
the last fiscal year. That's underway at this time. But 
additional security improvements, those will be added in the 
future.
    Mr. Rogers.  Well, I was over at the Court yesterday for a 
meeting of the Judicial Conference and I noticed that the 
marble plaza in front of the Court had noticeable deterioration, I 
gather from freezing and all of that. It's quite rough over there. I 
was wondering if that was in here?
    Mr. Hantman.  I think the schematic building study should 
certainly address items like that. And if remediation is 
needed, that certainly would be the case. But in terms of the 
site information that Mr. Pregnall just talked about, it is 
quite separate from the dollars that Justice Kennedy was 
talking about for his internal forces and internal security.
    A task group has been created of the Capitol Police Board 
and others to study security issues campus-wide; perimeter 
security issues. And I'm well-aware that the Library of 
Congress also has just retained a new security person two weeks 
ago.
    We're going to be working together in the Legislative 
Branch to try to come up with something that makes sense to 
satisfy the needs of the individual buildings such as the 
Library of Congress, the Capitol, all of the office buildings, 
as well as taking a look at a comprehensive plan for the entire 
complex.

                            Closing Comments

    Mr. Rogers.  Well, Mr. Hantman, you've certainly grabbed 
our attention with your proposal, because of the dollar 
figures. I'm sure we will be discussing this in greater detail 
as we go along. We look forward to working with you. I 
congratulate you on your position. I wish you well.
    Mr. Hantman.  Thank you very much, Mr. Chairman. It is a 
pleasure to be here.
    Mr. Rogers.  It is good to have you with us. We're 
adjourned.
                                           Thursday, March 6, 1997.

                               JUDICIARY

                               WITNESSES

JUDGE JOHN G. HEYBURN II, UNITED STATES DISTRICT COURT, DISTRICT OF 
    WESTERN KENTUCKY, CHAIRMAN, JUDICIAL CONFERENCE COMMITTEE ON THE 
    BUDGET
JUDGE WILLIAM G. YOUNG, UNITED STATES DISTRICT COURT, DISTRICT OF 
    MASSACHUSETTS, CO-CHAIRMAN, JUDICIAL CONFERENCE COMMITTEE ON THE 
    BUDGET, ECONOMY SUBCOMMITTEE
LEONIDAS RALPH MECHAM, DIRECTOR, ADMINISTRATIVE OFFICE OF THE U.S. 
    COURTS
JUDGE RYA W. ZOBEL, UNITED STATES DISTRICT COURT, DISTRICT OF 
    MASSACHUSETTS, DIRECTOR, FEDERAL JUDICIAL CENTER

                      Chairman's Opening Statement

    Mr. Rogers. The Committee will come to order.
    We are pleased to welcome to the Subcommittee the 
distinguished members of the Federal Judiciary to discuss the 
Judiciary's fiscal year 1998 budget request. I am particularly 
pleased today to have Judge John Heyburn, a fellow Kentuckian, 
graduate of my own alma mater and a personal friend, who has 
been ably serving the people of our state for many years, most 
recently as the District Court Judge for Western Kentucky. He 
is appearing before us today in his new capacity as Chairman of 
the Judicial Conference Committee on the Budget and so, John, 
we want to congratulate you on that lofty chore. In the Army, 
we had another name for that job.
    Also joining us are two very distinguished jurists from the 
U.S. District Court in Massachusetts, Judge William Young, the 
Co-Chairman of the Judicial Conference Budget Committee, 
Economy Subcommittee, and Judge Rya Zobel, the Director of the 
Federal Judicial Center. And accompanying them is Leonidas 
Ralph Mecham, who in his capacity as Director of the 
Administrative Office of the U.S. Courts has ably appeared 
before this Subcommittee for the past two or three years.
    We are pleased to have all of you here today and many of 
your staff people as well.
    Judge Heyburn, if you would like to proceed with your 
opening statement, and if the other panelists would like to 
make additional comments, we would welcome them and we will 
insert your written prepared statements into the record. If you 
would like to informally summarize them, that would be 
preferred.

                    Statement of Judge John Heyburn

    Judge Heyburn. Thank you very much, Mr. Chairman. I do have 
a few words I would like to say because this is my first time 
to appear before you and it is for me personally indeed an 
honor and a privilege in two respects.
    First, to appear on behalf of the Judiciary, representing 
the many fine men and women of the third branch who do so much 
to assure equal justice to law-abiding citizens and swift 
punishment for those who are not. And, second, to appear before 
you, Mr. Chairman, for whom I have such great personal 
admiration and friendship. That makes this a special privilege 
for me. It really is.
    I want to thank you also for the appropriation that we 
received last year. While we did not receive everything that we 
requested, after the fee collections and the carryover and with 
the aid of what we believe to be sound conservative management 
of our resources, we were able to adequately cover our 
essential services.
    I am particularly pleased to say to you that we have set 
our request for FY 1998 at a 7.8 percent increase over the 
estimated FY 1997 obligated funds. It is certainly our lowest 
appropriations request in 12 years, and I am happy about that.

                 dual responsibilities of the judiciary

    We have accomplished this, I believe, by carefully 
balancing our dual responsibilities as an independent 
constitutional branch. The first of these is our essential role 
in law enforcement which the statutes and the Constitution 
require. And the second, which we take equally seriously, is to 
spend taxpayer dollars wisely.
    The first among these responsibilities is law enforcement 
and those responsibilities, as you know, have continued to 
increase as the complexity and the number of cases have risen 
each year. Those under supervision or probation are at an all-
time high. The Justice Department continues to bring to bear 
substantial new crime-fighting resources which tend to increase 
our workload and our request recognizes these realities.
    Equally important in my view is our continuing Judiciary-
wide efforts to be more efficient. Our Budget Committee and our 
Economy Subcommittee, of which Judge Young is a co-chairman, is 
leading an effort to sensitize the Judiciary to the new budget 
constraints. We recognize those, we take them seriously, and we 
believe our efforts have already borne fruit. We recognize that 
the search for more efficiency is a continuing one and we are 
not finished with our efforts by a long shot.
    I want to pledge on behalf of the Judiciary to continue to 
make efforts to make more efficient use of courtroom 
facilities, of our personnel and of defender services just to 
mention a few. However, I would be remiss if I did not say that 
there may be a limit to what we can accomplish by diminishing 
the resources to our system which remains today, even with its 
faults, the most accessible and the fairest judicial system in 
the world.
    Although we are a co-equal branch within our constitutional 
system, we are the smallest branch, our role is important but 
it is circumscribed. Our powers are appropriately limited.
    I know of and respect, Mr. Chairman, your deep belief in 
and understanding of these relationships which we have 
discussed. All the more reason, in my view, for the Judiciary 
to receive the limited funds that are necessary for us to do 
our part in law enforcement.
    I want to make a brief mention of judicial compensation. I 
always feel funny about asking for money, particularly when it 
is for myself. And it would be easier for me not to mention 
this at all, I suppose, however I do so without hesitation 
because I believe it is important for the long term good of the 
Judiciary and the country. We don't become judges for the 
money, you know that. But progressive cost of living increases, 
I believe, are vital for judges to maintain their stature in 
the profession and for the Judiciary, over time, to continue to 
recruit outstanding nominees.

           federal judicial center and administrative office

    Before closing, I want to also make a special plea for two 
relatively small accounts in funding terms but big in terms of 
what they do for the Judiciary and that is the Federal Judicial 
Center and the Administrative Office. The FJC's funding, as you 
know, has remained about the same as it was five years ago but 
its work is vital to the Judicial branch and I believe you will 
see that it has worked hard to enhance its record of using 
alternatives to travel-based education in the work that it 
does. We believe that it deserves additional funding.
    The Administrative Office, as you are well aware, is the 
backbone of the administrative and policy support for the 
entire Judicial Branch and it spearheads the efforts to 
economize and make our work more efficient. The Administrative 
Office provides vital personnel, payroll and financial support 
for the courts and has helped us develop some of our new 
automation programs and technologies, such as satellite 
downlink for video conferencing which we hope, over time, is 
going to help us be more efficient. They do invaluable work and 
we think they deserve an increase.
    Mr. Chairman, I would like, as you suggested, to submit my 
written testimony for the record and also that of Judge Zobel 
and Director Mecham. In addition, I am appearing on behalf of 
two other accounts and would like to therefore submit the 
testimony of Chief Judge Glenn L. Archer of the United States 
Court of Appeals for the Federal Circuit and Chief Judge 
Gregory W. Carman of the United States Court of International 
Trade.
    That completes my brief remarks. It is a pleasure to appear 
before you and to work with you in a cooperative spirit for the 
good of our country.
    [The information follows:]


[Pages 50 - 132--The official Committee record contains additional material here.]


    Mr. Rogers. Thank you, Judge. Does anyone else care to say 
anything?
    Mr. Mecham.

                      administrative office needs

    Mr. Mecham. I would like to say one brief word.
    First of all, believe it or not, it is 12 times I have had 
the good fortune of appearing before you. Two times before that 
I appeared before the inestimable John Rooney. I would not have 
been able to appear before him the first time had not Senator 
Jennings Randolph managed to get me confirmed by the Senate 24 
hours after my nomination got up there. If we could just get 
our judges approved that fast, there would be no vacancies.
    But it is an honor, an honor to be here.
    I would just like to stress, as I am sure you know, the 
Judiciary is unique in government. It may have a hierarchy in 
deciding cases but the organization is essentially flat. We 
don't have field offices and therefore the AO, the 
Administrative Office of the U.S. Courts, ends up seeming like 
a headquarters unit, but we don't view ourselves as 
headquarters. Since there really are no field offices, we 
provide the kind of direct support to the courts that, 
traditionally, field offices would supply.
    To support the courts' growing workload, the Judiciary has 
added, through your good offices, about 3,900 people in the 
last two years, but staffing for the Administrative Office has 
gone down 23, even though you were kind enough to increase our 
appropriation last year by 4 percent for the first time in 
several years.
    But we find it difficult when the courts grow and we do 
not, since our work is related to the work of the courts. When 
the courts grow our service needs and responsibilities increase 
and so I would hope that you would look at us with some favor.
    The closest analogy I can figure to our role, is the U.S. 
attorneys and they receive 3.8 percent of their total budget 
for central administration. The FBI receives 5.3 percent; INS, 
7.6 percent; DEA, 7.1 percent. And the Administrative Office 
for the U.S. Courts which is not only our Washington office but 
our field office as well, is only 2.6 percent of the Judiciary 
budget, a third of DEA or INS.
    We are not seeking parity. But we would seek a minor 
increase so that we could get back up, with 23 new positions, 
to our authorized level in FY 1995.
    Thank you, Mr. Chairman, Mr. Mollohan.
    [The information follows:]

[Pages 134 - 145--The official Committee record contains additional material here.]


    Mr. Rogers. Thank you, Mr. Mecham.
    Well, we are happy to have you here again. I know last 
year, or in previous years, you have not gotten as much money 
as you would have liked or perhaps even deserved. But, as Red 
Skelton once said, bad breath is better than no breath at all.
    Mr. Mecham. We have halitosis, Mr. Chairman. [Laughter.]

                   budget presentation in obligations

    Mr. Rogers. This year you are presenting your budget in a 
somewhat different manner than in previous years.
    Tell us what that change is and what you are trying to 
accomplish this time.
    Judge Heyburn.
    Judge Heyburn. The change is that we are presenting our 
budget in terms of obligations rather than merely 
appropriations. I think this symbolizes the cooperative spirit 
of our approach to the budgetary process.
    This was actually a change which, of course as you know, 
the Subcommittee recommended because in your view, and in my 
view, it more accurately represents the expenditures of the 
Judiciary related to a previous year.
    I might also say that it's a positive development because 
it is easier, certainly for me and I assume for you, to see the 
changes in our budget over time. It reflects the reality of the 
way we manage and the way we budget. When we receive an 
appropriation in a particular year it is certainly not our 
objective to spend all of that money in order to then say at 
the end of the year, see, the amount we asked for was the 
correct amount.
    If the money is not needed, if we are able to accomplish by 
good management a savings throughout the year, then that 
produces a carryover. We are proud about that and happy about 
that because it can be used to offset next year's 
appropriation.
    The bottom line is that we look at the budget in terms of 
total obligations as a fairer and more realistic assessment of 
what we are doing from year to year, and we are doing it in 
cooperation with your staff.
    Mr. Rogers. Well, in the current fiscal year, 1997, we 
appropriated $2.566 billion, which was a 5.4 percent increase 
for salaries and expenses instead of the 13 percent increase 
originally requested, and I think you're able to fund about 
every program increase you wanted, even though the 
appropriation is nearly $200 million below the original 
request, is that right?
    Judge Heyburn. Yes, that's correct.
    Mr. Rogers. And that is what you are getting at, that you 
hope to present a more realistic needs-based, bottom line 
budget request, and I think that is the way to go, as you and I 
have talked.
    There is a unique relationship that we are dealing with 
here--one branch of the government funding an independent 
branch, and that presents, you know, the Constitution's basic 
design laying right out in front of us here. It's a sensitive 
kind of balance because I don't want, the Framing Fathers 
didn't want, and neither do you want, to have the Congress 
extorting out of the courts some bias in your rulings on 
something.
    We may want that, but it wouldn't be proper. [Laughter.]
    Mr. Rogers. So we have to respect the independence of the 
two branches, and so it would be very helpful to us 
particularly if we have your honest-to-goodness, bottom line, 
no-holds-barred, honest presentation--which we have always 
had--but I think this method will be better because it will get 
us away from actions that would be interpreted as affecting 
that sensitive balance every year, hopefully.

                       sources of carryover funds

    Judge Heyburn. I agree with you entirely. Let me just say 
that we here today represent two independent branches of our 
Constitutional Government. As I said in my opening statement, 
that gives us certain powers, although under our Constitutional 
system as the forefathers envisioned it, those powers are 
limited and circumscribed.
    It also gives us, I believe, a responsibility, the 
responsibility that you have just discussed. The way that we 
have worked with your staff is, as we get closer to the end of 
the fiscal year, we are able to more specifically define what 
funds we had anticipated needing which may not now be used.
    For instance, who could have foreseen when we made our 
request for FY 1997 that there would be only the few number of 
nominees for Judicial offices confirmed during this fiscal 
year--just something that couldn't be predicted.
    To a certain extent, that is going to result in a carryover 
of funds, and by the time you consider our final appropriation, 
your staff will know exactly what that is.
    There were some other things that happened, even in FY 
1996, that helped us accomplish all our objectives in 1997. 
Because of the Government shutdown we put a stop to certain 
expenditures. That resulted in a larger carryover from FY 1996 
to 1997 and that helped us accomplish, as I suggested, really 
all of our essential objectives even though the appropriation 
was less than we asked for. I would also like to attribute that 
to good management. We appreciate the opportunity to work with 
you in a fair and efficient manner on our funding needs.

          justification for the judiciary's requested increase

    Mr. Rogers. For Salaries and Expenses of the Courts of 
Appeals, District Courts, and other Judicial Services account 
you are requesting $3.067 billion.
    Judge Heyburn. Yes.
    Mr. Rogers. That is an increase of $212 million, or a 7.4 
percent increase.
    Judge Heyburn. Yes.
    Mr. Rogers. Now how can we justify that?
    Judge Heyburn. Well, I think you can justify it this way. I 
try to simplify everything so that I can understand it. For the 
Judiciary as a whole, we are talking about an increase of 
roughly $260 million or so. About $150 million of that, give or 
take, is an adjustment to the base. That is, increases that are 
directly related to inflation, pay increases, increases in 
rent, that sort of thing.
    Now that does include $20 million for Defender Services, 
which I guess you could categorize as an adjustment to base, at 
least I would.
    After that, the additional $110 million, roughly, can be 
broken down into four categories--about $40 million to take 
care of Bankruptcy staffing--as you know we have had a 40 
percent increase in bankruptcy filings over the last two years; 
Probation, $30 million--a very, very important job and there's 
been an increase in the number of folks who are supervised on 
probation, and more importantly, those who are being supervised 
are sometimes coming off longer custody terms than they used to 
so there more serious types of supervision--that's $30 million; 
$20 million for Court Security; and then another $20 million 
for various different smaller increases in workload, reflecting 
enhancements necessitated under our workload formula.
    So that's where it is. One interesting question is what 
will we do if we don't get all the appropriations we are asking 
for and I certainly would be delighted to discuss that with 
you.
    Mr. Rogers. Please do.

                     impact of appropriations cuts

    Judge Heyburn. Well, the answer to that is as follows.
    Number one, let's say for instance that you decided on 
providing us with an appropriation that would give us the same 
increase in appropriations that you gave us last year. That 
would be 7 percent. We are actually asking for 11 percent, so 
that would be 4 percent less. You figure roughly $35 million a 
percentage point so that is a reduction of $140 million.
    The first thing we would do is hope that some of the things 
we have projected to occur don't happen. In other words, we 
would hope that some of the space we anticipate won't come 
along and we will save some money there.
    We don't hope that Judges won't be confirmed but if there 
are fewer Judges confirmed than we think, that saves us money 
also. Of course, you get to a point where there is a serious 
difficulty with that.
    There are a few other items. There's a relatively small 
amount of money in the Court Security area that we are 
negotiating with the Department of Labor, which could save a 
certain amount of money--we'll be letting you know about that 
before the end of the fiscal year. But at that point, even 
assuming we can save a little bit there, we're faced with some 
tough choices.
    Do we underfund Bankruptcy Clerks? There are certain 
consequences of that with the tremendous increase in 
bankruptcies. We don't know the impact of potential cuts 
exactly. We are asking for about 800 new personnel. If we don't 
fund all those, how much will that slow down the processing of 
bankruptcy cases? The increases are mostly in personal 
bankruptcies--how much will a cut slow down the processing of 
those bankruptcies and prevent honest citizens from moving on 
with their lives, getting through bankruptcy, and debtors from 
getting paid? How long can we not fund that before it has a 
real consequence?
    If I knew that answer I would tell you. I really don't.
    In the Probation area, as you know, more people are on 
supervision. We could not fully fund that, I suppose, but we 
have asked for an increase there. That is a very high stress 
job. It involves the security of citizens. There's some risk 
there by not providing adequate supervision.
    Regarding Court Security--our staff has talked with your 
staff. We are in sort of the final stage of implementing the 
Marshal Service security recommendations for the existing 
facilities and for new facilities. We could tinker with that 
recommendation. However, there is a heightened concern about 
security nowadays. Who knows how much is enough security? We 
are constantly revisiting that and who can say whether what we 
have suggested is precisely the right amount, whether we could 
do with less and not incur a substantial risk, but those are 
the kinds of choices that we would have to make. I might have a 
say in them, but the Executive Committee, the Judicial 
Conference would have to make those decisions.

               optimal utilization of judicial resources

    Mr. Rogers. Well, one way to save money of course is 
through efficiencies.
    Judge Heyburn. Yes.
    Mr. Rogers. And last year we asked for a study on the 
optimal utilization of judicial resources, which the 
Administrative Office asked to do itself rather than hiring an 
outside contractor. That was delivered last November.
    Could you summarize the findings in that report for us?
    Judge Heyburn. I would be glad to ask Judge Young to follow 
on after me. He might have a few comments because he is the 
cochairman of the Economy Subcommittee.
    I think this report shows our efficiencies in all of the 
different areas--in automation, the use of contract services 
and temporary personnel, and the space area. We are trying to 
be more sensitive to the fact that space is not a free good, 
that we need to justify it within our own organization. It 
details a variety of different areas where we have become more 
efficient, in some cases saving dollars directly and in other 
cases avoiding additional costs. It's a priority for us. Judge 
Young, do you have a comment perhaps?
    Judge Young. Mr. Chairman, Mr. Mollohan, we took this study 
very seriously. I will simply add, and we can provide more 
detail to the extent you wish, we were also asked to look at 
the distribution of judicial resources. Where the judges are 
located of course we have no control over that. We only make 
recommendations as to where judgeships should be created and 
the like. However, for the first time, as a result of this 
exercise, the Committee on Judicial Resources is looking at the 
necessity of continuing judgeships in certain areas if they are 
no longer needed. That will be considered by the Judicial 
Conference next week. There will also be biennial surveys of 
the actual work to use in considering whether it is advisable 
to continue judgeships in particular areas.
    At the same time, to be absolutely straightforward, there 
are various areas in the country that need additional 
judgeships by anyone's measure, and we are trying to carefully 
scrutinize the formulae that we use to justify that.
    The space area is particularly significant because our 
budget is primarily for personnel and buildings. Judge Heyburn 
said, and I would simply emphasize, that we have put in place a 
space rental cost-containment program. We have undertaken a 
detailed inventory and survey of the various space needs of the 
courts throughout the Nation. We have considered whether we 
need all the court space and indeed all the court locations 
that we presently occupy. As a result of that we have given up 
various locations or space within locations which should save 
us approximately $12 million a year in space rental costs.
    We do not think that is enough, even within the space that 
we presently occupy. Some is special-use space, and by that I 
refer to the courtrooms and the ancillary security facilities, 
the cells for people in custody and the like. That is special 
use. But if you look at the actual space that is occupied, the 
bulk of it is office space, clerks' and probation offices. We 
are aggressively trying to explore whether we can cooperate 
with agencies in the other branch of the Federal Government or 
our cognate State court systems to sublease that space, to the 
extent we are not actually using it at any one period of time. 
We will be able to get it back in the future if we need it. If 
the current trends continue we will need it.
    In automation, we are experimenting with a variety of 
automated services for some of our own infrastructure. We are 
about to roll out a new financial accounting system that will 
put all the courts on the same fiscal accounting system. This 
will facilitate both AO oversight and management in the local 
areas, which is important because much of the savings that we 
talk about are the result of our budget decentralization 
program, a program that puts the responsibility for managing 
the money at the area where it actually is used in the public 
interest.
    Those are some of the steps we have taken. We can identify 
savings in the area of well over $200 million. The bulk of that 
is due to the fact that we operate at well below what 
established workload formulae tell us is appropriate to 
discharge the job that we have to do. And there is a cost to 
that, but we are absorbing that through specific efficiencies.
    I will end by saying we have an ongoing program to identify 
better practices and identify those to the individual courts so 
that we reward efficiency, we do not have a business as usual 
mentality. We can give you much more detail, but those are the 
major areas. I think I can say without hesitation that we are 
seriously trying to identify areas where we can economize 
without affecting the quality of justice, and then to adopt 
those throughout the judiciary.

                     implementation of efficiencies

    Mr. Rogers. What happens to that report now? It is a good 
report, and I think it identifies some very, very usable ideas 
that are already under way or perhaps will be under way. But 
then does it just go on a dusty shelf somewhere?
    Judge Heyburn. I think that it does not. Most of what is in 
the report is already ongoing in some form or fashion, and I 
refer back to my opening statement. We believe that we are 
making efforts to economize and be more efficient, but, I will 
be frank with you, it is an ongoing effort. I think you 
appreciate that you do not implement a plan, you do not 
sensitize an entire branch to be more efficient, and it happens 
the next day. We are constantly pushing the areas that have 
been identified here. We think we have made some progress in 
personnel, space, automation and many other areas. We believe 
that the plans that we have already begun are going to continue 
to help us this year and next year and the year after to be 
more efficient and to be able to request funds that are within 
reason.
    Judge Young. Mr. Chairman, if I could just add briefly, you 
have cut to the heart of it. Judge Heyburn will be overseeing 
implementation of the Optimal Utilization report on an ongoing 
basis. He of course will attend, and for all the time that he 
is chair of our Budget Committee, will attend the meetings of 
the Judicial Conference, which is the governing body of the 
Judiciary. We also ask a member of the Budget Committee to 
attend the educational meetings of the chief district judges.
    The effort to have a cost-benefit analysis apply to every 
step that we take is one that we are trying to implement 
throughout the Judiciary. Let me give an example. One of the 
important things that we are experimenting with, a program 
enhancement, if you will, is to take experience that we have 
had in some huge asbestos cases with electronic filing, and to 
see if we cannot apply that automation technology more 
generally in other courts. Now that means a different way of 
doing business, but there are savings that may be identified 
there.
    I do not promise those savings today. It is too early. Any 
program that we are working on has got to justify itself both 
in the service to the public, the justice component, and also 
in how much it will cost us. I appreciate your comment that it 
is a good report. We will not let it lie. I think you can ask 
us at any stage what we have implemented. Our responsibility, 
and you have recognized it, is to achieve balance between 
justice and efficiency. Those serving on the Economy 
Subcommittee, for instance, must weigh security requirements 
against their cost. You cannot simply have wall-to-wall court 
security officers throughout a courthouse.
    But we are a small branch of government. We know the judges 
and the court family throughout the United States. When 
something like Oklahoma City happens, I know the judges who 
were across the square, and called to see how they were. Now 
that is a small point, but I make it because it demonstrates 
the balance we try to achieve between concern for the court 
family and cost. If we are striking it wrong, we deserve to be 
told. We will follow what we are told. However, we have reasons 
for striking the balance we do.
    Mr. Rogers. Well, I would remind us all that the lady in 
the scales of justice is a very slender lady. In fact some say 
she is skinny. But anyway, we will be asking that question, I 
assure you of that, what have you done lately, and where are 
you and what is happening next, on implementing this report.
    Judge Young. I appreciate it.

                need for judgeships and court facilities

    Mr. Mecham. Mr. Chairman, we could use your help and Mr. 
Mollohan's on a couple of things. We had some judges who 
testified that the Senate did not need to fill some vacancies 
in a court last year, that they had more judges than they 
needed. I regret to say that the local Senators wanted to fill 
those vacancies, and they got them filled. Now I can understand 
that, but we did not need to fill those vacancies.
    Now I think it was Judge Young who mentioned that we have 
come up with some court facilities which we would like to shut 
down. We have already heard from the local Congressmen and 
Senators and mayors. They are saying do not do this, it is a 
matter of community pride. We could use your help on some of 
these things, if you would care to assist us.
    Mr. Rogers. I will be happy to. The study in fact indicates 
that there are at least six visiting facilities that are 
probably not warranted in terms of caseload and that the 
Judicial Conference would review that situation again in the 
near future. What about that, before I yield to Mr. Mollohan?
    Judge Heyburn. The Judicial Conference is meeting next 
week, and they are going to consider criteria for circuit 
judicial councils to use in determining whether to establish or 
maintain a facility without a resident judge. So they are going 
to be discussing that. I do not know what the result will be, 
but this is something we have been asked to do, and this is 
something the Judicial Conference is going to look into.
    [The information follows:]

    At its March 1997 session, the Judicial Conference approved 
criteria to use henceforth for closing facilities without a 
resident judicial officer. The Conference adopted two levels of 
criteria to use in determining whether to establish or maintain 
a facility without a resident judge. The first level of 
criteria will be used to evaluate the necessity of a facility 
and includes (1) the number of miles from the nearest facility 
within the district, (2) the number of days the facility is 
used for court-related proceedings, and (3) the cost per day of 
use. If this first level indicates that a facility should be 
considered for closure, a second level of criteria will be used 
to perform a cost-benefit test. The decision to close a 
facility will be based on the results of this test.
    In addition, the Conference agreed to close facilities in 
the following locations: Clarksdale, Mississippi; Joplin, 
Missouri; St. Joseph, Missouri; Ardmore, Oklahoma; and Guthrie, 
Oklahoma.
    The Conference also agreed to downsize one location as a 
result of the criteria regarding facilities without resident 
judicial officers.

    Mr. Rogers. We can recommend to you, Mr. Mollohan and I can 
recommend to you, a base-closings commission as a way to do 
that.
    Well, Judge Heyburn, welcome to your new position, and 
welcome to all of you. I know at home Judge Heyburn lives in 
Louisville, you are having a tragedy occur there, and this may 
be a record flood in the city of Louisville.
    Judge Heyburn. Yes, close to it.
    Mr. Rogers. We are glad you were able to swim up here to be 
with us.
    Judge Heyburn. Well, we have a few extra people in our 
house, as a matter of fact, so it was just as well that I was 
able to leave. We have double the number of people. Some family 
members had to move in because they were flooded out.
    Mr. Rogers. You are not renting out your bedroom?
    Judge Heyburn. No, so far we are doing it free of charge, 
but if they eat too much food, we may tack on something.
    Mr. Rogers. Mr. Mollohan.

                     impact of judgeship vacancies

    Mr. Mollohan. Thank you, Mr. Chairman.
    Judge Heyburn, Judge Young, Judge Zobel, Mr. Mecham, I 
would like to join the Chairman in welcoming you to the 
Committee.
    Following up on the comments about new judgeships, how has 
the slow approval rate of new judges affected you?
    First of all, what kind of carryover do you project from 
1997 as a result of not having these judgeships?
    Judge Heyburn. Well, of course it affects us in two ways; 
it affects our financial needs and the ability to perform the 
judicial work that we have.
    The current projected carryover assumed in our FY 1998 
request is about $65 million. In terms of the non-
confirmations, I understand there may have been two that were 
passed through today, but if the slow pace continues that will 
increase the carryover and we can calculate that. I am not 
exactly sure what the number is--it's not a huge number in the 
overall scheme of things. Worst case scenario or best case 
scenario, whichever way you look at it, I suppose the carryover 
for judges' salaries could be an additional $2.3 million. Of 
course, there will be an additional amount carried over for the 
salaries of the staff associated with these judges.
    We don't know the nature of the vacancies that may occur 
and the reason they occur, and we don't know the degree of the 
confirmations.
    Of course depending upon the district, the lack of 
confirmations has a serious impact upon the ability to get the 
work done. Looking at the overall scheme of things, that's why 
the caseload and the civil caseload is up, of course. Whenever 
you have a situation where vacancies aren't filled for a long 
time, what happens is you have cases grow older and you have 
many more cases that are pending, as we say. That hurts the 
whole situation. It's hard to catch up and that is a problem.
    Mr. Mollohan. That's common sense, but is it happening out 
there? Do you have any anecdotal evidence of it?
    Judge Heyburn. Yes. You can see that the cases pending in 
certain districts are rising----
    Mr. Mollohan. Where, for example?
    Judge Heyburn. I couldn't tell you exactly. You can ask 
Judge Young.
    Judge Young. Arizona, Eastern New York, Southern Florida, 
West Texas--and many of those are drug courts.
    An interesting example that I am aware of involves a case 
in our district where the City of Phoenix got into a dispute 
with its insurance company. The insurance company started the 
suit in Massachusetts. The City of Phoenix wanted to try it in 
Phoenix. The suit properly can be tried in either district.
    It is appropriate for judges to look at the caseload when 
assigning such cases to courts. The actual cases pending and 
the length of time needed is ranked for the 94 district courts. 
We do this to ourselves. We know just where every district 
court stands as far as speed of disposition and types of cases.
    So when you look at Arizona you see that they warrant more 
judicial resources than they have. A judge must weigh sending 
the case to Arizona, where of course the City wants it, where 
the jury will be empaneled, but where it will not be reached 
for such and such a length of time or keeping it in 
Massachusetts which has its full complement of judges. That has 
been due to the Senior Senator and the President coming from 
the same party. We were behind, but we now have all the judges 
we need and we have worked down the backlog that Judge Heyburn 
refers to.
    We can get that case to trial in Massachusetts, but is that 
what we want? This was an insurance company maneuver, but I 
raise it simply because it shows the analysis judges go 
through. They look to see how fast cases can come to trial.
    Mr. Mollohan. In how many districts is that a problem would 
you estimate?
    Judge Young. Well, at least eight.
    Mr. Mollohan. How many districts have judicial emergencies 
right now?
    Judge Heyburn. Judicial emergencies are defined as a 
judgeship being vacant for 18 months and there are several. I 
have forgotten how many, but I can tell you that the Judicial 
Conference we will be looking at the judgeship legislation and 
they have identified areas where we need 36 new district court 
judges because of the backlog and workload. There are 18 courts 
that have judicial emergencies by the way.
    Mr. Mecham. Out of 94.
    Judge Heyburn. Out of 94 districts. It's a very good 
question. Certain policies or actions sometimes are delayed, 
such as filling judgeships, and both the good effects and the 
bad effects are delayed. If there is a judicial emergency that 
doesn't stop a lawsuit from being filed. It may not even delay 
the beginning of the route to justice, but it could mean that 
it could take forever to get an actual trial date. The 
complications are different in different areas but it is a good 
question. It is something we are concerned about in particular 
districts.

                 courthouse construction and renovation

    Mr. Mollohan. Thank you. You were talking about space a 
little bit. You understand that we don't deal with courthouse 
construction and rehabilitation at this Subcommittee, but I am 
on the Budget Committee and I noted, Mr. Chairman, when the 
budget came through that courthouse construction was zeroed 
out. I think there was some money for renovation though.
    Judge Heyburn. I don't think so.
    Mr. Mollohan. It was zeroed out also?
    Judge Heyburn. I don't know whether that was zeroed out.
    Mr. Mecham. Except for a very small amount.
    Mr. Mollohan. Yes, there was a small amount. Anyway, that 
has got to be a problem and are you all addressing that in the 
appropriate Subcommittees?
    Judge Heyburn. We are. As you probably know, we have been 
asked in the past to scrutinize the courthouse projects that we 
believe were really important for the Judiciary and to 
prioritize them and we have done that. The projects we have 
listed are part of our submittal after calculating the future 
rents and considering how that is going to affect the future 
budget because we think those projects are important.
    We are doing everything we can to convince the appropriate 
persons that they ought to go forward with these projects.
    Mr. Mollohan. Well, at the risk of being accused of trying 
to solicit some self-serving testimony, do you have a list of 
any of those projects?
    Judge Heyburn. There are and I can tell you that of course 
there are some of particular importance.
    The renovation project in Wheeling, West Virginia is on our 
priority list----
    Mr. Mollohan. Did you hear that, Mr. Chairman? [Laughter.]
    Judge Heyburn. There are some other very important projects 
on the list also, but in particular the one from Wheeling is on 
the priority list. It's on there for a reason.
    Mr. Mollohan. Who develops that priority list?
    Judge Heyburn. The Space and Facilities Committee of the 
Judicial Conference.
    Mr. Mecham. With the General Services Administration and 
the local judges and so on.
    Judge Heyburn. And then it is finally approved by the 
Judicial Conference.
    Mr. Mollohan. Would you kindly submit that?
    Judge Heyburn. We would be glad to. Yes, sir.
    [The information follows:]

[Pages 157 - 159--The official Committee record contains additional material here.]


                        fjc's use of technology

    Mr. Mollohan. Thank you. Judge Zobel, you have been awfully 
quiet over there.
    You are involved with some technology and training programs 
incorporating technology into this.
    I know the Committee is interested in that. I wanted to 
give you an opportunity to talk about to what extent you are 
incorporating new technology and telecommunications methods 
into your training program, to what extent you think that's 
going to work, and what are the limitations associated with 
that?
    Judge Zobel. Thank you very much.
    To the extent that justice is a thin lady I can guarantee 
to this Committee that we have been dieting furiously.
    We have for many, many years provided education in the 
technologically advanced way and the education that we provide 
focuses on increasing the expertise and efficiency of judges 
and court staffs.
    We have done it for court staffs for some long period of 
time by means of videos, CD ROMs, multimedia mechanisms, and we 
are now adding to that in a very big way satellite television.
    We did last year, both satellite television program and 
also two-way video, which is really like a telephone conference 
with video. Two-way video does not work very well for the kinds 
of programs that we do, at least as the technology exists now 
because it is very hard to hook-up more than three or four at 
most stations at one time, so we are focusing very much on the 
satellite mechanism whereby we can reach many people all around 
the country for programs that are suitable for that sort of 
thing.
    Not everything is suitable. But we for example did a four 
hour, which was much too long, a four hour program on the new 
habeas and prisoner statutes.
    We intend to do eight such programs this year and the 
coming year. They will focus on providing information such as a 
Supreme Court update, updates on statutes, and so on.
    We can reach many more people by this mechanism than we 
were ever able to reach before. For the first time we are able 
to educate law clerks for example and staff attorneys on 
substantive issues of law, and we are very pleased to have the 
cooperation of the Administrative Office, the Judicial 
Conference committees and the Sentencing Commission, all of 
whom intend to use this technology in conjunction with us.
    Mr. Mollohan. For this effort what is your budget request 
for 1998? Are you asking for any increases?
    Judge Zobel. Well, we are asking for a total increase of 
$930,000--$630,000 of that is simply adjustments to base; 
$300,000 of it is devoted to this effort, $100,000 of it for 
hardware and $200,000 of it for additional personnel to help us 
produce these programs.
    It's a different way of teaching people and it requires 
different expertise, of which we do not now have enough. It 
also requires that additional personnel in order for us to do 
the standard videocassette programs that we project.
    Excuse me--I should add that we have succeeded in reducing 
travel costs and we have done it by given fewer travel-based 
programs and by shortening the time of those that we have put 
on and are putting on.
    Mr. Mollohan. And how much have you reduced travel costs?
    Judge Zobel. We are down from 1995, 22 percent, down by 
$1.2 million so the projected 1998 budget is below $4 million--
$3.9 million for travel, which is a major reduction for us.
    Judge Young. As the Co-Chair of the Economy Subcommittee, 
could I simply add that among their efforts is a very helpful 
effort on training relative to productivity which deals with 
specific courts and is very important.
    Judge Zobel. Also, the education we do really is designed 
to achieve the aims that Judges Heyburn and Young talked about, 
including for example the Conference of Chief District Judges, 
which is one that we put on and is designed to help them become 
more efficient in their courts.

                      death penalty defense costs

    Mr. Mollohan. Thank you. We closed the post-conviction 
offender organizations or the death penalty resource centers 
last year and I would like for you all to comment on the impact 
that has had.
    Judge Heyburn. The impact of closing?
    Mr. Mollohan. Yes, the impact of closing, whether you think 
that is a good thing or a bad thing in your judgment, what you 
think about the availability of representation in those cases, 
and is it available to the extent it's needed, or was the 
Defender Service serving a need that is no longer available?
    Judge Heyburn. As you know, we respectfully said last year 
that we thought it was a bad thing, but we understand that it 
is your job to decide certain matters of policy and we have 
implemented your decision.
    We cannot say at this time whether that change has caused 
additional expense. I am not certain whether we will ever be 
able to tell to what extent, if any, it is causing additional 
expense. We do know that it is difficult to find appropriately 
qualified people to represent the defendants in those kinds of 
cases. But it was difficult before and it is still difficult.
    We have reorganized the way in which defense is provided. 
As you may know, we have recently done a study of defense costs 
related to death penalty cases. The reason we were asked to do 
that study is because it appeared as though the average cost 
per case was increasing. That appears to be true and we wanted 
to find out why that was so.
    We have done a very, very thorough analysis and it is 
difficult to determine exactly why the cost per case is 
increasing. I can offer to you a number of possibilities and we 
are still looking into it. Number one, there are more death 
penalty cases than before and, as time goes on, those cases are 
more mature cases. The expense at the beginning of a case is 
going to be less than the expense one year later in the same 
case as it comes closer to trial.
    Mr. Mollohan. Excuse me, just so I understand that, if you 
allow me to?
    Judge Heyburn. Yes, sure.
    Mr. Mollohan. On a per case basis, you are observing that 
the cost has increased?
    Judge Heyburn. Yes.
    Mr. Mollohan. So there are more of those cases coming, and 
you said perhaps the explanation for the cost increase is that 
as they mature they get more costly?
    Judge Heyburn. Yes.
    Mr. Mollohan. If there are more cases, doesn't that suggest 
the reason there are more cases is because you have more coming 
in the front end?
    Judge Heyburn. That is partly true but, as time goes on--
excuse me.
    Mr. Mollohan. No, no, excuse me. They would be less mature 
and therefore the opposite would be true or am I missing 
something?
    Judge Heyburn. Well, a little bit of both is happening. The 
fact of the matter is that as cases get more mature we think 
the cost per case increases.
    Mr. Mollohan. What is the base period here? You are 
comparing what period with what period saying it is getting 
more expensive?
    Judge Heyburn. Well, I think we are just comparing one 
fiscal year to the next fiscal year.
    Mr. Mollohan. More mature is closer to trial.
    Judge Heyburn. Yes, that is what I mean.
    Mr. Mollohan. You have to invest a lot into these cases to 
begin with and then, of course, more as they come on for trial, 
especially if they don't plead.
    Judge Heyburn. Well, the real increase that we have 
identified is in the death penalty trial case as opposed to the 
habeas.
    Another factor which could come into play is that with 
federal death penalty cases, as you probably know, there is a 
process before the case even begins where the Attorney General 
determines whether the case is to be tried as a death penalty 
case. It has been determined that the defendants are entitled 
to representation during that process. So we have built in an 
entirely new kind of expense that occurs even before the case 
starts, in essence.
    Another factor, and again I am just throwing out some 
possibilities, is that for us as federal judges, these cases 
are new. So it is possible that because we are not used to 
handling death penalty cases we may be taking more time with 
them. We may be doing things that, after some experience, we 
won't do and would result in less defense costs.
    Another factor could be that because of the disbandment of 
the death penalty resources centers, we are getting slightly 
less experienced counsel. We have tried to develop some really 
innovative ways of using the Federal Defenders Office to lessen 
the expense. But it is possible that less experienced counsel 
could raise the cost. These are all possibilities.
    Mr. Mollohan. You will have more to say on this as time 
goes on.
    Judge Heyburn. Yes. And it may be just too early to tell, 
quite frankly. Certainly your initial question about the impact 
of the elimination of the PCDOs is difficult to answer because 
we are barely a year from that and who knows. We will be glad 
to come before you and say that it was a bad idea and wrong if 
that turns out to be the case.
    Judge Zobel. Might I add that the Center is a major player 
in this area as well. As we are speaking here, we are working 
with the Judicial Conference Committee for Defender Services on 
programs to teach judges how to better manage these cases. 
That, of course, has been the focus of a lot of our case 
management programs in the past. But we are now going 
specifically to the death penalty cases and we have also put 
out publications to help judges understand how to deal with 
these cases, focusing really very much on the management part 
of it, we have a clearinghouse for judges so that they can 
learn and thus reduce the learning curve of which Judge Heyburn 
speaks.
    Judge Heyburn. Congressman, I might mention one other 
thing. I think what I am going to mention teaches us all a 
lesson to look at things in a longer term perspective. For 
instance, the new Habeas Reform Act, which many judges think is 
a good idea, is going to help us deal with difficult habeas 
cases easier. But the short-term impact of it is, there is a 
certain deadline before the Act goes into full force, and the 
immediate consequence of it is that more habeas cases are being 
filed which is going to be more of an expense. Now that doesn't 
make the Act a bad idea, it just means that we have to take a 
longer term view of looking at it.
    Mr. Mollohan. Thank you, Mr. Chairman.

                          fjc teleconferences

    Mr. Rogers. Now, Judge Zobel, I have the circular on the 
habeas corpus presentation by satellite teleconference you put 
on. Do you know how many attendees took part in that?
    Judge Zobel. 1,400 is our estimate.
    Mr. Rogers. That is staff and judges?
    Judge Zobel. Law clerks, staff attorneys, judges, some 
clerks.
    Mr. Rogers. How many different cities did you hook up?
    Judge Zobel. I think 80, wasn't it? About 70 to 80.
    Mr. Rogers. Do you think it was a success?
    Judge Zobel. I think it was an enormous success for us. It 
wasn't perfect by any means. Four hours was simply too long. 
One cannot sit and watch television for four hours. I think we 
may not have built in enough question time.
    But it was our very first effort in this regard and, as a 
first effort, I would, without appearing too humble, give us an 
A-plus.
    Mr. Rogers. Was this a two-way conversation?
    Judge Zobel. No, this was satellite.
    Mr. Rogers. Satellite, one way.
    Judge Zobel. Right.
    Mr. Rogers. Could they talk back to you verbally?
    Judge Zobel. We had telephone lines set up for people to 
call in questions.
    Mr. Rogers. And did they do that?
    Judge Zobel. They did do it but we didn't allow enough time 
for it. But people have asked us to have a follow-up sometime 
around nine months down the line and we are working on that.
    Mr. Rogers. Have you done any other teleconferences?
    Judge Zobel. Well, we did one for staff attorneys on case 
closings--or appellate clerks on case closings, which was two-
way. But that becomes really too complicated. We were able to 
do that with enormous effort. We went to 12 different sites and 
it is simply too much. That technology is not yet at the point 
where you can have that many sites.
    Mr. Rogers. Well, I want to encourage you as we have in the 
past. I just think that telecommunications is the way to go 
these days. It is much more inexpensive than travel, not that 
we don't need some travel but we can achieve a lot of the 
everyday things of life so much better, I think, with the 
telecommunications method.
    Judge Zobel. Well, Mr. Chairman, we may have begun 
reluctantly but we very much agree with you and we feel very 
strongly that although there are certain things that can best 
be done in person, there are many, many things that are much 
better done by this technology.
    Mr. Rogers. And the Chief Justice agrees with this.
    Judge Zobel. Yes, and we are doing it.
    Mr. Rogers. And that is no insignificant amount of support.
    Judge Zobel. Right.
    Mr. Rogers. So I hope that we can greatly expand, taking 
advantage of the new ways of communicating, whether it be 
computers or teleconferencing. And lawyers and the legal system 
will be the last thing on earth to take the modern methods of 
communications and I am a lawyer and I am saying that about 
myself as well. But we've got to do it.

                   the ao's teleconferencing program

    Judge Heyburn. Mr. Chairman, I might add, on a smaller 
scale, the AO has identified 21 districts where we believe that 
teleconferencing, because of the economies of scale, can be 
effectively used in prisoner litigation for pretrial 
conferences and that sort of thing. We are just starting that 
program. I think one of the districts in Kentucky is included. 
I don't know who it helps the most. It helps the judges because 
we don't have to go to the state prisons and it helps the state 
attorneys because they don't have to travel around. It does 
help mediate and resolve these disputes.
    Mr. Rogers. I think some of the state courts are utilizing 
television quite extensively both for arraignment.
    Judge Heyburn. Yes.
    Mr. Rogers. As well as appellate hearings perhaps, to some 
degree. And parole hearings.
    Judge Heyburn. That is right.
    Judge Young. One advantage a state court has, of course, is 
they tend to have fewer places of incarceration. Now, our 
places of incarceration are fixed but the people who have the 
right to call the court's attention to their case may be held 
in various places of confinement. The districts are just larger 
and so the equipment has to be present in more places.
    Mr. Rogers. Channel 13 has no problem getting to the scene 
of a fire.
    Judge Heyburn. Maybe we will have to----
    Mr. Rogers. Get you a truck and----
    Judge Heyburn. Sky 11, go directly to the prison.
    Judge Young. We are also experimenting with our own 
intranet and communicating through the Internet with respect to 
our public data. There are security concerns with these 
technologies but I want to make clear that we are trying to use 
all the new methods of communication.

                           courtroom sharing

    Mr. Rogers. We talked briefly about courtroom sharing. We 
didn't get into it in detail. The Optimal Utilization report 
indicates that recommendations about courtroom sharing will be 
made in March to the Conference.
    Tell us briefly what is in the report about the possibility 
of courtroom sharing.
    Judge Young. It will be the report of the Committee on 
Judicial Resources to the Judicial Conference, and the Budget 
Committee concurs with this, that we should continue to provide 
a courtroom for each active judge but that we should analyze 
the ability to share courtrooms among senior judges. Now, we 
have a number of senior judges and 20 percent of our cases are 
processed by senior judges. So that is not an insignificant 
amount. But it is the view of the Judicial Resources Committee 
and the Budget Committee and it will go before the Conference 
that each active district judge should have a courtroom in 
which to conduct judicial business.
    Mr. Rogers. Do the senior judges have their own courtroom?
    Judge Young. Not in every court, but in some. Speaking just 
on my personal knowledge and recognizing that a new building is 
being built in Boston, we have more judicial officers than we 
have courtrooms. So we currently share courtrooms.
    Judge Heyburn. It really varies. For instance, in 
Louisville, Judge Allen, who is a senior judge, does not have 
his own courtroom. That is primarily because we do not have a 
courtroom for him, but also, although he handles about 100 
cases a year, he does not handle trials. Judge Johnstone, who is our 
other senior judge, has a courtroom in Paducah, but because he handles 
only trials he uses it quite extensively. So it really varies from 
judge to judge.
    I might add just as a postscript that in Kentucky, for 
instance, as you know, down in Bowling Green there is no 
sitting Federal judge. Recently I went down for a trial. There 
are two courtrooms down there, one of which was being used by a 
bankruptcy judge, one of which was being used by Judge Russell 
to try a big arson case. So I tried my case in a State 
courthouse for 2 days, and I think that is appropriate. You 
know, it is very seldom that we have three judges there, but 
usually you can make do, and they were glad to accommodate us, 
and we worked it out just fine. I think that is being done 
elsewhere as well.
    Mr. Mecham. You might be interested to know, Mr. Chairman, 
that the senior judges currently carry the fulltime work of an 
equivalent of 102 to 139 district judges, and 25 circuit 
judges. They basically do not have to do any work, they get 
paid anyway, but they are carrying an immense load. If it were 
not for them, the case backlogs would really be colossal, 
especially with the delay in getting new judges confirmed.
    Mr. Rogers. Now, for the record, provide us the current 
schedule of new courthouse space coming on line, and how that 
schedule compares with what is contained in your budget 
submission.
    Judge Heyburn. We can certainly do that, and will do that.
    Mr. Rogers. And also a similar list about the marshals and 
any discrepancies that may exist there.
    Judge Heyburn. Exactly what--we can----
    Mr. Rogers. New space.
    Judge Heyburn. Yes, we can.
    Mr. Rogers. New space for marshals.
    Judge Heyburn. Yes, we can certainly do that, based on the 
additional personnel.
    [The Information follows:]

[Page 167--The official Committee record contains additional material here.]


                           carryover estimate

    Mr. Rogers. I certainly want to commend you for beginning 
to anticipate the availability of carryover in your budget this 
year and for holding $30 million of the carryover until this 
fiscal year for use in fiscal year 1998.
    What is your best current estimate of the total amount of 
carryover that will be available at the end of this current 
fiscal year?
    Judge Heyburn. Our current estimate is $65 million. My 
guess would be that it is going to be more than that. Exactly 
how much it is going to be, I do not know. Let me say that I 
think we would all be better off if the rest of the Government 
operated in terms of how we arrive at our budget. In the spirit 
of cooperation, before we get our appropriation, of course you 
will have our absolute up-to-date best estimate of what the 
carryover will be. As we get closer to the end of the fiscal 
year, we will know better what it is going to be. The positive 
thing about it is that we have no incentive to spend the money 
in order to justify our last year appropriation. Our incentive 
is to only spend what we need and to carry over the rest, 
because it helps us and it certainly helps you in your 
budgeting process.
    Does that respond appropriately?
    Mr. Rogers. Yes.

                  impact of major death penalty cases

    Now, to follow up on Mr. Mollohan's line of questioning, 
the Defender Service account has rapidly rising costs, about 
which we are very concerned. It seems to have moderated in the 
1998 budget request.
    Judge Heyburn. Yes.
    Mr. Rogers. And you talked about the capital case 
phenomenon there.
    Judge Heyburn. Yes.
    Mr. Rogers. But between 1995 and 1996, for example, the 
average cost increased from $62,000 to $104,000.
    Judge Heyburn. Is that on capital cases? Yes, that is 
capital cases. That is exactly what I was talking about 
earlier.
    Mr. Rogers. I am assuming that may have been driven to some 
degree by these spectacular cases like Oklahoma City. How much 
of a factor are these enormous single cases having on that 
figure do you think?
    Judge Heyburn. Well, I think I can answer that in two ways. 
Number 1, it is having an impact, and number 2, we do not know 
precisely yet what that impact is, because while the cases are 
ongoing, the costs are not fully known. But there is no 
question that big cases such as that have a significant impact 
on the Defender budget.
    Judge Young. The judge of course has sealed the 
expenditures in Oklahoma City, lest it reveal the defense 
strategy and we respect that, even though we are responsible 
for paying. We have not questioned such decisions. If you strip 
out inflation, and you strip out workload increases, virtually 
the entire rest of the increase is due to death penalty cases.
    I am in the middle of a death-eligible case. I suspended a 
case regarding two attempted murders that is death-eligible 
because it also involved racketeering and drug conspiracy. Now 
there are 55 death penalties on the Federal books, 55 offenses 
that potentially carry the death penalty. The Attorney General 
decides in every case whether the Government will seek the 
death penalty.
    In every death-eligible case, you must under the statute 
appoint two counsel. Those counsel go through a complicated 
process to see whether the person will be prosecuted in a 
fashion that seeks the death penalty. In my case, having gone 
through this process, they decided not to seek the death 
penalty.
    The cases are long. Using this as an example, we started in 
early February. We will end in late March.
    Mr. Rogers. The Administrative Office of the Courts is 
still not doing an analysis of its actual experience in order 
to give us a firm sense of what is going on with the Defender 
Service increases. I think we can get a better handle on this. 
We must, because we just have to know. I know in certain cases 
like Oklahoma City you are going to have these anomalies take 
place where you do not know, but that is the rarity. I just 
think that we need the AO to give us a better analysis of the 
Defender Service round-up, because that is beginning to eat up 
a big portion of the budget.
    In fact it went from an appropriation of $240 million in 
fiscal year 1995 to $329 million in your current 1998 request, 
and that ain't hay. That is a lot of money.
    Judge Heyburn. The actual expenditures were $305 million in 
1996, $333 million is projected in 1997, and $354 million is 
projected in 1998, roughly. That is in terms of the actual 
expenditure. We were underappropriated in, I think, each year 
and we have transferred funds from our fee accounts into 
Defender Services. But I would agree with you entirely, it is a 
good question. We are trying to be on top of it, and we will 
try to get you the answers you need as soon as we can find out 
what the answers are.
    Mr. Mecham. Mr. Chairman, we are working on the General 
Accounting Office comments on the report. We are modernizing 
the antiquated CJA attorney payment system, which frankly does 
not provide the detailed information we need. We also are 
undertaking a study at the request of Senator Domenici and 
Senator Gregg. We have been looking at 250 death penalty or 
murder-charge cases. We have gone to every court. We are trying 
to isolate the cost for every one. Frankly, we have not had 
very good data to work with.
    Mr. Rogers. Well, we are going to have to get better data, 
because we have got to get a handle on some equation to bring 
this under some sort of cost control. I mean, we cannot sustain 
these kinds of increases, especially that we cannot anticipate.
    Mr. Mecham. I agree with you.

                    need for court security increase

    Mr. Rogers. Now court security was mentioned briefly.
    Judge Heyburn. Yes.
    Mr. Rogers. Why does there remain such a large need to add 
further security officers to existing buildings?
    Judge Heyburn. The reason is that after the bombing in 
Oklahoma City the Marshals Service did a security assessment 
for us. As it turned out, security was deficient in existing 
buildings. Over the two subsequent years we have attempted to 
fully fund those Marshals Service recommendations, and this is 
the last year. If you are able to fully fund our request, that 
will provide the personnel to meet the Marshals Service 
recommendations.
    We have this year requested a $29 million increase in 
obligations for security. About $7 million of that is the 
additions to the base, that is, cost of living.
    Mr. Rogers. What I am getting at is, that the increase here 
is very large.
    Judge Heyburn. Yes.
    Mr. Rogers. From $127 million to $170 million.
    Judge Heyburn. The actual expenditures, the actual 
obligations are $141 million to $170 million.
    Mr. Rogers. Oh, you used some carryover.
    Judge Heyburn. Right. I was going to tell you how it breaks 
down.
    Mr. Rogers. Well, of the 426 new court security officers 
that you are requesting, 119 are with new facilities.
    Judge Heyburn. Yes.
    Mr. Rogers. But 274 are additions to existing courthouses.
    Judge Heyburn. That is correct.
    Mr. Rogers. Now that is why I am puzzled.
    Judge Heyburn. As I said, the explanation is that this is 
the final process of implementation of the Marshals Service 
recommendation that was given to us. I recognize it is a lot of 
people. We are always looking at those recommendations to see 
whether they are accurate and responsible and we are going to 
continue to do that.
    Mr. Rogers. Well, we will need to look at that. That is an 
enormous increase.
    Judge Heyburn. It is.
    Mr. Rogers. Maybe it is justified.
    Judge Heyburn. It is.
    Mr. Rogers. We just need to look at it carefully.
    Do you think those are realistic, or is that excessive?
    Judge Heyburn. I have every reason to believe that it is a 
realistic assessment. Again, if you say, well, could you do 
with 100 less, I don't know. I don't know at what point 
security is compromised but this is the Marshals Service 
recommendation and, unfortunately, not a question that I think 
is subject to a precise answer. We are doing the best we can.
    Mr. Rogers. Certainly, we don't want to short change 
security. That is the one thing that we want to be sure is 
adequate for you. And no one can ever, I guess, find enough 
money for it. But by the same token, we don't want to add extra 
security that is not necessary.
    Judge Young. It is the Marshals Service's recommendation 
and we felt it incumbent to come before you to ask for the 
funds.
    Mr. Rogers. We will have a chance to talk to them about it 
too, so we'll see.

                   reimbursements for shared security

    Mr. Rogers. Now, other agencies occupy the same space that 
you do. What is the amount that could be collected from those 
other agencies for their share of security costs in buildings 
where you have common occupancy?
    Judge Heyburn. Well, the answer to that is depending on the 
agency and depending on the building, quite a bit. I guess the 
followup question is, other than decreasing the Judiciary's 
obligations, what would you actually accomplish in looking at 
the government as a whole? Although certainly we believe that 
we are providing security for a lot of other agencies, if we 
tried to get reimbursement for that security, we would just 
start trading money back and forth among various agencies.
    I know an argument could be made that the Judiciaryshould 
be reimbursed. I believe it would be a complex task to do it fairly. 
Whether the result would be worth the effort is a question I cannot 
give an affirmative answer to.
    Mr. Rogers. You are really hesitant. You have always been 
hesitant to do this. We are making the State Department do this 
now in our embassies overseas. You know, we have Agriculture 
Department and Commerce and everybody else and the military, 
occupying the embassies, but the State Department has to pay 
the entire cost. And we are making them, now, allocate the 
costs among the agencies in each embassy. It is complicated, 
sure. But I will tell you what it does, among other things. It 
makes those other agencies, when they are sitting back here 
allocating resources--it makes them say, well, by golly, you 
know, we would like to be able to put people out there in the 
courthouses doing such and so but it is going to cost us some 
money so we are going to hold back on that. It just makes 
things more efficient government-wide. That is one aspect of 
it.
    Judge Heyburn. You raise an excellent point and a very 
valid point.
    Judge Young. Actually, courthouses are maintained at a 
level of security higher than most executive agencies because 
of the need to safeguard jurors and witnesses and indeed to 
prevent the escape of defendants. It is not clear that these 
other agencies want the level of security that we believe we 
are required to maintain. Many of the agencies are within the 
jurisdiction of this Subcommittee. You will be able to track it 
and track the administrative costs.
    We would like to avoid getting in a situation where we are 
responsible for collecting the money from some other agency and 
taking the hit in our budget if we don't get it.

                            fjc improvements

    Mr. Rogers. Now, is my information correct that a FJC 
conference that was receiving federal funds last year is no 
longer being supported with federal money.
    Judge Zobel. Are you referring to a program at Princeton?
    Mr. Rogers. Yes, ma'am.
    Judge Zobel. It is indeed not being funded with 
appropriated funds.
    Mr. Rogers. Good.
    Now, I want to pat you on the back on reducing travel 
costs. You've got that down from $4.5 to $4 million. That's 
great.
    Judge Zobel. I think $3.9, in fact?
    Mr. Rogers. $3.996 million.
    Judge Zobel. Mr. Chairman, might I also leave with the 
Committee this publication which just has come out, not in 
anticipation of this meeting, it just happened to come out 
right now, talking about all of our teleconferencing and 
satellite efforts.
    Mr. Rogers. Good. Let's file that with the record.
    [The information follows:]

[Pages 173 - 180--The official Committee record contains additional material here.]


    Mr. Rogers. I want to compliment you on reducing the travel 
costs, getting some teleconferencing things going, but you can 
do more.
    Judge Zobel. We understand that. But I hope it won't be 
reflected in our appropriation.
    Mr. Rogers. Well, you know, they say the difference between 
a pat on the back and a slap on the wrist is about 18 inches.
    Judge Zobel. That's right. We hope.
    Mr. Rogers. Now, for the Administrative Office, you are 
requesting again an additional 23 people to get to the level 
that the conference authorized in 1995. What we need to know is 
for what purpose each of those positions is required and why 
that position can't be filled by juggling existing resources. 
You can do that for the record, if you would like.
    Mr. Mecham. I have a submission which I would be happy to 
provide.
    Mr. Rogers. Submit it for the record.
    [The information follows:]

[Pages 182 - 186--The official Committee record contains additional material here.]


                          d.c. courts funding

    Mr. Rogers. Now, as far as you know, what is the current 
status of the proposal for the Federal government to take over 
the funding of the D.C. courts?
    Judge Heyburn. We hope it has no status at all, that it is 
not going anywhere. As a matter of fact at our most recent 
Budget Committee meeting we discussed it and concluded that it 
was a bad idea from the Judiciary's point of view and from the 
Federal government's point of view. The committee recommended 
against it and the Judicial Conference has agreed with that 
recommendation. My understanding is that we are actively 
working with or at least have had some discussions with those 
who put forward the proposal and suggested better ways of 
accomplishing the same objectives that did not involve the 
Judiciary becoming responsible for the D.C. courts.
    Mr. Mecham. Mr. Raines, the head of OMB, has said that if 
it looks like they are going to try to reinsert us, they will 
give us a week notice so that we can appeal it. I guess they 
meant to the President, I'm not sure. But I might say your 
colleague, Mr. Hyde, has written a very good and strong letter 
to Mr. Raines and the Attorney General suggesting it is 
inappropriate and if you and Mr. Mollohan wish to join in that, 
we would be very pleased.
    Mr. Rogers. Well, we don't write letters much.
    Mr. Mecham. We would be glad to draft one for you.
    Mr. Rogers. We have other ways of communicating.
    Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. Just a couple of 
questions.
    Mr. Mecham, when did you testify before Chairman Rooney?
    Mr. Mecham. It would have been 1969, 1970.
    Mr. Mollohan. Not in this capacity?
    Mr. Mecham. No, interestingly enough, part of my portfolio 
included the Appalachian Regional Commission and I was an 
advocate for funding. I don't know if any of you are interested 
in that. Plus a few other regional commissions. I think most of 
them have gone out of existence but the Appalachian Commission 
has continued and I guess thrived reasonably well. I appeared 
for the Commerce Department in support of Regional Commissions 
and Related Programs.
    Mr. Mollohan. Just one question. What are you doing about 
the Year 2000 problem, the computer problem that everybody is 
talking about, thinking about, planning for?
    Mr. Mecham. Pam White, our assistant director for 
automation, and our chairman of our Automation Committee, Judge 
Forrester from Georgia, have anticipated this and have been 
working on it for a couple of years. The last I heard, they 
felt they were going to be prepared for the year 2000. I had a 
report as recently as a week ago and if the chairman already 
has more detailed information than I have, I would be happy to 
yield to the gentleman from Kentucky.
    Judge Heyburn. We would be glad to give you more on it but 
I guess the bottom line is we are working on it, we think we 
have got an answer and if I could explain the answer to you I 
would. I might also be able to make a lot of money on the 
outside, too.
    Mr. Mollohan. I just wanted to get on the record you were 
aware of it and working on it and think you have it under 
control.
    Judge Heyburn. We are working on it. Absolutely.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Rogers. Well, you can certainly patent that 
information. No one else seems to have gotten it under control.
    Well, we thank you for your appearance here today. Judge 
Heyburn, you have made a good early splash in the water here, 
your maiden voyage. You have come very quickly up to speed on a 
very complex undertaking. We did not suspect that that would 
not be the case. I knew Judge Heyburn's father and his family 
in Louisville. They are a great asset to that community and 
always have been. The Heyburns go back to the early days of 
Louisville and John is only the most recent reincarnation of a 
long line of patriots and great citizens of our state and 
country.
    Judge, we are very proud of you. You have done a very 
wonderful job here today.
    All of you have and we appreciate your time.
    Judge Heyburn. Thank you. It is an honor to appear before 
you, Mr. Chairman, and Congressman Mollohan. We look forward to 
working with you in a cooperative spirit in the future.
    Mr. Rogers. And to close out this session, I am reminded of 
an old saying. They say a good chicken don't stop scratching 
just 'cause the worms are scarce.
    Judge Heyburn. We're going to keep on scratching.

[Pages 189 - 198--The official Committee record contains additional material here.]


                                            Tuesday, March 4, 1997.

                     UNITED STATES ATTORNEY GENERAL

                               WITNESSES

HON. JANET RENO, UNITED STATES ATTORNEY GENERAL
DORIS MEISSNER, COMMISSIONER, IMMIGRATION AND NATURALIZATION SERVICE
STEPHEN R. COLGATE, ASSISTANT ATTORNEY GENERAL
MICHAEL J. ROPER, DEPUTY ASSISTANT ATTORNEY GENERAL
ADRIAN A. CURTIS, DIRECTOR, BUDGET STAFF

                    Opening Statement by Mr. Rogers

    Mr. Rogers. Today we welcome to the Committee, Attorney 
General, Janet Reno. We're glad to have you with us, Madam 
Attorney General. But I have to tell you that we've got a 
problem.
    This Subcommittee and I, personally, have been one of the 
strongest supporters of the Department of Justice and your law 
enforcement agencies, and in fact, of you.
    We've gone out of our way, in fact, giving you more money 
than you requested in some cases, in the last two years alone. 
We've increased your budget by $4 billion, a 33 percent 
increase.
    We've given you the necessary tools to fight crime, at a 
time when the budget is so tight that we're eliminating 
agencies and severely cutting funding for many other programs. 
We've absorbed criticism on the floor of the House, in public 
sessions, in private meetings. We've attempted to smooth over 
problems at the Department of Justice.
    But I have to tell you, that alone I think, gives me 
credentials to speak up today and to ask very hard questions 
about the patterns of action and inaction that we're 
witnessing, and the repeated allegations, that Justice agencies 
are being used for political purposes.
    In some of the most critical areas of law enforcement that 
this nation depends upon, it strikes at the very basic trust 
that Americans have, which is the right to expect the 
objectivity and independence of the Department of Justice.
    I want to be specific, and hopefully, brief. There are two 
areas that I want to ask you about. One, the agencies under 
your command, in the Department of Justice, are guilty of gross 
violations of the public trust, if these allegations are 
anywhere near the truth.

                                  FBI

    The FBI, carte blanche, turned over sensitive background 
files on American citizens to the White House political 
operation, alerted the White House to potentially damaging 
information about its employees, and then, sicced agents on a 
former FBI agent involved in the matter. That's serious.
    The FBI lab, the premier crime lab in the country, is under 
intense scrutiny for allegedly using sloppy procedures, 
pressuring lab employees to alter their findings, having 
supervisors change findings to support criminal prosecutions, 
and potentially jeopardizing significant investigations and 
criminal convictions. That's serious.
    In a rush to conclusion of the Olympic bombing 
investigation, the FBI falsely accused an innocent man, Richard 
Jewel. That's serious.

                                  INS

    Thirteen senior INS managers intentionally deceived the 
people's Congress, on a task force visit to Miami. That's 
serious.
    The Inspector General's office in the Justice Department 
handled over 600 investigations of misconduct by INS employees, 
from bribery and extortion, to fraud, theft, drug and alien 
smuggling. Madam Attorney General, that's serious.
    And the latest is a very significant disaster. INS gave the 
most precious benefit an immigrant and anyone in the world can 
receive, U.S. citizenship, to thousands of people with criminal 
records. We think they weren't checked, because they decided it 
was more important to push people through the system for 
Election Day, we're told, than it was to wait for the FBI to do 
a basic criminal record check. And that's serious.

                investigations concerning other agencies

    The second area of concern is this--as the Nation's 
Attorney General you are charged with the responsibility to 
investigate and prosecute allegations of wrongdoing by 
government officials of other agencies, in addition to the ones 
you supervise.
    We don't know where or when to expect results of your 
investigations into fundraising activities of the Democratic 
National Committee and agency and White House officials, 
involving millions of dollars of tainted donations, perhaps 
even directed by a foreign government. That's serious.
    Attempts by foreign governments to influence U.S. policy in 
return for campaign donations, removal of classified and very 
sensitive CIA material by high-ranking departing Commerce 
Department officials, with ties to John Huang. That's serious.
    Granting of security clearances involving access to 
classified information to non-federal employees, a White House 
official directing donors to channel soft money contributions 
to voter registration groups for immigrants, who 
coincidentally, had just been naturalized. That's improper; and 
with directions to get as many done before election day, as 
possible. That's serious.
    Use of publicly-funded White House databases for 
fundraising by a political party. That's illegal.
    Allegations of the White House premises itself being used 
for fundraising, that's illegal; and it's also unethical. The 
Vice President's admission yesterday that he used taxpayer paid 
facilities, premises and funds for campaign fundraising. That's 
not allowed. That's illegal.
    The First Lady's reported endorsement of the use of the 
White House database for fundraising activities. And we could 
go on.
    A laundry list of investigations and allegations 
potentially interconnected, overlapping, being conducted 
throughout the Department, out of public view, and in some 
cases, by agencies within the Department, that are themselves, 
under investigation, which seems to be a new matter requiring 
investigation. We've seen no results.
    We've seen no process leading to possible results. We've 
been given no timetables. We're asked to have confidence in the 
conduct of this mounting list of investigations by a Department 
that has significant management problems of its own. I have to 
tell you that my faith and trust is waning. And I fear that the 
faith and trust of the American people is waning. We have a 
right to expect complete independence in the Office of the 
Attorney General and in the Department of Justice. We have 
fought for that. We have died for that, and we will do so again 
if necessary.
    But I will not stand by, as the Chairman of the 
Subcommittee that funds the Department of Justice, I will not 
sit idly by and watch it happen, without doing everything in my 
power to stop it.
    We need to know whether the Department of Justice is up to 
the job and whether its objectivity can be guaranteed, even 
after the events of the past year that make it apparent that 
politics has made its way into the actions of the Department.
    We need to know why you insist on handling this myriad of 
investigations in one ad hoc task force after another, 
sometimes connected, sometimes not, instead of turning these 
matters, all of them, from every branch of the government it 
seems, over to the mechanism designed to investigate the 
possibility of wrongdoing in the highest places spread across 
the entire government, the Special Prosecutor.
    Attorney General Reno, we're facing a serious problem. A 
problem of management, the question of integrity, at the very 
time that the Department is undertaking investigations of 
unprecedented scope, that require unquestioned management 
capability, integrity and independence.
    We can't look at your 1998 budget request at this point in 
time. That's going to have to take a few more days. We've got 
some matters much more important than that.
    I'm not worried yet about 1998; I'm worried about 1997, 
March the 4th and March the 5th. We need to decide whether it's 
appropriate for your Department to follow the trail whose signs 
are so apparent, and whether the Department is capable of doing 
so, because I have to say to you, up until this point, we 
haven't seen much. Mr. Mollohan, do you want to make a 
statement or proceed with questions.

                   Opening Statement by Mr. Mollohan

    Mr. Mollohan. Thank you, Mr. Chairman. Madam Attorney 
General, Commissioner Meissner, welcome to the hearing today. I 
join the Chairman in welcoming you, and note the attendance of 
a very able, authorizing Chairman, Mr. Smith from Texas.
    And I think that it is very constructive for him to 
participate in this hearing, because obviously, a lot of the 
issues before the Committee are authorizing issues, and are 
under his very capable leadership and jurisdiction.
    I know that there has been a certain anxiety associated 
with this hearing, a foreboding, if you will, that INS's 
problems might dominate the hearing. There has been concern 
that critical questioning would dominate and overshadow the 
very positive results that our law enforcement agencies are 
doing to assist the nation in crime fighting and to get control 
of illegal immigration.
    I would like to note the tremendous accomplishments that 
the Department of Justice has achieved under the capable 
leadership of the Attorney General.
    She has managed an incredible growth of significant 
resources, over 70 percent, I believe, in a very capable way. I 
think there is an awful lot of consensus about the good things 
that have been achieved, the coordination among law enforcement 
agencies, with regard to fighting drug crime, the targeting of 
problems as they arise very aggressively, like youth and 
juvenile crime, as well as street crime.
    I think the implementation of the very popular and 
successful COPS program is evidence of the good job, not to 
mention the overall decrease in crime across the nation.
    That reality overlays all of the individual problems that 
are bound to exist when we are increasing the size of budgets 
and trying to manage the kind of growth that Justice and all of 
its components are tasked with.

                                concerns

    There are concerns, to be sure, looking at INS. And I don't 
contend here, Mr. Chairman, to be an apologist for a group of 
Federal employees who attempt to deceive Congress. I won't do 
that. I don't tolerate that any more than anybody else.
    It does not exemplify the conduct of Federal employees 
generally or INS employees generally. I certainly don't condone 
it, nor am I an apologist for a naturalization program that 
cavalierly disregards candidate screening as an integral 
essential part of becoming a United States citizen.
    Those issues should be explored thoroughly and appropriate 
action taken. And I'm pleased that the Department has, for the 
most part, punished the individuals involved, along the lines 
recommended by the Inspector General, as we heard his testimony 
here several days ago.
    It would be easy, too easy, to belabor these issues. And 
certainly, we might even succumb to the temptation to belabor 
them. That, I'm sure, will be avoided.

                job performance of commissioner meissner

    To imply that these instances accurately depict the 
Immigration and Naturalization Service or reflect on the job 
its very capable Commissioner is doing on two fronts, I think 
would be misdirected.
    On the first front, the Commissioner, I would note is very 
successfully managing mind-boggling rapid growth within the 
agency. And to put all of this in perspective, I think this has 
to be understood.
    Mind-boggling growth in the agency, which has experienced a 
104 percent budget increase between fiscal year 1993 and 1994. 
Second, it would ignore the fact that simultaneously, with 
managing this growth, she has distinguished herself, from any 
Commissioner that I know before her, by instituting systemic 
agency reform, and frankly, as I observe it, in the face of 
imbedded obstacles.
    But that's not an easy thing to do. That's in real time, 
trying to develop an adequate management system to manage 
incredible growth. To that extent, she is to be commended.
    Congress has, in the past, been very good at recognizing 
INS's quantitative needs. And this Committee, under the very 
able leadership of Chairman Rogers, has been generous with its 
resources and demanding with regard to output measurement.
    We have, in the process, laid greater demands, both 
personnel demands and jurisdictional demands. In my judgment, 
this should be looked at. We need to look at overwhelming the 
capacity of INS, which study after study has identified or 
characterized as being inadequate for more modest missions in 
the past.

            national academy of public administration study

    The most recent study of INS, the NAPA study, Mr. Chairman, 
the National Academy of Public Administration study, which I 
spent some time looking at last night, details the progress 
that Doris Meissner has made in reforming INS. She has achieved 
success where others, even a former Marine Corps General 
appointed by President Nixon, have failed.
    This NAPA study points to real progress. It is apparent, 
that Congress has been of assistance in time of need, to INS 
and Justice, with regard to their quantitative requirements. 
But it's apparent that INS needs help looking at its 
reorganizational efforts.
    That would be a constructive approach, and I frankly, hope 
will be the outcome of this hearing and the authorizing 
hearings to follow. I look forward to exploring those questions 
with the witnesses here today and working with the Chairman and 
others toward that positive end. Thank you, Mr. Chairman.

                          campaign fundraising

    Mr. Rogers. Now, Attorney General Reno, the revelations of 
the past few days point to serious evidence that the White 
House is being used, or was used, for campaign fundraising.
    The Vice President has admitted to making calls from a 
White House telephone, on White House premises to solicit 
campaign contributions.
    The First Lady reportedly endorsed the use of the White 
House computer for partisan fundraising activities. Before you 
get to your statement, can you tell us, do you intend to 
recommend the appointment of an independent counsel to begin to 
investigate and bring together these separate events which are 
all throughout the government?

                   Attorney General's Opening Remarks

    Attorney General Reno. First of all, I appreciate the 
opportunity to be with you today. I always appreciate your 
thoughtful comments and I understand your perspective, and 
really appreciate what you and the entire Committee have done, 
in terms of providing us the resources that I think have 
significantly helped to reduce crime in this country.
    And I look forward to working with you in a thoughtful, 
constructive, principled way in the future, in addressing the 
concerns that we share, and in developing the best efforts 
possible on behalf of the people of the United States.

                    campaign financing investigation

    With respect to the campaign financing investigation, when 
we received evidence, we immediately commenced an investigation 
in to every allegation that we received.
    I am constantly in with the group that is investigating. 
You asked, when will we learn? We're doing it in secret. Mr. 
Chairman, you're a former prosecutor. You know that a 
prosecutor doesn't go down and stand on the courthouse steps or 
in a House hearing and tell people what's happening in an 
investigation. That would be wrong.
    And what we have tried to do, is to pursue every lead, 
working with the FBI, making sure that we take every effective 
action. We have made that clear on a number of occasions and 
have not tried to hide that at all.
    As late as last Thursday, I explained that I have not 
foreclosed the appointment of an independent counsel. If the 
evidence and the law, as required by the statute, trigger it, 
and I have asked the people who are involved, to let me know if 
there is any indication that it is triggered.
    And I continue to work with them with that question in 
mind. But until the evidence and the law dictate appointment of 
an independent counsel, as required by the statute, I'm going 
to do everything I can to pursue the allegations as vigorously 
as possible, consistent with the evidence and the law.
    Mr. Rogers. Well, I have a number of questions, but we want 
to hear the testimony that you've prepared. We will make your 
written testimony a part of the record.
    Attorney General Reno. Mr. Chairman, if you would prefer, 
I'll go right on with your questions, sir.
    [The statement of Attorney General Reno follows:]

[Pages 205 - 393--The official Committee record contains additional material here.]


                 immigration and naturalization service

    Mr. Rogers. Well, we will have your full statement in the 
record. And so, we will proceed in that fashion, if the others 
are in agreement with that.
    With that in mind then, I will proceed. Now, I want to talk 
first to you about the INS. And we've asked Commissioner Doris 
Meissner, to be with us today, in the event that there are 
questions that you would like for her to answer.
    We have poured money into the INS. In the last two years, 
we've increased the INS budget by 52 percent, a $500 million 
increase each year, in 1996 and 1997.
    We've been extremely supportive of the INS. We've been 
patient to a fault with the new management. But Madam Attorney 
General, INS is out of control and it pains me to say that. 
It's taken me a long time to make myself conclude that but I've 
concluded now that INS is out of control. And I'll tell you why 
I think that.

                           illegal immigrants

    Recent INS estimates indicate there are five million 
illegal immigrants now living in the country, the same peak 
level we witnessed in 1986. And that's the reason why Congress 
passed the Immigration Reform and Control Act of 1986, wherein 
we granted amnesty to those presently living here, and added 
requirements for those employers who would perhaps employ 
illegal aliens in the country. INS has triple the level of 
resources it had in 1986, to do its job. The Administration's 
strategy to deal with illegal aliens living in the country is 
antiquated and ineffective. INS only deported 77,000 people 
last year, only 1\1/2\ percent of the illegal population. And 
it still fell short by 34 percent of its goal to deport illegal 
aliens from the country.

                             border patrol

    We can't be assured that the border is any more under 
control now, than it was four years ago. Despite the fact that 
we've added 1,700 more border patrol agents, an increase of 37 
percent. Statistics used, to herald the success of Operation 
Gatekeeper, the INS border patrol strategy are being questioned 
by the border patrol themselves.

                      misconduct by ins employees

    Unethical practices are occurring among INS senior 
employees. Thirteen senior INS managers engaged in activities 
to deceive the Congress on a task force visit to Miami. And the 
Inspector General's office at the Justice Department conducted 
over 600 investigations of misconduct by INS employees, for 
bribery, extortion, fraud theft drugs and alien smuggling and 
so on.

                      naturalization of criminals

    And the latest, and in my opinion, the most significant INS 
disaster, INS granted citizenship this past year to criminals, 
because they decided it was more important to make sure that 
they were entitled to vote than it was to check if they had a 
criminal record. They weren't checked.

         deception of congressional officials by ins officials

    Now, these are all serious allegations. And it pains me to 
bring them up, but I feel I must. First, I want to ask you 
about the Miami matter.
    The Inspector General told us that a delegation of the 
Congressional Task Force on Immigration Reform--I don't know 
whether Chairman Smith was in the group or not--was deceived by 
INS officials when it did a fact-finding tour to the INS Miami 
District Office.
    The investigation found--and I am, more or less, generally 
quoting from his report--that aliens were moved out of 
detention holding cells in order to create a false impression 
that the Krome detention facility was not overcrowded. In order 
to move these aliens quickly, the managers released many of 
them out into the community without complete criminal and/or 
medical checks.
    Inspectors were assigned to the Miami Airport, to make it 
appear that the airport was well staffed, and INS could process 
passengers without delay.
    Evidence showed that senior managers in the Miami District, 
the Eastern Region and INS Headquarters, either ordered the 
deception or knowingly failed to stop it.
    And senior INS managers failed to cooperate with the OIG 
investigation, and in some cases, obstructed that 
investigation. I need to know how this came about, and what 
actions have been taken against those responsible.

                  gao report on immigration management

    Attorney General Reno. First of all, Mr. Chairman, let me 
go back to your opening statement and to your more general 
comments about INS, and put it into perspective, because I 
think it is important. And you and I have shared concerns over 
the years. Let me describe, from a GAO report to Congress, from 
immigration management, what we inherited and what Commissioner 
Meissner inherited when she took office.
    Its January 1991 report said, over the past decade, weak 
management systems and inconsistent leadership have allowed 
serious problems to go unresolved. Without coherent, overall 
direction and basic management reforms, the organization has 
been unable to effectively address changing enforcement 
responsibilities and long-standing service delivery problems.

           improvements made since issuance of the gao report

    When she took office and when I took office, that was the 
situation. I went to the border, to San Diego. It was totally 
out of control, Mr. Chairman. It's a lot different now. I went 
to the border and saw Border Patrol agents without radios, 
without the tools they needed to do the job.
    It's a lot different now. Thanks, in part, to this 
Committee's real commitment, in terms of resources. And for 
that, we are very grateful. But following that, came a peso 
crisis, and came an exodus from Cuba and from Haiti. And in 
each instance, the Immigration and Naturalization Service was 
there dealing with the issue.
    Yes, there are challenges. But in addition to all of these 
challenges, they have also had to absorb extraordinary growth. 
And we have worked to make sure that people are brought on 
board, who are well trained and who are prepared for the task 
that lies ahead for them. It is not something, after so many 
years of inattention, that can be accomplished overnight. But I 
think there has been significant progress made.

     actions taken after receipt of congressional letter of concern

    With respect to your concerns, let me point out to you, 
that I received Chairman Smith's letter, I believe, on July the 
11th or July the 12th. And on July the 14th, I referred it to 
the Inspector General.
    You expressed concern earlier, Mr. Chairman, about the 
Department of Justice not proceeding as vigorously as it might. 
I told the Inspector General to take that matter wherever it 
led. And when he presented me with the report, to ensure 
objectivity, I asked Steve Colgate, the Assistant Attorney 
General for the Justice Management Division, to become the 
recommending or proposing authority, to ensure that it was done 
the right way, without any hint of conflict.
    You have heard from Mr. Bromwich, and I believe as well, 
from Mr. Colgate, as to the results. When we see wrongdoing, we 
are going to pursue it. With respect to the 600 investigations, 
if you went to a major police agency in this country, their 
internal affairs or equivalent of the Inspector General, may 
have a significant number of investigations. The question is, 
where do they lead?
    But the real point is, Mr. Chairman, that there have been 
investigations. We don't put things under the rug.

        actions taken against employees for misleading congress

    Mr. Rogers. I need to know what happened to these people. 
Let's get to the bottom line here. What happened to the people 
that misled the Congress. What are their names and where are 
they now? And Commissioner Meissner can assist if you would 
prefer.
    Attorney General Reno. Valerie Blake was removed. Dan 
Cadman elected a voluntary demotion to GS-15, Criminal 
Investigator at Headquarters Field Operations.
    Mr. Rogers. Where is he now?
    Attorney General Reno. I cannot tell you precisely.
    Mr. Rogers. Is he still working?
    Attorney General Reno. He accepted a voluntary demotion, 
sir. So, I would assume he is still working.
    Mr. Rogers. He is still a Justice Department official. 
Correct?
    Attorney General Reno. So far as I know, sir.
    Mr. Rogers. He misled the Congress and still works for the 
Justice Department.
    Attorney General Reno. Mr. Chairman, we have followed the 
procedures that dictate the discipline of employees, and have 
followed them according to precedent of the Merit System's 
Protection Board.
    I think it is so important that you look at these 
disciplines based on the facts. May I give you the copy? And 
we'll be happy to sit down with you, and review the facts, to 
the extent that we can.
    Mr. Rogers. I'll be happy to do that.
    [The information follows:]

[Pages 398 - 400--The official Committee record contains additional material here.]


    Attorney General Reno. To the extent that we can, so that 
we do not prejudice action before the merit system.
    Mr. Rogers. Well, I'm very protective of their rights. We 
want to protect their rights. I'm also protective of the 
people's right to have truthful Federal employees, reporting 
truthfully to their people's representatives here in the 
Congress.
    When they lie to the Congress and mislead the Congress, the 
people's representatives, and they maintain their employment 
with the Justice Department, people have a right to be suspect. 
That's all I have to say about that.
    Now, we need to know whether or not you and the 
Commissioner are satisfied with the disciplinary actions taken 
against these employees. Do you agree with the discipline and 
can we be assured that this will never ever happen again?
    Attorney General Reno. I'm satisfied with the discipline 
procedure that has removed one employee from the Federal 
service, demoted five employees, which is a more severe penalty 
than suspension.
    Six employees have been suspended without pay for periods 
ranging from two days to fifteen days. And two employees were 
not disciplined. I am satisfied with that, based on the 
information that has been furnished to me. I will continue to 
do everything I can to uphold this discipline. And I will 
continue to do everything in my power to see that events like 
this do not happen again.
    But if I am to do that, Mr. Chairman, I need to make sure 
that I obtain discipline that will stick on review. And the 
worst thing I can do is go off on something that is not based 
on the facts and the evidence and get reversed. That will send 
the worst signal, in terms of preventing further occurrences, 
of anything I know.
    Mr. Rogers. Well, while we're trying to make policy in the 
Congress, on what to do about illegal aliens and their 
deportation and the jailing of criminal aliens and all of the 
other policies on this problem, which you know is one of the 
big major undertakings of the present government, it just seems 
to me that it's absolutely critical that we not be lied to by 
our own employees and misled and made to believe, such as in 
Miami, that there was not overcrowding, that things were fine, 
and everything was going wonderfully.
    And all the while, they instead opened the doors and let 
out many prisoners onto the streets of Miami and the country. 
How can we make policy when our own officials are misleading us 
like that?
    Attorney General Reno. For those that misled, Mr. Chairman, 
you have seen the penalties imposed. We are going to do 
everything we can to uphold those penalties, because what was 
done was very, very wrong.
    Mr. Rogers. I need to ask the Commissioner if she was lied 
to by those employees? And are you satisfied with the 
disciplinary actions that have been taken?
    Ms. Meissner. The disciplinary process that was set up was 
a very thorough process. As the Attorney General has said, we 
are implementing it where the individuals are concerned and are 
very clear about the consequences involved.
    Mr. Rogers. And I'm told that initially, at least one of 
these employees, not only was not dismissed or disciplined, but 
in fact was given a promotion.
    Attorney General Reno. Who are you referring to, Mr. 
Chairman?
    Mr. Rogers. Valerie Blake.
    Attorney General Reno. Ms. Blake--she has been removed from 
the Federal service. What you're referring to, Mr. Chairman is, 
that while the investigation was pending, she was promoted. But 
upon disciplinary action being enforced, she was removed from 
the Federal service.
    Mr. Rogers. I don't understand how she could have been 
promoted to the District Director of Minnesota, at a time when 
she was accused. That one's a puzzle.
    Attorney General Reno. In America, we're innocent until 
we're proven guilty.
    Mr. Rogers. What about the message that other employees 
must have gotten when they saw a person who was charged 
suddenly elevated?
    Attorney General Reno. Mr. Chairman, it is important that 
the disciplinary process take its course, and that people have 
their right to be heard before judgment is made.
    When judgment is made, as it was in this case, it was the 
most severe penalty that could be imposed. I think that justice 
has been done. Obviously, if Ms. Meissner had had the 
opportunity to know what the end result would be, she wouldn't 
have done it.

            failure to cooperate with the inspector general

    Mr. Rogers. Now, the Inspector General told us that INS, as 
an agency, and not just particular individuals, but as an 
agency, failed to cooperate with his investigation, 
particularly in the matter of complying with document requests. 
He said, the response by senior managers was, ``abysmal.'' I 
wonder if the Commissioner can respond to that?
    Attorney General Reno. Why don't you----
    Ms. Meissner. Shall I come forward?
    Mr. Rogers. Please. Please have a seat.
    Ms. Meissner. This is the question on document requests, 
during the course of the investigation. It is, of course, the 
responsibility of the agency and a responsibility that we take 
very seriously, to produce whatever documents in a timely 
fashion, that are requested in an investigation. We did that.
    We did that from the standpoint of informing our employees 
of the necessity to comply with investigations, with gathering 
the responses, and producing them within the time frames that 
were requested. It is the case that some employees, those 
involved in this disciplinary process, who have now been 
disciplined, failed to provide the full range of documents.
    That was discovered in the course of the investigation. 
Clearly, if we had known that people were withholding 
documents, we would have taken action. We had no way of knowing 
that.
    There were E-mails, which were not in paper files and were 
not available, and were discovered in the investigation. That 
is clearly wrong.
    Mr. Rogers. Well, the Inspector General of the Department 
of Justice, in a hearing with Mr. Chairman Lamar Smith, who 
sits with us today, he says, in response to Mr. Smith's 
question, that in a general sense, and I'm quoting, ``just as I 
would be responsible for the failure of people in my office to 
do it, whether or not I, or in this case, Commissioner 
Meissner, had any actual knowledge of whether such documents 
were being withheld''
    What I'm trying to say is, when he says, the Department's 
response to his investigation was abysmal, I think he's saying 
that you're included. Do you agree?
    Ms. Meissner. I do not agree. I believe that we complied as 
fully as we could. And I believe that the record is clear on 
that. I would be happy to provide the documentation for the 
various actions that we took.
    [The information follows:]

[Pages 404 - 408--The official Committee record contains additional material here.]


    Ms. Meissner. The Inspector General and I can talk about 
these matters if he has concerns about the way in which we are 
handling an investigation. We have an ongoing relationship, as 
well as formal liaison between our Office of Internal Audit and 
the Inspector General. We would invite whatever suggestions and 
criticism need to be made.

                 responsibility for misleading congress

    Mr. Rogers. Well, let me just say, the visit by the 
congressional delegation to one of your facilities was not a 
secret event. I mean, it was noted in the highest echelons of 
your department. I dare say you knew that the group was 
visiting the Krome facility in Miami. Your managers in the 
Miami district office, and your managers along the way, 
including the INS liaison with the Congress helped set up the 
visit, and also participated, according to the IG, in the 
coverup and misleading of Members of the Congress that went to 
Miami to investigate the Krome facility.
    Who's responsible, for this lack of oversight over your 
manager? And these are high level managers? Who is finally 
responsible Attorney General?
    Attorney General Reno. Mr. Bromwich suggested to you, when 
he was before you last week--I don't want to suggest for a 
moment, that I lay at the feet of Ms. Meissner, many or most of 
the problems that we have identified. Far from it.
    Most, if not all, of these problems originated years and 
years ago and are regrettably the product of substantial 
neglect over time, by top INS management, by Justice Department 
top management, and frankly, by the Congress as well.
    So, I don't, for a moment, want to suggest that the 
responsibility for the manifold problems that we find can be 
laid properly at the feet of Commissioner Meissner.
    Mr. Rogers. Are you saying that the misleading of Congress, 
in Miami last July, had its roots five years ago?
    Attorney General Reno. I am suggesting to you----
    Mr. Rogers. It was not five years ago that these people 
misled the Congress. It was your present management of INS that 
lied to the U.S. Congress.
    Attorney General Reno. And it was----
    Mr. Rogers. Who is responsible for cleaning that up?
    Attorney General Reno. I am, Mr. Chairman. And I told you 
the steps that I've taken. I have told you that career people 
in the Department have told me that these are very serious 
disciplinary steps that have been taken.
    If there are additional steps and you want me to have 
additional authority, I'd love to sit down with Ms. McAuliffe 
and see what can be done to improve the adverse action 
procedures. But until then, I will do everything in my power, 
because the buck stops with me.
    We have identified the managers who are responsible, based 
on the evidence. And that's where it stands now. If anybody has 
additional evidence about any other manager, then I want to 
know about it.
    But when I find action like that, it is my responsibility 
to do something about it. I have been told that we have taken 
the most significant action we could.

                          OPERATION GATEKEEPER

    Mr. Rogers. All right. Quickly moving to Operation 
Gatekeeper which is INS's term for the border control strategy 
on the San Diego border.
    INS measures if it's successful by the number of aliens the 
Border Patrol apprehends. In June of 1996, members of the 
Border Patrol union publicly said that Border Patrol 
supervisors were improperly manipulating Gatekeeper-related 
procedures, to create the false impression that Operation 
Gatekeeper had successfully deterred illegal border crossings 
at San Diego.
    They said they were being instructed not to apprehend 
aliens, so that the level of apprehensions, the number of 
arrests would appear to have dropped, thereby implying that 
they were being very successful.
    They said that supervisors submitted falsified reports, 
showing those inaccurate arrest records. The union alleged that 
a congressional delegation had visited Gatekeeper facilities in 
April and was intentionally misled to believe that efforts had 
succeeded in controlling illegal immigration problems in the 
Imperial Beach border region. What are we to believe about 
this?
    Attorney General Reno. Again, Mr. Chairman, when we heard 
about this, I immediately asked Mr. Bromwich to undertake an 
investigation. That investigation is pending.
    As he pointed out to you though, I can't comment. And I 
don't think it's appropriate for me to comment while it's 
pending. But he indicated to you, that at least a tentative 
provisional conclusion, and I'm giving it to you, he said, 
because I know you need it for what you're dealing with. He 
said they are not finding the pervasive falsification of data 
or the distortion of procedures that have been alleged.
    Mr. Rogers. Well, that's certainly not all of what he told 
us last week.
    Attorney General Reno. This is from the transcript of his 
testimony before you, sir.
    Mr. Rogers. Well, you're not reading the entire thing.
    Attorney General Reno. I would make it available to you 
because I read it.
    Mr. Rogers. Well, I have it here at the desk. There's much 
more in there than what you refer to.
    Attorney General Reno. Look at page 81, Mr. Chairman. And 
I'll be happy to come up and discuss it with you at your 
convenience.

                        INS EMPLOYEE ALLEGATIONS

    Mr. Rogers. Well, we'll do that at some point in time. But 
I also want to know if you have taken any actions, at all, 
other than the IG's investigation, on the allegations by your 
own employees, Border Patrol agents, that they were ordered to 
file false reports?
    Attorney General Reno. Mr. Chairman, I asked the Inspector 
General to undertake the investigation. When an investigation 
is undertaken such as that, my involvement in any way, can be 
disruptive.
    I have asked Mr. Bromwich to let me know if there is, at 
any point, any action that I should take. Meanwhile, what I 
have done is to review again, because one of the great problems 
we have on the border is how you measure success.
    How can you show that you are getting all the aliens coming 
across? One of the old ways they used to do it, was by tracking 
people and tracking footprints.
    That is very difficult in this day and time, with the 
number. The whole purpose of its strategy, in San Diego, was to 
very carefully, beginning at Imperial Beach, staff the border 
patrol with sufficient personnel and resources, so that being 
one of the major crossing points, the aliens would move east 
into more difficult country.
    That has been accomplished and so as apprehensions go down, 
because they are moving further east, it is very difficult to 
measure one way or the other. But I am doing everything I can 
to develop the best measurements, understanding that nobody has 
been able to advise me of a measurement that is totally 
objective.

                          SIZE OF OIG'S STAFF

    Mr. Rogers. We all know that the Inspector General of the 
Department of Justice is not the FBI. And it's not the Drug 
Enforcement Administration. It's a very small staff, designed 
to investigate wrongdoing within the Department.
    Surely, when you heard these allegations by Border Patrol 
agents, of falsifying documents to you and the U.S. Congress, 
surely you would have asked the FBI or somebody that has that 
kind of manpower, to investigate these very serious 
allegations. Was that done? Either one of you can respond.
    Attorney General Reno. With respect to Miami, did we ask 
the Inspector General to undertake the investigation, in 
accordance with Congress' dictates, that they should 
investigate internal fraud or internal wrongdoing. We have a 
procedure whereby that has now been referred to the Office of 
Public Integrity.
    His findings have been referred. Mr. Bromwich has, upon all 
occasions, because I have advised him, been told that at any 
time he needs additional investigative support in complex 
matters or matters that require the FBI, that he need only call 
them in.
    And indeed, along the border, he has done just that, for we 
have worked together in a comprehensive border initiative 
focused on corruption, focused on civil rights violations. And 
we will continue to use the resources in the Department as 
wisely as possible.

                            CITIZENSHIP USA

    Mr. Rogers. Now quickly I want to ask, before I yield to 
someone else, about the operation of Citizenship USA. In fiscal 
year 1996, before November, INS granted citizenship to almost 
1.1 million individuals.
    I'm told in a normal year, it might be 300,000 or so. But 
in that year, it was more than three times that. Congressional 
inquiries and investigations led to claims that INS did not 
follow procedures for obtaining criminal record checks on the 
applicants, which is the policy.
    The Justice Department has now acknowledged that 180,000 
individuals were granted citizenship without a criminal record 
check. And over 70,000 individuals with criminal records were 
granted citizenship. I understand you're doing an audit now, to 
actually verify those numbers. But we need to know what 
happened.
    Attorney General Reno. Here's what I did when I learned of 
this matter. First of all, I called in Mr. Colgate to work 
through the issues, to try to come up with just what had 
happened and to keep Congress advised.
    I have instituted the following. I have asked the Inspector 
General to review all the allegations and take appropriate 
action, no matter where it leads. The INS field officers have 
been instructed to confirm that the FBI fingerprint check is 
completed, and that any FBI criminal history information is in 
the applicant's file before naturalization proceedings are 
completed.
    Secondly, INS is also instituting other new quality control 
and quality assurance measures, including the use of a uniform 
adjudicatory checklist, enhanced supervisory review, random 
internal case reviews and field review teams.
    Third, KPMG Peat Marwick, an independent management 
consulting and accounting firm, is monitoring a comprehensive 
INS review of the adjudication decisions on all persons with 
FBI records, listing the felony arrests, who were naturalized 
between August 31, 1995 and September 30, 1996, as well as a 
sample of all cases naturalized in that period.
    Fourth, the Department has competitively selected, or will 
announce this week, a business process re-engineering 
consulting firm, to assist INS with re-engineering all aspects 
of the naturalization process over the coming months.
    Therefore, I have asked Steve Colgate to coordinate between 
the INS and the FBI, to develop appropriate procedures, to 
ensure fingerprint checks are done in the appropriate manner.
    And fifth, it is understood that upon the determination of 
anyone who was inappropriately granted citizenship, we will 
take steps to revoke that citizenship.

             REASON FOR SURGE IN NATURALIZATION OF CITIZENS

    Mr. Rogers. Now, why did this take place? Why did we have a 
surge of more than three times the normal rate of 
naturalization of citizens in 1996? Why did that take place?
    Attorney General Reno. My understanding is that it was 
estimated that there would be an increase due to the amnesties 
granted in 1986. And that secondly, with the Proposition 187 
concerns generated in California, that there was a rush by some 
to seek naturalization.
    Mr. Rogers. Was there any pressure, from anywhere, 
Commissioner Meissner, for you to speed up the process of 
granting citizenship last year?
    Ms. Meissner. Mr. Chairman, the Citizenship USA program was 
designed and announced in 1995. We began the planning for 
Citizenship USA in March of 1995. We publicly announced it in 
August of 1995.
    It was a response to a doubling of the caseload in fiscal 
year 1995, over the prior year, 1994. That caseload was the 
result of the factors that the Attorney General has just 
mentioned to you.
    As you know, these are cases where people pay fees, in 
order to have their applications adjudicated. We were facing 
unconscionable backlogs. Had we not acted, the caseload waiting 
times would have gone from two to four years, depending on 
which office of the country we were talking about.
    There would have been an absolute abdication of 
responsibility, where our mission to adjudicate our 
applications is concerned.
    The Citizenship USA program was an effort to reduce the 
backlogs and to reinstitute a six-month processing program, 
from the filing of an application, to the swearing in. That 
six-month standard has been the agency's standard for more than 
a decade.
    The targets for the program were time targets and backlog 
reduction targets. They were not a rush to citizenship. The 
people that were naturalized in Citizenship USA were people 
that were in our caseload for more than a year, as I say, in 
some offices, for more than two years.
    We have barely managed to keep up with case filings, even 
with the extraordinary effort that Citizenship USA represented. 
I might add that the Committee was very supportive and we 
appreciate the support, in the way of two reprogrammings that 
were approved----
    Mr. Rogers. Madam Commissioner----
    Ms. Meissner [continuing]. For us to do the project.

              pressure to speed up naturalization process

    Mr. Rogers. We're under a time constraint here. I need to 
ask you, did anybody--you can answer this yes or no if you'd 
like--did anybody above your pay grade, pressure you to speed 
up the naturalization process?
    Ms. Meissner. We were under pressure from many quarters, 
where naturalization was concerned.
    Mr. Rogers. Do you want me to be specific?
    Ms. Meissner. The particular concern, that I'm sure you 
have, about pressures from the Vice President's Office----
    Mr. Rogers. Yes.
    Ms. Meissner [continuing]. Or from the White House, were 
manifest in the form of assistance that was offered from the 
National Performance Review, assistance with procedures and 
suggestions on ways that we might streamline the process.
    That assistance and those conversations did not occur until 
February and March of 1996. They occurred well after the 
program was designed and underway. The reprogrammings to 
finance it had been approved in the Congress.
    Mr. Rogers. Did members in the Office of the Vice President 
communicate a numerical goal of one million or any other figure 
of persons to be naturalized by Election Day?
    Ms. Meissner. No such target was ever communicated to me. 
No such target was ever set by the Vice President's Office.
    Mr. Rogers. Did members of the Office of the Vice President 
visit any Citizenship USA offices?
    Ms. Meissner. Yes, they did.
    Mr. Rogers. For what purpose?
    Ms. Meissner. Those visits occurred during February and 
March of 1996. I would have to check on how many offices were 
visited. My memory of it is probably four or five offices.
    We had five target offices, which represented 76 percent of 
the caseload. They were the big cities, Los Angeles, San 
Francisco, Miami, New York, Chicago. And the NPR staff visited 
some, possibly all of those offices. I would have to check.
    Mr. Rogers. NPR?
    Ms. Meissner. National Performance Review, which is the 
group within the Vice President's Office, with whom we work.
    Mr. Rogers. With regard to the naturalization process?
    Ms. Meissner. We were given suggestions that had to do with 
streamlining our hiring procedures, and we were given 
suggestions that had to do with the actual decision processes 
and requirements for naturalization. We did not accept either 
of those sets of suggestions. We were already well down the 
path of streamlining procedures and making the handling of the 
paperwork more efficient.
    Mr. Rogers. Well, I'll ask you if this is not accurate. The 
report in this morning's Washington Post quotes Elaine Kamarck, 
a Senior Advisor to the Vice President, in March 1996, in an E-
mail to Doug Farbrother, a Gore aide assigned to help reinvent 
Citizenship USA, she says, ``The President is sick of this and 
wants action.''
    And Farbrother, in a subsequent E-mail to Gore and Kamarck, 
reported that the INS had agreed to speed up hiring 
adjudicators who interview applicants and decide who should be 
naturalized, but complained the agency had rebuffed his 
suggestions to use, ``temporary service agencies,'' for those 
guys.
    And then, the newspaper says, in a later message to Gore, 
he said, ``The INS was not doing enough to, quote, produce a 
million new citizens before Election Day.''
    He said, ``Unless we blast INS headquarters loose from 
their grip on the front line managers, we're going to have way 
too many people still waiting for citizenship in November.'' Do 
you recollect that?
    Ms. Meissner. I was privy to none of those E-mails. The 
first that I read of those E-mails was in the press sometime 
late in November, when they were recounted in a particular 
article. Whatever was going on in that dialogue is not 
something that the INS participated in, in any way.
    The goal of Citizenship USA again, was to reduce backlogs 
and to reestablish a timely process. We had a doubling of the 
caseload. We were responding to consumer demand in market 
terms.
    I don't like to put it in market terms, but that is, we 
were dealing with a workload and with our responsibilities to 
carry out our mission. We were already in the process of 
streamlining our hiring procedures. We have streamlined our 
hiring procedures throughout the agency.
    We have taken what had been a very lengthy and protracted 
eight to nine month time to bring a person on, and brought it 
to about 45 days to two months. It's been a major management 
improvement. And we applied it in the Citizenship USA program.

            goal of one million new citizens by election day

    Mr. Rogers. Well, whether or not you knew the details of 
the E-mail that was going on, that's stating a goal of a 
million new citizens by Election Day, you met the goal, whether 
you knew it was the goal or not, didn't you?
    Ms. Meissner. Well, let me be clear about that. In doing 
workload projections, and obviously, in coming forward with the 
reprogrammings that we came forward with, required ultimately, 
the hiring of about 900 additional temporary personnel.
    Obviously, we had to make our best projections on what the 
caseload and what the completions would be. So, we did believe 
that, if our receipts continued at the level that we were 
seeing, as we did the workload projections, we were likely to 
be completing anywhere from 1 to 1.3 million cases.
    And those numbers are available in the reprogramming 
requests and in the budgeting planning that we did. But as I 
said, our effort here was a backlog clearing effort, in a 
timeliness in the process. It was not a numerical number of 
citizens. It was completions, case completions. And one would 
not even know, until you do the cases, what was the level of 
approvals----
    Mr. Rogers. Do you know Doug Farbrother?
    Ms. Meissner. I have met him.
    Mr. Rogers. Has he talked to you about this in the past?
    Ms. Meissner. No.
    Mr. Rogers. Never?
    Ms. Meissner. No. I met him on one occasion, in my office, 
when he had an appointment.
    Mr. Rogers. Did he ask you to speed up hiring adjudicators?
    Ms. Meissner. It was a very short meeting. It had to do 
with hiring procedures. I don't recall that he asked 
specifically, that question. But he was concerned about our 
hiring process.
    This took place right after the government furloughs and 
the snow storms. And we were behind in our hiring plans. But as 
I say, we were catching up and we had designed a series of more 
effective procedures. And we were implementing them.
    Mr. Rogers. So, he was there----
    Ms. Meissner. It would have happened apart from his visit.
    Mr. Rogers. But he was there, out of the interest of 
speeding up the process?
    Mr. Meissner. I can not----
    Mr. Rogers. Is that the truth----
    Ms. Meissner. I cannot comment on what his interest was.
    Mr. Rogers. But what was the purpose of his visit with you?
    Ms. Meissner. He was looking at our procedures, from the 
standpoint of efficiency.
    Mr. Rogers. So, he was wanting you to speed up and become 
more efficient?
    Ms. Meissner. I could infer that, yes.
    Mr. Rogers. And did you abide by his suggestions?
    Ms. Meissner. We were already streamlining our procedures. 
We had already established our targets and goals. We kept to 
our plan.
    Mr. Rogers. Now, he was the Vice President's aide, assigned 
to help Citizenship USA. Is that correct?
    Ms. Meissner. I'm not clear on what his assignment was.
    Mr. Rogers. Well, when he came to see you, how did he 
identify himself?
    Ms. Meissner. He identified himself as somebody who was 
working for the NPR team.
    Mr. Rogers. The Vice President's group?
    Ms. Meissner. That's correct.
    Mr. Rogers. And did he say what credentials he had?
    Ms. Meissner. I don't know whether I knew it at that time 
or whether I've learned it since, but my understanding is that 
he is a career government employee, with a Defense Department 
background. He was detailed to the NPR staff for the purposes 
of reinvention activities across the government.
    Mr. Rogers. Do you know Elaine Kamarck?
    Ms. Meissner. I do know Elaine Kamarck, yes. We've met.
    Mr. Rogers. Did she ever visit with you, about the 
naturalization process?
    Ms. Meissner. Yes, she did.
    Mr. Rogers. More than once?
    Ms. Meissner. Very few, maybe a few times, but not many.
    Mr. Rogers. And what was the----
    Ms. Meissner. But probably not more than once.
    Mr. Rogers. What was the nature of that conversation?
    Ms. Meissner. Again, the Citizenship USA program is a 
program that we had asked to be treated as an NPR reinvention 
laboratory.
    We had asked for that in September of 1995. That is to say, 
we were going through a series of innovations. Those 
innovations could have been improved by other innovations 
around the government, that would have been applicable.
    So, the NPR staff is a staff with whom we have had some 
contact. The visits that Elaine Kamarck made and the inquiries 
that she made were, as far as I knew at the time, based on an 
effort to be certain that our reinvention was as aggressive and 
effective as possible.
    Mr. Rogers. When did Elaine Kamarck visit with you?
    Ms. Meissner. Well, I would have to check. It's in that 
February, March period, 1996.
    Mr. Rogers. All right. Well, I'll have other questions, but 
I've overstayed my time.

                 development of citizenship usa program

    Mr. Mollohan. Thank you, Mr. Chairman. Ms. Meissner, just 
picking up on this Citizenship USA issue, Ms. Meissner, I would 
like to explore it a bit. You indicated that it was a program 
developed at INS. Could you tell us when it was developed?
    Ms. Meissner. The actual Citizenship USA planning began in 
earnest, in March of 1995. As we looked at our caseload numbers 
during fiscal year 1995, in other words, the fiscal year that 
began in October of 1994, we saw really mediocre increases. It 
was very clear that we needed to do something dramatic.
    Mr. Mollohan. So, you're suggesting the motive for the 
initiative was to clean up backlogs of naturalization cases?
    Ms. Meissner. The motive was to clean up the backlog and to 
be current in our handling of naturalization applications.
    Mr. Mollohan. Right. Who was involved in that planning?
    Ms. Meissner. It was internal. It was internally carried 
out in our examinations program.
    Mr. Mollohan. You say it was internal. You mean, it was 
developed solely among INS personnel?
    Ms. Meissner. It was developed within the Immigration 
Service. Let me give a little background to that. I had come to 
the agency with a strong interest in naturalization. I have, I 
think, probably been quoted on a number of occasions, saying 
that I wanted to put the N, back into INS. And so, the interest 
in naturalization----
    Mr. Mollohan. You brought with----
    Ms. Meissner. I brought with me. And it was reflected in 
some earlier work that the INS had done in the budget, for 
instance, in the fiscal year 1994 budget. We asked for an 
appropriation for naturalization, which had never occurred 
before, for the purposes of improving the system.
    But in terms of this specific program, the origins of it 
were early in 1995, in response to this caseload. We did bring 
in an outside contractor at that point, to help us with our 
planning, because we were still very focused on reinvention and 
on a total redesign of the naturalization program.
    That contract did not produce very helpful results. By the 
time it was completed, which was, by then, maybe May or June of 
1995, we were still seeing such huge increases, that we decided 
we could not do a full scale redesign of the program.
    We needed to do a series of improvements. And at the same 
time, we needed to deal with the volume of cases and management 
of that caseload.
    Mr. Mollohan. There's been an unpleasant suggestion, in a 
number of places, including here at this hearing,that there is 
some relationship between this initiative and some benefit to the 
Administration in the election.
    You're noting here that this planning process began at 
least 18 months ago, I guess, before the election. Can you just 
comment on that directly? Was there any motivation? Was 
naturalizing individuals so they could participate in that 
election, in any way, a part of your motivation?
    Ms. Meissner. There was not and it was not. As I said, I 
came to the agency with an interest in naturalization. Our very 
first budget in which I participated was 1994; it had a request 
for funding.
    We saw this incredible explosion in receipts, beginning in 
1995. It resulted, as we said, from legalization, which we had 
planned for and were predicting, but in addition, what began 
then, and has continued ever since is an unprecedented demand 
historically, for naturalization. Our motive was a workload and 
a mission motive.

                      Collaboration with Congress

    Mr. Mollohan. Well, let me commend you for bringing that 
mission to INS. It long needed that, quite frankly. As this 
process went forward, did you collaborate with Congress, with 
regard to this particular program?
    Ms. Meissner. We collaborated, yes. We sent forward two 
reprogramming requests.
    Mr. Mollohan. And did you detail what the program involved, 
in those reprogramming requests?
    Ms. Meissner. We did.
    Mr. Mollohan. Or otherwise, in your communication with the 
Congress, did you describe this program to the Congress?
    Ms. Meissner. We certainly described it in the 
reprogramming request. I would be happy to go back and check 
other oversight hearings and other hearing testimony. I'm 
certain that it has come up on a variety of occasions. It's 
always been an interest when I've met with state delegations, 
for instance.
    I do a lot of work with elected officials in the large 
states. In particular, they have always asked about 
naturalization and encouraged our being more responsive and 
more creative.
    Mr. Mollohan. Did you receive support from the Congress, 
with regard to this initiative?
    Ms. Meissner. Well, the Congress approved two 
reprogrammings, yes. One in, I believe, the summer of 1995; and 
the second, I believe, in--I have to check, but I believe in 
the end of 1995.
    Mr. Mollohan. Were those big reprogrammings?
    Ms. Meissner. They were substantial, yes. They allowed us, 
as I said earlier, to hire close to 900 temporary employees.
    Mr. Mollohan. In fact, the reprogramming requests for this 
program were in the neighborhood of $95 million; were they not?
    Ms. Meissner. I believe that is the total amount, yes. I 
should take this occasion to thank the Chairman and the 
Committee and the Senate for approving another reprogramming, 
where our citizenship work is concerned. That approval was just 
given last week.
    Mr. Mollohan. So, there was an interactive collaborative 
process involved with this Citizenship USA program, as you 
developed it, with open communication between you, as to its 
design and how you intended to implement it. Is that correct?
    Ms. Meissner. That's correct.

                      Administration Communication

    Mr. Mollohan. The Chairman raised some issues with regard 
to communication from the administration. I believe the 
Chairman indicated that this was picked up on some kind of an 
E-mail communication. First of all, are you familiar with those 
E-mail communications personally, that the Chairman references?
    Ms. Meissner. I am now, from having read them in the press.
    Mr. Mollohan. I'm sorry. I should have asked that more 
precisely. At the time that these E-mails were communicated, 
were you aware of that communication?
    Ms. Meissner. I had no idea of it, none whatsoever.
    Mr. Mollohan. As I tried to write down what the Chairman 
said, it sounds like the Administration was disappointed that 
the agency rebuffed any contacts from them, with regard to the 
Citizenship USA program, and that, in order for them to be 
effective at INS, they'd have to blast INS headquarters, and 
that they would have to break loose from front line managers. 
Are you the front line manager?
    Ms. Meissner. No. The front line managers would be 
basically referring to District Directors and their 
subordinates.
    Mr. Mollohan. So, I'm asking you to interpret these 
comments as best you can. And you perhaps will not be able to 
do that. But these comments suggest to me, that there was a 
serious rebuff, a stark rebuff in the INS ranks, even without 
your knowledge of these contacts, to the extent that they 
existed.
    Ms. Meissner. Well, there was a rebuff. The rebuff actually 
was a rebuff by me, by my Deputy, Chris Sale. We were very 
proud of what we were doing with the Citizenship USA process. 
We believed we had a creative, aggressive plan, which we were 
properly putting into effect.
    We were and always are open to suggestions. If there had 
been useful suggestions, we would have taken them. We did not 
find these suggestions to be useful.

                            Overhaul of INS

    Mr. Mollohan. Let me step back from this particular issue 
and get a little macro, with regard to the agency, if I might. 
I think it's fair to say, and you could probably develop a 
consensus pretty quickly, in this room, around this table, that 
when you took over INS, you took over a mess.
    I note, in reviewing some of the history of INS, that 
President Nixon even went so far as to assign a retired Marine 
Corps General to be the head of INS.
    Ms. Meissner. Commandant.
    Mr. Mollohan. The President appointed a Marine Corps 
Commandant to try to straighten out INS. What's impressive to 
me is that you have been, at least in my review of the history 
of INS, the first Commissioner to really bring a determination 
to this effort to overhaul the INS. I think we can agree that 
INS has had systematic problems and needs systemic reform, 
particularly with regard to management.
    ``Over the past decade, weak management systems and 
inconsistent leadership have allowed serious problems to go 
unresolved. Without coherent overall direction and basic 
management reforms, the organization has been unable to 
effectively address changing enforcement responsibilities and 
long-standing service delivery problems.''
    Now, I want to emphasize the GAO report from which I am 
quoting, preceded your commissionership of the INS. This report 
was commenting on INS before you got there.
    And last night, Commissioner Meissner, I spent some time 
reviewing a report produced by the National Academy of Public 
Administration, ``Budgeting for Performance, Strategy, 
Flexibility and Accountability to Meet a Demanding Mission,'' 
which is a review of your budgeting process.
    Frankly, I was struck by this report, and you have to get 
into some of this detail. And this is not interesting or even 
light reading. But I was struck by the serious approach that 
you have taken in bringing about management reform.
    I was also struck by the true necessity for systematic 
reform in this agency.
    I'm not going to give a speech here. I want you to comment, 
if you will, on the new priorities in the management structure 
that you have brought to the agency, and how you are trying to 
bring management improvements which don't get the headlines, 
but which I think really go to the substance of this hearing.
    If I might just add as an aside, nobody here is going to 
apologize for Federal employees that lie to Congress. Boom. And 
nobody's going to apologize for efforts to contact INS. But I 
want to compliment you for your rebuffs, with regard to the 
Citizenship USA program, however many problems there are in 
that program.
    But I would like you to comment on the management reforms 
that you are instituting. Perhaps you should be giving them 
more visibility, so that policymakers up here in Congress, your 
overseers, as this document starts out by noting, more 
understand the kind of management you are trying to bring to 
INS. At the same time, you are also managing an incredible 
ramp-up of a 141 percent increase in your budget?
    Ms. Meissner. Well, thank you. Of course, I would be happy 
to comment on those matters, because they are what preoccupy me 
and the leadership team at INS most of the time.
    They are what we are committed to achieving. That is, a 
basic reform of an agency whose mission is crucial to the 
effective carrying out of the nation's immigration laws, a very 
important set of laws. That particular report was very 
reassuring. It is a report that we asked for.
    We asked NAPA to come in and look at our budget process and 
give us a report card on how we were doing, because reforming 
the budget process and creating fiscal accountability was one 
of the first efforts that we put into place.
    They've given us not only a good grade, in terms of the 
budget process, they've given us some very useful 
recommendations for the future. And we are in the process of 
implementing those recommendations.
    Now, the reference that they make in that report, to 
overall strategic planning, and to priorities management that 
flows from this strategic planning, is something that we have 
worked very hard to institute over the last three years. And it 
is going quite well.
    Basically, what we do is establish a set of what we call 
the Commissioner's priorities for the year. And we measure our 
managers and the results of what our offices are doing around 
the country against those priorities.
    They are numerical measures. They are carried out through a 
monitoring process that takes place on a monthly basis, but 
that is highlighted by a meeting that I have every quarter with 
all of the key field managers.
    During that quarterly meeting, we look at what is happening 
with the budget, vis-a-vis, what is happening with our overall 
performance priorities. The performance priorities are very 
straightforward things. They are a certain number of removals 
from the country. They are a certain number of asylum 
completions. Citizenship USA was one of the Commissioner's 
priorities last year, and continues to be this year.
    They are the hiring that has been required and has really 
been, as I always said, the first among equals, of the 
priorities we have. We have added seven thousand people to this 
agency in the last three years.
    That alone, would strain an organization, from the 
standpoint of recruiting, evaluating, equipping, deploying. And 
we've done it at the same time that we have entirely revamped 
the hiring process. We provided those people with the equipment 
and everything else that they need to operate effectively on 
the border, at the ports-of-entry, in asylum offices, and in 
our citizenship offices.
    Now, what we have learned is that we are doing quite well 
on the looking ahead and on the setting goals and timetables 
for our people, in terms of what they need to achieve on a day-
to-day basis.
    What we have been lacking and what has been the source of 
some of the serious difficulties and setbacks that we've 
experienced, is the lack of an internal set of checks and 
balances that allow us to really go underneath and determine 
what is happening procedurally----
    Mr. Taylor. Mr. Chairman.
    Ms. Meissner [continuing]. In each of our offices.

                        REquest from Mr. Taylor

    Mr. Taylor. Excuse me, but, with all due respect we're into 
the hearing an hour and a half and I have two questions for the 
Attorney General. Would it be possible to receive this answer 
in writing? I don't mean to curtail your questions, but some 
Members unfortuntely have other hearings we need to chair and 
we would like to ask some questions.
    Mr. Mollohan. If my line of questioning is going to be cut 
off--Mr. Taylor----
    Mr. Taylor. Your line of questioning----
    Mr. Mollohan. Excuse me. I reclaim my time.
    Mr. Taylor. Well, the long response----
    Mr. Mollohan. And I reclaim my time. I invited a long 
response. If my line of questioning is going to be cut off, 
it'll be cut off by the Chairman. And thank you. The time I had 
allotted, I'll control exactly the way I want to control it.
    Mr. Rogers. The Gentleman has the time.

                         INS Management Reform

    Mr. Mollohan. Commissioner Meissner, because the real issue 
here is management and management reform. And perhaps it would 
be to the benefit of all of us, Mr. Taylor, to understand 
precisely what that's about.
    In addition to understanding the anomalies and the problems 
that INS is facing in management----
    Mr. Taylor. Would the Gentleman yield?
    Mr. Mollohan [continuing]. To this--no, I will not yield. 
And I'll be pleased to sit here respectfully and patiently when 
you have your time. Continue, Ms. Meissner.
    Ms. Meissner. Well, let me just complete with the checks 
and balance question, because it is not only terribly important 
for INS, it is very relevant to the issues that are on the 
table today.
    We have not had the internal checks and balances that we 
need. We had a mechanism to follow whether procedures are being 
carried out properly within the agency. That capability was 
removed from the INS in the early nineties, with the creation 
of the Inspector General function at the Justice Department.
    That ability and the staff and the office, to do work like 
that, was relocated from the Immigration Service. For two 
years, we have been trying to rebuild that program. We have now 
come forward with an effort that is called INSPECT, which gives 
us an internal inspections capability, that required a 
reprogramming, which has just been approved. Again, I want to 
thank this Committee for supporting that effort. We are in the 
process now, of a very aggressive program, whereby every one of 
our offices will be checked on either, a two or three year 
cycle, as to their compliance with agency procedures and 
instructions across the board. This is the next piece, I 
believe, in management reform, that is substantial vis-a-vis 
some of the other items that are pointed out in that report.

            NEXUS BETWEEN HEADQUARTERS AND FIELD OPERATIONS

     Mr. Mollohan. A couple of points have been noted, specific 
problems you're having in your management organization. And I 
think it essentially has to do with the nexus between 
headquarters and field operations.
    I note in this report, it talks about credible evaluation 
capacity and it also recommends that you address the field 
management issue. Could you speak to those two issues and tell 
how that is impacting your ability to manage this agency?
    Ms. Meissner. We have had some difficulties with internal 
communication. That is a challenge for any large organization. 
It is a particular challenge in the Immigration Service, with 
the complexity of our mission and the far-flung nature of our 
work.
    However, there are steps that we need to take to more 
aggressively create the kind of two-way dialogue within the 
organization that is a characteristic of a healthy 
organization.
    We are, right now, reviewing our organizational structure, 
from the standpoint of structural changes that could improve 
those processes, as well as from the standpoint of the kind of 
personnel mix and additional processes that we need to overcome 
some of those difficulties. We'll be coming forward with some 
recommendations in the next month to six weeks.
    Mr. Mollohan. Well, even prior to that, have you identified 
field management as a problem area?
    Ms. Meissner. What do you mean when you say field 
management?
    Mr. Mollohan. I mean your field management.
    Ms. Meissner. Our overall field management, we have----
    Mr. Mollohan. And have you taken any actions with regard to 
that----
    Ms. Meissner. We have a lot of change going on in the 
Immigration Service. And we have a lot of old habits that need 
to be abandoned. And we have new habits that need to be 
installed. And some of that goes with personnel and with 
particular personalities. We have made a lot of personnel 
changes.
    Mr. Mollohan. Have you made any personnel changes in your 
field organization recently?
    Ms. Meissner. That's an ongoing matter.
    Mr. Mollohan. Okay.
    Ms. Meissner. And I would be happy to provide some 
information on that.
    [The information follows:]
   Immigration and Naturalization Service Personnel Changes in Field 
                             Organizations
    The following is a listing of all District Directors, Chief Patrol 
Agents, Asylum Office Directors, and Service Center Directors appointed 
since October 1, 1996:
District Director
    Currently, the positions of District Director, St. Paul, MN, and 
Boston, MA, are under recruitment. Selections have been made for the 
positions of District Director, Chicago, IL, and Newark, NJ. The 
individuals selected for those positions are currently acting in that 
capacity.
Chief Patrol Agent
    Currently, the position of Chief Patrol Agent, Marfa, TX, is under 
recruitment.
Asylum Office Director
    Selections have been made for the positions of Supervisory Asylum 
Officer in the New York, NY, and San Francisco, CA, Asylum Offices. The 
individuals selected were to enter on duty on March 16, 1997.
    Currently, the positions of Supervisory Asylum Officer in 
Arlington, VA, and Newark, NJ, are under recruitment.
Service Center Director
    A selection was made for Service Center Director at the California 
Service Center. That individual entered on duty on October 24, 1996.

    Mr. Mollohan. Okay. All right.
    Mr. Rogers. If the Gentleman would yield briefly, I would 
point out that we will have the INS back up for a detailed 
hearing at another time.
    Mr. Mollohan. Mr. Chairman, I'm just trying to respond to 
some of the questioning that you're using.
    Mr. Rogers. I see. Your time.

                          1988 BUDGET REQUEST

    Mr. Mollohan. I understand that she's going to be back up. 
And I think she has to have an opportunity to speak to some of 
it.
    But let me go to the Attorney General. Attorney General, 
you did not--you chose not to make an opening statement. I'd 
like for you to summarize, for this Committee, the Justice 
Department's budget request and what your accomplishments have 
been this year and what you're going to--what new programs you 
might be requesting of this Committee.
    Attorney General Reno. For fiscal year 1998, we are seeking 
a budget that totals $19.3 billion, an $800 million or 4.9 
percent increase in discretionary funding over 1997.
    During these times of continued fiscal restraint and 
reducing Federal spending, our fiscal year 1998 request 
demonstrates our resolve to escalate the fight against drugs, 
youth violence, terrorism and illegal immigration. I would like 
to address one of the points though, because the Chairman and I 
had spent an awful lot of time together in these last four 
years, addressing the issues of concern.
    I'm very sensitive to the management issues, whether it be 
with respect to the FBI, INS or any other component of the 
Department of Justice. We have developed, with the components, 
objectives, measurements. And we regularly meet with them where 
there are concerns, to identify what is happening in achieving 
those objectives.
    I'm told, by career people who've been in the Department 
for some time, that this is the first time, in over 20 years, 
that they've ever seen anything like this. And we're constantly 
trying to see what we can do to identify problems before they 
really develop, and take effective action to develop the most 
effective Department possible.
    I look forward to working with members of the Committee, in 
developing this initiative and sharing, on a continuing basis, 
our findings. We have on, for example, IAFIS and NCIC 2000, 
concerns the Chairman has had for some time, tried to keep 
staff advised of developments and what we were doing.
    I will continue with this close management oversight, to 
ensure that the resources that you've provided are properly 
used, and that intended results are achieved. The budget I 
present today builds on a commitment made consistently by this 
Committee over the past four years, to strengthen our fight 
against crime, particular crimes of violence.
    What this Committee has done over the last four years, I 
think, merits a lot of the credit for a decline in the crime 
rate for five years running, across this country. And for the 
first time last year, a decline in youth violence, arrest 
rates, which I think are significant. But I don't want that to 
be a blip on the screen. And neither does the President.
    And for that reason, we are committed to an initiative that 
will provide $200 million for prosecutors to focus on gang 
prosecution and the elimination of gangs within the 
communities.
    We would increase amounts for children at risk and for 
programs for children at risk, truancy prevention programs, 
intervention programs, court programs, from $25 million to $75 
million. And we would provide monies of $50 million for courts 
across the country to develop special programs aimed at youth 
violence.
    We have worked with the State Chief Justices Conference and 
a number of initiatives and find that the courts are anxious to 
pursue these areas, particularly as they have been overwhelmed.
    Mr. Mollohan. Let me ask you, Madam Attorney General, are 
you suggesting, anywhere in your testimony here today, a 
refocus of resources in a particular direction?
    Attorney General Reno. Just a continuing effort in terms of 
violence against women, the COPS program, those programs that 
have been proven successful. We need to continue our efforts to 
be able to provide for the increasing inmate population. In our 
efforts on the southwest border, what we're trying to do is to 
build on the successes that we have had with this Committee's 
support and help in the last four years.
    But the particular focus is a continuation of our efforts 
focused on youth violence. We have seen programs that work in 
communities across this nation. Police chiefs, sheriffs, tell 
us that this is where we must focus our resources. And that is 
the basis for our requests.

                        INS MANAGEMENT CONCERNS

    Mr. Mollohan. You've heard the testimony and concerns 
expressed about INS management and the systemic concerns 
associated with that. This National Academy of Public 
Administration report that I referenced earlier, and quoted 
from, deals primarily with budgeting for the agency.
    It notes the organizational problems and it comments on the 
long-standing nature of them. I assume that you have had an 
opportunity to look at theses management challenges.
    And it just occurs to me that if we had an outside 
independent nonpartisan look at exactly what management changes 
INS ought to be implementing, if they are the ones that 
Commissioner Meissner is implementing, fine.
    If there are any additional suggestions, that would be very 
helpful. And I'm wondering what your comment on that might be, 
having an independent look at this situation, and perhaps the 
Congress, as it has been very helpful in providing additional 
resources to INS, to perform its mission.
    We might be refocused and be helpful with regard to the 
administration challenges that are certainly historically 
apparent, and that could perhaps need addressing even today.
    Attorney General Reno. We would welcome any such review. I 
think it is always extraordinarily helpful for an organization 
to have a review of that nature, have somebody with an 
independent, objective perspective review the issue. And we 
would be happy to work with the Committee in that regard.
    I would also point out, that as the Department has grown so 
dramatically, the capacity to develop the checks and balances, 
to the Inspector General's office, has not grown concurrently. 
And we've tried to patch and in different ways, we've asked for 
transfers to the Inspector General's office, for funding, so 
that we could pursue the development of checks and balances, 
audits and reviews.
    And I would look forward to working with the Committee, 
with Committee staff, in continuing to design these 
initiatives, such as INSPECT, such as internal procedures that 
can address the concerns as well.
    Mr. Mollohan. Okay. Thank you, Ms. Reno.

    CHECKING FOR CRIMINAL RECORDS FOR APPLICANTS FOR NATURALIZATION

    Mr. Rogers. Thank you. Before yielding to Mr. Latham, let 
me quickly ask Commissioner Meissner, I believe you said 
something to the effect that internal procedures need to be 
revamped.
    Are you referring to the fact that, at some point in time 
last year, you stopped checking criminal records for illegal 
immigrants who had made application for naturalization?
    Ms. Meissner. Illegal immigrants are not eligible to 
naturalize.
    Mr. Rogers. Well, immigrants; applicants for 
naturalization?
    Ms. Meissner. Applicants for naturalization?
    Mr. Rogers. Did you stop checking criminal records?
    Ms. Meissner. We did not stop checking criminal records. It 
is a requirement that a fingerprint card be submitted for all 
naturalization applicants.
    That fingerprint card is checked by the FBI and an answer, 
where there is a criminal record, comes to the Immigration 
Service.
    Now, there have been some deficiencies in that process. And 
Mr. Chairman, you may have been making reference to 1994, at 
the time there was a decline in the Exams fee account. And I 
believe they stopped briefly. But that was immediately 
reinstituted.
    Mr. Rogers. Let me see if I can reconstruct this and tell 
me if this is accurate.
    Ms. Meissner. Okay.
    Mr. Rogers. The policy was to seek the FBI fingerprint 
check.
    Ms. Meissner. Right.
    Mr. Rogers. And you did that. But during the year, the FBI 
was becoming flooded with the volume being sent. And they could 
not respond on the fingerprint check in the time frame that you 
wanted.
    So, at some point in time, you stopped checking and you 
went ahead with the processing of the naturalization 
application. Now, that's my understanding----
    Ms. Meissner. Okay. Let me try to----
    Mr. Rogers. Is that accurate or not?
    Ms. Meissner. That is not quite accurate. Let me try to 
succinctly----
    Mr. Rogers. Briefly.
    Ms. Meissner. I will try. The policy, since 1982, which we 
continued, has been to send a fingerprint card to the FBI. The 
FBI processes the card within 60 days. We hold the file for 60 
days. If we do not receive a response after 60 days, we go 
forward. That had been the policy. That is no longer the 
policy. But that is the policy that we have learned was 
insufficient.
    Mr. Rogers. Well, at any point in time, in 1996, was INS 
informed by the FBI, that a criminal record check may not be 
completed in that time frame?
    Ms. Meissner. No. What occurred is that we began in the 
summer of 1996, to receive some criminal records on people that 
had already been naturalized.
    In other words, the 60-day period, during which we held the 
file, waiting for an FBI response, had elapsed; we had not 
heard anything.
    Mr. Rogers. And you went ahead and naturalized----
    Ms. Meissner. And we then went ahead, which as I say, had 
been the policy since 1982.
    When we began to receive criminal records under those 
circumstances, we re-examined the policy, and in September, 
shifted to a 120-day period to wait for the FBI to respond.
    Mr. Rogers. Why did you change?
    Ms. Meissner. We changed because we realized that the 60-
day period was not catching everybody. It was not enough time 
for all of the cases. So, we doubled the amount of time.
    Mr. Rogers. Let me see if I've got this straight. At some 
point in time in 1996, when it became apparent the FBI was not 
going to be able to get you the fingerprint checks in the 60-
day policy time frame that you'd always worked under, you 
decided to go ahead and naturalize, even though they had not 
responded, after the 60-day waiting period?
    Ms. Meissner. That's correct.
    Mr. Rogers. Then, you later began to learn, when the FBI 
got back with you, that in fact, some of these people that you 
had naturalized, were in fact, criminals?
    Commissioner Meissner. Well, they had a criminal record. 
That doesn't mean they were criminals, but had a record.
    Mr. Rogers. All right. So, you then changed your policy to 
120 days.
    Ms. Meissner. That's correct.

                   NUMBERS OF DELAYED RECORDS CHECKS

    Mr. Rogers. This would give the FBI time to catch up. Now, 
how many people were naturalized out of the 1.1 million who did 
not have a proper criminal records check?
    Ms. Meissner. We do not yet know the answer to that 
question. That is the subject of the audit of all of thework 
that we did in 1996, so that we can be absolutely sure that it was done 
properly, or where it might not have been done properly, that 
naturalization can be revoked.
    Mr. Rogers. Well, maybe the Attorney General knows the 
number; or Assistant Attorney General Colgate.
    Attorney General Reno. Seventy-one thousand rap sheets have 
been identified as having FBI records; 34,700 individuals have 
been arrested only for administrative violations; 20,500 
individuals have been arrested for at least one misdemeanor, 
but no felonies, 10,800 individuals have been arrested for at 
least one felony.
    Mr. Rogers. And how many were not checked?
    Attorney General Reno. 113,126 persons have not had 
definitive criminal history checks conducted, because their 
fingerprint cards were rejected by the FBI; and 2,573 persons, 
whose records checks are still being processed by the FBI at 
the time that this data was produced; and finally, 55,398 
persons, we cannot determine whether or not FBI record checks 
were ever conducted.
    Mr. Rogers. So, when we rushed to naturalize these 
applicants, because you did so without the criminal records 
check, you must have known that you were going to naturalize 
some criminals.
    Ms. Meissner. Had we known that, Mr. Chairman, we would 
not----
    Mr. Rogers. Well, you must have known that.
    Ms. Meissner. We would not have proceeded. We did not know 
that.
    Mr. Rogers. Well, how could you not know it? If you were 
naturalizing 1.1 million, you'd have to know that you were 
going to get some criminals in the crowd, wouldn't you?
    Ms. Meissner. No, not unless you receive a record back from 
the FBI. See, the failing is----
    Mr. Rogers. Wait.
    Ms. Meissner. And this has now been corrected, what we did 
then, in November was require a 100 percent response from the 
FBI. In other words, we get an answer for every case.
    Prior to that, we got an answer only when there was a 
record. The presumption was, based on the FBI's processing 
estimates, the presumption was that if there was a record, it 
would be identified in 60 days and returned to us. If we did 
not hear anything, we assumed there was no record. That is the 
system that we had been operating under.
    Mr. Rogers. But the system doesn't work, because today, 
we've got at least 10,000 felons on the streets of our country, 
thanks to your incompetence.
    Ms. Meissner. We agree that system did not work. That is 
why we changed the system. However, there are not 10,000 felons 
on the streets.
    There are 10,000 cases that might have disqualifying 
arrests that we are reviewing. Just because somebody had an 
arrest, does not disqualify them from naturalization. So, all 
of those cases are being individually reviewed, to be 
absolutely certain. And when we have the answer, we will revoke 
the citizenship on those that were improperly decided.
    Mr. Rogers. If you can find them.
    Ms. Meissner. Yes. They will be findable. We have the 
biographic information on them.
    Mr. Rogers. Well, before I yield to Mr. Latham, let me just 
say, the policies that you had in effect, that were changed 
during the course of the year, as you tried to meet this 
million-plus goal by Election Day, waived all normal standard 
common sense procedures to check these people for criminal 
records. You waived that in order to get them naturalized so 
they could vote in the election. And I find that reprehensible.
    Ms. Meissner. Mr. Chairman, I must dispute that assertion. 
That is not what occurred. We, at every step along the way, 
strengthened the procedures where fingerprints were concerned. 
We were strengthening a system, as I say, that had been 
functioning since 1982.
    Mr. Rogers. You naturalized them without even hearing from 
the FBI.
    Ms. Meissner. Based on the method that we were using at 
that time, and until we began to see criminal records returned 
after the 60 days, we did not realize it was a system 
vulnerability. That, in retrospect, clearly, is something we 
wish we had foreseen.
    Mr. Rogers. The GAO and the Inspector General told you in 
1994 that it was a problem.
    Ms. Meissner. That is correct. And we took----
    Mr. Rogers. They told you three years ago.
    Ms. Meissner. A series of steps were put into place, 
between 1994 and 1996, to strengthen it. The whole difficulty 
is that we did not have a 100-percent reply policy. We now do, 
because the fixes that we made clearly were insufficient to the 
infrastructure and to the caseload that we're dealing with 
today.
    Mr. Rogers. Mr. Latham.

                   attorney general's responsibility

    Mr. Latham. Thank you very much, Mr. Chairman. Madam 
Attorney General, I haven't had a chance to meet you before, 
but my impression of you has always been that you've been the 
one person in the Administration that is very independent, very 
tough.
    And I have to tell you today, I'm deeply disappointed. You 
know, you talked earlier and said, ``the buck stops here.'' And 
then, when we talk about the problems, your first response is 
to pass the buck on to problems that were here before you, just 
passing the buck again.
    Attorney General Reno. No, sir. I didn't do that. I 
described what I inherited and then described what steps we 
were taking. You might not have heard me, but what I indicated 
to the Committee was, and you might not have gotten here yet--
--
    Mr. Latham. No, I was here.
    Attorney General Reno. Okay. We don't pass the buck, sir. 
We take steps to do whatever we can to fix problems and 
identify systemic problems. So, I can assure you that I accept 
responsibility, sir.

                          independent counsel

    Mr. Latham. I have a question about the special counsel 
situation. You talked about a trigger earlier.
    Attorney General Reno. Talked about what?
    Mr. Latham. A trigger, as to what triggers the special 
counsel.
    Attorney General Reno. A trigger.
    Mr. Latham. I was here for that. What is it exactly? Would 
you explain that procedure? What actually----
    Attorney General Reno. The statute provides that there must 
be specific and credible evidence involving acovered person or 
person with whom I would have conflict.
    Mr. Latham. And a known violation of law, obviously, would 
be a conflict. Is it----
    Attorney General Reno. I'm not sure I understand your 
statement.
    Mr. Latham. Well, there has to be something broken some 
place to have an investigation, or at least the charge that 
there is something broken.
    Attorney General Reno. There has to be specific and 
credible evidence, not just the charge, sir.

                soliciting funds on government property

    Mr. Latham. Is it legal to solicit funds on government 
property?
    Attorney General Reno. Sir, the matter is under 
investigation now, so----
    Mr. Latham. I'm not asking about the investigation.
    Attorney General Reno. I'm sorry, sir.
    Mr. Latham. I'm not asking about the investigation. I'm 
asking about a point of----
    Attorney General Reno. I'm sorry, sir. I cannot answer it 
because the----
    Mr. Latham. A point of law.
    Attorney General Reno. I cannot answer it, sir, because 
that matter is under investigation now, by the Department of 
Justice.
    Mr. Latham. Is there not a statute on the books, that 
prohibits----
    Aty. General Reno. But let me explain to you that there has 
always been----
    Mr. Latham. No, I am asking just a simple question, and 
you're----
    Attorney General Reno. Let me explain to you that there has 
always been----
    Mr. Latham. No, I am just asking a simple question, and 
you're----
    Attorney General Reno. Let me explain to you what has 
always been my policy, that I take the evidence and the law, 
research it and make the appropriate judgment. It is 
inappropriate for me to comment about a pending investigation. 
It is very----
    Mr. Latham. I'm not asking about a pending investigation. 
I'm asking about a point involving----
    Attorney General Reno. Sir, the whole matter today, based 
on the Chairman's state----
    Mr. Rogers. The Gentleman has the time. The question is, is 
it illegal to solicit funds on government property?
    Attorney General Reno. And I will not answer the question, 
sir, because it is a matter relating to a pending investigation 
to which you and other members of the Committee have made 
statements. I just----
    Mr. Rogers. The Gentleman is not asking about an 
investigation. He's asking whether or not there is a statute 
that prohibits fundraising on governmental property. It's not 
related to anything.
    Attorney General Reno. I'll be happy to provide you with 
whatever statute is appropriate, sir.
    Mr. Rogers. You're saying you do not know?
    Attorney General Reno. I'm not going to comment, Mr. 
Chairman.
    Mr. Latham. And the basis for not commenting is that there 
is a case pending?
    Attorney General Reno. That is correct.
    Mr. Latham. Is it illegal to speed?
    Attorney General Reno. Sir----
    Mr. Latham. I mean, there are cases pending.
    Attorney General Reno. It depends.
    Mr. Latham. It's just the same----
    Attorney General Reno. When I conduct an investigation, I 
don't do it in a congressional hearing room. I try to conduct 
it in a professional way.
    Mr. Latham. I'm not asking specifically about any case. I'm 
saying, as a point of law.
    Attorney General Reno. Well then, let me explain to you, 
that if you ask me that question and I answer it, it's going to 
be taken in the context of a major investigation that I had 
been questioned about today. And as I had indicated, on 
numerous occasions in the past, that is wrong for me to 
comment, until the matter is concluded.
    Mr. Latham. I just have to tell you, while I haven't been 
here that long, and I'm not a lawyer, I can tell you that when 
I first came here, the first thing that was told to me and 
emphasized over and over and over again, is that it is illegal 
to solicit money on government property.
    And when someone even mentions that, and I'm on government 
property, I say, I can't talk about that. I don't do that here. 
I know it's wrong; the American people know it's wrong. And you 
won't even answer a question, a simple question. And again, I'm 
very disappointed today.
    Attorney General Reno. I'm sorry you are, sir.
    Mr. Latham. Well, I think a lot of people are, but----
    Attorney General Reno. And I think most people will 
understand that we're trying to do this the right way, and that 
we're going to comply with the law, based on the evidence in 
the law. And we're going to make every effort to do that, sir.
    Mr. Latham. And as you're probably well aware, there seems 
to be systematic amnesia of the things that have not been 
straightforward, answers to direct questions for years now.
    And I think the American people are fine in saying there is 
something certainly wrong here. And the problem is, there are a 
lot of people who are very honest, very straightforward, who 
don't engage in these type of practices, who are being cast and 
painted with the same brush. And I think that's extraordinarily 
unfortunate. I really do.
    Attorney General Reno. I decide them based on the evidence 
and the law. And I'm going to continue to do that, sir.
    Mr. Latham. It's very difficult when people--and I'm not 
referring to you necessarily, become very evasive.
    Attorney General Reno. I'm not being evasive, sir. I'm just 
telling you why I can't answer the question.

                  contract with local law enforcement

    Mr. Latham. Okay. Ms. Meissner, and I'll be brief here. I 
had an amendment last year, in the immigration bill, that would 
allow the Department of Justice to contract with local law 
enforcement. Can you tell me if you're familiar with it?
    Ms. Meissner. Yes.
    Mr. Latham. And are the rules being written?
    Ms. Meissner. The rules are being written. We have a draft 
regulation that is circulating internally. We have a draft 
memorandum of understanding that is circulating. It has not yet 
come to me. But it is proceeding on pace, in terms of the 
entire regulatory fabric of the new bill that we are working 
on.
    Mr. Latham. You don't have a timetable or anything, at this 
point?
    Ms. Meissner. I don't, but I would be happy to get back to 
you with a timetable.
    Mr. Latham. I appreciate that. And thank you, Mr. Chairman.
    [The information follows:]
  Immigration and Naturalization Service Timetable for Actions Taken 
  Regarding Last Year's Amendment in the Immigration Bill that Would 
Allow the Department of Justice to Enter Into Agreements With State and 
                     Local Law Enforcement Agencies
    Sections 133, 372, and 373 of the Illegal Immigration Reform and 
Immigrant Responsibility Act of 1996 permit the Attorney General to 
enter into agreements with States, any political subdivision of a 
State, and with local law enforcement agencies for the purpose of 
authorizing their assistance in enforcing the immigration laws. The 
Immigration and Naturalization Service (INS) has developed a draft 
regulation reflecting the Attorney General's authority in this regard, 
as well as a draft Memorandum of Understanding (MOU) to be utilized in 
implementing this regulatory provision.
    Both documents are presently under executive level review within 
the INS, prior to being finalized. Based on past regulatory activities 
of the INS, it is anticipated that publication, public comment, 
appropriate revision, and eventual promulgation of this regulation will 
take about nine months with a final rule in effect by December 1997.
    The MOU is more general in nature and provides a suggested 
parameter for the parties to utilize in their implementation 
discussions. Accordingly, it is not entirely dependent on the specific 
content of the final regulation. However, the INS will not be in a 
position to fully utilize the MOU until the regulation becomes final. 
Because of the sensitivity and complexity of the relationships and 
authorities involved, it is anticipated that after the regulation 
becomes final, it would take at least six months to negotiate the first 
MOU on this subject.

    Mr. Rogers. Mr. Dixon.

                       comment on pending matters

    Mr. Dixon. Thank you very much, Mr. Chairman. I'd like to 
welcome both of you ladies to the Committee. I for one, have 
admired the position that the Attorney General has taken, and 
it certainly has worked for Commissioner Meissner on several 
issues.
    Madam Attorney General, I would give you any part of my 
time, uninterrupted, to make any statement on the issues that 
Mr. Latham has brought forward here.
    Attorney General Reno. As I told him, I can't comment on a 
pending matter, sir.
    Mr. Dixon. Right.
    Attorney General Reno. And I thank you for that 
opportunity.

                         fbi fingerprint checks

    Mr. Dixon. All right. Thank you, Mr. Rogers. Commissioner, 
let me back up, because I think the facts have come out in bits 
and pieces. For instance, you indicated that the policy had 
been to apply to the FBI for fingerprint check. And then, if 
you did not hear back in 60 days, there was a presumption that 
the person had no criminal record.
    Ms. Meissner. That is correct.
    Mr. Dixon. And did you implement that policy? How far back 
does that policy go?
    Ms. Meissner. That policy began in 1982. It had been used 
by the agency for 15 years.
    Mr. Dixon. And then, when you took over the 
responsibilities at the INS, you implemented a new program.
    Ms. Meissner. That's correct.
    Mr. Dixon. And that program was called Citizenship USA.
    Ms. Meissner. That's right.
    Mr. Dixon. Did the FBI ever tell you that 60 days would not 
be sufficient in the future, after reviewing what your program 
would be?
    Ms. Meissner. The FBI had, through long-standing 
interaction, depended on the 60-day time frame. In other words, 
the percentages of workload that the FBI is able to complete 
within 60 days, is in the high 90 percentiles.
    And so, we have a level of confidence that that was 
adequate. It has turned out to have been inadequate. But at the 
time, it seemed sufficient.
    We were, as the Chairman mentioned, in receipt of an 
Inspector General report, in 1994, that asked for particular 
strengthening in the fingerprint process. We were aware that 
there were weaknesses.
    We were taking steps to adjust and to strengthen the 
procedures. We did not appreciate, at that time the need for a 
100-percent verification.

                      policy on fingerprint checks

    Mr. Dixon. Well, that's what I was trying to get to 
Commissioner. It would appear to me, that the report of the 
Inspector General is at odds with what the policy was.
    For instance, it says here, that the INS could not know 
whether fingerprints it sent to the FBI actually belonged to 
the applicant.
    Secondly, it says INS approved applications without knowing 
if the applicants had criminal histories, because INS did not 
wait for a report from the FBI.
    Now, what I heard you say was, that in 1994, when this 
report that I'm referring to was issued, you didn't wait for a 
response from the FBI. The absence of a report indicated a 
clean record.
    All I'm asking is that, it seems that you and the Inspector 
General are on a different page. And I would think that this 
would clearly point that out. Am I correct? You were not 
waiting for a report from the FBI. If you got a report back, 
you pulled that applicant?
    Ms. Meissner. The policy was to wait for 60 days, which was 
the FBI's own standard of what period they believe they needed 
in order to process fingerprints adequately.
    The difficulty is that it was an exception. It was 
basically managing by exception, rather than having a 100-
percent assurance. And it's that 100-percent assurance that we 
clearly needed to have and have now instituted.
    Mr. Dixon. Now, a criminal record in and of itself is not, 
as I understand it, a bar to taking citizenship?
    Ms. Meissner. That is correct.

              estimate of applicants with criminal records

    Mr. Dixon. Can you give us an estimate of how many people 
that came back with a criminal record, that you have already 
put into the system for citizenship, would have, in fact, been 
prohibited from taking citizenship? Large amount?
    Ms. Meissner. Well, at the present time, as the Attorney 
General said, of the 71,000 cases that did have a criminal 
record, 10,000 of those were felony crimes.
    Mr. Dixon. All right. Now, all felony crimes are not a bar 
to citizenship.
    Ms. Meissner. But all felony crimes are not a bar to 
participation.
    Mr. Dixon. Okay. So, let's focus in on the 10,000.
    Ms. Meissner. So then, you have to reduce from that 10,000 
and we have not reviewed every one of those cases.
    Mr. Dixon. Have you done a random sampling?
    Ms. Meissner. No, we've reviewed more than 9,500 of those 
10,000 cases.
    Mr. Dixon. So, you have reviewed all but about 500?
    Ms. Meissner. That's correct.
    Mr. Dixon. Okay. Now of that group, how many would have 
been prohibited from taking citizens?
    Ms. Meissner. One hundred sixty-eight that were improperly 
decided, we believe.
    Mr. Dixon. So, of the 180,000, is that the number that----
    Ms. Meissner. One hundred eighty thousand is another 
category of people. What I'm telling you, in what we just 
talked about, has to do with----
    Mr. Dixon. I guess I'm working off of the newspaper's 
number. The newspaper says that 180,000 people, slipped through 
the cracks, without the check.
    Ms. Meissner. Right. The 180,000 is the number that we 
cannot verify.
    Mr. Dixon. Okay. Well, let's use the biggest number 
possible.
    Ms. Meissner. Okay. You can use 180,000.
    Mr. Dixon. Okay, 180,000. There are actually, as far as you 
know, about 168 that would have been barred from----
    Ms. Meissner. No, those two numbers are not connected. And 
you just set aside what I said. If we now go to the 180,000, 
the 180,000 is made up of 113,000, who have had a name check. 
That is a threshold check, but it is not a full fingerprint 
check.
    The reason they have had a name check is because their 
fingerprint cards were rejected. They were unclassifiable for 
one reason or another.
    So, as far as we have been able to go with them is a name 
check. From that name check, we have some level of confidence 
that they are not criminals. But that is not a 100-percent 
level of confidence.
    The 113,000 is added to by 66,000, which brings you 
roughly, to 180,000. That 66,000 is the group that we cannot 
account for at this point.
    In other words, those are fingerprints that were either not 
submitted or they were submitted. And there are data 
inaccuracies in the FBI's billing records that we have been 
using as our audit trail here.
    It is that group, that 66,000, that we are working with 
most intensively right now, from the standpoint of trying to 
determine whether they were properly checked.
    Mr. Dixon. You completely lost me with all the figures. 
But----
    Ms. Meissner. I'm sorry.
    Mr. Dixon. What I am trying to establish in my own mind, is 
whether those would have been barred, not withstanding what 
happened. Was it small or was it a gigantic figure? That's what 
I'm asking. As I understand what you're saying is, out of the 
10,000 that had criminal records, that you've checked, that 170 
odd would have been prohibited from taking citizenship, and 
there are an additional 66,000 that you don't know about, 
because they're in the process of having their criminal records 
checked. Is that correct?
    Ms. Meissner. That is a fair summary. But I must say that I 
also don't want to, in any way, reach any conclusions here on 
this. I know that the Attorney General does not want to reach 
any conclusions here.
    Mr. Dixon. Why?
    Ms. Meissner. Because we are in the process of doing this 
audit.

                  voting in elections by new citizens

    Mr. Dixon. But we do know, that of the 10,000, 
approximately 9,500 were checked and approximately 170 would 
have been prohibited from taking citizenship?
    Ms. Meissner. That is our best information at this time.
    Mr. Dixon. Now, let me ask you just one other question, and 
then, I'll yield, Mr. Chairman. It's been my experience, in 
California, that people who are applying for citizenship, one 
of the things that they are anxious to do is vote in elections.
    Ms. Meissner. I don't ask or have any basis for knowing 
what the motives of people are, who apply for citizenship.
    I know what our caseload is and I know how it has grown and 
I know what the public events are that seem to be connected to 
that. That's as far as I would like to go.
    Mr. Dixon. You don't get more phone calls in an election 
year, about where appliants are on the ladder of becoming a 
citizen? It doesn't increase in an election year?
    Ms. Meissner. We have no system for tracking that. It's not 
a question that we would ask or an issue in which we would be 
interested. Voter registration and voting is not my 
responsibility. It's the responsibility of States and State 
registrars.
    Mr. Dixon. So, the fact that it was an election year, and 
that this process was enhanced has no significance to you?
    Ms. Meissner. In our caseload, when we look at our 
caseload, we see it has a direct----
    Mr. Dixon. That's the allegation here. The paper and others 
here are saying that you, in fact, accelerated this process, 
because an election was coming along.
    Ms. Meissner. That is not true. We did not accelerate the 
process. We handled it in the way that it should have been 
handled all these many years, which is within six months, 
because that is a reasonable time period in which to make a 
decision.
    That was not being done by the Immigration Service for a 
long time. It should be done. People have a right to have their 
case decided. They have a right to become a citizen.
    When they become a citizen, the Government has a 
responsibility to satisfy itself that the requirements have 
been met. But the work should be done. We did our work.
    Mr. Dixon. Thank you, Commissioner. I'm very proud of your 
statement.

                      60-day fbi fingerprint check

    Mr. Rogers. Before yielding to Mr. Kolbe, now what's your 
policy, this moment, on the 60-day FBI fingerprint check?
    Ms. Meissner. At this moment and as of November 29th, 1996, 
the policy is that all files are held until there is a 
response, either yes or no, from the FBI, regarding the 
existence of a criminal history.
    Mr. Rogers. Regardless of the 60-day?
    Ms. Meissner. The 60 days is history.

                  reason for abandoning 60-day policy

    Mr. Rogers. Why did you abandon the 60-day policy?
    Ms. Meissner. Why did we abandon it?
    Mr. Rogers. Yes.
    Ms. Meissner. We abandoned it because it became clear, in 
looking at the matching of records, that it was not reliable. 
If we all had been able to foresee or had a crystal ball a year 
or two ago, and realized the weaknesses, we would have 
abandoned it earlier.
    We knew that it was a system that had weaknesses, but we 
were making a series of improvements in the ways in which we 
were handling the fingerprints. We finally realized we had to 
simply abandon it.
    Mr. Rogers. It's a simple question that requires a simple 
answer. We've always had the 60-day waiting period for the FBI 
to check fingerprints and see if they're criminals. We always 
had that.
    And yet, somewhere in 1996, and you were under pressure to 
speed this program along, somebody decided to change the 60-day 
policy and extend it to 120 days. Was that your decision?
    Ms. Meissner. Yes. Yes, that was.
    Mr. Rogers. And when was that?
    Ms. Meissner. It was changed in September.
    Mr. Rogers. Why did you do that?
    Ms. Meissner. Because in July and August, our field offices 
reported to us that they were beginning to receive criminal 
history records from the FBI, after the 60 days.
    Mr. Rogers. No, my question is, why did you go ahead and 
naturalize people at the end of 60 days, even though the FBI 
had not reported?
    Ms. Meissner. Because the procedure was if they did not 
answer us within 60 days, we assumed that there was no criminal 
history, record. Our experience over 15 years was, that we 
received the criminal history within 60 days. If we heard 
nothing, it was okay. That was the working arrangement with the 
FBI.
    Mr. Rogers. But the GAO told you, in 1994 that, that was a 
very serious problem.
    Ms. Meissner. That is correct. They pointed that out as a 
problem. It was a problem that we were correcting, from the 
standpoint of centralizing our capability to send records, and 
centralizing our capability to receive rap sheets back.
    We didn't have, nor did the FBI have the capability to do a 
100-percent verification. We have now created that capability.

  reports from field offices regarding the receipt of criminal records

    Mr. Rogers. Mr. Kolbe.
    Mr. Kolbe. Thank you, Mr. Chairman. Welcome, General Reno, 
Ms. Meissner. I just want to follow up on a couple of those 
questions.
    I'm not sure I understand. What is it that you believe 
caused this--had this been a practice that was going on all 
along?
    Why did you suddenly get--with these reports from the field 
office--that there were criminal records coming back if there 
wasn't a sudden surge in the Immigration Naturalization process 
that caused the FBI to be unable to meet the 60-day 
requirement? Or was there something else internally in the FBI, 
that caused this to happen? You follow what I'm saying? I mean, 
why----
    Ms. Meissner. We believe that the reason we began to 
receive responses later than the 60 days, was because finally 
this summer, we became timely.
    Mr. Kolbe. You were processing more of them more rapidly.
    Ms. Meissner. We were processing them within the six-month 
period. We had increased our volume by at least double. That 
put a strain on the infrastructure that it was not capable of 
handling.
    Mr. Kolbe. I'm sorry. You increased what volume by double?
    Ms. Meissner. Well, the number of applicants that had filed 
whose cases we were adjudicating, had doubled from the prior 
year.
    Mr. Kolbe. And the fact that you were able to process 
double the number, in a timely fashion, you hadn't been able to 
do that before.
    If you'd had a doubling before, you wouldn't have been able 
to process it in a timely fashion, would you have? And then, 
you wouldn't have run into the 60-day problem.
    Ms. Meissner. That's right.
    Mr. Kolbe. I mean, if you'd been pushing the same number 
through the system, you wouldn't have run into this. So, we 
pushed a large number through the system. How were you able to 
accomplish that?
    Ms. Meissner. We accomplished that by substantially 
increasing our processing capacity. We opened nine new offices. 
We hired 900 additional employees through reprogrammings and 
funding that this Committee reviewed and approved.
    We added a great deal of automated support to our district 
offices, as well as our processing centers that handle these 
applications.
    In other words, we increased our capacity commensurate with 
the caseload that we had begun to receive. It was skyrocketing.
    Mr. Kolbe. And when did this begin, this speedup, this 
added capacity to process these? When did this begin?
    Ms. Meissner. Well again, I want to be sure that it's 
understood, that the speeding up was purely a matter of 
handling the applications timely. It would have been in March 
of 1995. It was in response to what, by that time, in fiscal 
year 1995, was becoming double the number of receipts that we 
had gotten, the number of cases that had been filed the prior 
year.
    Mr. Kolbe. March of 1995?
    Ms. Meissner. March of 1995.

                           legal immigration

    Mr. Kolbe. In March of 1996, your press operation issued a 
press release saying, legal immigration had dropped by 10 
percent.
    Ms. Meissner. That's quite separate from the naturalization 
process.
    Mr. Kolbe. It is?
    Ms. Meissner. Well----
    Mr. Kolbe. Immigration and naturalization don't go kind of 
hand in hand?
    Ms. Meissner. The legal immigration numbers referred to, by 
and large, referred to people who legally immigrate. In other 
words, people who have become permanent residents.Once a 
permanent resident is here for five years, he becomes eligible to be 
naturalized.

                    reduction in illegal immigration

    Mr. Kolbe. Your press materials quoted you as saying that 
your approach to reducing illegal immigration was working.
    Ms. Meissner. Well, people who have become naturalized 
citizens, can petition for certain family members, spouses and 
children, without being subject to numerical limits.
    And so, it is true that your legal immigration levels are 
somewhat affected by your naturalization levels. But that was 
not related to increasing capacity to handle naturalization 
applicants.

                           voter registration

    Mr. Kolbe. Well, you said earlier, in response to another 
question, that voting is not your responsibility.
    But I believe you do track, since you do registration, I've 
participated in many of these seminars. They're wonderful 
ceremonies. And there's always registrars right there at the 
election. Do you not survey, to see how many register to vote?
    Ms. Meissner. Absolutely not. These are citizens. Once 
people are citizens----
    Mr. Kolbe. I understand that.
    Ms. Meissner. They are not under our authority.
    Mr. Kolbe. I understand that, but I mean, it's' a common 
thing to do. For example, motor voter, to test how many are 
registering when they get their licenses, and track that number 
to see whether this is working or whether people are 
registering at this office. There's no----
    Ms. Meissner. We may accept----
    Mr. Kolbe. No survey of any sort?
    Ms. Meissner. None. Traditionally judges, because 
traditionally naturalization has been done by the Judiciary, by 
Federal judges, in courthouses and so forth.
    Some naturalization now, because the law changed, we do 
administratively. But by and large, they are done by judges.
    The naturalization ceremony setting is one where 
traditionally, organizations like the DAR and the League of 
Women Voters and so forth, have come to offer registration to 
the new applicants. The Immigration Service is not involved in 
that.
    We are at the naturalization ceremony, in order to 
recommend to the judge who the new citizens are. The matter of 
voter registration taking place after the ceremonies is 
something that does not involve INS personnel.
    Mr. Kolbe. Does the naturalization form contain any 
information, or any of the materials you've given, contain any 
information about registering to vote?
    Ms. Meissner. No.
    Mr. Kolbe. Are you planning to do that, to change the form?
    Ms. Meissner. No, the form has nothing on it about voting.
    Mr. Kolbe. Is there any plan, to include in the materials, 
voter registration?
    Ms. Meissner. At naturalization ceremonies, either 
registrars or legal voter registration personnel or whatever, 
will put voter packets or voter information on the seats, of 
people who are at the ceremony.
    But again, that is the community. That is local registrars. 
That is not the Immigration Service that does that.
    Mr. Kolbe. There is not on the form, or any plan to put on 
the form, a box to check or something to check, do you plan to 
register to vote?
    Ms. Meissner. Absolutely not.

                       revocation of citizenship

    Mr. Kolbe. Just wanted to ask. General Reno, how many cases 
have you actually so far, proceeded to revoke citizenship, 
based on the late data which came in from the FBI fingerprints 
check?
    Attorney General Reno. I have just gotten that data. So, I 
do not know whether revocation proceedings have been commenced 
or not, I just received the data.
    Mr. Kolbe. Received which data?
    Attorney General Reno. The data with respect to the----
    Mr. Kolbe. Numbers?
    Attorney General Reno. Yes.
    Mr. Kolbe. That you gave us, but you don't know whether 
any, since November, or since July, when these first reports 
started to come in, whether a single revocation has begun at 
this point?
    Attorney General Reno. No, I don't. Be happy to----
    Mr. Kolbe. I have the list.
    Ms. Meissner. We can provide that to the Committee.
    [The information follows:]
  Immigration and Naturalization Service Report on Number of Cases in 
           Which the INS Has Proceeded to Revoke Citizenship
    The INS is in the process of conducting a full review of cases of 
persons with FBI records listing a felony arrest, who were naturalized 
between August 31, 1995, and September 30, 1996. If additional 
information confirms that there was a disqualifying conviction, INS 
will administratively revoke the citizenship of that person. The 
National Review Team at the Lincoln, Nebraska Service Center has not 
completed its review of naturalization cases and, therefore, does not 
have a final count that will require their naturalization to be revoked 
administratively at this time.

                             120-day policy

    Mr. Kolbe. Either one, provide that for the Committee. I 
think we should know whether there were actual proceedings to 
revoke registration, naturalization, citizenship.
    Ms. Meissner, you said that the field managed to solve the 
problem in July. You promulgated the change in September? But I 
think, it didn't actually go into the 120-day. You wrote the 
new policy in September, but it didn't go into effect until 
November. Is that right?
    Ms. Meissner. No. In September, we changed to 120 days.
    Mr. Kolbe. You gave November----
    Ms. Meissner. In November, we completely changed the 
policy. In other words, in September, we realized that we 
needed to give the FBI more time to answer back. And so, we 
doubled the amount of time in which we would hold a file before 
proceeding we doubled it to 120 days.
    Mr. Kolbe. Written policy, in place, at that point----
    Ms. Meissner. In September?
    Mr. Kolbe. Yes, in September, was that a written policy?
    Ms. Meissner. Yes.
    Mr. Kolbe. In November then----
    Ms. Meissner. And in November, we changed the paradigm. In 
November, we said, no more presumption; no more waiting a 
period of time period. We're going to have a 100 percent 
answer.
    Mr. Kolbe. No more 60, 120, 180 or 1,200 days?
    Ms. Meissner. That's right.
    Mr. Kolbe. Until you get an answer back?
    Ms. Meissner. We are going to have an answer yes or no. And 
that's what's in place now.
    Mr. Kolbe. Why? Why not take from July to September to make 
first change, and from September to November to make second 
changes? When you get the reports back--if I had gotten two 
reports back, one report back saying, whoops, we slipped; and 
here is somebody who has a criminal record. I would have said, 
umph, something is wrong with this policy. Let's change that 
instantly.
    Ms. Meissner. Well, you have to first find out whether 
it's, in fact, a problem or whether it's an aberration of some 
kind.
    Frankly, I believe we turned around very quickly on this. 
Once we began to see that it wasn't working, we checked to see 
why. When it became quite clear that the procedure needed to be 
changed, we changed it.

 discussion with fbi regarding processing time for increased volume of 
                      fingerprint checks requested

    Mr. Kolbe. You described earlier your tremendous increase 
in resources to process these people more rapidly, that you 
opened new centers, that this Committee reprogrammed some 
money. You were going to reprocess the backlog a lot more 
rapidly on naturalization.
    Did you--did anyone on your staff have any conversation 
with the FBI, about whether they would be able to handle these 
things in a timely fashion, would they be able to get them back 
to you in a timely way? Or did you just do it without--or just 
totally forgotten that this was part of the process?
    Ms. Meissner. We were doing it more rapidly than we had 
been in the prior year. But we were doing it at the pace that 
we should have been doing it.
    Mr. Kolbe. That doesn't answer my question. This was faster 
than you had done it in the past. You were processing them at 
a----
    Ms. Meissner. We were treating them timely. We were 
attempting to reduce a backlog and treat cases timely.
    Mr. Kolbe. You were processing--you were moving them 
through the process, I think you said, at about double the 
rate. And was there any conversation----
    Ms. Meissner. No, we had doubled the caseload.
    Mr. Kolbe. Caseload.
    Ms. Meissner. Doubled the caseload, moving them through the 
process.
    Mr. Kolbe. But you told me that's because there were more 
moving through, that's why you suddenly ran into this, that the 
FBI wasn't able to meet the 120-day requirement. At least, you 
thought that was part of it.
    Ms. Meissner. We had doubled the caseload. So, it put a 
strain on a system that was not sufficiently initiated.
    Mr. Kolbe. Prior to doubling the load, prior to putting the 
strain, was there any conversation with the FBI, to alert them 
that you were going to be doing this, to try to avoid this 
problem?
    Ms. Meissner. I think it's fair to say that neither we nor 
the FBI sufficiently appreciated what this new caseload and the 
demands that it would put on the system's----
    Mr. Kolbe. Well, the FBI couldn't anticipate. I mean, they 
didn't know what you were up to over there. You hadn't sent a 
memo saying, we're going to do this tremendous increase. That's 
my point.
    Ms. Meissner. Well, there is ongoing discussion. I mean, 
there is staff level discussion.
    Mr. Kolbe. Now.
    Ms. Meissner. No. Always has been.
    Mr. Kolbe. So, they were totally aware of this ramping up 
of the numbers that were coming through the system. Is that 
correct?
    Ms. Meissner. At a working level, there would have been an 
awareness. The feeling was, that the deficiency created was the 
result of neither the Immigration Service or in the FBI, 
sufficiently grasping at a management level, at a decision 
level, what difficulties this would pose.

                        san clemente checkpoint

    Mr. Kolbe. Okay. Just one other line of questioning, 
totally aside from proving the old adage that all politics is 
local here.
    You and I have had more than just a few conversations about 
permanent checkpoints on INS border patrol checkpoints. And 
this does involve both the Attorney General and the 
Commissioner, probably much more, who should be prepared to 
answer the specifics of this.
    Much of the argument that you have given us, for the 
checkpoint in Arizona, on Interstate 19, has been the 
successful operation of the San Clemente checkpoint.
    The first question I want to ask is, you testified last 
May, that the checkpoint, San Clemente now, we're talking 
about, complied with law and would have a commuter lane up in 
one month. Did that occur? Did you have a commuter lane 
operating within one month, at that time?
    Ms. Meissner. We had----
    Mr. Kolbe. Do you have a commuter lane operating now?
    Ms. Meissner. We actually, in June, will be opening a 
commuter lane, in San Clemente.
    Mr. Kolbe. But not previously?
    Ms. Meissner. No. It is exactly on schedule to open in June 
of this year. Now, the testimony that----
    Mr. Kolbe. In May of 1996, you said, within one month.
    Ms. Meissner. Well, let me go back to last year. We were 
talking about two different things. I was talking about one 
thing. And I don't remember who was asking me the questions. I 
think it might have been Chairman Rogers. We had different 
definitions.
    We were operating as though it was not a dedicated lane, 
not a lane that was solely set aside for commuters.
    What we were dealing with last year was a decal system, in 
which particular cars and drivers who had been pre-cleared 
would be waved through. But they were in the rest of the 
traffic. They were not in a lane dedicated for their use.
    That created a misunderstanding. At that time, there were 
only four lanes; there was not a lane that could have been 
devoted to commuters. Since then, we have built two additional 
lanes.
    Those lanes are opening in June. Let me check to be 
absolutely certain, because I don't want to misspeak. One of 
those lanes will be solely dedicated to commuter traffic.
    [The information follows:]

    Immigration and Naturalization Service Opening Date for the Two 
            Additional Lanes at the San Clemente Checkpoint

    The lane construction for the two additional lanes at the San 
Clemente Checkpoint will be completed on May 30, 1997. Associated 
signage and safety features will be finished by June 15, 1997. After a 
two-week allowance for contractor cleanup and closing of the contract, 
the new lanes should be open for public use on June 30, 1997.

                   24-hour checkpoint at san clemente

    Mr. Kolbe. You also told us, and I believe it was in that 
same testimony, that the San Clemente checkpoint was 
functioning on a 24-hour a day basis. Subsequently, the 
Department of Justice Inspector General investigated and found 
that not true. Is that accurate?
    Ms. Meissner. Well, we again had a definition difficulty. 
Twenty-four hours was being interpreted by our people on the 
ground to mean that the Border Patrol officers were in the lane 
or observing from the side of the highway and pulling cars over 
that were suspect. We had viewed that as a 24-hour, seven days 
a week operation. In subsequent conversations with Congressman 
Packard, it became very clear to me that that was not his 
definition of a 24-hour operation, seven days a week.
    His definition meant in the lanes the entire time. We have 
corrected that. We are operating according to the definition 
that Congressman Packard established. We are also monitoring 
it. There is a precise definition now of the kinds of weather 
conditions, such as fog or anything that precludes for safety 
reasons, being in the lanes 24 hours, seven days a week.
    I apologize and the Department has written to the 
Committee. I simply did not havethe complete information at 
that time. I was absolutely not attempting to obfuscate or mislead. I 
was just not as fully prepared as I might have been.

                  i-19 checkpoint incident in arizona

    Mr. Kolbe. Well, I'll accept that, since you're 24 hours a 
day all over the country and you've got people out there 
monitoring from the side of the road. However, I don't know how 
you could have misinterpreted. I think it was clear that, I 
understood, that we were talking about the checkpoint itself, 
about whether the checkpoint was ``functional'' as a checkpoint 
of stopping all the cars coming through on a 24-hour basis.
    My last question has to do with--I'd just like assurance 
that we've got some procedures in place to prevent the kind of 
incident that occurred last November, in Arizona, where a 
busload of Mexican legislators from Sonora came through the 
border, were processed through and then went up to the 
temporary checkpoint, there on I-19, and were turned back 
because of an error.
    An INS agent neglected to put two names on the list of 
those they were taking back, under escort, to the border. These 
are Mexican officials, legislators.
    They were, of course, late and missed all their meetings in 
Phoenix, as a result of that. What can you tell me has been 
done to make sure that kind of incident doesn't occur again?
    Ms. Meissner. Well, that was an unfortunate incident. I 
have reviewed the correspondence on it. Actually, the officers 
at the checkpoint were doing what they were supposed to.
    The problem occurred when the bus crossed the border. It 
wasn't entirely clear which people, in fact, were needing this 
particular document.
    We have asked that there be communication in advance, of 
visits like that in the future so that we can expedite and 
facilitate the passage of these groups. In addition, we are in 
the next several months, abandoning the document procedure that 
was used in those cases and instituting a more effective 
procedure across the board for groups like this.
    Mr. Kolbe. This relates to that checkpoint. Wouldn't it 
make sense to have a system where a phone call down from the 
checkpoint, down to the border might have cleared that up?
    Ms. Meissner. I agree with you. It might have been handled 
more effectively. We have tried to take steps to be certain 
that nothing like this will happen again.
    Mr. Kolbe. Thank you, Mr. Chairman.

                 numbers on naturalization revocations

    Ms. Meissner. Mr. Chairman, could I just say, in response 
to your revocation question, because I now have that 
information. In fact,
    Mr. Kolbe. On the numbers of revocations there have been--
--
    Ms. Meissner. Of naturalization. Right. It turns out that 
the first revocation, in fact, was served in Arizona, in 
November. So, the revocations are beginning. The first one 
happens to be in your State.
    Mr. Kolbe. Gosh, if it was one of my constituents, I hope 
he got to vote for last November.
    Mr. Mollohan. How do you know he was registered?
    Mr. Kolbe. I don't know. But I just said, I hope he got to 
vote.

 cost of audits to review records of possible criminals who have been 
                              naturalized

    Mr. Rogers. Now, we're having to go back, as I understand 
it, and try to find out how many of the people who were 
naturalized, of the 180,000, that we don't know how many had 
criminal records and especially, the 10,000 plus, who came back 
with a felony record? We're doing an audit of all of these, 
right?
    Ms. Meissner. Yes.
    Mr. Rogers. Now, how much is all of that going to cost us?
    Ms. Meissner. We have worked up the cost estimates. We can 
provide it for you. I believe that the dollar amount is $3.9 
million.
    [The information follows:]

 Immigration and Naturalization Service Cost Estimate for Auditing of 
                            Naturalizations

    At present, the current and projected costs of the audit review to 
date are listed below; however, these costs are preliminary and do not 
include, for example, the total cost of reengineering the 
naturalization process (estimated at $4,300,000), or possible 
revocations (de-naturalizations).
                                                                  Amount
Current Projected Costs for Audit Review:
Field Cost--(Salary, Benefits and Overtime).............        $637,000
    FBI Record Check Costs..............................       2,000,000
    KPMG Contract Costs.................................     \1\ 926,500
    EOIR Costs--Travel..................................          12,000
    FBI/INS Records Matching............................         393,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total, Projected Costs............................       3,968,500

Related Additional Costs:
    FBI Tracking System Development.....................        $433,000

\1\ These costs will be paid out of the INS Commissioner's office 
budget.

    In addition, the House Appropriations Committee has 
requested that the OIG conduct a comprehensive follow-up review 
of Citizenship USA offices to ensure adequate safeguards exist 
and procedures are being followed and to investigate any 
criminal wrongdoing in connection with this process. It is 
estimated that this will cost $1.5 million in FY 1997 and $3.7 
---------------------------------------------------------------------------
million in FY 1998.

    Attorney General Reno. Mr. Chairman, that is a very rough 
figure. It may be about $4.5 million. That does not include the 
cost or the reengineering consultant, nor some projected 
expenses for the Inspector General and the FBI, for further 
review.
    Mr. Rogers. Reengineering consultant?
    Attorney General Reno. As I explained at the outset, in 
addition to Peat Marwick reviewing what has been done, we will 
be giving a contract this week, for a reengineering consultant, 
to consult with and advise INS, in the reengineering of the 
entire process, the automation of the entire process and the 
re-engineering of the entire process.
    Mr. Rogers. Does your figure include the cost of revocation 
of citizenship for those that are found improperly to have been 
given citizenship?
    Attorney General Reno. No, that would not be included.
    Mr. Rogers. Can we have some estimate of that, in addition?
    Attorney General Reno. I don't have it with me, but I'll be 
happy to furnish it to you.
    Mr. Rogers. Well, if you could give me just a rough overall 
cost, I won't hold you to the figure. But give me a ballpark 
cost, if you can, right now, of the total cost to clean up the 
thing from last year.
    Attorney General Reno. To clean up the thing from last 
yearcould probably run about $6 million. But to clean up the entire 
process is probably around $8.5 million to $10 million.
    Mr. Rogers. Okay. Now, General Reno, let me see if I can 
summarize here quickly, because we are approaching the time to 
leave, I think. In my opening statement, I mentioned several 
investigations and situations for which I would like to get 
your response.

                         Various Investigations

    The FBI's release of background files to the White House, 
is that being investigated now? And if so, by whom?
    Attorney General Reno. OPR conducted that investigation and 
I will check and see just what the status of it is and advise 
you, sir.
    Mr. Rogers. And OPR is?
    Attorney General Reno. That's the Office of Professional 
Responsibility. But what I would like to do is double check and 
see just exactly what the status is, so I don't misadvise you.
    Mr. Rogers. And is that OPR at the FBI----
    Attorney General Reno. No, that's the Department, the 
Office of Professional Responsibility.
    Mr. Rogers. And you'll get back with me?
    Attorney General Reno. Yes, sir.
    Mr. Rogers. Now, the FBI lab matter, is that being 
investigated? And if so, by whom?
    Attorney General Reno. The Inspector General is 
investigating it. And I believe he gave you information 
concerning it.
    Mr. Chairman, I just want to clarify. The FBI file issue 
went to Mr. Starr, the Independent Counsel.
    Mr. Rogers. Okay. Now, the fundraising activities of the 
DNC, and the White House connections to that, and the two or 
three other pieces to that--the Vice President's White House 
fundraising allegations, and the First Lady's reported 
endorsement of the database for fundraising activities--those 
activities related to fundraising, are they being investigated?
    Attorney General Reno. Yes, sir.
    Mr. Rogers. By whom?
    Attorney General Reno. The FBI and the Public Integrity 
Section of the Criminal Division of the Department of Justice.
    Mr. Rogers. Can you give us any kind of timetable on when 
we could expect to hear something out of that?
    Attorney General Reno. No, sir. I can't.
    Mr. Rogers. The allegations of foreign governments 
influencing U.S. policy, in return for campaign donations, is 
that a part of that same investigation?
    Attorney General Reno. All of those allegations are being 
pursued, sir, and by the task force.
    Mr. Rogers. Is there just one task force?
    Attorney General Reno. Yes, sir. There's one task force 
with respect to campaign financing. There are other agents and 
lawyers that have worked on other aspects of it.
    Mr. Rogers. But at least one task force is looking at the 
entire picture?
    Attorney General Reno. That's correct, sir.
    Mr. Rogers. There was a report in, I think, yesterday's 
newspaper, one of the newspapers, that some very sensitive 
documents, including some CIA classified data, was taken from 
the Department of Commerce by a high-ranking person as she left 
that agency. Do you now whether or not that has been referred 
for investigation?
    Attorney General Reno. We catalog everything and are 
including it all in the whole investigation.
    Mr. Rogers. Including that allegation?
    Attorney General Reno. That's correct, sir.
    Mr. Rogers. And the allegations of the use of the White 
House database for fundraising. What's that a part of?
    Attorney General Reno. All of these allegations we're 
trying to identify and include in the overall investigation.
    Mr. Rogers. By a single task force?
    Attorney General Reno. By as many people as are needed. And 
it is not, as I previously mentioned to you, it was not by one 
single task force, that the task force is overseeing the whole 
operation.
    Mr. Rogers. Can you tell me how many of your personnel are 
assigned to those investigations?
    Attorney General Reno. I'll be happy to furnish that 
figure. I don't have it with me, sir.
    Mr. Rogers. And can you tell me what the cost is?
    Attorney General Reno. No, I have not estimated the cost 
yet.
    Mr. Rogers. Will you estimate that for us?
    Attorney General Reno. Yes, sir.
    [The information follows:]

CAMPAIGN FUNDRAISING INVESTIGATION TASK FORCE FISCAL YEAR 1997 ESTIMATED
                                  COSTS                                 
------------------------------------------------------------------------
                                                             Criminal   
                                              FBI            Division   
------------------------------------------------------------------------
Personnel compensation and benefits...       $3,000,000         $793,400
Travel and transfers..................        1,050,000           40,000
Supplies..............................          100,000            8,562
Miscellaneous other services..........          100,000          232,000
Equipment.............................          500,000           36,154
                                       ---------------------------------
        Overall total cost =                                            
         $5,860,116                          $4,750,000       $1,110,116
------------------------------------------------------------------------


                      ESTIMATED NUMBER OF PERSONNEL                     
------------------------------------------------------------------------
                                                             Criminal   
                                                FBI          Division   
------------------------------------------------------------------------
Agents:                                                                 
    Full-time...........................              30                
    Part-time...........................              25                
Attorneys:                                                              
    Full-time...........................                            \1\5
    Part-time...........................                              11
Support:                                                                
    Full-Time...........................              24               2
    Part-time...........................               2               0
                                         -------------------------------
                                                      81              18
    Total personnel = 99                                                
------------------------------------------------------------------------
\1\ One full-time attorney on board for six months.                     

                      Law Enforcement Block Grants

    Mr. Rogers. Well, we will need that. I'm not sure that's in 
your regular budget submission. Now, let me ask you quickly 
about the block grant program.
    Attorney General Reno. About the what, sir?
    Mr. Rogers. The block grant, as opposed to COPS, to 
identify which one I'm talking about. The Administration's 
budget eliminates the Local Law Enforcement Block Grant, which 
in fiscal years 1996 and 1997 will provide about $1 billion to 
local communities to fight crime. Did your budget request to 
OMB include funding for that block grant?
    Attorney General Reno. Yes, it did, sir.
    Mr. Rogers. How much did you ask for?
    Attorney General Reno. I've asked for $503 million.
    Mr. Rogers. $503 million?
    Attorney General Reno. Yes, sir.
    Mr. Rogers. Do you know why OMB denied that request?
    Attorney General Reno. We subsequently made a follow-up on 
this, because we have heard from police chiefs, from sheriffs, 
from community leaders, that what is desperately needed, now 
that they have monies for COPS and other initiatives, is money 
for intervention and prevention programs that can keep kids out 
of trouble.
    We'd like very much to work with you. I think we can 
fashion something, because what we have proposed is a formula 
distribution to the States, letting it go through the States, 
directly to the communities, with the communities applying to 
and working with the States in the development of an overall 
plan.
    And I think working together, we can come up with something 
that mutually addresses the whole area of youth violence.
    Mr. Rogers. Well, in 1996 alone, of that block grant 
program that Congress authorized and you administered, over 
$293 million has been used by localities to hire cops, pay 
overtime, and purchase equipment and technology for law 
enforcement officers.
    Over $51 million has been used for crime prevention 
programs and security measures in and around schools, and other 
places. And over $17 million has been used to enhance the 
adjudication of both adult and juvenile violent offenders. I 
don't understand how the Administration could justify 
eliminating funding for those types of things.
    Attorney General Reno. I think we can work with you, Mr. 
Chairman, in fashioning something that meets the needs of the 
local communities across the country, because what we're 
hearing from them, from prosecutors, from judges, is that 
they're totally overwhelmed and need prevention programs, need 
targeted programs that can provide for prosecutors, for courts, 
with the balance that is necessary in the light of the 
significant funding to law enforcement.
    Mr. Rogers. Now, you're requesting $225 million for new 
grant programs to address juvenile crime, including a 1,000 new 
State prosecutor initiatives, juvenile courts and crime 
prevention programs. How would Washington decide what States 
and localities would receive funding for prosecutors and 
courts, under that proposal?
    Attorney General Reno. These would be discretionary grants. 
They would apply and we would make the awards based on the 
comprehensive nature of the grant application.
    Mr. Rogers. Now, last year the block grant monies supported 
$68 million for crime prevention, safety measures around 
schools and adjudication of violent adults and juveniles. Can't 
the block grant program support the juvenile crime initiatives 
that you are requesting?
    Attorney General Reno. Your first mention was of the 
thousand prosecutors or the thousand prosecutors initiatives. 
What has happened is that prosecutors have too often been the 
forgotten person in the criminal justice system.
    As more police have been added, as they've developed more 
resources, prosecutors have not had a increase in resources. 
This will give them the chance to develop coordinated efforts 
with local law enforcement, in identifying gang leaders, 
working with others to take out the gang organization.
    We have seen how effective this can be with prosecutors who 
are committed to this effort. And if we can enhance that, we 
think we can have a significant impact.

                          Mexico Certification

    Mr. Rogers. The President has just certified Mexico as 
fully cooperating with the United States, to control drugs. I'm 
sure he had your recommendation one way or the other. What was 
your recommendation?
    Attorney General Reno. I recommended that Mexico be 
certified, because in the leadership of Mexico, the President, 
the Attorney General and the Foreign Minister have been totally 
cooperative and committed.
    They recognize that drugs are--and as the President of 
Mexico says, one of the most critical national security 
problems facing Mexico. They have taken significant steps, in 
terms of working with us and ensuring more extradition, in 
reducing flights.
    And we think it is very important that we continue this 
working relationship, for it is critical that we have this 
strong partnership if we're going to address the issue of drugs 
coming from and through Mexico.
    At the same time, we recognize that there is great 
corruption through the criminal justice system. And we're 
impressed with the efforts and the commitment by the President 
to eradicate this corruption from the criminal justice system, 
so that Mexico can have a real impact, in terms of domestic 
prosecutions and convictions on this trafficking.
    Mr. Rogers. Did DEA Administrator Constantine recommend 
anything to you on this matter?
    Attorney General Reno. Yes, he did.
    Mr. Rogers. What did he say?
    Attorney General Reno. He recommended against 
certification.
    Mr. Rogers. Because he said, the other day that, ``there's 
not one single law enforcement institution in Mexico with whom 
DEA has an entirely trusting relationship.''
    Attorney General Reno. That is correct. That is what he 
said, sir. But as he pointed out to me, when I discussed this 
issue with him, he said, I'm looking at it just from the point 
of view of DEA. I haven't considered the extradition issues, 
the prosecution issues, the cooperation issues. And so, faced 
with those realities, that is the basis for my certification 
recommendation.

                 Circumvention of the Attorney General

    Mr. Rogers. General Reno, we started out this hearing with 
a certain brusqueness and I apologize for that. But the reason 
that I am feeling a little wheezy about things is because we've 
seen several instances now of the political powers that be, 
allegedly going over or around or through you to one of your 
agencies, to do some ill will.
    And I say these are allegations. I'm talking about how 
somebody got the FBI to hand over confidential files. I'm sure 
that was done without your knowledge, if it was done.
    And by the same token, there are allegations that someone 
went over your head, perhaps Commissioner Meissner's head as 
well, on the Operation Citizenship USA with, I'm alleging, an 
ulterior motive.
    That's what troubles me. If these allegations are true, 
then you are being circumvented in your own Department, 
allegedly by the folks in the White House. Can you 
categorically tell me that that is not true?
    Attorney General Reno. If I were being circumvented, sir, 
and they were successful, I don't know whether I could tell you 
or not.
    Mr. Rogers. Oh, I think you could. I definitely think you 
could.
    Attorney General Reno. Let me suggest to you that I have 
never had any pressure on either of these issues that you speak 
of, from the White House. I have not had any discussion with 
the White House.
    What we are trying to do in each instance, where we 
identify any problem, is take immediate action, as indicated 
with the file issue, the independent counsel is investigating 
that.
    With respect to Citizenship USA, I will make an appropriate 
determination, based on the reports back from Mr. Bromwich, 
after he completes his investigation. And I have told him to 
take it wherever it goes.
    I can't make everything not happen. I can't prevent things 
from happening. In every case though, I'm trying my level best. 
But I am going to follow up with absolutely everything, through 
the Inspector General.
    And I would like to work with you, because I think, in 
times past, you were brusque with Mr. Bromwich too. And I 
appreciate your brusqueness. I know how much you care; I know 
how much you want things to work right.
    I really want to work with you. But I'd like to see if we 
can work together. The Department has grown, as you point out, 
dramatically; the Inspector General's capacity has not grown. 
I'd like to see how we can work together. You've given us 
support in your latest letter, in terms of funding for the 
Inspector General, so that we can design systems and checks and 
balances, to prevent everything we possibly can and so that we 
have the resources to pursue as vigorously as possible, any 
allegation of wrongdoing.
    I care very deeply about the Department of Justice. There 
are splendid, wonderful people working in that Department all 
across this land. They are so dedicated. They are such great 
public servants. They are so nonpartisan, and they call it like 
they see it. And I want to do everything I can to maintain the 
tradition and the example that they have followed through on 
year after year after year, under difficult circumstances.
    So, I would really like to work with you, in terms of 
fashioning systems. I think we've had the chance to talk with 
Ms. McAuliffe about INSPECT.
    She made some suggestions as to what we could do, in terms 
of being more immediately effective. And we're immediately 
trying to respond, because you may be brusque with me, Mr. 
Chairman, but I know you care.
    Mr. Rogers. Well, I do care deeply, as yourself. And it 
troubles me, as hardly anything else can, when I see somebody 
trying to interfere with the scales of justice, trying to put a 
weight on one or the other, make it fall their way.
    And when I see allegations of that, I'm going to take off 
here like a bulldog. And I don't care who's in the way. And I 
think I know another person like that, sitting in this room. 
And I want to be sure that we're thinking the same thing here. 
We've always cooperated and will always do so. But I'm going to 
insist that, when we talk about dispensing justice, whether it 
be citizenship for a new citizen, or fairness in the courtroom, 
wherever it may lead, there can be no taint. There can be no 
suspicion that it's not done fairly and impartially. And right 
now, there are some suspicions. And I think it's imperative 
upon you and me and everyone else to erase those suspicions.
    People have the right to expect, not just the fact of 
fairness, but the appearance of fairness as well, and 
independence from all other processes. And you're on the line 
here, because you have allegations from every corner, saying 
that you need an independent prosecutor here and a task force 
there and a OIG here and OPR there.
    That, I guess that comes with the turf that you're 
occupying. But we do have an inordinate number of allegations 
now, of interference with the justice system. And you and I 
must ferret that out and get to the bottom of it and restore 
the appearance, as well as the fact, of justice.
    Attorney General Reno. I'm going to try my level best. I'm 
going to call it like I see it, do the best job I can at trying 
to figure out what the right thing to do is and then do it. But 
I'd like to go a step beyond too, and really offer to work with 
you, in terms of developments of measurements and objectives. I 
think we've shared some with you. We've gotten some feedback. 
We'd like to have a continuing discussion and dialogue with 
your staff and try to do everything we can to spot the problems 
before they develop and solve them up front.
    And in that vein, it's one of the areas that I think we can 
do so much in. You ask what needs to be done. We need to be as 
direct and as open as we can, consistent with conducting 
investigations the right way.
    We need to look at all of the components of the Department 
of Justice, take a look at the milestones we've developed, give 
us your feedback as to what else we should be looking at, what 
other procedures we might try.
    We welcome anybody's ideas and suggestions, but mostly 
yours, because I think you and Ms. McAuliffe have a sense about 
so many of the Justice Department components, that's based on 
just a very thorough knowledge. And so, we want to work with 
you.
    Mr. Rogers. Thank you. Mr. Mollohan.

                           brady handgun act

    Mr. Mollohan. Thank you, Mr. Chairman. Madam Attorney 
General, the so-called Brady Handgun Violence Prevention Act 
was passed with a lot of anticipation on both sides of the 
issue, with an anticipation that it would go a long way to 
providing information that would address concerns. The National 
Criminal History Improvement Program is the program designed to 
carry that forward?
    Attorney General Reno. That is correct, sir. And the 
development of a national instant check system.
    Mr. Mollohan. I have a couple of questions.
    Attorney General Reno. Yes.
    Mr. Mollohan. It has come to my attention that this program 
may not be on time. Could you comment on that?
    Attorney General Reno. As of July of 1996, approximately 33 
percent of criminal history records in the United States 
include dispositions and are electronically assessable and 
therefore will be available in the NICS system.
    The latest estimate that I've had is that by December 1, 
1998 when I am by law to declare the system operational, the 
system itself will be operational, but there will still be some 
States that do not have complete criminal histories that are 
available and are electronically assessable. And we are going 
to continue our efforts to do everything we can to improve 
those records.
    Mr. Mollohan. Okay. Are you suggesting here with acertain 
degree of confidence that this system is on schedule and would you like 
to check that answer for the record?
    Attorney General Reno. The system will be on schedule. But 
the records will not be available from some of the States; a 
significant number of States.
    Mr. Mollohan. Okay. It has also come to my attention that 
there is concern about the kind of information being solicited 
by the Department of Justice to put into this system. It has 
been asserted to me that the Department of Justice is requiring 
from other Federal agencies certain information like medical 
information, mental history information, dishonorable discharge 
information which I can't say sitting here right now is outside 
the scope of the Brady Act.
    But that kind of information does raise privacy rights 
concerns on my part. And I'm just wondering if you are looking 
at those issues as you develop that system and if you can 
comment?
    Attorney General Reno. This is going to be one of the 
issues that has to be addressed because previous mental 
involuntary commitments or other--we're going to have to look 
at the State law and see whether it qualifies as a disabling 
factor in Brady. And we're looking at that very carefully to 
make sure that we comply with the law and that there is no 
invasion of privacy.
    Mr. Mollohan. Is the Department of Justice requiring this 
information at this point?
    Attorney General Reno. I had not heard about dishonorable 
discharge. But let me get for you and have somebody meet with 
your staff and furnish you with exactly what we construe the 
statute to include.

                             foipa backlogs

    Mr. Mollohan. Also, there are some Freedom of Information 
Act requests pending at Justice on these matters. And there is 
not what I would describe a spirit of forthcoming with regard 
to those FOIAs. Can you comment on that?
    Attorney General Reno. Yes. That raises the larger 
question; the FOIA backlog. We had been making some significant 
progress with our FOIA backlog until the shutdown. And then it 
started up again. I have mandated milestones for each component 
to achieve. And I think we're making progress. But let me have 
somebody check the specific FOIA requests to which you refer 
and see what the status is and what we can suggest.
    Mr. Mollohan. Are you referring to a FOIA backlog with 
regard to all requests?
    Attorney General Reno. It will depend on the component. 
Some components have eliminated any backlog and others, for 
example like the FBI, have a significant backlog.
    Mr. Mollohan. And you're suggesting that maybe you're not 
being responsive to this request because of a backlog of these 
requests at the FBI?
    Attorney General Reno. It is first-in, first-out. And we 
line them up. There are three exceptions. And we're trying to 
do it as fast as we can in terms of funding and training.
    Mr. Mollohan. There are three exceptions to that first-in, 
first-out?
    Attorney General Reno. Yes.
    Mr. Mollohan. How big a backlog exists in answering these 
requests at the FBI?
    Attorney General Reno. I don't know. I don't want to give 
you precisely the number. I would rather make sure that we give 
you accurate figures and not let me guess.
    Mr. Mollohan. That will be fine. Would you submit a fuller 
report?
    Attorney General Reno. We will go through all of the 
details and then contact your staff and make sure that we've 
covered everything.
    [The information follows:]

FBI FOIPA Backlog

        Year                                            Backlog in cases
1992.............................................................. 9,359
1993..............................................................10,648
1994..............................................................11,827
1995..............................................................14,808
1996..............................................................15,447
1997..............................................................15,390
1998..............................................................11,375
1999.............................................................. 8,326
2000.............................................................. 4,658
2001.............................................................. 1,417

    These numbers assume a constant rate of cases received for 
Fiscal Years 1996 through 2001. In addition, these numbers 
reflect the expected impact of 129 new positions received in 
the 1997 Justice Appropriations Act, 239 positions requested in 
the President's 1998 Request to Congress, and a forty percent 
gain in productivity from streamlining efforts in progress.

                              COPS Program

    Mr. Mollohan. I appreciate that. The Chairman asked some 
questions with regard to the Block Grant Program, which he 
worked really hard in getting through the Congress. Can you 
comment on that program? How's the COPS Program doing? If you 
could give us some statistics to suggest how it is going. We do 
want a little equal time here on this.
    Attorney General Reno. We have authorized funding for 
55,000 officers. Some 22,000 are now on the streets. The 
response I'm getting from Chiefs of Police and from Sheriffs 
offices across the country is that these police officers are 
making a significant difference. The program has been 
universally well-received.
    Mr. Mollohan. Mr. Chairman, I would like to commend the 
witnesses here today. I started out by saying there was a 
certain foreboding surrounding this hearing. I think given the 
issues that we have dealt with, they have been dealt with 
fairly. And I want to compliment the Attorney General for her 
candor and for her grasp of a very complicated Department and 
the very tough programs that she is administering.
    I also want to compliment her for her resolve in not 
answering questions that she thinks are not appropriate to 
answer. I happen to agree with her with regard to her judgment 
on that. But in regard to whether I agree or disagree, I admire 
your resolve.
    Commissioner Meissner, I want to also compliment you onyour 
testimony here today in addition to the job you're doing. I think there 
is an excellent story to be told about your administration of an agency 
that has had historic problems. That story involves you addressing 
those problems in an aggressive way and at the same time it's a no-
brainer.
    You're managing a tremendous ramp-up, programmatic ramp- 
up, in your Department. That's not an easy task. I suspect that 
everybody on this Committee recognizes that. And at the end of 
the day after you go through these tough sessions on Capitol 
Hill before Appropriations and authorizing Committees and we 
sort through the specific concerns that the Chairman and others 
addressed with regard to the incidents at INS, I am confident 
and certainly very hopeful that this Committee will get down to 
assisting you and the job that you've already started in 
reorganizing INS.
    And I trust that we will listen to your requests for 
assistance. I am very sincere about suggesting that we have a 
report that looks specifically at management issues in the same 
way that NAPA looked at the budget issues. If you feel upon 
reflection--that it would be helpful to you, I certainly want 
to be of assistance.
    And knowing the Chairman as I know him, after we get 
through all of these problems, he likewise wants to be of 
assistance making your job successful. It's not an easy job. 
It's an important job. It has an incredible amount of 
visibility. And it's politically explosive in a number of 
different ways. You're managing all of those. A lot of people 
recognize the tough job you have. A lot of people recognize it. 
I think most people, most fair people recognize that you're 
doing an excellent job managing all of that.
    So, we'll get through all of this in the line-up to help 
you do the task that you have undertaken to do. Thank you, Mr. 
Chairman.
    Mr. Rogers. Thank you, Mr. Mollohan. And thank you Attorney 
General Reno and Commissioner Meissner for being here today. 
The hearing is adjourned.

[Pages 455 - 494--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

                         DEPARTMENT OF JUSTICE

                    OFFICE OF THE INSPECTOR GENERAL

                               WITNESSES

MICHAEL R. BROMWICH, INSPECTOR GENERAL
STEPHEN R. COLGATE, ASSISTANT ATTORNEY GENERAL FOR ADMINISTRATION

    Mr. Rogers. We are pleased to welcome this morning the 
Inspector General for the Department of Justice, Michael 
Bromwich. As this Subcommittee has done for the past 2 years, 
we are starting the year out by asking the Inspectors General 
for their opinions on agency vulnerabilities and ways to best 
spend the limited resources we have to work with.
    As the Inspector General for the Department of Justice, you 
have the responsibility to keep an eye on the largest agency 
under our jurisdiction. The Congress and the Administration are 
dedicating significant funding to fighting crime and illegal 
immigration. We can't afford to waste a single dime when it 
comes to this fight. You have had a busy year looking at 
programs that have been of great concern to us. We particularly 
are interested in your views about problems that we need to 
keep an eye on and the Department needs to fix.
    We will also be able to follow up on these issues with the 
agencies as we go through our hearing process in the weeks 
ahead.
    So if you would like to proceed, we will insert your 
prepared testimony in the record. If you can give us a brief 
summary, we would appreciate it.

             Inspector General Brownwich Opening Statement

    Mr. Bromwich. Mr. Chairman and Members of the Subcommittee, 
it is my pleasure to appear before you today in support of the 
1998 budget request for the Office of Inspector General. Since 
I testified before this Subcommittee last year, the Office of 
Inspector General has had an extremely busy and productive 
year, as you noted, dealing with matters of substantial 
importance to the Department of Justice and the Congress.
    I would like to briefly summarize my prepared statement, 
focusing on work we have conducted involving INS, the FBI, and 
in the Department's COPS and Violent Crime initiatives.
    The first three items I will touch on involve 
investigations and issues relating to INS, the agency on which 
we continue to spend most of our resources.

                               miami-ins

    Let me discuss first the Miami-INS investigation that we 
did, Mr. Chairman. Last June we completed an 11-month long 
investigation into allegations that INS officials 
systematically misled a delegation from the Congressional Task 
Force on Immigration Reform visiting in Miami concerning the 
conditions and operations of the Krome Service Processing 
Center and the Miami International Airport.
    After interviewing over 450 witnesses, collecting 200 
affidavits, reading thousands of documents and electronic 
messages and reconstructing data on alien movements and airport 
staffing, we concluded that INS management in Miami, with the 
participation and knowledge of executives in the Eastern 
Regional office of INS, intentionally misled the delegation 
from the Task Force.
    At the Krome Service Processing Center we found that a full 
one-quarter of the population was moved from that facility 
within 48 hours prior to the delegation's arrival in order to 
conceal its overcrowded condition. At Miami International 
Airport, extra inspectors, some on overtime, were assigned to 
reduce passenger waiting time and thereby paint a false picture 
of efficiency. Some aliens were moved from detention cells and 
allowed to sit in the detention area without restraints during 
the delegation's visit, and INS employees were directed to 
mislead anyone from the delegation who asked questions about 
the categories of aliens who were kept in the detention cells.
    Finally, our investigation was impeded by obstructive and 
delaying tactics that required the expenditure of additional 
resources in order to find out the truth. In the end, I believe 
we did.
    Our investigation led to the imposition of discipline on 12 
INS employees, including the two highest ranking officials in 
the Eastern Regional office of INS.

                          operation gatekeeper

    Let me turn next to Gatekeeper, Mr. Chairman. On the heels 
of our Miami-INS report, we began hearing reports from the West 
Coast that INS managers were allegedly manipulating 
apprehension statistics, operating procedures and falsifying 
reports in order to make Operation Gatekeeper, the major 
INSborder enforcement initiative along the U.S.-Mexico border, seem to 
be a success.
    This investigation also has required many interviews, over 
200 so far, and a review of tens of thousands of documents in 
an effort to determine whether INS, in fact, has altered its 
apprehension tactics and data in order to claim that Operation 
Gatekeeper has succeeded in reducing illegal immigration. This 
investigation has encountered obstacles, Mr. Chairman, that 
have significantly slowed the pace of our efforts, this time 
from the same Border Patrol union that aired the charges 
initially rather than from the INS.

                            citizenship usa

    Let me next address Citizenship USA. Three years ago, my 
office issued an inspection report about INS's failure to 
conduct criminal history checks before granting applications 
for citizenship and other benefits. The report issued in 
February of 1994 and entitled, ``Alien Fingerprint Requirements 
in the Immigration and Naturalization Service,'' found, first, 
that INS could not know whether the fingerprints it sent to the 
FBI actually belonged to the applicant for citizenship or had 
been replaced with prints belonging to someone who did not have 
a criminal record.
    Second, INS approved applications without knowing whether 
the applicant had a criminal history because INS did not wait 
for a report from the FBI before approving the application; or, 
when INS got a report from the FBI, it did not file the report 
in the application file so it would be available to the 
examiner; or when the FBI returned a blurred fingerprint card 
as unreadable, INS did not seek to obtain new prints for 
resubmission to complete the criminal history check.
    As you know, the problems we identified in that 1994 
inspection created a vast quagmire when the processing of 
naturalization applications gathered far greater velocity in 
INS's Citizenship USA program. The present record shows that a 
substantial number of citizenship applications were approved by 
INS without having a criminal history check completed because 
INS did not wait for the report before approving the 
application. In addition, INS did not submit replacement 
fingerprints when cards were returned as unreadable.
    I now have, Mr. Chairman, and Members of the Subcommittee, 
OIG employees from all three divisions looking at INS's 
Citizenship USA Program. Investigators are looking at 
allegations involving bribery, false testing, questions of 
accountability, and allegations of retaliation against INS 
employees who have come forward to report on the shortcomings 
they observed in the Citizenship USA program.
    My auditors have been in Lincoln, Nebraska, to test and 
monitor work by the accounting firm of Peat Marwick which is to 
validate INS's effort to identify applicants who received 
citizenship despite having disqualifying criminal records.
    In addition, my inspectors are observing work Peat Marwick 
is doing to determine whether INS has actually implemented 
quality control procedures that will protect the current 
citizenship process from the abuses and deficiencies of last 
year. This project will not end soon. The more we learn about 
this program, the more additional lines of inquiry for us will 
arise.

                              san clemente

    Let me now address matters relating to the San Clemente 
checkpoint. My office has now been to the INS interior 
checkpoint at San Clemente, California, for three separate 
reviews, one of which also included the checkpoint at Temecula, 
California. Initially, we found a serious disconnect between 
congressional expectations and INS activities. Although 
Congress expected an aggressive 24-hour a day level of 
inspections, INS delivered a level of inspections that was 
sometimes less than that without clearly explaining to the 
Congress how it was operating the checkpoint or why active 
inspections were sometimes suspended.
    Since we began our reviews of the checkpoint, INS has 
increased staffing at it, and changed operations to conform to 
more recent congressional mandates. Our second and third visits 
confirm this change.

                             ins automation

    Let me now turn to automation issues. Last year, I 
testified that I was somewhat optimistic about INS's huge 
ongoing automation initiatives. This year, I regret to say that 
I cannot assure you that the project is on the right track. As 
a result of information that came to our attention in the 
second half of 1996, I grew more concerned that the INS 
automation initiatives were afflicted with potentially serious 
problems.
    Accordingly, late last year, I directed a substantial team 
of OIG auditors to conduct an intense review of portions of 
INS's automation activities. Although we have not issued a 
written draft yet, we have discussed our principal concerns and 
tentative findings with INS during the course of our review.
    We found that definitive measures for tracking critical 
milestones over the individual project's life do not exist. 
These measures could determine whether the project is on 
schedule, within cost, and to quantify its progress. Moreover, 
some major systems are behind schedule.
    In addition, the funds for INS's 5-year contract with its 
principle contractor, EDS, could be spent after only 3 years, 
and, overall, funding for 8 of the 15 automation contracts in 
place are likely to be spent before the contracts are scheduled 
to end.
    One consequence of this acceleration is that INS now risks 
a gap in contract coverage until it can complete a procurement 
of its next generation of contracts.
    Finally, we continue to be concerned about the integrity of 
the data that will be contained in the new systems and with the 
training and abilities of the INS employees who will be 
responsible for maintaining these systems and recording the 
transactions that constitute the systems' data bases.

                                fbi lab

    Now I'd like to turn to the FBI lab investigation. Mr. 
Chairman, and Members of the Subcommittee, as you know, 
approximately a month ago we completed a draft report 
concerning allegations of impropriety in three sections of the 
FBI lab, primarily relating to bombing and explosives cases. 
The draft report consists of the detailed examination of the 
forensic work done in a number of specific cases, including the 
Oklahoma City bombing case and the World Trade Center case, as 
well as more general issues about the way three sections of the 
lab have organized and conducted their scientific activities.
    Our investigation has been aided immeasurably by the full 
participation of five of the top forensic scientists in the 
world who have been full partners in this investigation. Some 
aspects of our review required us to go back as far as 10 
years. During the course of our investigation, we collected 
more than 50,000 documents from the FBI and interviewed over 
100 witnesses.
    We distributed the report in late January to select 
personnel at the FBI and to prosecutors whose cases we examined 
in substantial detail in our draft report.
    Because of the complexity of the cases and the 
technicalnature of the scientific issues with which the report deals, 
we transmitted the report to these individuals to ensure that the 
report is as factually accurate as possible.

                              cops program

    Let me turn now to the COPS Program and other violent 
crime-related initiatives.
    We have been continuing our work with the COPS Program in 
its implementation of the central element of the Violent Crime 
Control Act of 1994, the hiring, training and deploying of 
100,000 additional police officers. This program was initially 
authorized at the level of $8.8 billion over 6 years.
    Previously, as you know, we performed over 40 pre-award 
reviews of applicants for COPS grants. Our most recent effort 
has been to develop, with input from COPS personnel, an 
approach for performing audits of COPS hiring and redeployment 
grants. We are currently conducting audits and anticipate 
completing approximately 20 during fiscal year 1997.
    While our work to date is limited, we have found that some 
jurisdictions are not making a good-faith effort to fill 
locally-funded sworn officer positions after receipt of a COPS 
grant. Additionally, we have some indications also that some 
jurisdictions will have difficulty retaining the officer 
positions with local funds at the conclusion of the life of the 
grant.
    Finally, we have found one instance where a grantee 
received funds in excess of current needs, invested the 
difference in an interest-bearing account, and inappropriately 
earned $45,000. These instances demonstrate the merit in 
continuing audit surveillance of these programs.
    The amount of our COPS work is severely limited by the 
resources we have available to perform the audits. There are, 
as you know, about 9,000 grants nationwide, and we can only 
cover a very small percentage of them. For fiscal year 1998 the 
Department has proposed that the Attorney General transfer 
funds from the Violent Crime Reduction Trust Fund to fund the 
cost of additional COPS audits. If we receive funding from the 
Trust Fund, 75 percent of what we will be receiving will be 
used to perform COPS audits. For every additional auditor we 
hire, we believe we can perform an average of four additional 
COPS audits per year.

                             fy 1998 budget

    Finally, let me touch briefly on our 1998 resource request. 
Our request for 1998 totals $33,211,000, 326 full-time 
permanent positions and 416 workyears. The request reflects a 
net increase of $1.2 million, but no change in positions over 
the 1997 enacted level. Of this request, $1.2 million is for 
mandatory increases.
    Also included, as I mentioned before, is a request to grant 
the Attorney General authority to transfer up to one-tenth of 
one percent from the Department's Violent Crime Reduction Trust 
Fund for oversight work of those grant programs. We estimate 
this amount will fund approximately an additional 25 FTEs in 
fiscal year 1998.
    As transfer authority, it does not permanently affect our 
base. With the requested transfer and additional FTEs, we 
expect to complete approximately 100 audits in fiscal year 
1998. We expect to devote 75 percent of the resources to COPS 
programs and the remainder to other violent crime initiatives, 
including the Violent Offender Incarceration Truth-in-
Sentencing program and Violence Against Women Act programs.
    Mr. Chairman, Members of the Subcommittee, that concludes 
my opening statement. I will be happy to answer any questions 
you have at this time. I have with me sitting beside me Greg 
Peters, the Assistant Inspector General for Management and 
Planning. Behind me I have the heads of my divisions, so if I 
am unable to give the detailed answers you want, I will turn to 
them and they will provide the detailed information.
    [The statement of Mr. Bromwich follows:]

[Pages 501 - 534--The official Committee record contains additional material here.]


    Mr. Rogers. Do you have any good news?
    Mr. Bromwich. I don't have a lot of good news, Mr. 
Chairman.

                                  ins

    Mr. Rogers. Let me say, last year and the year before when 
you testified here, we jumped on your case pretty hard 
particularly because of INS problems. I would like to say 
congratulations to you and your staff on some good work that it 
appears you have done in the last year to two years, 
particularly on INS.
    Mr. Bromwich. Thank you very much, Mr. Chairman.
    Mr. Rogers. This is an agency out of control, isn't it?
    Mr. Bromwich. It has very many, very significant problems.
    Mr. Rogers. Is it salvageable?
    Mr. Bromwich. I believe it is salvageable, but I think the 
agency needs to be watched closely by this Subcommittee, by the 
rest of the Department, and by my office to make sure that the 
huge streams of money that are flowing into it are wisely and 
well spent.
    Mr. Rogers. Well, under this Subcommittee's watch over the 
last 2 years, we have increased the funding for the INS by 52 
percent with the idea that the Nation wants to control its 
borders. We did this with the President's support and 
bipartisan support throughout the Congress.
    We provided increases to INS of over $500 million each year 
in 1996 and 1997. We have been extremely supportive of INS 
because it was the only place we had to go to try to control 
the borders. We have been patient with the new management. But 
for Pete's sake, this is unbelievable.
    The illegal immigration population now is back up to peak 
levels, about 5 million, we are told. INS fell short by 34 
percent of its stated promise last year to deport illegal 
aliens from the country. Thirty-seven thousand less aliens were 
deported last year than they said they would deport.
    Statistics used to herald the success of Operation 
Gatekeeper, INS' Border Patrol strategy, are being questioned, 
not just by you, but by the Border Patrol themselves. Twelve 
senior INS personnel were engaged in activities to deceive the 
Congress purposely, as you testified, on a task force visit to 
Miami.
    The IG's office closed over 600 investigations, I am told, 
of misconduct by INS employees, from bribery and extortion to 
fraud, theft, drug smuggling, and alien smuggling.
    And the latest disaster, INS gave the most precious benefit 
a person on earth can receive, U.S. citizenship, to people with 
criminal records by the thousands, because they decided it was 
more important to push people through the system before 
Election Day, we are told, than it was to wait for the FBI to 
do the regular criminal record check that we have always 
required. That is inexcusable.
    Such a record of incompetence and worse I just can't 
believe.
    We have bestowed on this agency and this Commissioner and 
the people of INS a terrible job. It is a tough job to police 
the borders, and to guard the benefit of citizenship, and we 
have given them plenty of money. We have given them tons of 
personnel. We have loaded up the Border Patrol. We have piled 
people into the officers corps. They have absolutely screwed it 
up from top to bottom, and you have uncovered it.
    Let me ask you: Have you encountered any difficulty from 
INS as you investigated these allegations?

                               miami-ins

    Mr. Bromwich. We certainly did, Mr. Chairman, in connection 
with our Miami-INS investigation.
    Mr. Rogers. Tell us about it.
    Mr. Bromwich. There were a variety of ways that we were 
obstructed and impeded during the course of our investigation. 
First, when we began the investigation, we were provided with 
two different memoranda that had been prepared by senior 
officials in the Miami District Office of INS that were given 
to us as an accounting of what, in fact, had happened with 
respect to the Krome detention facility and the Miami 
International Airport. They, in effect, Mr. Chairman and 
Members of the Subcommittee, purported to be an account of what 
really had happened.
    Those two memoranda were later admitted by high officials 
in the Miami District Office to be materially false. So our 
being given those memos at the top of the investigation was a 
real problem, because we were not having people be candid with 
us. We were having people try to deceive us.
    We provided to INS headquarters very substantial requests 
for documents and records that we believed would allow us to 
see whether, in fact, the population at Krome had been 
manipulated and personnel at the airport, Miami International 
Airport, had been manipulated.
    We got what I have described in another context as dismal 
cooperation from INS headquarters and the field. We did not get 
the key documents through our document requests. We were only 
ultimately able to get the documents through interviewing, as I 
mentioned in my prepared testimony, hundreds of witnesses.
    There were, Mr. Chairman, Members of the Subcommittee, a 
series of e-mail messages that clearly showed that, in fact, 
the deception of the delegation had taken place, and in 
particular had taken place through the prompt moving of almost 
one-quarter of the Krome facility's population out in the 48 
hours preceding the visit.
    We did not receive those e-mails from the people who wrote 
them or received them in the Miami District Office. Had we not 
actually done interviews in the Eastern Regional Office of INS 
and were lucky enough to find a remaining copy that existed, I 
am not sure, Mr. Chairman, Members of the Subcommittee, that we 
would have ever arrived at the conclusions that we did.
    To give you an example, one of the e-mails specifically 
from the head of the Krome detention facility described the 
INS' plans to ``stash people out of sight for cosmetic 
purposes.''
    Mr. Rogers. To hide them from Congress.
    Mr. Bromwich. Yes. To move them out of the detention 
facility within a 48-hour period before the delegation arrived.
    Mr. Rogers. Did they actually do that?
    Mr. Bromwich. Yes.
    Mr. Rogers. Were any of them released into the community?
    Mr. Bromwich. Yes. In addition to transferring them out to 
other institutions, a group of, I believe 58, were released 
into the community without medical and criminal history checks 
having been done.
    Mr. Rogers. So it is possible that some of those people 
were criminals?
    Mr. Bromwich. Yes.
    Mr. Rogers. Or carrying some deadly disease?
    Mr. Bromwich. Yes.
    Mr. Rogers. Just released into the community?
    Mr. Bromwich. Without the adequate checks.
    Mr. Rogers. So that Congress would not see an overcrowded 
condition.
    Mr. Bromwich. Correct.
    Mr. Rogers. Now, tell us for those who don't know, what is 
the Krome facility?
    Mr. Bromwich. The Krome facility is a facility that holds 
large numbers of deportable aliens until the individual 
determinations on those aliens can be made. It is a large 
detention facility.
    Mr. Rogers. Were those people released into the community 
ever recaptured?
    Mr. Bromwich. I believe a small number were. I don't have 
the specific figure on that.
    Mr. Rogers. The rest are still at large?
    Mr. Bromwich. I believe that is the case.

                          disciplinary actions

    Mr. Rogers. Has any disciplinary action been taken against 
any INS personnel on that particular matter?
    Mr. Bromwich. Yes. There were a series of 12 punishments 
that were imposed the end of last week on various INS 
employees, ranking from line personnel all the way up through 
high-ranking officials.
    Mr. Rogers. Have they been acted on?
    Mr. Bromwich. The final decisions have been issued by the 
Department, yes.
    Mr. Rogers. Do you think they were appropriately 
disciplined?
    Mr. Bromwich. I think that most of the discipline imposed 
was within the range that we recommended. That is not true in 
every case though, Mr. Chairman.
    Mr. Rogers. Are they all still working at INS?
    Mr. Bromwich. My understanding is that all of them are 
still working. One of the high-ranking, former high-ranking 
officials in the Miami District Office, was removed. That was 
the punishment that was imposed.
    Mr. Rogers. Removed?
    Mr. Bromwich. I don't know the specifics of when that will 
become effective and what that person's remedies are.
    Mr. Rogers. Removed?
    Mr. Bromwich. From the service.
    Mr. Rogers. He was fired?
    Mr. Bromwich. Yes.
    Mr. Rogers. Just one?
    Mr. Bromwich. Yes.
    Mr. Rogers. This is solely because of the Krome incident at 
Miami?
    Mr. Bromwich. It is not just the Krome incident, it is also 
the Miami International Airport incident, which in some ways 
was worse, in the sense that again a false picture was painted 
by having too many or more than usual inspectors doing the 
inspecting.
    Mr. Rogers. Did you also recommend any changes in 
procedures that would alleviate this kind of thing in the 
future?

                            recommendations

    Mr. Bromwich. Yes, we did recommend a series of procedures.
    Mr. Rogers. Can you briefly describe them?
    Mr. Bromwich. They went to a variety of issues, including 
the need to create a database with integrity at the Krome 
Detention Facility. We found that the computerized records at 
Krome were completely unreliable. We recommended that specific 
procedures be issued by INS that would make sure that employees 
at the airport knew what kind of gear and weapons they were 
permitted to wear. So really a range of recommendations, 
including the need to communicate better with the union and so 
forth.
    Mr. Rogers. Has there been a criminal investigation of the 
Miami incident?
    Mr. Bromwich. When we concluded our work, Mr. Chairman, we 
referred the matter to the Public Integrity Section of the 
Criminal Division. As of earlier this week, I was told the 
matter is still open.
    Mr. Rogers. Still open.
    Mr. Bromwich. Yes.
    Mr. Rogers. Meaning?
    Mr. Bromwich. Meaning they have not closed the 
investigation. They have not said no criminal action will be 
taken. They haven't said anything, other than in effect that 
they are still looking at it.
    Mr. Rogers. Well, do you mind if we look over their 
shoulder?
    Mr. Bromwich. Feel free, Mr. Chairman.
    Mr. Rogers. I assure you, this is not the end of this. I 
don't care what Justice does or anybody else does. The Congress 
will certainly be looking into this.
    Mr. Bromwich. One of the specific things we recommended, 
Mr. Chairman, is that the agency take seriously attempts at 
external oversight, including the OIG investigations. We found 
that people from the beginning looked on us as engaged in a 
witch hunt. Others simply tried to pass off the investigation 
as the product of union and management friction. Those 
attitudes are what caused us not to get the cooperation that we 
needed that would have permitted us to find the truth sooner. 
So we strongly recommended that from the Commissioner on down, 
the message go out that our investigations are to be taken 
seriously and not to be trifled with.

                      obstruction of investigation

    Mr. Rogers. I want you to tell this Subcommittee, now or 
later, those individuals who obstructed your investigation.
    Mr. Bromwich. Well, there were a series of them. They 
ranked all the way from the head of the Eastern Regional Office 
of INS down, as I said, through line personnel. The higher 
ranking people in the Eastern Region had what I would call 
major failures of recollection.
    The head of the Eastern Regional Office and her deputy say 
they could not recall very significant facts that they were 
asked about. In one case, 250 times, in another case, 170 
times.
    Mr. Rogers. Are these people regular career INS employees, 
or are some of these Presidential appointees?
    Mr. Bromwich. To my knowledge, Mr. Chairman, none of them 
is a Presidential appointee.
    Mr. Rogers. These are career employees.
    Mr. Bromwich. One was a non-career SES employee.
    Mr. Colgate. One of the individuals was a non-career SES 
employee that serves at the pleasure--it is a political 
appointment.
    Mr. Rogers. Who is that?
    Mr. Colgate. The Executive Director of the Office of 
Congressional and Public Affairs.
    Mr. Rogers. What is his name?
    Mr. Bromwich. Her name is Pam Barry.
    Mr. Rogers. Barrett?
    Mr. Bromwich. Barry.
    Mr. Rogers. Spell it.
    Mr. Bromwich. B-A-R-R-Y.
    Mr. Rogers. What did she do, or not do?
    Mr. Bromwich. She did not display a cooperative attitude 
during the investigation. But, more important than that, she, 
we thought, was ultimately responsible for issuing directives 
to people in Miami that they were not to raise certain issues 
with the delegation. Those issues included the state of 
staffing at the Miami International Airport.
    She also specifically told them not to draw any comparisons 
between staffing at Miami International Airport and JFK 
International Airport in New York. That guidance, those 
instructions, were interpreted by the people who heard them, 
that they were, in fact, to conceal such information and not to 
share their views on what many of them thought to be very 
important matters that the delegation had a right to know.
    Mr. Rogers. What was her purpose, do you know?
    Mr. Bromwich. What was the purpose in doing so?
    Mr. Rogers. Yes.
    Mr. Bromwich. It was consistent, Mr. Chairman, with the 
overall purpose, which was to prevent the delegation from 
seeing Miami as it was and from learning about the substantial 
dissatisfaction on the part of countless INS employees with the 
way that the operation was run.
    Mr. Rogers. Do you know whether this policy went beyond 
her?
    Mr. Bromwich. The policy of looking to actively deceive?
    Mr. Rogers. Yes.
    Mr. Bromwich. Yes, absolutely, Mr. Chairman. There were 
meetings in Miami with airport staff, INS airport staff 
present, and also outsiders present, in which the issue of what 
should be done if a member of the delegation asked what kinds 
and categories of people are kept in the detention area, in 
what is called ``hard secondary'' in the inspections area at 
Miami International Airport. Airport employees were 
specifically instructed that if they were asked that question, 
the answer was to be that only criminal aliens were kept in the 
cells.
    That was false, and it was known to be false by the person 
who gave the directive.
    Mr. Rogers. Who was the person?
    Mr. Bromwich. Valerie Blake.
    Mr. Rogers. And what is her title?
    Mr. Bromwich. She was the Deputy District Director in 
Miami. As a consequence of that, Mr. Chairman, in fact, a 
member of the delegation asked what classes or categories of 
people are kept in the detention cells, and pursuant to the 
directive not to provide that information to the delegation, a 
lower-level employee answered, as he was directed to do, that 
only criminal aliens were kept in the cells.
    Mr. Rogers. Any other instances of leadership personnel 
deceiving?
    Mr. Bromwich. Yes. There was active antagonism, both as a 
general matter and in specific interviews, particularly after 
we had found the nuggets of truth that, in fact, the delegation 
was deceived. There were angry outbursts by witnesses in 
interviews. There was a failure on the part of the district 
director in Miami and the deputy district director to give us 
access to electronic mail messages that we needed to get the 
full picture of the truth.
    Our personnel was characterized as being engaged in a witch 
hunt and so forth. The Assistant United States Attorney who co-
led this inquiry, Mr. Chairman, and who has investigated and 
prosecuted criminal cases, said that she had never dealt with 
as hostile an environment as she experienced in dealing with 
these officials in the Miami District Office of INS.
    Mr. Rogers. Now, has this all been referred to the Justice 
Department?
    Mr. Bromwich. Yes, sir.
    Mr. Rogers. To investigate?
    Mr. Bromwich. Yes.
    Mr. Rogers. You have heard nothing of it?
    Mr. Bromwich. I have heard as of last week that the matter 
was still open. Let me say, Mr. Chairman, that in an attempt to 
get the Congress the most complete picture of what we believe 
to be serious allegations, that we at variouspoints in the 
investigation made decisions that it was important to administratively 
compel witnesses who would not agree to voluntary interviews with us. 
That has the consequence of, in effect, immunizing their testimony.
    Their testimony that they gave us cannot be used directly 
against them, and indeed the prosecutor will be at some pains 
to show that evidence that he or she might want to use to bring 
a prosecution, has not been tainted by that immunized 
testimony.
    So the fact is that what we did in gathering the facts may 
complicate, will complicate, any potential prosecution that 
would go forward. But we were in no position to make that 
assessment until we actually compelled the testimony of those 
witnesses and were able to paint the picture that we did.
    Mr. Rogers. Now, have you informed the Attorney General of 
this investigation and what you found out?
    Mr. Bromwich. Mr. Chairman, we gave her a copy of the 
report and I have discussed it with her.
    Mr. Rogers. And what has she said about it?
    Mr. Bromwich. She was outraged about it.
    Mr. Rogers. What is she going to do about it?

                          disciplinary actions

    Mr. Bromwich. What she did about it was to take the matter 
of imposing discipline on these employees away from the INS and 
to have it done within the Department. The proposing official 
in this matter was Mr. Colgate, who proposed the punishments 
based on reviewing both our individual recommendations as to 
specific people and then evaluating the backup evidence that we 
collected in support of those recommendations.
    The discipline actually imposed was decided by the senior 
career person in the Office of the Deputy Attorney General. He 
is the one that evaluated the evidence, heard any evidence that 
any of the individuals wanted to present to him in mitigation--
--
    Mr. Rogers. But in spite of your investigation, in spite of 
all of the hubbub, only one is now not working at INS. The 
others are working and as far as we know, testifying to 
Congress, even today, after having lied and deceived the 
Congress at Miami? Is that right or wrong?
    Mr. Bromwich. I certainly can't exclude that possibility.
    Mr. Colgate. Mr. Chairman, if I could clarify, the range of 
punishments included suspensions and demotions and 
reassignments of individuals.
    Mr. Rogers. They are still working though.
    Mr. Colgate. In different positions at lower grade levels.
    Mr. Rogers. Still working for the U.S. Government, still 
working for INS, correct?
    Mr. Colgate. Except for one individual, that is correct.
    Mr. Rogers. Except for one, these are people who lied and 
deceived the Congress and you failed to fire them. Right or 
wrong?
    Mr. Colgate. There is only one Federal employee who was 
removed, given the level of the individuals and the case law 
before the Merit Systems Protection Board, it would not sustain 
a removal. There was appropriate disciplinary action, ranging 
from demotions to suspensions from Federal service.
    Mr. Rogers. The IG, I think, just a few minutes ago, said 
that some of these disciplinary actions were not sufficient 
enough; is that right?
    Mr. Bromwich. I want to say most of them were in the range 
that we recommended, but some of them were not. There were 
several significant ones that were not.
    Mr. Rogers. Name those?
    Mr. Bromwich. Pardon me?
    Mr. Rogers. Name the significant ones.
    Mr. Bromwich. One was Pam Barry, the chief legislative 
person for INS.
    Mr. Rogers. Is she still working at INS?
    Mr. Bromwich. She is still working at INS.
    Mr. Rogers. Same job?
    Mr. Bromwich. I believe she is in the same job.
    Mr. Colgate. Let me correct that. Ms. Barry is in the 
process of being reassigned to a different position.
    Mr. Rogers. To what position?
    Mr. Colgate. She is not working in the same position. She 
will be working, from my understanding this morning, she will 
be working as a staff assistant to the Deputy Commissioner.
    Mr. Rogers. I can understand why she wouldn't be working as 
the chief liaison to Congress. At least you got that right. If 
she is still working there, after having lied to the Congress, 
I am absolutely amazed.
    Mr. Colgate. When my staff reviewed the proposal, we could 
not find that Ms. Barry had violated any rule, regulation or 
law. We were concerned about both her management style and 
approach. We referred that matter to Commissioner Meissner for 
review. Commissioner Meissner concluded it would be in the best 
interest of the Service to reassign her to a different 
position.
    The Inspector General's report never did recommend her 
removal.
    Mr. Rogers. Well, the Inspector General, I know the 
Inspector General, he is a friend of mine.
    Mr. Colgate. I would say so as well.
    Mr. Bromwich. A new friend, but I hope a good friend.
    Mr. Rogers. But he is not the Congress, and I don't think 
we will tolerate her still working, if what the IG says is 
true. I mean, how can you do that?
    Mr. Bromwich. Let me make it clear. I said it before, let 
me say it again, what she did that we found to be worthy of 
punishment, and Mr. Colgate is right, we certainly didn't 
recommend that she be removed. But we did find that she engaged 
in actions that could have led reasonable INS employees to 
believe that they were being gagged from providing truthful, 
important and relevant information to members of the 
delegation. And that consisted of what the conditions were at 
Miami International Airport, where these individuals worked, 
and also they were not to engage in any explicit comparison 
between the conditions at Miami International Airport and JFK 
Airport.
    Now, Ms. Barry, I believe, argues that this was not an 
attempt to conceal information, but simply some advice about 
kinds of information that it would not be productive to pass 
along. That is her view of things. Our view of things was that 
it had a chilling effect and was perceived to have a chilling 
effect by the employees who heard the instruction.
    Mr. Rogers. Who was the person that was fired?
    Mr. Bromwich. Valerie Blake, the former Deputy District 
Director at Miami, who subsequently became the District 
Director in St. Paul, Minnesota.
    Mr. Rogers. Is she gone now?
    Mr. Bromwich. Yes. Although Mr. Colgate can clarify. My 
understanding is that she was, in fact, removed. She still has 
remedies to protest the decision.
    Mr. Colgate. But it will be from outside the post.
    Mr. Rogers. You say she became the District Director at St. 
Paul?
    Mr. Bromwich. Yes.
    Mr. Rogers. That is her most recent job?
    Mr. Bromwich. Yes.
    Mr. Rogers. She was given that job after this took place in 
Miami?
    Mr. Bromwich. After the conduct took place and while the 
investigation was still going on.
    Mr. Rogers. She was promoted to District Director in St. 
Paul?
    Mr. Bromwich. Yes, she was.
    Mr. Rogers. Well, I have got a lot more questions just on 
Miami, but I also want to ask you about San Clemente and 
Gatekeeper and the Citizenship USA mess, and on and on. So I 
will wait for another round to ask more questions, including 
the FBI lab. I will wait for the others to ask you questions.
    Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Rogers. Sorry to take so long.
    Mr. Mollohan. That is all right. Thank you, Mr. Chairman.

                             INS Automation

    Last year, Mr. Bromwich, we had a line of questioning with 
regard to the development of the various information systems. I 
was just looking through that, and in response to my general 
questions, how is INS getting along in developing its 
information, its IDENT systems and its other information 
systems? Mr. Ashbaugh assured us that the information comes 
from INS and they are tracking it very carefully.
    In another answer, Mr. Ashbaugh indicates that the wealth 
of information suggests that a great deal of care is being 
given, and he represents that the information comes from INS.
    Then he indicates further on that the answer to your 
question is, I feel very comfortable about the quality of the 
management and attention that has been given to try to keep 
this on budget and on schedule.
    I understand your testimony today is that you cannot assure 
us that this project is on track or on the right track.
    Mr. Bromwich. That is correct, Mr. Mollohan.
    Mr. Mollohan. What has changed between yours and Mr. 
Ashbaugh's testimony last year and your testimony here today?
    Mr. Bromwich. What has changed is that in the intervening 
period, various mechanisms that we drew some comfort from last 
year have not worked out as well as we had hoped. We hoped 
these mechanisms would facilitate control over the contracts 
that would prevent them having the same fate as other large 
management information systems projects. We have seen that what 
we observed last year did not have an adequate follow-up in the 
period since our hearing.
    Several things bear noting. One, as you may recall at the 
hearing, we specifically identified the help that we believed 
the Defense Contracting Auditing Agency would be able to give 
us. They actually have people on site at EDS. They had a long 
history of dealing with EDS.
    What has happened in the intervening period is that INS was 
very slow to request the audits that we continued to tell them 
were necessary in order to make sure that the project was going 
well. Once they finally, at our urging, got the DCAA to come 
in, the work that the DCAA did was not very valuable from INS's 
point of view, and for that I fault both INS and DCAA.
    And seeing that the main management information contract, 
the umbrella or wraparound contract, if you will, that was 
supposed to cost $295 million over 5 years, was going to be 
consummated in 3 years; that is, all of the monies were going 
to be paid out in 3 years without the assurance that all of the 
things that INS really needed out of that contract had been 
obtained, that is what caused me to be alarmed, Mr. Mollohan. 
And on the strength of that information and my sense that, in 
fact, things were not going along smoothly, I had a full 10 
percent of my audit division over the course of the last 6 or 7 
weeks go in and take a fresh and clean look at the various INS 
automation initiatives and programs.
    Mr. Mollohan. What issues, can you identify that have been 
troubling you? With regard to what systems?

                                 Ident

    Mr. Bromwich. First, with respect to IDENT. IDENT, as you 
know, is a system used in the apprehension of illegal aliens 
and identifying them to determine, among other things, if they 
have prior criminal histories when they are apprehended. The 
system is deployed to some extent in Southern California in the 
San Diego sector. For those places where it is deployed, it 
works and works well.
    The problem is that INS does not yet have the 
infrastructure to deploy it as fully as they need to, and 
indeed there is all sorts of equipment, including IDENT 
terminals and other kinds of hardware and software that has 
already been purchased, that because of problems with INS's 
information technology infrastructure, is not being deployed 
right now. So in fiscal year 1996, IDENT was on track.
    Based on the review that we have done over the last 6 
weeks, we don't believe it is on track right now, although INS 
officials claim that they have a reasonable possibility of 
getting it back on track yet, in fiscal year 1997.

                                Enforce

    In addition to that, the ENFORCE system, which is the 
principle case tracking tool that INS is going to use for its 
enforcement activities, is now way behind. I believe INS 
acknowledges it is 2 years behind where it should be. A whole 
series of things contribute to those delays, but one of them is 
a constantly shifting expectation of what a system ought to be 
able to do based on going back and forth with the ultimate 
users of the system.
    Those are two of the systems, Mr. Mollohan, that we have 
specifically examined and about which we have trouble.
    Mr. Mollohan. How about the third----

                             Other Systems

    Mr. Bromwich. Let me say that there are a couple of 
automation or information technology programs that have been 
deployed, and I think rather successfully deployed. One is 
ICAD, which is the sensor, the electronic system used by the 
Border Patrol to determine movements by illegal aliens coming 
over the border. That isdeployed, and my understanding is that 
it is working as hoped.
    There is one other--the RAPS system--which relates to 
refugees and parolees, I believe, which has also been deployed. 
We are actually taking a look at that right now. In INS's 
judgment, it has been successfully deployed, and we didn't see 
anything in our brief review of it over the last 6 weeks to 
suggest that INS is wrong.
    I don't want to suggest to you that the Department is not 
doing anything about this. Mr. Colgate's office, in fact, has 
taken a major role in making sure that the various INS 
automation initiatives get back on track. I know that he has 
some concerns about the contracting that has been used to date, 
and he and his staff are doing everything they can to try to 
make sure that these systems are continuing to be brought in, 
and that the problems and delays are eliminated.
    Mr. Mollohan. You say that IDENT works and works well. By 
what criteria do you measure that?
    Mr. Bromwich. On a station-by-station basis, and even 
connecting a number of different stations in the San Diego 
sector, as I understand it. If somebody, in fact, has been 
picked up before, and he is picked up again and he is 
fingerprinted, and other information is obtained, the Border 
Patrol can get a hit on that, and they can determine that, in 
fact, this fellow has been back and forth two, four, six times. 
So the software works. The hardware works. It is just not a 
broad-based enough system.
    Mr. Mollohan. The data base on which it relies is generated 
at that site?
    Mr. Bromwich. That is my understanding.
    Mr. Mollohan. Solely at that site?
    Mr. Bromwich. This is Guy Zimmerman.
    Mr. Mollohan. The next time you testify, you ought to know 
about this system. You ought not to have to ask somebody. I am 
not trying to be overly critical here, but there is a lot of 
money being spent on identification systems. The FBI is 
developing an identification system, which I am pretty familiar 
with. I know INS is.
    Everybody wants those systems to work well, to communicate 
among themselves, and for each to do their unit function.
    I understand the IDENT system has a unique function. It 
wants a rather defined data base so it can try to get there 
quickly.
    I think that you should be looking at this really carefully 
and understanding where the problems are and identifying them 
in a prospective sort of way here, so we don't come back like 
the Chairman has had to come back on some of the other issues 
and we can get a system out there that is good in every way and 
we can be pleased about them.
    I have to run.
    Mr. Bromwich. Mr. Mollohan, quickly, I do know about this 
system. You asked me a specific question of where the data are 
generated and how widely they are shared.
    Mr. Mollohan. That is really a fundamental issue, the data 
base and why INS has to develop a separate system. That is a 
data base issue.

                            Citizenship USA

    Mr. Rogers. Now, I want to let Mr. Mollohan resume when he 
comes back from a vote on the Floor, but I wanted to get into a 
couple other matters with you. First, Citizenship USA. In 1996, 
INS granted citizenship to almost 1.1 million individuals. 
Congressional inquiries and investigations have led to claims 
that the INS did not follow procedures for obtaining criminal 
record checks on these applicants, and, indeed, after a 
preliminary audit, the Justice Department now acknowledges that 
180,000 individuals were granted citizenship without a full 
criminal record check, and over 70,000 people with criminal 
records were granted citizenship during this last year.

                        Criminal Records Checks

    You issued a report 3 years ago about the INS failure to 
conduct criminal record checks. They did not correct the 
problem, even though they knew that a surge of applications 
would be forthcoming, and indeed, we are told, the 
Administration pulled all stops out, pressured, to get as many 
people registered as citizens to vote, before the election, as 
possibly could be, and indeed they did.
    As a result, we now have 70,000-plus people out there who 
are new citizens who came to us as criminals, and INS failed to 
ferret them out. Is that more or less correct?
    Mr. Bromwich. That is correct. The recommendations that we 
made in our 1994 Inspection report about the importance of 
making sure that the results of the fingerprint checks were 
received and filed in the relevant file before citizenship 
adjudications were made were not followed. Had it been 
followed, this problem would not be a problem.
    Mr. Rogers. Did you in your investigation determine that 
there was an extra special push on the INS to get these 
citizenship papers issued this year?
    Mr. Bromwich. I think it is well-known that there was a 
push. What we are looking at is the extent of the pressure and 
from where it came, Mr. Chairman. That is a matter, a series of 
matters, actually, that is currently under investigation.
    Mr. Rogers. And what have you found about where it came 
from, the push?
    Mr. Bromwich. It is really too early to say, Mr. Chairman. 
Literally, a lot of these interviews have just been done within 
the last 2 or 3 weeks, so I am not in a position to say.
    Mr. Rogers. My understanding is there is some preliminary 
information, more than information, preliminary facts, that the 
push was to get as many citizenships granted and people 
registered to vote before the election. Is that right or wrong?
    Mr. Bromwich. That is right. Mr. Chairman, Mr. Colgate's 
office, as you know, has been very closely involved in the 
counts of the citizens who have been made citizens with 
criminal records. I think he wants to clarify what the numbers 
are.
    Mr. Colgate. Mr. Chairman, of the 71,000 records that you 
have identified, those were FBI IDENTS, where FBI has 
identified to us that they had a record on the individual.
    My recollection is about 10,800 of those individuals had a 
felony criminal history record. Approximately 25,000 had 
misdemeanor criminal histories, and about 34,700 had what are 
called INS administrative. We are going through this process of 
reviewing those felony records and a sample of all of the 
records.
    I just didn't want to leave the impression that the whole 
71,000 would have been disqualified, because in the cases of 
the misdemeanor or administrative record, it would not be a 
disqualifying situation per se for citizenship.
    We are in the process of reviewing all these, as well as 
the 180,000 that you referred to, which makes up the three 
categories. Those cards that were rejected, although therewould 
have been a name check on it, those cards that we cannot just 
reconcile, we view them as lost in the process, and there is another 
group of about, I believe, in excess of 2,500 that are still in process 
with the FBI.
    We will give the Committee further refinement and numbers, 
but I just wanted to give you a better sense.
    [The information follows:]

[Pages 548 - 550--The official Committee record contains additional material here.]


    Mr. Rogers. But 180,000 individuals were granted 
citizenship without a criminal record check.
    Mr. Colgate. They were----
    Mr. Rogers. You are now going back to see how many of those 
were criminals.
    Mr. Colgate. There was not a completed criminal history 
check. We believe approximately 113,000 that there may have 
been some type of FBI name check, which is not as extensive, 
but it would have given some preliminary indication.
    Mr. Rogers. That is not what we require.
    Mr. Colgate. That is absolutely correct.
    Mr. Rogers. What I am saying to you is 180,000 individuals 
were granted citizenship without the proper criminal record 
check. Is that right or wrong?
    Mr. Colgate. That is correct, without the completed----
    Mr. Rogers. And today we have on the streets of the 
country, possibly at least tens of thousands of people, many of 
them felons, who were granted citizenship without checking 
criminal records, all in the name of getting it done so they 
could vote before November. Is that right or wrong?
    Mr. Bromwich. Mr. Chairman, my understanding is that the 
records evaluation that has been done so far shows that in many 
cases these are not criminal convictions, but instead just 
criminal arrests, that they in fact had a rap sheet that showed 
arrests.
    So it is not true that all these people were, in fact, 
felons, that is, convicted felons, at the time that they were 
made citizens. My understanding--again, Mr. Colgate has more 
detailed information--is that the number of people who were 
improperly made citizens even though they had disqualifying 
felonies is a fairly small number.
    Mr. Colgate. That is correct. We believe we will complete 
our review in the mid-May time frame and will be able to report 
to the Congress.
    Mr. Rogers. Suppose you find a number of felons on the 
street; what are you going to do about it?
    Mr. Colgate. We have issued regulations that would allow us 
to administratively revoke the individual's citizenship.
    Mr. Rogers. So are you going to go out and find them?
    Mr. Colgate. That is our plan, sir.
    Mr. Rogers. Well, there are only several hundred thousand 
aliens that you have not been able to find so far. In fact, 
there are five million illegal aliens in the country at this 
moment, and you can't find them, and if you do, you won't 
deport them.
    It is abysmal. It is shocking. It is horrendous what is 
going on in the Justice Department, and you are not handling 
the problem.

                          INS--OUT OF CONTROL

    INS is out of control. Citizenship is open to criminals, 
all in the name of getting them registered to vote before the 
election, and the Attorney General stood by helpless, or at 
least inattentive, and let it happen, whether by accident or 
design, and it is inexcusable and shall be answered to.
    I don't know where we could turn. If I had an agency today, 
I would zero out the INS and turn all of this over to some 
responsible agency to handle the whole problem. I can't give it 
to the Justice Department because they have already proved they 
can't or will not do it.
    Where do we turn, Mr. Bromwich? I am willing to wash my 
hands of INS and say it is a lost cause. I have invested 12 
years on this Subcommittee in trying to nurse this agency 
along, being patient, giving them money, answering all of their 
personnel requests. We have given them more money than they 
have asked for; we have given them more personnel than they 
asked for.
    We have visited the borders. We have disciplined, we have 
pressured, we have pulled, we have pushed, and it just is an 
absolute, abysmal failure. Where do we turn? What do we have to 
do to control our Nation's borders?
    Mr. Bromwich. Mr. Chairman, I know you feel the 
frustration. I feel the frustration as we look at the manifold 
problems that exist within INS. If there were a magic-bullet 
solution such that disassembling it or creating two or three 
smaller agencies, if that would do any good, if I were 
confident that would do any good, I might well be here 
recommending that to you, Mr. Chairman. But we think the 
functions that INS does are critical functions.
    As you know, in your opening statement you said, 
controlling our borders, nothing is much more important than 
that. Giving deserving people--not felons, but deserving 
people--citizenship is a key and core governmental function 
that somebody has to do.
    I can't confidently recommend that you simply wash your 
hands of the INS because I don't have an institutional 
arrangement to put in its place, frankly, that would take care 
of those essential governmental functions. I think what you 
have a right to have, and what you are conducting, is oversight 
over its various activities. We are conducting oversight over 
those activities.
    I am well aware that it is frustrating that we only bring 
you problems and you only find problems. But these are very 
tough problems that I think the agency is trying to solve, 
although with less than glowing success so far.
    Mr. Rogers. Not only are we spending billions of dollars on 
INS activities, now we are having to pay the Justice Department 
millions of dollars to investigate them and to keep up with the 
criminal activity and the other incompetence over there.
    I just say to you, I am willing to turn it over to the 
National Guard or to the Department of the Interior or the Park 
Service or to the Boy Scouts of America. Anybody would do a 
better job of policing our borders than the incompetence of the 
INS under the jurisdiction of the Attorney General, who is 
letting it go on.
    So I am just willing to say that the incompetence is not 
stopping at the top echelons of INS; otherwise, we would have 
an INS that would halfway operate.
    Now, did you find any evidence, or are you prepared to say 
that the instructions to register these felons to vote before 
November came from other than above the INS Commissioner?
    Mr. Bromwich. I don't have that information at this time, 
Mr. Chairman.
    Mr. Rogers. There is some information.
    Mr. Bromwich. We are certainly pursuing that information. 
If there is information you received, we would obviously love 
to get all of it. I know we have gotten some from the Congress, 
but we would welcome having you share all the information that 
you have.
    Mr. Rogers. I have seen some information that takes it to 
the highest levels of the government, that the instructions 
were to give these people citizenship and register them to vote 
before November.
    Mr. Bromwich. Mr. Chairman, we will pursue it as far as it 
goes.
    Mr. Rogers. Those are very serious charges that I am 
making, but I am prepared to back them up in due course of 
time. I hope and trust that you will pursue your investigation 
wherever it leads.
    Mr. Bromwich. You have my assurance on that, Mr. Chairman.
    Again, I would state if there is specific information that 
you or other Members of this Subcommittee or anybody in the 
Congress has on this, we certainly would welcome it.

                             INS AUTOMATION

    Mr. Rogers. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. Returning to the 
identification systems, INS's automation efforts, you say you 
have undertaken a review of these activities. What is the scope 
of your review?
    Mr. Bromwich. The review--first of all, we have a separate 
review that is scheduled this spring, by my Inspections 
Division, looking specifically at IDENT as a functioning 
system. We took a broader-gauged look at IDENT, Mr. Mollohan, 
over the last 6 weeks, as part of the package of INS automation 
initiatives.
    Mr. Mollohan. Did you not look at this issue last year, in 
1996?
    Mr. Bromwich. Did we have an inspection or audit on IDENT? 
No, we did not.
    Mr. Mollohan. Did you have any kind of an audit or 
inspection of any of INS's automation initiatives?
    Mr. Bromwich. Yes. Again, for a complete list, let me turn 
to my Assistant IG for Audit, Guy Zimmerman.
    Mr. Zimmerman. We looked at RAPS.
    Mr. Mollohan. I can't hear you.
    Mr. Bromwich. We looked at RAPS, he said.
    Mr. Zimmerman. That appears to be functioning pretty well. 
The current work that we did was an attempt to look at the 
broad scope of whether the initiatives were on target.
    Mr. Mollohan. I am sorry, it is probably my problem. If you 
could speak up a little bit.
    Mr. Zimmerman. The current work we were looking at was an 
attempt to see if the initiatives were on target, on budget, 
and whether or not there were problems. And what we found was 
that we couldn't, neither we nor INS, because of lack of 
project management systems to determine whether or not they 
were on target or on budget; and we found that certain systems 
were behind schedule.
    Mr. Mollohan. Do you look behind the on-target, on-budget, 
meeting-a-schedule issues to the goals of the project, what the 
systems are supposed to deliver and how they are going to 
integrate with the rest of the government's identification 
systems?
    Mr. Bromwich. Mr. Mollohan, part of the problem that we 
found in our recent review is that there is a constantly 
shifting set of goals for the integrated INS automation 
initiatives.
    Mr. Mollohan. Is that a problem?
    Mr. Bromwich. Yes, it is a big problem, because it is the 
primary benchmark against which you measure whether they are 
succeeding, whether they are going over budget and so forth.
    Mr. Mollohan. So you have determined that, that the goals 
have not been set?
    Mr. Bromwich. That the goals keep changing and that the 
goals that they have right now are different than they were 6 
months ago, which, in turn, were different than they were a 
year ago. It presents enormous problems to us as we try to 
review what INS is doing on these projects, what it hopes to 
achieve and so forth.
    On the $295 million wraparound initiative, the EDS 
contract, many of the tasks are not predefined. There are 
literally scores of individual tasks that are begun before 
there is a task order that is issued. In other words, the work 
is commissioned, specific direction is given to do something 
before--I am sorry, the work is actually being done before the 
task order is cut.
    In some cases, work is done, very substantial work, where 
we are incurring hundreds of thousands, even millions of 
dollars in obligations and the task that is supposed to be 
attacked is not defined until after the job is already done.
    So there is a real problem that we are finding in trying to 
assess whether, in fact, these programs and initiatives are on 
target.
    Mr. Mollohan. What did you do with that information?
    Mr. Bromwich. I am giving it to you, Mr. Mollohan, and we 
gave it to the INS people with whom we have been talking over 
the course of the last 6 weeks.
    Mr. Mollohan. Who are the INS people you have been talking 
with?
    Mr. Bromwich. It starts at the Executive Director level, 
George Bohlinger, and it is also the Associate Commissioner for 
Information Resources Management, Ron Collison. And then there 
are two other individuals--Ralph Roman and William Kemper--
actually closer to the actual administration of the contracts 
than they are, and we have been dealing with all of those 
people.
    I do want to say that the Attorney General has identified 
this, the whole series of INS automation issues, as a problem 
and a situation that needs to be addressed, and Mr. Colgate's 
office, as I mentioned before----
    Mr. Mollohan. In the last 6 weeks?
    Mr. Bromwich. No, Mr. Colgate's office has been involved 
for a longer period of time. He is obviously better able to say 
when that was.
    Our review has taken place over the last 6 weeks. Once I 
got information that alarmed me and suggested that the 
oversight we had hoped was going to be conducted by the Defense 
Contracting Auditing Agency was not being done. I became very 
concerned about that.
    Mr. Rogers. Let me interrupt you. We have just a minute 
left on the first of three 5-minute votes. I am going to 
declare a short recess. We will resume in about 15 minutes.
    [Recess.]
    Mr. Rogers. The Committee will come to order.
    Now, Mr. Bromwich, just briefly back on the naturalization 
program, you had brought to the attention of everyone the 
problems within the naturalization program as far back as 3 
years ago.
    Mr. Bromwich. That is correct.

                     postponement of planned review

    Mr. Rogers. And then in your memorandum, to Commissioner 
Meissner of October 23, 1995, in which you outline your 
proposed work plan for 1996 for INS, you, among other things, 
proposed an inspection of the naturalization program because we 
had prompted you and others had prompted you to do that; did 
you not?
    Mr. Bromwich. That is correct.
    Mr. Rogers. And so you proposed to investigate the 
naturalization program. And then she wrote back to you a couple 
of days later, November 7, 1995, requesting that you postpone 
your investigation of the naturalization process until late 
1996.
    Mr. Bromwich. Let me just be clear, Mr. Chairman. There was 
not going to be an investigation at that point. There was going 
to be an audit or inspection of how well the program was 
working.
    Mr. Rogers. You proposed that; she wrote back and said, 
please don't do that until late 1996?
    Mr. Bromwich. That is my recollection.
    Mr. Rogers. It is in your paperwork. That is what it says. 
That is her memo in which she wrote back and said, I will 
appreciate your not doing this until late 1996. Right?
    Mr. Bromwich. That is correct.
    Mr. Rogers. Now, what is late 1996? That is the November 
election date, late 1996, isn't it?
    Mr. Bromwich. That is certainly when it was.
    Mr. Rogers. Yes.
    Mr. Bromwich. Just to be clear, Mr. Chairman, even after 
the correspondence with Ms. Meissner took place, we 
nevertheless were going to proceed in early fiscal year 1997 
with a Citizenship USA review, a detailed one, to be conducted 
by our Audit Division. As you well know, it was overtaken by 
events.
    We still plan, depending on what the various reviews 
uncover over the course of the next few months, to conduct any 
number of audits and inspections that relate to specific issues 
raised by the naturalization process. But I just wanted to let 
you know that we were poised to, in fact, engage in a big job, 
and then because of all the fuss that was created and all the 
important work that JMD had to do in connection with Peat 
Marwick and INS, we have deferred that.
    I just want to assure you that we, in fact, will do as much 
work to close out Citizenship USA as we can.
    Mr. Rogers. Well, if that we had gone ahead and reviewed 
the program in 1996, as you had originally intended, perhaps we 
would have caught this before the damage was done.
    Mr. Bromwich. It is possible, Mr. Chairman. One of the 
things we try to do is follow up on work we have done before. 
So the Audit Division, before beginning its work, would have 
reviewed what the Inspections Division had done that culminated 
in the February 1994 report. So I feel confident that we, in 
fact, would have taken another look at that problem and been in 
a position to find that the problem had not been solved, and 
indeed had been aggravated because of the flock of people 
seeking citizenship.
    Mr. Rogers. What did she say the reason was that they 
wanted you not to audit this naturalization program?
    Mr. Bromwich. Mr. Chairman, I don't recall, to be honest 
with you.
    Mr. Rogers. Well, I am reading from her memorandum to you, 
November 7th, 1995, ``We appreciate your postponement,'' she 
says, ``of this review from fiscal 1995 at our request. One of 
our priorities for fiscal 1996 is the `reengineering' of the 
naturalization process which efforts began September 1995. As 
part of this effort, our goal is to eliminate our backlog in 
the key cities that account for a majority of problems. We 
believe that it may be more useful to defer this review until 
late 1996 to allow time for a full program implementation.''
    So apparently this is part of the reengineering or 
Reinventing Government process, the Vice President's program?
    Mr. Bromwich. Right. The term ``reengineering'' is 
frequently used in trying to fix programs or operations that 
are broken.
    Mr. Rogers. So I gather she was asked by the Reinventing 
Government people to tell you to lay off until after the 
election reviewing the naturalization program.
    Mr. Bromwich. Mr. Chairman, I don't have any knowledge of 
any conversations or contacts that Ms. Meissner may have had 
with anybody on that issue. All I know--and you have actually 
refreshed my recollection--is what she communicated to me.
    Mr. Rogers. And in the meantime they went about this 
program of giving citizenship to 1.1 million people before the 
election, 180,000 of which never had a complete criminal record 
check, and several thousands of which we know now are felons 
running loose in the streets of this country who have been made 
citizens. Right or wrong?
    Mr. Bromwich. The program went forward without our further 
reviewing it; that is correct.
    Mr. Rogers. Mr. Latham?
    Mr. Latham. I guess I am going to follow on the same topic 
here.

                            citizenship usa

    This story was in the New York Times yesterday, about how 
the Clinton Administration allowed about 180,000 immigrants to 
become American citizens before checks of criminal records were 
completed. The INS has said it rejected--of the more than one 
million applicants that they ran through and actually checked--
they rejected about 18 percent of those applicants.
    And then when you go to the 180,000 cases with insufficient 
background and verifications, fingerprint checks were never 
completed on 113,126 because the forms were improperly 
completed or the prints were smudged. In 66,398 cases, the 
Immigration Service found no record that it everasked the FBI 
to check the applicants' backgrounds.
    If you figure 18 percent of the 180,000, by my math anyway, 
it is over 32,000 people who are out on the streets today, but 
probably would have been rejected if the percentage held up.
    What was the rush?
    Mr. Bromwich. Mr. Latham, my understanding is that the rush 
in part was dictated by a huge backlog of naturalization 
applications. That is not to say that any urgency to reduce the 
backlog should have sacrificed the quality control that is 
implicit in doing a FBI fingerprint name and date of birth 
check.
    So what was the cause of the rush? There was at least one 
good cause of the rush. Does that excuse it? No.
    Mr. Latham. I don't think there is any justification that 
there can be--to have at least 32,000 people out on the street, 
many of whom are convicted felons and people who would not have 
qualified under their own parameters.
    There has got to be another reason. And whether it is 
political, to get people to register, is an absolute breach of 
responsibility that they would put American citizens' lives in 
jeopardy, and the only justification I can see for them not to 
do their job is someone is pushing them or told them, to run 
them through.
    Mr. Bromwich. I am not here, Mr. Latham, to excuse this or 
even to really explain it, but simply to tell you that we had 
noted the problem 3 years ago. We provided notification of what 
we believed the problems to be with the fingerprinting process 
and the relationship between the INS and the FBI. Those 
problems that we identified were not corrected, and there was a 
huge movement in INS to reduce the backlog and, in fact, 
process a large number of people through the naturalization 
process. I don't think we will know until Mr. Colgate, together 
with Peat Marwick and INS, actually goes back through the 
specific cases involving the individual aliens who made 
citizenship applications.
    The data that you cited, I believe is based on some 
briefings that Mr. Colgate gave. But my understanding is that 
the numbers are fluid, and we will not know for sure until the 
work is actually done.
    Mr. Latham. How long would it take to round up the 180,000 
people that--In fiscal year 1995, the latest year in which 
available figures are out, the agency revoked the citizenship 
of 20 people in procedures that typically took months to 
complete. That is 20. We have got 180,000 people out there. So 
we are probably talking decades.
    Mr. Bromwich. I don't know, Mr. Latham. That is a huge 
number, 180,000, obviously a huge number.
    Mr. Latham. I guess I would agree with the Chairman, we 
ought to look to find a different means of administering this. 
I am from Iowa, northwest Iowa. I don't know if anyone saw last 
year's cover story in U.S. News and World Report about 
immigration problems in Storm Lake, Iowa. You don't think of 
Iowa as having a problem like that----
    Mr. Bromwich. Right.
    Mr. Latham [continuing]. But it is a tremendous problem. 
And the American people deserve to know that their borders are 
secure, and it is not being done because an agency is 
incompetent and knowingly deceptive to Congress, with 
allegations of bribery and everything else involved.
    Mr. Chairman, anything I can do to start over is what we 
need to do. Thank you.
    Mr. Rogers. Mr. Dixon.
    Mr. Dixon. Thank you very much, Mr. Chairman.

                            ins performance

    I remember an expression my grandmother used to use. She 
would say, if you find yourself in a hole, stop digging, but I 
think I am going to dig a little bit here.
    Mr. Bromwich, I agree with the Members of the Subcommittee 
that the conduct of the INS is very bleak. I think there is a 
morale problem, there are management and labor problems, and 
there may be some, criminal activities going on. I realize that 
this report is kind of a summary of your activities.
    Although the patient may be dying, I am wondering if we are 
reading all of it correctly, or at least maybe these were my 
assumptions.
    One of the things that we are all interested in, certainly 
those from California, is the proliferation of drugs. When I 
first read this, it was probably my misreading of it, I thought 
that there was an investigation that turned up active INS 
personnel at the border that were participating in smuggling 
drugs. As I read this, I see that the investigation that I 
focused on said there was a former INS agent that was arrested 
and convicted with the cooperation of your office, the FBI, and 
some other law enforcement agencies.
    Did the second reading of it, did I read it correctly?
    Mr. Bromwich. I don't know the specific----
    Mr. Dixon. It is on page 11.
    Mr. Bromwich. Which I don't have.
    There are certainly cases involving former INS personnel. I 
am not going to be able to give you much comfort. We also have 
investigated and are continuing to investigate cases that 
involve the actions of INS personnel both at the California-
Mexico border and at various points along the Texas-Mexico 
border who, the allegations are, were complicit in schemes to 
wave through, if you will, major shipments of drugs through 
points of entry and other places along the border.
    Mr. Dixon. So it is your belief that there are active INS 
personnel that are engaged at the Mexican border in assisting 
the transportation of drugs into the United States?
    Mr. Bromwich. Yes. I don't want to overstate the scale or 
the dimension of that. I don't know that conducting specific 
investigations is a very good way to get a global read on how 
much of that activity is absolutely going on. But we certainly 
have done and are doing investigations of that sort that 
involve the direct participation by INS personnel in drug 
distribution.
    Mr. Dixon. Because at first blush I think you have painted 
a very dismal picture of the situtation at INS, and I am 
wondering, though cleanup is bad, is it as bad as we are 
portraying it?
    Mr. Bromwich. I am just handed a note, Mr. Dixon. 
Apparently the item you are referring to, that individual was 
in fact actively employed by INS at the time that our 
investigation took place. So based on the note that has been 
passed to me, your first reading was correct; that is, it was 
somebody who was still on duty at INS.
    Mr. Dixon. It doesn't say that though. It says a former INS 
inspector and five coconspirators were arrested on various 
cocaine smuggling charges. At the time of the arrest, the 
person was a former?
    Mr. Bromwich. Yes, that is correct.
    Mr. Dixon. At the time of the conviction, the person was a 
former.
    Mr. Bromwich. That is correct, Mr. Dixon.
    Mr. Dixon. So I don't understand what your note meant.
    Mr. Bromwich. The activities, the underlying activities, 
took place while he was in INS.

                              GREEN CARDS

    Mr. Dixon. Okay. So it is as bad as we think it is.
    Now, I want to ask about the green card, and maybe you 
don't have an opinion, but I notice in your remarks you say two 
things that jumped out at me. One was that there is a cheaper 
way to do this than the way they are processing them.
    The second question is, I am told that now it is almost 
impossible to make something noncounterfeitable. I know the INS 
says that this is a card that is very difficult.
    Have you formed an opinion as to whether we are going to be 
seeing counterfeit cards in California or other places?
    Mr. Bromwich. I really haven't, Mr. Dixon. I continue to be 
amazed at technological developments in virtually every field. 
So to suggest that there can't be or won't be a card that is 
not capable of being counterfeited, I am reluctant to say that. 
There may not be one now, but that is not to say there might 
not be technological developments that would make that in fact 
come to pass.
    Mr. Dixon. Right. And you are suggesting that they use the 
mail to mail in your old cards and to get back your new card.
    Mr. Bromwich. We are suggesting that they need to move 
quickly to retire the outstanding green cards and to move as 
quickly as they can to a universal scheme for green cards where 
everybody has essentially the same kind of green card.
    But what we are saying in terms of the process is that, 
right now, we believe a lot of money is being wasted by 
unnecessarily involving the INS district offices in the 
process. We calculate, just in terms of how many work-years are 
spent by INS employees at the district offices, that $45 
million is currently being spent that could be saved if the 
process were rebuilt and the district offices were taken out of 
the picture.
    In addition to that, there is a separate problem that we 
touch on, which is that INS looked to be in the position to 
want to purchase more, very expensive card-making machines than 
there was any evidence to suggest they really needed. My 
understanding is that, based in part on our work, they are not 
rushing pell-mell towards that outcome. But that was a separate 
potential waste of money.
    Mr. Dixon. Finally, I would like to take whatever time I 
have left, Mr. Chairman.

                            INS PERFORMANCE

    Mr. Bromwich, I have known of your reputation for some time 
and have known you for a short period of time. You indicated 
that you have spent a lot of time investigating the INS, so I 
know that you must have formed some opinions as to what is the 
problem.
    Is it the Commissioner herself, and this all started under 
her watch? Is it that the people the government has hired and 
recruited over a period of years are all rotten to the core? 
This problem is widespread, if I read your report correctly, 
and I am wondering what opinions you have formed.
    Setting aside any investigatory thing, should we abolish 
this agency, should we cut the money, should we give it more 
money, should we retire everybody that is there? What is the 
root cause of this cancer that you feel--and I am not 
challenging it--has spread throughout this entire agency?
    Mr. Bromwich. I don't want to suggest for a moment, Mr. 
Dixon, that I lay at the feet of Commissioner Meissner most of 
the problems that we have identified. Far from it.
    Most, if not all, of these problems originated years and 
years ago, and are regrettably the product of substantial 
neglect over time by INS top management, by Justice Department 
top management, and frankly, by the Congress as well. So I 
don't for a moment want to suggest that the responsibility for 
the manifold problems that we find can be laid properly at the 
feet of Commissioner Meissner.
    I have enormous respect for her personal and professional 
integrity, and none of the work I have done suggests any 
different conclusion.
    What to do is much harder. I think that, as I mentioned in 
response to questions earlier, INS carries out absolutely 
critical functions in this country, both enforcement functions 
in protecting our borders and service functions in terms of 
making sure that people who are lawfully here or lawfully want 
to come here can in fact have an orderly way through the 
process to obtain the benefits of U.S. citizenship or other 
kinds of benefits that fall short of citizenship.
    I think there is no simple answer and there is no magic 
bullet. I think the things that the Congress has appropriated 
money for are things that need to be done. Even though we 
conclude that the automation initiatives have not been terribly 
successful, when taken as a whole, that does not mean that they 
don't need to be taken care of.
    What I can suggest and what I offer is the prospect of 
continuing, close scrutiny by this Subcommittee and other 
Committees within Congress, very close scrutiny--continued 
close scrutiny by my organization and close scrutiny, which is 
now occurring, from the Department of Justice over INS.
    Mr. Dixon. I wonder if I could pursue that.
    You are from California and, quite frankly, I wonder 
whether the concept that the Immigration and Naturalization 
Service can, in fact, police our borders may be antiquated. It 
may be a job beyond their capacity. Have you formed an opinion 
about this?
    Mr. Bromwich. It is an incredibly difficult job to do under 
the best of circumstances, and they have not done a great job. 
But again, as I said in response to the Chairman's questions 
earlier, if I had a better solution to provide you, an 
institutional arrangement that I was comfortable or confident 
would create a better agency capable of carrying out the 
different missions that the INS currently has, I would tell 
you. I wouldn't have any hesitation about it.
    What I have to be concerned about in making recommendations 
in any responsible way is whether I can identify an 
institutional arrangement that would make things better, and I 
can't. Maybe it is because of a lack of imagination, but I 
don't have an institutional arrangement that I can recommend to 
you that would fix these problems. All I can do in my current 
position is to continue to identify them as often as I can, to 
try to point them out as boldly and forcefully as possible, not 
only to the INS but to the Justice Department and to the 
Congress, and to keep doing that.
    I know that may not be a satisfactory answer, but I don't--
--
    Mr. Dixon. No one has a satisfactory answer.
    Mr. Bromwich. I don't have a better solution.
    Mr. Dixon. Thank you, Mr. Chairman.
    Mr. Rogers. Well, Mr. Dixon raises a valid point that I 
think we have been skirting around here for a long time.
    Is the INS an antiquated agency and as well as the concept 
to try to defend the borders in a modern age against millions 
of people trying to come in, illegally or otherwise. And I 
think we have heard evidence here today in this hearing that 
absolutely confirms what we have been hearing for years that 
this is an incompetent agency for any purposes, including 
guarding our borders.
    I think a lot of us are beginning to come around to the 
point of view that we may have to get the military involved in 
the protection of the borders because anything short of that 
looks like it is ineffective.
    I mean, we have put on hundreds of new Border Patrol agents 
every year for the last several years, trying to give INS 
enough manpower to protect the borders, and what we get back 
are these endless, ceaseless scandals. We have all sorts of 
turpitude and crimes in an agency that is shot through from top 
to bottom with ineptness. So I guess I am just like you and 
others, absolutely frustrated.
    Again, I thought--last year and the year before--I thought 
we were beginning to bring the agency around, but it has gotten 
worse than it ever has been, to my knowledge, since I have been 
on the subcommittee.

                                FBI LAB

    Let's get back to the FBI laboratory question. Now, as you 
testified, you completed a report of serious allegations of 
problems at the FBI laboratory. Where are you with this report 
now?
    Mr. Bromwich. In late January, Mr. Chairman, we provided, 
with a very restricted distribution, copies of our draft report 
to the FBI and also to various prosecution offices throughout 
the country who were responsible for pursuing the specific 
cases that we examined in great detail. We gave them a period 
of 30 days to provide us with their comments. We didn't want 
their opinions, we didn't want argument, we simply wanted to 
make as sure as we possibly could that everything in the 
report, when it is issued in final form, is factually accurate.
    We have gotten most of those comments back, Mr. Chairman, 
but not all of them. I believe there is either one set of 
comments or perhaps two we have not yet received. But we are 
already, based on the comments that we have received to date, 
assessing whether any changes need to be made from the draft 
report to the final report, whether in light of the additional 
information that is being brought to our attention during this 
process any further interviews or other kinds of investigation 
need to be done.
    I can tell you, Mr. Chairman, that in mid-March, after all 
the comments have been analyzed and we have made preliminary 
judgments as to whether any changes needed to be made or not, 
the whole team is going to convene and slog through this until 
we come out with a final product. That is currently scheduled 
for the week of March 10th.
    Mr. Rogers. What can you tell us about the allegations? Can 
you confirm any of what we are reading in the newspapers?
    Mr. Bromwich. I want to be very careful about this, Mr. 
Chairman, as I am sure you are aware. I can say that we 
received scores of allegations against the FBI lab, primarily 
from Dr. Frederic Whitehurst, and the allegations went to 
mismanagement of the lab, to potential falsification of test 
results, to the testifying of various laboratory employees 
beyond the bounds of their expertise and so forth.
    I can say--and I would like to try to limit it to this--
that we have found some substantial problems in the FBI lab. We 
have found substantial problems based on the allegations that 
Dr. Whitehurst made to us.
    Mr. Rogers. Have you found independent verification of any 
of his allegations?
    Mr. Bromwich. In almost every case in which we will come to 
a finding that something was done improperly or 
unscientifically, we are not relying simply on the unadorned 
and uncorroborated testimony of Dr. Whitehurst or anybody else 
for that matter.
    So we are and have been confirming some of those 
allegations, not confirming all of them by any means, through 
the normal process of document review and interviews of 
witnesses who have knowledge of the underlying facts.
    Mr. Rogers. Is the FBI cooperating with your investigation?
    Mr. Bromwich. They have cooperated with our investigation.

                              MEDIA LEAKS

    Mr. Rogers. Are you conducting an investigation of leaks to 
the media in connection with this investigation?
    Mr. Bromwich. We are conducting an investigation of leaks. 
There have been, as you noted, lots and lots of stories in the 
newspaper that were not authorized, certainly by me and, I 
don't believe, by the Director of the FBI.
    We are taking a look at some very specific leaks by which 
two media organizations actually referred to specific language 
that came out of the draft report and could not be accessible 
to anyone unless they had a copy of that draft report.
    The Justice Department must get the information that we are 
uncovering out into the field, so that the Department is able 
to discharge its constitutional responsibilities to provide 
information that may be exculpatory to particular defendants in 
cases. This makes a leaks investigation extremely difficult to 
conduct.
    If we were to pursue all leaks, we would literally have 
hundreds of people who might have access to the information, 
because some of the stories that you have seen don't track back 
to our draft report. They instead track back to underlying 
investigative documents that the Department of Justice 
disseminated, going back many months.
    The specific leaks investigation we are looking at is a 
much more constrained universe than that. People leaked 
specific passages in our report to two different media 
organizations, and I think we have got a reasonable chance of 
finding out who did it. That is certainly what I am committed 
to doing.
    Mr. Rogers. Well, obviously, we are terribly interested in 
your FBI lab investigation. We had some concerns 2 years ago in 
the Subcommittee and responded by funding a new laboratory with 
more up-to-date equipment. So we are interested in what you are 
going to report.

                             FBI MANAGEMENT

    Now, does this investigation on the FBI lab raise broader 
questions in your mind of lack of management controls at the 
FBI? I mean, as you know, this Subcommittee has, like with INS 
and even more so, shoveled money at the FBI the last several 
years in amounts greater than the President requested, because 
of the crime wave. And we have been shoving people at them--new 
people, new equipment, new responsibilities--resources beyond 
their wildest dreams, in the hope that we could help stem the 
crime tide. Perhaps it has worked, perhaps not; I don't know.
    But in the process, I am becoming very disturbed by someof 
the shortcomings--I will put it mildly--at the FBI of recent, we have 
seen such things as the turning over of hundreds of FBI confidential 
files to the White House political operation. That is unheard of and we 
have yet to know why.
    We have had FBI personnel destroying documents pertaining 
to Ruby Ridge. We have had mishandling of the Olympic bombing 
case that would merit a gold medal, and the absolutely false 
accusation of Richard Jewell. We have had basic management 
problems that have resulted in huge cost overruns and schedule 
delays of vital law enforcement systems that we funded, such as 
the NCIC 2000 and IAFIS.
    They have not hired and trained the personnel and spent the 
resources that we provided for such things as counterterrorism 
and the like. And we could go on.
    You are listening to probably the biggest booster of the 
FBI in the Congress, historically. But I am on the verge of 
becoming quite distressed about these lapses of management, of 
some very critical items within the control of the FBI.
    Am I on your wavelength on this or not? Are we thinking 
about the same thing?

                scope of FBI oversight responsibilities

    Mr. Bromwich. It is somewhat more difficult, Mr. Chairman, 
for me to reach a general assessment about the FBI, in part 
because our jurisdiction is more limited with respect to it 
than it is, for example, with respect to INS. Certainly the 
problems that we have found in the FBI lab give rise to 
concern, but in terms of other misconduct issues within the 
FBI, we don't have the same institutional arrangement with them 
as we do with most of the other components within the Justice 
Department, so my knowledge is somewhat more limited.
    We do have plenary authority to conduct audits and 
inspections of the FBI. I can say that for most of the life of 
the OIG, the FBI was not cooperative with work that we have 
tried to do. That has improved recently, and we have 
encountered fewer obstacles in the last few years.
    Just to give you one example, what we do in trying to 
generate the slate of audit and inspections work that we do for 
the next year, we solicit suggestions from the components 
themselves. In the case of the Bureau of Prisons and INS and 
DEA and so forth, we have regularly received requests to do 
certain work that was not just ``keep them busy,'' ``make busy 
work,'' but requested reviews that were important to the 
component.
    We did not get a similar reception, going back many years, 
from the FBI, and we are still not getting them to request us 
to do that various kind of oversight work.
    Mr. Rogers. As a matter of fact, in 1994, the Attorney 
General told you to ``bug out'' of investigating the FBI; is 
that not correct?
    Mr. Bromwich. It was not so much ``bug out,'' as ``stay 
out.'' There had been limited authority all along, and 
certainly the Attorney General's order in November of 1994--
which I think is what you might be referring to--codified, if 
you will, by Department regulation, the fact that FBI conducts, 
in the main, its own misconduct investigations, rather than 
having us be the principal investigating agency.
    Mr. Rogers. That is right. The Attorney General in 1994 
issued an order giving primary responsibility for investigating 
allegations of misconduct on the FBI to the FBI's own Office of 
Professional Responsibility (OPR).
    Now, who oversees the FBI's Office of Professional 
Responsibility? You don't because the Attorney General says, 
so, right?
    Mr. Bromwich. We have limited powers of review, Mr. 
Chairman. What we can do is, we are now getting, for the first 
time since January of 1996, information on a regular basis from 
the Bureau of what matters of misconduct they are looking into; 
and we do, under the order you are referring to, have the 
limited ability in specific cases to go to the Deputy Attorney 
General and ask to take over a matter, either from FBI-OPR or 
DEA-OPR.
    Mr. Rogers. You got such a waiver to investigate the FBI 
lab situation, right?
    Mr. Bromwich. Yes, Mr. Chairman.
    Just to be clear about what happened there, we had been 
doing an investigation for a while based on Dr. Whitehurst's 
allegations. FBI-OPR had also been doing an investigation of 
various claims that Whitehurst was making. When I was provided 
with certain information in the summer of 1995 that made me 
realize that there was a major problem, I went to the Deputy 
Attorney General and told her that I thought it was 
inappropriate for FBI-OPR to be doing any part of the 
Whitehurst-related investigation.
    She requested that I meet with the Director of the FBI and 
find out whether he was opposed to my taking over the entire 
inquiry. I met with the Director in early August of 1995, and 
he did not oppose it. He in fact said, no, I think it is better 
that you do all of this.
    But that is the only instance in which we have--since I 
have been IG, that we have resorted to the mechanism created by 
the 1994 order and taken over a matter that resided in FBI-OPR.
    Mr. Rogers. In your opinion, does the FBI presently have an 
effective infrastructure to conduct adequate oversight of 
itself and bring significant management deficiencies to the 
attention of senior FBI and DOJ management?
    Mr. Bromwich. I have to state my bias, Mr. Chairman. I 
don't believe that when you are dealing with powerful law 
enforcement agencies, there is any replacement for external 
oversight, either by the Congress or by some other entity. That 
is my bias and I want to state it clearly.
    I think that there is some good work done by FBI-OPR. I 
think there is some good work done by the Inspections Division 
of the FBI. Is it the type of close oversight and scrutiny that 
we should have over one of the Nation's most powerful agencies? 
I don't think so.

                          operation gatekeeper

    Mr. Rogers. Now, in the interest of time, because we are 
running way beyond the schedule and we have another hearing 
coming up immediately after this one, I may defer asking the 
San Clemente questions I was going to ask you and ask the 
Attorney General about it when she comes before us. But I 
wanted to briefly touch base with you on Operation Gatekeeper. 
For those that don't know, that is the INS border control 
strategy on the San Diego border.
    You are investigating that program now, and I know you may 
not be able to comment on specific allegations, but you 
indicated in your testimony that some INS Border Patrol 
employees have not been cooperative with you in your 
investigation; is that right?
    Mr. Bromwich. That is correct.
    Mr. Rogers. Now, what is the nature of your investigation? 
What are you aiming at?
    Mr. Bromwich. It is a broad-gauged investigation 
intoallegations that data have been manipulated and procedures have 
been distorted in order to paint an inaccurately rosy picture of the 
success of Gatekeeper. That is it in a nutshell.
    As you can hear, it is not a nutshell. It is a very broad 
investigation.
    Mr. Rogers. INS measures if it is successful by the number 
of aliens the Border Patrol apprehends, ``we apprehended x 
number last month, and that is an increase'' and so forth. In 
June of 1996, members of the Border Patrol union publicly 
alleged that Border Patrol supervisors were improperly 
manipulating data to create the false impression that the 
Gatekeeper initiative had successfully deterred illegal border 
crossings at the San Diego border.
    The agents claimed they were being instructed not to 
apprehend aliens so that the level of apprehensions would 
appear to have dropped, thereby implying that fewer aliens were 
coming across the border and illegal crossings had been 
deterred and the Gatekeeper was a resounding success.
    Mr. Bromwich. Those are precisely the allegations we are 
looking at.
    Mr. Rogers. The agents also alleged that supervisors 
submitted falsified reports showing inaccurate apprehension 
statistics. A union representative alleged that a congressional 
delegation that visited Gatekeeper facilities in April was 
intentionally misled to believe that efforts had succeeded in 
controlling illegal immigration in the border region of San 
Diego, somewhat similar to the allegation of misinformation in 
Miami.
    Are those the allegations you are checking into?
    Mr. Bromwich. Yes, sir, they are.
    Mr. Rogers. Can you tell us anything now about where you 
are on that report?
    Mr. Bromwich. We are making reasonably good progress, as I 
mentioned in my prepared testimony and as you referred to. We 
have had some substantial problems in getting cooperation from 
members of the Border Patrol union, which was something of a 
surprise to us since senior members of the Border Patrol union 
originally made the allegations.
    Mr. Rogers. You mean, they are clamming up now?
    Mr. Bromwich. Yes. They certainly were for a period of 
time. They claim it was issues of principle such as, ``Should a 
union representative be able to accompany a member of the 
Border Patrol union who was being asked to be interviewed by my 
office.'' We have policies that say that should not happen 
because we don't want anybody who has anybody else's interests 
at heart, other than that of the individual employee, to sit in 
on an interview. For completely understandable reasons, we 
don't want other witnesses to have advance notice of what a 
particular witness has said. We don't want people tailoring 
their testimony in ways designed in this case----
    Mr. Rogers. Have you sought INS upper management to help 
you out with this?
    Mr. Bromwich. INS management on this has been cooperative. 
There is a limited amount they can do, because their relations, 
in many instances, with the Border Patrol union are not great. 
But those are, I hope, Mr. Chairman, obstacles that are behind 
us.
    I actually met with the head of the Border Patrol union a 
couple of months ago, and we hammered out an agreement that has 
allowed us to proceed and to get the information that we had 
been seeking for this period of time. So I hope that the 
obstructions that we experienced in the past are a thing of the 
past.
    Mr. Rogers. When will you be able to report?
    Mr. Bromwich. I don't know, Mr. Chairman. We are doing it 
with a large team. They are working as hard as they possibly 
can. My understanding is they still have several months more of 
work.
    Mr. Rogers. Without telling us what your final conclusion 
may be, in general terms, should this Subcommittee be concerned 
with the data that we are getting out of Gatekeeper, that is, 
saying what a tremendous success it is?
    Mr. Bromwich. I don't feel like I am in a position where I 
can counsel you one way or the other. It is still an open book 
for us.
    Mr. Rogers. How can we decide whether to fund them next 
year or not without knowing that?
    Mr. Bromwich. I can tell you, Mr. Chairman, that we are--
and this gives you at least a tentative, provisional 
conclusion; I am giving it to you because I know you need it 
for what you are dealing with--we are not finding the pervasive 
falsification of data or the distortion of procedures that have 
been alleged.
    That is so far. There are some key witnesses that we still 
have not interviewed on this. Am I saying, we expect to give 
Gatekeeper a clean bill of health? I am not saying that at all. 
Have we found, already, pervasive fraud in Gatekeeper? We have 
not.
    Mr. Rogers. Well, I appreciate your testimony as depressing 
and frustrating as it is. I remember--was it last year or 2 
years ago, when you were here and we prompted you to dig 
deeper.
    Mr. Bromwich. It was both years, Mr. Chairman.
    Mr. Rogers. Well, you have certainly come back with 
information that is very distressing, but something that we all 
suspected, I guess, all along. But I encourage you to dig 
deeper. If you encounter any obstruction along the way, I trust 
you will let this Subcommittee know about it.
    Mr. Bromwich. Yes, sir, we will.
    Mr. Rogers. Because we will be sure that the path is 
cleared or feathers will fly, or both. But I insist that you 
dig and let the chips fall where they may. This is too 
important an issue and the INS has too important a 
responsibility for us and you, charged with oversight, not to 
get to the bottom of what appears to be a very icky and murky 
situation, not to mention all the other aspects of Justice that 
you are charged with investigating.
    It is very disturbing to me, extremely disturbing, of these 
recent actions or transgressions by the FBI that I detailed a 
moment ago, I don't know of two more critical agencies in the 
U.S. Government, which must have integrity, than the one that 
investigates our criminal activities and the one that grants us 
citizenship.
    There is some tarnish now on those, and I want us to be 
able to remove that tarnish and get back to the gleaming 
concept that was there in the first place.
    I would appreciate your further thoughts on the much larger 
question on the INS of whether or not that agency is simply 
unable to handle the massive problems that we have charged them 
with in the modern age, or are we trying to fight a modern war 
using the four-square musket formations of the 18th century.
    Mr. Bromwich. I will, Mr. Chairman.
    Mr. Rogers. Thank you very much.
    Mr. Bromwich. Thank you.

[Pages 568 - 576--The official Committee record contains additional material here.]


                                          Wednesday, March 5, 1997.

                    FEDERAL BUREAU OF INVESTIGATION

                               WITNESSES

LOUIS J. FREEH, DIRECTOR
WADE B. HOUK, ASSISTANT DIRECTOR, CHIEF FINANCIAL OFFICER
STEPHEN R. COLGATE, ASSISTANT ATTORNEY GENERAL FOR ADMINISTRATION
MICHAEL J. ROPER, DEPUTY ASSISTANT ATTORNEY GENERAL, CONTROLLER
ADRIAN A. CURTIS, DIRECTOR, BUDGET STAFF

                    Chairman Rogers' Opening Remarks

    Mr. Rogers. Today the Subcommittee is continuing its 
oversight of the budget and activities of the Department of 
Justice. The focus of today's hearing is the Federal Bureau of 
Investigation.
    As I told the Attorney General yesterday, this Subcommittee 
and I, personally, have become troubled over a significant 
number of issues that have arisen and the management and 
execution of responsibilities of the Department of Justice and 
its law enforcement agencies.
    The FBI is at the forefront of a number of these problems. 
And let me preface my remarks by saying this. I don't think 
anyone can question my loyalty to the FBI and support for the 
law enforcement agencies of Justice, particularly the FBI. We 
have, on this Subcommittee, given increases to the FBI and the 
Justice Department, that were even more than was requested.
    So, I think I have credentials to say these things. Mr. 
Director, your judgment in several high profile episodes is 
coming under increased scrutiny and raises serious questions 
that have cast serious doubts about the independence of the 
FBI.
    FBI files were handed over, no questions asked, to the 
political operatives of the White House. We've never had that 
before. In fact, there have been wars fought over less in other 
parts of the world.
    Your General Counsel, Howard Shapiro, is facing questions 
about his legal judgment and accusations of partisanship by 
alerting the White House to potentially damaging information 
about White House officials.
    A critical draft report by the Inspector General prompted 
the transfer of three supervisors of a laboratory and raised 
the possibility that prosecutions, perhaps even the World Trade 
Center and the Oklahoma City bombing cases, might be harmed.
    The FBI accused an innocent man, Richard Jewell, of the 
Atlanta Olympic bombing and the interrogation and policing 
tactics used, are under investigation. The TWA 800 explosion 
remains unsolved.
    Heralded achievements of streamlining the bureaucracy at 
FBI Headquarters by moving 600 agents to the field is slowly 
being undone, as you try to correct management deficiencies in 
the organization.
    The Bureau has not delivered vital law enforcement systems 
such as NCIC 2000 and IAFIS, anywhere near within budget or on 
time. And you haven't shown the Committee any ability to hire 
and train the personnel and spend the resources we've provided 
to respond to the threat of terrorism.
    And the Commissioner of INS tells us yesterday that the 
problem of persons being granted citizenship, even though they 
did not have a completed background check, is the result of 
senior management of both INS and FBI not recognizing the 
problem.
    We've done everything we could to support your needs to 
fight crime and terrorism. I've absorbed a great deal of 
criticism for doing so, as well. I've cut other agencies 
dramatically, including some of your counterparts in the 
Department of Justice to support the FBI. The FBI's budget has 
been increased by $557 million, 25 percent over the last two 
years.
    I'm watching political agendas reach into the Department 
and the FBI, and it's extremely troubling. Nothing troubles me 
more. The FBI cannot ever be a party to politics. The 
confidence, and the integrity, and the independence of the 
Bureau is under suspicion.
    I will tell you this, Director Freeh, as I have told the 
Attorney General, we're facing a serious problem. A problem of 
management, integrity and independence, at the very time that 
the FBI and the Department are undertaking investigations of 
unprecedented scope that require unquestioned management 
capability, independence and integrity.
    We can't begin to take a look at your 1998 budget request 
until we get to the bottom of these things because, frankly, 
unless there are some changes made, there may not be a budget 
for 1998. So, that's the reason we're here. It troubles me 
greatly that we're at this point.
    The American people are entitled to have unquestioned 
fairness in the administration of justice; not just the fact of 
justice, that is, equality and fairness in the justice system, 
but the appearance of justice as well.
    There are some matters that we're going to question you 
about today; investigations that I have mentioned in my opening 
statement, perhaps others. And we want to hear from you, if at 
any point in time during these proceedings, there is a 
necessity that we go into closed session, we have that 
authority. So, I want you to feel free to discuss these issues. 
If you feel like an answer to a question requires that we deal 
with it in confidence, in the secrecy of just the Committee, 
we're prepared to do that. But I want to say that only if we 
absolutely have to, because I think the American people need to 
know in an open session the answers to these questions.
    We're pleased to have the Full Committee Chairman with us 
today who I think has a few remarks he would like to make 
before we proceed. So, let me recognize Chairman Bob Livingston 
at this time.

                 Chairman Livingston's Opening Remarks

    Chairman Livingston. Thank you very much, Mr. Chairman. 
Director Freeh, we thank you for coming today; albeit that it 
may not be under the most pleasant of circumstances, but we do 
wish to be frank with you. Chairman Rogers has expressed his 
concern. I share his concern.
    He expressed his concern about the Administration ofJustice 
in the FBI and within the Justice Department, not only in his statement 
today, but his expressions of concern to Attorney General Janet Reno. 
And I was not here when he talked to the Attorney General, but I did 
want to take this opportunity to reiterate some of my concerns to you. 
I'm reminded before I start, that I should point out, that I'm a former 
criminal prosecutor as you know.
    I worked in the Justice Department as an Assistant U.S. 
Attorney. I worked with the FBI; a proud force, honest force, 
an impartial force; a force dedicated to law enforcement 
without regard to politics or political influence. I'm reminded 
of the Statue of Justice with her scales that are evenly 
balanced and her blindfold depicting the concept that justice 
is blind.
    Justice is not to be used for any political force in 
America. Unfortunately, those concepts appear to be somewhat 
tarnished and tattered because of the last few years, 
unfortunately, during your reign as Director. I met with you 
before, as you were taking office.
    And I told you then that if you conducted yourself fairly 
and impartially in my eyes, you'd have nothing but support from 
me. And I bit my tongue when you promoted Mr. Larry Potts, the 
fellow who was in charge of the disasters at Waco and Ruby 
Ridge, to your number two flank.
    I didn't say anything. I didn't write a letter, but I was 
concerned about it, as were enough other people who did express 
themselves, that you withdrew his nomination. And you brought a 
gentleman by the name of Howard Shapiro to the FBI. Mr. 
Shapiro, in my opinion, has warranted dismissal six months ago. 
To this date, Mr. Shapiro is still counsel to the FBI. Under 
Mr. Shapiro's watch and under yours, there has yet to be a 
satisfactory explanation of what Mr. Rogers referred to as a 
wholesale invasion of privacy, in which hundreds of 
unsuspecting American citizens have had their FBI files turned 
over to political hacks in the White House. And I have no 
better words for it--political hacks in the White House to 
review and to use as they choose. Chuck Colson in the Nixon 
Administration went to prison ostensibly for the misuse of one 
FBI file. Yet there were nearly 1,000 by the FBI to presumably 
Mr. Craig Livingstone. That's spelled with an ``e.'' Not a 
cousin of mine or a relative, and another fellow that was 
working with him.
    Mr. Livingstone mysteriously appeared as the White House's 
agent in charge of security. And to this day, I haven't heard a 
single person in the White House admit that they hired Craig 
Livingstone. Here, one of the most important jobs is security 
in the United States White House, a center of power that houses 
the President of the United States, and we don't know who hired 
Craig Livingstone.
    Yet, he got 1,000 files from the FBI and everything I'm 
talking about is right from the newspaper reports. So, I'm not 
talking about privileged information here. And presumably he 
extracted information from those files. I recall reports of a 
computer that mysteriously was destroyed.
    I was told that computers recall everything and that a 
computer master can extract that information that's been 
recorded on the computers unless they've been severely damaged. 
In this instance that computer, I'm told, was heavily damaged 
as if it were dropped from a second story window.
    And we don't see any action by the Justice Department 
against offending parties either in the FBI or out of the FBI 
or anywhere else for the misuse of those files. Unfortunately, 
when Mr. Clinger was the Chairman of the House Oversight 
Committee, and started digging around, we found that it was 
Howard Shapiro, your Chief Counsel, that notified people in the 
White House that Mr. Clinger was onto a 1993 interview 
conducted by Special Agent Sculimbrene, in which he indicated 
that he interviewed Mr. Nusbaum, then Counsel to the White 
House and various other people in the White House, in which 
those people expressed their opinion as to who hired Craig 
Livingstone.
    Well, you would think that Mr. Sculimbrene had been given 
an award. Unfortunately, what happened was Mr. Sculimbrene who 
had been subsequently injured was ostracized not only from the 
White House, but from the FBI, so much so that Mr. Shapiro saw 
fit to send two high ranking agents, Duncan Wainwright and 
Jennifer Esposito, high ranking FBI agents to his house as he 
was convalescing, to inquire about his participation in the 
preparation of that FBI 302 Form and recording the earlier 
conversations referring to Craig Livingstone.
    The way I read what had happened it looked like sheer and 
absolute intimidation. Apparently, I was not alone because a 
week or two later, two weeks later, agent Sculimbrene ended his 
24-year career in the FBI, saying unjustified changes in his 
professional assignments and assaults on his career over the 
past year have been difficult and more than any agent should 
have to endure. He quit.
    And Mr. Shapiro has yet to adequately explain his 
performance or be dealt with by the FBI. Granted, there is an 
investigation. There is always an investigation. There are no 
results from the investigation. And all of the facts that I've 
just recited were public record.
    In my opinion, those facts plus the fact that Mr. Shapiro 
also shared the transcript of Special Agent Gary Aldrich's 
book, the manuscript of that book, with interested parties in 
the White House during the process; during the period that the 
White House was being investigated so that they would be 
alerted to the allegations by Mr. Aldrich, some three or four 
months before Aldrich's book even went to the publisher for 
publication.
    Clearly, Mr. Shapiro is suspect. In my opinion, Shapiro 
should have been fired outright immediately upon the revelation 
of these incidents. He was not. And he was defended by you in a 
conversation between you and me, in which you said you might 
not have done those things that way, but he was a good man and, 
therefore he should be entitled to his day in court. Fine. Give 
him his day in court and then fire him.
    Now, Mr. Livingstone is still out there. We know that he 
was perusing those FBI files. No charges have yet been lodged 
against him. And Gary Aldrich, by the way, who wrote the book 
on the White House, what reward did he get? Well, Janet Reno 
threatened to prosecute him and confiscate the proceeds of his 
book. That sounds in the interest of justice.
    Janet Reno said that she was launching an internal 
investigation of all of this matter, but as yet, nothing has 
been done. Several Members of Congress have demanded the 
resignation of Mr. Shapiro but nothing has been done. Since 
then there have been other incidents, some of which have been 
referred to by Mr. Rogers.
    There was a gentleman by the name of George Cabrara,barely 
a convicted drug dealer, who was photographed in the presence of high 
officials in the White House. And initially Congress asked for those 
photographs. Those photographs were denied Members of Congress. Only 
upon publication of the demands were they ultimately produced.
    Congressman Jerry Solomon has asked the FBI to investigate 
John Huang. We are told that now there are investigations of 
possible national security violations and economic espionage 
ongoing with respect to Mr. Huang's top connection with the 
Commerce Department. But there has been no public dissemination 
of information regarding that information or that investigation 
from the FBI.
    That may be proper. I'm not saying that it's not, but the 
fact is that the FBI was responsible, along with the Secret 
Service, with the background investigation of Mr. Huang, as 
well as on the various parties who Mr. Huang ostensibly brought 
to the White House and a lot of questions raised about those, 
but no resolution, again.
    The FBI Crime Lab, as Mr. Rogers points out, raises a 
number of problems in a myriad of cases. And we have to ask and 
be concerned about the deterioration of the quality of work of 
the Crime Lab. Of course, Mr. Richard Jewell will never 
adequately retrieve his reputation. And that was not a function 
of the aggressive media. It had to have been a function of 
people within the FBI who must bear the responsibility for the 
release of information on his investigation.
    So, Mr. Director, I don't intend to preach. I don't intend 
to unfairly criticize. I only intend to point out that when I 
was a young prosecutor working with the FBI, I had tremendous 
faith in the credibility and in the impartiality of the FBI. 
Today, I'm a Congressman. Today, I still have that faith in the 
average rank and file FBI agent who I think is doing just a 
superb job against incredible odds all throughout America.
    But I think the leadership of the FBI has brought the 
entire organization into question. And you are the leader. 
Thank you.

                    mr. mollohan's opening statement

    Mr. Rogers. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. Mr. Director, I'd 
like to welcome you to the hearing today. I want to go on 
record as noting that I do not think this is the ideal forum to 
explore the substance of the issues that have been raised here 
by the Chairman and the Chairman of the Full Committee.
    I think in fact that it is a particularly inadequate forum 
to explore the substance of the issues that have been detailed. 
Because it is a particularly inappropriate forum to explore the 
substance, I think that it is less than useful; except for some 
sort of demonstrative purposes, to do a shotgun approach 
detailing problems in the Justice Department and other places 
without an appropriate follow-up and exploration of these 
issues.
    I think it's really unfair to the witnesses, because all 
we're going to be able to achieve here is to have the 
accusations leveled at the witness and not to actually have an 
opportunity to have fully detailed responses; and certainly to 
get into the truth of the matter as asserted which, as I say, 
this forum is particularly inappropriate in an Appropriations 
Committee.
    I will note, however, that the Attorney General yesterday, 
when there was a similar but not as intense approach to these 
issues, detailed for or itemized for the Committee how the 
Justice Department was moving aggressively to address these 
concerns.
    Every Administration throughout the history of this nation 
has had these kinds of problems. There have been these kinds of 
indiscretions or allegations of indiscretion. And I know of no 
Justice Department and certainly of no FBI that has moved more 
expeditiously to address improper conduct.
    They have not in any way apologized for that conduct. They 
have in each instance pursued the right professional approach 
to thoroughly investigate them, and if necessary, to prosecute 
them. So, I think the implication contained in the opening 
statements by the Majorities are unfortunate.
    And I just would like it on the record that I think this is 
an inappropriate forum. It's just an opportunity for 
publicizing accusations and not for exploring the truth of the 
matter as asserted.
    Thank you, Mr. Chairman.
    Mr. Rogers. We will abide by the ten-minute rule at the 
outset here so each Member will have a chance to ask questions. 
Do you care to give an opening statement, Mr. Director, before 
we ask questions?

                         fbi opening statement

    Mr. Freeh. Mr. Chairman, maybe if I could just speak 
briefly in an overview to some of the statements being made.
    I take it that I can submit my prepared remarks with 
respect to the budget for the record. And I would not address 
these oral remarks to the budget itself, but I'd like to 
entertain a few of the questions here, which are very important 
and very serious.
    Mr. Rogers. Your written testimony will be noted in the 
record. We can discuss the budget, perhaps at another time. I 
think we're here for some matters that supersede the budget 
request.
    Mr. Freeh. Thank you, sir. I'll try to be brief and then 
I'll be happy to answer all your questions. It has been my 
commitment since becoming FBI Director to ensure that in all 
investigations, in all matters, and in all of my personal 
conduct that I maintain, number one, my independence, 
politically in all the dimensions involved, and my integrity, 
which after 21 years of only working in the government is 
basically the only asset that I have.
    When I was recommended as a Federal judge by Senator 
D'Amato, he had a press conference in New York. And one of the 
reporters asked me--actually, asked Senator D'Amato, Is Freeh a 
Democrat or a Republican? And he said, I don't know. And I 
thought that was very important and perhaps a good testament to 
how I had conducted myself up to that point.
    When I met the President with respect to being interviewed 
for this job. I only made two requests. One was that I run the 
FBI completely free of any interference, political interference 
in particular, and that I protect the integrity of our 
investigations. And he guaranteed me that, that would be the 
case.
    And that has been the case, certainly with respect to him 
and with respect to the Attorney General. If the problems that 
you talked about, Chairman Livingston, you talk about them, 
some of them are very real and they're all very serious to me. 
If those are a reflection of my poor leadership, I certainly 
take responsibility for those.
    For problems that have occurred during my watch and for 
problems which have developed during my watch, I take 
fullresponsibility. I don't pass the buck to anybody in my 
organization. I am the Director. As you said, Mr. Chairman, I am the 
leadership. And if I'm not doing a good job in that regard, then you 
ought to get a new FBI Director.

                               laboratory

    With respect to some of the particular matters that you 
mentioned, let me talk first very briefly about the lab. And 
I'm constrained because, although there has been a lot of 
discussion about the lab, very importantly, there is no report. 
The final report is actually being written now by the Inspector 
General who has asked me not to comment on it.
    I will say some very brief, but I think important things. 
First of all, it is my view and my strong understanding that 
despite serious problems in our lab, particularly problems of 
science, at least in the three of the 23 units that were looked 
at, I know of no case, I know of no FBI government case which 
as been or will be compromised because of those issues. And 
I've read the draft report.
    I'm also confident that when you, Mr. Chairman, and others 
see the report, you will be assured that none of the four 
administrative moves which we made with respect to individual 
examiners are the result of any retaliation. The moves that 
were taken, not by me, but by others in the FBI, were directly 
and strictly the result of the recommendations made by the 
Inspector General and the five outside scientists who prepared 
that report.
    We are doing and have been doing a lot of things to 
strengthen the science and the integrity of the laboratory. In 
1994, I started the accreditation process, which was long 
before the Inspector General report. One of the first things I 
did as Director was to start bringing in civilian scientists to 
the lab.
    We now have in place many of the recommendations that the 
Inspector General found were necessary. And I pledge to you 
that I will do everything in my power to ensure that the FBI 
Lab remains, as I believe it is, the foremost forensic 
laboratory in the world. They do 600,000 examinations a year.
    We not only find evidence that leads to convictions, we 
find evidence that leads to exonerations. Thirty percent of our 
DNA examinations exonerate the subject of the case. And I will 
have a lot more to say about the lab when the report is made 
public.

                               fbi files

    With respect to the FBI files issue, there is no issue 
which I take more seriously, Chairman Livingston. Now, you 
mentioned that we have not had explanations. In part, I think 
you're correct. Independent Counsel Starr, as you know, is now 
investigating, with a Grand Jury, the entire file issue, and 
particularly the individuals who made the requests and is 
trying to determine why they did it.
    From my end, I completed a very exhaustive report within 
nine days after I learned of the problem, after speaking to 
Chairman Clinger--I'm sorry. After speaking to Chairman 
Clinger, within nine days I had a report. I had 
recommendations. I changed the system which had worked 
unimpeded since 1968.
    Since 1968, preprinted unsigned forms were coming over from 
the White House to the FBI asking for files. And at a very low 
level. At the GS-9 and GS-10 levels those files were going 
back. There was no motivation. There was no intentional action 
on anybody's part in the FBI to give files of people who didn't 
work there to current occupants of the White House Security 
Office.
    I was the one who described the file matter at the time as 
an egregious violation of privacy. I did not call it an 
administrative snafu. I called it an egregious violation of 
privacy. And I said it was a result of the abdication of 
management responsibility in the FBI. And I say that to you 
now.
    We have corrected that situation. And for the first time 
since 1968 when someone wants a file they have to sign a 
letter. We get the consent of the party whose file is being 
requested, unless there is a reason not to get that consent, in 
which case the White House Counsel has to write a letter. We 
keep track of those files. We have management responsibility. 
We did not have that since 1968.
    Mr. Livingston. Mr. Director, if the Chairman will permit 
me. I'm very much concerned on how this Craig Livingstone FBI 
file debauchery with 1,000 files going to White House ever 
happened in the first place. I've got it in the public record 
here.
    On January 3, 1994, you apparently wrote a letter to Craig 
Livingstone. You said, the President and the American people 
are indeed fortunate to have your dedication and talent at 
their service. Another time you wrote the White House to secure 
a permanent White House pass for Howard Shapiro, where in one 
month he made 14 visits alone to the White House. Such a pass 
is uncommon, if not unprecedented I'm told for a senior level 
FBI official.
    And finally, I'm told that during the FBI controversy you 
contacted Craig Livingstone five times in the months 
surrounding the FBI file controversy. Are those facts true? And 
of so, how do they relate to stopping this process? And how, 
secondly, could the FBI have possibly allowed this to happen in 
the first place?
    Mr. Freeh. With respect to the contacts, yes. They are 
true. The first letter you mentioned was in response to the 
services he provided to my family when I was nominated for the 
job which included his staff fishing my seven-year-old son out 
of a pond in the Rose Garden.
    The other letters were with respect to photographs he gave 
to our office from the swearing in ceremony. I had no social 
contacts with him. We never discussed the files issue in any 
event. I don't have an answer as to how our system could have 
been amenable to so many files going to the White House 
regarding people who no longer work there.
    It was a terrible violation of privacy. We did not have at 
that time any kind of checks and balance in place. We do now. 
The system ran since 1968. As to why it was used in this 
manner, Independent Counsel Starr is looking at that with FBI 
agents who are working with him as with all the other 
independent counsel. And it is his purview now to decide the 
why and whether or not anybody should be charged.
    Mr. Rogers. If you'd like to complete your opening 
statement, Mr. Director.

                     atlanta bombing investigation

    Mr. Freeh. Let me just move very, very quickly. Chairman 
Livingston, we share your concerns about the Atlanta bombing 
investigation of Mr. Jewell. The worst thing that can happen in 
our business is someone to be accused or, in this case by the 
media, imputed to be involved in a crime, when it turns out 
they were not a subject but only a witness, in fact a very 
important witness.
    He was never arrested by the FBI. But it doesn't matter. 
The sequence of events were a very serious breakdown in the 
confidentiality that we should maintain in our investigations. 
Unfortunately, we had a situation where we had 15,000reporters 
in that town, and 500 law enforcement officers, including FBI agents, 
who knew of his identity before it was leaked.
    And they all reported up ten separate chains of command. I 
was the one during the course of the investigation who directed 
that Mr. Jewell receive his Miranda Rights, even though a very 
strong argument could be made today as to why he was entitled 
to them because he was not in custody.
    I was very, very sensitive and cautious with respect to his 
rights. I was the one personally who directed that he receive 
those rights. As to the publicity and the damage to his 
reputation, we're very sorry about that. We do regret that. 
Unfortunately, in some of these investigations, those things 
happen.
    It is not the normal course for the FBI. We just completed 
the successful guilty pleas of Mr. Nicholson and Mr. Pitts. We 
don't normally work that way. And you know, from your 
experience with FBI agents that, that is a rare exception. 
Unfortunately, it was in a case that received huge publicity 
and we regret the damage to Mr. Jewell, and have taken some 
steps to try to prevent that in similar large investigations.
    With respect to Mr. Shapiro, we have discussed this. The 
OPR investigation that was started, sir, was started at your 
request. I know it was seven months ago. And I know that you 
are anxious for a reply. I can tell you that within the next 
two weeks there will be closure. There will be a report by the 
OPR and the Justice Department. You will have the benefit of 
all that information. And if any action needs to be taken, I 
assure you that it will be taken.
    With respect to Chairman Solomon, we did discuss part of 
the current investigation that the FBI is conducting in the DNC 
manner. We did not do the background on Mr. Huang. That was 
done by another government agency. He wasn't in the category of 
people whom the FBI does the background for.
    With respect to many of the other matters that you raised, 
I take them all very seriously. We haven't solved the TWA case, 
but I've had at one time 1,000 agents, now 10 percent of that, 
working on that case. We are not going to close the books on 
that case, nor will we on the Atlanta bombing case.
    We do solve difficult cases. The Unabom case, the Okbomb 
case. We solved the Freeman situation, which is what we learned 
after Waco and Ruby Ridge. There are cases that we don't solve 
quickly, but our resolve and commitment is there to do that, 
sir.
    I'm not going to take your time on some of these other 
matters, but again let me assure you that my independence and 
my integrity, as the FBI Director, is the most important thing 
to me and for me. As I said, after 21 years of being only in 
government service, I started at 25-years-old as a Special 
Agent, the only asset I've built up over the years is my 
reputation for integrity.
    I hope I've done nothing to tarnish that. I will recommit 
to you and the Committee that I will work all of these matters, 
whether they be small cases or large, with complete integrity, 
complete independence. I recently had the occasion to object 
very strongly to parts of the investigation which is currently 
being conducted regarding campaign contributions from some of 
that information going to places where I think it shouldn't go.
    And I pledge to you that I will continue to do that. If I 
can't succeed in that or if you lose confidence in my 
integrity, then I shouldn't be the FBI Director.
    [The statement of Mr. Freeh follows:]

[Pages 587 - 603--The official Committee record contains additional material here.]


                         FBI FINGERPRINT CHECKS

    Mr. Rogers. Well, Mr. Director, there has either been some 
lack of leadership in protecting the agency from outside 
interference, i.e, from the White House or some complicity in 
that. I would prefer to believe the former. But that's what 
this hearing is all about.
    I told the Attorney General yesterday the same thing; that 
either she was complacent in some interference from the outside 
in the Department of Justice or she allowed the political 
operatives of the White House to go around, through or under 
her, to some of her subordinates, i.e., the INS.
    I want to believe that it was negligence or a lack of 
determination rather than personal complicity. So, here we are. 
Let me first ask about the INS' Naturalization Program. 
Yesterday, we heard testimony from Doris Meissner, the 
Commissioner, and from the Attorney General, relative to 
reports that the Vice President's Office pressured that agency 
all year long with his reinventing government program to 
naturalize at least a million new citizens by Election Day.
    In fact, they succeeded in exceeding that goal. They 
naturalized 1,100,000; 180,000 of them without the proper 
criminal checks. Consequently, we've got today several 
thousand, at least, naturalized citizens, who are criminals, 
marching the streets, all in the name of getting votes. And I 
find that to be the most reprehensible thing that I can 
imagine, that is, selling American citizenship for an election. 
And if that proves to be true, and the evidence is very strong, 
then I think the American people have a right to feel terribly 
cheapened, at the very least.
    The INS says that the agency went ahead and naturalized 
citizens without hearing from the FBI on its fingerprint check 
or the criminal records check on the applicants, when you 
didn't respond within the normal 60-day period. And that at 
some point later in the year, they discovered when your reports 
were coming to them after the 60 day period and after they had 
gone ahead and naturalized these people, that some had a 
criminal record. Then they said, whoops, wait a minute. We're 
going to get in trouble here. We'd better back-up and change.
    They changed after the election. In the meantime, at least 
180,000 applicants were granted citizenship without us knowing 
whether or not they were criminals. INS says that, ``The 
failing was either INS or the FBI didn't grasp at the senior 
management level what difficulties it would pose.''--meaning 
the large increase in criminal record checks that were required 
as a result of this tremendous increase in applicants for 
naturalization. Commissioner Meissner is saying that 
seniormanagement at the FBI and INS didn't grasp the meaning of not 
getting the criminal records check before naturalization was granted. 
What do you say to that?

                            CITIZENSHIP USA

    Mr. Freeh. With respect to myself and I know speaking for 
the Assistant Directors, specifically the one who has 
responsibility for CJIS, there was never a discussion--I never 
had a discussion--no one ever mentioned Citizenship USA to me 
with respect to fingerprint service, or turn around time, or 
the implications of not doing those prints. My clear 
understanding from the division who is responsible for this is 
that going back to 1982, there was a practice of turning around 
cards in 60 days when we didn't have the backlog which we have 
now, which was another administrative problem that we have.
    In 1996 at a very appropriate staff level, we communicated 
to INS very, very clearly that they could not rely on any 
particular turn-around period. We had no commitment for any 
time-frame with respect to performing these examinations. I 
know that INS understood that because I saw the document, which 
is an INS document which records the FBI telling them that.
    So, we had no knowledge at a staff level that this was an 
issue. We certainly did not give them any expectation that we 
were going to do everything in 60 days and if they didn't hear 
from us, there was no record.
    Mr. Rogers. Well, did INS communicate to the FBI that they 
were anticipating a great increase in applications so that you 
could get geared up for that workload?
    Mr. Freeh. I don't think I'm prepared to answer that 
question today. I heard the testimony yesterday. I don't think 
I'm prepared to give you that answer; certainly, not on my 
level. As to someone down in the CJIS division, I will get that 
promptly for you and respond to it. I'm not aware of any such 
communications.
    Mr. Rogers. You'll seek that answer for me?
    Mr. Freeh. I will get that for you today, sir.
    [The information follows:]

          INS Advising FBI of Increased Citizenship Applicants

    The INS did not inform the FBI at any level that the number of 
citizenship applications requiring FBI criminal history checks would be 
increasing.

                              FBI WARNING

    Mr. Rogers. When did the FBI first alert the INS that you 
couldn't guarantee completion within the 60 days due to the 
load that they were sending to you?
    Mr. Freeh. I will give the Committee the document which I 
read prior to my testimony as to when in 1996 that was formally 
communicated. Whether it was before that document or not, I'll 
get the answer for you on that too. I don't know, sir.
    [The information follows:]

 FBI Warning About Inability To Process Fingerprint Cards in Sixty Days

    The attached INS internal memorandum, dated September 6, 1996, is 
the document I referred to in my March 5, 1997, testimony. The INS 
memorandum states that the FBI has continually made it clear that it 
cannot and will not commit to a fingerprint processing time for INS 
checks.

[Pages 606 - 607--The official Committee record contains additional material here.]


                        CRIMINAL RECORDS CHECKS

    Mr. Rogers. Now, had you ever encountered this problem 
before of not being able to properly check for criminal records 
on applicants for citizenship?
    Mr. Freeh. Not that I'm aware of. Of course, we didn't have 
a backlog, prior to 1996, of this dimension.
    Mr. Rogers. In the history of the FBI have you ever had a 
problem keeping up with applicants for citizenship sent to you 
by INS?
    Mr. Freeh. Not that I'm aware of, but I will check more 
thoroughly and get you an answer. Certainly, not since I've 
been the Director.
    [The information follows:]

      Historical FBI Response Times for INS Checks for Citizenship

    Since 1982, the FBI, has been able to furnish a response to an INS 
request for a criminal history record check within 60 days in 95.1 
percent of the time, after fingerprint cards are received. The FBI has 
been able to provide a response within 120 days, 99 percent of the 
time.

    Mr. Rogers. I've never heard of this problem either. The 
reason of course was that in 1996, INS had quadrupled the 
number of naturalizations that occurred, almost four times the 
average year; 1,100,000 in 1996 compared to an average of 
around 300,000 in a normal year; four times the normal year 
after the Vice President tells INS I want a million new 
citizens by Election Day. They said, yes, sir, and they went 
out and did 100,000 more than that. No wonder you couldn't keep 
up with them.
    Do you know how many of the applications for citizenship of 
the people that were finally naturalized have not undergone the 
proper criminal check?
    Mr. Freeh. There are many of which we still don't have any 
record of a check. I can give you that number. We've given it 
to the House Government Operations Committee and I'll reproduce 
it for you today, sir.
    [The information follows:]

        Number of Naturalized Citizens Without Full Record Check

    Response: The FBI was unable to determine the criminal history 
record information of 179,524 applicants for citizenship submitted by 
the Immigration and Naturalization Service (INS) between 9/1/95 and 9/
30/96.
FBI response to INS request:                              No. of persons
    Identified as having a criminal record....................    71,557
    Not identified as having a criminal record................   752,073
    Unidentifiable (rejects)..................................   113,126
    Not found.................................................    66,398
    Elders/minors (no requirement to submit fingerprints).....    44,145
    Pending...................................................     2,573
                    --------------------------------------------------------------
                    ____________________________________________________

  Total persons naturalized (9/1/95-9/30/96).................. 1,049,872

    Mr. Rogers. Is the figure 180,000?
    Mr. Freeh. That is, I think, the relevant pool of people 
that we're talking about.
    Mr. Rogers. That we do not yet know about.
    Mr. Freeh. We're trying to go through the tapes for what 
would be more than the second time to determine that. These are 
the INS tapes which we have.
    Mr. Rogers. So, there are 180,000 individuals that we do 
not know whether or not they were convicted or charged with a 
felony or a serious crime like murder or what have you?
    Mr. Freeh. There is a question as to the checks that were 
run against that particular pool of names back in 1996 as to 
the conclusions from that, again, if you'd just give me the 
opportunity to look at the numbers, I'll supply the 
information.
    Mr. Rogers. I would be very much interested in having that 
as quickly as possible.
    Mr. Freeh. Okay. I'll have it for you today.
    Mr. Rogers. What's it going to cost to clean-up the mess 
from your perspective?
    Mr. Freeh. The INS has told us that they expect 2.6 million 
requests for 1997. Now, there was 1.8 million requests in 1996. 
So, that's almost a 50 percent increase of these submissions. 
What we're trying to do, and we've had a series of meetings 
with the INS officials in this regard, is to see whether, with 
respect to the 2.6 million anticipated number of requests, we 
can automate and get on line in terms of what the IAFIS system 
will provide when it is on line in 1999. We hope to service 
what is our largest institutional customer electronically and 
try to deal with the fingerprint card submission increase for 
1997. We're hiring 1,100 people in CJIS to deal with the 
backlog of fingerprint cards awaiting processing.
    Mr. Rogers. I'm talking about the ones that were granted 
citizenship that we're now looking to see if they're criminals. 
What's that going to cost us looking back, not looking forward? 
INS is not going to get any money for Naturalization at this 
point in time. Until we get this mess cleaned up, they 
shouldn't expect a penny.
    Mr. Freeh. Again, I'll give you a cost figure. I know that 
we spent hundreds of thousands of dollars in 1996, just 
rechecking what we've already done in tests. We had to shut 
down our operations for several days in West Virginia, except 
for emergency cases, to respond to the subpoena from your 
colleagues, which we did very promptly. Let me get you a cost 
figure, but it's a substantial one.
    Mr. Rogers. Several million dollars?
    Mr. Freeh. Certainly several million dollars.
    Mr. Rogers. And this is going back and trying to clean-up 
the mess that INS made in 1996.
    Mr. Freeh. It's going back to find out what we did check 
and then recheck everyone once again.

                            applicant checks

    Mr. Rogers. Now, in the meantime, what are you doing this 
minute about checks on applicants?
    Mr. Freeh. Well, we have told the INS and the INS agrees 
that they cannot move ahead with a naturalization until they 
hear from us, one way or the other, that no response doesn't 
mean that there is no record. No response just means that you 
need to wait for the response. We're trying to expedite those 
responses, as I mentioned, by going into an electronic format.
    Mr. Rogers. In the past, has the INS ever, to your 
knowledge in history, gone ahead and naturalized a person when 
you were unable to complete your check during that 60-day 
period?
    Mr. Freeh. I don't know the answer to that.
    Mr. Rogers. Well, it's never been the policy has it? We've 
never done that; have we? We've always insisted that the policy 
is to get the FBI to do the check to see if this is a drug 
dealer, or a murderer, or a robber, or what have you. And now 
they willy-nilly granted citizenship without the FBI being able 
to tell them yes, he's a robber, or he's a drug dealer, or he's 
a thief, or a rapist, or a child molester, or what have you.
    INS went ahead and said, no, it's more important to get him 
registered before Election Day than it is to have a new 
citizenwalk the streets a even if he is a murderer. I can't accuse you 
of anything in that respect. But I can sure accuse the system.

                                fbi opr

    Now, in 1994, the Attorney General gave primary 
responsibility for investigating allegations of misconduct of 
FBI personnel to the FBI's own Office of Responsibility. The 
Inspector General had to be given a waiver of that general rule 
by the Deputy Attorney General to conduct his investigation of 
the lab. And so that's where we are today.
    I'm not going to ask you about the contents of the lab 
investigation. That will come from the OIG, as it should. But 
let me ask you about the process. Can the FBI adequately police 
itself and investigate itself? Now, I understand the reason why 
we may want it that way is because we may be dealing with super 
classified information, but nevertheless, you're one of the 
few, if the only, Federal agency that is allowed to investigate 
and police yourself. Can you do that? And I want your objective 
answer. This is dead serious and very important. Do you think 
the FBI can adequately police and inspect itself or do we need 
to have some outside, albeit confidential, input into the 
process?
    Mr. Freeh. I don't believe we have a current situation 
where the FBI does police itself. We do have our own internal 
OPR, as does DEA. In the November 8, 1994 Order which you will 
refer to, sir, the Attorney General divided responsibilities 
between the OPR at Main Justice and derivatively at the FBI and 
the Inspector General's Office.
    As part of that memo, two things are required with respect 
to the OIG. We file monthly reports with them, including the 
names of people who are under investigation above a certain 
grade. The Inspector General has the right to request to 
intervene and take over any investigation, as they did with the 
lab and as I concurred at the time.
    So, we basically have two oversight responsibilities with 
respect to the Department, both to OPR and also to the 
Inspector General. I am very confident that we are able to do 
that. I've just reorganized our entire OPR operation. I brought 
into the office and made an Assistant Director an individual 
named Mike DeFeo who is a 35-year career Department of Justice 
attorney to take over the FBI OPR.
    I've doubled his resources to both speed up the process and 
give the agents more due process. I think the reformed office 
and the very certain responsibilities with respect to reporting 
both to OPR Justice and the OIG do leave us in a very strong 
situation to guarantee integrity and fairness.
    That's the same office that investigated my predecessor. 
They have been relied upon for many, many years to work very 
sensitive cases and I think have done very well. And I think 
Main Justice will tell you the same, sir.

                       fundraising investigations

    Mr. Rogers. Now, I'm going to run through several 
situations here of charges that have been made. And I want you 
to tell me at the conclusion which of these investigations are 
being conducted by the FBI or if you know who else may be 
investigating these matters.
    The fundraising activities of the Democratic National 
Committee and White House officials involving millions of 
dollars of tainted donations; who is investigating that?
    Mr. Freeh. The FBI is, sir.
    Mr. Rogers. Allegations of government officials and fund 
raisers soliciting contributions in such places as Taiwan and 
other places?
    Mr. Freeh. Currently, the FBI, reporting to the Public 
Integrity Section at Main Justice--I'm sorry, not the Public 
Integrity Section.
    Mr. Rogers. So, it's the Public Integrity Section of 
Justice that's in charge of it and you're doing the 
investigative work for them?
    Mr. Freeh. Yes, sir.
    Mr. Rogers. Attempts by foreign governments to influence 
U.S. policy with campaign contributions?
    Mr. Freeh. It's the same investigation; FBI.
    Mr. Rogers. Charges of the removal of highly classified 
documents, including some CIA material by departing high 
ranking Commerce Department officials?
    Mr. Freeh. If I answer that we're investigating that, I'm 
confirming one of the parts of our criminal investigation which 
is certainly right now a very sensitive criminal part. I would 
say with respect to all of the fundraising matters and all of 
the relative, either criminal or national security matters, 
they are all part and parcel of an FBI investigation which I am 
currently responsible for. I have assembled a team of FBI 
agents and inspectors who have the whole series of matters. And 
it is the subject now of a Grand Jury inquiry.
    Mr. Rogers. The granting of security clearances involving 
access to classified information to non-Federal employees?
    Mr. Freeh. With respect to certain individuals, yes. That 
would be part of that investigation.
    Mr. Rogers. A White House official directing donors where 
to channel soft money contributions?
    Mr. Freeh. Again, Mr. Chairman, with all due respect, 
instead of confirming the individual predicates of the 
investigation which could certainly tend to disclose in an open 
session the direction as well as the objectives of the 
investigation, I would prefer at least in the open session to 
say that all of the general matters that have been reported in 
the papers with respect to fundraising, whether they have 
criminal or national security implications, are residing 
completely with that FBI investigation.
    Mr. Rogers. Allegations of the use of publicly funded White 
House data bases for political fundraising; same category?
    Mr. Freeh. Generally, the same category as it would relate 
to some of the other objectives of the investigation.
    Mr. Rogers. Allegations of the White House premises being 
used for fundraising?
    Mr. Freeh. Again, I would want to fall back on my general 
response to that at least in the open session.
    Mr. Rogers. The Vice President's admission that he used 
White House telephones and property for campaign fundraising?
    Mr. Freeh. Same response, sir.
    Mr. Rogers. Perhaps we can go into this in Executive 
Session if you want to go further here.
    Mr. Freeh. I don't know that in Executive Session I could 
say more than I've already said which is that all of those 
subject matters, either directly or indirectly, are currently a 
part of an open investigation, which is a Grand Jury matter, 
and which is obviously one of the most sensitive matters that 
we're currently looking at.
    Mr. Rogers. Well, I think you can understand some of the 
hue and cry around the country for a special prosecutor or an 
independent counsel to investigate the matters. I mean, if we 
can't be told that justice is being done in the 
regularchannels, how can we tell people they can't have a special 
prosecutor? We've got to know that something is being looked into. If 
it's being looked into by the appropriate authorities, fine. If it's 
not, then we've got a problem. Can you help me anymore?
    Mr. Freeh. I don't think so, sir; not with respect to 
whether there should be an independent counsel. That's clearly 
a decision for the Attorney General. As to whether everything 
being talked about sometimes is appropriately or even 
improperly in the newspapers about what is or is not a part of 
that investigation. I don't think I could itemize for you all 
of the parts of that investigation without giving you a 
blueprint and giving potential subjects a blueprint as to where 
we're going, which I really don't want to do.
    Mr. Rogers. All right. Can you tell me how many personnel 
are assigned to these investigations?
    Mr. Freeh. Sure. I have 25 full-time FBI agents who are led 
by an inspector. I have located them in a separate space away 
from the FBI buildings in Washington, DC. They are also using 
the services of many FBI agents as well as support employees 
around the country; even using some of our overseas locations 
for pursuing leads and looking for documents. It is a very 
substantial resource commitment.
    Mr. Rogers. I think only now do I understand why you've 
been so insistent upon having overseas FBI offices. I guess now 
I know why. Mr. Mollohan.

                             investigations

    Mr. Mollohan. Director Freeh, I want to commend you for the 
investigative activity that you are carrying on. It is clear 
before the committee that you have drawn the line between 
what's appropriate for you to say and what's not appropriate 
for you to say. But what is clear is that you are aggressively 
investigating all of these problems that the Chairman of the 
Full Committee has brought to your attention here at this 
hearing.
    I think that's the real message I am hearing. There is no 
evidence whatsoever, certainly in the statements that have been 
made or certainly in your testimony, that justice is not being 
done. I think it would be terribly regrettable if that were 
implied or if that notion were in any way nurtured by this 
committee. Just the number and the scope of your investigations 
is evidence to the contrary.
    I want to comment on a couple of the Chairman's thoughts. I 
think it's regrettable as he has linked problems that agencies 
are having, administrative problems, with political initiatives 
coming from the outside. I don't think that there is a coupling 
there at all. As a matter of fact, Attorney General Reno's 
testimony yesterday, and also Doris Meissner's, I thought 
showed conclusively, at least based on the evidence presented 
yesterday, that INS was against any attempt to use its programs 
for political purposes.
    And because we had an election parallel with a Citizenship 
USA initiative does not mean that there is a conspiracy between 
the two. As a matter of fact, the evidence shows to the 
contrary. Likewise, any effort to link FBI and certainly you, 
personally, with any indiscretions by any other branch or any 
other people I think would be terribly unfortunate as the facts 
as you have testified here today show quite to the contrary.
    So, as I said, I think the context of this whole hearing is 
unfortunate. Putting together innuendo and fluffy facts to 
suggest a conspiracy between the White House and anybody else 
is easy to do and hard to refute, particularly when the context 
is ongoing investigations and you have a responsibility to do 
it. So, I just commend you for drawing the line.
    Mr. Chairman, I have no questions. You indicated that the 
policy has always been to have a check before granting 
citizenship. I didn't hear Ms. Meissner's nor Attorney General 
Reno's testimony like that yesterday. I heard that the policy 
was that if a response was not received from the FBI after 60 
days then it was assumed that the application could be 
processed.
    It's possible that I'm mistaken, but that's the way I 
remember the testimony. And that in September 1996 that policy 
was extended to 120 days because they began picking up some 
problems. And I would note that such a policy would put any 
naturalization beyond the election date. And in November the 
policy was changed; that there would be no naturalization 
without an FBI report back.
    So, Mr. Chairman, I have no questions.

                            criminal checks

    Mr. Rogers. Before yielding to Chairman Livingston for a 
series of questions, let me just say this. As I understood the 
policy yesterday from the Attorney General, they had never in 
the past had to go beyond the 60 days. The FBI had always been 
able to provide the proper criminal check within that 60-day 
period of time. And they never had tested the 60-day limit 
until 1996. Chairman Livingston.

                      hiring of craig livingstone

    Mr. Livingston. Mr. Director--excuse me. Mr. Chairman, 
rather than engage in innuendo and fluffy facts let me just 
summarize my appearance here with one question for you, Mr. 
Director.
    Who hired Craig Livingstone?
    Mr. Freeh. I don't know, sir.
    Mr. Livingston. Still, we don't know. It's amazing. Thank 
you.
    Mr. Rogers. Mr. Taylor.
    Mr. Taylor. Mr. Chairman, thank you. Director, I come from 
a part of the world where, you know, the FBI has been greatly 
esteemed over the years. We're probably, in the south, some of 
the Government's greatest supporters; upon entering many homes 
in the South, you see a picture of Franklin Roosevelt, a 
religious picture, and a picture of J. Edgar Hoover.
    I can tell you though that in the last two years I get more 
and more questions from my constituency of whether or not the 
FBI has become a stepin'-fetchit for the White House and given 
up its role as a respected law enforcement agency. I'm not 
making charges. I'm just telling you the perception that's out 
there. And that's come during your watch. And there is adequate 
reason for that as you've talked about here, files, 
compromising discussions, the fact that we had 1.1 million 
immigrants granted citizenship some of whom were, according to 
the press yesterday, murderers and people who have been 
convicted of felonies and in fact violated parole.
    It's going to amaze people how that happened. And I think 
we need to get to the bottom of it. When we questioned the 
Administration, in fact those that have been convicted or those 
that have just been under investigation at the time, it sort of 
starts a pattern that says mistakes were made and it is as if 
the tooth fairy was the one that was making them.
    And then we get the statement that we did nothing wrong, 
but we won't do anything wrong in the future. And then there is 
a call for reform,ignoring the laws that have been broken that 
no one wants to go forward. And then finally, that ends in stonewalling 
and taking the Fifth. I would hope that your agency will not work in 
that same way but will, if things have been done wrong, admit it, and 
achieve the best cure possible because that's what it's going to take 
to get the backing of the Congress.
    Let me ask a specific question on immigration. If I'm 
applying to be a citizen of this country and I have to submit 
my fingerprints, how do I get my fingerprints taken? How do I 
make that submission?

                             fingerprinting

    Mr. Freeh. There are a number of different ways. And this 
is not my expertise, sir. I think that the Immigration Service 
itself has officers who take fingerprints. Sometimes the 
Marshals Service does fingerprinting for civil applicants as 
citizenship applicants would be.
    There are a number of different ways and I don't know all 
of them--the objective is to take them in a way which 
authenticates the fingerprint. We don't let people come in and 
just hand in what they say are their own fingerprints.
    Mr. Taylor. Well, is it true that I can bring my 
fingerprints in and submit them with my application? You 
mentioned you hope that doesn't happen. But we've been led to 
believe that, that may be happening.
    Mr. Freeh. I don't know the answer to that, sir. I could 
find out for you.
    Mr. Taylor. Well, not only for me, but for you. It would 
disturb me greatly if I got a set of fingerprints which may 
have been provided a lot of different ways. Authenticating it 
would be a most important part.
    Mr. Freeh. I'm told that the INS subcontracts with agencies 
to take fingerprints to authenticate them. But, again, I don't 
know the answer to that. I will certainly get it for you.
    Mr. Taylor. I would appreciate that.
    [The information follows:]

                      Authenticity of Fingerprints

    The FBI understands the current INS policy for fingerprint card 
submissions, as of March 1, 1997, requires a specially authorized 
official to take fingerprints of applicants wishing to become 
naturalized citizens. Prior to this date, it was the individual 
responsibility of the applicant to submit fingerprints to INS for 
forwarding to the FBI for verification of a criminal history record.

                      investigation of allegations

    Mr. Taylor. The President made a recent statement that said 
basically his aggressive campaign activities and I presume that 
includes the immigration efforts and all of the other things, 
were justified because all of the mean conservatives were 
threatening to change the Washington order as he envisioned it.
    I think that was the gist of the statement made recently. 
Do you believe criminal conduct should ever be condoned to 
protect or re-elect any Administration?
    Mr. Freeh. The FBI is charged with investigating, not just 
clear criminal conduct, but allegations and even suspicions of 
criminal conduct. Our 10,000 plus agents spend a better part of 
their day devoted to those objectives and that mission.
    As to your question, sir, I don't think it's appropriate to 
express an opinion on that. My job and the job of the FBI is to 
go out and investigate allegations, either to prove a case or 
exonerate somebody. We give our findings over to people who 
make policy decisions or charging decisions like Assistant U.S. 
Attorneys.
    Mr. Taylor. In other words, you can't tell me that you 
believe that criminal conduct should or should not be condoned 
to protect or re-elect any Administration? I'm saddened with 
that answer. But let me go ahead with one other question, Mr. 
Chairman. It's leaving the path that we're going.
    It comes under the DC Subcommittee which I Chair. I've had, 
not sworn testimony, but statements made that in the 
Metropolitan Police Department there are somewhere between 100 
and 200 officers under indictment, that many of the District 
Policemen cannot testify in Federal Courts even if they witness 
a crime because their testimony would be impeachable given 
their records.
    What is the relationship between the FBI and the DC Police 
force? As much as you can, please quantify an evaluation of 
that force because we have very serious challenges in front of 
our subcommittee.

                      dc metropolitan police force

    Mr. Freeh. Mr. Taylor, we work very closely with the 
Metropolitan Police Force. We have over 100 FBI agents who are 
on task forces with MPD detectives who work on gang cases, 
homicide cases. As you know, two of my FBI agents were killed 
together with a police sergeant in November 1994 when a gunman 
came into Police Headquarters.
    On Monday I attended the funeral of Officer Smith who was 
executed once the robbers found that he was a Police Officer. 
My view is that the overwhelming majority, a large majority, 90 
percent, whatever, of the Officers are honest, hard working, 
decent Officers. Have they had problems? Yes.
    We had an FBI case which involved an undercover operation 
where we arrested and prosecuted about a dozen police officers 
for corruption. They have had substantial issues. I think the 
Police Chief is committed to dealing with those issues. We've 
assisted them on their laboratory forensics for instance.
    We've given them training. It's hard to give you an overall 
assessment of the Police Department except that in our dealings 
with them, they've been good partners. They have been privy to 
the most confidential types of criminal investigations that 
we've done.
    We've never had an operation compromised that has been a 
part of that task force. We want to work with them both for 
training and partnership reasons to keep the District a safe 
place to be.
    Mr. Taylor. Thank you, Mr. Director. Mr. Chairman, I have 
other questions that I'll save for another round.
    Mr. Rogers. Mr. Forbes.

                             twa flight 800

    Mr. Forbes. Thank you, Mr. Chairman. Mr. Director, I 
appreciate your appearance here today. I am curious as to the 
status of the investigation of Flight 800. This is a heart 
wrenching ordeal for the families, parents, brothers, and 
sisters of those who lost their lives on July 17th in the 
explosion. The people on Long Island, eight months after the 
explosion, want to know what happened and yet there seems to be 
no headway made on what really brought that plane out of the 
sky.
    First let me say that I for one appreciate your 
professional approach to the whole tragedy, your calmness and 
reassurance. Having said that, we are eight months into the 
investigation and there is troubling information that's also 
quite conflicting. You've heard talk of the photograph that was 
taken and the statements by the United States Navy to the 
Atlantic City operating area, which is the area including Long 
Island, that from the period of July 15th to the 21st, 
exercises, with hazardous surface vehicles--may have been 
conducted during the period of 5:25 a.m. to 7:10 p.m.
    There are areas known basically as Warning 105, 106, 107 
and 108. They are designated areas that periodically are 
enclosed by the military to allow for testing, and firing. My 
office has received information from the United States Navy 
that there hasn't been any friendly fire going on for nearly 
two years in that area. Yet, I see that quite repeatedly there 
is a problem in that area. There have been repeated notices 
to--fishermen that there may be some--friendly fire, some 
military maneuvers and the like. There is a confirmation that a 
P3 Orion would be out doing maneuvers at that night. This is 
all a long way to state for the record that I understand that 
the FBI is continuing to do its best to track down just what is 
the cause of this tragedy.
    My question is what the FBI has actually done in relation 
to the military and the investigation to look at the inventory, 
if you will of rockets and missiles; and is the FBI satisfied 
that there are no missing records or that there isn't 
information available in those files that would suggest the 
loss of missiles.
    We are most troubled, I think, that there does not seem to 
be a forthright approach to some of these issues, not by the 
FBI certainly, or by other departments of the government.
    Again, it's a long way to say that we are very frustrated 
that the families, and all Americans, still have no clue 
whatsoever of what brought that plane down. I am wondering if 
you could elaborate a little bit more on the status of the 
investigation, the cost of the investigation, the interaction 
with the FBI, the Department of Defense, and more particularly 
what brought down flight 800.
    Mr. Freeh. Sure. I would be very happy to. We've talked 
about this case separately. There is not a matter that we're 
doing which is more important or more the subject of 
commitment, not just of my self, but the individuals, some of 
whom you've mentioned who have really worked on this thing in a 
completely professional, devoted and heart breaking way.
    The 216 victims who've been identified and maybe more 
painfully the individuals who've not yet been identified or 
recovered is a very emotional and a very difficult 
investigation, particularly as it impacts on the families. 
We've tried to be sensitive to that. We have left no stone 
unturned with respect to this investigation.
    And we did have 1,000 agents on it for the first week or 
two. We still have many, many agents assigned. There is no 
reluctance or no shortage of resources here. You asked me how 
much the investigation cost. I think probably over $15 million 
or so for which we are not reimbursed because we've not been 
able to declare it an act of terrorism.
    But that's not important. The money is not important in 
this case. We have done an exhaustive investigation with 
respect to the various military components that were either in 
the air, on the water, and under the water at the time. We've 
not completed that. There is absolutely no evidence that any 
military friendly fire or exercise was responsible for the 
downing of that aircraft.
    That doesn't mean, however, that we've completed that 
investigation. We're still interviewing military members who 
were out at sea at the time; asking for--the Cruise missile. 
Submarines were in the area. Captains who are now just coming 
into port; planes, National Guard units. We will exhaust all of 
the interviews in that regard to deal with certainly what is a 
very emotional, but also a very critical part of people's 
concern.
    But as I've said, there is no evidence whatsoever to 
indicate that what happened there is a result of friendly fire 
or a mishap. With respect to where we are with the 
investigation, the Safety Board and the FBI are still 
rebuilding a part of that plane.
    I know you've been out to Calverton. The Speaker has been 
out there. There is about a 90-foot section of the plane which 
is literally being rebuilt by a contractor to see if when that 
thing is reassembled we can have a better perspective as to 
what happened.
    We have not been able to rule out a criminal act, either an 
explosive on board or a missile. We haven't ruled them out. The 
Safety Board has not ruled conclusively on all three theories, 
including the accident theory. I will note, and it is really 
apropos to our questions about the laboratory, our FBI 
Laboratory, going back now many months, examined every piece of 
wreckage. And there are tons of wreckage.
    As you remember, there were reports and we made a press 
release that microscopic evidence of a high explosive was found 
in two locations on the plane. We were very interested and very 
concerned about that find because it was microscopic and there 
wasn't the collateral metallurgical residue or damage which 
would be the result of an explosion.
    We even went to a foreign forensic laboratory to have them 
retest it. They retested it. I think what's significant is the 
laboratory examiners came to me and said, we have this 
microscopic evidence but we cannot definitely ascertain that 
the cause of the accident was an explosive device, and this is 
inconsistent in some ways with an explosive device.
    We then subsequently found out that, that particular 
aircraft was tested, I believe out in St. Louis, using the 
aircraft to put explosives on board, high explosives under a 
controlled exercise to train dogs. So, we were very pleased and 
I was actually very proud of that laboratory analysis and the 
conclusions.
    But we are not finished yet. We will work that case for as 
long as it takes with whatever resources are required. But 
unfortunately, we don't have a clear resolution at this point.
    Mr. Forbes. Are you satisfied that you're getting the full 
cooperation from the highest levels of the Department's 
agencies.
    Mr. Freeh. Yes, sir. I am. Absolutely. We would not have 
any of that wreckage if it were not for the Navy divers who, as 
you know because you were out there, were working literally 
seven days a week bringing up probably about 95percent of the 
aircraft. They're still bringing up pieces in our dredging operation.
    Mr. Rogers. The Gentleman's time has expired. Mr. 
Livingston.
    Mr. Livingston. Thank you, Mr. Chairman. And just to wrap 
up. Mr. Director, my long experience with the FBI tells me that 
it is a first class fact-finding organization. It's an 
investigative organization. It gathers facts. Is that correct?
    Mr. Freeh. Yes, sir.
    Mr. Livingston. And it's not the standard procedure for the 
investigators to alert, or confer with, or provide information 
to the people that they're investigating. Is that correct?
    Mr. Freeh. That's correct.
    Mr. Livingston. Now, can you give me any reason why Howard 
Shapiro would contact the White House, give them the Gary 
Aldrich manuscript, alert them that Chairman Clinger is digging 
into files which might reveal statements that were made 
previously and send agents out to virtually intimidate a 
Special Agent who gathered those facts a couple of years 
earlier?
    Mr. Freeh. I can certainly tell you that with respect to 
the discussion with the White House that he had regarding the 
Sculimbrene insert, which was the subject of hearings before 
Chairman Clinger's Committee that he said and said very 
sincerely, I believe, that it was a terrible mistake of 
judgment on his part. That his intent, albeit not perfected, 
was to tell both the Oversight Committee and the White House at 
the same time about what he thought was a very important piece 
of evidence.
    He has described that mistake as a blunder. I think the 
word he used was horrific blunder. I don't disagree with that. 
And unfortunately, it's put him and the FBI in a difficult 
position. But I think his explanation is a sincere one, sir.
    Mr. Livingston. Thank you very much. I want to say that 
you've handled yourself very well under tough circumstances and 
I wish you well.
    Mr. Freeh. Thank you, sir.

                             fbi laboratory

    Mr. Rogers. Now, let me ask you about the FBI Lab and 
perhaps there are some things you can't answer in an open 
session and I understand that. But I will try to avoid those 
questions. I guess the most important question is whether past 
convictions or current investigations are in jeopardy from what 
you know?
    Mr. Freeh. My current understanding, and I've read the 
draft report. I've spoken to the FBI, the individuals who have 
furnished the response back to the Department. I've even spoken 
to a couple of the prosecutors in the cases affected. I have no 
knowledge and no belief at this point that any of our FBI 
investigations have been compromised or jeopardized, either 
past, present, or to come.
    What has become necessary and certainly appropriate based 
on the findings of the Inspector General's report, the 
Department of Justice has gone out to at least 50 different 
cases where U.S. Attorneys have either prosecuted or are in the 
process of bringing cases to trial and told them that there are 
potential Brady issues and potential disclosure issues that 
they need to furnish to the defendants.
    A lot of those have been what's floating around in the 
press. But those are very raw allegations. To answer your 
question, sir, no. I do not believe that any FBI investigations 
or State investigations where we've done forensic work have 
been compromised by the report as I know it.
    Now, a Federal judge or State judge could disagree with 
that. We certainly want to get all of the information to the 
defense counsel involved so they can make their motions. But my 
current belief is that no major investigations have been 
compromised.

                        whitehurst investigation

    Mr. Rogers. Now, why was Mr. Whitehurst suspended?
    Mr. Freeh. Well, I can say in the open session, sir, that 
the action that was taken against Mr. Whitehurst was taken 
solely and directly on the basis of the recommendations by the 
Inspector General and their findings with respect to Mr. 
Whitehurst, which they furnished us in writing.
    [Clerk's note.--Subsequent to the testimony, the following 
clarification was received from Director Freeh: In response to 
questioning regarding the decision to place Mr. Whitehurst on 
administrative leave (see pp. 57-58 of hearing transcript), I 
inadvertently failed to include the second basis in support of 
that decision. In addition to the Inspector General's draft 
findings with regard to Mr. Whitehurst, Mr. Whitehurst refused 
to answer questions, in direct contravention of an order to 
cooperate by an FBI Acting Assistant Director, with regard to 
an investigation into allegations that Mr. Whitehurst, without 
authorization, disclosed official information to the media.]
    We notified the Inspector General and the Deputy Attorney 
General's Office that we were going to take administrative 
action. They did not object to it. The only reason that action 
was taken was because of what the Inspector General wrote and 
recommended to the FBI. And when that's public, I think you 
will be satisfied with it.
    Mr. Rogers. What plans does the FBI have for his continued 
employment, if any?
    Mr. Freeh. The matters of discipline with respect to Mr. 
Whitehurst were referred to the Department of Justice, either 
the Inspector General or the Deputy Attorney General's Office, 
because although in the routine case we would take that 
Inspector General report and decide what discipline should be 
imposed. I have recused the FBI from that because of any 
appearance of retaliation and those matters will be handled by 
the Deputy Attorney General's Office.

              reduction of special agents at headquarters

    Mr. Rogers. Now, when you took office, you initiated a 
program to reduce 600 special agents assigned at FBI 
Headquarters and moved them out into the field in an effort to 
streamline and save money.
    Some people say that when you did that you moved many very 
experienced laboratory examiners, as well, out into the field 
and away from the laboratory. How many qualified forensic 
examiners were transferred out of the lab when you implemented 
that plan?
    Mr. Freeh. Over a phased three-year period, the objective 
was to reduce the number of special agent examiners in the 
laboratory from I think approximately 121 to about 51. I'll 
give you the exact numbers. It was to do it over a three-year 
period and only move them once we had trained a replacement 
examiner.
    My intent in doing that, sir, was two-fold. One, I wanted 
to get more FBI agents out on the street. And if you remember, 
before this Committee intervened, we had, had a 22-month period 
where we didn't hire any FBI agents. So, I was very much in 
need of getting people out onto the street. The other objective 
of doing that was to bring some outside scientists into the 
laboratory.
    A lot of our examiners, and I think they're the best in the 
world, are agents who served four or five years at Headquarters 
and then got rotated to an office of preference or a field 
assignment. Then we'd have to bring in another agent, albeit 
with a science background, and retrain them.
    So, my objective was to bring in outside scientists and 
create a long-term staff that would be not subject to the moves 
and transfers of FBI agents. And we still will have, even after 
the transition, I think about 40 or 50 FBI agent examiners in 
key points. But we will also have some strong scientists. I can 
show you the resumes of some of the folks who've come in. And 
they're just outstanding.
    Mr. Rogers. Was there an analysis then of this decision on 
the impact it would have on the level of expertise left in the 
lab?

                             fbi laboratory

    Mr. Freeh. Yes. The laboratory did a study recommending 
that if it were done over a three-year period and if agent's 
orders were held up from being transferred out of the lab until 
a trained examiner was ready to replace them; in other words, 
not to only examine, but testify in court, that it would not 
have any impact on the effectiveness of the lab.
    Mr. Rogers. Is that what proved to be the case?
    Mr. Freeh. Yes, sir. It is in my view.
    Mr. Rogers. So, it's your opinion that the shipping out 
into the field of agents in the laboratory had no deleterious 
effect on the quality of the work done in the laboratory or the 
quantity?
    Mr. Freeh. Yes, sir. That's my view.
    Mr. Rogers. So, you don't think that dispersal of personnel 
from the laboratory contributed to the problems identified in 
the IG's report?
    Mr. Freeh. No. In fact, the IG report speaks about this 
transition and does it, I think, in a positive way. I'm not 
supposed to comment on its contents.
    Mr. Rogers. Well, now that you've opened the door, as a 
prosecutor would say, are any of these agents now being 
transferred back to the lab on temporary assignment?
    Mr. Freeh. No, sir; not that I'm aware of. Some of them 
have indicated a preference to come back to the lab and we will 
certainly honor that preference as our needs require.

                       counter-terrorism funding

    Mr. Rogers. Now, I want to ask you about the counter-
terrorism monies that we have provided. Last year in the wake 
of two tragic events, the TWA 800 explosion and the Olympic 
bombing, it was requested that we boost the level of counter-
terrorism resources for the FBI. We were highly critical at 
that time, if you recollect, of your capability to spend that 
kind of money because you had not spent 75 percent of the $239 
million in funding we'd provided in response to the Oklahoma 
City bombing earlier.
    From your latest reports, now two years later, it appears 
you've hired up that personnel and are spending those 
resources. With regard to funding from 1995 to 1996, are all of 
the personnel hired, the 131 agents and 518 support personnel?
    Mr. Freeh. All of the agents are hired, sir. With respect 
to the support under the 1995 supplemental, there are 14 
individuals who, my understanding is their background has been 
completed, but they're not yet on board. Other than that, all 
of those resources either are on board or will be on board. All 
the agents are certainly on board.
    Mr. Rogers. Is the Counter-terrorism Center fully up and 
running?
    Mr. Freeh. Yes. It is.
    Mr. Rogers. One hundred percent?
    Mr. Freeh. We may have one or two agency representatives 
who are not physically at their desks yet, but everyone has 
been designated and the Center is operational.
    Mr. Rogers. Has the command center been upgraded and do you 
have 24-hour coverage?
    Mr. Freeh. Yes. Although the new command center which you 
and the Committee authorized us to build is still in the 
construction process, but we have used resources to upgrade the 
equipment, the operational capability exists and that's a 24-
hour running center.

                          technical equipment

    Mr. Rogers. Have you purchased all of the technical and 
tactical operations equipment?
    Mr. Freeh. Sir, I don't know the answer to that, but I will 
get it for you. Is this from the 1997 budget?
    Mr. Rogers. No, the 1995 supplemental and 1996.
    Mr. Freeh. Okay. I'm told there is still more to buy. I'll 
give you an exact accounting by the end of the day.
    [The information follows:]

      Status of Digital Telephony and Tactical Operations Funding

    Response: The FBI received $13,100,000 in nonpersonnel funding from 
the Fiscal Year (FY) 1995 Counterterrorism Supplemental for Digital 
Telephony and Tactical Operations research and development and 
equipment acquisition. This funding consisted of $6,500,000 for Digital 
Telephony and $6,600,000 for Tactical Operations activities. As of 
March 12, 1997, the FBI has obligated $6,248,543 or 96 percent of the 
Digital Telephony funding and $5,360,528 or 81 percent of the Tactical 
Operations funding. All remaining FY 1995 funding will be obligated in 
FY 1997.
    As a result of the FY 1996 Counterterrorism Amendment, the FBI 
received $58,400,000 in nonpersonnel funding for Digital Telephony and 
Tactical Operations research and development and equipment acquisition. 
This funding consisted of $33,400,000 for Digital Telephony and 
$25,000,000 for Tactical Operations activities. As of March 12, 1997, 
the FBI has obligated $28,968,000 or 87 percent of the Digital 
Telephony funding and $24,025,000 or 96 percent of the Tactical 
Operations funding. All remaining FY 1996 funding will be obligated in 
FY 1997.

    Mr. Rogers. Anyone in the room can respond that knows the 
answer if they will identify themselves. Any volunteers?
    Mr. Freeh. It was the volunteers part that got them.
    Mr. Rogers. We'll pay you for the information then.
    Mr. Roper. Mr. Chairman, Mike Roper. I'll volunteer. In 
terms of the report I think we submitted to the Committee which 
was through November, of the technical equipment that was 
provided in 1996, the money is not totally obligated.

                          HIRING OF PERSONNEL

    Mr. Rogers. All right. Now, in the 1997 bill, the current 
year, we provided another 1,019 personnel and $194 million. 
Where are you on the hiring of that personnel and the spending 
of those resources?
    Mr. Freeh. By mid-fiscal year which is in April, all of the 
agents authorized will be, not only hired, on board, but 
assigned to their various divisions. With respect to the 
support personnel, my understanding is we are meeting our own 
hiring plan which will give us, by the end of the fiscal year, 
a full hire with respect to almost all of the counter-terrorism 
support personnel except perhaps in some of the technical 
areas.
    We have a total of 3,664 people to hire in 1997, thanks to 
you, the Committee, and the Senate. All of the 1,057 agents 
will be hired in the fiscal year. All of the 1,100 people for 
CJIS will be hired. As to the other 1,500, our current 
prediction is that we will fall short by perhaps 300 support 
personnel. And we're trying to emphasize that we have all of 
the counter-terrorism personnel on board, with a top secret 
clearance, and working as opposed to the more general non-
technical support.

                               TERRORISM

    Mr. Rogers. Now, we provided over $400 million for you to 
address terrorism since the Oklahoma City bombing. Are we in a 
better prepared situation today to prevent that type of 
incident from ever occurring again?
    Mr. Freeh. Yes sir, we are. The near-functioning of the 
Counter-terrorism Center gives us, for the first time, a 
central, analytical and collecting capability consistent with 
privacy rights and Attorney General guidelines. The shoe 
leather that is now out in the field and will be there in full 
force on April 1st, the FBI agents will give us the coverage 
and the ability to be proactive in many of these areas.
    Our expanded LEGAT Program, which we thank you and the 
other Members for, will give us the ability which we've never 
had before to have direct liaison representatives in the places 
where we need to be. We never had an office in Cairo or Tel 
Aviv until you approved it. We now have the ability to liaison 
directly, not just with the Israelis, but with the Palestinian 
authority. And that gives us a tremendous counter-terrorism 
capability.
    Mr. Rogers. You're currently 1,420 support personnel below 
the level we funded for all FBI activities. What's the problem?
    Mr. Freeh. We've never had so many people to hire at one 
time. I'm certainly not complaining about that. Everybody has 
to have a top secret clearance, the uniformed officer who 
stands at our gate has to have a top secret security clearance 
which is different from any other agency, certainly in the law 
enforcement area.
    We don't want to make any mistakes. As we hire people, we 
don't want to have an Earl Pitts. We don't want to have someone 
who would compromise the most important programs in cases that 
we have. I think we're going to do very well in 1997 to get all 
the resources on board, except as I said, perhaps 300 support 
personnel.
    We're going to hire all 1,057 agents and we are hiring as 
quickly as we can. I've given the administrative folks who do 
the hiring more resources, more polygraph examiners. We're 
doing the very, very best we can. I'm sorry if we won't 
complete everything by the end of the fiscal year, we may be 
300 or so short. But we will have the balance of the 3,664 
people on board; 1,700 of whom are new hires.
    Mr. Rogers. In the meantime while we've not yet hired all 
of the non-agent personnel out there, someone has to be doing 
that work. Are we having agents do non-agent work in the 
meantime?
    Mr. Freeh. In terms of the backgrounds?
    Mr. Rogers. For whatever purpose.
    Mr. Freeh. We are and we aren't. We've got, as you know, 
our BICS Program. In fact, we've asked for additional 
authorization for that in 1998. These are former Federal 
agents, mostly FBI agents, who do background investigations. 
They're about half the cost of the FBI agents doing the 
background.
    We also free-up probably 280 FBI agents a year under the 
BICS Program who are now able to do criminal investigations. 
So, we are using a lot of resources still to hire and process 
over 3,000 new hires. But I don't think our work is suffering 
particularly with the continuation of the BICS Program.
    Mr. Rogers. Now, in the last two years you've had 
significant surpluses at the end of the fiscal year and have 
requested to reprogram those funds, including monies from the 
counter-terrorism program. Will you have a large amount of 
unobligated funds at the end of this fiscal year as you've had 
in the last two years?
    Mr. Freeh. We'll certainly have some unobligated funds with 
respect to the support personnel who are not brought on board. 
As to the purchasing of equipment and the obligation of funds 
for all of those matters, I think we're going to do very well.
    For instance, all of the money under the Communications 
Assistance for Law Enforcement Act (CALEA) will be fully 
committed and obligated in 1997. And we're hopeful that all of 
the other funds will have equal success.

                          NCIC 2000 AND IAFIS

    Mr. Rogers. Now, since 1991 we've provided funding to 
upgrade the National Crime Information Center, NCIC system, 
that's managed by the FBI and used by more than 72,000 local, 
State and Federal agencies.
    The upgrade project, known as NCIC 2000, was expected to be 
operational in March of 1995, but last year we were told the 
cost would be substantially more; $110 million more than 
originally estimated, and deployment would be put off until 
1999; four years behind schedule.
    Similarly, in 1992, we gave you approximately $400 million 
to develop a reliable electronic fingerprint data base and 
searching system for Federal, State and local law enforcement. 
That's known as the Integrated Automated Fingerprinting 
Identification System, IAFIS for short; projected to cost $520 
million and operational in 1999.
    But as of March of 1996 you estimated completion of IAFIS 
would be $120 million over budget and more than a year behind 
schedule. Now, where are we on those two and how can we rest 
assured when you tell us some date and some figure?
    Mr. Freeh. I believe you can take confidence in ourcurrent 
predictions which have certainly been the subject of reporting. I know 
you've received our fiscal year 1996 fourth quarter reports for both 
systems. The first quarter reports are in the process of being 
furnished. We are still 18 months behind with IAFIS and $120 million 
over the initial estimate.
    The good news to that is that we have both systems in 
place, the new managers in place, and the incremental builds 
which are giving us a very, very close check on the progress of 
the delivery. Two of these six builds have already been 
furnished in IAFIS. They've been successful.
    We are very closely monitoring in conjunction with the 
Justice Department and OMB the progress of that. We don't see 
any more slippage at this point. In fact, we're very confident 
with respect to the July 1999 on-line date.
    With respect to NCIC, you're absolutely right. The 1991 
predictions were way under cost. That's several years overdue. 
But, again, even with the addition of the new files, the gang 
file, the terrorist file, the departed felon file, the new 
management and the new incremental building strategy that we're 
following gives me the ability to assure you today that both 
systems will be on-line according to the current budget. We're 
following that closely, closer than any other single two 
projects in the FBI.
    Mr. Rogers. Well, as you know, last year we said to you in 
our report language that if there are any further cost 
overruns, you've got to find the money out of your budget 
somewhere else. No new changes to those systems would be 
supported until you delivered on the current plan. Now, that's 
where we are, right?
    Mr. Freeh. Yes, sir.
    Mr. Rogers. And we want those quarterly reports.
    Mr. Freeh. Yes.
    Mr. Rogers. We want to know three months at a time where 
you are because these two systems are terribly expensive and 
also terribly important. So, do we have the problems remedied 
with these two systems?
    Mr. Freeh. I'm confident that we do, sir. I'm monitoring 
it. As soon as we see any divergence in the delivery of the 
systems that are being furnished in incremental builds, every 
alarm and every bell will go off and we'll deal with it as we 
have with some slippage. But we are not behind in our projects; 
either of them.
    Mr. Rogers. Now, the States and localities--the local 
police departments, the State police agencies, are going to 
have to have some equipment that allows them to interface or 
tie-in with your new national equipment. Do you foresee any 
problems that they may have, the local agencies that is, in 
being able to procure or pay for the equipment that will be 
necessary for them to use this new information system?
    Mr. Freeh. The delays in our final delivery have caused 
problems for some of the state and local departments. We have a 
CJIS Advisory Policy Board which is an outside board who I meet 
with regularly, and who meet more frequently with our CJIS and 
NCIC 2000 executives.
    One complaint they've made to me is that given the delays 
in the delivery of these systems, they've had trouble 
maintaining the baseline money and getting new money to buy 
that equipment. But in terms of the technical ability to have 
accessible, interoperable equipment, they do not see that as a 
problem.
    They are very confident, I might add, with respect 
particularly to the IAFIS time table and development. The only 
concerns they've expressed to me are the ability to get money 
when a system is still three years down the road as opposed to 
what it was supposed to be, which was delivery last year in the 
case of NCIC.

                            OLYMPIC BOMBING

    Mr. Rogers. Now, I'm not going to get into the Olympic 
bombing investigation very much here. But there are a couple of 
questions that I think it would be helpful if we had answers 
to.
    One, the proximate cause of Mr. Jewell's defamation, in my 
opinion, was the information that the press received from a 
confidential FBI preliminary investigation. You investigate 
people all the time and find that they're not guilty and 
nothing is ever heard of it and it's over with, right?
    Mr. Freeh. Yes, sir.
    Mr. Rogers. This happens by the thousands. However, this 
one, you investigated and somehow the information that you had 
leaked out to the press and it was published. Is that 
essentially what happened?
    Mr. Freeh. That's exactly what happened.
    Mr. Rogers. And you're trying to find out how the leak 
occurred?
    Mr. Freeh. Yes. We have had a large scale leak 
investigation. We've interviewed many, many people. As I 
indicated before, unfortunately, and this is a management 
problem on our part, we had, prior to the leak, over 500 FBI 
agents, local detectives, other people who knew his identity.
    They reported up ten different organizational chains. It 
was too many people to be aware of a subject's identity, 
especially in a case where you had 15,000 reporters in town.
    Mr. Rogers. Are you closer, do you think, to identifying 
now, the person who leaked to the media?
    Mr. Freeh. No. Unfortunately, we're not.
    Mr. Rogers. It had to be a law enforcement official, 
however; would it not?
    Mr. Freeh. I would say generally that would be the clear--
--
    Mr. Rogers. Who else would have had proximity to the 
information than a law enforcement official?
    Mr. Freeh. It would almost certainly be a law enforcement 
official, whether it be a State, local, Federal, or a 
prosecutor. It certainly was. You know, I've been very clear 
about what would happen in the case that we identify that 
person. I have a test which is known around the Bureau as the 
Bright Line Test.
    If we were to find out or discover with some sufficient 
proof who did that, we would not only fire them, I would seek 
to prosecute them.
    Mr. Rogers. Now, the other question that I have is with 
regard to the facts and circumstances regarding Mr. Jewell's 
accompanying FBI personnel to FBI Offices and his questioning 
there. Tell us what you can, in an open session here, regarding 
the alleged use of deception by FBI personnel in convincing Mr. 
Jewell to voluntarily accompany agents to the FBI Office, 
advising him or his attorneys regarding the availability of 
retained counsel during that period, and of his Fifth and Sixth 
Amendment Rights while he was present at the FBI Office.
    Mr. Freeh. Mr. Chairman, all of those matters which you 
discussed are very, very serious matters. They have been the 
subject of a very large and a very intensive investigation by 
the Department of Justice OPR, not by the FBI. Many, many 
interviews have been conducted, including an interview of 
myself.
    Many records have been looked at. The OPR Office has 
written a report, the Justice Department Office has written a 
report that deals with each and every one of those questions. 
We're now in the process administratively of notifying certain 
people who may be affected by the result, so they can respond 
to any proposals for administrative action. Because I will be 
the judge, so to speak, in any final appeals, I'd rather, at 
least at this point in this session, not go into specific 
details. But all of them have been examined very intensely. And 
if action needs to be taken, I will certainly take that action.
    Mr. Rogers. Is anyone being disciplined within the FBI at 
this point in time?
    Mr. Freeh. At this point in time, no. But the 
administrative process is at the point where any discipline or 
administrative action is being proposed. And ultimately, after 
people have the opportunity to respond to that, there will be 
recommendations made. I'll ultimately be the person who makes 
those final decisions.
    Mr. Rogers. Am I hearing you say that the process has begun 
to discipline some people?
    Mr. Freeh. The process that could result in the discipline 
of people is ongoing, in fact very far advanced in that regard.
    Mr. Rogers. And we can't talk about it because they have 
rights that have to be protected. Is that what you're saying to 
me?
    Mr. Freeh. Yes, sir. I have to make the final 
administrative decision. Because I would be functioning as the 
judge in that regard I would rather not describe what I think 
or the facts and the liabilities at this point. But I can 
assure you that, we in the FBI and myself, personally, take 
very, very seriously the whole series of events in the matters 
which you mentioned. We will respond very appropriately to any 
misconduct or any improper activity by anybody in the FBI.
    Mr. Rogers. Now, what role, if any, did you and other FBI 
Headquarters' personnel play in the planning, direction and 
control regarding his visit to the FBI Office and the 
subsequent events there?
    Mr. Freeh. The report which will be furnished will 
certainly be a report which will answer all of those questions. 
You will get a copy of it when the OPR Office issues it. Again, 
a lot of the details of my response would clearly get into the 
area of what certain people did and what their liabilities will 
be.
    As to what I did, I'm happy to respond to that. The 
involvement that I had in the matter was related solely to the 
question as to whether or not Mr. Jewell should be given his 
advice of rights, his Miranda Warning, when he was in the FBI 
Office at his own volition, but not in custody.
    At the point on that day when I was advised of that 
particular issue, I was the one who ordered that he be given 
his Miranda Rights, even though as I said a very good argument 
could be made as to why he wasn't entitled to them. I wanted to 
make sure that in those circumstances his rights were 
protected. I ordered that his rights be given. In the 
subsequent events and the carrying out of that order are the 
subject of the investigation.
    Mr. Rogers. When can we expect that report to be complete?
    Mr. Freeh. I would say in the next 30 to 45 days, released. 
It's pretty much completed now, except for the administrative 
part.
    Mr. Rogers. Mr. Mollohan.

                              foia backlog

    Mr. Mollohan. Thank you, Mr. Chairman. Mr. Director, it 
came out in testimony with the Attorney General yesterday that 
the FBI was considerably behind in its FOIA requests.
    Mr. Freeh. Yes, sir.
    Mr. Mollohan. Can you speak to that issue please?
    Mr. Freeh. Sure. We're about 16,000 requests behind in the 
response time and number which is a very, very serious matter. 
We've also now in 1996 had the Electronic Freedom of 
Information Act (EFOIA) of 1996 which requires us to respond in 
electronic format to electronic requests.
    Part of the FBI's 1998 budget request, I know we're not 
talking about that today, among the seven priority items, is a 
request for an enhancement of our FOIAP capability to deal both 
with the backlog and the new electronic format requirements. We 
have and will hire in 1997 all 129 authorized positions who are 
the actual--examiners.
    We have transferred the FOIAP section from the Information 
Resources Division to the Office of Public and Congressional 
Affairs. John Collingwood, who is here, is the Inspector in 
charge of that office. He has attacked this problem with a 
number of new initiatives and teams, including a team that 
calls up people whose requests have been pending for many years 
and tries to update and clarify them.
    Mr. Mollohan. How long have you had this backlog?
    Mr. Freeh. The backlog has been continuous for many, many 
years. About ten years ago it started.
    Mr. Mollohan. One year ago, what was the backlog?
    Mr. Freeh. John Collingwood can give you the exact answer, 
sir.
    Mr. Collingwood. In 1992 the backlog was 9,300 cases. In 
1994, 11,800. In 1996, 15,000. It's been steadily increasing.
    Mr. Mollohan. Okay. And what do you propose to do to reduce 
that backlog and what are your goals?
    Mr. Freeh. The goals immediately----
    Mr. Mollohan. What do you accept as a reasonable turnaround 
time for a Freedom of Information Act request?
    Mr. Freeh. Our goal is to turn around these requests as 
quickly as possible and clearly to cut this backlog down. The 
129 positions which will be hired on in 1997, the new 
electronic processing equipment and format that we have, the 
treatment of electronic responses as opposed to manual ones, 
and the new resources that we've asked for in 1998 all will 
enable the FBI to reduce the backlog of FOIA requests. I think 
the goal is, John, to effect a 40 percent increase in 
productivity.
    Mr. Mollohan. In processing productivity?
    Mr. Freeh. In processing productivity with the 1997 and 
1998 resources. It's not a satisfactory answer. We're going to 
work as hard as we can to first identify how much of this 
backlog is now currently the subject of any continuing 
interest. And then attack it with the new resources and the 
electronic format.
    Mr. Mollohan. This is a very big problem for you all.
    Mr. Freeh. It certainly is. Unfortunately, we're not the 
only agency in that predicament. But it's going to be treated 
and we take it as a very high priority; one of the seven 
priorities for 1998.

                     national instant check system

    Mr. Mollohan. The National Instant Check System which you 
are bringing on line, can you tell us the status of that? Is it 
on time?
    Mr. Freeh. Yes, it is.
    Mr. Mollohan. On budget? Are you sure?
    Mr. Freeh. The statute, of course, requires by November 
1998 that the NICS system will be fully implemented. The 
funding level for the project through 1997 is totalled to be 
$36.2 million. My notes tell me that we are on line. We are on 
budget. And we are at this point confident that we will meet 
the goals of the program.
    There is pending legislation that would require that the 
system be established in November of 1997 which would be one 
year prior to the current deadline. That would put us very far 
behind if that's what we need to respond to. We're doing 
contract negotiations with SAIC which will be the contractor 
who will perfect the software.
    We're scheduled to complete those in the next 30 to 60 days 
and I'm otherwise advised that we're on time and under budget, 
except for what would be a one-year earlier delivery date if 
the pending legislation is enacted.
    Mr. Mollohan. Okay. There has been some concern expressed 
to me about the information which you are requiring various 
sources to supply to that system. There are some privacy 
concerns. Are you able to speak to those here today? If not, 
I'd like to follow-up with you.
    Mr. Freeh. I'm not able to speak to them now. I don't see 
anything in my materials, but I'll certainly--and I haven't 
heard any particularly, but let me do that research and I'll 
get back to you promptly.
    [The information follows:]

[Pages 630 - 632--The official Committee record contains additional material here.]


                            computer crimes

    Mr. Mollohan. Okay. Technology crimes. You mentioned in 
your statement that your FY98 budget requests funds for 
additional agents to address computer related crime.
    Mr. Freeh. Yes, sir.
    Mr. Mollohan. Could you speak to us about that initiative 
and the importance you give to focusing on it?
    Mr. Freeh. We've already really given it the second ranked 
priority. It really is the crime of, not just the future, but, 
what I think will be, in the next couple of years, the 
prevailing and maybe even dominant methodology by which many 
criminals commit crimes.
    I was at a conference yesterday in New York which the FBI 
sponsored. It was a national conference of police investigators 
on the subject of computer crime. Just to give you a very quick 
example, we're dealing with cases, two in particular.
    We had a lap-top operator in St. Petersburg, Russia who, 
without leaving the safety of his apartment, hacked his way 
into CitiBank, New York and moved about $23 million into a 
European account. The bank didn't know about it until sometime 
thereafter.
    We had another case where a lap-top computer operator in 
Sweden hacked his way into some PBX switching systems, worked 
his way down in Northern Florida and shut down, for several 
hours at a time, 911 systems in different localities which are 
not only police, but fire and emergency services. Both of those 
individuals were back tracked, arrested, and prosecuted. If I 
could make another plug for our LEGAT system, Mr. Chairman, it 
was because of our LEGAT in Russia, in the one case, that we 
were able to get back to the CitiBank case.
    So, we see computer crime, both in the area of terrorism, 
but also in financial crimes, really the wave of the future. 
The request is to give us not just a headquarters analytical 
ability, but to give us computer squads out in the field. I 
know in three of my offices we have computer squads. These are 
agents who just work on computer cases as opposed to the 
programmatic squads; such as bank robbery and others, as we 
used to have.
    The new agents, who are now leaving Quantico, leave with a 
badge, a gun, and a lap-top computer because when they do their 
first search, they're not only going to take a box of records 
like us old-timers did, but they're going to take hard drives 
and disks. And we need to be prepared for that.
    One hundred million people will use the Internet in the 
year 2000. And we have cases like our ``Innocent Images'' case 
in Baltimore where people were using the Internet not just to 
send, in great volume, child pornography but to reach and make 
contact with children to meet them for sexual molestation.
    We've never seen anything like this before. In your home 
now, over your computer may be an invitation for somebody to 
talk to your child and meet them somewhere. We need to be 
prepared for that. We're not prepared for that right now.
    Mr. Mollohan. Is this Computer Investigation and 
Infrastructure Threat Assessment Center employed in this 
initiative that you're referring to?
    Mr. Freeh. Yes. That is the headquarters part of it. That's 
at the FBI Headquarters. That's to give us the central 
expertise and capability to both do computer crimes and do 
threat assessments. The other part of the budget request for 
1998 is to get that expertise out in the field and populate our 
offices with some of these teams.
    Mr. Mollohan. Mr. Director, I want to complement you on 
your professionalism in the past and certainly the professional 
way you've conducted yourself here today.

                            closing remarks

    Mr. Rogers. Thank you, Mr. Mollohan. Mr. Director, as we 
close down here, let me say in closing that the people are 
entitled to have in this office absolute confidence that there 
is fair and impartial administration of justice; whether it be 
the investigation of a criminal case, or the investigation of a 
white collar matter, or administration of counter-terrorism 
activities or the investigation of public officials, high and 
low. We'reentitled to have that. That's what we pay for. That's 
what we've fought wars over. That's what we fought a revolution over. 
It's the core of democracy; its very heart. You know that.
    There have now been raised some suspicions. It's imperative 
I think that we and you get to the bottom of these charges, 
these allegations, rumors even, and prove them false or prove 
them true, and to dispose of them one way or the other.
    We are entitled to have not only the fact of impartiality 
and independence, we must have also the appearance of that 
because what appears in many cases turns out to be the truth. 
So, we must work at this. It pains me to bring these matters 
up. But the integrity and the independence of this organization 
is of paramount importance.
    We want to work with you to that end. I'm not here to tear 
you down. I'm here to urge and to push and to encourage you and 
your people to work through these things quickly. Get them out 
of the way. Do justice. Follow the truth wherever it may lead. 
And that's the only thing that will suffice. That's the only 
thing that will restore the appearance of complete integrity 
and complete independence of the Justice Department, and 
especially the FBI.
    This was said by someone very close to you, ``The single 
thing most responsible for the success of the FBI is that 
people are confident that if they come to the FBI, the matter 
will be handled professionally and well. If that trust ever 
breaks down, not only is the FBI in trouble, but the American 
people are in trouble.'' That is a quote from your departing 
Deputy Director, Weldon Kennedy. I can't say it any better. 
Thank you.
    Mr. Freeh. Thank you, Mr. Chairman. Mr. Mollohan, thank 
you.
    Mr. Rogers. We're adjourned.

[Pages 635 - 645--The official Committee record contains additional material here.]


                                         Wednesday, March 12, 1997.

                       COUNTERTERRORISM PROGRAMS

                               WITNESSES

LOUIS J. FREEH, DIRECTOR, FEDERAL BUREAU OF INVESTIGATION
PHILIP C. WILCOX, JR., COORDINATOR FOR COUNTERTERRORISM, DEPARTMENT OF 
    STATE
ERIC J. BOSWELL, ASSISTANT SECRETARY FOR DIPLOMATIC SECURITY, 
    DEPARTMENT OF STATE

                       Chairman's Opening Remarks

    Mr. Rogers. The Committee will come to order.
    We are pleased to welcome this afternoon Louis Freeh, the 
Director of the FBI; Ambassador Philip Wilcox, Jr., Coordinator 
for Counterterrorism at the State of Department; and Eric 
Boswell, the Assistant Secretary for Diplomatic Security at the 
Department of State, to discuss counterterrorism programs at 
both the FBI and the Department of State.
    The written statements of the witnesses appearing before 
the Subcommittee today have been prepared without 
classification so that they may appear in the public record.
    Pursuant to the motion approved by the Subcommittee on 
March 5th, 1997 by roll call vote of 6 to 0, a quorum being 
present, this hearing will be held in executive session.


[Pages 648 - 697--The official Committee record contains additional material here.]


                                         Wednesday, March 19, 1997.

            DEPARTMENT OF JUSTICE, DRUG ENFORCEMENT PROGRAMS

                               WITNESSES

THOMAS A. CONSTANTINE, ADMINISTRATOR, DRUG ENFORCEMENT ADMINISTRATION
CAROL DiBATTISTE, DIRECTOR, EXECUTIVE OFFICE FOR UNITED STATES 
    ATTORNEYS
MARY LEE WARREN, DEPUTY ASSISTANT ATTORNEY GENERAL, CRIMINAL DIVISION

    Mr. Rogers.  The Committee will come to order.
    We're pleased to welcome this morning Thomas Constantine, 
the Administrator of the Drug Enforcement Administration; Carol 
DiBattiste, the Director of the Executive Office for U.S. 
Attorneys; and Mary Lee Warren, the Deputy Assistant Attorney 
General for the Criminal Division to discuss the Department of 
Justice's efforts in the War on Drugs.
    You will notice, I still call it a ``war.'' Saving our 
children from drugs and drug-related crime has become an 
overwhelming national priority. Confronting the violent, 
powerful, international drug trafficking organizations, while 
also focusing on teaching our children to say ``no'' to drugs 
is essential to saving our country from an unparalleled wave of 
drug addiction and violent crime.
    Unfortunately, we are playing catch-up. Casual teenage drug 
use trends suffered a marked reversal over the past five years. 
Drug use among teenagers, in fact drug use in virtually every 
childhood age group and virtually every illicit drug has 
increased. The Congress worked hard over the last two years to 
provide the funding for vital law enforcement programs to 
address this trend.
    For Justice alone, we provided $7 billion to fight drugs in 
1997; an increase of 11 percent; a $694 million increase. DEA 
received its largest increase in the last five years in fiscal 
year 1997; an increase of $198 million; a 23-percent increase. 
We need to work together in a bipartisan, bicameral, bi-branch 
way to reverse the trends we've seen and fight this drug war on 
a united front.
    Law enforcement is a vital component. This Committee will 
seek to ensure that adequate resources are provided to address 
the problem on a law enforcement level. We will include your 
written statements in the record. You may proceed with your 
summaries of your statements.
    Administrator Constantine, we will begin with you.

           Drug Enforcement Administrator's Opening Statement

    Mr. Constantine.  Congressman, I want to thank you and 
Congressman Mollohan and the other Members of the Subcommittee 
for all of the things that you have done to support DEA in the 
little over three years that I've been here.
    There are three major areas that the DEA has pointed to for 
our enforcement programs to try to attack the individuals 
responsible for drug trafficking in the United States. The 
first, if we start from the top down, are powerful 
international organized crime syndicates. Second are drug 
distribution organizations that operate within the borders of 
the United States. Third are violent drug trafficking groups 
that are operating at the state or local level.
    We attack all three of these strategies simultaneously. We 
have, over the years, learned that we can be effective if we go 
after the leadership of the organizations. I think we have been 
especially effective where we have focused in on violence and 
drug trafficking. The international organized crime 
organizations we are targeting are unparalleled in many ways in 
our history in the United States.
    We now deal with the violent crime syndicates that are also 
more violent and powerful than anything we've ever seen before. 
There are major differences between the groups that we 
investigate now and those we investigated in the United States 
in the 1950s and 1960s.
    These syndicates have advanced technology. They have their 
own aircraft, radar, and weapons and sometimes thousands of 
workers in their employ. The leaders of these organizations, we 
know, are intimately involved in every aspect of the business 
from the production of the drug, trafficking routes, how the 
packages are to be marked, how they are to be distributed in 
the United States, who is to be bribed, and who is to be 
murdered on a contract basis.
    Presently, most of those major decisions are being made 
outside of the United States. It makes our enforcement role 
quite difficult. The major organized crime syndicates today 
that we deal with are in Colombia, Mexico, and in Asia.
    In Colombia, there have been some significant successes as 
a result of very active enforcement, by DEA, the Justice 
Department, FBI, and probably a countless number of local law 
enforcement agencies within the United States where thecases 
were first developed, and some outstanding work by the Colombian 
National Police and the prosecutors in Colombia. That organization has 
effectively put in jail most of the leadership that thrived 
unchallenged for almost 15 years.
    The result has been that organized crime syndicates in 
Mexico have now become much more prominent. In their first 
arrangements, they merely acted as transportation groups for 
the organized crime out of Cali, Colombia. That has changed in 
the last three or four years.
    Now, polydrug organizations that deal in marijuana, heroin, 
methamphetamine, and cocaine have become, in our opinion, the 
most important and powerful mafias in the entire world. The 
major traffickers are listed again and again in the papers. I 
will not go through them redundantly. We know who the 
individuals are. We know who is involved in the leadership. 
They are indicted in many places within the United States and 
wanted on crimes that they've committed within the United 
States.
    I think it's important to note that much of the criminal 
activity that they direct and profit from are crimes that occur 
within the United States and affect the United States citizens 
either as victims of the drug trafficking or victims of the 
attendant violence.
    Like all organized crime syndicates throughout history, 
they use intimidation of decent citizens and corruption of 
public officials to further their goal. They have surrogate 
operations within the United States. The cell structure that 
was developed in a compartmentalized fashion by the leaders 
from Cali, has now been replicated by the groups from Mexico.

                       methamphetamine resurgence

    There are two substantial drugs that are somewhat different 
from the cocaine problem over the last 15 years. They are 
geographically distributed. The first on the West Coast of the 
United States is a massive resurgence of the drug 
methamphetamine, formerly distributed by outlaw motorcycle 
gangs on a fairly limited basis, and now by organized 
syndicates operating out of Mexico, into California and then 
across the entire United States.
    In Missouri, in Kansas, and in Arkansas we have a 
substantial methamphetamine problem that is not connected with 
the syndicates from Mexico. Instead, meth is produced in many 
rather small laboratories distributing to the rural and 
suburban areas of those states.

                           heroin resurgence

    On the East Coast of the United States, the drug of concern 
is heroin. We are seeing a resurgence in heroin's popularity. I 
will explain later some of the results of the purity and the 
new trafficking systems.

                               drug gangs

    The third level are violent drug gangs that have sprung up 
since 1985 with the development of crack cocaine and now 
methamphetamine.
    All of us in the United States are well aware of what has 
happened to many of our cities as a result of drug gangs who 
have either been shooting or killing competitors or, 
unfortunately, innocent citizens.
    For example, in 1993 and in early 1994 in San Diego County 
alone there were 26 homicides that resulted from competition 
over who was going to control the methamphetamine trade in 
California and along the border with Mexico.

                          drug overdose deaths

    There has been a tripling in the hospital room emergencies 
from the use of methamphetamine from 1990 to 1995; substantial 
increases in overdose deaths in Los Angeles, Phoenix, and San 
Diego, and major increases in laboratory seizures, not only in 
California, but Missouri, Iowa, and Arkansas.
    When I was working narcotics in 1965 in the streets of the 
City of Buffalo, heroin was often only 3 to 5 percent pure. We 
are now dealing with investigations where the heroin coming 
from South America, specifically Colombia, is 95 percent pure 
when it's brought into the country and when it's sold on the 
streets in the United States.
    It should be no shock that over 4,000 people have died from 
heroin overdoses in the last three years. Those are the highest 
mortality rates that we have ever experienced from an overdose 
of heroin. The emergency room admissions have doubled from a 
source that did not exist five years ago. Sixty-two percent of 
all of the DEA seizures and Customs Service seizures of heroin 
are from South America. This may not be indicative of the 
total, or reflect the distribution system in the United States, 
but it's gone from zero to about 62 percent, with Colombia 
being the main source of heroin.

                      southwest border initiative

    How do we address these problems in DEA? The first is a 
strategy where the DEA, the FBI, the United States Attorneys, 
and the Criminal Division have come together in a Southwest 
Border Initiative. I've always thought that the Southwest 
Border Initiative was a misnomer, with people thinking that the 
problem is only at the Southwest border.
    Really what it is, is the resources of all of these 
agencies, with strong support from the OCDETF program, have 
been focused on the major trafficking organizations at the 
closest point of contact with the United States, which is the 
Southwest border.

                    major trafficking organizations

    They are the four major organizations out of Mexico or 
Colombian organizations come through that point of entry into 
the United States. It really means that the same groups that 
come across the border, and the decisions that are made in 
Cali, Colombia and Mexico, are connected with the 2,500 kilos 
that we seized in New York City two weeks ago, with major 
groups operating increasingly from Mexico, Chicago, and in New 
York City.
    It is really an organized crime investigation that goes 
after the leadership just as we went after Carlo Gambino, Vito 
Genovese, and John Gotti. It is for the most part using Title 
III, court authorized wiretaps. Probably the prototype case 
that demonstrates how that works was one that we called Zorro 
II; that name being the nickname of the major trafficker which 
was utilized on the phone.
    We made 156 arrests and we were able to point a complete 
loop that started in Cali, Colombia and ended in Richmond, 
Virginia and Rocky Mount, North Carolina, completely controlled 
from outside of the United States; major seizures of narcotics, 
money, and the arrest of the leadership.
    It was an expensive investigation. It was over 103,000 DEA, 
FBI agent hours of casemaking; I suspect an equivalent level of 
support from attorneys of the Justice Department. I can't quite 
give you the figures on all of the state and local agencies. 
There were over 40 of them that worked with us on that project.

                        mobile enforcement teams

    The second area that we think has been effective and 
probably demonstrably of most concern often to American 
citizens is the violence associated with drug trafficking. We 
initiated three years ago, and with your support we have funded 
I think very well, a program called Mobile Enforcement Teams, 
where we in essence loan out teams of DEA agents, eight to 16 
at a time, to communities that are very concerned about 
extensive violence.
    Their role is to assist local law enforcement to make the 
arrests and to let the local law enforcement and the 
prosecutors, the sheriff, or whoever it might be, feel 
completely comfortable in inviting us in. They take all of the 
credit. We don't seek any publicity on it.
    To give you an example, we have already deployed 85 times 
with these teams. We have arrested over 2,577 people. 
Virtually, all of them are individuals who have some connection 
to violence in the community with random drive-by shootings. 
Even in the Rampart section of Los Angeles last year at this 
time, we worked with the City Police Department which had 
suffered major cutbacks in their narcotics units.
    This was the area in the City of Los Angeles that they were 
most concerned with. We moved in there. There were 412 arrests 
in a fairly short period of time. In fact, the people in the 
community were so thrilled over the fact that this has happened 
that they took up money to rent a billboard to thank the DEA 
and the ATF for what had occurred within their city.

                            heroin smuggling

    There are other operations that are very organized. We have 
groups who are involved in the smuggling of heroin, not only 
throughout the United States, but throughout the world. The 
last one was a case called Global SEA. We found a group from 
Nigeria that had come into the Chicago-Milwaukee area.
    Once the investigation started we found out that they were 
really a worldwide organization. Forty-four of the defendants 
and the operators of that organization have been arrested. We 
have disrupted something that we think was very dangerous in 
the United States.
    We don't think, like any people in law enforcement, that we 
are the sole or only answer to this problem. One of the lessons 
that I think we're learning in the United States is that law 
enforcement does work. I think if you look at the experience in 
New York, Houston, and Boston where very effective law 
enforcement strategies administered by usually local police 
departments with the assistance of the state and Federal 
government have really dropped the crime rate in the City of 
New York from an all time high of 1990 to the lowest rate since 
1969.

                   technology used byorganized crime

    Much of the activity in the area of aggressive law 
enforcement is in the area of drug law enforcement where we 
find that there are very often axes that cross one another. We 
have explained, and I know Director Freeh has continually 
stressed that we are now running up against organized crime 
syndicates whose technology and funding for technology is 
probably more extensive than any law enforcement agency in the 
United States other than the DEA or the FBI.
    They have encryption. They have special phones that have 
become very sophisticated and very difficult for us to 
apprehend. They continue to improve their technology. We think 
that we have to keep meeting these groups as they become more 
sophisticated and endanger the citizens of the United States. 
That's why you will see in our budget request direct attention 
to what we call the Southwest border. I would ask you to 
recall, that it really is an organized crime strategy against 
organizations that run throughout the United States.
    We are also requesting additional assets in the area of 
methamphetamine enforcement. We are adding funds to the heroin 
strategy, which is a multi-year strategy, along with some 
infrastructure needs and support people and laboratory 
reconstruction.
    I would answer any questions that you may have for me. 
Thank you.
    [The statement of Mr. Constantine follows:]

[Pages 705 - 723--The official Committee record contains additional material here.]


    Mr. Rogers. Thank you, Mr. Constantine. Director 
DiBattiste.
    Ms. DiBattiste. Chairman Rogers, Mr. Mollohan and Members 
of the Subcommittee I'm honored to be here today representing 
the United States Attorneys, the 4,453 Assistant United States 
Attorneys (AUSAs), and 5,054 support staff. I wish to thank you 
on their behalf for your continued support of our law 
enforcement mission.
    I'm also honored to be joined by my two colleagues on the 
panel and by United States Attorneys Joseph Famularo from the 
Eastern District of Kentucky and Bill Wilmoth from the Northern 
District of West Virginia.
    Mr. Rogers. We're delighted to have Joe and the other 
gentleman with us today. Joe is a friend of mine for many years 
past. He's a great lawyer. He's doing a great job in that 
district. You also have with you Lou DeFalaise with your office 
who is a former Eastern Kentucky U.S. Attorney. He is a long-
time friend as well. We are especially pleased to welcome them 
here.

    Director, Executive Office for U.S. Attorneys' Opening Statement

    Ms. DiBattiste. Thank you. I'll make a brief opening 
statement and submit a more detailed one for the record.
    The United States Attorneys' budget request is essential so 
that we can meet our commitments to the urgent matters of 
drugs, terrorism, organized crime, victim-witness assistance, 
and protecting the Federal Treasury.

                        partnerships/cooperation

    Today, you have asked us to focus on drugs. It's axiomatic 
to speak of the partnerships we share with Federal, state, and 
local law enforcement. That is a positive and effective 
partnership.
    Unfortunately, there is an equally strong and pernicious 
partnership that citizens and the law enforcement community are 
forced to confront daily; the partnership between narcotics and 
violence.
    The United States Attorneys have committed substantial 
resources to prosecute drug offenses and the violent crime 
often associated with drugs. Overall, a total of 42 percent of 
all criminal AUSA resources is spent on prosecutions involving 
violent crimes and narcotics.
    During fiscal year 1996, the United States Attorneys filed 
4,178 criminal cases against 8,291 violent offenders, and 
10,487 cases against nearly 21,505 drug defendants.
    We have a simple strategy to make our neighborhoods safe 
for our citizens. One, close cooperation between prosecutors 
and Federal, state, and local law enforcement; and two, tying 
that cooperation to tough Federal sanctions.
    This strategy allows us to leverage Federal resources and 
concentrate on breaking the cartels and pipelines while 
addressing drug dealing at every level with the strongest 
deterrence.
    Operation Zorro II exemplifies this strategy. From its 
entry at the Southwest border to cities as far away as Chicago 
and Richmond, 10 Federal and over 40 state and local law 
enforcement agencies, the Criminal Division and 10 United 
States Attorneys' offices took down an entire distribution 
network seizing some 5,600 kilos of cocaine, $17 million in 
currency and other assets, and ultimately arresting 150 drug 
traffickers.
    In Central California alone this year, ten of those 
arrested pled guilty and two were convicted at trial. Others 
are being prosecuted in a variety of state and Federal courts.
    AUSAs wrote more than 90 wiretap applications and orders in 
this OCDETF investigation, coordinating with law enforcement 
agencies across the country. These wiretaps, the wave of the 
future in the apprehension of sophisticated narcotics 
traffickers, are extremely labor-intensive, of great complexity 
and require enormous amounts of attorney time.
    The resources we have requested will increase these efforts 
that have such significant results. This cooperative strategy 
assures that heavy Federal penalties and advanced investigative 
techniques backstop local law enforcement and prosecutors as 
needed, while concentrating resources to go after organizations 
like that of Juan Garcia Abrego, convicted last year in the 
Southern District of Texas.
    Kingpin Abrego, using murder as a business tool, was 
responsible for distributing over 100,000 kilos of cocaine and 
22,000 kilos of marijuana in Texas, California, New Jersey, New 
York, and Florida. Our strategy also allows us to go after the 
flow of narco-dollars that are the driving force of the drug 
trade. Recently, in the Southern District of Texas, $7.9 
million in drug monies was forfeited from American bank 
accounts of the former Attorney General of Mexico, Mario Ruiz 
Massieu.
    Our strategy, by need, is highly flexible. Methamphetamine, 
a growing problem in the West and Midwest, has been met by the 
multi-disciplinary law enforcement effort announced by the 
Attorney General in September 1996. Meeting a resurgence of 
heroin in the Northeast, a New Jersey HIDTA task force working 
with DEA New York dismantled a large retail heroin operation 
responsible for numerous overdose deaths with 16 convictions in 
Eastern New York and additional cases in New Jersey.
    Marijuana, hashish, cocaine and crack, LSD, and designer 
drugs also remain significant problems that we continue to 
address. Last week, in just one case, two individuals were 
convicted in the Southern District of Florida for possession of 
6,000 kilos of cocaine on a freighter.
    We know that Congress is committed to ending this illegal 
flow of drugs and so are we. Our cooperative strategy, moving 
from investigation to imprisonment, was developed with your 
support. But the United States Attorneys need more to get the 
job done.
    Your support of our full 1998 budget request will let us 
keep pace in the battle to keep our neighborhoods safe, not 
only from drugs, but terrorism, violent crime, white collar 
crime, organized crime, and public corruption.
    It will also ensure the best services possible to those who 
become victims of crime, and the best possible representation 
of the interests of American taxpayers in defending the Federal 
Treasury. Thank you.
    [The statement of Ms. DiBattiste follows:]

[Pages 726 - 776--The official Committee record contains additional material here.]


    Mr. Rogers. Thank you. Ms. Warren.

Deputy Assistant Attorney General, Criminal Division, Opening Statement

    Ms. Warren. Thank you, Chairman Rogers, Representative 
Mollohan, and other Members of the Subcommittee.
    I want to thank you for this opportunity to testify in 
support of the fiscal year 1998 budget request for the 
Organized Crime and Drug Enforcement Task Force (OCDETF) 
program and the Criminal Division.
    At the outset, I would like to express the Department's 
appreciation for the increased drug fighting resources you have 
provided to the Department over the past years. As the 
Administration and Congress attempt to balance the Federal 
budget, the funding provided to the Department to fight drug 
trafficking has required very difficult policy choices. We are 
working hard to ensure that every dollar is well spent.

                     National Drug Control Strategy

    Last month, the President released the National Drug 
Control Strategy. The strategy encompasses five broad 
objectives. Three of those are accented by the OCDETF and the 
Criminal Division's work in this field. Those three are 
reducing drug-related crime and violence, securing our borders, 
and attacking the domestic and international drug trafficking 
networks.
    The 1997 National Drug Control Strategy and our 1998 budget 
request attempt to build on our past successes and seek to 
prepare for emerging and new drug trends as they appear on the 
horizon. If I could, I'd like to highlight the role of the 
OCDETF Program and the Criminal Division in this strategy and 
our budget request. For the Organized Crime and Drug 
Enforcement Task Forces Program, this has been a critical 
component of the Administration's drug enforcement strategy.
    It's the investigation, prosecution, and dismantling of the 
major drug trafficking organizations--those that work 
domestically and those that work internationally. Since its 
inception in 1982, the OCDETF program has gone after and 
focused upon the high-level drug organizations which have been 
the centerpiece of our attack.
    Time and again OCDETF, integrating the investigators, the 
prosecutors, the federal agencies, and their state and local 
counterparts, has been instrumental in dismantling these drug 
organizations. We believe the OCDETF model works in the urban 
centers, in the rural areas and in all places in between.
    OCDETF cases cross all categories and classes of drugs and 
target the major traffickers with ties to virtually every 
region of the globe. These organizations, the criminal 
organizations, that we attack are as sophisticated as the 
Administrator has outlined.
    They have state-of-the-art communications and 
transportation systems, and complex money laundering 
operations. They employ witness intimidation, violence, and 
bribery to achieve their ends. You've heard from the 
Administrator and Ms. DiBattiste about the Zorro II 
investigation. That was an OCDETF case.
    Also, the Global Sea case, the Nigerian heroin case, 
another OCDETF case that crossed many districts in bringing 
those traffickers to justice.
    Another example is the tunnel case out of the Southern 
District of California. Enrique Avalos-Barriga sought many 
ingenious ways to import tonnage amounts of cocaine into the 
United States, including digging a tunnel underneath the border 
and coming up in Otay Mesa, California. Mr. Avalos-Barriga has 
now been sentenced to life in prison, having been apprehended 
and prosecuted on that count. He's been ordered to forfeit $9.6 
million as a result.
    In the Central District of California, Operation Pacific 
Mariner involved the seizing and controlled delivery of 
hashish; 17.5 tons seized in the United States and kept from 
going into our stream of commerce, thanks to the work of the 
Los Angeles OCDETF group.
    In Kentucky, there have been some important OCDETF 
investigations of major marijuana and cocaine trafficking 
starting as far back as 1992 and continuing up to this day. We 
have proceeded against approximately 50 defendants who worked 
in an organization that brought cocaine and marijuana up from 
Mexico and then distributed it through the counties in 
Kentucky.
    These groups originally sought to fill the cultivation gap. 
When it was down time in the United States for growing 
marijuana, they brought marijuana in from Mexico. Those 50 
individuals have now been prosecuted and $640,000 seized, 
forfeited, and shared with local law enforcement as a result of 
that OCDETF case.
    We believe that the key to the success of these major drug 
trafficking cases was the exceptional inter-agency cooperation 
and coordination among the Federal prosecutors, and the Federal 
agencies, and they did this from the very beginning of the 
case, continuing through the arrest and prosecution of the 
defendants.
    The OCDETF agents and attorneys are investigating and 
prosecuting the upper echelons of international and domestic 
narcotics trafficking groups and are doing so in all districts 
of the country today.
    We acknowledge for this Committee that there has been a 
decline in the number--the sheer number--of OCDETF cases filed. 
However, the success of the OCDETF strategy, which focuses on 
dismantling organizations, cannot be reflected in the 
traditional number-counting of cases filed or defendants 
charged.
    Ms. DiBattiste mentioned the Juan Garcia-Abrego case. That 
was an OCDETF case; a seven-year investigation involving, as 
you heard, a tonnage of cocaine and manyhomicides. He was 
expelled by Mexico at the beginning of 1996 and prosecuted in Houston, 
convicted at the end of last year, and now has been sentenced to 11 
life terms plus additional years, and a forfeiture order of $350 
million entered against him.
    On a mere bare statistical tally, that would be one case, 
one defendant. Surely that's not reflective of the impact that 
that individual and his organization had on life in our 
communities.

                          OCDETF Restructuring

    I would like to advise you as well of our reevaluation 
program within OCDETF and the new restructuring of the OCDETF 
organization. This restructuring or redistricting of the OCDETF 
regions was intended to realign our enforcement efforts more 
closely with the drug trafficking patterns as we recognize them 
today.
    What might be of particular interest to the Chairman is, 
for example, the U.S. Attorneys in Kentucky, as well as those 
in Ohio sought to be sure that they were joined in a region 
that encompassed all of those along Interstate 75 that is the 
corridor for the transport of drugs from Florida up to Detroit.
    That request has been honored. We've brought those groups 
together. We believe that a strong regional approach to law 
enforcement strategies offers diversity of experience and 
expertise, greater resources to draw upon, greater flexibility, 
a better chance at avoiding duplication of effort and a chance 
to formulate regional, if not national strategies against the 
threat and to anticipate the next threat.
    Now that the OCDETF program has undergone this reevaluation 
and is restructuring, there is a substantial momentum to 
implement and execute the program's primary objectives more 
effectively than ever before. We seek funding levels that 
recognize the value of the OCDETF approach and its renewed 
momentum.

                      Cooperation Between Agencies

    Briefly, if I may turn to the work of the Criminal 
Division, under the leadership of the Attorney General and in 
close coordination with the United States Attorneys, DEA, FBI, 
and the other Federal, state, and local investigative agencies.
    The Criminal Division provides guidance and direction at 
the national level in drug policy, investigations and 
prosecutions. For example, the Administration's National 
Methamphetamine Strategy, in which the Department's Criminal 
Division took the lead, offers a recent example of the 
Division's role in formulating and directing our policy in our 
fight against drug trafficking and abuse.
    On an operational level--again, in close cooperation with 
the U.S. Attorneys' Offices, the DEA, FBI and others at their 
Special Operations Divisions--we coordinate and support the 
prosecution and enforcement of the Southwest Border Initiative. 
The Division serves as the focal point in the Department for 
international law enforcement matters, a critical element in 
our strategy--international trafficking groups.
    The Criminal Division attorneys also provide first level 
review in the Federal death penalty cases. Many of those, of 
course, are drug-related death penalty cases. Criminal Division 
attorneys actively participate in coordinating with the Federal 
Government to work together to try and bring fugitives from 
justice across national borders and to our courts, and to 
gather evidence from afar to present in our judicial 
proceedings.
    I would like to conclude by expressing again the 
appreciation of the OCDETF Program and the Criminal Division 
for the support this Committee has demonstrated for our drug 
fighting activities. Stemming the level of drug trafficking in 
this country is a top priority for the Administration and the 
Department.
    We believe our 1998 budget request provides an opportunity 
to strengthen and expand our efforts in this area. Thank you.
    [The statement of Ms. Warren follows:]

[Pages 780 - 805--The official Committee record contains additional material here.]


                                 Mexico

    Mr. Rogers. Thank you. I thank all of you for your 
statements. Administrator Constantine, it's widely believed 
that at least two-thirds of all drugs entering this country 
come through Mexico. Virtually all heroin produced in Mexico is 
destined for the U.S. market.
    Cultivation of opium poppy increased from 1995 to 1996. The 
majority of cocaine smuggled into the U.S., even though it 
originates in Colombia, Bolivia, and Peru is believed to 
transit through Mexico. Mexico is also the number one foreign 
supplier of marijuana to the U.S.
    In view of that, last Thursday the House adopted a 
resolution that would overturn the President's certification of 
Mexico as fully cooperating in the drug war, unless within 90 
days the President reports to us that he has obtained 
assurances of progress with Mexico to: authorize additional DEA 
and other law enforcement agents for drug control operations in 
Mexico; authorize the carrying of firearms for self-defense; 
eliminate law enforcement corruption in Mexico; commit to 
extradite Mexican nationals; allow aircraft overflight and 
refueling rights; and allow the Coast Guard to halt traffickers 
in Mexican waters.
    You have been the lone Administration official to speak out 
about the problems that DEA agents face with the corruption 
going on officially in Mexico. You testified before the House 
Government Reform and Oversight Committee that official 
corruption in Mexico is so widespread that, ``There is not one 
single law enforcement institution in Mexico with whom DEA has 
an entirely trusting relationship.''
    Last year you told us that you agreed with Ambassador 
Gelbard that Mexico was ``fully cooperating.'' We didn't agree 
with you then, but I commend you for speaking out this year. 
The President certified Mexico as ``fully cooperating'' on 
counter-narcotics efforts with us in spite of the following:
    The Army General serving as their Drug Czar, General 
Gutierrez Rebollo, was just arrested on bribery charges after 
ten weeks on the job. He had received hours of briefings from 
us on very sensitive information. There is a very deep concern 
that he may have passed that information onto the drug 
kingpins;
    Two weeks later, another Army officer, Colonel Jose Felix 
Rodriguez, was detained for his alleged role in the release of 
a suspected money launderer, the brother of a recently 
convicted drug lord of the so-called Gulf Cartel;
    This past weekend in a high profile civil trial in Houston, 
Texas, a jury found that $9 million confiscated by the U.S. 
from the former Deputy Attorney General of Mexico and the 
former Drug Czar in Mexico, Mario Ruiz Massieu, had come from 
drug traffickers' bribes; and
    Yesterday, a Mexican Army Brigadier General was arrested on 
charges that he offered a multi-million dollar bribe to a top 
Mexican law enforcement official on behalf of a notorious drug 
cartel.
    The Dallas Morning News today reports that Mexican 
authorities have threatened to expel DEA agents if we decertify 
Mexico. Now, in your view, is Mexico fully cooperating with us, 
with you, in the War on Drugs?
    Mr. Constantine. Well, what I've said, Congressman, on that 
issue is I've avoided saying whether they should be certified 
or decertified, even if it means getting into the euphemisms of 
``fully cooperating'' which is the language of the law as I 
understand it.
    What I have said through all of the hearings that I've 
testified at is to assess the power of these organized crime 
syndicates in Mexico, which I alluded to this morning. I think 
I was fairly direct on how powerful they've become and how 
they've used intimidation and corruption to influence law 
enforcement.
    In my testimony before the House Committee under oath, what 
I indicated was that there are four major law enforcement 
institutions in Mexico that you could conceivably deal with. 
One would be the Mexican Federal Judicial Police which, in the 
opinion of the Government of Mexico, has become so contaminated 
by corruption that it has been replaced by the military.
    The second would be their DEA, which is the INCD. That was 
the organization that General Gutierrez was in charge of. One 
thing I would correct for the record is we did not provide him 
with any sensitive briefings. When he came with the Attorney 
General of Mexico, the new Attorney General, he got a very 
general briefing not unlike the one we gave to the House 
Committee.
    It appears now that General Gutierrez had access to every 
investigation, not only that occurred during the ten-week 
period of time that he was there, but also those that his 
predecessor, Francisco Molina-Ruiz, had turned over to him on 
every investigation that the INCD had ongoing, either 
independently or in conjunction with DEA or any other agency.
    It's our assumption, and I think it's a correct one, that 
all of that information has been compromised. We first saw in 
the paper yesterday morning the arrest of a second General, 
which I think is indicative of the level of wealth and power 
that these people will use to corrupt institutions.
    The newspaper report indicates that the General was offered 
$1 million a month not to take law enforcement action in the 
Baja. And if he did not accept the bribe, then his own family 
would be placed in physical jeopardy.
    Mr. Rogers. The question is are they fully cooperating?
    Mr. Constantine. With the law enforcement aspect, with us 
and DEA? No.
    Mr. Rogers. And you told the Attorney General that?
    Mr. Constantine. Well, any conversations I would have with 
the Attorney General would be private.
    Mr. Rogers. Well, she told us you said that.
    Mr. Constantine. Okay.
    Mr. Rogers. So, she broke it open. If she can tell us that, 
surely you can.
    Mr. Constantine. Well, whenever I deal with people and 
offer information, I keep it confidential. If they want to say 
it, that's fine.
    Mr. Rogers. Well, I admire you for that. But the truth is 
you told her not to do this; didn't you?
    Mr. Constantine. Well, I didn't say not to do anything. I 
gave an assessment just like I gave you about what the law 
enforcement institutions are.
    Mr. Rogers. I know what you said. She told me what you 
said. And in spite of this enormous impact that Mexico is 
having on the United States, by far the most serious impact of 
any nation on Earth on drug problems in our country; in spite 
of that impact the President says they're fully cooperating 
with us. And what every law enforcement official in this land 
knows is that it's the major problem with drugs in this 
country. Is that not correct?
    Mr. Constantine. Well, I wouldn't comment on what the 
President said. What's happened was that the arrest of the 
people in Cali, Colombia, had a very significant effect. We're 
now starting to see more and more of what has happened as a 
result of those arrests, which I think proves the premise that 
going after the leadership can be effective. What happened is 
that they lost a lot of their ability to conduct their 
operations internationally.
    We see replacement groups from Mexico who are becoming more 
involved in drug trafficking. Presently, it is our opinion that 
the organized crime systems out of Mexico are the most powerful 
in the world. That I would say.
    Mr. Rogers. Many people think that we are being invaded 
today. Our borders are a sieve that drugs are flowing through, 
almost at random, across the border and mainly from Mexico.
    We are sustaining severe damage as a country because of 
this invasion of narcotics from off-shore and people carrying 
those narcotics--including aliens carrying narcotics. It is a 
very dangerous weapon. Yet, in spite of that, the leader of our 
Nation in effect is saying that we have no problem with Mexico, 
when the highest official in their government in charge of 
preventing drugs from coming into this country was arrested for 
a bribe, among others.
    For the life of me I can't see what's going on here. Is 
doing business with Mexico, the commercial business that we 
have with Mexico, so important that we would sell the very 
lives of our children for it? Have you ever thought about that?

                        Law Enforcement Strategy

    Mr. Constantine. Well, I think questions about trade and 
economics and foreign policy would be far afield from my 
discipline. What I've tried to do is focus totally on the law 
enforcement issues, how serious I think it is, how serious I 
think it is to American citizens and American law enforcement 
officials, and the difficult problem that we face when we try 
to go after the leadership.
    Virtually every law enforcement strategy that I've been 
involved with since I started in 1960 only works if you're able 
to take the leadership out. I've testified numbers of times 
that I always thought the leader in that was Robert Kennedy 
when he was the Attorney General of the United States. 
Organized crime in the United States had been unchecked, 
untouched until such time as he started a personal crusade to 
go after the leadership and then we wound up with protective 
witness statutes. We eliminated corruption in law enforcement.
    I think for the law enforcement aspect of this drug 
problem, and there are certainly a lot of other areas of 
prevention and discipline, but in the law enforcement aspect, 
if you can't bring the leadership to justice for the crimes 
that they have committed against any number of citizens, either 
with Colombia and the United States or Mexico and the United 
States, the strategy becomes a very limited one for law 
enforcement purposes.

                          DEA Agents in Mexico

    Mr. Rogers. One of the most critical issues for DEA agents 
in Mexico is the authority to carry firearms for self defense. 
An article in Sunday's New York Times suggested that issue 
remains at an impasse. In fact, the article quotes a senior 
foreign ministry official in Mexico as saying, ``North American 
drug officials say to us, just let us alone to do whatever we 
want in Mexico. That's ridiculous. We're not going to allow a 
bunch of Rambos to overrun our country.''
    As I also said, today's Dallas Morning News reports that 
Mexican authorities have threatened to expel DEA agents if we 
decertify Mexico. What do you think about those statements?
    Mr. Constantine. Well, I think the comment that the DEA 
agents working down there are a bunch of Rambos is a totally 
inappropriate comment. That's not the role that our people 
perform. Let me give you a little background on this because I 
think some of it is confusing to people.
    We have a number of people who are assigned in Mexico 
attendant to the embassy functions. It varies. It's about38; 
the maximum number. We feel that they have adequate protection and have 
had adequate protection historically and to the present. Last year, in 
an attempt to find some way to share important, and sometimes 
sensitive, information with law enforcement in Mexico, a concept was 
developed of three bi-national task forces which would be in the areas 
of power of the criminal organizations; one, in the Brownsville, 
Matamoros area; one in the Juarez, El Paso area; the other one in the 
Tijuana, San Diego area.
    As conceived, the task forces were to have 50 agents from 
their DEA, the INCD, three or four U.S. DEA agents, one FBI 
agent, and one Customs agent. They were then to decide on joint 
targets and sharing of information. There were a number of 
bureaucratic hurdles that had to be accomplished. Some of them 
have been resolved and some of them haven't.
    Beginning this summer we started to witness what we thought 
was an extraordinary number of assassinations of leading law 
enforcement officials in Mexico who were involved in the anti-
drug activities. We don't know what the reasons were, but it 
was obvious that there was a connection to the activities of 
either the commandants or prosecutors in going after these drug 
lords.
    We simultaneously started to receive substantial credible 
threats against DEA agents who were traveling into Mexico every 
day for these task forces on a predictable basis. We looked to 
find what types of protection they would have for their own 
personal safety, in the area of some type of a diplomatic 
immunity. There was none.
    We had requested this be looked at and some type of 
protection be granted. I did this confidentially. Quietly, 
there was apparently a reaction from the Government in Mexico 
that thought this was inappropriate and that those protections 
should not be available.
    That issue is still, as I understand it, being discussed. 
Back around November or December, the FBI and the Customs 
Service felt that it was so unsafe that they pulled their 
people out of the task force and did not allow them to go into 
Mexico. We continued for about a month and a half to see if 
there would be some resolution.
    I then interviewed most of the agents and most of the 
supervisors to see what their feeling would be. It was the 
unanimous view of every one of the supervisors and agents that 
we should leave there until such time as we've had the adequate 
protection.
    The role that our DEA agents get involved in is not to be 
Rambos. They're young kids. They believe that they can make you 
and me safer. They travel into these environments, sometimes at 
great personal risk, to provide information that we may have 
available about drug traffickers from Mexico in the United 
States or vice-versa, so that we can have joint investigations 
that would occur between the two nations.
    As to the fact of either DEA being thrown out of Mexico or 
a request that we would be replaced with another Federal 
agency, I suspect that, that is a direct result of my sworn 
testimony before a House Committee in the United States 
Congress.
    Mr. Rogers. To what effect?
    Mr. Constantine. There is a sense that I should not have 
said those things about Mexico and law enforcement in Mexico. 
And as a result of my comments and sworn testimony, there is a 
threat apparently to remove DEA agents from Mexico, either 
completely or to replace them with some other Federal law 
enforcement agency.
    We've received a number of calls on this issue. The sources 
are anonymous. I can't tell you what the validity of it is or 
is not.
    Mr. Rogers. What would be the impact of taking your agents 
out of Mexico?
    Mr. Constantine. The ability to have cooperative 
investigations and to be able to focus on the leadership of the 
criminal organizations would be impossible. Obviously at the 
present time, we've had difficulties on the issues surrounding 
the integrity of our counterparts. But it's my hope, and I 
think the President of Mexico and the Attorney General have 
indicated that they're committed to coming up with systems now 
and developing systems in the future.
    I realize this is a very difficult task. I am not an enemy 
of Mexico. I'm an enemy of criminals and always have been. As 
these systems would be developed you would need to have some 
type of contact between our two nations. The criminals in 
Mexico or Colombia can pick up a phone and tell their 
emissaries what to do in Queens or in Chicago.
    If you now do not allow law enforcement to have that same 
degree of cooperative communication, I think that the effort 
would suffer greatly. I'm trying to determine in my own mind, 
after all of these years, given the level of criminal activity, 
given the level of impact, how DEA has become the enemy in this 
thing and become the flash point.
    I find that very uncomfortable. I'm a policeman. I'm not 
involved in politics. I've never been involved in politics 
domestically or internationally. I think it creates an 
environment that's very unsafe for my people. I've become 
increasingly concerned when I see these types of comments.
    Mr. Rogers. The President is going to meet with President 
Zedillo next month. What would you have him do?
    Mr. Constantine. Well, as I mentioned to the Attorney 
General, those types of conversations would be 
confidential,Congressman, that is, any comments that I would have on 
this subject.
    Mr. Rogers. Well, would you want this on the table down 
there; the problems that DEA agents are having?
    Mr. Constantine. I would suspect that it already is on the 
table in many venues in this city and in Mexico City.
    Mr. Rogers. Mr. Mollohan.

                DRUG PREVENTION/LAW ENFORCEMENT PROGRAMS

    Mr. Mollohan. Thank you, Mr. Chairman. I'd like to join the 
Chairman in welcoming the panel today. I appreciate Mr. 
Constantine, Ms. DiBattiste, and Ms. Warren your testimony 
here. I also would like to join the Chairman in welcoming our 
U.S. Attorneys from Kentucky and from West Virginia.
    Bill, it is very nice to see you here. It gives me an 
opportunity to publicly express appreciation for your hard 
work. We intend to continue supporting that, the Chairman, 
myself, and this Committee, I can assure you.
    The first thing that really occurs to me to do in this 
hearing is to compliment our panel and the organizations that 
they represent for the tremendous jobs you're really doing in a 
number of areas, but certainly in this area of drug 
enforcement. It's a difficult job.
    My sense is that each year you are marshalling the 
resources, the tools you need to do a good job in this area. 
You're coming before the Committee and requesting what you 
need. Your budget reflects your awareness of needing additional 
tools. I know I join the Chairman in being pleased to support 
those requests, in large part.
    I also want to compliment the way you are executing. I am 
particularly impressed by the efforts of Ms. Warren. I guess 
you're in the business of cooperation. It particularly applies 
to my sense of increasing cooperation among law enforcement and 
the prosecutorial arm to approach this in a very coordinated 
way. Your testimony would reflect that it's really paying off 
to do that.
    I'm just curious in hearing you all talk about how we're 
doing in the war against drugs. Your testimony reflects that 
the problem is growing. It's changing. One year Colombia seems 
to be the big source of the problem. The next year 
circumstances change and Mexico comes to the fore as the focus 
of your attention. And they have tremendous problems that 
they're trying to manage there right now because of the 
leadership changes that you have described.
    What percentage of this problem do we get at each year 
through law enforcement efforts? Are we gaining on this? Are we 
falling behind? When do we start gaining, if we're not? Tom, do 
you want to begin?
    Mr. Constantine. Well, I think we start gaining through 
prevention programs. We're able to convince the American 
people, especially young American people, not to use drugs like 
they are in increasing numbers. I think anybody in police work 
will tell you that we can do certain things. We can bring some 
order into chaos. We can reduce some violence.
    If you have such a huge demand situation, what you wind up 
with is the unique situation in that the product is over-
produced for the demand. There is really no real relationship 
between the price of production and the price of distribution. 
It is very unlike the situation of manufacturing a motor 
vehicle and it's going to cost you so much for steel, so much 
for labor, and so much for transportation. The mark-up is so 
huge in the narcotics industry, that they're not hurt in such a 
way that we can affect the price or purity. There is almost 
competition to become more pure at a lower price.
    Unfortunately, that type of competition becomes unhealthy 
for American citizens. I think we can show substantial places 
where we have improved the quality of life through law 
enforcement, especially drug law enforcement, domestically in 
the United States.
    I think we can point to community after community where you 
have a local police, DEA or the FBI, a local prosecutor and a 
U.S. Attorney who becomes aware of a particularly vicious group 
of predators who have destroyed individual neighborhoods and 
entire communities.
    The resources available to us are unavailable to a Chief of 
Police in Buffalo or to a Chief of Police in Salt Lake City or 
in many of the major cities where we can provide that focus, 
those assets, and that money and to arrest a trafficking group. 
You can significantly point, Congressman, to a reduction of 
violence, murders, robberies, assaults in those areas.
    I think you can point to some success in taking down 
domestic distribution systems fairly effectively. It took from 
1985 to 1995 to eventually get all of the cases and all of the 
things lined up correctly to be able to take the leadership out 
of Cali, Colombia.
    Is there a transit of drugs through Mexico? Yes, because 
they were available. Their disorder becomes an asset for our 
investigations. Lesser people are put in as replacements.
    If you'd look at the situation right now, I mean, the 
organized crime in the United States goes from the old movies 
of Lucky Luciano and Anthony Anastasio to Vincent Giganti 
walking around Greenwich Village in a bathrobe as head of the 
mob in the United States. I mean, there has been a tremendous 
improvement.
    That took 30 years of sustained efforts of enforcement 
officers and prosecutors. So, from an enforcement aspect, 
Ithink, yes, you can improve the quality of life in the United States. 
For the overall use of drugs in the United States I think those are 
areas beyond law enforcement.
    Mr. Mollohan. So, at the end of the day, say, it's a market 
problem for this country.
    Mr. Constantine. That's correct.

                                 MEXICO

    Mr. Mollohan. The Chairman was expressing the frustration 
that I think everybody, feels about Mexico. I would like to 
understand. Are there any good guys in Mexico? Are there any 
silver linings down there? Is there any reason for hope in 
dealing with Mexico?
    Mr. Constantine. I believe so. First of all, even despite 
all of the beatings I take in the press here and in Mexico, I 
am not anti-Mexican. I am anti-criminal and anti-corrupt 
policemen. If they were in Milwaukee or Chicago, I would still 
have the same feeling about criminals and corrupt police 
officers.
    You have a Mexican President who has made a commitment. 
I've said even though the General was there and was arrested, 
that was an arrest made solely by the Government of Mexico, 
which I'm sure took some degree of thinking and courage.
    Now, should people have known his background? Should he 
have been in there? Those are other issues. The new Attorney 
General, Madrazo, has a good record in the human rights area. 
I've met him. He appears to me to be very sincere in trying to 
establish some joint cooperative law enforcement ventures where 
they can feel comfortable about the integrity of their own 
institution.
    I think that is positive, somebody wanting to do something. 
What you really have is a raid against each other right now. As 
I've said, of the most powerful organized crime syndicates 
maybe in the world, Cali was always the best. Traffickers in 
Mexico come fairly close. You have a law enforcement 
institution or institutions that have become dysfunctional in 
many ways because of corruption. Now, those aren't my 
statements, by the way. Those are the statements of the leaders 
of the Government of Mexico. I think it's a realistic 
assessment.
    I also know friends of mine who've been chiefs of police in 
tough corrupt operations in cities in this country. It takes 
them five or six years of heartache to straighten it out. So, I 
think it's a long haul. But I think you have to start someplace 
and I'm willing to try that.
    Mr. Mollohan. In other words, you have a police community 
who all of a sudden is dealing with far more sophisticated 
organizations, organizations that have successfully corrupted 
the police organizations. Are you suggesting that the President 
of Mexico is corrupt?
    Mr. Constantine. I don't know him personally.
    Mr. Mollohan. What do you consider the President of Mexico 
to be in this regard?
    Mr. Constantine. Well, he appears to me to be taking it 
very seriously.
    Mr. Mollohan. And not to be corrupt?
    Mr. Constantine. He is sending signals that these 
corruption issues are extremely important to society.
    Mr. Mollohan. And you're describing the Attorney General of 
Mexico in the same favorable light?
    Mr. Constantine. I've met the Attorney General twice now. 
He's been in position three months. From all that I've heard 
about this man, he is honest and wants to do the right thing.
    Mr. Mollohan. Ms. Warren, would you like to comment?
    Ms. Warren. If I could just add, there are a few other rays 
of hope that I would ask you to consider. There were some 
advances last year--many urged upon the Mexicans by the U.S. 
Government and by our law enforcement officials and Justice 
representatives.
    They enacted a new organized crime law that now makes 
criminal money laundering for the first time. It provides for 
asset forfeiture. In addition to that and of great importance 
to us, was the enacting of legislation that gives them 
evidence-gathering authorities that they didn't have available 
to them before.
    Mr. Mollohan. Who is the ``them?''
    Ms. Warren. The Mexican Law Enforcement. For example, now 
they have court-authorized electronic surveillance. It was the 
Justice Department officials and DEA working together that 
convinced the Mexican authorities that they needed such 
capabilities and legal authority in order to go after the 
leadership and to build cases against more than just the 
``mules'' who were caught with the drugs.
    So, that was a step forward. They now have a witness 
protection program and plea bargaining, for the first time, so 
they can move up the ladder in a prosecution. In the area of 
extradition, in 1995 we had only five extraditions from Mexico. 
In 1996, we had 13, included among them for the first time ever 
was a Mexican national and one dual national--someone who 
claimed both Mexican and U.S. citizenship. Those were advances. 
We're certainly not satisfied, but we have to mark those as 
changes for the better.
    Mr. Mollohan. Were those changes, were they concurred in or 
effected by a legislative body or were they by executive order?
    Ms. Warren. The extraditions are by the courts and 
executive order, often overriding what the courts have done as 
a matter of fact. The legislative changes, the evidence 
gathering and the new laws, are the legislative body.
    Mr. Mollohan.  So, that would suggest that there is some 
broad-based concern and consensus that Mexico has to address 
that problem, if the legislature has agreed to these reforms. 
Am I correct?
    Ms. Warren.  Yes, I believe you are. Those reforms were 
enormous. Not only did they require a legislative change, but 
also a constitutional change. Electronic surveillance was not 
possible under their constitution. They had to amend the 
constitution plus enact the laws. So, it was broad-based 
support.

                            dea laboratories

    Mr. Mollohan.  Mr. Constantine, I have a couple of budget 
oriented questions here. Could you talk about the condition of 
your labs and what funds are needed in that regard?
    Mr. Constantine.  DEA has eight laboratories which were 
constructed in the 1960s-1970s era when obviously the narcotics 
problem was, by reflection, much more simple. Now there are 
many environmental laws pertaining to operation of a 
laboratory.
    The situation has changed greatly by Federal law and state 
law. Along with the caseload we've had the Corps of Engineers 
come in and they've taken a look at our laboratories and have 
established a plan for DEA. Originally it was for a three-year 
period, but in looking at it, we're looking at probably a five-
year period for rehabilitation of all of these labs, and 
working with virtually a lease/purchase arrangement with GSA.
    It was $1.5 million last year. I believe we have $4 million 
in this year's budget to add to the expenditure of the $1.5 
million. Then in the outyears I think it's $6 million or $7 
million per year. We will eventually have all of the 
laboratories meeting the accreditation standards for the health 
and safety of our personnel.
    We already have an internal accreditation standard for 
quality control and evidence. But there is some concern about 
the level of safety and our ability to deliver products. I 
mentioned to you the methamphetamine problem. There is 
virtually an explosion in the number of methamphetamine 
laboratories throughout the United States. So, we have to have 
special teams go there in a safe fashion to dismantle a 
methamphetamine laboratory--it's unlike cocaine or heroin. You 
can't say it is methamphetamine or amphetamine right away.
    You often have to seize the material, get it back to a 
laboratory, get it analyzed, prove that it is either 
methamphetamine or amphetamine or precursors in various stages. 
Then you get that information back to a U.S. Attorney for an 
eventual arrest warrant. All of these home-grown labs have 
created a fairly dramatic caseload for the laboratories.

                            narcotics cases

    Mr. Mollohan.  Talking about caseloads, Ms. DiBattiste, you 
are requesting additional resources for narcotics cases. Could 
you talk to us about your need and perhaps relate that to the 
percentage increases of the caseload from the activities of the 
DEA and the FBI?
    Ms. DiBattiste.  Yes. I think that also ties into the 
question you asked Mr. Constantine earlier on are we making a 
difference. In the drug area, as well as many other areas, U.S. 
Attorneys and the prosecutors are making a difference.
    Mr. Mollohan.  I'm sorry not to ask you to have commented 
on that.
    Ms. DiBattiste.  Oh, that's quite all right. We look at it 
two ways. One, how do we tell we are? Are we taking out the 
major organizations? Our mission is two-part. Are we working 
closely with the state and local law enforcement so we can 
clean-up the streets of the United States in addition to 
targeting some of our major drug trafficking organizations?
    As you can see by our numbers alone, and that's not the 
only indicator, but consistently, we again this year, the U.S. 
Attorneys have tried more drug cases. We think with more 
resources, we can put more of the bad criminals in jail. Can we 
get all of them? Probably not.
    But we believe in the narcotics area, as well as the other 
areas where we've asked for resources--terrorism, organized 
crime--we believe that it will allow the U.S. Attorneys to do 
more. The prosecutors are ready. Cases are one thing to look 
at. The other thing, and I wanted to point this out to you 
earlier, are the communities.
    How are the communities reacting? How are the local 
neighborhoods reacting? I can give you countless accounts from 
United States Attorneys, whether it's through their Weed and 
Seed programs, or whether it's citizens putting a billboard up 
in Los Angeles thanking the DEA and the ATF for helping to 
clean-up their communities.
    That's the impact we have at ground level. That's only 
anecdotal, but I hear from U.S. Attorneys every day telling me, 
whether it's in D.C. through their community prosecution 
program where they're going into neighborhoods and making a 
difference. It's the citizens that are coming back and telling 
the U.S. Attorneys, you're making a difference in the 
neighborhood working with local, state, and Federal law 
enforcement. So, that, coupled with the cases, shows we're 
making a difference. With more resources, could we do more? 
Yes.
    Mr. Mollohan.  We'll come back to the caseload issue. I 
thank you, Mr. Chairman.
    Mr. Rogers.  Mr. Kolbe.

                                 mexico

    Mr. Kolbe.  Thank you, Mr. Chairman. Mr. Constantine, I'd 
like to follow-up on a couple of the questions that were asked 
by Mr. Mollohan with regard to Mexico. I'm really very puzzled 
about the Administration's position with regard to Mexico. We 
had our own little struggle here in theCongress last week with 
regard to the certification based on the President having sent a 
certification to Mexico.
    He indicated he was certifying Mexico as being cooperative 
on drugs. We, as you know, had a somewhat different approach, 
although it got modified in the end. At the same time we were 
casting that vote, it was reported that your Deputy 
Administrator in the Miami Herald said, ``There is not one 
organization, not one group in law enforcement within Mexico 
that we've been able to work with and have total trust in.'' He 
went on to say, ``We've not seen any enforcement initiative 
that has been successful in Mexico in recent times.''
    If indeed that is true and that represents the position of 
the Drug Enforcement Administration, which I assume is a part 
of this Administration, does this not seem to contradict the 
President's suggestion of certification?
    Mr. Constantine.  Well, Congressman Rogers asked me a 
number of questions on this.
    Mr. Kolbe.  I'm sorry. I was out. I had to go see some 
people.
    Mr. Constantine.  I have made a practice not to--and I 
think it's for me as a career law enforcement official an 
appropriate one, not to say who should be certified or de-
certified. There are a whole host of issues that enter into 
this, Congressman. We at DEA do not get involved in 
eradication, or deal with legislation, deal with issues that 
the State Department deals with as to whether or not countries 
have been successful or not.
    The comments of my Deputy Administrator track very closely 
with my testimony before one of the House Committees and a 
Senate Committee, which first laid out what the threat is to 
the United States from organized crime and the leadership in 
Mexico.
    Secondly, we base our recommendations on our looking at the 
investigations we're involved in. We also look at the comments 
of the Government of Mexico. There are really philosophies, and 
strategies by the Government of Mexico indicating that the 
major institutions have been so seriously corrupted by the drug 
traffickers that the Government of Mexico has replaced them 
with the military which is, I would imagine in any society, 
kind of a dramatic step.
    The decisions that are eventually made after we give our 
comments on what we see in law enforcement, come from a whole 
host of other agencies in this town. Once we've given our law 
enforcement advice, we give it candidly. I give it privately 
and publicly. Then those decisions are made and then we carry 
on with whatever we have to do.
    Mr. Kolbe.  Well, then aside from the fact that they seem 
to contradict the Administration with regard to certification, 
if indeed it is true that there is no agency in Mexico that is 
trustworthy or honest, why do you continue to function down 
there? Why do you continue to make an effort?
    Mr. Constantine.  Well, there has been, number one, 
commitments and promises by the President and the Attorney 
General of Mexico that they are going to develop some 
institutions. The fact that they have arrested high-ranking 
Generals is indicative to me that some people in that 
government are willing to make some very tough decisions.
    There are several units, one, a classified unit that I 
wouldn't discuss in an open session, where we are working with 
them to develop a resource for us to deal with. The bi-national 
task forces were originally supposed to be groups of people 
that we could deal with in a trusting relationship.
    They have been obviously placed in jeopardy because they 
reported to General Gutierrez who has been obviously arrested 
for corruption with the leading traffickers. Two, the Attorney 
General, the Deputy Attorney General of that country would 
indicate to me that they want to rebuild those task forces.
    I think we have to stay engaged, Congressman, in some 
fashion because the criminals and the criminal organizations 
are one seamless continuum as I see it crossing the borders of 
three nations. We need to stay engaged in working with 
counterpart agencies, and hopefully we will see progress in the 
future. It's going to be a long time. It will be long after I'm 
here, that they develop something.
    I think to disengage and to break off would eliminate any 
communications. I think that would probably not be to the 
benefit of the citizens of the United States.
    Mr. Kolbe.  I think I would agree with you on that. It 
would seem to me then that if indeed you're going to stay 
engaged, there must be somebody you're engaged with down there 
and there must be somebody you feel that you can work with.
    You say that you have not seen any enforcement initiative 
that has been successful in Mexico, I mean, what enforcement 
initiative would you point to in this country that really has 
been successful if the measure of success is reducing drug use?
    Mr. Constantine.  Well, reducing drug use is really a 
function of demand and prevention, both of which are beyond our 
parameters in law enforcement.
    Mr. Kolbe.  Not at all of supply? You don't think it is 
kind of a three-pronged effort?
    Mr. Constantine.  Yes. But I think what I explained and I 
don't know if you were in the room, is that traffickers 
overproduce cocaine and heroin and methamphetamine. The 
production cost has no relationship to even the wholesale or 
retail cost. The ability to somehow affect price and purity as 
a supply strategy I think is very, very difficult, if not 
impossible.
    I think you can point again and again in the United States 
and in places outside of the United States where law 
enforcement institutions had an effect. I think Italy is one 
example. Thailand is another where organizations were built to 
go after organized crime and continued to go after the 
leadership of organized crime and eventually improve the 
climate of life in those areas.
    I mean if corruption and intimidation continued to rule the 
day, then it would be impossible for an average citizen in the 
United States or Mexico to come forward with information or to 
have confidence in their law enforcement institutions.
    So, continuing to go after criminal organizations that are 
powerful I think is a responsibility that we all have as 
citizens. The idea of going after individuals who injure us 
goes back to the beginning of civilization. I think that in and 
of itself is a goal that is necessary for all of us, no matter 
what country we're from.

            explosion of methamphetamine and designer drugs

    Mr. Kolbe.  One other question for you. You mentioned, and 
there have been a lot of articles recently about the explosion 
of methamphetamine and designer drugs in the United States, 
particularly in some of the Midwestern states. I'm just 
wondering how does your budget and the efforts of your agency 
target this drug which can be produced very readily.
    It is produced domestically. It is not internationally 
produced. It is produced domestically and can be done in 
numerous, numerous places. You don't have to have a 
sophisticated operation to do that. What do you think the 
answer to targeting that is?
    Mr. Constantine.  Well, there are two major methods of 
distribution and manufacture. One, which is the predominant one 
that would affect your state and the Southwest and most of the 
Northwest and the Rocky Mountain states and the Midwest is 
controlled from outside of the United States. Those are 
individuals from Mexico who control the importation of either 
ephedrine into the United States as a precursor drug for 
manufacture by their emissaries who they send into the United 
States to manufacture, or as a manufacture in Mexico and 
smuggled across the border and sold in the United States by 
distribution systems that are organized just like the cocaine 
and heroin distribution systems.
    In some areas in the Midwest, specifically, strangely 
enough, Missouri, Arkansas, and Kansas, there is very low level 
manufacturing of a pound or two at a time for distribution that 
does not need any international connection. They are the lesser 
of the amount of methamphetamine that's utilized.
    We have a substantial increase in this budget and have been 
able to dedicate groups in all of those areas of the country 
that are adversely affected to go after the criminal 
organizations as well as to go after the laboratories. Our 
seizure of laboratories is up almost 200 percent in the last 
year as we go over the laboratory statistics.
    But that's not the end of the case for us. When we hit the 
laboratory, we look for all of the telephone records. We look 
for all of the notebooks. We look for all of the license 
plates. We then take that forward into an organized crime 
investigation, often a Title III wiretap, to go back and find 
out who are the individuals who have smuggled 100 pounds or 200 
pounds of ephedrine into Arizona or into California; usually 
into California. Where do they manufacture? Who are the 
individuals responsible? Then with the assistance of the U.S. 
Attorneys in the various districts throughout the United 
States, we get indictments against those who reside in America.
    The leadership, the two leaders of this, the Amezcua 
Brothers in Mexico, we have indicted them repeatedly in the 
United States. The question is having them arrested, I think, 
and brought back to face a jury of the peers of the people who 
they've injured.
    Mr. Kolbe.  Okay. Thank you, Mr. Chairman.
    Mr. Rogers.  Mr. Skaggs.

                                 mexico

    Mr. Skaggs.  Thank you, Mr. Chairman. Good morning. I 
apologize for not being here for your opening statements. I 
hope I won't cover territory you've already covered.
    If I understand the nub of things in your mind, Mr. 
Constantine, it is until we can successfully get at the 
corruption of Mexican law enforcement and judicial officers, 
we're going to be swimming up-stream in the context of what we 
can get done in that jurisdiction. Is that the central issue 
right now?
    Mr. Constantine.  The central issue is organized crime 
syndicates. The central issue is the control of the narcotics 
distribution inside of the United States which is controlled by 
very powerful organized crime syndicates whose leadership 
reside in Mexico. We know who they are. We know where they do 
business. We know who their organization representatives are in 
the United States. We can produce evidence. We can have the 
U.S. Attorneys indict them. We can arrest them, convict them, 
and we can have an effect, but it becomes limited because any 
time you do an organized crime investigation, you have to 
really get the leadership.
    In this country we used to waste our time getting bookies. 
What stands in the way of our getting to the leadership is the 
lack of solid, strong, law enforcement institutions in Mexico 
that could replicate what we do in the United States.
    Mr. Skaggs.  So, it's the coherent, consistent rule of law 
within Mexico that is the missing link in being able to----
    Mr. Constantine.  That's one of them. Yes.
    Mr. Skaggs.  Okay. In your opinion will we best further the 
objective of a coherent rule of law with non-corrupt 
authorities in Mexico by a de-certification decision with 
waiver or a certification decision?
    Mr. Constantine.  I have pointedly again and again said 
that I don't think it's appropriate for me, especially as a law 
enforcement official, to comment on whether a country should be 
certified or de-certified. I think those are public policy 
decisions that shouldn't be made by law enforcement executives.
    We can give our best advice as to what we do on the 
criminal issue. What's going to produce results in other 
countries I think is somewhat beyond the capacity of someone in 
law enforcement.
    Mr. Skaggs.  Is it a combination of your not feeling 
comfortable expressing an opinion or feeling that the question 
of what best serves that ultimate objective involves areas in 
which you don't claim to have competency?
    Mr. Constantine.  Both. I know I don't claim, and other 
people who've known me would claim it also. I don't have those 
particular skills or background. I think any advice I give in 
that area----

                   bottlenecks in the judicial system

    Mr. Skaggs.  I just thought I'd try. Turning now to your 
colleagues, we've talked about supply and demand. Do we have an 
excess demand for judicial and prosecutorial services beyond 
the supply that the Justice Department is able to provide? Do 
we have bottlenecks in the judicial side of the system after 
law enforcement does its job and, if there are bottlenecks 
there, are we adequately addressing them in the 
Administration's budget?
    Ms. DiBattiste.  I wouldn't--I don't think I am qualified 
to comment on bottlenecks in the judicial system. But I will 
tell you what I said to Congressman Mollohan earlier. The high 
volume of cases coming into U.S. Attorneys' offices requires 
more resources to deal with all of them.
    The U.S. Attorneys are working very, very closely with 
state and local law enforcement. Some of the cases go state and 
local. The U.S. Attorneys' strategy is to take the more serious 
and more significant cases. But the volume that's coming in, if 
you would want to call it the supply----
    Mr. Skaggs.  I'm calling that the demand. Your U.S. 
Attorneys and courtrooms are the supply. Is that supply 
adequate to meet that demand?
    Ms. DiBattiste.  No.
    Ms. Warren.  Also, from the Criminal Division's point of 
view that we are working with the U.S. Attorneys to try and 
provide a strategic reserve when there are additional 
litigators necessary.
    Beyond that, for instance, in the Southwest Border 
Initiative, working to help coordinate those cases to work more 
effectively and efficiently in a training program along with 
the investigators to show how we can do Title IIIs faster and 
more efficiently so that each Assistant U.S. Attorney is doing 
lots more work than they were doing before because we are 
working at a more efficient rate. The Criminal Division needs 
those additional resources to continue in that as well.

                         domestic drug problem

    Mr. Skaggs.  Just one thing in closing, Mr. Chairman. Mr. 
Constantine, I think I heard you in various ways with your 
comments in response to earlier questions make the fundamental 
point that the solution to this problem ultimately is in the 
domestic demand for drugs. And until we change U.S. domestic 
behavior in this regard, you all can do your best, but it will 
ultimately not be up to the task.
    Mr. Constantine.  Well, I think the solution to the 
narcotics problem in the United States is obviously when the 
United States citizens decide to stop using drugs. I entered in 
law enforcement when the use of drugs in this country was 
minuscule by comparison and very limited, and I have seen it 
evolve over the objection of many of us in law enforcement to a 
predictable drug culture that began in the 1960s and 1970s.
    We in law enforcement were criticized for saying that this 
was on the horizon unless we started to take some strong stands 
on the drug issue, both in prevention and ensuring that people 
adhere to higher standards. I think that unfortunately has 
played out. I've witnessed that sadly.
    I think eventually the United States is the wealthiest 
country in the world, the freest country, how we get from this 
area in the last 35 years is mystifying to me, both in the area 
of violence and in the area of crime and drug use. It will only 
improve when we as a society stop being so violent to one 
another and stop using drugs.
    Mr. Skaggs.  Thank you, Mr. Chairman.
    Mr. Rogers.  Mr. Dixon.

                lack of concentration on drug prevention

    Mr. Dixon.  Thank you very much, Mr. Chairman. I'd also 
like to welcome the two ladies and Mr. Constantine.
    I am somewhat concerned about what I would call a narrow 
law enforcement perspective. Although you indicate that 
prevention and education, I believe, are a part of the drug 
strategy, you don't see your role, as a law enforcement agent, 
in the prevention business. Is that correct?
    Mr. Constantine.  Well, we play somewhat of a role first of 
all by having demand reduction programs in each office. We try 
to get involved in community activities such as the Boys and 
Girls Clubs and Explorer Scouts. We sponsor any number of those 
events.
    Mr. Dixon.  Right. It isn't as narrow as the----
    Mr. Constantine.  No. It's not that narrow. We have 3,800 
agents to staff all of the United States and all of the world, 
and every day coming into each office are citizens complaining 
about drug trafficking in their neighborhood, or their city, or 
state. By trying to respond to all of those requests, we're 
really extended to the limits just in doing the enforcement 
aspect.
    Mr. Dixon.  When you look at the national drug strategy for 
1997, it would appear that only 10 percent of the $15 billion 
is being directed toward prevention and treatment programs 
combined. I would assume that you disagree with the 
distribution of that money.
    Mr. Constantine.  I wouldn't agree or disagree with the 
distribution. We have problems sometimes when we get into this 
roller coaster idea of funding where we decide one year we'll 
fund one of the so-called three-legged stool area. Next year 
we'll take funds away from that for another program. I think if 
you're going to do it, you enhance the program generally, not 
at the cost of the other functions that you have.
    Mr. Dixon.  I just want to have a dialogue about this. As I 
look at the back tables on page 240, and from your testimony 
today you indicate and the tables indicate that over a 
sustained period of time the price of cocaine has come down and 
the purity has gone up.
    Mr. Constantine.  Correct.
    Mr. Dixon.  So, what can you say about that as it relates 
to interdiction and law enforcement issues?
    Mr. Constantine.  Two things. As I indicated before, the 
relationship of the price is very artificial in narcotics. It's 
over-produced for the demand probably almost 2:1 or 3:1, 
depending on how successful the interdiction is.
    As far as the enforcement effort, we often see people in 
the community coming to us saying ``my community is being held 
hostage by drug traffickers and my kid can't go to school--can 
you do something about the problem? ''
    We feel a compulsion to try to solve that person's problem 
and arrest the individuals who are distributing the drugs. That 
may not affect the price or purity of drugs in that community 
and the nation as a whole.
    If we see international distribution systems, people who 
ship tons of cocaine into the United States, we think that the 
injury that results from that really cries out for somebodyto 
bring those people to justice rather than to make $10 million, $20 
million, live in big estates when the average working person tries to 
survive day-to-day.
    So, our objective as a law enforcement institution is to 
bring to justice people who commit crimes and injure others. 
The ability to affect price and purity in the drug trafficking 
I think is difficult if not impossible because of the over 
production. There is no relationship to the price of a kilo of 
cocaine in Los Angeles today to what it takes them to grow it, 
manufacture it, and transport it.
    Mr. Dixon.  I guess what I'm asking is, does this table 
support the proposition that prevention and treatment is 
ultimately a key solution to this problem, because regardless 
of the interdiction and the enforcement, regardless of what the 
forces have been, the purity has gone up and the price has come 
down.
    Mr. Constantine.  Yes, Congressman.

                               corruption

    Mr. Dixon.  Mr. Kolbe said in his statement that in Mexico 
``there were no institutions that were not invaded by 
corruption.'' I believe you alluded to some classified 
information. Would you agree or disagree with the statement 
that there are no institutions that have not been corrupted?
    Mr. Constantine.  I think what he was alluding to came from 
my testimony before the House which stated that there is no 
civilian law enforcement institution in Mexico with whom we 
have an entirely trusting relationship. That was the exact 
phrase. It was worded for a specific purpose.
    Mr. Dixon.  I'm interested in this, as I know the Chairman 
is. We've had discussions about the War on Drugs. I believe 
we've discussed what ``fully cooperating'' means, which is a 
very ambiguous term.
    He cited a series of arrests recently and he asked at the 
end of that about the term ``fully cooperating.'' In your 
experience would more arrests or fewer arrests be an indication 
that there was cooperation?

                                 mexico

    Mr. Constantine.  You mean arrests of individuals in 
Mexico? Are you talking about criminals or government 
officials?
    Mr. Dixon.  Government officials. For instance, you used as 
an example Mr. Gutierrez who had only been there, I believe, 
ten weeks. You said that it took an amount of courage to arrest 
him.
    Mr. Constantine.  That's correct.
    Mr. Dixon.  Would you like to see more arrests of people in 
high positions or fewer arrests?
    Mr. Constantine.  What I would like to see is every corrupt 
person who is a law enforcement official in a profession that I 
believe in, be arrested.
    Mr. Dixon.  Right.
    Mr. Constantine.  I think if you have a corrupt law 
enforcement official they should not be in that position and 
they should be in jail because they have abused their 
authority. These are the estimations of the Government of 
Mexico.
    Mr. Dixon.  Right.
    Mr. Constantine.  Obviously, that would mean that many of 
them would probably be arrested in the future if you're going 
after corruption.
    Mr. Dixon.  If we look toward full cooperation what that 
means is that we will probably see more arrests.
    Mr. Constantine.  It very well could.
    Mr. Dixon.  Now, you indicated that the Mexican traffickers 
have matured in their sophistication because of a crackdown in 
Colombia.
    Mr. Constantine.  Organized crime systems and leadership 
have long been poly-drug smugglers into the United States. 
These groups that we're dealing with have a history that goes 
back 20 or 30 years.
    Mr. Dixon.  Right. And there was corruption at that point 
in time.
    Mr. Constantine.  At various levels.
    Mr. Dixon.  Right, but it's really matured more now that we 
have been successful in Colombia.
    Mr. Constantine.  What happened, Congressman, was when we 
were I think substantially effective on the East Coast of the 
United States in reducing the drugs coming into the United 
States in that method, the groups from Cali, Colombia who were 
the most sophisticated the world had ever seen, went to the 
drug smugglers from Mexico and said, in essence look, we need 
access to the United States.
    If we bring the cocaine to Mexico, would you smuggle it 
into the United States and turn it over to our Colombian 
organized crime operatives in the United States? They said yes. 
And they charged them $1,000 per kilo. At some point in time I 
think a light must have gone off when they looked and saw how 
much the groups from Cali were getting.
    So, the first change became, never mind the $1,000 a kilo. 
If you bring ten tons into Mexico, you give us five and we will 
deliver your five into Los Angeles. We'll deliver our five into 
Chicago. So, we wound up with two very, very similar criminal 
organizations bringing drugs into the United States.
    We are starting to see the effects of the major arrest and 
incursions in Colombia. For the first time, within the last 
three months, we see major organized crime from Mexico 
operating in the New York City Metropolitan area distributing 
tons of cocaine into that particular market and bringing it 
back.
    So, I believe that they learned a great deal from the group 
from Cali. They learned how to use technology. They 
compartmentalized it. They now have become the replacement 
group. Maybe not quite, the level of the organized crime from 
Cali, but because of their disruption, the most powerful in the 
world today.
    Mr. Dixon.  But the corruption did not start with this new 
phenomenon.
    Mr. Constantine.  No. There has been a history. There is so 
much money that is available. The figures, if they're true, in 
the paper yesterday from the Government of Mexico said that the 
General who was arrested yesterday was offered $1 million a 
month in the Baja merely to look the other way. I mean those 
numbers to me are astounding.
    Mr. Dixon.  Now, what are some of the things you would like 
to see the Mexican Government do, or do more of? Is making more 
arrests one of them?
    Mr. Constantine.  Probably the most important is the 
development of very solid law enforcement institutions, both 
from a basis of integrity, and competence, and professionalism 
to conduct these investigations.
    The second would be--I'm not always persuaded by the 
numbers of arrests, but the arrests of the right people in 
leadership.
    Mr. Dixon.  In your opinion, have they been moving on and 
arresting the right people?
    Mr. Constantine.  Not at this point in time. I mean the 
individuals who lead these organizations are known full well 
and have been indicted repeatedly in the United States. They've 
already been identified as criminals and have been indicted on 
evidence provided for them. They have not been located, 
arrested, and brought to justice.
    Mr. Dixon.  Well, let me explore that. You are talking 
about those who are trafficking in drugs?
    Mr. Constantine.  Right.
    Mr. Dixon.  I was talking about law enforcement people. Do 
you think the arrest of Mr. Gutierrez was significant?
    Mr. Constantine.  Yes, sir.
    Mr. Dixon.  And other arrests of military people or 
personnel within the government structure?
    Mr. Constantine.  I think it's significant from two 
perspectives. One is that the decision was made to arrest them 
and to bring them to justice. The second is that you have a 
high ranking General in the military force who had become so 
corrupted.
    Now, we know of another General today, and the number two 
person in a former Administration in Mexico. I think these are 
indicative of the pervasiveness of the corruption and the power 
of the syndicates.
    Mr. Dixon.  And finally, Mr. Chairman, Ms. Warren, we're 
leaving on Friday probably. Could I get on your calendar 
between now and Friday, Ma'am?
    Ms. Warren.  I would look forward to that.
    Mr. Dixon.  Thank you.
    Mr. Rogers.  Mr. Latham.
    Mr. Latham.  Thank you very much, Mr. Chairman. First of 
all, I have a distinct pleasure here today. We have about 20 
students from my district, from Storm Lake, South O'Brien, and 
Paulina, Iowa. If there is any question to the importance of 
the discussion today just to look in the audience and find a 
bunch of great kids who are potentially going to be adversely 
affected by the influx of drugs. It's become a major, major 
problem in my district.
    Mr. Rogers.  If the Gentleman would yield.
    Mr. Latham.  Yes.
    Mr. Rogers.  Would you have them raise their hands so we 
can see who they are?
    [Hands raised.]
    Mr. Rogers.  We're glad to have you with us. We're glad 
that Mr. Latham saw fit to have you invited here. Now, are 
these Hawkeye fans?

                       drug use by nation's youth

    Mr. Latham.  The students should be aware that the Chairman 
is from Kentucky who beat Iowa last weekend. Fortunately, he 
did not have to face Iowa State yet.
    I very much appreciate Mr. Constantine's testimony about 
some of their successes. I guess it relates back to the young 
people we have here. I am deeply troubled by the skyrocketing 
drug use in the past four years in our youth. There is over a 
50 percent increase in drug use. I think we're losing the 
battle.
    There is really a question of leadership on that issue and 
role models. A part of it obviously concerns a lot of families 
today and the make-up of families too. I think we have to take 
a step back and realize that as leaders we've got to set very 
high standards and examples for our youth.
    I've seen the budget, Mr. Constantine. There is an increase 
of $11 million for methamphetamine which has become a huge 
concern in my district. We've had labs being built in the 
district. We seem to have a direct pipeline with the border and 
the Southwest.
    There is about $8 million for enforcement and another $2 
million for laboratory support. I would like to know if there 
is a rural component. Northwest Iowa is very rural. I'd like to 
know what affect that's going to have.
    Mr. Constantine.  We have looked at Iowa. It was 
interesting that you mentioned that, Congressman. It was 
difficult for us to understand at first because we started to 
look especially around Des Moines at a tremendous increase in 
methamphetamine, both in overdoses and hospital room 
admissions.
    As we looked at it we think it's fairly clear that it is 
related to the migration of workers, mostly legal. Maybe some 
illegals followed and then the drug traffickers kind of masked 
themselves in that community in the meat packing industry.
    We had the same problem in Garden City, Kansas. What we've 
done is we've looked at that as one of our priorities. We will 
be doing two things. We will be increasing the personnel 
assigned to Iowa generally as a State, because it has become 
very significant to us in the area of drug enforcement, and 
then secondly working with the State, city, and local police.
    We have a quad-city task force that we've begun in looking 
at Des Moines. I've talked with the individual who was, I 
believe, your drug czar. And the Director of your training 
academy called me about a month or so ago. He was a former U.S. 
Attorney, I believe, and indicated a need for assistance.
    So, our Midwest division along with a newly--funded group 
which will bring more to that area is going to focus agreat 
deal on the methamphetamine problems in Iowa because it stands out 
uniquely.

                      COOPERATION BETWEEN AGENCIES

    Mr. Latham.  I appreciate that very much. Some of the 
students here are from Storm Lake. There was a cover story in 
U.S. News and World Report last fall about combining illegal 
immigration with the drug trafficking and the increase in crime 
in Storm Lake. It is a huge issue as far as we're concerned.
    We have a drug task force in Sioux City which has been 
quite effective. We have had a problem in the past, and I think 
we've solved that. We had a problem with a missing component 
with INS being involved. I'd just like to have you comment as 
to the importance of the cooperation between all agencies in 
the Federal Government, the state and local government.
    Mr. Constantine.  Well, Congressman, I started off as a 
deputy sheriff. I spent 34 years with the State Police in New 
York. So, I've been very active in a number of Chiefs 
organizations throughout the country. So, my relationship to 
state and local enforcement organizations, and the fact that 
many of my mentors and probably most of my success in life is 
due to a lot of people from law enforcement throughout the 
United States who assisted me.
    I also have to tell you that I work for an Attorney 
General, Janet Reno, who emphasizes to me again and again the 
need to do that. That is probably one of her number one 
priorities in my dealings with her. The relationship between 
the FBI, Director Freeh and myself, has been outstanding under 
Janet Reno's guidance. The former turf battle seems to have 
disappeared. I get the same degree of cooperation from U.S. 
Attorneys throughout the United States.
    Mary Lee and I talk virtually once a week. She is the lead 
on most of the drug issues. So, I can't tell you what it was 5, 
10, or 20 years ago. But I have to tell you something. In my 37 
years in law enforcement it's probably one of the most 
cooperative groups of people that I've ever worked with.
    Ms. Warren.  Across the Federal lines and really the way we 
work best is Federal, state, and local all together--
prosecutors and investigators. Those are our best cases and our 
real successes. When you mentioned the INS and how important 
their role was here, the Attorney General, particularly in the 
methamphetamine area, wanted to be sure that INS was involved 
in the methamphetamine strategy, involved in the implementation 
of that strategy.
    Mr. Latham.  Well, we're very fortunate I think to have a 
very cooperative task force in Sioux City especially with the 
addition of an INS agent which was the real missing link. Some 
of the same concerns we have in Storm Lake or Des Moines occur 
because the industries we have seem to be attracting a lot of 
illegal aliens into the area.

                           YOUTH USING DRUGS

    Maybe going back a little bit to the question or the 
concern I have about the increase of youth using drugs. 
Regarding public service announcements, how effective are they? 
Is that the way to go?
    Mr. Constantine.  Probably, in my opinion, the group of 
individuals who have the most credibility in this area is the 
Partnership For a Drug Free America, a group of very talented 
people from the advertising industry. In the mid-1980s they 
really were active after the death of the basketball player Len 
Bias.
    We were able to convince people to get involved in 
communicating this message, not at 3:00 a.m. in between some 
type of satellite program, but when it really means something 
for the people who would be involved. I've talked with them 
again and again.
    They point to the fact that they were able to get out into 
not only advertising, but in the national media outlets on 
prime time, negative stories about the effects of drugs on 
citizens of the United States.
    Uniquely, they point out that it was the Persian Gulf War 
that was one of the reasons why that message was lost. As they 
explained it to me, when that was occurring for almost eight or 
nine months, the first 15 minutes on every news outlet dealt 
with our troops and the situations they faced in the Persian 
Gulf and that left a limited window for all of the other news 
stories. There was a dramatic reduction.
    I think we had made such significant strides in the 
reduction of casual use that we may have been comfortable to 
think that we had won the battle. Now we look and we see that a 
new generation may have lost that message.
    I was impressed with the budget request for the new drug 
strategy. I think it was $175 million to be matched by $175 
million for advertisements that would reach people. ABC has 
been committed to anti-drug issues for the month of March.
    It had very significant stories for a whole week running 
about the drug issue in the United States and the impact of 
young people. It was done in a very balanced fashion. It wasn't 
a scare tactic, but it was reality. I think those types of 
things are very, very helpful in the prevention aspect of it.

                      MANDATORY MINIMUM SENTENCES

    Mr. Latham.  Just one last question. We've had an effort 
here to have increased mandatory minimum sentences and coming 
down much tougher on people that participate in drug 
trafficking and sales. How much effect do you think that's 
having? Do you agree with that strategy?
    Mr. Constantine.  Well, in the communities where I worked 
throughout New York State and the individuals who are 
responsible for selling drugs, one of the major issues was to 
differentiate between the user and possession of use, and 
people who are either selling drugs for a profit or possess a 
significant amount of drugs with evidence that they're going to 
sell it. I think what happens is that the community comes to 
you and says, look, would you please do something about this 
individual or a group of individuals who are destroying our 
town or village or city.
    You involved yourself in a major investigation for a long 
period of time. You are able to identify them and arrest them, 
and with good prosecutors, bring them to a conviction. If in 
effect there isn't some sanction for what they've done then 
they have profited from it, and they return to the community 
brazen.
    What happens is that the people feel very threatened and 
complain to you over the fact that they have advised you of the 
situation yet nothing meaningful is done about the problem. If 
you look at the experience in New York City, I think it is a 
laboratory for everybody to learn from.
    Look at the crime rate in 1990 in that city, and I can give 
you the figure. It was 2,200 homicides in that city in 1990. It 
was one crime that changed that, and that was the death of a 
kid from Utah going out to the tennis open in Queens. After his 
murder, they hired 7,000 more policemen. They had major 
prosecutions.
    The arrests almost went up 50 or 40 percent. The violent 
crime rate in that city against a lot of odds has dropped 50 
percent. Last year there were 988 homicides in that city which 
means that there are roughly over 1,300 people today as we sit 
here who are either in school or at work or home with their 
children who wouldn't be there if there had not been strong 
enforcement action taken against people who commit crimes.
    Mr. Latham.  Thank you very much, Mr. Chairman.
    Mr. Rogers.  Thank you, Mr. Latham. Thank you for bringing 
with you the wonderful folks from your great state. Glad to 
have you with us.

                       COLOMBIA/MEXICO SITUATION

    Now, Mr. Administrator, let me get this straight. In 
response to Mr. Dixon, I think you were saying that formerly 
the Colombians had their own distribution network here and made 
all of the profit from that operation. But they were getting 
burned by us up here.
    So, are you saying that they've gotten smart. They're 
saying let's stay out of the U.S. because that's where we get 
burned. We can get almost as much money if we merely wholesale 
the product to Mexicans and then let them take the heat for 
distributing it in the U.S. Is that generally what you're 
saying?
    Mr. Constantine.  Well, they don't obviously advise us of 
their strategies or how they're going to do anything, nor would 
I want to give them advice on how to avoid getting in trouble. 
Virtually, every single major drug trafficking case starts in 
the United States and is built outward.
    So, when you come to the United States is when you become 
most vulnerable. Up until three or four years ago, every major 
investigation that we had of cocaine trafficking in the United 
States went to a group from Colombia primarily from Cali, 
Colombia.
    In other words, when we did a wiretap, we did an arrest or 
seizure in a money laundering case, we would find people from 
Colombia had been hired by the Rodriguez Orejuela Brothers or 
Santa Cruz Londono to operate in the United States. We now see 
major organizations similar to that but they're controlled by 
Carillo Fuentes, or the Arellano Felix Brothers.
    We don't believe that there has been any significant major 
increase in cocaine users that would build a second system of 
distribution. So, we feel that they have now replaced many of 
the existing Colombian organizations in the United States which 
would indicate to us that what you said is perhaps a strategy 
whereby it could be sold wholesale and then left at the 
wholesale level.
    That would be very similar to the way Southeast Asians have 
distributed heroin in the United States, which is a brokered 
rather than a linear type of organization.
    Mr. Rogers.  If that's true and you're correct, and I think 
you probably are, then the huge amounts of money coming from 
the retail operation in the U.S. are going first to the 
Mexicans who then pay the Colombians for the supply. At any 
rate there are huge amounts of money now flowing through Mexico 
to Colombia corrupting a system which has historically been 
weak. Is that a fair assumption?
    Mr. Constantine.  Well, I would not say that we've seen a 
major reduction of money going to Colombia. We still see many 
of our major money laundering investigations involve money 
going to Colombia. We also see a significant amount going to 
Mexico. We know that in the Colombian organizations, I've 
talked with General Serrano a number of times and the 
informants that we've had.
    When a plane would land in Colombia with $30 million U.S. 
cash, the drug traffickers would keep $15 million and the other 
$15 million would go for the corruption of police officers or 
public officials in Colombia. If the organizations in Mexico 
have replicated so many of the other aspects of what they learn 
from the organizations from Cali, I assume they're probably 
doing the same thing, or close to it.
    Mr. Rogers. In Mexico.
    Mr. Constantine. Correct.
    Mr. Rogers. To Mexican officials.
    Mr. Constantine. That's correct.
    Mr. Rogers. And this has occurred, as you've suggested, 
almost in a two or three-year, or four-year span; right?
    Mr. Constantine. That's correct.
    Mr. Rogers. So, all of a sudden, we're seeing Mexican 
officials bombarded with enormous amounts of money. And to them 
this money would be much more than it would be here because of 
the lower standard of living in Mexico, correct?
    Mr. Constantine. Well, the dollar figures I mentioned are 
astounding from any perspective. The fact that a general would 
be offered $1 million a month to look the other way is--I've 
never heard of figures like that before.
    Mr. Rogers. Well, this suggests to me that there must be a 
much larger picture that we have to tackle. I mean this is a 
systemic problem. We will not be able to stop them at the 
border. That's just physically impossible. So, how do we 
disrupt this new phenomenon that has taken place over the last 
three or four years?
    Mr. Constantine. Well, we can do it much like we did with 
the organizations from Colombia. One advantage that we have is 
we have the model built. We have U.S. Attorneys who know how to 
do this. We have FBI agents, DEA agents and technology. So, we 
have the ability to go after an organization. It was not 
apparent to us when we started the cocaine traffic how to do 
this.
    We were treating it on a piecemeal basis case-by-case, 
individual-by-individual. All of that has changed. So, the 
infrastructure in the United States for enforcement is much 
more sophisticated than it was ten years ago. We just expanded 
our targets to include criminal organizations from Mexico.
    Mr. Rogers. The source countries are still Colombia, Peru, 
and Bolivia, correct?
    Mr. Constantine. Peru and Bolivia for the cocaine and 
Colombia for the manufacture of it.
    Mr. Rogers. What you're going after in Mexico are the 
middle men?
    Mr. Constantine. Correct.
    Mr. Rogers. Shouldn't we also be going with equal fervor or 
perhaps even more at the source country?
    Mr. Constantine. We are doing that simultaneously.
    Mr. Rogers. We've not talked about that here much today. 
How are we doing in the source country war?
    Mr. Constantine. Those countries I think have become very 
cooperative, very helpful. Peru specifically has been very 
helpful in working on source country situations. From a law 
enforcement perspective, the Colombian National Police and the 
prosecutor have become very, very cooperative, a very heroic 
people in many cases in going after traffickers either with us 
from information that we are able to provide or unilaterally on 
their own part.
    Mr. Rogers. Let's see now. Did I recollect, didn't we de-
certify Colombia?
    Mr. Constantine. Yes, sir.
    Mr. Rogers. And you're getting good cooperation there?
    Mr. Constantine. The problem in Colombia has been the 
elected leadership, the President and numerous public officials 
who have been accused of or convicted of corruption.
    Mr. Rogers. We've de-certified Colombia because of some 
corrupt national officials?
    Mr. Constantine. That's my understanding, Congressman.
    Mr. Rogers. Well, wouldn't that work other places? Do you 
think if we de-certify a nation that is corrupting our kids 
because some national officials are corrupted that it could 
inspire them to cooperate with us? Isn't that a pretty good 
pattern to follow?
    Mr. Constantine. Well, they have become very cooperative. I 
have to say that the police from our perspective are some of 
the more effective, and that's really a sea-change in a three-
year period of time.

                              extradition

    Mr. Rogers. Have we ever extradited anybody from Colombia 
here on a drug charge?
    Ms. Warren. No, not under the current constitutional regime 
in Colombia. From the United States to Colombia?
    Mr. Rogers. No. Extradited from Colombia to the U.S. for 
U.S. trial?
    Ms. Warren. No Colombian national under the current 
constitution. They have expelled a few third country nationals 
to us. We have extradition requests for kingpins awaiting a 
decision by Colombia. They have been there for eight months 
awaiting a decision on our extradition request.
    Mr. Rogers. But they have never agreed to extradite a 
single drug person, a drug charged person, to the U.S. for 
trial?
    Ms. Warren. Correct--at least not under the current 
constitution.
    Mr. Rogers. What about Mexico?
    Ms. Warren. They extradited six on drug charges last year.
    Mr. Rogers. On drug charges?
    Ms. Warren. Yes. Now, those were not Mexican nationals. The 
Mexican national that they extradited was on a child 
molestation charge. The dual national was on a murder charge.
    Mr. Rogers. Has Mexico ever extradited to the U.S. for 
trial on a drug charge a Mexican national?
    Ms. Warren. Not yet.
    Mr. Rogers. The answer is never?
    Ms. Warren. No. The answer is that's correct, never.
    Mr. Rogers. How many extradition requests are currently 
pending with Mexico?
    Ms. Warren. We have a total----
    Mr. Rogers. On drug charges.
    Ms. Warren. On drug charges. I would have to get back to 
you on that.
    Mr. Rogers. You've got an estimate. Is it in the hundreds?
    Ms. Warren. No. Pending requests, we have a total of 134. 
Those are state law murder charges, as well as our narcotics 
and other federal charges. As of March 3, 1997 sixty-four 
requests are active on narcotics-related charges.
    Mr. Rogers. Mexican nationals on drug charges?
    Ms. Warren. Of those sixty four narcotics requests, 
fourteen are for Mexican nationals. The others are third-
country nationals.
    Mr. Rogers. How long have they been pending, the longest of 
them?
    Ms. Warren. I will have to get back to you on that.
    Mr. Rogers. You've got an estimate. Give me an estimate, a 
rough figure.
    Ms. Warren. For example, one of the extradition requests 
that we would like honored more than any other is the 
extradition of Amado Carrillo Fuentes. He has yet to be 
apprehended. They have had that for about a year, but he has 
not yet been apprehended.
    Mr. Rogers. He is one of the four kingpins.
    Ms. Warren. One that we want to prosecute in the United 
States.
    Mr. Rogers. Let me get this straight. You have some 60 odd 
extradition requests pending with Mexico on drug charges for 
U.S. trial, that you have had for a long, long time. They have 
never extradited a single Mexican national on drug charges for 
trial in the U.S. Based on that record of extradition, do you 
consider that they're fully cooperating with you in the drug 
war?
    Ms. Warren. Let me just respond in terms of the 
extraditions. We would like that relationship improved 
dramatically and are working, I hope, toward that.
    Mr. Rogers. That wasn't the question.
    Ms. Warren. Also, I just need to clarify the basis of----
    Mr. Rogers. We're running short of time.
    Ms. Warren. I'll be quick. On the extradition requests for 
Mexican nationals for drug charges, there are none that I know 
that have been apprehended that have not been extradited. They 
need to be arrested first down there.
    Mr. Rogers. Well, I mean that's like saying kindergarten 
precedes the first grade. But they've never extradited anybody 
period. Do you consider them fully cooperating with you?
    Ms. Warren. We have had--I don't want to answer the 
question directly in terms of certification. I think I've 
voiced my opinion on the extradition relationship.
    Mr. Rogers. In the King's English and without using those 
magic words ``fully cooperating'' which have now become an art 
form of themselves, are they in any fashion cooperating with 
you?
    Ms. Warren. Yes, certainly in any fashion. I remarked 
before on the extradition numbers and on the change in 
legislation. Those are important changes. There need to be many 
more. The bi-lateral task forces is a major focus for us.

                              war on drugs

    Mr. Rogers. Now, Mr. Administrator, I want to talk to you 
briefly here about the span of time and the War on Drugs. We 
talked about source country enforcement; source country 
eradication of drugs and interdiction versus one other leg of 
the stool of prevention. Let's now talk about the interdiction 
leg.
    This Administration shifted the overall drug strategy since 
1992 away from interdiction and source country programs and 
into treatment programs. They made this shift despite the fact 
that the previous strategy produced a significant reduction in 
the supply and use of drugs, including among teenagers.
    The new drug strategy emphasized treatment for hard core 
users as the primary way to break the cycle of drug abuse. 
Under the Clinton Administration, from 1992 to 1995 
interdiction resources declined by 36 percent. International 
drug control programs declined 55 percent. Treatment programs 
increased by 23 percent. Prevention programs to keep kids from 
starting drugs only increased by 2 percent.
    Furthermore, although domestic law enforcement programs 
increased over this period by 34 percent, it was not without a 
fight from Congress. In 1994 and in 1995 the Administration 
requested budget cuts for the DEA, including a cut of 311 
agents from the peak 1992 level. You had to defend those cuts 
for DEA for 1995 in your very first appearance before this 
Subcommittee in April of 1994, but we restored those cuts. At 
the end of 1995, DEA was still lagging behind in hiring agents. 
DEA was still 240 agents below the 1992 level, even though the 
resources were provided to hire more.
    Now, what's the result of that shift in strategy away from 
interdiction and source country programs to treatment?
    The price of a gram of cocaine dropped 12 percent. Theprice 
of heroin dropped 35 percent. Purity of heroin is up 21 percent. 
Cocaine seizures dropped by 52 percent. Cocaine use by tenth graders is 
up 142 percent. Marijuana use by eighth graders is up 205 percent. 
Arrests for drug violations are up 7 percent. Juvenile arrests for drug 
abuse violations are up 138 percent.
    While the Attorney General reports a 3 percent decline last 
year in the number of youth arrested for violent crimes, the 
number of youth arrested for drug abuse violations increased by 
20-plus percent. A 1995 Justice Department report says that one 
in three juvenile detainees were under the influence of drugs 
at the time of their alleged offense.
    In 1996 and 1997 the Congress re-seized the War on Drugs 
from that failed strategy. You received your full budget 
request in 1996. We gave you every penny you asked for. In 1997 
we gave DEA $1.1 billion, a 26 percent increase over 1996; $38 
million more than was requested of us and that included a $61 
million initiative and 75 agents for source country 
international programs not requested by the Administration.
    Congress also included additional funding, $200 million 
more than was requested, for interdiction in Customs, and DOD. 
Now, the reason I bring this up is to make sure that the 1998 
request that you have before us does not short change the needs 
of law enforcement again; to make sure that we're implementing 
the source country programs; and to be sure that the 1997 drug 
strategy is not still short on interdiction.
    Have you asked for enough for source country programs to 
keep us on this path of going back to the source country and 
attacking the drugs where they originate?
    Mr. Constantine.  We feel that the source country program 
that we have in place right now is sufficient, Congressman. 
What we have found is that those governments, especially Peru, 
Bolivia, and Colombia have been trained and equipped. And 
really as far as the actual eradication of coca, the 
interdiction of manufacturing plants or runways, they have 
become very, very competent.
    As we add the people from last year's budget to each of 
those countries, including some major strategies in the 
Caribbean and Puerto Rico, we feel at this stage that that's 
the most appropriate way to go with it. Our role is that we 
believe interdiction is really most valuable if it's 
intelligence driven and it's intelligence driven from a 
criminal investigation. Just raw, general deterrence 
interdiction is very difficult.
    The percentage of ships or planes that you're able to stop 
on a random basis and the product that you would seize is 
relatively small compared to the price of the investment. Where 
you have intelligence information from people working in a 
source country and people working in the United States that can 
tell you when a ship is going to move or a plane is going to 
move or a truck is going to move, you have a high likelihood 
not only of the seizure of contraband, but you also have the 
most important thing which is criminal defendants at either 
terminus of the criminal operation which makes it more 
effective.
    You mentioned these programs during my first hearing which 
was about two weeks after I had come on this job. I have been 
treated very well by you and Congressman Mollohan, as has DEA. 
We thank you for it and we think those programs right now are 
sufficient to handle the problems if we can see----

                           dea budget request

    Mr. Rogers.  How much did you request of the White House? 
How much did they change your budget request?
    Mr. Constantine.  I'd have to give you the figure, but not 
much. There has been substantial support.
    Mr. Rogers.  Somebody here knows the answer on your staff.
    Mr. Constantine.  They'll have to whisper it to me then 
because I can't give it to you. It's a fairly substantial 
representation.
    Mr. Rogers.  They didn't cut you much?
    Mr. Constantine.  Not much.
    Mr. Rogers.  They cut you some?
    Mr. Constantine.  Not a major amount, Congressman. I'd have 
to look and get back to you with the figures.
    Mr. Rogers.  Maybe they can help you out right now. We can 
wait a few seconds here.
    [Pause.]
    Mr. Quinn.  It wasn't a significant cut when I look at the 
figures.
    Mr. Rogers.  Identify yourself for the stenographer.
    Mr. Quinn.  Don Quinn, Chief Financial Officer.
    Mr. Rogers.  All right. Can we get that for the record?
    [The information follows:]

[Page 835--The official Committee record contains additional material here.]



                             international

    Mr. Rogers.  What I'm really interested in is did they 
short change you on your intelligence portion?
    Mr. Constantine.  No. That's one of the things that we will 
be looking at maybe in the future. There is a substantial 
inclusion of intelligence assets in this budget. What's 
happened in the intervening period of time is the fact that the 
people in the field, in a number of meetings even before we put 
our budget in, have talked about the need to look at our 
intelligence.
    I have started about four months ago a complete review 
which includes people from the operations and field offices to 
tell us what they need in the way of intelligence assets. From 
time-to-time you have an intelligence division at Headquarters 
who looks at things strategically, at people in the field who 
have tactical needs.
    What I've done is ordered that review. It's well on its 
way. I should have a report probably within a month or a month 
and a half which will be able to determine exactly if there is 
a need for any additional assets. But at the time of that 
budget request, that fulfilled the needs that we would have 
been interested in. The intervening change may be our own 
review.
    Mr. Rogers.  Well, this year we provided $61 million and 75 
agents, as I've indicated, for DEA international programs and 
intelligence, which obviously is very critical. Please give us 
a summary of your hiring and implementation of that initiative.
    Mr. Constantine.  We have determined the countries that 
they will go to. We then go through a process of receiving 
approval both from the ambassador and the State Department for 
the inclusion of those additional resources in the various 
countries. We have that accomplished in probably about 75 to 80 
percent of the countries.
    Then we have to go out with a job solicitation to see if 
agents want to go to Colombia or Peru or Bolivia. They are then 
selected for that position after review by our Career Board for 
assignments. Often we have to involve people in language 
training to move them and their families to some of those 
assignments.
    So, it would take longer than I think all of us would like, 
but we believe that we will have all of the major parts of that 
completed by the end of this fiscal year.
    Mr. Rogers.  And you will have all of them hired and in 
place?
    Mr. Constantine.  Hired. I can't promise you that they'll 
all actually be in place in country. They'll be assigned to the 
country, depending upon their language capabilities and the 
difficulty of the language in the country that they're going 
to, so that they will get the proper language clearance and be 
able to get into the country.
    Mr. Rogers.  But they will be hired by the end of the 
fiscal year?
    Mr. Constantine.  Yes, sir.
    Mr. Rogers.  The full complement?
    Mr. Constantine.  The full complement is hired obviously as 
you hire the basic agents.
    Mr. Rogers.  Yes.
    Mr. Constantine.  The assignment of people to each country 
will have been determined based on their training mostly for 
language, ability to sell a house, and to move their kids out 
of school and get them into another country. We hope to have 
that done by the end of September.

                     u.s. attorney's budget request

    Mr. Rogers.  Now, Director DiBattiste and Ms. Warren, do 
your budget requests include the full request you made to OMB? 
Did they cut either one of you?
    Ms. DiBattiste.  May I submit that for the record?
    Mr. Rogers.  I'd like to know now if you know it.
    Ms. DiBattiste.  Yes.
    Mr. Rogers.  How much did they cut you?
    Ms. DiBattiste.  I believe our request to you was for 688 
additional positions. Our original request was for 1,275 
additional positions.
    Mr. Rogers.  It was 1,275?
    Ms. DiBattiste.  Yes, sir.
    Mr. Rogers.  Are you telling me they cut you over 500 
positions?
    Ms. DiBattiste.  Yes. We believe with the 688 we can make a 
significant improvement in our prosecution efforts in all of 
our United States Attorneys' offices in all of the areas where 
we asked for increases.
    Mr. Rogers.  How much of the personnel that you were not 
provided would have been assigned to the drug problem?
    Ms. DiBattiste.  In the drug area, I believe we received 
full support.
    Mr. Rogers.  In what area did they cut your request?
    Ms. DiBattiste.  May I submit this for the record because 
there were several initiatives.
    Mr. Rogers.  What initiatives did they cut?
    Ms. DiBattiste.  I want to make sure I'm reading this 
correctly because I'm not too good with charts. Yes, I have it. 
In the area of official corruption, we asked for some minor 
resources in tele-marketing fraud, high-tech, and violent 
crime.
    Mr. Rogers.  You were not provided those?
    Ms. DiBattiste.  Correct. In our civil area where we do 
desperately need help, and that is in our request, we asked for 
some resources for affirmative civil enforcement. There are 
some in there in our present request for defensive civil; not 
as much as what we asked for. And in infrastructure and in the 
Executive Office, we asked for a minimal increase in resources 
to support the U.S. Attorneys' Offices.
    Mr. Rogers.  All right. According to the 1997 drug 
strategy, drug resources for the U.S. Attorneys have increased 
by 14 percent since 1992. How do you explain only a 3 percent 
increase in drug prosecution cases in 1996?
    Ms. DiBattiste.  In the drug area, I believe the only 
program increases that we received since 1992 were received in 
fiscal year 1997. We asked Congress for 119 positions for the 
Southwest Border/Drugs and we got 52. We looked back to 1992 
and we have not received additional resources since that time 
for the U.S. Attorneys' Offices.
    Despite that, we've had the increase in cases. We have, as 
you have correctly stated, a 3 percent increase across the 
board in the number of drug cases filed between 1995 and 1996. 
If you go back to 1992, the U.S. Attorneys have had a 6 percent 
increase in case filings in the drug area alone since 1992.
    Mr. Rogers.  Yesterday's Washington Times cites significant 
increases in other prosecutions such as immigration and health 
care fraud. Are drug prosecutions a priority?
    Ms. DiBattiste.  Absolutely. If you look at where we're 
putting our resources, 42 percent of all of our case filings--
of total criminal case filings--42 percent involve drugs and 
violent crime; 27 percent drugs alone. But if you combine drugs 
and violent crime, because most of those cases overlap, 42 
percent of all of our case filings are going in those two 
critical areas.
    Also, the U.S. Attorneys are dedicating most--the largest 
portion I believe, 27 percent or close--of AUSA resources to 
prosecute drug offenses. So, yes, it is definitely a priority.
    Mr. Rogers.  There was some confusion last spring on what 
policies, guidelines, and thresholds the U.S. Attorneys used to 
determine whether or not to prosecute drug smugglers on the 
Southwest Border. Can you submit for the record the current 
guidelines that are being used for drug prosecutions?
    Ms. DiBattiste.  Well, Congressman Rogers, I know you 
will--I hope you will agree with me on this. The Attorney 
General sets the national priorities. Drugs are a national 
priority. However, when we go district-by-district each U.S. 
Attorney sets the priorities in his or her district because as 
you know, the Eastern District of Kentucky is very different 
than the Central District of California.
    Many districts don't publish written guidelines for the 
very reason we don't want the criminals to know what the 
guidelines are or they will beat the guidelines. So, we have--I 
can't get you the guidelines for all the offices because not 
all offices have them. Not all offices----
    Mr. Rogers.  Do the Southwest Border offices have 
guidelines?
    Ms. DiBattiste.  Not that we would like to publish for the 
very reason that we don't want the criminals to know.
    Mr. Rogers.  If you do not publish them, then can we look 
at them?
    Ms. DiBattiste.  We have historically not shared the 
guidelines for the very reason that----
    Mr. Rogers.  I don't mean to publish them. But can we look 
at them?
    Ms. DiBattiste.  We can discuss them with you in the 
districts along the Southwest Border, absolutely. But, as I've 
told you, our prosecution guidelines are very broad.
    Mr. Rogers.  Well, the reason I'm bringing this up is drug 
prosecutions are relatively flat. I want to know what the 
problem is. I mean we're pumping money at you, a 14 percent 
increase for drug prosecutions since 1992. We're not seeing a 
similar increase in prosecutions.
    Ms. DiBattiste.  I think that's incorrect, sir. For the 
Southwest Border alone in 1996, Arizona was up 12 percent from 
1995 in drug prosecutions. Southern California was up 18.8 
percent. New Mexico up 23 percent. Southern Texas up 13 percent 
and Western Texas up 34 percent in drug prosecutions alone.
    Mr. Rogers.  I'm looking at your own drug strategy here for 
drug funding. From 1992 to 1996 we increased your budget 
authority by $30 million, a 14.5 percent increase in resources. 
Overall, I'm not talking just about the Southwest Border. 
Overall, your drug cases terminated has only grown 2.5 percent; 
and we've given you 14.5 percent more resources.
    Ms. DiBattiste.  If you go back to 1992, between 1992 and 
1996 we've had a 6 percent increase. Case filings, as you know, 
should not be the only indicator as to whether we're making a 
difference. It's the quality of the cases, the complexity of 
the cases, and whether we're taking out major drug trafficking 
organizations.
    The answers to those three questions are yes. Complexity is 
increasing. Quality is increasing. And we are taking out major 
drug trafficking organizations.
    Mr. Rogers.  Well, I want to be sure that we're not doing 
the same thing in prosecutions in this Administration that they 
did to the drug interdiction and source country programs and 
that's to slash the results. We won't let that happen here if 
we can spot it in time. Am I spotting anything like that?
    Ms. DiBattiste.  The U.S. Attorneys won't let it happen. It 
isn't happening. I will tell you that with more resources they 
can do more.
    Mr. Rogers.  We gave you more resources. And you've not 
done more.
    Ms. DiBattiste.  But with even more, they can do more.
    Mr. Rogers.  As I said, we gave you more resources and you 
did not do more.
    Ms. DiBattiste.  I believe that the U.S. Attorneys across 
the board have increased, if you just look at case filings, 
have increased the number of drug prosecutions. And the quality 
has definitely increased.
    Mr. Rogers.  We have a vote on the floor. We think it's 
just one vote. There may be just a few further questions that 
we would have. I know it's into the lunch hour. If you could 
bear with us a few minutes, Mr. Mollohan and I need to cast our 
votes. Then we shall return. We will stand in recess a few 
minutes. Thank you.
    [Recess.]
    Mr. Rogers.  The Committee will come to order. We apologize 
for keeping you during the lunch hour. Maybe we can get through 
here in a reasonably short period of time.

                             marijuana use

    Let me ask you about marijuana. It is still the most 
frequently used illicit drug. There has been a slight rise in 
the number of marijuana users since 1992, but more importantly, 
teenagers' use of marijuana has skyrocketed. Studies have also 
found that marijuana is obviously a gateway drug, leading to 
the use of other drugs such as cocaine and heroin.
    Among 12th graders, the use is up 84 percent. Among tenth 
graders it is up 152 percent. Among eighth graders, 205 
percent. The latest survey, released this month, by the 
Partnership For a Drug Free America reported says that the 
rising popularity of illegal drugs among teenagers is trickling 
down to their younger brothers and sisters who are starting to 
try it themselves.
    This study focused on kids ages 9 through 12 and 24 percent 
of these kids were offered drugs. Those who had experimented 
with drugs rose to 4 percent from 2 percent. Children were less 
likely to believe that ``people on drugs are stupid.'' And 71 
percent said so in 1995; only 65 percent said it in 1996.
    NIH said in 1995 ``The serious and harmful affects of 
marijuana, include impairments to learning and memory, 
perception, judgment, and complex motor skills, difficulty 
speaking, listening effectively, thinking, retaining knowledge, 
problem solving, and forming concepts, decreased drive and 
ambition, shortened attention span, poor judgment, high 
distractibility, diminished effectiveness of interpersonal 
skills, intense anxiety, panic attacks and paranoia, and,'' 
listen to this, ``the daily use of one to three joints of 
marijuana appears to produce the same lung diseases and 
potential cancer risk as smoking five times as many 
cigarettes.''
    This is not a tobacco question, although I'm tempted. We 
talk about emerging problems of methamphetamine, and heroin, 
and cocaine. Are we ignoring marijuana and the ill-effects that 
it's having on much, much larger groups of people and on 
younger and younger people?
    Mr. Constantine.  No, Congressman. I don't think we're 
ignoring it. In fact, I think what has happened is that we've 
become so inundated with the cocaine and crack cocaine and 
methamphetamine problem that people involved in major marijuana 
trafficking in the United States haven't received the proper 
attention for enforcement.
    We, along with the FBI and the Criminal Division, are 
putting our plan together to make marijuana a major target, 
especially the 50 percent that's produced in the United States 
and distributed in the United States. It is pretty much still a 
domestic problem, even though the other half or 30 percent 
comes from other countries.
    Still, the distribution systems in the United States are 
for the most part organized by people living in this country. 
We've recognized that we have to treat that with as much 
priority as we can. Maybe there was a loss of focus on that 
when we were dealing so much with crack cocaine and crack gangs 
and heroin. We believe that we're going to readdress that 
within the next year.
    Mr. Rogers.  Is there more marijuana available today than 
there was five years ago?
    Mr. Constantine.  It's difficult to say because the types 
of measurements of hectares of marijuana domestically in the 
United States in conjunction with other countries, we don't 
have the same types of study results. It would appear, given 
what you say that we've been looking at, is the increased usage 
on the part of young people. Probably equally alarming is the 
age at which they're using drugs.
    I have always said it is kind of historic, and hopefully 
not dating too much into the past, is that there is a group of 
people in this country, a fairly large group that I think did a 
great disservice to our children by selling them in the 1960s 
and the 1970s some sense that this was a drug that could be 
used casually, without a threat to them or to their life in the 
future. And a bunch of impressionable young kids operated under 
this belief and sadly many of them have families and friends 
who have been affected by this.
    We caught them, as I said, after the death of Len Bias. I 
know there is still an awful lot of emphasis by the 
Partnership, by General McCaffrey and other people on the 
prevention aspects of it.
    Our rule in enforcement is we feel that we have to 
readdress enforcement of the law against organizations who are 
distributing marijuana in the United States. I think we will 
have groups working on that probably within five or six months 
at the level at which they should be.
    Mr. Rogers.  So you feel comfortable with the strategy?
    Mr. Constantine.  Yes, sir.
    Mr. Rogers.  I have additional questions that I can submit 
for the record.
    Mr. Rogers.  Mr. Mollohan.
    Mr. Mollohan.  Thank you, Mr. Chairman. Ms. DiBattiste, you 
are asking for a little less than a 10 percent increase in your 
budget. Is that correct?
    Ms. DiBattiste.  Yes.
    Mr. Mollohan.  You're asking for a total of 628 new 
positions.
    Ms. DiBattiste.  I believe 688.
    Mr. Mollohan.  Okay. Did I understand you to say that you 
had asked OMB for an increase of 1,275?
    Ms. DiBattiste.  Yes, 1,275. That's correct.
    Mr. Mollohan.  That's really large. I'd like to talk with 
you a little bit about how that breaks down. You're asking for 
225 new positions for the D.C. Superior Court, including 55 
lawyers. Is that correct?
    Ms. DiBattiste.  That is correct.
    Mr. Mollohan.  Talk to us a little bit about that. What is 
that need?
    Ms. DiBattiste.  I'd like to state from the outset that 
this request for the D.C. Superior Court side of the D.C. U.S. 
Attorney's Office is not part of the so-called D.C. initiative. 
This is strictly our request for the U.S. Attorney's Office in 
D.C.
    Mr. Mollohan.  What percent increase does that represent 
for the U.S. Attorneys' Office in D.C.?
    Ms. DiBattiste.  I don't know.
    Mr. Mollohan.  What are your total lawyers? How many 
lawyers do you have there now?
    Ms. DiBattiste. They split it up between the District Court 
side and the Superior Court side.
    Mr. Mollohan.  This is for Superior Court; isn't it?
    Ms. DiBattiste.  Correct. Our whole request is for an 
increase in Superior Court. I believe we have 211 Assistants, 
give or take some on the Superior Court side, and about 100 
Assistants on the District Court side, but that's from memory 
only. I can get you the exact number.
    Mr. Mollohan.  Why do you need this large of an increase?
    Ms. DiBattiste.  Well, first of all, you know that the D.C. 
U.S. Attorney's Office is unique. It's the only office in the 
country that performs the State prosecutor's function along 
with the Federal prosecutor's function. We need a major 
enhancement on the State prosecutor's side of the house 
because, as you know, crime is rampant in the District of 
Columbia.
    Mr. Mollohan.  Are arrests up?
    Ms. DiBattiste.  Are arrests up in D.C.?
    Mr. Mollohan.  Yes. Why do you need this increase?
    Ms. DiBattiste.  Here are the areas where we're asking for 
increases. The Community Prosecution program, which is a 
program already in existence. It's a pilot initiative where we 
have people in the U.S. Attorney's Office working with the 
Fifth Police District going out in to the community working 
from investigation all the way through prosecution. And they're 
making a difference in that district.
    We've asked for an expansion in that program. We've asked 
for an expansion in the Homicide Division. The cold case 
homicide squad, as everyone is familiar with from the tragedy 
that happened there a few years ago, where we had several 
people killed. That squad works very closely with the U.S. 
Attorney's Office.
    We have, I believe it's 62 percent of the murders that are 
unsolved. We need an enhancement there for more prosecutors and 
support staff to work with the investigators.
    Mr. Mollohan.  This is a very large increase. You're 
suggesting that there are cases you are not able to get to?
    Ms. DiBattiste.  Correct. In the gang prosecution area, 
we're asking for an increase. The U.S. Attorney's Office wants 
to target the 12 most violent gangs. That will be a new program 
that they're asking for to just go after gangs, violent gangs 
and drug gangs.
    Mr. Mollohan.  Just to understand. Did you ask for an 
increase in this area for the Superior Court last year?
    Ms. DiBattiste.  No. We did not.
    Mr. Mollohan.  So, this is a refocusing or being responsive 
to somebody's cry for help, I guess.
    Ms. DiBattiste.  The cry is from the U.S. Attorney and the 
Assistants and the people in his district.
    Mr. Mollohan.  Okay. Let me go to the next one. You're 
asking for 56 positions, $5 million and 56 positions; 37 of 
them are lawyers to deal with narcotics and dangerous drugs. 
That's a nice categorization that you list down here. You have 
44 lawyers that you're asking for prisoner litigation, 
employment discrimination, tort action; 27 lawyers to deal with 
organized crime.
    It seems like it is pretty neatly packaged. It can't be 
quite that neat. I mean every one of these lawyers you hire 
isn't going to be totally focused in those areas.
    Ms. DiBattiste.  You raise a very good and important issue 
for the U.S. Attorneys. And this has been a problem that we've 
experienced, at least since I've been here, and that is each 
U.S. Attorney's Office is different. When you give us resources 
and dedicate those resources to a specific area, the U.S. 
Attorneys have come back to me and said that hampers their 
ability to move resources around within their own offices.
    Mr. Mollohan.  You're asking for them. You're inviting 
dedication of them.
    Ms. DiBattiste.  We ask for them in that way, but we ask 
that when you give us the resources that you don't specifically 
dedicate them solely to do narcotics or solely to do white 
collar so each U.S. Attorney can decide where they best need 
the resources in their districts.
    Mr. Mollohan.  Right. So, if you look at your overall 
demand for lawyers, you have proportionate increases in these 
areas. You're saying we need about 44 more lawyers for prisoner 
litigation. These aren't going to be dedicated anywhere in the 
country to these specific tasks.
    Ms. DiBattiste.  We would hope that's correct, yes.
    Mr. Mollohan.  All right. That's a pretty large increase. 
Mr. Chairman, I have some more questions, a lot more questions 
which I'm going to likewise submit for the record.
    I would like to know before I end here and particularly it 
may be a problem on the minority side, but I just think it's a 
matter of good process and procedure. I understand that we did 
not get the witnesses' testimony, any of it, until late last 
night. I know the Chairman has a two-day rule which I 
definitely support because the minority doesn't have as many 
resources to go through these statements as anybody else.
    The witnesses ought to be considerate enough to get these 
statements up here early enough so that we have a chance to 
review them. I know you're busy and you've got 20 hearings up 
here to try to prepare for, but it would be very helpful for us 
if we had them earlier. Thank you, Mr. Chairman.
    Mr. Rogers.  I thank the Gentleman, and the Chair shares 
that point of view. Now, Mr. Constantine, I understand DEA is 
reviewing a recommendation from the FDA to de-schedule the drug 
phenfleuramine. A recommendation was made in September of 1995. 
Can you get back to me by the end of the week on the status of 
your review?
    Mr. Constantine.  Yes, sir.
    [The information follows:]

               Recommendation to De-Schedule Fenfluramine

    A DEA recommendation on the de-scheduling of fenfluramine 
will be released in the Federal Register within the next 
several weeks.

    Mr. Rogers.  We sure appreciate your being here today. We 
will have further questions for the record that we hope you can 
respond to.
    Now, in spite of all of the dust and fire and fury that you 
sometimes hear up here on the Hill, let me say to you that we 
appreciate your dedication to the country and the work that 
you're doing on behalf of our people, in these public 
positions. These are demanding jobs that you're in. Very rarely 
do you hear a compliment.
    Mr. Constantine.  Thank you.
    Mr. Rogers. And we compliment you on your work. You're 
dedicated to doing the best job you can for our country and 
under very, very difficult and trying circumstances. Not only 
does that go for you, but it goes as well for the people that 
work under you; the people out there on the firing line 
literally whether it be in the court room, or in the field 
eradicating marijuana or doing a stakeout or what have you.
    There are a lot of dedicated people fighting the same 
purpose that we're talking about there today and we owe all of 
you and all of them a great deal of thanks. Until we can do 
better, we hope that can suffice. Thank you very much.

[Pages 845 - 896--The official Committee record contains additional material here.]


                                           Tuesday, April 15, 1997.

    DEPARTMENT OF JUSTICE, STATE AND LOCAL LAW ENFORCEMENT PROGRAMS

                               WITNESSES

LAURIE ROBINSON, ASSISTANT ATTORNEY GENERAL, OFFICE OF JUSTICE PROGRAMS
SHAY BILCHIK, ADMINISTRATOR, OFFICE OF JUVENILE JUSTICE AND DELINQUENCY 
    PREVENTION
JOSEPH E. BRANN, DIRECTOR, OFFICE OF COMMUNITY ORIENTED POLICING 
    SERVICES

    Mr. Rogers.  The Committee will come to order.
    We are pleased to welcome this afternoon Laurie Robinson, 
the Assistant Attorney General for the Office of Justice 
Programs; Shay Bilchik, the Administrator of the Office of 
Juvenile Justice and Delinquency Prevention; and Joseph Brann, 
the Director of the Office of Community Oriented Policing 
Services, better known as the COPS Program.
    These agencies represent the Federal Government's primary 
assistance programs to help state and local law enforcement 
agencies fight crime. This Committee over the past three years 
has added $1.7 billion, a 74 percent increase, to state and 
local grant programs funded by the Department of Justice. Now, 
there is over $4 billion available to wage an all-out effort to 
address this nation's number one domestic problem, crime.
    We've seen shifts in emphasis and ways of doing business 
over the past few years all for the sake of our struggle to 
reduce crime. Today, the nation is focused on juveniles as we 
are witnessing unacceptable levels of juvenile violence and 
crime.
    In addition, saving our children from drugs and drug-
related crime has become an overwhelming national priority. 
Focusing on teaching our children to say ``no'' to drugs is 
essential to saving our country from an unparalleled wave of 
drug addiction and violent crime.
    Unfortunately, we are playing catch up. Casual teenage drug 
use trends suffered a marked reversal over the past five years. 
Drug use among teenagers and in virtually every childhood age 
group and virtually every illicit drug, has increased and is 
still increasing.
    We've shown in the past that when we work together on these 
problems in a bipartisan way we can make a difference and 
reverse these trends. This Committee will seek to ensure that 
adequate resources are provided. We all have ideas how best to 
tackle these problems. But with the limitations on funding that 
we face, we will have to pool our knowledge, our talent, and 
our resources to make sure that we are investing in truly 
effective programs.
    We will include your written statements in the record. We 
will invite you to give us a five-minute summary of your 
testimony after which I'm sure Members will want to ask you 
questions. So, Assistant Attorney General Robinson, will you 
lead off?

        assistant attorney general robinson's opening statement

    Ms. Robinson.  Certainly. Mr. Chairman and Members of this 
Subcommittee, I am very pleased to be here this afternoon and 
to have the opportunity to talk to you about the efforts we're 
making at OJP--with state and local government--to address 
crime. I also appreciate very much, Mr. Chairman, the 
opportunity to thank you for the substantial support that this 
Subcommittee has provided OJP over the past several years to 
make this possible.
    I think it is stating the obvious that crime and violence 
remain at unacceptable levels in this country, despite the 
welcomed news as recently as yesterday that crime rates 
continue to fall. But in some ways, the challenges of crime 
have never seemed greater in this country.
    Gang violence and the nature of youth crime, and the 
problems of gun violence and family violence remain too 
pervasive in our society. But at the same time, Mr. Chairman, 
as I have traveled this country over the last several years, 
I'd have to tell you that I've grown optimistic about our 
ability--the ability of all of us working together--to impact 
crime.
    Many of us who have been in criminal justice for years are 
frankly skeptical about solutions. At times, the problems have 
seemed very daunting. But my optimism stems from the fact that 
I have seen the real impact of these efforts, not necessarily 
yet from long-term evaluations, but from the differences so 
clearly made block-by-block, street-by-street, neighborhood-by-
neighborhood, for the people who actually live there.
    Like in the Weed and Seed sites I have visited where 
communities are embracing this comprehensive enforcement and 
prevention strategy and making it work, or to hear it from the 
elderly woman in Chicago who proudly showed us where they had 
routed out drug dealers from a crack house in their Weed and 
Seed neighborhood, or the Police Commander in Salt Lake City 
who took me on a tour of a sub-station in public housing and 
said the presence of the officers there had not only built ties 
with the community, but helped reduce serious drug dealing.
    So, when I see the steps that communities like these are 
taking, I'd have to say that I have come away with the real 
belief that we can impact crime, that we can reduce gang 
violence, and we can reduce drug use. Mr. Chairman, often times 
these are not answers developed in conference rooms in 
Washington. They are home-grown approaches, bottom-up, 
developed by communities.
    Many times it is with funding, information and technical 
assistance from us, but adapted to their needs, their local 
system, and their neighborhoods. I know we hear too often that 
nothing works. Well, I don't believe that is the case.
    And that certainly is not the experience, for example, of 
the Delaware Prison Warden I met who is running the Key Crest 
Drug Treatment Program and seeing long-time addicts who are 
going through that program turning their lives around, and 18 
months later seeing 70 percent of them arrest-free compared to 
only 30 percent in the group who didn't go through that.
    Or the prosecutor in rural upstate New York who told me the 
Violence Against Women Sexual Assault Program there has 
resulted in better cooperation from victims, better 
preservation of evidence for trial, and in fact higher 
conviction rates in rape cases. Or the Birmingham Judge who 
says the juvenile drug court there has turned around the lives 
of kids who were almost over the edge. And we see more broadly 
the evaluation results out of drug courts, with some reporting 
recidivism rates as low as 2 percent.
    Or the Police Captain in the Midwest who shows off new 
computer mapping technology which helps the officer on the beat 
know down to the house where previous incidents have occurred 
and the location of precinct crime hot spots. So, these are the 
things, I think, that make me optimistic in a way that 
statistics alone, while they are important, cannot.
    Our role, it seems to me, at OJP, is to work with these 
communities not only to provide funding and technical 
assistance, but just as important to build knowledge through 
research and evaluation, to gather the good ideas springing up 
in different communities, and then to aggressively share 
Denver's or Dallas' successes with Des Moines.
    So individual jurisdictions don't have to go off on their 
own, feel their own way, and road test every new idea 
themselves. So the funding we're requesting, Mr. Chairman, will 
allow us to build on this progress and maintain real momentum 
in working with communities across America.
    Clearly, we have many miles to go in meeting these 
challenges. We look forward to working in tandem with you to 
address them. Mr. Chairman, that concludes my introductory 
remarks. I'd obviously be happy to answer questions.
    [The statement of Ms. Robinson follows:]

[Pages 900 - 915--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you. Mr. Bilchik.

               Administrator Bilchik's Opening Statement

    Mr. Bilchik.  Mr. Chairman and Members of this 
Subcommittee, it's my pleasure to be here today on behalf of 
the Office of Juvenile Justice and Delinquency Prevention. 
We've been working diligently in the last year since we've been 
together, with communities across the country to reduce and 
prevent juvenile crime and violence.
    We're doing this through a basic three-pronged approach; 
preventing criminal behavior among young people whenever 
possible, holding juveniles accountable when they do offend, 
and protecting the public's safety. These efforts are detailed 
in the statement I've submitted for the record.
    This afternoon I want to briefly touch upon our proposed 
funding for fiscal year 1998 and how it will further these 
three objectives. The President's fiscal year 1998 budget 
request reflects the Administration's increased commitment to 
using a balanced approach in attacking juvenile violence; a 
balance consisting of prevention, intervention, and 
sanctioning, while at the same time providing communities with 
the flexibility to implement strategies that are locally 
developed and implemented.
    Mr. Chairman, the President's budget request for OJJDP 
recognizes that although juvenile crime is primarily a state 
and local problem, there is a clear Federal role in assisting 
states and localities to address this issue.
    The primary Federal role is to provide broad-based direct 
assistance to states and localities to augment state and local 
resources and enable them to develop and implement programs 
based upon their own needs and their own priorities.
    The second Federal role is to support states and localities 
to do research, test new programs and strategies, conduct 
evaluations, provide seed funding for innovative ideas, provide 
training and technical assistance, disseminate information to 
the field, as well as to support under-served needs within 
their communities.
    This range of activity, much of which OJJDP performs 
through various discretionary programs, comprises the critical 
support functions that are uniquely suited to the Federal 
Government. OJJDP's supportive cycle of activity: 
demonstration, research and evaluation, dissemination of 
information, and training and technical assistance is resulting 
in effective prevention in juvenile justice practices and the 
replication of those practices nationwide.
    Examples range from restitution and mentoring programs, to 
law enforcement, intensive supervision, and correctional 
alternatives. This ongoing activity includes research on how 
best to replicate the programs we know are effective and spread 
them to other jurisdictions.
    Our resources are also used to target areas of critical 
need such as juvenile drug use. Our program, Research on the 
Causes and Correlates of Delinquency, shows a relatively strong 
relationship between drug use and delinquency. Our drug-related 
projects include, prevention, intervention, and treatment 
alternatives. Children need to hear the message about the risk 
of drug abuse, in their schools, in their churches, and most 
importantly in their homes, from their families.
    While it is important that funds used to support efforts to 
target drugs, gangs, and guns be well spent, the impact can 
only be maximized if they are expended as a part of a 
comprehensive strategy for reducing juvenile crime and 
victimization--one determined by each community based on what 
the research informs them will be most effective in offsetting 
the negative influences or risk factors which confront their 
children and youth. This type of approach is advocated through 
our research and in our comprehensive strategy for serious 
violent juvenile offenders.
    We are bringing the prevention component of this strategy 
to light in our Community Prevention Grant Program under Title 
V, through intensive training on risk focused prevention that 
precedes the receipt of grant funds in specific communities. 
We've trained over 500 communities to-date, in addition to 
those in our Six Safe Futures communities.
    The President's budget request provides significant 
additional resources to target juvenile crime through an 
expanded Community Prevention Grants Program. It also includes 
early intervention programs building on the current Title V 
Community Prevention Grants Initiative.
    It would add $55 million to the $20 million currently 
appropriated for a total of $75 million to be distributed to 
states to implement programs developed by local communities as 
a part of this new at-risk children's initiative.
    Mr. Chairman, we're excited by the success of the Community 
Prevention Grant Program and its ability to use research 
information on the causes of delinquency in order to target 
communities' juveniles who are at a high risk of truancy, 
dropping out, and delinquency.
    Finally, Mr. Chairman, I want to mention the President's 
proposed Anti-Gang and Youth Violence Act of 1997. The 1998 
authorization levels provided in the President's Anti-Gang and 
Youth Violence Act of 1997, dovetail with the fiscal year 1998 
budget request for OJJDP, and provide the means to deliver 
enhanced, fully integrated and coherent assistance to the 
field, while simplifying bureaucratic requirements and 
enhancing state flexibility under the Formula Based Grant 
Program.
    In short, the 1998 budget request, coupled with 
authorizations for the Anti-Gang and Youth Violence Act of 1997 
provide the balanced and targeted support that states and local 
communities have been requesting to attack juvenile crime.
    I want to thank this Subcommittee for the support that it 
has provided to OJJDP over the past years. I look forward to 
working with you, Mr. Chairman and Members of the Subcommittee, 
by continuing to attack the problem of juvenile crime in this 
country. Of course, I'll be pleased to answer questions.
    [The statement of Mr. Bilchik follows:]

[Pages 918 - 935--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you. Mr. Brann.

                   Director Brann's Opening Statement

    Mr. Brann.  Thank you, Mr. Chairman and Members of the 
Subcommittee.
    I, too, am pleased to be here this afternoon with you to 
talk about the COPS Office and I appreciate the opportunity to 
testify before you today. In October of 1994, the Attorney 
General established the COPS Office to implement Title I of the 
Violent Crime Control and Law Enforcement Act of 1994.
    Title I of that Act is labeled as the ``Public Safety 
Partnership and Community Policing Act.'' It has the goal of 
putting an additional 100,000 community policing officers out 
on the beat across this country. I was appointed to head that 
office in December of 1994.
    Title I, I think, is appropriately named. The significance 
of the program and what will ensure its long-term success is 
that the officers that we fund are engaged in community 
policing and they are working with local communities to build 
partnerships to address, more effectively address, local crime 
problems.
    The officers engaged in community policing enjoy the 
opportunity to become more a part of the neighborhoods that 
they are working with. They get to know everyone. They get to 
know the law abiding residents, as well as the criminals and 
the troublemakers. Community policing is not a Federal 
Government or a Big Brother kind of an approach.
    It's a strategy that was developed at the local level by 
dedicated officers who know from first-hand experience what 
works and what doesn't work. Personally, I came up through the 
ranks of the Santa Ana, California Police Department, spending 
21 years there and then five years as the Police Chief of 
Hayward, California.
    My 26 years of local law enforcement experience has 
convinced me of one thing and that is that community policing 
does in fact work. COPS grants are helping to introduce many 
departments across this country to the concept of community 
policing, and in fact, to advance it in still other 
communities.
    These grants are enabling departments to become more 
effective, more efficient and far more responsive to their 
local communities. Over the past two years I've had the 
opportunity to meet with many chiefs and sheriffs, local and 
elected officials, police officers, deputies, county 
commissioners and community activists.
    I've heard countless examples of how community policing is 
working in big cities such as in Fort Worth, Texas, which has 
experienced a 44 percent decrease in its crime rate in the four 
years since they implemented community policing, to places like 
New Brunswick, New Jersey, which has seen a 22 percent 
reduction in crime after implementing community policing with 
the help of three COPS grants.
    Community policing has been and is being credited with 
reducing violent crime in cities like Tampa, Phoenix, and 
Pittsburgh. Tampa saw a crime reduction of 21 percent in 1995. 
The residents of Pittsburgh are the safest they've been in 30 
years with the city having experienced a 17.5 percent reduction 
of crime there in 1995. Neighbors and police are working 
together across this country to make a difference in their 
communities. In 1996, homicides in Phoenix declined by 16 
percent.
    COPS has helped each one of those communities, as well as 
thousands of others, to implement community policing, increase 
trust, and improve the quality of life by reducing fear in 
those neighborhoods, and more importantly, to lower their crime 
rates.
    Possibly the greatest impact is being felt in communities 
where a COPS grant has actually created the opportunity to have 
a police department in the first place. There are places like 
Navassa, North Carolina, a small town that has become one of 
the most notorious drug areas in Brunswick County.
    Navassa was able to start a police department with a chief 
and two officers as a result of a COPS grant. Now, the drug 
dealers there have left the streets and the prostitutes are no 
longer on the corners.
    There are many, many more examples than I could possibly 
describe here on how local police agencies assisted by COPS 
grants have implemented community policing and are really 
seeing a difference.
    The program is working and it's working extraordinarily 
well. At the two and a half year mark, we have funded the 
hiring or redeployment of more than 56,000 community policing 
officers. Once the officers are hired and trained by the local 
law enforcement agencies, they will be serving more than 87 
percent of the American public.
    So, the program is making a difference and it is 
contributing to safer neighborhoods. As we go forward, by 
adding the remaining 44,000 officers, we must also continue to 
evolve as an organization in order to meet the needs of the law 
enforcement community.
    The 1994 Crime Act provides flexibility. I can assure you 
that we have and we will continue to listen to and seek input 
from law enforcement representatives, local officials, and 
community leaders to make certain that the program continues to 
work for them. We've heard how well the COPS grants are 
working, how pleased people are with these grants.
    We've also heard some concerns though; concerns I'm sure 
you've heard too, the desire for a longer transition period to 
100 percent local funding; the inequity that the $75,000 cap 
imposes on jurisdictions that experience higher labor costs, 
and the need to address certain persistent crime problems such 
as gangs, juvenile violence, and drug related crimes.
    We are exploring possible strategies that may better 
respond to those needs. I hope to have something concrete to 
share with you sometime in the very near future. Now, I would 
like to turn to the Administration's budget request for the 
COPS Program for fiscal year 1998.

                              COPS Program

    We are requesting a total of $1.4 billion from the Violent 
Crime Reduction Trust Fund for the COPS Program. That is in 
line, Mr. Chairman, with the agreement that the Justice 
Department reached with Congress in 1996. We are also 
requesting $20 million for the Police Corps Program, $20 
million for the Law Enforcement Scholarships, and $5 million 
for Police Recruitment Grants. This results in a total request 
of $1.445 billion for fiscal year 1998.
    For the management and administration of these programs, we 
are requesting $28.1 million for 309 positions, or 276 full-
time equivalents, out of the total program dollars. The funding 
level is necessary to support the grant administration, the 
management support, and the comprehensive oversight that is 
required to ensure that the goals and initiatives of the COPS 
Grant Programs are achieved.
    In closing, Mr. Chairman, I want to thank you again for 
this opportunity. I would also ask that these letters that I 
have here from law enforcement groups be included in the 
record.
    Mr. Rogers.  All right.
    [The information follows:]

[Pages 939 - 1--The official Committee record contains additional material here.]


    Mr. Brann.  Thank you very much for this opportunity. As 
with Laurie and Shay, I will be quite pleased to respond to any 
questions.
    [The statement of Mr. Brann follows:]

[Pages 943 - 952--The official Committee record contains additional material here.]


                           Number of New Cops

    Mr. Rogers.  Well, thank you very much for your testimony, 
all three of you. We appreciate the information that you've 
furnished to us.
    Director Brann, as I understand it, as of last week grants 
for 56,019 new police officers have been awarded. And by the 
end of this fiscal year this number will reach 64,000 new 
officers. That means that you will have awarded grants for 
14,333 COPS this fiscal year with the $1.4 billion, roughly, 
that we've provided.
    In 1996, we also provided $1.4 billion, as you mentioned, 
and you awarded grants for almost 24,000 police officers. In 
1995, $1.3 billion paid for another 24,000 officers. So, the 
question I have is, in 1995 and 1996 you put on roughly 24,000 
officers and fiscal year 1997 is down to 14,000 for the same 
amount of money. How come?
    Mr. Brann.  Primarily, this comes back to two factors. One, 
the COPS MORE Grants, one component of our funding, we were 
actually able to achieve far greater cost efficiencies with 
that funding because we are, in many instances the agencies 
themselves are, coming up with strategies either through 
civilianization efforts or through the acquisition of 
technology and equipment that result in a greater yield than we 
would see with a direct hiring grant. The COPS MORE Grants are 
actually reduced as a result of the Crime Act language from 20 
percent of our total funding in the first two fiscal years to 
10 percent this year, fiscal year 1997. Two, on top of that, 
we're also seeing increasing costs, labor costs. This is 
something we fully anticipated. As time goes by, the salaries 
are increasing for these agencies. That has to be absorbed as 
well. There are several factors of this nature that are 
impacting on the total dollar cost.
    Mr. Rogers.  How much of the 1997 funding are you using for 
technical assistance and training?
    Mr. Brann.  In training and technical assistance, 
evaluation, and research, three percent of the total budget is 
allotted for that purpose.
    Mr. Rogers.  Will you have any carryover monies into 1998?
    Mr. Brann.  I expect there is that possibility. I can't 
tell you at this point what that might be. It really depends to 
some extent about how quickly we can move with the obligations.
    Mr. Rogers.  Well, give us an estimate for the record if 
you would, if you want to do that. You don't need to do that 
today. I'm just saying we need an estimate for you to put in 
the record as soon as you can.
    Mr. Brann.  We can bring that back to you, yes, sir.
    [The information follows:]

                      COPS 1997 Carry-Over Monies

    As of April 30, 1997, the COPS Office had obligated over 
$500 million for hiring programs. We are much further along at 
this point in the fiscal year than during FY 1996, when the 
COPS Office had obligated only $34 million by April 30, 1996. 
At the end of FY 1996, $82.7 million in hiring dollars were 
carried forward to FY 1997.
    We anticipate that some program money will be carried 
forward this fiscal year, as occurred at then end of FY 1995 
and FY 1996. However, at just over the halfway point in the 
fiscal year, it is difficult to project an exact dollar total. 
Some carryover is usually necessary in order for the COPS 
Office to meet two important statutory requirements--that our 
grant funding be evenly divided between jurisdictions with 
populations above and below 150,000 and that each state must 
receive a minimum percentage of the total amount appropriated 
for grants.
    Based on our estimates and assumptions, we expect to carry 
over only the amount needed to ensure that the state minimum 
and population split requirements are met for this fiscal year. 
At this time we do not anticipate that this amount will exceed 
the funding level carried over last fiscal year.
    It is possible that a minimal program modification will be 
implemented following consultation with the Committee in June. 
The timing of the implementation of any such modification will 
affect the timing of obligation of funds. The COPS Office will 
keep you apprised if the projections should change.

    Mr. Rogers.  If you have it right now, I'd love to have it.
    Mr. Brann.  I don't think that we do.
    Mr. Rogers.  Now, your 1998 estimate is that you will buy 
an additional 17,000 COPS if we give you $1.4 billion.
    Mr. Brann.  Yes, sir. That is what we're projecting.
    Mr. Rogers.  How do you make that assumption? On the number 
of new COPS?
    Mr. Brann.  It's actually based upon the experiences to 
date. I'm not going to represent this as being absolutely 
steadfast. I think that each year as we move further along with 
these programs, we're seeing what the actual impact is at the 
local level with regard to their dollar costs and how they are 
choosing to take advantage of the program. That gives us 
additional information that we can refine those projections 
with.
    This year we actually thought that we would see a greater 
number of positions being funded. That has declined slightly 
because of the result of our experiences and what is happening 
at the local level.

                     Local Matching Funds for COPS

    Mr. Rogers.  Well, according to a recent GAO audit, and 
also information from your own telephone survey, only 46 
percent, about 24,000 of the new police officers, funded by 
your grants through December 31, 1996, only 46 percent are 
actually on the street; less than half.
    You mentioned in your written statement that you think 
that's due to hiring and recruitment at the local level, but 
let me ask you, is it possible that another factor could be the 
locality's ability or inability to fund their share of these 
grants?
    Mr. Brann.  What I've found, Mr. Chairman, is that as far 
as the ability of the local jurisdictions to come up with a 
matching amount, those agencies that clearly feel that they 
cannot do that, in most instances are not making application.
    Those that are making application occasionally find after 
they have applied for and received a grant that they are 
rethinking that. It's really a small number of agencies that 
have pulled back on that. Most of them fully understand and in 
my view, in fact, are fully prepared to absorb those costs on a 
continuing basis.
    With regard to the number on the streets, we're seeing a 
steady increase in that. We're in the midst right now of a 
survey. We do this three times a year to determine how many of 
the positions have been hired, trained, and on the streets.
    I can tell you this. Of the 56,000 that we have funded to 
date, as of yesterday over 30,000 of those positions have been 
hired, and about 27,000 have actually been trained and are on 
the streets. The others are in training or are somewhere in the 
hiring process. So, we're picking up. This still is not a final 
figure for this account. I do not expect to have a figure on 
this particular account until the end of the month.

           Impact of Local Funding Requirement on New Grants

    Mr. Rogers.  Well, 1998 will be the first year, if I'm not 
mistaken, COPS hired in the first year under this program, that 
100 percent of their cost will be carried by the locality in 
1998; right?
    Mr. Brann.  There are some cities that will be at that 
stage this year.
    Mr. Rogers.  And that's the first time obviously, because 
the grants are for three years.
    Mr. Brann.  Yes. There are some that will actually 
experience that later in this fiscal year, fiscal year 1997.
    Mr. Rogers.  Yes.
    Mr. Brann.  But what occurs is that many of the agencies, 
at the time that they receive the award, the grant itself, 
that's when they begin their hiring process. So, the end result 
is that there will be an adjusted date on many of those grants. 
We will not see most of those grants coming due for the full 
absorption of the cost by the local jurisdiction until some 
time in 1998.
    Mr. Rogers.  Well, I just wonder if those localities that 
are now facing the fact that they have to pay 100 percent of 
the cost, I just wonder if they suddenly wake up and say what 
happened to me? Now, all of a sudden they've got to pay the 
full price. Then they're saying no more of this. So, do you 
think that may be having an impact on the request for new 
grants?
    Mr. Brann.  I don't think this is going to come as any 
sudden shock or surprise to any of the local agencies. I'm 
speaking from personal experience because the practice over the 
years that the Justice Department has had with respect to 
hiring grants, is that ultimately the local jurisdictions have 
to pick up that cost.
    On top of that, we have spent a tremendous amount of time 
and energy and will continue to do so working with the local 
agencies on a case-by-case basis. Those that are expressing 
some reservations are beginning to encounter some kinds of 
financial difficulties at the local level and that may inhibit 
them. We are working with them to show them how they can absorb 
those costs.
    Mr. Rogers.  In 1995, a GAO audit reported that the primary 
reasons why jurisdictions chose not to apply for COPS grants 
were cost-related and the uncertainty that they would be able 
to continuing funding after the grant expired. For example, of 
the 14,400 local jurisdictions serving populations under 
50,000, less than half even applied for grants. The current GAO 
review shows that 15 percent ofthese new grants that have been 
awarded still have not been accepted by the localities. Why is that?
    Mr. Brann.  I think this report, again, goes back to 
experiences in 1995. I don't remember the exact dates covered 
by the GAO report. Certainly, not every agency was going to 
immediately apply for COPS grants around the country. We have 
found that an extraordinary level of smaller jurisdictions have 
made application.
    I'm not sure about these figures though. Maybe you could 
clarify those for me. I'm sorry. I wasn't following the line of 
figures there.
    Mr. Rogers.  Well, according to a preliminary report by 
GAO, 15 percent of the new grants awarded still have not been 
accepted by the localities.
    Mr. Brann.  Again, I think that this may have had more to 
do with the timing of the contact, because in many instances 
these agencies are deferring until they are certain in their 
own minds that they are going to be able to absorb those grants 
once they have made that determination.
    We don't have a problem with that. In fact, we 
automatically will extend the grant at their request, allowing 
them an opportunity to arrive at that local determination.
    Mr. Rogers.  Has there been a decline in new grant requests 
for hiring?
    Mr. Brann.  I can tell you this. In this fiscal year to 
date, we've had about 3,000 applications so far. We have a 
total appropriation for grant purposes of about $1.33 billion. 
The requests that we've received thus far this year total $1.17 
billion. We're half way through the year. Frankly, I believe 
that we're going to have, again, more requests than we can 
possibly handle by the end of this fiscal year.
    Mr. Rogers.  When you review new grant requests, what 
consideration is given to whether or not the localities have 
hired all of the officers previously awarded? Is that a factor?
    Mr. Brann.  As to what amount they hire of all of the 
officers that they----
    Mr. Rogers.  Right.
    Mr. Brann.  Well, it's not a factor in the determination as 
to whether or not they are eligible for or could receive the 
grant. It is a factor though with respect to being able to draw 
down the funding. If they receive prior grants, they will have 
to get those personnel on board and draw down on that funding 
before they could move forward on a new grant.
    Mr. Rogers.  How many grant requests do you think have been 
denied because of that?
    Mr. Brann.  Mr. Chairman, I'm not aware of any.
    Mr. Rogers.  You mean if a community has received a grant 
for 25 new COPS and they haven't hired them and then they apply 
for more, it doesn't color your judgment about whether or not 
to give the second grant?
    Mr. Brann.  No. Let me explain that. The hiring process is 
often times not really understood--just how cumbersome this can 
be for local agencies. Again, in my own experience, and I ran 
the personnel and training section in one department for four 
years, it is not at all unusual to require 12 to 18 months to 
go through the complete recruitment, hiring, and training 
process before you get an officer on the street.
    Because of that significant time lapse, agencies will 
already be planning for subsequent fiscal years or cycles so 
that they can bring personnel on, and they will be making 
application----
    Mr. Rogers.  But, you are three years into the program. 
Surely, there are some communities that have had plenty of time 
to hire the officers that you've given grants for two or three 
years ago and they've applied for some new ones. Does the fact 
that they have not hired those original officers become a 
factor for new grants?
    Mr. Brann.  Okay. If in fact we have a situation where 
somebody received a grant, say, in fiscal year 1995 or early 
fiscal year 1996 and they've not acted upon it and are coming 
back to us, we're not even processing those. Typically, what we 
do is hold their request until such time as we find the status.
    Mr. Rogers.  Okay. Well, how many of those do you have?
    Mr. Brann.  I could not tell you off-hand.
    Mr. Rogers.  Would you supply that for the record.
    Mr. Brann.  Yes.
    [The information follows:]

                           Prior Year Grants

    There are 1,232 COPS grantees that have not hired or 
redeployed officers funded by grants dating back to the start 
of the program. Some of these agencies, about 16 percent, have 
COPS MORE grants for equipment and technology. Procurement 
processes at the local level often take a great deal of time, 
well over a year in many cases, and have resulted in delays of 
full implementation of these grants. We will continue to 
monitor these grants and their related hiring and equipment 
acquisition activities.

    Mr. Rogers.  It took awhile to get there.
    Mr. Brann.  I'm sorry.

                  funding for technology and equipment

    Mr. Rogers.  Are localities now requesting more funding for 
equipment and technology instead of new officers?
    Mr. Brann.  Localities have been doing that all along. 
We've actually had every year more requests for technology and 
civilianization than we could fund. I can tell you that this 
year we've already had requests in excess of our capacity to 
fund for the COPS MORE Program.
    Mr. Rogers.  Now, the current COPS statute only allows you 
to use 10 percent of the funding for COPS MORE Grants. That's 
for equipment and technology in fiscal year 1997. Would the 
Administration support a change to the law to increase the 
allowable proportion of COPS MORE funding above the 10 percent 
in view of the fact that I think you're getting a lot of 
requests for equipment and technology as opposed to more 
officers?
    Mr. Brann.  I would not be so presumptuous as to speak on 
behalf of the Administration. I can tell you from personal 
experience, from what I've seen both as the Director of this 
Office and as a former Police Chief, that there is intense 
interest in the COPS MORE Program. I am very supportive of 
seeing that amount increased once again because I think it 
better responds to those local needs.

                          local funding issues

    Mr. Rogers.  The GAO told us one of the options being 
considered by the COPS office to encourage localities to 
sustain hiring levels is to deny future Justice grants to 
localities that fail to make good faith efforts to sustain 
hiring. What does that mean?
    Mr. Brann.  If we were to find that a local agency, as a 
result of one of our earlier grants, did not honor their 
commitment to retain the officers to sustain that effort, 
certainly that's a violation of the grant conditions. The only 
way we really have of enforcing this is to consider the impact, 
their lack of good faith effort, what effect it would have on 
future benefits.
    Mr. Rogers.  Now, again, we're going to be short of money 
on our Subcommittee; nothing new there. But it is still a fact 
of life. If localities are not being able to absorb with their 
own monies, the new officers that you have provided grant 
monies for, shouldn't we look at stretching out funding for the 
COPS Program over the next three years in a manner where you 
can add new officers at a rate that localities can absorb? 
Wouldn't that be the smart thing to do? We'll still get to the 
100,000 by the year 2000, I think.
    Mr. Brann.  I think it may be premature to draw conclusions 
on that as of yet because we are still early on. We've not seen 
these grants actually come to closure. Until we have some 
better indication that there is, in fact, a significant 
problem, I really don't believe that that's going to be the 
case. I would not make that argument.
    Mr. Rogers.  Well, in closing this portion, let me just 
say, 46 percent, according to your own telephone survey and 
GAO, only 46 percent of the police officers funded by COPS 
Grants through the end of 1996 are on the street. It tells me 
that the process of hiring is slow and cumbersome, but it also 
tells me that a lot of communities, and I know a lot, half of 
the small ones, don't even think they can afford this.
    I think we'd be wise, given our budget constraints, to 
recognize that and use it to your advantage and our advantage 
in trying to make our monies go as far as we can, given the 
scarcity of things. What do you think?
    Mr. Brann.  The only part I'd like to underscore again is 
what happens in the recruitment, hiring, and training process, 
the length of that. What we're beginning to see is a steady 
increase in how quickly these agencies are beginning to get the 
staff on board. Certainly, for anyone who is not familiar with 
that hiring and training process, I can see this argument.
    I can understand why this argument clearly would be made. 
Dealing with this directly, the law enforcement agencies, as 
they begin to gear their personnel practices and processes up 
to such a point that they are bringing those personnel on board 
more quickly, I think there is going to be a significant 
increase in that number.
    I would say that we've already seen that there is a 
significant impact on the small towns with the any funding that 
we've been providing. Of the total 56,000 positions that we 
have, over 10,000 of those positions have gone to jurisdictions 
serving communities of less than 10,000.
    About 21,000 have gone to jurisdictions serving populations 
of under 50,000. So, there is a huge demand there. In fact, I 
think this is one of the reasons that we saw such an 
overwhelming demand coming from these small jurisdictions 
around the country. They've never had the opportunity to 
address this before. As a result, in many instances, they 
didn't even have personnel practices in place to allow them to 
make improvements.
    Mr. Rogers.  Mr. Mollohan.

                  localities retention of all new cops

    Mr. Mollohan.  Thank you, Mr. Chairman. I join the Chairman 
in welcoming the witnesses to the hearing today. Just following 
up a little bit on the Chairman's questions.
    Did you, Mr. Brann, in your testimony tell us what percent 
of the communities will not be able to sustain the COPS hires 
their Federal funding provided?
    Mr. Brann.  I think that was one of the issues the Chairman 
was trying to address. Unfortunately, I can't give a clear 
indication. Again, there just isn't experience here to reflect 
that. One thing though that we have emphasized up front 
throughout the course of this funding, in our repeated contacts 
with these agencies, is that there is an expectation, that it 
is their obligation to assume the cost of these grants.
    Mr. Mollohan.  And to keep the police that they hire under 
this program on the payroll after the payroll terminates?
    Mr. Brann.  That is correct.
    Mr. Mollohan.  So, the Federal Government's expectation and 
requirement is that 100 percent of the police hired under the 
COPS Program be retained after Federal funding terminates.
    Mr. Brann.  That is our expectation.
    Mr. Mollohan.  Is that statutory or is that a part of the 
program as you've defined it in the regulatory process?
    Mr. Brann.  That is statutory. It is contained within the 
provisions of the Crime Act.
    Mr. Mollohan.  Have you thought about how realistic that 
expectation is?
    Mr. Brann.  Yes sir. We have.
    Mr. Mollohan.  What is your thought about how realistic it 
is?
    Mr. Brann.  I think there in fact will be some loss there. 
What that will amount to is hard to say. I think itis going to 
be minimal.
    Mr. Mollohan. No. I know there is going to be a loss and 
you do too. I'm sorry. I probably didn't ask that question well 
enough. Do you think that that's a realistic requirement?
    Mr. Brann. Yes. I do.
    Mr. Mollohan. I don't. I don't think its realistic to think 
that a jurisdiction that hires 20 will be able to sustain them. 
I'm just amused about it here a little bit, but just until we 
can get more of your opinion on it. Do we have any that hire 20 
or will be hiring that many?
    Mr. Brann. Absolutely.
    Mr. Mollohan. About what size of community would that be?
    Mr. Brann. For 20 officers, I would say jurisdictions 
typically, well, some as small as 50,000 population and other 
100,000, 150,000.
    Mr. Mollohan. Okay. So, there are a lot of communities in 
the country that size that will have 20 police officers who are 
in the COPS Program. So, after three years we're asking them to 
fully fund the officers.
    What would be wrong, just if you were testifying before the 
Authorizing Committee about this, what would be wrong with 
saying at the end of that period our expectation is that you 
retain three-fourths of those officers because there are some 
communities that are going to find that they can't afford it?
    Also, isn't the idea that the COPS Program, we're trying to 
address a bubble here and hopefully at the end of this five-
year period we will see it reflected in the crime rate? We will 
have certain reduction in the crime rate and therefore maybe--a 
need for these officers?
    Mr. Brann. I think there is a whole host of issues. If I 
could just take a moment.
    Mr. Mollohan. Please.
    Mr. Brann. I'd like to put this in a broader context. First 
of all, most agencies are not going to come in and make a 
request for a significant increase. Let's say between 50,000 or 
100,000 requesting 20 officers in one swoop.
    Typically, it's going to be over the course of several 
years. That's really the aim of our grant programs--not to 
force them or entice them to try to do everything at once, but 
instead a gradual assimilation of those costs which is one 
benefit of the way it is structured.
    Another factor here is exactly what you've stated. That is 
we are trying to address the significant increase in crime that 
we've seen across this country over a period of time to bring 
these rates down. I don't think you will find anybody in the 
Justice Department who will argue that if an agency has been 
successful with the use of this funding in hiring for these 
positions--if they are able to bring about a significant 
reduction in their crime rate, who are we to tell them that 
they should, furthermore, keep those positions? That's not what 
we're doing. But we are trying to ensure that they are not 
using this to supplant their budgets, to just use the Federal 
funding for a short period of time. Ultimately, they are going 
to have to make that determination.
    I can tell you from personal experience in the two 
communities that I've worked in: Santa Ana, California is an 
excellent example, a classic example. One of the earliest 
agencies in this country to fully engage themselves in 
community policing starting in the early 1970s.
    Their crime rate has declined in 19 out of the last 22 
years. If you were to look at the crime rate per thousand 
population and their staffing per thousand population, you 
would find that their staffing level has gone down as well. But 
that's not to say that they don't have crime and they don't 
have needs.
    I think that's what we're arguing for--we want programs 
that are responsible, but take into consideration how they use 
those personnel; that they don't abuse the Federal monies there 
either. So, I think the question is essentially how long should 
they retain the positions? I would be a little bit careful of 
just saying you're only obligated to maintain two-thirds or 
three-quarters of those.
    I'm not sure that there is a magic number that we can come 
up with. But I think we certainly have to be responsive to 
their unique needs on the local level. It could be a 
combination of cost considerations.
    Included in that could be a concern on their part that we 
don't need to maintain the staffing level because we have 
achieved a significant crime reduction. I think the community 
is in the best position to make that call.
    Mr. Mollohan. Under the Federal statute they'd be required 
to retain those positions. There is a retention requirement 
that is for a certain period of time.
    Mr. Brann. There is no time provision there. In fact, this 
is something that even the GAO and the Inspector General's 
Office have both addressed that it is very, very difficult to 
make this call on what retention consists of.
    Mr. Mollohan. So, that's a policy issue that's unanswered.
    Mr. Brann. Yes. It is. If I could, just one of the things 
contained within the applications, it requires that the agency 
specify plans for obtaining the necessary support and 
continuing the proposed project or activity following the 
completion of the Federal support. Therefore, their retention 
has to be addressed.
    Mr. Mollohan. How much total money are you asking for this 
program?
    Mr. Brann. The total money is $1.445 billion.

                   LOCAL LAW ENFORCEMENT BLOCK GRANT

    Mr. Mollohan. I'm sure the Chairman will ask some questions 
about this, but you didn't request any money from the Block 
Grant Program?
    Mr. Brann. No, sir.
    Mr. Mollohan. I see. Did you?
    Ms. Robinson. Obviously, there are tough choices to be 
made.
    Mr. Mollohan. How is the Block Grant Program going?
    Ms. Robinson. The Block Grant Program is going well I 
think. I'm proud of the way that our Bureau of Justice 
Assistance administered that. We got out close to 3,000 grants 
within a four-month period last year. We automated our grant 
system to make that happen. We've seen interesting spending 
patterns out of that.
    Mr. Mollohan. What's interesting about this?
    Ms. Robinson. Well, it's interesting to me to see the way 
that spending broke down. We saw 46 percent of the money spent 
on technology and equipment; 18 percent on hiring; 14 percent 
on overtime; about 8 percent to the courts; about 9percent to 
prevention and then the rest to other more minor areas.
    Mr. Mollohan. On the hiring, are those one-year grants?
    Ms. Robinson. Yes. They are. It can be spent over a longer 
period of time. But in fact, we have the appropriation 
obviously for the one year.
    Mr. Mollohan. Are there any retention requirements 
associated with those hiring grants?
    Ms. Robinson. No. There are not.
    Mr. Mollohan. Can you talk to us a little bit about how 
that's working; well, probably not. It's just the first year.
    Ms. Robinson. This is the first year of the program. The 
grants went out in the last week of September of 1996. Most of 
the jurisdictions have not spent the money at this point. What 
they've done is tell us where they plan to spend the money. The 
next progress reports are due in July.
    We will have a better report for you at that time on 
exactly how the spending is going, how many officers, for 
example, are being hired with that money. The 18 percent is 
roughly $65 million.
    Mr. Mollohan. So, implicit in that program is the second 
year that the officer is on the payroll. Either they will make 
application for another grant or else they will assume that 
cost.
    Ms. Robinson. That would be my understanding.
    Mr. Brann. I'd like to add something. The Block Grants are 
not used strictly for hiring purposes. The purpose is for using 
whatever way----
    Mr. Mollohan. She said September. Some for hiring.
    Mr. Brann. So, I guess the real point there is it is not 
just officers. Based on my conversations, and I don't know 
whether there is detailed budget information on this, but a 
fair amount of that is used for civilian positions that many of 
these agencies are desirous of obtaining as well.
    Mr. Mollohan. But many of them in the second year, to the 
extent that the programs are being used for employee hires, 
they are going to have to pick-up the cost or someplace else 
make personnel adjustments in the system. So, to be fair about 
it, if you take the two programs working together you're 
addressing a lot of law enforcement needs out there.
    Mr. Rogers. Mr. Latham.

           COUNSELING FOR LOCAL JURISDICTIONS ON COPS FUNDING

    Mr. Latham. In response to the Chairman, you earlier said 
that when communities run out of money, you offer some kind of 
counseling.
    Mr. Brann. We do provide direct assistance. One of the 
things we did in this program is we set up grant advisors who 
work with every agency so that there is a single point of 
contact. As issues arise or questions come up or problems need 
to be addressed, they have the same point of contact. Plus, we 
have a better knowledge and understanding of what their local 
needs might be. So, there is consultation going on, on a 
constant basis about these funds, strategies, and what we're 
working with.
    Mr. Latham. You said that you were giving advice to local 
law enforcement at the end of three years. What advice are you 
giving them?
    Mr. Brann. As an example, how they might be able to absorb 
these costs beyond the Federal funds.
    Mr. Latham. What is that advice?
    Mr. Brann. Everything obviously from the use of local 
general fund revenues to such things as the use of asset 
forfeiture monies which they are allowed to do. I can tell you 
from personal experience and having watched other agencies do 
this as well, turning back to the business community in many 
instances, getting them to pick up some of that cost to make 
efforts to retain those. CDBG monies can be used to meet the 
matching requirement and as a result could potentially be used 
beyond the life of the Federal funds, depending upon the nature 
of the program or strategy on the local level.
    Mr. Latham. All right. In my district, which has a lot of 
very small communities, we have 41 officers in the program in 
the entire district. And I hear everywhere in the district that 
the communities cannot afford the future cost. They would much 
rather have help with technical assistance.
    That's why I'm concerned about zeroing out Block Grants. 
Couldn't the hiring money be possibly used for new technology? 
Enforcement units would need to install the equipment and make 
sure it works; not necessarily on an ongoing full-time basis. 
With new equipment, you might hire someone for a said period of 
time to make those discoveries and to make sure the systems are 
up and working.
    Ms. Robinson. Yes; or particularly training.
    Mr. Latham. Right. So, it wouldn't necessarily be ongoing 
expenses in those particular cases.
    Ms. Robinson. That's correct.
    Mr. Latham. It is very frustrating for me because I have 
small communities in my district--40,000 in one community, my 
second largest. They simply don't have the assets or the budget 
to match the required 25 percent. They don't have it. They are 
out of money. We have a property tax freeze in Iowa. 
Communities are extremely frustrated with the COPS program and 
certainly do not support it at all. You are zeroing out the 
Local Law Enforcement Block Grants?
    Ms. Robinson. Yes. The Administration has requested no 
money for this.
    Obviously, there are tough choices to be made when there 
are great needs and a limited pot of money. As we looked at the 
needs, especially in the violence area, and specifically to 
target help to prosecutors and courts, the decision was made by 
the Administration to support that.
    Mr. Latham.  In my part of the country, we have a 
tremendous increase in drugs in the rural areas. We would much 
rather see the funds go to block grants, as far as technology 
and radio equipment funds are concerned. So, if you've got to 
make tough choices, I would disagree----
    Mr. Brann.  Congressman Latham, if I could comment on a 
couple of issues. One, that the COPS MORE funding, again, as 
mentioned that is an area that is extraordinarily popular for 
addressing technology, civilianization and other needs. I think 
that's been one of the good things about the way that the COPS 
Program and the funding behind it has operated previously.
    At the same time, some agencies are really having 
difficulties at the local level even coming up with matches, 
for example. There is a provision that was written into the 
Crime Act that we utilize, and in fact as time goes by, we 
utilize it more extensively, and that is the waiver on the 
local match. It also then puts a jurisdiction in a position if 
they're getting a waiver, to actually accumulate some savings 
over time.
    Mr. Latham.  If they don't have the savings----
    Mr. Brann.  What I'm finding and I mean this is not to 
dispute at all what's going on in your district because I think 
this is an issue in some communities, and particularly in the 
more economically deprived areas around the country too, that 
we have to address. But that's one of the reasons we try to get 
out there in the field to meet with agencies and 
representatives.
    I've spent a lot of time myself on the road. There is some 
benefit in our coming out to meet with grantees or potential 
grantees in your district. To me, it's extraordinarily 
important to do this because this is where we get our feedback 
about what we need to do to modify the programs 
administratively, make them more responsive in the long-run.

                           prevention program

    Mr. Latham.  I spent six months last year purposely going 
to county law enforcement, to cities within the district. I 
talked with virtually every county and community. It was very, 
very unusual to find support for the program. Like you say, it 
is because they just can't afford it given the long-term 
liability. I've done what you've said. In your Prevention 
Program, how much funding do you use for public service 
announcements?
    Mr. Bilchik. None out of our Prevention Program. We have a 
program that we're working on with the Bureau of Justice 
Assistance. A public information and education campaign that's 
separate and apart from our Prevention Program. Our Prevention 
Program is designed to fund local programs.
    Ninety-five percent of the money must go into program 
operation. Only five percent of the Prevention Program right 
now--and what we are requesting in terms of the At-Risk 
Children's Initiative Program--can be used to administer the 
program. Ninety-five percent has to go into program operation. 
Five percent can be used by the state government for operating 
the program.
    Mr. Latham.  Is there any provision, and I don't have a 
breakdown, as far as funding in rural areas rather than urban 
areas? Is there any targeting at all for going into the rural 
areas?
    Mr. Bilchik.  I don't have that information on hand. I can 
try to find out if we have it and get it for you. The way the 
program is designed, it allows all communities within the state 
to come in with three-year prevention plans and submit those to 
state agencies who administer our formula funds and then give 
grants down to local communities.
    I know anecdotally that a lot of rural communities are 
using the money. In particular, I know that in Iowa they've 
been very aggressive in doing a statewide evaluation of the 
Prevention Program through the Social Work Department at the 
University of Iowa. They've analyzed 20 sub-grants that have 
come about as a result of the program.
    They have done on-the-ground surveying of those communities 
to see what their reaction was to the program, what kind of 
money they were receiving, and what kinds of activities they 
were engaged in. And they have some outcome evidence as well, 
particularly from Sioux City on a couple of the program things 
they're doing. But, I can't profile those 20 communities for 
you today.
    Mr. Latham.  Can I have access to that information?
    Mr. Bilchik.  Absolutely. This is just coming out as a part 
of our report to Congress on the Title V Program that will be 
coming out in the next several weeks.
    [The information follows:]

                  Evaluation--Iowa Prevention Program

    This information, from the report to Congress on the Title 
V Program, is not yet completed. It will be provided to the 
Subcommittee as soon as available.

    Mr. Latham.  Obviously, Sioux City is----
    Mr. Bilchik.  Sioux City has experienced a 37 percent drop 
in police calls over the three-year length of the program and 
an 80 percent drop in juvenile adjudications for the targeted 
population under the program. So, I'll be glad to get you that 
information.
    Mr. Latham.  Thank you, Mr. Chairman.
    Mr. Rogers.  Mr. Dixon.
    Mr. Dixon.  Thank you, Mr. Chairman. Director Brann, it is 
my understanding that at the end of fiscal year 1998, there 
will be jurisdictions that are graduating from the program.
    Mr. Brann.  Yes.
    Mr. Dixon.  And you have a list of those communities that 
will be graduating?
    Mr. Brann.  We can identify every community and exactly 
when they will have to move from Federal funding to local 
funding.
    Mr. Dixon.  Could you provide those to the Committee?
    Mr. Brann.  Yes.
    [The information follows:]

                         Graduating Communities

    Up to 6,619 police agencies have hiring grants that could 
expire in FY 1998, depending upon when they began to draw down 
grant funds. Many of these grantees will apply for ``no-cost 
extensions'' of their grants. For example, a grant may have 
been announced in FY 1995, but the grantee may not have hired 
the officer until months later. The grant period runs three 
years from the date of the announcement. Many grantees thus 
want to extend the grant period, or the time during which they 
can ``draw down'' funds, to three years from the hiring date. 
These no-cost extension requests are routinely granted. In 
these cases, some FY 1995 grantees may not reach the end of 
their grant period until FY 1999.

                         retention of positions

    Mr. Dixon. As I read the law there, is there a requirement 
in their application or the actual law that they notify you of 
what they intend to do?
    Mr. Brann.  Yes. We've typically asked for that up-front in 
their application process, an acknowledgement on their part 
that they understand that there is that action required.
    Mr. Dixon.  So, in this application there is a numerical 
figure as to what they will retain.
    Mr. Brann.  The requirement is that all of the positions be 
retained.
    Mr. Dixon.  Well, as you are well-aware, in a police 
department there is the attrition factor.
    Mr. Brann.  Yes.
    Mr. Dixon.  There are people that die. There are people 
that take disability retirement. There are people that retire 
under normal circumstances. So, unless there is a miracle 
number that the jurisdiction will sustain, it is very different 
to say whether one is retained or not, except the individual. 
Is that correct?
    Mr. Brann.  You're absolutely correct.
    Mr. Dixon.  There is no numerical level that a community in 
fact will stay above or at.
    Mr. Brann.  They have to identify with their base line 
prior to the application.
    Mr. Dixon.  Oh, they do. So, there is a numerical number.
    Mr. Brann.  Yes.
    Mr. Dixon.  I look at the COPS Program a little bit 
differently. So, correct me in my philosophical view. I thought 
that the program was designed in part to give a spike to the 
employment of law enforcement officers. In other words, to give 
a rush or increase the population through federal assistance 
with the hope that it would bring a decline in crime which may 
or may not be sustained at a later date with a smaller 
population, police population.
    Mr. Brann.  That is correct.
    Mr. Dixon.  In other words, a community may decide for 
political reasons that they need to keep this spike or they may 
make a political judgment that they have crime under control 
and they can reduce that by a certain amount. I mean, is there 
necessarily in any given community, any magic in retaining a 
certain number.
    Mr. Brann.  There is no magic number. You're absolutely 
correct. If I could use by way of an example, my personal 
experience in Santa Ana where in one year we increased staff in 
that city by 110 additional personnel. This was in fact to get 
our community policing efforts launched.
    As a result of that huge infusion of resources, we saw a 
tremendous decline in the crime rate, not only in the 
subsequent years but over the long haul because of other 
subsequent fiscal difficulties, such as--Proposition 13 in 
California, it impacted the ability to maintain that staffing 
level on a continuing basis. The agency certainly has no 
trouble mandating. These are all local funds.
    But the community, the department, made a determination to. 
They were better able to maintain their crime decline, though, 
because of the influx of personnel there, the infusion, and 
ultimately getting some of this under control. I think that, in 
my view, is what this Crime Act ultimately does.
    Mr. Dixon.  So, the fact that there is a retention number 
is kind of confusing. Some people think the purpose is to 
maintain x-number of police officers at all times and that the 
Federal Government is just financing the first three years.
    Mr. Brann.  There is no way that we can go back and hold 
anybody for the long-term to account.
    Mr. Dixon.  Those are generally political decisions made by 
counties and city councils and those people change from time-
to-time?
    Mr. Brann.  Yes, sir.
    Mr. Dixon.  That would also account for the COPS MORE 
program becoming more and more popular, COPS MOREbecause 
community-x may realize that they are at a certain level and can't or 
don't want to afford more, but they want to shift into giving these 
people that they've hired better equipment or technology to work with. 
Isn't that true?
    Mr. Brann.  We find with many jurisdictions around the 
country that their staffing levels or current staffing levels 
are by and large based upon their assessment of their desire to 
free up existing staff.
    I've gone through this experience in both agencies I've 
served in where we realized that we had personnel who were 
working in support and administrative assignments that could 
have been better staffed and more cost efficiently staffed by 
civilian personnel, and putting those personnel back on the 
streets. That's exactly what the COPS MORE Program does 
accomplish.
    Mr. Dixon.  My colleague, Mr. Latham, said that in his 
travels in his district that, in fact, there were people that 
were not satisfied with the program because they couldn't 
afford it. You're not pushing these programs on communities; 
are you?
    Mr. Brann.  Absolutely not.
    Mr. Dixon.  There is no requirement that anyone do this.
    Mr. Brann.  No.
    Mr. Dixon.  Thank you, Mr. Chairman.
    Mr. Rogers.  Thank you, Mr. Dixon.

                        drug use among juveniles

    Now, I want to talk to Mr. Bilchik about drug use among 
juveniles, a favorite annual topic of ours.
    Mr. Bilchik.  I was wondering if it was going to be on the 
agenda again today.
    Mr. Rogers.  So, here we are. Whatever else may be 
happening on the crime rates I think, as your testimony and the 
chart that you included in your testimony shows, the drug use 
among teens and a continuing decline in the perceived harm of 
drug use, is skyrocketing.
    Last year we displayed some charts which showed the 
increase of drug use amongst teens. This year we've got some 
new charts that show a continuing rise in the problem and that 
we are approaching levels of drug use among teens that were 
witnessed ten years ago at record high levels.
    Cocaine use by tenth graders is up 142 percent. Marijuana 
use by eighth graders is up 205 percent. Juvenile arrests for 
drug abuse violations increased 138 percent over the last four 
years. While the Attorney General reported a 3 percent decline 
last year in youths arrested for violent crime, youths arrested 
for drug abuse violations increased by 20.3 percent. A 1995 DOJ 
report found that one in three juvenile detainees were under 
the influence of drugs at the time of their arrest.
    Studies have also found that marijuana is a gateway drug 
leading to the use of other drugs such as cocaine, heroin; and 
marijuana use among teenagers continues to skyrocket. The 
latest survey conducted by the Partnership For a Drug Free 
America, reported this month that the rising popularity of 
illegal drugs amongst teenagers is trickling down to their 
younger brothers and sisters who are starting to try marijuana 
themselves. The study which focused on children ages 9 through 
12, that's grades 4 through 6 roughly, found that 24 percent of 
these kids were offered drugs; one in four. Those who had 
experimented with drugs rose to 4 percent from 2 percent. 
Children were less likely to believe that people on drugs are 
``stupid''--71 percent said so in 1995; only 65 percent said so 
in 1996.
    NIH reports in 1995 the serious and harmful affects of 
marijuana as we recollect, which include that it impairs 
learning and memory, perception, judgment, complex motor 
skills. It causes difficulty in speaking, listening 
effectively, thinking, retaining knowledge, problem solving, 
forming concepts, a decreased drive in ambition, shortened 
attention span, poor judgment, high distractibility, diminished 
effectiveness of interpersonal skills, intense anxiety, panic 
attacks, paranoia. And daily use of one to three joints of 
marijuana appears to produce the same lung diseases and 
potential cancer risks as smoking five times as many 
cigarettes, speaking of which I don't see the Administration 
pushing eradicating smoking marijuana as much as they are 
eradicating smoking cigarettes, tobacco. So, the question is 
what are you doing about all of this?
    I want to look now at this year's charts. We're going to do 
this every year for awhile here just to give you your report 
card. So, here is your report card. The one on my left, in 1995 
an estimated 9.8 million Americans were current marijuana 
users. And 3.6 million of these were between the ages of 12 to 
17. That's 37 percent.
    [The information follows:]

[Page 969--The official Committee record contains additional material here.]


    Mr. Rogers. Overall--that's the lower chart, the one in 
purple on the bottom; the upper part of that chart. Overall, 
4.9 million youth, ages 12 to 17, are current users of illicit 
drugs. The most disturbing trend is that teen drug use may soon 
exceed 1985 or even 1979 record levels. And you will notice 
that deep shift in 1992. And that's when we changed policies on 
drug use.
    [The information follows:]

[Page 971--The official Committee record contains additional material here.]


    Mr. Rogers. Now, to the other chart. Between 1994 and 1995, 
the rate of marijuana use among youth ages 12 to 17 increased 
from 6 percent to 8.2 percent. That continues a trend that 
began during 1992 and 1993. Since 1992 that rate has more than 
doubled. What happened?
    Now, you said last year, to refresh your recollection, Mr. 
Dixon asked you in essence, and I'm going to paraphrase his 
question to shorten it, that somehow we backed off the focus on 
teenage drug use and therefore there has been an increase. ``Is 
that your view?'' he asked you.
    And your answer was, ``Yes. I believe that we are focused 
on guns. We are focused on violence. Those have become the 
preeminent issues. And that we need to be sending consistently 
strong messages about drug use as well.'' And then he also 
asked you ``what happened?'' And you said, ``I think a part of 
it was a drifting in terms of other critical issues that have 
come up that have caught our attention and we're sending strong 
messages now on those things. There is a divergence of 
attention to a certain degree.'' That's page 695 of the hearing 
last year.
    Now, here we are a year later and that skyrocket is even 
stronger than it was last year. We've not only not made a dent 
in it, we've actually seen the rate accelerate. Can you help us 
out?
    Mr. Bilchik.  We're trying to help us out. The increases 
are of concern to us as they were last year and they continue 
to be a concern. We've tried to identify the things that we 
think work best in supporting local and state communities and 
supporting families in sending messages to kids about the 
harmfulness of drugs, and which encourage them and cause them 
not to use drugs.
    That's why I attached this chart to my testimony because it 
really displays how the perception of risk in our children's 
minds about the harmfulness of drugs relates to their usage. 
And if we send strong messages to our kids about the 
harmfulness, the reduction in use is there.
    You can see it over the years; the late 1970s reflected on 
that chart all the way into the middle 1990s. So, we try to 
identify things that can work in supporting families in taking 
on this very difficult task in reversing this trend. It's going 
to take us a long time.
    One of the things that I would like to share with the 
appropriators that we've done most recently, particularly since 
you've funded these activities, is getting information out to 
communities on things they can be doing that will help to 
decrease drug and alcohol use, and not just through long 
voluminous documents--I have additional copies of this to share 
with the Committee.
    This just came back from the printer yesterday, 
coincidentally, and is not even out into the field. It will be 
mailed over the next week. It describes how mentoring programs 
can have an impact on alcohol and drug use. And you know one of 
our categories of appropriated funds is for mentoring--which is 
also one of the strong areas of funding that plays out in our 
Formula Program.
    Although we're funding 93 communities' mentoring efforts 
through the Jump Program; another 91 communities are being 
funded through the Formula Grant; so, almost 200 communities. 
What the mentoring programs have shown is that they can 
influence the level of drug use and alcohol use; in particular, 
the initiation of alcohol and drug use.
    That pathway that you've described, Mr. Chairman, we can 
interrupt it. A 46 percent reduction in drug use by children 
who went through the Big Brothers and Sisters Program 18 months 
after their entry. A 27 percent reduction in alcohol use. 
That's just one piece of it, but it is a type of approach that 
we're trying to work with the communities or by getting the 
information to them on the things they can do as they rally 
around this issue.
    This year we're funding with the President's Crime 
Prevention Council an effort that will go into at least a dozen 
communities that will rally youth around the issue. So, youth 
will also send these messages. Our goal is to have the messages 
sent to our youth in the home, in the school, in their church, 
and by their friends at the community center--to bombard them 
with this message.
    We have a grant with the Congress of National Black 
Churches that is reaching 2,000 congregations and 1.5 million 
youth and their families in addressing the issues of drug abuse 
and violence. We're working in a variety of settings through 
our sub-grants and formula programs to send that message.
    It's going to take awhile for us to send it strongly and 
often enough, but I'm convinced that if we change that 
perception through those messages, like the mentoring programs, 
by funding local communities through our voucher program at a 
cap of $10,000 and as a result, reaching small community-based 
operations that cannot otherwise really compete for the big 
grants to help them develop efforts on the local level to take 
on the drug and violence problems. It's our hope that this in 
total will allow communities to address this issue and see that 
trend reversed.

                      juvenile drug abuse strategy

    Mr. Rogers.  Well, pardon me for saying this, but I don't 
think you or I have a big enough microphone or megaphone to 
reach the people that we're trying to reach. I don't see in the 
Administration a concentrated strategy emanating from the White 
House; new laws, tough penalties, law enforcement strategies, 
targeting resources, using the bully pulpit, whatever.
    I just do not see that happening to address kids to 
increase their perception that the use of drugs is harmful, and 
risky, and bad. We don't see that message out there. I don't 
want to compare Administrations. The only one I can think of is 
the ``Just Say No'' Program that the Reagans had. It may have 
been corny. It may have been naive, what have you, but it was a 
message and it got out there. It penetrated the fog so to 
speak.
    I just don't see anything equivalent to that type ofbully 
pulpit preaching coming out from the only people that have a big enough 
microphone to reach these masses of teenagers and that's the White 
House. Am I wrong in that? Is there a big message coming out that I'm 
somehow missing?
    Mr. Bilchik.  Well, I think General McCaffrey has recently 
announced----
    Mr. Rogers.  I don't mean the General. I'm talking about 
the President. I mean you, and I, and the Secretary of State 
can holler and scream all we want and no one pays any 
attention. It's like that old saying back home, don't worry 
about what people are saying about you, they ain't saying 
nothing. I mean, we can scream all we want and no one listens. 
It's got to come from the President. What's he doing about the 
nation's crisis in teenage drug use?
    Mr. Bilchik.  I think President Clinton through the Cabinet 
Members, as well as through the individual efforts of the 
agencies, is trying to send that message--through Secretary 
Shalala, through the Attorney General, through General 
McCaffrey, through his own comments about the need to address 
this issue and the need to stop our youth from getting involved 
in drug abuse.
    Mr. Rogers.  I mean all the messages we hear from the White 
House is these bad cigarettes are going to kill you. Stop 
smoking tobacco. The kids aren't dying from smoking tobacco. 
They're dying from the use of drugs. Just this past week there 
was an absolutely horrible story. Four teenagers in my district 
obsessed with drugs and the occult massacred a family in 
Eastern Tennessee, a young family; a parent and two or three 
small kids; just absolutely massacred them. Then fled to try to 
get to Mexico and were caught at the border.
    Drugs and the occult--this is our problem. It's not, for 
God's sake, smoking cigarettes. It's smoking marijuana and 
cocaine by eight and nine and ten year olds. And all the 
President talks about is smoking cigarettes. How can we 
convince him to get on the bandwagon to stop this curse that's 
taking over our nation?
    Mr. Bilchik.  I think we've identified some of the 
strategies that we can advocate to communities and train them 
in using. And that's what we're out there trying to do. 
Hopefully, over time it will be successful in getting the 
message out there loudly and strongly enough.
    Mr. Rogers.  Well, where in your budget request are new 
programs that directly address the drug crisis amongst 
teenagers?
    Mr. Bilchik.  It is our expectation that with the At-Risk 
Children's Initiative, increasing the Title V Program from $20 
million to $75 million, the communities will be able to fund 
the types of programs that can address this in a preventive 
mode and in an early intervention mode in interrupting the 
cycle of children getting involved in drugs. That's what the 
Mentoring Program does. It interrupts that cycle.
    Mr. Rogers.  But is it directed at drug use?
    Mr. Bilchik.  It's directed in a way that communities can 
determine what their particular problems are and where their 
funding needs are and then utilizing it appropriately.
    Mr. Rogers.  You said we had drifted last year. There had 
become a divergence of attention to a certain degree. I still 
think there is a divergence. You're spreading your message 
across all sorts of arenas. I don't see anything in your budget 
request that focuses like a laser on this serious problem. This 
is not just an average increase of some proportion. This is a 
skyrocketing use of drugs by teenagers at even lower ages than 
we've ever seen before and at record levels. This is a crisis 
we're into here. Do you admit that?
    Mr. Bilchik.  I admit that.
    Mr. Rogers.  But you're diverging your message. It's across 
all spectrums. Why can't we focus on this drug use?
    Mr. Bilchik.  Mr. Chairman, I think that the things that 
the At-Risk Children's Program will fund will result in the 
outcome that you're looking for; in creating a healthier 
family, and healthier children that are more law abiding. You 
will see a reduction in drug abuse by children and juveniles.
    It may seem broad, but family strengthening, a life skills 
curriculum in school, has reduced drug abuse by 59 to 75 
percent in some communities. That may seem like a broad 
approach, but it results in alcohol and drug abuse reduction. 
That's what the At-Risk Children's Initiative is about. 
Hopefully not just reducing drug use, but also delinquency and 
violence.
    Mr. Rogers.  Assistant Attorney General Robinson, what do 
you say about all of this?
    Ms. Robinson.  Mr. Chairman, there are a number of things 
that we're trying to do to address this. I do think that 
General McCaffrey, and I'm not intimately familiar with his 
budget, but as I understand it that he has proposed a large new 
initiative to, in fact, get that message across, and across 
very strongly, to America's youth.
    Through our Bureau of Justice Assistance we have several 
programs we will be pursuing, including the National Crime 
Prevention Council. From the supply side to the multi-
jurisdictional drug task forces which have targeted marijuana 
specifically in a number of jurisdictions to make sure that the 
plants never get processed into marijuana that can be sold on 
the street. Clearly, that's an important side of it as well.
    Mr. Rogers.  That's not a new strategy. That's the same old 
stuff. We've tried the same old stuff. You've tried the same 
old stuff during your Administration. Here are the results. 
Look at it. It's skyrocketing. It's not working. Do you admit 
that?
    Ms. Robinson. There is a crisis. I agree with you.
    Mr. Rogers.  What we're doing is not working, though. Is 
that not an accurate statement? What we're doing is not 
working, for whatever reason.
    Ms. Robinson. As Administrator Bilchik has said, we are 
identifying strategies now that can work in communities and 
often times it is a comprehensive strategy. It's something that 
draws in the families and the schools. In addition to that, the 
requests that we have in the area of youth courts and 
prosecution strategies can zero in on those problems as well.
    Juvenile drug courts, for example. I had the opportunity 
recently to be at a juvenile drug court graduation. The drug 
court judge told me that these are kids who were really going 
over the edge and we were able to pull them back. Now, that's 
not addressing the kids who are not yet into it, but it is 
certainly helping to draw back those who are involved in drug 
use.
    Mr. Rogers.  Well, let me just say in closing this portion 
of the hearing and I am going to yield to Mr. Dixon on this 
subjectbecause this is also one of his things, what we're doing 
is not working. I mean this is living proof. I don't know why. I don't 
guess any of us know why. But the point is it is just not working.
    The problem is getting worse. The age is getting younger. 
The percent of use is getting higher. The perception that drugs 
is bad or harmful is down--we're losing the war. And I don't 
know the answer. Obviously you don't either or you would have 
told us today and the President is doing nothing about it.
    I'm just frustrated and flabbergasted that we sit here with 
all of the money in the world, pumping it into law enforcement. 
I mean we're pumping billions of dollars into law enforcement. 
This Subcommittee has I think quadrupled the Justice 
Department's budget in the last several years, quadrupled the 
Justice Department's budget and we get results like this on 
these charts. Whatever else you're doing, I can commend you for 
it. On this, you are failing. We're failing to help you 
adequately. We're all failing in this respect. Mr. Dixon.

                         legalization of drugs

    Mr. Dixon.  Thank you very much, Mr. Chairman.
    I don't know who is best prepared to answer this, but the 
Chairman just indicated that we're losing the war on drugs. I'm 
not sure how to read these charts of yours, but there are some 
who say that the war is over. That we should legalize drugs. 
Does anyone have a response to that?
    Ms. Robinson.  The Administration is adamantly opposed to 
legalization of drugs.
    Mr. Dixon.  Why?
    Ms. Robinson.  The harm it will cause children, the harm it 
will cause adults in this society. When we look at addicted 
populations, we can see the dysfunction that permeates their 
lives, the pain they cause their families, their inability to 
work, the pain they cause their children. The fact that they 
are not good parents. And the list could go on.
    Mr. Dixon.  I happen to agree with you, but I do talk to 
people from time-to-time who say let's just give up. We've lost 
the war or it's up to an individual person to decide whether 
they want to use drugs, similar as with cigarettes.

                              drug courts

    Madam Assistant Attorney General, my Staff pointed out to 
me that one, you're asking for a large increase in the drug 
court project from $25 million to $75 million. On page 11 of 
your testimony you talk about that program, in particular in 
Los Angeles and Pensacola. You say there that there is only a 2 
percent recidivism rate among graduates of drug courts.
    Ms. Robinson.  Of those two drug courts. That's correct.
    Mr. Dixon.  Well, that looks like it's having a major 
effect. What is a graduate? Is this somebody that's died?
    Ms. Robinson.  No.
    Mr. Dixon.  I mean first we've got to define what a 
graduate is. Then we've got to talk about the duration in which 
you measure this recidivism. That's startling, Mr. Chairman, 
that of every young person who went through the drug court and 
came out in Pensacola or Los Angeles, only 2 percent of them 
were ever arrested again.
    Ms. Robinson.  Mr. Dixon, those are numbers 6 and 12 months 
after completion of the program; a program that has lasted 
about 12 months. The important thing will be to track, and in 
fact with our NIJ research, we're planning to do that, to see 
the results over a period of time.
    But I will also tell you that when you talk to people in 
the criminal justice system, many of whom are very skeptical 
and cynical about seeing criminal behavior change and seeing 
addictive behavior change, they come away from the drug courts 
concept feeling excited about it because they in fact see it 
catching the attention of the criminals, the offenders, and 
getting them to help change their lives through sanctions, 
through drug testing, through mandated drug treatment, and 
through keeping them on a short leash under judicial 
supervision.
    That's the reason, I think, that we see so much interest 
around the country in drug courts. Two years ago, there were 
fewer than 50. Now, there are more than 150 and there are 140 
in the planning. And the reason for that, in part, is the money 
provided by this Subcommittee; but in large part it's the 
excitement in the field when they see criminal behavior 
changing. So, we do want to look at the long-term results. 
We're very cautiously excited about what we see out of this.

                          drug use statistics

    Mr. Dixon.  So, it does appear that maybe we are at least 
holding our own in the war where people have already been 
exposed to drugs, I mean, if we look at these statistics.
    Ms. Robinson.  With those who have gone through these 
programs, yes, as well as the drug treatment in prisons 
programs, which are showing very good results, as well.
    Mr. Dixon.  I noticed the chart that you referred to. Am I 
reading it correctly in 1992 our youth percentage using 
marijuana once or more in the past 30 days in 1992 was roughly 
at 10 percent?
    Mr. Bilchik.  Of twelfth graders, yes.
    Mr. Dixon.  Right. And in 1994 it had climbed to 18 
percent.
    Mr. Bilchik.  Yes.
    Mr. Dixon.  Can you correlate that with the figures up 
there? That's the past month up there. The age range is a 
little lower, but the Chairman's figures look better than 
yours. In two years you have an 8 percent increase. In two 
years there, at most it looks like a 2.6 percent increase.
    Mr. Bilchik.  They both appear to be about 80 percent 
increases; the 3.4 to 6.0 and the 10 to 18 both appear to be 
about 80 percent increases. As you know they are different age 
groups. So, it's hard to correlate, but it looks like they're 
pretty consistent, 80 percent, which is much too high.
    Mr. Dixon.  What figure do you think is acceptable?
    Mr. Bilchik.  I like the figure in the bulletin we just 
issued that shows initiation of use going down 46 percent by 
children who are mentored in one-to-one mentoring 
relationships. I like those kinds of figures much better than 
80 percent increases.
    I think we have to start seeing it go down. When you have 
occasion to look through the bulletin in more detail, you will 
see that one of the things that's estimated is that only about 
5 percent of the children in this country who need those 
positive adult role models are getting them right now. That is 
estimated by Big Brothers and Big Sisters.
    So, if you look to why we aren't winning the war yet, the 
battle, it is because we need to do much more of this. We can't 
just use the isolated pockets of support--the 180 sites between 
the Jump Program and the Formula Program we funded through the 
Federal Government or the things that are being done locally 
through Big Brothers and Big Sisters, or the mentoring done 
through the YMCA.
    We need to do much more of it across the board with Federal 
support, but also at the state and local levels. That will help 
us get the percentages down. We need to build the curricula 
into the school so they start working on this as a school 
issue. Those programs have proven to be successful as they've 
been evaluated.
    When you can do a life skills program that shows up to a 75 
percent reduction in drug and alcohol use and the results 
extend out six years, those are the things that give me hope 
that if we really invest in this, if we see some increase in 
our investment and almost quadruple our investment in this type 
of programming, we'll see continuing improvement, not just for 
those small pockets of kids, but for larger groups of kids.

                     administration's drug message

    Mr. Dixon.  Well, the Chairman and I both are smokers. But 
if I hear him correctly, he thinks that during the Ronald 
Reagan era that the Reagans were doing something that you 
aren't doing now. In other words, there was a successful 
technique. He wraps it up by saying, ``Just Say No'', but you 
have somehow abandoned a technique that was very successful.
    I think that the climate has changed. The problem has 
gotten more difficult. Drugs have gotten stronger. There are 
more sophisticated methods of transporting drugs. I think you 
should respond to, his statement that all we need to do, in 
part, is for the President to get on the bully pulpit on this. 
Now, is that true? Is that all we have to do here?
    Mr. Bilchik.  I think you need to do both things. I think 
you need to both send strong national messages from the bully 
pulpit, from the----
    Mr. Dixon.  Is that being done in your opinion?
    Mr. Bilchik.  I think the messages are being sent.
    Mr. Dixon.  By the President?
    Mr. Bilchik.  I think the President talks about this issue 
as well as the Attorney General and Secretary Shalala. I think 
we all talk about this issue when we go out to communities.
    Mr. Dixon.  Now, that confuses me because you hear the 
Chairman talking about the President. He goes as far to say 
that no one else can deliver that message; not the Secretary, 
the Attorney General.
    And you clump them all together. Do you think the President 
of the United States is doing enough, personally, with the 
bully pulpit to get that message across, not any of his 
Cabinet? I mean, I think we have to address this issue that the 
Chairman raises. It's a very valid one.
    Mr. Bilchik.  Mr. Dixon, I think the President is out there 
talking about this. I think it's hard for me to detach him from 
Members of the Cabinet who carry out his plan and his policy. 
So, when General McCaffrey announces a major national campaign 
to educate the public and to send that bully pulpit message on 
TV and radio, that's carrying out the President's message as 
well.
    So, I think the President is working very hard at getting 
this out, and using as a part of that strategy the ``Just Say 
No'' type campaign where we feed information to people in the 
mass media in a way that can help carry the message, in 
addition to them hearing the message in their community center 
or in their classroom or at their dinner table. We need to do 
both of those things.
    Mr. Dixon.  So, you disagree with the Chairman saying that 
the President's emphasis is on diverting people from smoking 
cigarettes, tobacco, and has abandoned the emphasis on the use 
of illegal drugs.
    Mr. Bilchik.  I think the President is trying to address 
both issues.
    Mr. Dixon.  Well, the only reason I press you is because 
it's very serious when the Chairman says that or any Member of 
Congress says that. And you don't hit it head on. So, you think 
that the President is doing a good job at that.
    Mr. Bilchik.  Absolutely, but we need to do more.
    Mr. Dixon.  Thank you, Mr. Chairman.
    Mr. Rogers.  Thank you, Mr. Dixon. The bully pulpit message 
out of the White House, as far as I know, is just don't inhale. 
Mr. Mollohan.

                     at risk children's initiative

    Mr. Mollohan.  Thank you, Mr. Chairman. You said that we 
need to address life skills issues in your response to Mr. 
Dixon. Then I heard you say quadruple funding. What accounts 
are you speaking of and have you requested for quadrupled 
funding?
    Mr. Bilchik.  I was approximating the quadrupling as we 
would go from $20 million to $75 million for the At-Risk 
Children's Initiative that would fund those types of programs. 
I think we need to respect the local determinations in deciding 
their needs.
    Mr. Mollohan.  That is your request actually; isn't it?
    Mr. Bilchik.  Yes.
    Mr. Mollohan.  What account is this?
    Mr. Bilchik.  It's in the At-Risk Children's Initiative 
which takes the Title V Community Prevention Grant Program and 
increases it.
    Mr. Mollohan.  Is that the new Anti-Truancy School Violence 
Program?
    Mr. Bilchik.  Yes, Mr. Mollohan, it is.
    Mr. Mollohan.  I totally agree that effective intervention 
is crucially important. That's very hands on. You gave some 
anecdotal evidence of successes, but my concern about this 
effort for many years has been the ability to address it 
programmatically across the country. One area can have a good 
program and one school can have a good program, but can the 
Federal Government make a real contribution nationally that 
every child can have access to who is at risk? I question 
whether $75 million can do that.
    Mr. Bilchik.  I think it gets to one of the issues that, 
again, we discussed last year which is the scale issue. How do 
you bring these things to scale nationally? And that the 
Federal Government can't do that. What it can do is to seed 
activity in local communities so they are aware of the kinds of 
things that they can do and really fully invest in. Then it can 
provide the training and technical assistance capacity to help 
them as they try to put it into place.
    One of the issues you have identified is how do you take 
one program from one community and then make it work in your 
own community, and that's not easy. You need to really 
understand why it worked in the first community and then bring 
people in to help that second community implement that program 
in the right way so it will be successful for them also.
    We haven't always done that in the past. That's one of the 
things that's unique about this proposal. It sets aside 
additional training and technical assistance money out of these 
program categories to have more of a presence in communities in 
helping them implement the programs that we, through the 
research, know can work.

                           anti-drug message

    Mr. Mollohan.  Some of these programs are being questioned. 
Like the University of Maryland study questioned the DARE 
Program and some of the other programs. I always questioned 
that animal that said, ``Take A Bite Out Of Crime.''
    Does the Justice Department have a program, a 
communications program like a television advertising program 
that puts all of this kind of behavior into powerful messages? 
We know Madison Avenue people do it with products. Can they do 
it in an anti-substance abuse, and anti-bad behavior? Do you 
have that program? Where are you requesting funds?
    Mr. Bilchik.  We are working on developing these approaches 
to solving the problem. Then when people call from communities 
to say I'm interested in that type of approach.
    Mr. Mollohan.  Well, what about television advertisement?
    Mr. Bilchik.  Our media messages will be on television. 
They will be on radio. They will be in print.
    Mr. Mollohan.  What would they be?
    Mr. Bilchik.  There will be individual segments, and of 
course it is very expensive to do. So, you want to be very 
targeted in how you do it. I haven't seen them yet. There are 
national companies developing them right now. They will talk 
about the things that are effective like I mentioned--the life 
skills program or this mentoring program. There are things that 
we know about; informing communities that there are things we 
know about that work.
    Mr. Mollohan.  What about informing students that taking 
drugs is a bad thing?
    Mr. Bilchik.  I think that's a part of the campaign that 
General McCaffrey is putting together right now.
    Mr. Mollohan.  Is that a media campaign?
    Mr. Bilchik.  Yes. It's a media campaign.
    Mr. Mollohan.  Where is that coming from?
    Mr. Bilchik.  I believe that's through a request from his 
appropriation.
    Mr. Mollohan.  Where is that?
    Ms. Robinson.  The Treasury-Postal Subcommittee.
    Mr. Mollohan.  Did we do any of that? I personally think 
that would be very effective.
    Mr. Bilchik.  Yes. The television program can put taking 
drugs in a very unfavorable light, a very un-cool, however you 
say that now, light----
    Mr. Mollohan.  Who looks at that? Who looks at the issue of 
what would be the best strategy for spending more money in your 
shop?
    Mr. Bilchik.  I think the Agency that is taking the 
leadership on that is the Bureau of Justice Assistance, working 
with the national media to determine what the most effective 
campaigns are that can be run.
    Mr. Mollohan.  That can be done in a very cost effective 
way with public service. Thank you, Mr. Chairman. I'd like to 
follow-up on that.
    Mr. Rogers.  If you will yield on that. One of the most 
memorable things in mind about the television war on drugs was 
the, ``This is your brain. This is your brain on drugs.'' That 
was, I think, was one of the most effective advertising 
campaigns there has been. In fact, I think I've seen those 
things on T- shirts even; your brain on drugs on T-shirts. I 
just think there are a lot of effective weapons out there that 
we're not using.
    Mr. Mollohan.  Mr. Chairman, just to have them come back on 
how they are looking at what is the biggest bang for your buck. 
This isn't a lot of money. You can't reach every school and 
every child programmatically.
    Mr. Rogers.  There is no doubt in my mind that things like 
the mentoring program and the various things that you're doing 
are useful; very, very useful in fact and the studies show 
that.
    Mr. Mollohan.  They are very effective.
    Mr. Rogers.  But there is nothing--it's like trying to 
stamp out ants one at a time. We've got ways to go at the whole 
ant hill with television and mass media and with people like 
Tiger Woods. If there is anybody that captures the imagination 
of young people in this country of all sectors, it's Tiger 
Woods and people like him. He can do more to eradicate teenage 
drug use than any other living being probably. Do you agree 
with that?
    Mr. Bilchik.  I agree that those are very powerful 
messages. I really am hopeful that we can do both of the things 
that we've been talking about, sending national messages, and 
make certain that when a child goes home or leaves the TV set, 
they are actually going someplace where they have a positive 
adult role model that can reinforce the message, or to hear it 
in school. I don't think it can be isolated. I'd like to see 
this done everywhere.
    Mr. Mollohan.  But there is nothing on television. Maybe I 
just don't watch the right programs. Maybe I don't watch enough 
of it, but there is no advertising on television that runs 
messages that show very unattractive youngsters standing on a 
corner looking really stupid waiting around to sell drugs.
    I mean I've got it right over here where I live in 
Southwest. It's a marketplace. If those kinds of incidents and 
those kinds of youngsters even saw themselves on television 
doing that, they might reconsider. I think there has got to be 
a way to capture that and market it.
    Mr. Rogers.  The only thing that I've seen on television on 
Saturday mornings during the cartoons is all of the anti-
smoking cigarettes ads. There are tons and tons of them.
    Mr. Mollohan.  Yes, I've watched those same programs, Mr. 
Chairman.
    Mr. Rogers.  There is nothing on TV about drugs. I can't 
understand it.
    Mr. Bilchik.  I hope that when we visit this topic next 
year we will see some of the outcomes from our campaign that we 
will be developing on the broader issues, as well as the 
General's efforts to do a broader campaign.

                     university of maryland report

    Mr. Rogers.  Now, this is the last thing we're going to get 
into, this Maryland report that Mr. Mollohan alluded to. In the 
1996 funding bill we increased funding for local law 
enforcement by 61 percent. But we also required the Attorney 
General to provide a comprehensive evaluation of the 
effectiveness of the over $3 billion annually we were funding 
in DOJ grants to the state and local law enforcement agencies 
and communities to prevent crime.
    That 500-page report is out. And conclusions drawn by some 
reporters say, ``The Federal Government fights random violence 
with what appears to be random spending.'' The report has a 
series of recommendations and conclusions. It draws its 
conclusions based on available research regarding programs that 
are centerpieces of our government's fight against crimes such 
as COPS, the Block Grants, Prison Grants, Juvenile Prevention 
Programs. Generally, the researchers say effective programs 
seem to share a key characteristic. They target specific types 
of crimes, convicts, or potential law breakers. Then they go on 
to say what works and what doesn't work. I assume you've gone 
through this report, all of you. It is forbidding reading. It 
is not good bedtime reading because you read this and you are 
awake for the night. What do you think about it, Madam 
Assistant Attorney General?
    Ms. Robinson.  The Maryland report provides us a wonderful, 
comprehensive summary of the evaluations that have been done 
over recent years. We know that, over the 30 years of the 
Federal criminal justice assistance program to state and 
locals, that there have been successes and failures. I frankly 
think that we do learn from our failures.
    What I was delighted to see was that we, in fact, have been 
on top of much of the research and evaluation coming out. When 
I spent a number of weekends--like Shay, reading this, there 
was very little in it that surprised me as far as research and 
evaluation findings.
    In fact, over the last few years that we've been in OJP we 
have taken a number of steps to shape our programs, including 
the Crime Bill Programs, based on the evaluation and the 
research. I will give you a couple of quick examples. As you 
know, with your concurrence, we've taken money off the top of 
the Crime Bill Programs and transferred it into NIJ in order to 
do evaluations of these efforts and help inform future 
spending. So, in the boot camp area, as an example, and I know 
we talked about boot camps last year, when we started that 
program in 1995, we looked carefully at what the research 
said--and the Maryland Report talks about this--that military-
style boot camps alone probably don't have an effect.
    But boot camps that also mandate drug treatment and teach 
work skills and work habits, and have aftercare to transition 
these folks back into the community can actually reduce 
recidivism. So, we've tried to take research results, and in 
fact we had a conference of our grantees. We had the 
researchers there, and we had them talk to the grantees and 
say, ``Here is how to make a program that can work.''
    Mr. Rogers.  Well, would you make any changes in your 
budget request based on the findings of this report? For 
example, they say, the Weed and Seed program works well. They 
say that policing crime ought to be targeted in ``hot spots'', 
Mr. Director. That the COPS grants across-the-board, which are 
politically appealing to everybody, is maybe a good thing, but 
they say, we ought to be focusing on the ``hot spots'' with all 
of these programs, including the COPS programs.
    They say, for example, and I found this hard to believe, 
but they say that midnight basketball doesn't work. They say 
mentoring works. That Boys and Girls Clubs work and so forth. 
Would you make any changes in your budget request, any of you 
as a result of this report?
    Ms. Robinson.  Mr. Chairman, I would not make any changes 
in our budget request, but what we will do is shape programs 
differently within the appropriation categories that you fund. 
I'll give you a couple of quick examples.
    With the DARE Program, we are concerned about the 
evaluations, and have been for several years. There was one out 
of the University of Kentucky this past year, by Richard 
Clayton, which I read that showed very minimal impact out of 
the DARE program. We've actually been in conversation--before 
the Maryland Report came out--with other Federal departments 
about this. The Department of Education, for example, puts a 
tremendous amount of money into DARE. And then, with the people 
who run DARE America, to talk to them about how we adapt that 
curriculum to make it as effective as possible. We know things 
out of the research totry to do that; make it interactive, have 
booster sessions, focus it in a way that links it back to the family. 
And those are the steps that we would plan to take.
    Mr. Rogers.  We have a series of votes on the Floor. I have 
a number of questions that I can submit for the record that 
would allow you the opportunity to answer for the record.
    I appreciate your testimony here this afternoon. Thank you 
very much.

[Pages 984 - 1010--The official Committee record contains additional material here.]


                                          Thursday, April 10, 1997.

  UNITED STATES DEPARTMENT OF JUSTICE AND UNITED STATES DEPARTMENT OF 
                                 STATE

                               WITNESSES

DORIS MEISSNER, COMMISSIONER, IMMIGRATION AND NATURALIZATION SERVICE
ANTHONY MOSCATO, DIRECTOR, EXECUTIVE OFFICE FOR IMMIGRATION REVIEW
MARY RYAN, ASSISTANT SECRETARY, DEPARTMENT OF STATE, BUREAU OF CONSULAR 
    AFFAIRS

    Mr. Rogers.  The Committee will come to order.
    We are pleased to welcome a distinguished group of people 
that represent the Federal Government agencies charged with 
oversight and enforcement of our immigration laws. Testifying 
before this Subcommittee this afternoon is Doris Meissner, 
Commissioner of the Immigration and Naturalization Service; 
Anthony Moscato, the Director of the Executive Office for 
Immigration Review; and Mary Ryan, the Assistant Secretary for 
the Department of State, Bureau of Consular Affairs.
    Controlling illegal immigration is one of the Nation's 
greatest concerns. For a number of years, in a bipartisan way, 
the Congress and the Administration have worked together to add 
significant resources to address this problem. No one can say 
any longer that there is a lack of commitment to provide 
resources to address this problem. INS has grown by 52 percent 
over the last two years. Congress has provided increases of 
over $500 million each year; more than any Justice agency. And 
the 1998 budget is seeking another significant increase for 
INS, the Executive Office for Immigration Review, and Consular 
Affairs.
    While we've been making some progress on the border in 
California, stopping illegal border crossings is only one facet 
of the fight against illegal immigration. We still lack an 
effective strategy for dealing with the over five million 
illegal aliens living in this country.
    We've put new laws in place, provided the resources that 
are needed, and now it's up to the Administration, and these 
agencies, to turn those into real results. I'll be frank, I'm 
not sure INS, as the primary agency with this responsibility, 
has the capability to do it. We'll see.
    I want to continue to work in a constructive way to find 
the solutions, but I'm getting frustrated. Before we can 
continue to pour funding into these initiatives, we need some 
evidence that they are working.
    The other thing this Committee has been trying to 
accomplish for a number of years is to get INS and State to 
work closer together, pool resources, information, talent, 
whatever is necessary, in order to protect our borders. We hope 
to hear evidence of that today. And if not, we want to know 
that you are taking the necessary steps to address any problems 
that are standing in the way.
    We have your written statements. We will make them a part 
of the record. We hope that you can give us a five-minute 
summary of your statement. We will put your full written 
statement in the record. Commissioner, Meissner, would you care 
to begin.

                  commissioner, ins--opening statement

    Ms. Meissner.  Thank you, Mr. Chairman and Members of the 
Subcommittee.
    I'd like to begin today by reporting on my recent 
participation in the very successful visit to the U.S./Mexico 
border led by Congressman Jim Kolbe and other Members of the 
House Appropriations Committee. The trip was important because 
it allowed the Members and staff of your Committee to see 
first-hand the progress that INS has made in just three years 
in fulfilling one of its toughest and highest priority 
missions.
    It provided a close-up view of the improved competencies of 
the Immigration Service since 1994 when we began to undertake 
significant management reforms of the agency and when this 
Subcommittee and the Administration began working together to 
provide the resources that were long needed.
    The Southwest Border Strategy is a microcosm of the work 
this agency is capable, truly capable, of performing. The 
Multi-Year Comprehensive Enforcement Strategy that we began 
implementing three years ago centering on the busiest illegal 
crossing point on the entire border, California, contains all 
of the challenges facing the agency as a whole.
    Those challenges include hiring and training unprecedented 
numbers of new agents and other personnel, redesigning and 
streamlining outmoded systems and procedures, developing, 
installing, and adapting new equipment and technologies to make 
us more efficient. They also involve working cooperatively with 
other Federal and local agencies, especially Customs, DEA, the 
FBI, the Department of State and local law enforcement 
officials.
    These are all difficult tasks. They have all started from a 
base of serious performance deficiencies and they are all 
against the backdrop of historically high migration pressures 
from around the world. Mr. Chairman, as you know, I am keenly 
aware of the agency's historic management weaknesses and the 
problems that have emerged in attempting to address the 
dramatic surge that we faced in our naturalization 
applications.
    We are working both internally and externally by drawing on 
help from outside experts to address these problems. But while 
the problems of the Citizenship Program reflect longstanding 
infrastructure and management weaknesses of the Immigration 
Service, they do not accurately reflect the agency's overall 
abilities and progress.

                         meeting the challenges

    The reality is that on many fronts just like at the border 
we are meeting the challenges that both the Administration and 
the Congress have set out for us. We are applying effective new 
strategies to meet a historic rise in enforcement and service 
delivery needs. They include implementing a new immigration law 
that requires developing more than 60 new regulations and more 
than 70 new forms and training almost 20,000 staff to use them 
properly.
    We are effectively managing unprecedented growth in 
technology and personnel resources. And most importantly, we 
are facing and fixing chronic decades-old management problems 
that have plagued the Immigration Service's efforts in the 
past. Moreover, we are doing all of these things at the same 
time.
    I am proud of the progress we, and this Subcommittee 
working together, have made. I am pleased that this progress 
has been recognized by a distinguished panel of the National 
Academy for Public Administration with whom we contracted to 
analyze the INS budget and priority setting processes that we 
established in 1994.
    Their January report signaled approval of our new 
initiatives and provided valuable guidance on the next steps 
for continuing the advances. At the same time, we know that we 
face major challenges in improving the accountability, the 
effectiveness, and the professionalism of the agency.
    Some key steps to ensure that a culture of accountability 
takes hold include the following examples. We have rebuilt the 
Office of Internal Audit and created the new INSpect Program 
with resources dedicated to top to bottom reviews of all field 
offices on regular two and three-year cycles.
    I have concluded that further organizational and senior 
personnel changes are needed. The plan that I have developed 
for those changes will be forwarded to the Subcommittee in the 
coming weeks. It will strengthen field management and send a 
strong signal about my expectations for effective management 
and integrity of INS work processes.
    We are implementing competency-based criteria for 
promotions as a means of overcoming seniority as the sole basis 
for career advancement in the agency. These and many other 
measures build on a myriad of steps that I have already taken 
to bolster the accountability and the professionalism of the 
Immigration Service.
    In support of strong management reforms such as these, the 
Service's fiscal year 1998 budget request contains critical 
infrastructure proposals that we hope the Subcommittee will 
grant. They include continued equipment and technology 
infusions, important status verification and files clean-up, 
and centralization initiatives.
    Mr. Chairman, I'd like to close by saying that our problems 
are not intractable. We have demonstrated that in many areas of 
our work. But they do require multi-year, often laborious step-
by-step efforts. INS has come a long way in these past years. 
With your continued support, I am confident that we can come 
even further. Thank you.
    [The statement of Ms. Meissner follows:]

[Pages 1014 - 1050--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you. Mr. Moscato.

  Director, Executive Office for Immigration Review Opening Statement

    Mr. Moscato.  Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Subcommittee, I am pleased 
to appear before you today to present the President's 1998 
budget request for the Executive Office for Immigration Review 
which is the Department's component responsible for the 
administrative adjudication of immigration cases and appeals.
    Our corps of Immigration Judges hear primarily deportation 
and exclusion cases, including asylum cases and those involving 
criminal aliens. Under the 1996 Act, these adjudications are 
now referred to as removal proceedings. The Board of 
Immigration Appeals adjudicates appeals from the Immigration 
Judge decisions and those of certain officers of the 
Immigration and Naturalization Service.
    Finally, our Administrative Law Judges hear cases arising 
from employer sanctions, document fraud, and anti-
discrimination provisions of immigration law. Mr. Chairman, I'd 
like to discuss briefly our most significant current challenge, 
the implementation of the 1996 Act.
    As you are aware, the Act encompasses enormous changes in 
the immigration laws of the United States. It has required the 
preparation of implementing regulations and the establishment 
of new adjudicative policies and procedures. We have 
coordinated consistently with INS on all policy and regulatory matters 
implicating the adjudicative process.
    Our interaction with INS over the last several months has 
been at a very high level and resulted in our capacity and the 
capacity of the Department of Justice to publish a very broad 
set of regulations in a timely fashion.
    In addition, and more specifically for our program, we've 
established a training program through which Immigration Judges 
themselves have worked together to create an understanding of 
the new law and to provide input into final policy and 
procedural determinations.
    Senior Judges from all courts, all of the 39 courts around 
the country, have worked as a group first to identify and 
discuss the major issues presented by the Act. Second, to 
consult with colleagues from their home courts. Third, to 
reconvene with their colleagues. And finally, to return to 
brief all members of the court as to implementation policies 
and procedures.
    Regarding provisions for expedited exclusion and mandatory 
detention, we have again worked closely with the Service to 
ensure workable and successful outcomes. Current plans involve 
the lodging of aliens subject to these procedures at nearby 
detention centers.
    Because we are staffed at many of those facilities, we hope 
and expect that our judges will have the capacity to render 
determinations within the mandated 24-hour to seven-day time 
frame.
    In terms of our 1998 request, Mr. Chairman, we seek a total 
of $127.701 million to support 1,122 permanent positions, and 
1,087 workyears in 1998. This represents a net program increase 
of $10.106 million; 105 positions and 52 workyears.
    Program increases include 28 new Immigration Judges, 12 BIA 
staff attorneys and the necessary legal support positions for 
those activities. This request has been made in conjunction and 
in coordination with the proposed INS enforcement initiatives 
and budget request that you have before you as well.
    In general, the Immigration Service is requesting new 
enforcement positions in support of a variety of goals 
including the expansion of the Southwest Border Initiative, the 
removal of greater numbers of criminal and non-criminal 
deportable aliens, and the expansion of detention facility bed 
spaces.
    We estimate that these Immigration Service initiatives will 
increase Immigration Judge workload by as many as 30,000 cases, 
and the Board's caseload by perhaps as many as 2,500.
    In summary, Mr. Chairman, this budget reflects our estimate 
of the resources required to maintain and enhance our record 
and our performance. I would be happy to take any questions you 
and the Subcommittee may have.
    [The statement of Mr. Moscato follows:]

[Pages 1053 - 1059--The official Committee record contains additional material here.]


    Mr. Rogers.  Thank you. Madam Secretary.

  Assistant Secretary, Department of State Bureau of Consular Affairs 
                           Opening Statement

    Ms. Ryan.  Thank you.
    Mr. Chairman and Members of the Subcommittee, I am very 
pleased to have been invited today to testify on behalf of the 
Bureau of Consular Affairs in support of the Department of 
State's fiscal year 1998 budget request.
    Our responsibility for key elements of the U.S. border 
security system is one of the Department's national security 
functions. In cooperation with the Congress which provided the 
Department the authority in 1994 to retain the machine readable 
visa fee, we have made great strides in improving those 
elements of the U.S. border security system for which the 
Department is responsible.
    Let me highlight a few of our major accomplishments to 
date. Every visa issuing post now utilizes the more secure 
machine readable visa system. In addition, every visa issuing 
post now has a sophisticated automated name checking system. We 
have strengthened the name checking system by introducing our 
date-of-birth algorithm and a custom designed system for 
checking the names of Arabic origin.
    We have made major investments in automation, main frame 
computers, and telecommunications infrastructure. Finally, the 
Department has made strides in securing electronic access to 
data from other agencies. Of course, Mr. Chairman, improving 
border security like ensuring our more traditional national 
defense against aggressive states is not a matter of making a 
few investments and then ignoring the problem for years.
    Consequently, the Department is making a series of targeted 
investments in fiscal year 1997 and in fiscal year 1998 to 
strengthen further the U.S. border security system. These 
include installing a more secure and functional machine 
readable visa system which we call MRV-2.
    During fiscal year 1998 we plan to install MRV-2 at as many 
as 100 posts. Our goal is to complete worldwide installation by 
the end of fiscal year 1999. We are procuring a new generation 
printer that will result in a major improvement in the security 
of the U.S. passport.
    It will allow the introduction of a digitized image of the 
authorized bearer into the passport's data page. We are also 
helping to finance the migration of our overseas computer 
technology from the 1980's era of WANG technology to a 
contemporary local area network system.
    My final comment regarding border security, Mr. Chairman, 
is to note that the Department will spend nearly $200 million 
on this activity in fiscal year 1998. And none of this money 
comes from the U.S. taxpayer. Our success in this program is 
indicative of what the Department can and will accomplish if we 
have the resources to do our jobs.
    I can honestly say without the revenue from MRV fees, the 
Border Security Program would have been devastated by the 
budget constraints of recent years. I sincerely hope that the 
Congress will extend the Department's authority to retain all 
fees we collect.
    The passage last year of the Illegal Immigration Reform and 
Immigrant Responsibility Act will have a significant effect on 
our work. It will necessitate even greater cooperative efforts 
between the Department and the Immigration and Naturalization 
Service, most notably, in implementing provisions requiring 
that an automated entry and exit control system be developed, 
and that all border crossing cards contain machine readable 
biometrics.
    On the issue of an automated entry and exit control system 
we have developed a strategy with our INS colleagues. The 
Department and INS already cooperate to share lookout 
information. INS has access to our lookout system and we have 
electronic access to INS lookout information, including 
deportation data. The sharing of data with INS has only been 
accomplished after overcoming significant technological 
obstacles.

                   issuance of border crossing cards

    However, I believe that the two organizations, under the 
direction of Commissioner Meissner and myself, have made 
incredible strides in these cooperative efforts. This 
unprecedented cooperation will continue as we tackle other 
challenges set out in the new Immigration Act. I would be 
remiss if I did not point out at this point what a daunting 
task it will be to meet the requirement to issue border 
crossing cards with biometrics.
    Each year the Department of State and INS adjudicate 
between us approximately one million applications for either 
border crossing cards or the combined border crossing card/non-
immigrant Visa. There are also millions of these BCCs 
outstanding issued years ago which will need to be 
readjudicated and reissued.
    With our colleagues at the Immigration Service, we are 
grappling with the numerous complex issues raised by this 
mandate. I can promise you that we will make our best effort. 
And we will keep the subcommittee fully informed of our 
progress, but we need your help, especially in terms of fee 
retention authority if we are to have any hope of pulling this 
off in a timely, cost effective, and customer friendly manner.

                     non-immigrant visa applicants

    The Bureau of Consular Affairs has also been working with 
the FBI on how we might gain access to that part of their data 
base relevant to non-immigrant Visa applicants.
    We can never lose sight of the fact that our primary job is 
to serve our customers. The customers are the American public. 
While our first priority is the protection and support of 
American citizens around the globe, our overall work load 
isdriven by passport and non-immigrant visa applications. According to 
the World Tourism Organization, the United States was the second most 
popular tourist destination in 1996 and number one in receipts from 
international tourism; 44.8 million visitors spent $64.4 billion in 
this country. Lots of those visitors came on visas issued by Consular 
Offices. However, many others came from the 25 countries participating 
in the Visa Waiver Pilot Program.
    I cannot overstate the importance of this program to the 
U.S. economy and to the ability of Consular sections to 
mobilize their resources most effectively. We thank the 
Congress for having established this program and we fervently 
hope that it will be made permanent this year.

                     increase in passport issuances

    Fiscal year 1996 was a record year with domestic passport 
issuance totaling 5.6 million. Based on current trend lines, it 
appears that we will issue at least six million passports in 
fiscal year 1997. We've been able to meet this demand through 
the incredible productivity of our passport agency personnel 
and the establishment of unique operations such as the National 
Passport Center where government employees and contractors work 
together to produce passports.
    Around the world and around the nation Consular sections 
and passport agencies are staffed by wonderful, hard working 
individuals. In the Consular business our most important asset 
is our people. While demand for our services is growing, the 
Department's personnel resources remain strictly limited.
    As a result, we have been forced to secure personnel 
through creative means. We now employ seasonal workers, hire 
American family members overseas to provide temporary 
assistance, and we offer what we call excursion tours in 
Consular work to Civil Service and Foreign Service specialists.
    This past year working with American University, we 
instituted a co-op program with over 20 students who are being 
trained to work in Consular positions in the Bureau of Consular 
Affairs as a part of their education. We intend to use these 
students to fill in behind Department personnel who will be 
sent overseas this summer to cover our staffing gaps.
    While I am very proud of these initiatives, particularly 
our cooperative effort with American University, I realize that 
there is no substitute for full-time, career Foreign Service 
and Civil Service professionals. I hope that the Subcommittee 
will take these needs for permanent staff and infrastructure to 
support them into consideration when reviewing the Department's 
budget.
    Consular Services are the only phase of the Department of 
State that most Americans and foreigners will ever see. We take 
seriously our role as first line representatives of the United 
States and of our foreign policy establishment. If you come to 
visit us at any of our overseas Consular posts or domestic 
passport agencies, you will see what I mean.
    We very much appreciate the support that this Congress, 
especially this Committee, has given in the past. We look 
forward to working together to meet future challenges. Thank 
you for the opportunity to meet with you today.
    [The statement of Ms. Ryan follows:]

[Pages 1063 - 1075--The official Committee record contains additional material here.]


                            citizenship usa

    Mr. Rogers.  Thank you very much, for your testimonies. 
Now, Commissioner Meissner, I promise we will deal with other 
things besides this, but I do want to deal with naturalization/
Citizenship USA again, briefly here because I want to see where 
we are.
    We still don't know the extent of the damage that was done 
last year and probably will never know how many of the 
naturalized citizens were convicted felons. Of the 1.1 million 
aliens that were naturalized at a record rate, three or four 
times the average year, at least 250,000 may have been 
improperly granted citizenship because they didn't undergo the 
full criminal history check or because they had a criminal 
record, but were naturalized anyway.
    Of that 250,000, correct me if I'm wrong on this summary 
now, of that 250,000, 71,000 had criminal history records with 
the FBI, but were naturalized anyway. And of those 71,000, 
10,800 actually had felony records; such things as criminally 
negligent homicide, aggravated assault, criminal possession of 
narcotics with intent to sell, in other words, drug pushers, 
child molesters, prostitutes, grand larceny with a firearm, 
criminal possession of weapons, sexual abuse, endangering the 
welfare of a child, and spousal abuse. And in one particular 
case, an alien had 27 arrests and four convictions, but is now 
a citizen.
    Then of the 250,000 the other 180,000, correct me if I'm 
wrong on any of this, 180,000 did not undergo an FBI 
fingerprint check before they were naturalized because the INS 
did not submit fingerprint cards or the cards submitted were 
unreadable by the FBI. Obviously, they are now naturalized and 
out in the world. We will never know if they were erroneously 
naturalized because you can't go back and refingerprint those 
people and run proper criminal checks because they're gone. So, 
the number of felons that are now citizens through that process 
last year could be in the tens of thousands for all we know.
    We will, as I say, probably never know. Now, I'm not going 
to let this rest until we get it resolved. And you and I have 
talked about this at length privately and publicly. I know that 
you've attempted to take certain actions. I don't know whether 
they're working or not. Tell us what we're doing currently. Are 
we naturalizing people this year at the same rate we were last 
year?
    Ms. Meissner.  Let me start with the direct answer to that 
question and then back track on some of these other items.
    We are continuing to receive historic numbers of 
applications. We are receiving even more applications this year 
than last year. Our present projections are that we will 
receive 1.8 million applications this year. Last year, we 
received about 1.2 million, I believe.
    So, it is again almost a 50 percent increase. The 
processing of applications has slowed down. We were able to 
reach a level last year of handling the applications timely, 
which for us is six months. We are, at the present time, 
somewhere in the neighborhood of nine to ten months in 
processing time for applications.
    That time is increasing as we continue to receive large 
numbers of applications and as we put the new procedures into 
place. As of this past December, we are doing a 100 percent 
check and verification of every applicant's fingerprints. That 
100 percent check of every applicant's fingerprints----
    Mr. Rogers.  Are you sure of that?

                       quality assurance program

    Ms. Meissner.  I'll finish my sentence and then I'll go to 
the next one. That 100 percent check is a more time consuming 
process than we used last year, but it is a reliable process. 
The check on that process, the control to be sure that process 
is occurring is another step we put into place in December.
    And that is a detailed Quality Assurance Program. The 
Quality Assurance Program and the 100 percent fingerprint 
check, along with a commitment to long-term reengineering of 
the entire naturalization process are the package of responses 
that we made that we believe put the program on a strong 
footing; and on a footing with the integrity that we expect.
    Now, the Quality Assurance Program is among the efforts 
that Peat Marwick, the outside accounting firm that we have 
brought in to do the audit of the criminal cases that might 
have been improperly naturalized last year, is reviewing. Peat 
Marwick is not only doing that review, but it is overseeing our 
implementation of the new procedures.
    A part of the implementation of the new procedures is the 
Quality Assurance Program. We will receive the first formal 
report this week from Peat Marwick on the efficacy of the 
Quality Assurance Program. In other words, we will find out how 
it is being implemented, and whether it is being implemented 
properly.
    I have received a brief summary of their findings in that 
first report. And it is clear that there are serious problems 
that need to be addressed in the way the quality assurance is 
being implemented. Their findings seem to be that the quality 
assurance procedures themselves are thorough, effective and 
proper, but that the implementation has serious deficiencies.
    We have asked them for an office-by-office explanation of 
where those problems exist. We will have a chance to review the 
explanations in the coming week. However, we already have a 
plan that we have put into place for how to address it. What 
this review gives us is an example of a tool foraccountability, 
the kind of real time feedback that we have not had in the past in the 
naturalization program, or indeed in our programs.
    So, we are anxious to receive this information. We will act 
on it immediately. It will be followed in 60 days by a thorough 
audit to be certain that things are working properly.

                         naturalization numbers

    Now, the numbers that you made reference to earlier in the 
comment; we can go through with you and staff and detail the 
numbers. But I would want to clarify some points that you made. 
Because the review that is taking place of last year's 
naturalization is a review that has asked for all of the rap 
sheets--in other words, any information that the FBI has, 
concerning criminal history information, and 71,000 is the 
number.
    In other words, of the entire caseload that we naturalized 
last year, 1.1 million, there are 71,000 idents; 71,000 rap 
sheets. Those rap sheets are the ones that are being reviewed 
to determine whether those people were improperly naturalized.
    Just because there is a rap sheet with arrests, or even in 
some cases with conviction information, does not automatically 
lead to an improper naturalization. We need to be certain that 
those records were not expunged, and were not overturned on 
appeal. There are a series of things that can occur that render 
the information on the rap sheet inoperative from the 
standpoint of the naturalization decision.
    That is what the review consists of. In that review, we 
have found as you have distilled from it, about 10,000 plus 
cases where there were felony arrests. The statutes essentially 
focus on felony arrests as disqualifying for naturalization.
    It is from those 10,000 felony arrests that we are 
reviewing all of the files. We know for certain that 168 of 
those cases were improperly naturalized. We will be issuing 
revocation notices in those cases. There will be additional 
numbers added to that 168, but until the audit is complete, we 
won't know that number and we won't be able to supply it.
    Mr. Rogers.  How many of the 10,800 who have felony 
records, that you say only 168 were disqualifying felonies, 
have been reviewed out of which you got the 168?
    Ms. Meissner.  We've reviewed the files. Out of that 
10,800, I believe we have reviewed the files of about 8,000. 
But I'm going to ask to be corrected here; the total is 9,500.
    Mr. Rogers.  Well, you're talking about the 71,000 out of 
the 250,000 that were possibly improperly granted citizenship 
because there was criminal record of some sort. That still 
leaves the 180,000 where there was not a full criminal history 
check.
    Ms. Meissner.  That leaves 180,000. Now, the 180,000 are 
cases where we cannot verify whether a fingerprint was 
submitted and checked. We have submitted those cases to an FBI 
name check. That is different from a full criminal history 
check. But we have submitted them to a name check which gives 
us some degree of information on the cases. We are presently 
looking at a variety of options in order to determine what is 
the best way to decide those cases. That remains the portion of 
the caseload for which we do not yet have a final plan on how 
to address.
    Mr. Rogers.  Well, those auditors are also reviewing the 
number of aliens that were provided citizenship even though 
they've been ordered deported by an immigration judge. Is that 
not correct?
    Ms. Meissner.  In terms of the files where there is a 
criminal record, a check as to whether there was an outstanding 
order of deportation has been a part of that review.
    Mr. Rogers.  And how many of those are there?
    Ms. Meissner.  I would have to provide that number. I don't 
have it.
    Mr. Rogers.  Steve Colgate knows it.
    Mr. Colgate.  We are looking at the 34,700 administrative 
cases which are a part of the 71,000 to-date. We've just done a 
preliminary day-to-day run using the ANSIR system and we're 
focusing on about 470, if my recollection, is correct.
    We have additional data matches to do, but that's our first 
indication of individuals who had outstanding orders of 
deportation that we're not going to look at under indices that 
will potentially be disqualifying. We've just started that 
review, Mr. Chairman.
    Mr. Rogers.  When will you have it done?
    Mr. Colgate.  I think it will take another 30 days.
    Mr. Rogers.  We need that report in our hands within 25 
days. That will work; won't it?
    Mr. Colgate.  Yes. I hear you loud and clear.
    [The information follows:]

  Individuals Naturalized While Subject to Deportation Proceedings or 
                                 Orders

    KMPG Peat Marwick has been tasked to compare INS and EOIR 
databases in order to determine the number of individuals who 
may have been naturalized while subject to deportation 
proceedings or deportation orders. Those individuals 
naturalized while subject to deportation proceedings or 
deportation orders. Those individuals naturalized between 
August 31, 1995, and December 31, 1996, will be covered by this 
review. A preliminary analysis indicated that as many as 449 
case files may need to be reviewed to determine if any 
individuals were wrongly naturalized. KMPG is currently engaged 
in a more complete review of these databases and will report 
its findings by July 31, 1997.

                      review of current procedures

    Mr. Rogers.  I mean I will not put up with this anymore. We 
will not use additional funds to naturalize one more citizen 
until this mess is cleaned up. Can we make that any clearer? 
There will not be money for you to do this unless we know that 
it is cleaned up, the past and the future.
    Now, you are processing people at a rate higher than last 
year. And I don't feel comfortable with the process that you 
have. You, yourself, are saying the auditors have already found 
that it is not working this year. That there are serious 
problems I think were your terms.
    I mean we can't keep up. The FBI is going to be working 
full-time checking on the felons that you're naturalizing 
without having to worry about the new ones already coming in. 
When can we see the review of the current procedures, Ms. 
Meissner?
    Ms. Meissner.  My understanding is that the report was 
delivered to the Justice Department today. I have not yet seen 
it. I don't know whether in fact it was delivered.
    Mr. Colgate.  We plan to release that to you. We plan to 
release that report to you next week.
    Mr. Rogers.  That's the auditor's review of the current 
procedures?
    Ms. Meissner.  Of the current procedures, that's correct.
    Mr. Rogers.  That you mentioned a moment ago.
    Ms. Meissner.  That's correct.
    Mr. Rogers.  We can see that early next week?
    Mr. Colgate.  I believe it was delivered to my staff 
sometime today or either late last night. I'd like to take a 
look at it. I will deliver it to you next week.
    Mr. Rogers.  But now you are requiring, at this moment, 
that the FBI check the criminal records of every single person 
before they're naturalized.
    Ms. Meissner.  Absolutely.
    Mr. Rogers.  And you have that in your file, the FBI scrub 
of their records, before they're naturalized?
    Ms. Meissner.  That's correct.
    Mr. Rogers.  You're positive of that in every instance.
    Ms. Meissner.  That is the standing instruction and that is 
what this quality assurance procedure is verifying.
    Mr. Rogers.  Do you receive verification on that point from 
the reviewers?
    Ms. Meissner.  Yes.
    Mr. Rogers.  They say that part is okay?
    Ms. Meissner.  We haven't seen the report, but that is one 
of the items that the quality assurance checks.
    Mr. Rogers.  We just don't know whether it's being carried 
out yet or not?
    Ms. Meissner.  That's correct.
    Mr. Rogers.  Now, there have been a few instances in the 
past, when you issued orders that were not followed?
    Ms. Meissner.  That has happened. But this is what I'm 
saying in terms of the real time information that we now have. 
We all understand that it is one thing to issue orders. It is 
quite another thing to implement and administer orders 
properly.
    Mr. Rogers.  Okay. Here is what we're going to do.
    Ms. Meissner.  The feedback on our ability to determine 
whether things are being done properly in the field has been 
very difficult. What this gives us is direct information that 
we can act on immediately. And we are acting on it immediately.

                       accountability of managers

    Mr. Rogers.  And what actions do you intend to take to hold 
managers accountable for not implementing those procedures?
    Ms. Meissner.  We have already scheduled a training session 
to retrain everybody in these procedures next week. The week 
after that we are bringing all of the responsible managers in 
to discuss with the auditors, office-by-office, what the 
findings are, develop the cure, or, in other words, the proper 
response. That will be followed by a thorough audit 60 days 
later to be certain that it has occurred. If people are not 
complying, we will take the appropriate action.
    Mr. Rogers.  Which is?
    Ms. Meissner.  Which include personnel actions.
    Mr. Rogers.  Which is?
    Ms. Meissner.  Depending on the seriousness of the 
noncompliance.
    Mr. Rogers.  At what point in time can I expect you to say, 
if they don't follow these procedures, they will be fired? Is 
there ever a point when that will take place?
    Ms. Meissner.  That certainly will take place if it's 
warranted.
    Mr. Rogers.  Here is another action we're going to take. I 
want the names of the managers of the offices where these 
instructions are not being followed the minute you get them. 
The next thing we will do, they will be issued subpoenas to 
appear before this Subcommittee to answer to us as well as you. 
Do I have the assurance you will give me those names?
    Ms. Meissner.  If I am legally able to give you those 
names, I will do so.
    Mr. Rogers.  Mr. Colgate.
    Mr. Colgate.  We will consult with the Department----
    Mr. Rogers.  If you don't want to do it voluntarily, we 
will be prepared to issue subpoenas.
    Mr. Colgate.  I don't think that will be necessary.
    Mr. Rogers.  Whatever it takes, I want their names and I 
want them here. And I want to know why they're not 
followingthese instructions from you and from this Congress and 
spending the American taxpayers' dollars to let felons in the country 
and make them citizens. I want them here testifying before us under 
oath if necessary.
    Ms. Meissner.  Well, I frankly find that quite helpful. As 
a matter of fact, my attitude is exactly the same as yours and 
that is why we have, even in advance of reading this report, 
put a procedure into place to fix accountability.
    Mr. Rogers.  You send me their names, not just the 
managers, but all those who are disobeying your orders, and I 
will have them here and they will answer to the Congress as 
well as to you.
    Ms. Meissner.  Thank you.
    Mr. Rogers.  You may not have the personnel procedures, but 
we certainly do because we're paying their salary. And we may 
not after they appear here. If it takes specific line items in 
our appropriations bill to cut off their salary then so be it. 
I will not tolerate, this Subcommittee will not tolerate, 
Federal employees disobeying their superiors on a matter this 
serious and disobeying the Congress. That will not happen under 
my watch. Send me their names.
    Ms. Meissner.  I understand.
    Mr. Rogers.  And then send the bodies. Mr. Mollohan.

                             reorganization

    Mr. Mollohan.  Thank you, Mr. Chairman. Ms. Meissner, Mr. 
Moscato, and Ms. Ryan I join the Chairman in welcoming you here 
to the Subcommittee this afternoon.
    I would like to really reinforce the point the Chairman 
just made, Ms. Meissner, that the Subcommittee is disconcerted 
upon hearing that there are people within your organization who 
are not approaching your reorganization in a positive way. And 
I think the Chairman's strong remarks are really positive 
reinforcement of your efforts to effect those reorganizations 
and those new policy changes.
    We talked a little bit about the significant reorganization 
that you have undertaken, and your response was encouraging 
when you said you welcomed our participation. I'll bet you 
really do welcome the Congress looking very carefully down to 
the individual level. I join the Chairman in wanting to make 
whatever recalcitrance exists within your organization change, 
and to make the kinds of improvements that will allow you to do 
the kind of job that we know you want to do.

                          personnel increases

    With regard to personnel, what increases in personnel are 
reflected in your budget request?
    Ms. Meissner.  The budget request for fiscal year 1998 
includes continuing substantial personnel increases. I believe 
that the number is about 1,500 additional personnel for 1998. 
It is also a request, however, that is asking for very 
important infrastructure investments so that our infrastructure 
growth keeps pace with our personnel growth.
    We have grown by about 7,000 in the last three years, which 
is an extraordinary effort where recruitment, hiring, and 
training are concerned. And we need to be certain that, that 
order of magnitude in personnel growth is matched by our 
ability to support the work of that personnel.
    So, in this budget, the personnel growth is not as dramatic 
as it has been in the past. We are looking for a balance in 
that growth to make sure that we don't get out of sync.

                          border patrol agents

    Mr. Mollohan.  Before I follow-up with that, I just want to 
emphasize that the issues that the Chairman was getting at 
during his questions are issues I am also concerned with. There 
will be a complete bipartisan effort to get the kind of 
information that he is after, and probably in large part a 
bipartisan support for the approach that he is suggesting.
    So, I hope that's helpful throughout your agency. With 
regard to the Border Patrol agents, I know that the 
authorization bill that we passed authorizes another 1,000 
Border Patrol agents this year. Can INS assimilate another 
1,000 Border Patrol agents in an orderly sort of way? How many 
do you think you need? How many do you think you could 
accommodate in fiscal year 1998?
    Ms. Meissner.  The budget request for fiscal year 1998 that 
the Administration sent forward asks for 500 Border Patrol 
agents. We have asked for 500 rather than 1,000, which is in 
the authorization, or indeed the 1,000 that we did bring on 
last year, and I believe the year before, because of the 
balanced growth point that I just made note of.
    We have built up very, very quickly on the Southwest 
Border. By the end of this fiscal year, we will have increased 
the Border Patrol by 75 percent on the Southwest Border in the 
last four years. That is a huge, huge increase. Obviously, we 
have targeted those resources to the four corridors of heaviest 
illegal crossings historically, and will continue to do so 
until we get the control in those corridors, which we think we 
need. The need for infrastructure, not only the direct 
equipment that supports those agents, but the more indirect 
training, supervisory training, journeymen training, and the 
replacement of vehicle fleet. Although we have added many, 
many, many vehicles, the age of our overall fleet for the size 
of the organization is well behind what the replacement cycle 
ought to be.
    We have a great deal of equipment in this budget to 
continue to provide the sensors and the scopes and so forth 
that our Border Patrol needs. In other words, there is a great 
deal of support for Border Patrol efforts here that leverage 
the personnel, and without which the personnel cannot be 
effective, but we need to catch-up on the infrastructure. 
That's why we've asked for 500 in order to give ourselvesthe 
opportunity to catch up, while still putting people into the field as 
quickly as we possibly can.
    Mr. Mollohan.  Do the other areas of your request support 
your catching up in what you're describing?
    Ms. Meissner.  Absolutely. It's a very integrated budget 
request from that standpoint.

                           Automation Systems

    Mr. Mollohan.  The Inspector General raised some issues 
with regard to your automation systems. Do you care to comment 
on his observations? Where do you disagree and where do you 
agree with them?
    Ms. Meissner.  Well, I have had the opportunity to speak 
with the Inspector General about that testimony because we 
believe that testimony was not fully accurate. We still need to 
see the Inspector General's report on those matters. If he can 
provide us with information that we don't presently have, 
obviously we will be very interested in receiving it.
    Mr. Mollohan.  You think some of his judgments were wrong?
    Ms. Meissner. From what I know at this point, I do believe 
that some of his judgments were incorrect.
    Mr. Mollohan.  What does that mean; what you know at this 
point? What judgments do you think are incorrect?
    Ms. Meissner.  As I said, I haven't seen anything written. 
I have just read his testimony. But what I am most concerned 
about in that testimony is the IDENT system, which is extremely 
important to us.
    The IDENT system is on, or ahead of, schedule in terms of 
deployment. We have more than 80 sites where IDENT has been 
brought in; most of them along the Southwest Border. We are now 
moving IDENT into our detention centers and into other 
locations away from the border where it is important to us.
    By the end of this fiscal year, we will have completed more 
than, I think, 110 IDENT sites. There are some places, and this 
may be the source of the misunderstanding, that were on the 
original IDENT schedule where we have not been able to install 
IDENT. This is due to telephone lines or other external factors 
that we cannot control that have to do with the telephone 
companies and so forth with which we work on the Southwest 
Border. But where this has been the case, we have installed it 
in other places in order to distribute it as widely as we can 
throughout the Service.
    In other areas of automation, we continue to provide our 
offices with office automation, desktop equipment, and that has 
continued at a very, very fast pace throughout the Service. We 
have exceeded our own planning schedules in that effort. Each 
year, we have received industry awards for excellence of our 
various automation efforts.
    Just this last year, we received the Best of the Best Award 
from one of the industry groups for our INSPASS program at 
airports. The Olympics is a good example of where we are on the 
cutting edge of technology. It was our card technology and the 
expertise that we have with identity documents that were the 
source of the identity card that was used for the entire 
Olympic family and event this past year.
    The cooperation with the State Department here is extremely 
important. The Chairman made reference to this earlier, so let 
me just say a word about a program that's called DataShare, 
which is something that we are both very, very proud of. What 
DataShare does is create a seamless system between the State 
Department from point of visa issuance through the point of 
coming to the United States.
    In other words, now we are in about 15 consular posts 
issuing an immigrant visa electronically. That electronic 
record comes to us at the point of entry. We no longer create a 
separate paper file or a separate record. It becomes the basis 
of INS' record.
    That record carries the person through the various steps of 
adjustment that he might undertake once he is in the country. 
That will be extended to non-immigrants later this year. So, 
the automation effort is exceeding expectations.

                    Communication Between Databases

    Mr. Mollohan.  Let me ask you just in the identification 
area, the area where you are trying to identify people coming 
into the country. This is a question for anybody who wants to 
speak to it. To what extent do your respective databases 
communicate with one another or can they be accessed by the 
other systems? In other words, to what extent can the IDENT 
system access the State Department's system that you've just 
described.
    Ms. Meissner.  Now, that, I would have----
    Ms. Ryan.  Congressman, we get real time information from 
INS on deportations.
    Mr. Mollohan.  No. That's not my question. I'm asking to 
what extent can your databases communicate to each other. To 
what extent can you access each others' databases? And if you 
cannot, explain why there isn't a need to do that.
    Ms. Ryan.  Well, we can access each other's databases on 
Category One refusals, visa eligibility, and deportation. INS 
gets all of our information as fast as we can share.
    Mr. Mollohan.  How do they get that information?
    Ms. Ryan.  Electronically. I'm not a high-tech person. So, 
I can't explain to you how it works but it goes electronically. 
It's not a paper file.
    Mr. Mollohan.  There is $68 million being spent on 
thisIDENT system, for example, and I don't know how much on your other 
systems. There is a lot of money being spent. The IAFIS system--there 
is a lot of money being spent on that at the FBI.
    We have asked questions here year after year about the 
ability to communicate back and forth, the ability to access 
databases, and questions trying to get at the issue of if we 
are creating duplicate capabilities, standing up parallel 
identification systems, and doing research and development on 
all of them.
    And I'm not saying that there isn't justification for doing 
that. I just haven't seen why there is. Most witnesses who come 
up here and testify as you are just doing, say well, gee, I 
don't know how you even access a database.
    I guess I'll just follow-up after this hearing with people 
who have a bit more technical appreciation, which is 
understandable. But it is also a policy issue when you're 
dealing with the millions and billions of dollars that this is 
all costing.
    And at the end of the day, us lay people who are up here in 
Congress, we're going to have a hard time, at least this one 
is. We're going to have a hard time understanding that if you 
catch a person for the third time with your IDENT system or the 
tenth time with your IDENT system coming across the border why 
you can't at the same time go into the FBI IAFIS system and 
find out if you have an even worse person. And if they aren't 
in IAFIS why INS can't create a separate database for you that 
you can access and use for the hundreds and millions of dollars 
you are spending on the IDENT system.
    So, maybe you can talk to this general inquiry that I am 
making here and give me some reassurance that there are reasons 
why you can't do that and you can't, can you?
    Ms. Ryan.  At the time we began cooperating with each other 
we had some three million records in our database. We now have 
six million records because we've gotten all of this additional 
information, primarily from INS, electronically, but also by 
cable or other means from the other law enforcement agencies.
    One of the handicaps that we have in the State Department, 
particularly in consular work, is that we are not regarded as a 
law enforcement agency by the FBI.
    Mr. Mollohan.  What is the significance of that?
    Ms. Ryan.  Well, they are reluctant--they believe that we 
need legislation in order to allow us to have access to the 
information that they have electronically so we can get into 
the files and look. We are working with them. We're trying to 
overcome some of the concerns.
    If legislation is needed, we will request that legislation, 
but the story that we have between our two agencies is a very 
good story. We have really accomplished a tremendous amount 
thanks to the Commissioner's leadership. This information is 
not duplicative. This information is fully shared.
    We have it; both of us. We're not trying to get into there. 
We don't keep different records. They know what we have and we 
have the same information that they do on visa ineligibilities 
and on the deportees.

            Interfacing IDENT Fingerprint System With IAFIS

    Mr. Mollohan.  Ms. Meissner, why wouldn't we consider 
interfacing the IDENT fingerprint system with IAFIS rather than 
establishing separate databases with the matching function of 
IDENT?
    Ms. Meissner.  We not only would, that is the vision as it 
were for these two systems. The IDENT is a one print.
    Mr. Mollohan.  I know that.
    Ms. Meissner.  So, it's----
    Mr. Mollohan.  Well, so what?
    Ms. Meissner.  Well, the point is that it is a system that 
is a lookout system, not a criminal history system. However, 
the FBI is moving toward ten times one. In other words, we only 
need the one print in order to be running our IDENT system as 
the lookout system. That's what serves our operational needs.
    Mr. Mollohan.  So, you've got separate development costs.
    Ms. Meissner.  No.
    Mr. Mollohan.  Sure you do.
    Ms. Meissner.  No. It's exactly the same technology. It's a 
question of whether you do it ten times or whether you just do 
it one time.
    Mr. Mollohan.  That makes my point; doesn't it? If it is 
the exact same technology, why are we funding research and 
development for IDENT? Why don't you just copy it from the FBI?
    [The information follows:]

[Pages 1087 - 1088--The official Committee record contains additional material here.]


    Ms. Meissner. There are different purposes, mission 
purposes, that these data serve.
    Mr. Mollohan. I know they are different.
    Ms. Meissner. But they can be compatible.
    Mr. Mollohan. Mr. Chairman, let me just ask you----
    Ms. Meissner. And they will be compatible.
    Mr. Mollohan. Okay. I'll follow-up after the hearing 
because this is so technical, but I am going to find out about 
it.

             ACCESS OF CONSULAR OFFICES TO FBI INFORMATION

    Mr. Chairman, there was a report due to the Subcommittee by 
February 1st asking the FBI and the State Department to provide 
a report which would provide a plan which would ensure that the 
consular offices would have access to information currently 
available to the FBI in order to exclude criminal aliens from 
entering the United States. Has that report been submitted to 
the Congress?
    Ms. Ryan. No, sir. It has not yet.
    Mr. Mollohan. Why not?
    Ms. Ryan. We have sent over our latest draft to the FBI I 
think it was sometime last month. We are waiting to see what 
they think.
    Mr. Mollohan. When can the Committee expect it?
    Ms. Ryan. We are trying to get it out. So, I don't know. I 
can't tell you exactly because they have to review what we said 
to see whether they agree with us.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Rogers. When was it due?
    Mr. Mollohan. February 1st.
    Mr. Rogers. Of this year?
    Mr. Mollohan. Yes, sir.
    Mr. Rogers. Who has the report right now?
    Ms. Ryan. Right now there is a draft with the FBI.
    Mr. Rogers. Are you waiting on their review?
    Ms. Ryan. Yes, sir.
    Mr. Rogers. You can't do anything until they review it?
    Ms. Ryan. No, sir.
    Mr. Rogers. Who has it at the FBI?
    Ms. Ryan. I don't know the specific name.
    Mr. Rogers. Mr. Kolbe.

                           VOTER REGISTRATION

    Mr. Kolbe. Thank you, Mr. Chairman. Ms. Meissner, 
Commissioner. It was wonderful having you travel with us to San 
Diego and to Arizona to look at some of the border problems. I 
think we both agree that it was a very worthwhile visit for all 
of us that went and for the Members and staff who were able to 
go. I hope this Subcommittee will be able to do the same.
    I think for me the best thing was to see it in a 
coordinated fashion to deal with the issues of law enforcement 
that touch both on the Justice Department, as well as the 
Treasury Department, Customs, and Immigration, INS. So, I think 
it was very, very worthwhile.
    Ms. Meissner. Thank you.
    Mr. Kolbe. We both found some useful things. You certainly 
said to me you found it to be a useful trip. I'm not going to 
spend a lot of time on the issue of voter registration. There 
is one question I did want to ask because it related I think to 
a question I asked when you were here with the Attorney 
General.
    You said that INS had not discussed the possibility of 
gathering voter registration information on the N400 form that 
is filled out by individuals seeking naturalization. But since 
that time there has been a memorandum submitted dated May 1st 
of last year by Louis Crocetti, the Associate Commissioner 
which indeed does say they're going to revise the form to ask 
for or to include information about voter registration.
    It's not clear exactly what they mean by it unless the 
revised form, N400, will incorporate forms N600 and N643, and 
include data collection for voter registration. Is it safe to 
say that the statements you made to this Subcommittee before 
are not operative at this point?
    Ms. Meissner. I'm actually unfamiliar with what you've just 
cited.
    Mr. Kolbe. I'm sorry. I thought it came from your people. 
It was submitted to us. I'm not exactly sure when it was 
submitted to the Subcommittee here. It's entitled 
Naturalization Process Changes, dated May 1st. And maybe Mr. 
Crocetti, since he is here would answer but it's a memo to all 
Regional Directors, District Directors, Officers-in-Charge, and 
Service Center Directors.
    Let me just read this. The Service determines the current 
naturalization application form. N400 is too complex, 
confusing, and needs revision. As a result, the working group 
is revising form N400 to make it more user friendly. The 
revised form, N400, will incorporate forms N600 and N643, and 
include data collection for voter registration.
    Ms. Meissner. I'll have to find out. I'm sorry. I'm just 
not familiar with what that refers to.
    Mr. Kolbe. You don't know anything then whether this is-- 
would you care to comment on whether it is in the works? Is it 
still being done? Have we revised that form to include that 
voter registration information?
    Ms. Meissner. That may have been an idea that was 
circulating internally one way or another. As I said, I will 
follow up and see what it refers to. I believe my statements 
made before the Subcommittee here earlier are accurate to the 
best of my knowledge and I will restate them. We do not, to my 
knowledge, and certainly not as a matter of policy, collect 
voter registration information.
    Mr. Kolbe. Okay. Again, as I say, you are going to revise 
the form to include that data collection. So, I would like to 
know what that----
    Ms. Meissner. I will follow up on that and I'll get you an 
answer.
    [The information follows:]

[Pages 1091 - 1093--The official Committee record contains additional material here.]


                            NUMBER OF AGENTS

    Mr. Kolbe. On the number of agents this Congress has said 
we think you should have, I've listened to your testimony here 
and the answers that you gave to Mr. Mollohan about it, but I'm 
still not sure that I'm quite satisfied. You did manage to 
incorporate 1,000 new agents this last year, am I not right, or 
close to it?
    Ms. Meissner. Yes. As a matter of fact, actually with 
attrition we have hired and trained more than 1,000 agents.
    Mr. Kolbe. What is it that makes it impossible for you to 
do that this coming year, in this next fiscal year?
    Ms. Meissner. It is not impossible to do it. It is a 
judgment as to the best type of growth for the agency in this 
1998 budget. As we all know, this agency has grown in very, 
very large increments. In order for that growth to be effective 
and properly managed, we need to be sure that there is a 
balance between personnel and infrastructure.
    The judgment that we reached for this budget was that the 
proper growth in the Border Patrol as against other needs for 
border enforcement, not as against other needs in the agency, 
was a request for 500 Border Patrol agents and additional 
infrastructure.
    Mr. Kolbe. Well, we've seen the results of having those 
thousand agents. I mean you and I saw them together down there. 
It really is having an impact along the border.
    Ms. Meissner. It is, but it is also, as we saw, in 
combination with the proper package.
    Mr. Kolbe. Yes.
    Ms. Meissner. In combination with a variety of other 
factors. And it's that putting together of the package. It's 
the comprehensive approach that makes this effective.
    Mr. Kolbe. But the reality is that this really is a 
congressional mandate. This is a congressional direction, isn't 
it? I know you are telling us about this, but have you gone 
back to the authorizing committees and said, hey, we don't like 
the law you passed? We want you to change it. We don't want to 
have a thousand new agents.
    Ms. Meissner. Well, the level for the growth of the Border 
Patrol that the President set several years ago was to reach a 
level of 7,000 by fiscal year 1998. This budget, the fiscal 
year 1998 budget, takes us over the 7,000 to 7,300. As I said, 
it was a judgment call on what the best way was to achieve our 
border enforcement.
    Mr. Kolbe. Commissioner Meissner, what we're talking about 
with a thousand agents is to comply with congressional 
direction that was signed into law by the President.
    Ms. Meissner. Obviously, I know that there is concern in 
the Congress, both in the authorizing committees and obviously 
amongst some in the Appropriations Committees and in the border 
states. As I said, it is a judgment that we reached within the 
Administration. We clearly have shown that we can effectively 
bring on 1,000 agents. We have done that for I believe two 
years now. We have moved those people in as quickly as we 
possibly can.
    At this point, for fiscal year 1998, we felt that our most 
important responsibility with growth and with the budget is to 
use these dollars wisely. We've done, I believe, a very good 
job in using the dollars wisely. But we are, we believe, in a 
precarious position at this point between personnel and what is 
needed to support the personnel properly.

                             INFRASTRUCTURE

    Frankly, I would give you the example that when we talk 
about infrastructure and weaknesses in infrastructure, it's 
infrastructure weakness that has created most of our serious 
management problems. The fingerprint issue is a good example. 
So, these infrastructure needs don't sound as appealing.
    It's clearly much more satisfying to people in the agency 
to get additional personnel. But we are trying very hard to be 
responsible and serious about this. This was the best mix that 
we thought we could come up with for the 1998 budget.
    Mr. Kolbe. I do appreciate the infrastructure concerns and 
problems. One of the reasons that I'm concerned with your 
request for only 500, they're all, I believe, they're all in 
the Border Patrol and your request includes no new border 
inspectors--and if I could just finish. I know that issue was 
addressed in a letter to you from Members of the U.S. Senate 
from border states. I know they are still awaiting your reply 
to that.
    I'm concerned to the fact that there is increasing traffic 
at the border. So, the legitimate traffic is not going to get 
processed.
    Ms. Meissner. Well, we, of course, have been very, very 
committed to inspector growth along with Border Patrol agent 
growth. As you know, we have argued very strongly for the 
interconnections between the two; that you can't have one 
without the other.
    We have now increased our inspector force on the Southwest 
Border by 100 percent in the last four years. Those people are 
still coming on. There are people that are still coming on and 
being trained. We are still realizing, and yet to be realizing, 
all the positive affects of that.
    When I talk about infrastructure, we are at the point 
frankly, where we don't have a place to house all of these 
people. We don't have enough physical facilities for continued 
growth of that order of magnitude each year upon each year. So, 
we are trying to keep it in balance. We are trying to keep it 
responsible and yet very aggressive growth.

                     CHECKPOINT SELECTION CRITERIA

    Mr. Kolbe. One last question, Mr. Chairman. You and I have 
had some discussions on the issue of the checkpoint 
onInterstate 19, north of Nogales and those discussions have continued 
I think.
    Could you just tell me, recently the checkpoint was moved 
to a different location a few miles north, a few kilometers 
north. And it has been closed I think you said for purposes of 
doing some training. You are putting all of your people in 
training.
    I just wondered if you could tell me what the criteria is 
for how you select where a checkpoint is going to be and how 
long one of these temporary checkpoints remain at a specific 
location? The previous one down at Peck Canyon was there for a 
year or more. I'm just wondering if you could tell me what the 
criteria is for this.
    Ms. Meissner.  The checkpoint locations and the 
determinations of checkpoint locations are judgments that are 
in the hands of our Border Patrol Chiefs. I mean the locations 
are field operating decisions that are made. Now, there are 
certain legal parameters that need to be observed.
    Checkpoints can only be a certain number of miles inside of 
a country. You can't put up a checkpoint for immigration 
purposes in Peoria, Illinois or something like that. But 
consistent with the legal standard from an operational 
standpoint, that is a judgment that we leave to our Border 
Patrol Chiefs.
    They obviously change them or move them around based on 
their experience. The specific I-19 checkpoint that we're 
talking about in Arizona obviously is one where we are trying 
to find the proper balance between the community's concerns, 
legitimate concerns about traffic movement, et cetera, on the 
Border Patrol's operational judgment, and where they can best 
do their enforcement work.
    Mr. Kolbe.  All right. I'm sure our discussions on this 
will continue. Thank you, Mr. Chairman.
    Mr. Rogers.  Mr. Latham.

    contact with fbi regarding convicted felons who are non-citizens

    Mr. Latham.  Thank you very much, Mr. Chairman. I just have 
to tell you that I've done a lot of town meetings over the 
district work period. And there is nothing that makes me or the 
constituents at home more irate than when they hear that 
hundreds of thousands of people have been made citizens of this 
country without a background check.
    There are now tens of thousands of convicted felons made 
citizens of this country because there was a big push to get 
people registered last year. There is nothing that outrages 
those people at home any more than this. I think anyone who 
knows about it can't believe it, and I wish we didn't have to 
believe it.
    Have you had any consultation with the FBI to find out how 
long it will take to find all of these people that are 
convicted felons that are now citizens?
    Ms. Meissner.  As we began to talk about earlier, the 
review of last year's cases of possible convicted felons is on 
a very aggressive timetable. Now, I must say that it is 
inaccurate to say that there are tens of thousands of convicted 
felons who have been made citizens.
    There are 71,000 who have an FBI record that is subject to 
review to determine whether they should not have been 
naturalized. But as difficult and as wrong as these errors have 
been, I think it's also very important that we try to be as 
factual as possible. It is a thorough review that is underway. 
It is being done by outside parties so that there is no 
question about the credibility of it. And we will settle this.

               locating the 71,000 who have an fbi record

    Mr. Latham.  Have you had any conversation with the FBI as 
to the number of man-hours that they're going to have to put 
forth in the next years to find these people that are gone? And 
incidentally, by your own standards, about 18 percent of these 
people are normally rejected for citizenship.
    And there would be tens of thousands who would normally not 
have received citizenship if they hadn't been greased through 
the system without a background check. Whether they are 
convicted felons or not, which most of them are, have you had 
any conversations with the FBI----
    Ms. Meissner.  Yes. It is the INS' responsibility to locate 
these people. We have the authority and we have the 
responsibility to locate these people.
    Mr. Latham.  Do you have the authority to go after 
citizens?
    Ms. Meissner.  If they were improperly naturalized, it is 
our responsibility and we will revoke their naturalization.
    Mr. Latham.  But who is going to find them?
    Ms. Meissner.  It is our responsibility to find them and 
locate them. We have their addresses, and we have their 
records. We have the jurisdiction over them. We will revoke 
their naturalization if they were improperly naturalized.
    Mr. Latham.  If I remember correctly in your testimony, you 
had identified 20 people and tracked them down. It had taken a 
period, if I remember, of four to six months to find 20 people. 
And that was your testimony.
    Ms. Meissner.  There are 69 people that are under 
revocation proceedings at the present time. There will be an 
additional number that will be served with revocation 
proceedings when this review is complete. We expect that is 
what will happen.
    The review of those criminal cases should be completed by 
the end of April. We believe that we will have the report by 
the end of May and then the revocation will begin at that time.

                   border patrol agent attrition rate

    Mr. Latham.  Okay. On the Border Patrol situation, there 
apparently is a tremendous turnover of agents, and that 
probably has a lot to do with the jobs they have to do. What is 
the turnover rate as far as the border agents themselves? Why 
is it so high? Maybe it's not a concern.
    Ms. Meissner.  Of course it is a concern.
    Mr. Latham.  A high rate.
    Ms. Meissner.  The attrition rate is different along 
different sectors of the border. The attrition rate is the 
highest in California. We believe that's a combination of the 
California environment having been the most highly stressed 
environment for our Border Patrol, as well as the highest cost 
of living area along the Southwest Border.
    This year we actually are seeing lower attrition rates than 
we have seen for the last several years. We are actively 
reviewing the process, and we have looked very carefully at 
attrition. We've brought in some outside experts to do 
extensive interviewing of our people to be certain what steps 
we might take as an agency to have the best retention that we 
possibly can.
    We don't really know why we're seeing less attrition this 
year. But there are a number of things that we have begun to do 
in order to get the optimum retention. In the first place, you 
want your people, your good people, in particular, to move 
forward. There are real promotion opportunities within the 
Immigration Service now because of our growth. There are real 
promotion opportunities for Border Patrol agents to move into 
supervisory positions, which there had not been in years past. 
That is a very positive thing, because it gives people the 
incentive to stay.
    In addition, we have been working on what we call a series 
of worklife issues. Those worklife issues include making it 
absolutely certain that we are properly selecting people in the 
first place, making certain that their families are aware of 
the conditions that they are going to face, helping families 
and young spouses to be in a supportive environment so that 
they are not so caught off guard by their spouses working into 
the deep hours of the night, et cetera.
    As a result, I think that we actually are feeling somewhat 
encouraged about our ability to deal with the attrition rate 
and the retention rate in positive ways.

         state department retention rates at foreign locations

    Mr. Latham.  Secretary Ryan, I had a conversation with the 
Inspector General a couple of days ago and talked about the 
issuance of visas in countries where they have trouble 
retaining people at the Consulate.
    I was amazed that sometimes the spouses of State Department 
people have to come in to help at places like Nigeria that have 
a tremendous workload. Spouses also help in certain countries 
with major drug trafficking concerns.
    What's the answer to that? Should we be splitting out the 
administrative part of the State Department from the rest of 
it? Everyone seems to want to someday become an ambassador to a 
country. There is not much interest in the administrative side.
    Ms. Ryan.  Well, I'd have to point happily at Ambassador 
Swing in Haiti and Ambassador Render in Zambia who are two 
Consular Officers who are Ambassadors so that the possibility 
does indeed exist for people to move up through the----
    Mr. Latham.  And that's why we can't keep anybody in these 
places.
    Ms. Ryan.  We do have difficulty in staffing our positions. 
Our workload has grown tremendously. We have been unable to 
bring in a sufficient number of junior officers because of our 
reduced budget situation. So, we have developed a series of 
alternative hiring and staffing our consular positions, 
including spousal employment, excursion tours for Civil Service 
employees in the State Department to go overseas for a tour or 
two, and excursion tours for Foreign Service specialists like 
information management specialists, or other types of 
administrative specialists.
    All of them receive the same consular training as our 
officers do. Should they not pass the consular training course, 
they are not then allowed to perform the work. My own 
preference would be, if we had the resources for it, to have 
only Foreign Service officers doing this work. But we don't 
have the resources.
    So, we have developed these different programs. They are 
working well, to my knowledge, to date. We don't have any 
serious complaints except that they are generally 
inexperienced.
    Mr. Latham.  It is my understanding that there really isn't 
so much a problem with the number of people available, but it's 
the number of people willing to take jobs in certain countries.
    Ms. Ryan.  That is a part of it, very definitely. But it is 
a combination of factors. The bottom line being that we really 
don't have enough people. Yes, Lagos, Nigeria would always be 
difficult to staff, clearly, because it's a very high fraud 
environment, a very heavy workload environment. Some posts are 
desirable. Some posts aren't.
    Mr. Latham.  Are there any proposals on the table today, or 
anything going on in the State Department, to address this as 
far as trying to get some answers as to the possibility of 
having two different career tracks; one being administrative?
    Ms. Ryan.  Well, we have talked about that. I personally 
would oppose that. I prefer a cohesive Foreign Service. I think 
that's better. I don't think we should have a blue collar and a 
white collar Foreign Service. The blue collar being consular 
and administrative, and the white collar being political and 
economic.
    I would really not want to see that. That was what it was 
like when I came into the Service 31 years ago. We got away 
from that because the opportunities weren't there for all 
officers, because certain categories of jobs were looked down 
on as not being worthwhile to do.
    Over the course of my career, we have largely overcome 
that. I personally fought against this discrimination even 
before I came into this job. I don't think there is anything 
more important that the Department of State does than deciding 
who gets a visa to come to this country or who gets a U.S. 
passport as an American citizen.
    So, I think that's very, very important work. I want that 
done by the same kinds of people who are doing all political 
analysis.
    Mr. Latham.  So, it's more of a case of stereotyping in the 
Department.
    Ms. Ryan.  Precisely.
    Mr. Latham.  Thank you, Mr. Chairman.

                       fingerprint identification

    Mr. Rogers.  Thank you. Now, in addition to the 
naturalization problems we've discussed heretofore, all of the 
FBI checks and the scrubbing of an applicant's record depends 
upon, frankly, the fingerprint that they submit withtheir 
application, right?
    Ms. Meissner.  It depends on a variety of things, but the 
fingerprint is crucial.
    Mr. Rogers.  Yes. Well, I mean we've got all of this 
machinery setup; the IAFIS system, the worldwide fingerprint 
ID, the machine readable visa.
    Ms. Meissner.  It's the reliable factor.
    Mr. Rogers.  It's the reliable piece. So the integrity of 
that fingerprint is all important, correct?
    Ms. Meissner.  We need to check the fingerprint. That's 
exactly right.
    Mr. Rogers.  Now, it used to be that INS itself, when an 
applicant applied to be a citizen, INS officers did the 
fingerprinting for security reasons. It is very plain why you 
would want to do that. Now, you rarely do that.
    During Citizenship USA last year, anybody could take a 
fingerprint, without restriction. Even though both the 
Inspector General and the General Accounting Office had both 
reported in 1994 that, that practice was extremely flawed.
    For example, an applicant that had a criminal record, all 
he had to do was find somebody else's fingerprint and escape 
the FBI checklist using that fingerprint. That print would come 
up clean. He's in. I know you've put some regulations in place 
now that require people that take the fingerprints to go 
through a certification process, but here are some of the ones 
just in California, that apparently are doing the fingerprint 
taking. And there are hundreds of them.
    I'm just looking through the list; Pooky's Post and Parcel 
is doing fingerprints for you; Fast Photo does fingerprints for 
you and they don't charge anything; Freeman's Hallmark in 
Pasadena charges $19; and on, and on, and on, including 
Hermandad Mexicana Nationale. That rings a bell. That's the 
group that last year was now made famous for organizing non-
citizens to vote.
    There are immigration lawyers representing people applying 
for citizenship authorized by your agency to take their 
fingerprints. Now, do they have a conflict of interest or not? 
I can imagine it probably wouldn't cost 33-cents to have two-
thirds of these fingerprint takers of yours fake a fingerprint. 
So, whatever safeguards the fingerprint process should have is 
being undercut because of an idiotic lack of requirements on 
your designated fingerprint service agencies.
    Now, under your new regulations, the commentors say, 
quoting from the Federal Register, that you allow convicted 
felons of aggravated crimes to take fingerprints. How can we 
clean this up?
    Ms. Meissner.  Well, the Immigration Service has for years 
no longer been itself taking people's fingerprints. That is not 
something that originated in the program over the last year or 
two. It's been since the 1980s.
    Mr. Rogers.  I don't care if it started in 1812. It's 
crazy.
    Ms. Meissner.  Well, the designated fingerprint service is 
a considerable improvement over the system that it replaced.
    Mr. Rogers.  Your own Inspector General of the Justice 
Department in 1994 told you, fix it. The GAO told you in 1994, 
fix it.
    Ms. Meissner.  That's right.
    Mr. Rogers.  And here we are today.
    Ms. Meissner.  The designated fingerprint entities are the 
``fix its.'' They are the fix it that has been suggested by the 
Inspector General and the GAO. The designated fingerprint 
service provides a certified entity where all of the people who 
take the fingerprint are trained to do so. That addresses 
concerns both from the standpoint of dependability and from the 
standpoint of reliability.
    Mr. Rogers.  Can you assure me that they're not taking 
bribes to fix them?
    Ms. Meissner.  They are being monitored.
    Mr. Rogers.  By whom?
    Ms. Meissner.  They are being monitored by an outside 
contractor.
    Mr. Rogers.  Who is the contractor?
    Ms. Meissner.  I will get you the name of the contractor 
who does regular and unscheduled inspections of the fingerprint 
services in order to be certain that the procedures that they 
have been trained on are being followed.
    [The information follows:]

           Contractor for Inspections of Fingerprint Services

    USATREX is the contractor that conducts regular and 
unscheduled inspections of the fingerprint services to ensure 
that the procedures implemented are being followed.

                  Electronically Scanned Fingerprints

    Ms. Meissner.  Now, we recognized that this is not where we 
ultimately want to be. Where we ultimately want to be is with 
electronically scanned fingerprints. We and the FBI have a 
methodology and a time schedule to replace the current system 
with a better one.
    Under that system, when the person actually comes to us for 
their interview, we will be able to electronically scan their 
fingerprints as they sit before us and compare them with those 
that had already been submitted, thereby ensuring their 
accuracy. That system is, as I say, on a time table and will be 
put into effect within the next two years.
    Mr. Rogers.  Well, we're appropriating the funds to the FBI 
for their system. And I'm telling you, it will not happen in 
two years. I mean we're providing money as fast as we can, but 
it will likely not happen in two years.
    Ms. Meissner.  Well, we will be beginning to phase that in.
    Mr. Rogers.  What are you going to do in the meantime? 
You're going to process 1.8 million applications this year. I 
mean, the horse is going to be out of the barn before you get 
around to that gizmo.
    Ms. Meissner.  Of course there are cross-checks that occur 
where these people are concerned. After all, these people have 
had many other contacts with the Immigration Service.

   Use of INS or Other Law Enforcement Entities to Take Fingerprints

    Mr. Rogers.  Why don't you just use the INS or a Federal, 
State, or a local law enforcement entity to take the 
fingerprints, people that we know?
    Ms. Meissner.  We have discussed this with the local law 
enforcement community. The local law enforcement community is 
not only unwilling to take this on from the standpoint of 
workload, they also do not have police officers take 
fingerprints.
    Fingerprints that are taken by local law enforcement 
organizations are taken by clerical and non-professional 
personnel because it is a time consuming process. After a great 
deal of effort, it has been determined that the designated 
fingerprint services offer the best way to proceed.
    As I said the current system will be replaced by an 
electronic scanning system. We and the FBI are moving forward 
on that as quickly as we can, recognizing that it is more 
reliable.
    Mr. Rogers.  What would it take in terms of money or 
anything else for the fingerprinting to be done only by INS 
people?
    Ms. Meissner.  I would have to give you an estimate on 
that. I don't know that off the top of my head.
    Mr. Rogers.  How soon can you let us know?
    Ms. Meissner.  As soon as we can. It will take a little 
work.
    Mr. Rogers.  We can't wait too long.
    Ms. Meissner.  We'll try to get it to you within----
    Mr. Rogers.  We're going to mark up a bill here in about a 
month.
    Ms. Meissner.  Well, I was going to suggest two weeks; if 
we could at least have that.
    Mr. Rogers.  Two weeks is fine.

                  Convicted Felons Taking Fingerprints

    Mr. Rogers.  Now, are you still going to let convicted 
felons take these fingerprints in the meantime.
    Ms. Meissner.  I must say I don't know what you're 
referring to. I'll have to find out about that.
    Mr. Rogers.  Well, there is a regulation that was issued, 
published in the Federal Register on June 4, 1996. It's an INS 
regulation that allows people to take fingerprints. And it 
allows convicted felons----
    Ms. Meissner. I don't know the answer to that. I'll find 
out.
    Mr. Rogers.  Somehow it doesn't seem right. That's what you 
were going to say.
    Ms. Meissner.  That's right. It certainly doesn't.
    Mr. Rogers.  I agree. It's awful. And in the meantime, I 
just know that in this list of fingerprint takers in Los 
Angeles, everybody from immigration lawyers to Pooky's Post and 
Parcel, that somewhere in there we're not getting good 
fingerprints. And people are sneaking into the system. I don't 
know what you're going to do about it; do you?
    Ms. Meissner.  You've named a few of the designated 
fingerprint entities that sound as if they are trivial. Maybe 
they are trivial. I would not want to reach that conclusion. We 
have worked very carefully to try to determine who would be 
providers of this service.
    It's a part of the overall effort to have the proper and 
effective balance between privatizing certain functions and 
staffing up government agencies to carry out functions.
    Mr. Rogers. When it comes to finding felons trying to enter 
this country, I want the most reliable, secure information 
there is, even if it takes a Federal employee. You can't 
trivialize that. That cannot be played around with. We're 
talking about the most important and valuable thing this 
country can give a person and that's citizenship.
    Ms. Meissner. I agree with that.
    Mr. Rogers. And if you can't do it, we'll have to do it for 
you. So, make up your mind. You either do it or we will do it 
for you.
    Ms. Meissner. I agree with that, but I am telling you that 
the designated fingerprint program, although it is not the 
perfect answer, is a far improved answer over what had been 
decades long practice. It is a program in which there is 
careful monitoring and careful training, certification, and 
revocation.
    Mr. Rogers. I disagree. It was formerly done by INS 
officials. It used to be we only allowed INS people to do the 
fingerprinting.
    Ms. Meissner. That was a long time ago.
    Mr. Rogers. I don't care how long ago it was. I don't 
believe this system is working properly. I think you're letting 
in a lot of people that have criminal records because they're 
faking fingerprints. I think it's absolutely the biggest sieve 
in the whole system. And you've got to clean it up. Now, if you 
don't want to do that, we'll do it for you.
    Ms. Meissner. That's not what I said. I do want to do that 
and we have a plan to do it.
    Mr. Rogers. Which is?
    Ms. Meissner. It is simply not a plan that can go into 
place tomorrow.
    Mr. Rogers. You're going to wait on the FBI to have the 
fingerprint analysis machines which will not be here for a long 
time. That's not an acceptable answer.
    Ms. Meissner. There are a series of interim steps moving up 
to that and a series of other measures that are in place.

             COST OF INS EMPLOYEES ONLY DOING FINGERPRINTS

    Mr. Rogers. What I want to hear from you immediately is 
what it would cost to have INS people only, take fingerprints; 
INS or other law enforcement agencies that are recognized. 
Pooky may be a wonderful fellow; no doubt he is, but I just 
don't know.
    Ms. Meissner. Let me just give you a back of the envelope 
estimate and we will refine this. Thirty percent of the 
designated fingerprint entities are law enforcement agencies. 
The preliminary estimate on what it would cost for the 
Immigration Service to do the fingerprinting is $50 million.
    Mr. Rogers. Who says that? You just said a moment ago it 
would take two weeks to determine that.
    Ms. Meissner. I just said I will give you a back of the 
envelope estimate which was just passed to me. And I said that 
we would refine that.
    Mr. Rogers. Can we have some more illumination of that 
estimate from whomever helped with the number? Identify 
yourself for the record.
    Ms. Sale. My name is Chris Sale. We've done some very 
preliminary work looking at the timing and how many staff we 
would have to hire. That estimate basically looks at INS taking 
three million sets of prints a year, because it's more than 
just the citizenship prints that I imagine we'd have to worry 
about.
    But it does not fully constitute a real analysis because we 
haven't looked at facilities and things of that nature. But it 
is a very, very large number and one that would really, I 
think, need to be scrubbed thoroughly before we gave you a 
final estimate.
    Mr. Rogers. Scrub it thoroughly and get me the scrubbed 
number in two weeks.
    And I don't want the reverse of a Washington Monument 
figure here.
    Ms. Meissner. We share an interest in this and are 
absolutely committed to having a reliable, credible program. We 
are trying to do it as quickly as we possibly can, recognizing, 
as I've said before, that we inherited an inherently 
insufficient, weak system for it.
    Mr. Rogers. I agree; you did, but that doesn't excuse you 
and I for allowing it to stay that way.
    Ms. Meissner. And I agree with you.

                           INS REORGANIZATION

    Mr. Rogers. Now, I want to talk about the INS 
organizational structure and the effectiveness of the so-called 
reorganization. In Citizenship USA, you and the top managers of 
that program say that you had no idea that more than 20 percent 
of those being naturalized had not undergone a complete 
criminal background check. So far, no one has been held 
accountable for that failure.
    In the task force visit of this Congress to Miami, you say 
that you were also deceived and lied to by your own employees; 
had no idea about that deception.
    In addition, it is a widespread impression within INS, one 
that's been communicated to the Congress by personnel in all 
ranks of the agency, that the reorganization is a failure.
    Morale in the field is at a very low ebb. There is little 
confidence that field managers will have any input in the 
selection process of new key personnel. Can you tell me that 
the reorganization is a success or it is some degree of a 
success? Or am I being too pessimistic here?
    Ms. Meissner. The reorganization that we put into place in 
1994 moved us in the right direction. It was an incomplete 
effort which we are now completing and I made reference to that 
in my opening statement and to our conversation earlier this 
week.
    We will be giving you a written plan and explaining it in 
more detail as soon as we have done the proper clearances 
within the Justice Department and the Executive Branch. The 
overall idea of the reorganization was to create a line 
management structure that could, in a complex high volume work 
organization, move the decision-making and the accountability 
as close to where the work takes place as possible.
    We did not, in my opinion, give our regions sufficient 
tools to do that. We will now do so. We have also had some 
serious problems of understanding roles and responsibilities 
which we are attempting to clarify. Our forthcoming plan will 
provide clarification in much more direct terms.
    Mr. Rogers. Would you agree that under the current 
structure, there is inadequate communication of information 
from field officers to the highest management and program 
officers in Headquarters?
    Ms. Meissner. There has been inadequate communication. I 
call it the lack of bubble up. We don't have the kind of two-
way dialogue that I think a healthy organization needs to have. 
We have some ideas in mind on how to address that. That is not 
necessarily all, a part of the problem is structural. A part of 
that also has to do with other factors.
    As far as morale is concerned, I think that it's not fair 
to make a blanket judgment about morale in the field. There is 
extraordinarily high morale in some parts of this agency. That 
morale comes with a number of factors. It comes from the fact 
that we are finally growing in the right direction.
    There is a strong sense among many of our field people that 
for the first time in a long time there is a clear sense of 
direction. There is a vision of where we are going and that 
vision is the proper one from the standpoint of our mission and 
of carrying out our duties effectively.
    Our people, for the first time, have the equipment and the 
support that they have been needing in order to carry out their 
jobs. They have computers. They have cars. They have 
technology. They are able to act as professionals in many ways 
in which they were deprived of in the past.
    Now, that is not universally the case. We have certainly 
not finished this by any means. Where we have applied our 
efforts, our working staff are positive about the changes that 
they have seen.

                             ACCOUNTABILITY

    Mr. Rogers. Would you agree that under the current 
structure it's difficult to hold agency officials accountable 
for specific actions?
    Ms. Meissner. I do agree with that. It has been difficult 
to do that.
    Mr. Rogers. What steps are being taken to reform that 
structure and address other management problems within the 
agency? What are we doing?
    Ms. Meissner. We are taking a series of steps. One of the 
steps is what we've just been talking about. We're going to 
refine and make some major steps forward organizationally. The 
INSpect program is an extremely good example of what it is that 
we have been trying to accomplish.
    An audit that is now taking place in the naturalization 
program. The information from that audit will be used it for 
direct accountability purposes. I intend for that to serve as 
an example, in general, of the kind of rigor that we expect 
throughout our programs, and not simply in the naturalization 
program where field procedures are concerned.
    I think that the Miami incident and the actions that wetook 
where the Miami incident was concerned have sent a very, very strong 
signal throughout this organization. And it has not been an implicit 
signal. It's been an explicit signal. It's one that we have talked 
directly with senior managers about. And they understand that this kind 
of performance is simply unacceptable.
    Mr. Rogers.  Why have we not seen that same kind of 
decisiveness in Citizenship USA?
    Ms. Meissner.  When we know who is to be held accountable 
we will hold them accountable.
    Mr. Rogers.  Shall I tell you?
    Ms. Meissner.  I would prefer to come to you with my 
conclusions first, if you wouldn't mind.
    Mr. Rogers.  I just think that some heads ought to roll 
because this is a massive failure. And it's clear. I don't know 
where it reaches, but I will not rest my little body until we 
reach the final place, wherever that may be. But right now, 
it's in your agency. When will we see the list of people that 
you're going to hold accountable for the gross violations in 
Citizenship USA?
    Ms. Meissner.  We need for this audit to be completed in 
order to know how to fix the accountability.
    Mr. Rogers.  When?
    Ms. Meissner.  The major part of the audit should be 
complete. I believe the results should be available to us by 
the end of May. There will be, as we talked about earlier, a 
sub-effort of that taking place with the quality assurance 
piece report that we have just received.

                         INS selection process

    Mr. Rogers.  All right. Now, what changes in your selection 
process are you looking at that would ensure field managers 
have some input and therefore a stake in the new management?
    Ms. Meissner.  We have actually reallocated some of the 
selection authorities in order to return to field managers 
authority in some categories of personnel where it had not 
existed before. We do in the case of senior personnel 
selections, in fact, involve the field in the selection 
process.
    Those personnel selections go through something that we 
call the Executive Resources Board. And all of the Regional 
Directors, depending on what region we're choosing people for, 
always sit in on those discussions.
    The recruitment that we are presently undertaking for 
Regional Directors and several other senior positions will 
involve a recruitment both within the INS as well as a broader 
career recruitment throughout the government and among other 
communities where we might find qualified people when we make 
those selections.
    I think that you had a good idea when we talked earlier 
this week about bringing in some field people to sit in on the 
decision and we will do that.

                  staffing of investigative positions

    Mr. Rogers.  Now, staffing. The latest staffing and 
training reports from the Department show that INS is 400 
investigators below the level we provided. Last year, you were 
about 200 below this funded level. And that was a part of the 
reason we didn't provide additional investigators for worksite 
enforcement. Your training report also shows that you intend to 
only bring on about 120 new special agents this year. Why are 
we so far behind on this hiring?
    Ms. Meissner.  We are not far behind on the hiring of 
investigators. What we are dealing with is a longstanding 
problem between authorized positions and funded positions that 
dates back to the 1980s. That is a discrepancy that we have 
tried in other Congresses to address. And we have never been 
successful in getting it reconciled in the budget.
    Mr. Rogers.  These are funded positions we're talking 
about.
    Ms. Meissner.  My understanding is that the discrepancy is 
between authorized positions and funded positions.
    Mr. Rogers.  My information from your office shows the 
funded positions from Department of Justice, I'm talking funded 
positions, you are some 400 below the funded level from 1,787 
to 2,190. Am I reading the numbers wrong?
    Ms. Meissner.  Well, if that's the information you have 
then I'll have to look into it further. And I believe that we 
just received a call around noon on this point. So, perhaps we 
didn't understand the question properly. We will follow up on 
it and will get you the information.
    [The information follows:]

            Funded Versus Authorized Special Agent Positions

    The FY 1997 appropriation enacted for INS provided a total 
of 2,190 authorized special agent positions (direct and 
reimbursable). Due to personnel compensation funding reductions 
taken by INS over the last 15 years, as explained below, the 
number of funded special agent positions in INS is 2,023 for FY 
1997, a difference of 167. This 167 is the amount of unfunded 
special agent positions that INS has carried in its authorized 
position total, for which INS lacks the funding to fill. The 
INS has set an end-of-year goal of having all of the 2,023 
funded positions on board by September 30.
    The disparity between the authorized and funded number of 
special agent and other INS positions has been a long-standing 
problem. As early as FY 1982, INS attempted to correct the 
disparity by requesting a total reduction of 605 positions 
spread across several programs. Using the Investigations 
Program as an example, where the vast majority of our special 
agent positions are found, the FY 1982 budget request to 
Congress included a reduction of 81 permanent positions for 
this program. The purpose of the reduction was to maintain 
employment at the current on-board level at that time. Instead 
of approving the position reduction, the Congress added 188 
positions and reduced funding by a net of $453,000 in the 
Investigations Program as part of an overall $10 million INS-
wide reduction. This action created a funding shortfall for 
positions.
    In FY 1989, INS again attempted to correct the personnel 
funding shortfall by requesting personnel funding in the 
Investigations Program to correct the problem. This was not 
included in the President's budget request. However, the 
Congress cut 145 work years and $1,673,000 from the 
Investigations Program, further widening the disparity between 
the authorized and funded level of positions in the program.
    A year ago, INS began an initiative, that has just been 
completed, to reconcile all funded positions in INS. This 
resulted in a Table of Organization (TO) that reflects by 
program, by account, by location and by position type, the 
number of funded positions INS can support. This shows that a 
number of unfunded positions exist when the TO is compared to 
the authorized position level. It also highlights differences 
in how the positions are deployed programmatically and how they 
are budgeted. The Department has been briefed on this analysis 
and INS will soon be submitting a reprogramming request to the 
Department to realign positions as displayed in the budget with 
those in the TO. This reprogramming will correct any 
disparities between funded and authorized positions, as 
displayed in the budget.


    Mr. Rogers.  Well, these are funded positions that you 
asked for and we gave the money for. And they're not being 
hired.
    Ms. Meissner.  There may be a definitional issue here 
because it may be the case that the way in which the Justice 
Department keeps the records on this has to do with what we 
would have thought of as authorized positions as compared to--
the terminology we use.
    Mr. Rogers.  From your own records, what does it show? 
What's your position on this hiring from your records?
    Ms. Meissner.  From our records, what we have done in the 
last year in order to deal in a straightforward fashion with 
this type of question for investigations, as well as for our 
other occupations, is we have gone through an exercise to 
develop a table of organization in which we have actually 
counted every single person in every single office. We created 
a table of organization for each office and for each occupation 
so that we know where they are and we can track hiring against 
that table of organization.
    My information is that where special agents are concerned, 
we have, as of March 15th, 1,819 special agents on-board. We 
need to add 204 to reach the table of organization number by 
the end of the year of 2,023. Our hiring is on track to do 
that. Now, if there are discrepancies there, we will have to 
sit down with staff to work it out.

                          Worksite enforcement

    Mr. Rogers.  The reason why I bring it up is because the 
1997 Act that we passed included an increase of $536 million 
for INS; $9 million more than you requested. We gave you more 
than you asked for. Despite that increase, INS still publicly 
complained that they didn't get everything they asked for.
    Specifically they said that we didn't fund their worksite 
initiative. In 1996, we provided 300 new positions, primarily 
investigators for INS worksite enforcement. We didn't add 
funding in 1997 because at that time, you were 230 
investigators below the ceiling. You had the money, but you 
didn't hire them.
    And we weren't convinced that the worksite strategy would 
work because you couldn't demonstrate you were deporting 
aliens. We recently asked for information on how many of the 
aliens removed by INS in 1996 were the result of the worksite 
enforcement initiative. INS said we can't provide that because 
you didn't track it. And the staffing story gets worse. The 
latest staffing reports, as I've said, indicates you're still 
about 400 investigators below your ceiling and your training 
report only shows you're planning training for only 120 new 
ones this year.
    Now, the 1998 budget request includes another request of 
$7.8 million for 73 positions for worksite enforcement. How can 
we justify adding that much more money when you're still 400 
below what we've already funded for you? That's the question I 
have.
    Ms. Meissner.  Well, I come back to the answer as I 
understand it. We are indeed hiring investigators funded in 
1996 because the training schedule and hiring schedule was such 
that those were at the end of the process. But the problem of 
the 400 and the discrepancy is an historical problem in the 
budget as between funded level and the authorized position 
level.
    I can't give you any more information than that right now 
because I don't know the answer. So, this is something where we 
will need to sit down and work with you to try to determine the 
answer. Let me simply say that we are obviously, in all areas, 
including special agents, committed to hiring up fully to the 
levels that were funded and to using those personnel 
effectively. The lags have been training lags, but they have 
not been weaknesses in the hiring process. Our hiring process 
has worked well.
    Mr. Rogers.  Well, we're having trouble deciphering 
numbers. I don't have this trouble with the FBI or the DEA or 
the Department of Justice or other agencies. But I can't ever 
seem to get some hard cold numbers out of INS on some of these 
things. Steve Colgate.
    Mr. Colgate.  Maybe I can help. It is my understanding that 
we will receive from Immigration Service a reprogramming 
aligning the authorized level of positions versus the funded 
workyears that can support those positions.
    I've been informed that we may have the same type of issue 
that we had previously when we were dealing with Border Patrol 
that we had an authorized level that did not have sufficient 
funded workyears to support, that this reprogramming will 
align--the authorized positions compared to what were funded 
positions as outlined in INS' table of organization. We will 
work with the Committee, once I receive this reprogramming, on 
what the issues are here.
    Mr. Rogers.  Well, we know how many positions we've funded. 
There is no doubt about that. We know that. You know that. I'm 
not talking about authorizations here. I'm talking about 
funded, appropriated FTEs.
    Mr. Colgate.  It may be the same type of situation that was 
experienced with the Border Patrol--where either pay raises or 
across the board type of reductions--reduced the number of 
funded positions. We did not sufficiently reduce the number of 
authorized positions.
    So, that we may have in part, only in part, a situation 
where there may be an overstatement of the authorized 
positions. I think your point still follows the notion of what 
is your authorized--versus the funded FTEs.
    With redeployment, those types of positions do not require 
training. So, they wouldn't necessarily show up in the training 
report. But I have been informed that we may have the same type 
of issues in the investigations programs that we experienced 
previously I think in the 1994-1995 time frame with Border 
Patrol.
    Mr. Rogers.  All right. But you will get back with us.
    Mr. Colgate.  Yes, sir.

                deportation of illegal alien population

    Mr. Rogers.  Now, let me shift to another topic quickly. By 
recent INS estimates there are five million illegal immigrants 
now living in the U.S.; the same peak level of illegal 
immigrants in the country as 1986 which was the reason why we 
passed the Immigration Reform and Control Act of 1986.
    We've given you triple the resources you had in 1986. And 
despite these unprecedented increases in funding, a 105 percent 
increase over the last four years, your strategy to reduce the 
number of illegal immigrants has not made a dent in the illegal 
immigrant population living here. Instead, the population 
continues to grow.
    You seem to be making some progress on the border in 
California, I admit; stopping illegal border crossings, though, 
is only one facet of the fight. And I'm talking about the other 
facet and that's removing illegals presently here, including 
criminals. You deported 68,000 people last year. That's less 
than 1.5 percent of those living here.
    You fell short by 37 percent of your own plan to deport 
110,000 aliens in 1996. The Institutional Hearing Program--is 
23 percent short of your own goal. There are 193,000 
outstanding orders of deportation right there on the books 
where an Immigration Judge has ordered somebody deported and 
they're still here; can't be found.
    We hear nothing out of you on a way to ensure that these 
people will be deported. INS and the State Department have not 
implemented an exit control program. This Subcommittee and the 
Immigration Subcommittee have been screaming, yelling, pushing, 
and shoving on this for I don't know how many years to put in 
place a united system so that people who overstay their visas 
can be prevented from returning on future visas, at the least, 
not to mention deported when they overstay.
    We haven't seen that program. Neither of you can say that 
your problem is because you don't have the resources. We've 
shoveled money at you. We've given you more money than you've 
asked for year in and year out. So, in 1996 and 1997, for 
example, we gave INS over 1,600 new positions, and $243 million 
to detain and remove deportable aliens.
    In 1997, we gave INS $78 million and 2,000 more detention 
beds; more than you asked for; 2,000 more than you asked for. 
You said in 1996 in your budget statement that you would deport 
110,000 illegal aliens; triple the number deported in 1993. In 
fact, there were 68,000 deported as I've said.

              port court and deportation of illegal aliens

    In addition to falling short of those goals, we're being 
misled with your statistics on removals which paint a far 
rosier success story than what is actually occurring. You began 
a so-called Port Court Initiative in 1996, which was a quick 
removal process for aliens trying to enter illegally at some of 
the ports of entry on the border.
    That produced 10,500 of the removals that you've used in 
its reported numbers. But our goals for removals of illegal 
aliens have always been a part of the strategy to reduce the 
population living in the U.S., instead of a border strategy. 
And for that reason, INS has never used statistics of aliens 
that the Border Patrol sends back across the border in its 
removal estimates.
    The Port Court Initiative is essentially a border control 
strategy. And it generates good, fast statistics. It's a good 
initiative. I like it. But we shouldn't confuse that with the 
removal and deportation of illegal aliens inside the country 
that have been here for some time.
    If you take the Port Court removals, 10,500, away, then 
you've only deported 58,000, despite a 44 percent increase in 
resources for that purpose. What do you say to that?
    Ms. Meissner.  Removals are a crucial part of an effective 
strategy to counter illegal immigration. We have always said 
that border control and prevention of illegal entry at the 
border is one piece of a comprehensive strategy. It is not the 
only piece. It is the most important and is the one we have 
focused on most heavily, but it cannot exist by itself as a 
deterrent or a preventative.
    Removals are crucial for the integrity of the system in the 
eyes of the deportable alien and the immigrant community. They 
are crucial from the standpoint of sending the message back to 
communities that we mean business in terms of enforcing our 
immigration laws properly. Removals are an initiative where we 
have had very substantial progress and major moves forward in 
the last three years as the funding for this initiative has 
increased.
    The removals for last year were 36 percent higher than the 
year before. This year, when we move up into the 93,000 range, 
that will be, I believe, 37 percent higher than what we 
achieved last year. Those are very substantial gains. They 
rely, however, on the ability to put together a system that 
works properly.
    That system rests heavily on not only the removal action 
and the personnel to take the removal action, but detention 
facilities and detention capability which has also been funded 
very generously by the Committee. Using that detention space 
effectively is a major link that needs to be properly developed 
in order for the removals to increase at the level that they've 
been increasing.
    We have virtually, in the last two years, doubled the 
amount of bed space that we are able productively to use. Our 
goal and funding level for this year on the number of bed 
spaces is 12,000. We are presently at 11,500.
    Bringing all of those pieces together, staffing them 
properly, and coordinating them properly, has to be done in 
order for the removal initiative to function correctly. It is 
working well. We will continue to increase at very substantial 
rates each year. But it is a multi-year endeavor to achieve the 
removal numbers that we want. In addition to removals, in order 
for the resident illegal alien population to be reduced, there 
are a series of other things that need to take place that are 
taking place.
    One happens to be in the success that has been achieved 
with the asylum system. In the asylum system, we now have 60 
percent less receipts than we had when the system was in crisis 
and when we first put our reforms into place. That is an 
important element of deterrence and an important element in 
reducing illegal stays in the United States.
    There are very important deterrence elements in the 
issuance of secure documents. We are replacing border crossing 
cards. We now have the technology to issue new employment 
authorization documents that are absolutely state-of-the-art in 
terms of security.
    Clearly, everything that improves worksite and employer 
enforcement contributes to an overall reduction in the reasons 
for people to be in the United States and therefore reduces the 
numbers of resident illegals that are a part of the illegal 
alien population.
    Finally, the program that you have been very properly 
pushing us on, departure management, is a very important 
element of an effective strategy to reduce the resident illegal 
population. We owe you a report on our plans and timelines.
    That report is currently in review and in circulation, but 
let me tell you that it depends on a pilot program which the 
Subcommittee asked for. That pilot program is being implemented 
this month in April. It will run through August. It is working 
off of a magnetic strip technology to produce an I-94 that is 
an automated form.
    That is another important piece in putting together an 
entire framework of programs and initiatives that have to work 
cooperatively in order to change the psychology, and the 
overall deterrent message in the environment that exist in this 
country. But those pieces are all coming together.
    They are being funded. They are being aggressively pursued 
by the Immigration Service. The numbers of removals each year, 
9 percent higher one year to the next, the next year 36 to 37 
percent higher, the next year 36 percent higher reflect that. 
Those are major, major steps forward.
    They are not incremental changes. And we will keep them 
going. Now, I think perhaps, if I might, my colleague may want 
to add some things to that.
    Mr. Moscato.  Mr. Chairman, your reference to the 10,000 
cases at the Port Court, you are right. They are quick. They 
are easy. That's one of the reasons we put judges down at the 
port--to allow for those kinds of turn around.
    Mr. Rogers.  That's great. That's great.
    Mr. Moscato.  Had we not--were we not in that environment, 
a good size majority of those numbers would have become a part 
of the general population. I didn't raise that to argue it.

                     outstanding deportation orders

    Mr. Rogers.  That's great. Congratulations. I'm just saying 
you prevented that 10,000 from becoming a part of the 193,000 
for which we have outstanding deportation orders which are not 
being executed. Congratulations. No, seriously. Why can't INS 
find these 193,000 that you've got orders for deportation and 
they're just staying here?
    Ms. Meissner.  We do very well on deporting those people 
who are in detention. It is very difficult and labor intensive 
to deport people who have orders of deportation who are not in 
detention. It's crucial. That's why we ask for it. That's why 
you provide it. That's why we look very, very closely at having 
the maximum turnover in that bed space so that we can remove 
the largest numbers as effectively as we can.
    We obviously want to get to a point where we are able to 
deport a large share, if not all, of the people who have 
outstanding orders of deportation. But that takes some working 
up to. There are tools in the new immigration law that give us 
a strengthened hand in achieving that result.
    We are in current discussions about a new regulation that 
we refer to as a surrender regulation which would strengthen 
our hand where outstanding orders of deportation are concerned 
for people who are not in detention. So, there are a number of 
things on the table and in process that get us closer to that 
goal. But as I say, detention is the most reliable handmaiden 
of removal and we are bringing that up as quickly as we can.
    Mr. Rogers.  On citizenship applications, do you check 
whether or not there is an outstanding deportation order 
against that person?
    Ms. Meissner.  Yes.
    Mr. Rogers.  Any of these people that were admitted last 
year, was there any pending deportation order on any of them?
    Ms. Meissner.  Yes. And that is a part of the review of the 
criminal files. When we spoke earlier about checking against 
EOIR's database on these cases, that is the check that we were 
looking for; outstanding orders of deportation.
    Mr. Rogers.  Is the outstanding deportation order list 
growing or diminishing? Are you bringing that down or does it 
keep growing; the 193,000?
    Ms. Meissner.  Well, obviously EOIR's productivity 
increases as theyget more judges. I don't know. Tony can tell 
you what the projections are for this year.
    Mr. Moscato.  We issued approximately 155,000 deportation 
orders last year, Mr. Chairman, and expect to issue some 
170,000 plus this year in response to cases filed by the 
Immigration Service.
    Mr. Rogers.  Well, you've got 193,000 outstanding orders as 
of January 1997. Is that figure up or down from January 1996?
    Ms. Meissner.  I'd have to check. I don't know the answer 
to that.
    [The information follows:]

Active Outstanding Final Orders of Deportation, January 1996 to January 
                                  1997

    The number of active outstanding final orders of 
deportation increased from 145,000 in January 1996 to 193,000 
in January 1997. The 193,000 total active outstanding final 
orders reported to Congress in April 1997 was obtained from the 
INS Deportable Alien Control system (DACS). The DACS supports 
field casework activity associated with aliens who are detained 
or placed under docket control for deportation. Since DACS 
cannot provide a number of outstanding final orders for a date 
in the past, INS used the PAS (Performance Analysis System) to 
estimate the number of active outstanding final orders for 
January 1996. The data used from PAS to produce the estimate is 
a snapshot of data from DACS. Because the data in PAS combines 
certain DACS categories, adjustments were made to eliminate 
certain groups of orders such as those issued to aliens who 
were still incarcerated. Based on the PAS data, INS estimates 
that there were 145,000 active outstanding final orders of 
deportation as of January 1996.
    The increase of active outstanding final orders of 
deportation from 145,000 to 193,000 by January 1997 is mainly 
due to an upsurge in the number of active final orders issued 
to non-detained aliens by the Executive Office for Immigration 
Review. The INS historically has had difficulty removing aliens 
who cannot be detained due to a lack of detention space, 
because non-detained aliens fail to surrender for removal at a 
rate of almost 90 percent. Initial indications are that the 
rate of increase in the number of active outstanding final 
orders of deportation appears to have slowed; the increase from 
193,000 at the end of January 1997 to 201,000 at the end of 
March 1997 was 4 percent. However, the effect of the Illegal 
Immigration Reform and Immigrant Responsibility Act on the 
number of orders issued to non-detained aliens remains to be 
seen in its entirety.
    For the most part, the active outstanding final orders of 
deportation are issued in absentia to aliens who failed to 
appear for their deportation hearing, or to aliens who were not 
in INS custody when they received their order and who 
subsequently absconded. The number also includes aliens who 
received orders of voluntary departure from Immigration Judges, 
but who either failed to provide required documentation of 
their departure or whose authorized departure period has 
expired. The number does not include orders of voluntary 
departure issued by an Immigration Judge in which the departure 
period granted has not yet expired, nor does it include 
deportation orders issued to aliens who cannot be deported due 
to difficulties in arranging for their travel documents. The 
number also does not include outstanding orders in cases that 
were administratively closed by INS after a three or five year 
period following the issuance of the order.

    Mr. Rogers.  Does anybody here know?
    [No response.]
    Mr. Rogers. Are those outstanding orders for criminal 
aliens?
    Mr. Moscato.  Those are outstanding deportation orders 
covering the entire range of aliens who come before our courts.
    Mr. Rogers.  How many of those would be criminal or for 
criminal activity?
    Mr. Moscato.  Approximately 14,000 of them were issued in 
IHP settings and virtually every one of those is going to be 
criminal. For the remainder, Mr. Chairman, I can get it for 
you. I don't have it right at my fingertips.
    Mr. Rogers.  All right.
    [The information follows:]

                Removal Orders Involving Criminal Aliens

    EOIR's responsibility lies in the adjudication of 
immigration cases. We are not in a position to know 
specifically which of our removal orders are ultimately 
enforced. However, of the 156,528 removal orders issued by EOIR 
during 1996, 37,389 involved criminal aliens.

    Mr. Rogers.  After a judge orders an alien deported, how 
and when is INS notified of that?
    Mr. Moscato.  INS is present in court represented by 
counsel. So, they are notified at the same time as the order is 
issued.
    Mr. Rogers.  Do you have any suggestions about how your 
orders can be carried out by INS for deportation? Do you have 
any good ideas to give us?
    Mr. Moscato.  Without being cute, we wrestle very hard to 
get them done and get them out. That's the shoreline of our 
responsibility.
    Mr. Rogers.  I understand.
    Mr. Moscato.  I don't have an expertise about how to effect 
them from there.
    Mr. Rogers.  You don't have any good ideas that we're not 
using now that we could use. We're not proud.
    Mr. Moscato.  Nor am I, if I could have some time to think 
and answer for the record, I'd be happy to do that.
    Mr. Rogers.  If you've got a good idea, we've love to hear 
from you. If there is some shortcut that you can see that INS 
could use to execute those orders, we'd appreciate hearing from 
you.
    Mr. Moscato.  Thank you, sir.
    [The information follows:]

             Enhancement of the Execution of Removal Orders

    An efficient method of enhancing the Service's execution of 
removal orders is to maximize the use of the detention. The 
1996 Act provides for the mandatory detention of a broader 
cross section of aliens subject to removal proceedings. The 
Service is seeking to expand their detention capacity. EOIR, by 
relocating existing resources and through resource increases 
requested for 1998, will increase Immigration Court presence at 
or near Service detention facilities. An increase in the number 
of EOIR removal orders issued in detention settings, should 
result in a similar increase in the number of orders executed 
by the Service.

                         exit control strategy

    Mr. Rogers.  Secretary Ryan and Commissioner Meissner, in 
our House report this year we asked you for a plan and time 
line for a pilot project to begin to implement the exit control 
strategy. We want to have that plan before us. We've talked 
about this before. I think we've got this ironed out with Mr. 
Colgate about getting that report. Now, when we get that 
report, what are you going to do about it?
    Ms. Meissner.  When we develop an exit strategy, Mr. 
Chairman, it will give us, for the first time, the tools that 
have always been lacking for us to review the visas that we 
issue.
    Mr. Rogers.  That's what I said 14 years ago; almost those 
exact words, ``when we get a plan.''
    Ms. Meissner.  Well, that's what the two of us are working 
on. We're trying to develop the plan, and put it in place. 
We're very anxious to have this information.
    Mr. Rogers.  Ten years ago I had to force State and INS 
into the hearing room over in the Capitol on this very thing. 
That was ten years ago. ``We're developing a plan,'' they said. 
Pardon me for being skeptical.
    Ms. Meissner.  I think that there actually has been some 
progress. As I said, we are starting a pilot during May on a 
method for doing the recordkeeping on departure management. We 
will be doing it withU.S. Airways as the carrier.
    It will be on the Munich to Philadelphia route. They will 
be producing a magnetic strip technology and an electronic I-
94. That pilot will be completed in September. It will give us 
the data that we need to know how much more reliable the 
departure match is and the time that the airline needs to put 
into it. We will need to enlist the cooperation of airlines in 
this and need a variety of other pieces of information.
    We are very cognizant of our responsibilities in this area. 
We are moving ahead. The pieces that need to follow are the 
actions we take against people that are not departing properly 
and how we deploy the technology into a generalized departure 
management. In fact, it is now becoming real.
    Mr. Rogers.  Well, I anxiously await the report.

                             245(i) funding

    Commissioner Meissner, the budget request includes a 
request to repeal the sunset date of the so-called 245(i) fee. 
What impact would a repeal have in both financial and 
programmatic terms for INS?
    Ms. Meissner.  The financial implications for the State 
Department and for the Immigration Service are, we believe, 
severe. The estimates that we sent forward for the 1998 budget 
reflected 245(i) funding of about $233 million in revenue. That 
was very speculative because we need to know more about how the 
new immigration law actually will affect this. But we do 
believe that it is somewhere in the neighborhood of $200 
million in revenue that would be sacrificed if that provision 
were to sunset.
    Mr. Rogers.  From an immigration policy perspective, how 
can you advocate allowing people to become legal residents when 
we know that they've been in the country illegally for some 
period of time?
    Ms. Meissner.  Well, the point where 245(i) adjustment is 
concerned is that the people are eligible for a visa. It's a 
question of where they obtain their adjustment decision. If 
they go overseas to obtain it in the way that it was before the 
245(i) provision existed, then the visa is issued at the 
Consulate and it's a consular workload.
    If they are able to do that business in the United States, 
they come to an Immigration Office and it's an Immigration 
Service workload. It's been working as an Immigration Service 
workload. The resources that the Consular Service had at one 
time to deal with this caseload, as I understand it, don't 
exist anymore.
    And I'm sure that my colleague will want to speak about 
that. We believe that it is a practical, effective system in 
the way that it exists. We think the revenue is being put to 
good use for people who are eligible for that adjustment. There 
is nothing that detracts from the effective implementation of 
the immigration laws by allowing that adjustment to occur in 
the United States.
    Mr. Rogers.  Secretary Ryan, what impact would the repeal 
have on Consular Affairs?
    Ms. Ryan.  It would have a severe impact on us as well 
because one of the reasons that we went to this type of 
procedure on 245(i) was that we were seeing people who had been 
in the United States illegally returning to their home 
countries for visas, but they were eligible for those visas.
    We were doing in effect pro forma immigrant visa 
interviews. We don't have the workforce to do that kind of work 
when we have needs in other places with high fraud, with ever 
increasing non-immigrant visa workloads. We thought that the 
resources were best utilized in other areas of consular work.
    The Immigration Service took over this job. They were able 
to charge and to keep a fee and we were able to move consular 
resources to areas where we thought they were better utilized.
    Mr. Rogers.  What I'm looking for is what additional 
resources would you have to have to handle the workload?
    Ms. Ryan.  I will give you the exact number. What we would 
have to have is the number of positions back that we had 
reprogrammed to other consular needs, to what we thought of as 
higher priority needs. I don't have that figure off-hand, but I 
can get that for you.
    Mr. Rogers.  Well, it could be an even bigger workload than 
you had before. So, I'm not sure those numbers would be exactly 
the accurate ones.
    Ms. Ryan.  I'm sorry?
    Mr. Rogers.  You could have an even bigger workload than 
you had before.
    Ms. Ryan.  Yes.
    Mr. Rogers.  And what I need is the best information you 
can give me.
    Ms. Ryan.  We will give you our best judgment on what we 
need.
    Mr. Rogers.  Okay.
    [The information follows:]

         Section 245(i) of the Immigration and Nationality Act

    Question. What additional resources would the Department of 
State need if Section 245(i) of the Immigration and Nationality 
Act expires at the end of this fiscal year? What was the number 
of positions that you reprogrammed when this provision was 
implemented in 1994, and could the figure be higher now?
    Answer. Section 245(i), which was limited to a validity of 
three years and expires on September 30, permits certain aliens 
who entered the United States illegally or were employed 
without authorization to adjust status in the United States 
with the Immigration and Naturalization Service. If the 
Congress does not approve legislation extending Section 245(i), 
those persons will have to go abroad to adjust status and 
considerable workload will be transferred from the INS to 
Department of State consular posts, particularly in Mexico.
    The implementation of Section 245(i) shifted 100,000 to 
130,000 cases per year from consular posts to the INS. From 
December 1994 through November 1996, the number of petitions 
that would otherwise have gone to posts for processing was 
reduced by 25% worldwide. The reductions by region were:

                              [In percent]

Latin America and Caribbean.......................................  34.6
Europe and Canada.................................................    21
Sub-Saharan Africa................................................  13.9
East Asia and Pacific.............................................  10.6
Middle East and North Africa......................................    10
South Asia........................................................     9

    As a result of Section 245(i), 26 Foreign Service Officer 
(FSO) positions and 69 Foreign Service National (FSN) positions 
were reprogrammed, and 25 FSO and 169 FSN positions were 
eliminated. The savings were $1.5 million in FSO salaries and 
$3.4 million in FSN salaries.
    We estimate that, if Section 245(i) sunsets, we will need 
at least 43 new FSO positions and 147 new FSN positions. This 
takes into account a higher refusal rate and slower processing 
time because of changes in the law. The cost of establishing 
the new FSO positions and the related salary and support costs 
are likely to total $10,819,048. The FSN costs would be at 
least $3.7 million.
    We are aware of the concerns of some members that 245(i) 
provides advantages to persons who have violated U.S. 
immigration law. It is the experience of the State Department 
that the requirement to apply for immigrant visas abroad rather 
than adjusting status in the U.S. has not been a serious 
deterrent to violating our immigration laws. Section 245(i) did 
not make immigration easier nor change the rules of 
eligibility. It merely changed the location of processing and 
provided a penalty fee which can help offset some of the 
government's processing costs.

    Mr. Rogers.  What percentage of those cases are likely to 
be denied, would you say?
    Ms. Ryan.  Are likely to be denied?
    Mr. Rogers.  Yes.
    Ms. Ryan.  Very few. That's one of the reasons that we 
wanted to get out of that particular business because there was 
no penalty for their having been illegally in the United 
States. They waited here until they accumulated all of the 
documents that they needed and their appointment turn came. 
Then they went back overseas, went to the interview, were 
issued the visa and came home. Very, very few, a minuscule 
percentage, of immigrant visas were denied.
    Mr. Rogers.  I don't know any agencies that have more work 
ahead of them than the ones I'm looking at right now. You've 
got some really tough problems. I don't diminish that. They are 
some of the toughest.
    The INS historically has been an agency that's tough to 
manage. I don't know why, but it is. So, I don't mean to be 
overly critical of you, although I may seem so at times. I'm 
like you; I'm frustrated with some of the lack of progress on 
some serious, serious problems.
    But I'm going to stay with you and I'm going to help you 
get to the bottom of as many of these things as we can. 
Commissioner Meissner, I'm prepared to back you up with 
subpoenas or whatever it takes to help you gain control of this 
unwieldy organization that's letting some serious incursions 
into American rights take place. I'm serious about that; dead 
serious.
    So, I not only will be critical of you and your operation, 
but I will be helpful to you, if that's what it takes. And if 
it would improve your organization, I will even praise you. 
I'll do whatever it takes. But I have to say that although we 
can see some progress in places like the Southwest Border in 
California, there are some real big time problems that we're 
still facing.
    Five million illegal immigrants currently in the country. 
One hundred ninety-three thousand outstanding deportation 
orders and so on. So, we will continue to work with you year 
round. If you see during the year some need to reprogram funds 
that you had earlier thought best used in one place that you 
want to move around given the change--I want you to feel free 
to consult with us about that.
    We will do everything we can to be helpful in that respect. 
I know you've got almost an impossible task. I'm not yet 
willing to say it's impossible. In the past, I've come close, 
but I can see a little bit of light on the horizon. But I'm not 
sure that it's not a comet. I don't believe there is anything 
following that comet.
    Well, thank you all very much.

[Pages 1118 - 1123--The official Committee record contains additional material here.]


                                          Wednesday, April 9, 1997.

  BUREAU OF PRISONS, U.S. MARSHALS SERVICE, U.S. SENTENCING COMMISSION

                               WITNESSES

KATHLEEN M. HAWK, DIRECTOR
EDUARDO GONZALEZ, DIRECTOR, U.S. MARSHALS SERVICE
RICHARD P. CONABOY, CHAIRMAN, U.S. SENTENCING COMMISSION
    Mr. Rogers. The Committee will come to order.
    Good morning. This morning we welcome to the Subcommittee 
the Director of the Bureau of Prisons, Dr. Kathleen Hawk; the 
Director of the Marshals Service, Eduardo Gonzalez; and the 
Chairman of the Sentencing Commission, Judge Richard Conaboy.
    The Bureau of Prisons and Marshals Service are critical 
Federal agencies responsible for protecting our communities by 
ensuring Federal criminals are kept off the streets. Since the 
Sentencing Commission is responsible for Federal sentencing 
guidelines, it ultimately affects the prison population.
    The Justice Department is requesting a significant amount 
of resources, over $5 billion for fiscal year 1998, for 
Federal, state, and local prisons, and detention capacity. In 
addition to our traditional Federal responsibilities, we 
understand the Administration will be proposing a plan to 
transfer District of Columbia prisons, court system, and other 
functions to the Federal Government. Although your fiscal year 
1998 budget does not include funding for that proposal, it will 
have a significant impact on the resources, workload and 
operations of all your agencies. We would like to get a better 
understanding of the impact of this proposal from you today.
    We're all committed to keeping criminals off the street and 
ensuring that criminals are fully punished for their crimes, 
but we can't lose sight of our commitment to do this as 
efficiently and economically as possible. We're honored this 
morning to have with us the distinguished Vice Chairman of the 
Full Committee on Appropriations and the most senior Republican 
Member of the House, although he looks much, much younger than 
me.
    I'm very honored to have my good friend Joe McDade, 
Chairman McDade, who will introduce one of our panel members 
this morning.
    Mr. McDade. Mr. Chairman, thank you very much, and my 
colleague, and Ranking Member, thank you, as well. I wanted to 
come over this morning because I've known Judge Conaboy for 
about 30 years, give or take a decade, here and there.
    Too often it seems to me in this community that we all work 
in, this pressure cooker that we work in, we never get to know 
each other personally. We never get acquainted enough to be 
able to get to know the person who is going to execute the 
decisions we make very well. That's always been a troublesome 
thing for me. And I know it is for all of us on both sides of 
the table. It's a shame that we can't interface in the world a 
bit more and get to know each other better.
    So, I wanted you to know that I've known Judge Conaboy as a 
State Judge, as a Federal Judge, as a citizen in my community, 
as a lawyer, as a lawyer for the Commonwealth of Pennsylvania, 
as the Chair of the Sentencing Commission of the Commonwealth 
of Pennsylvania, and now doing his job here in Washington. He 
is the kind of a person that we can take supreme confidence in. 
He will do a superb job for you, and I just wanted to share my 
knowledge of him and my friend.
    I admit to being prejudiced because he is my friend as 
well. So, I hope you will treat him kindly. I have to run to be 
at another hearing at 10:15 a.m. Godspeed; nice to see you.
    Mr. Rogers. After that kind of an introduction, I don't 
think we even need a hearing. Why don't we submit your request, 
stamp it, and here we go.
    We will proceed now with opening oral statements from the 
three of you. Judge Conaboy if you would like to proceed, then 
Director Hawk, and then Director Gonzalez. We will include your 
prepared written testimony in full in the record. We ask you, 
if possible, to limit your opening remarks to five minutes or 
so. Judge Conaboy, welcome.
    Mr. Conaboy. Thank you, Chairman Rogers. The only concern I 
have is when you mentioned how senior Congressman McDade is 
because I'm still a few years older than he is. And I mean 
anyplace I go anymore, I'm the more senior person in the room. 
That's a frightening thought at times. But it is good to come 
over here.
    I said to some of your staff members this morning as just 
an aside that one of the things that has struck me in coming 
here from being 35 or so years on the bench--which is so much 
more of a quiet operation than yours--it's really startling how 
many things you have to address on a daily basis. I know after 
hearing from us and the Bureau of Prisons and the Marshals 
Service, you're hearing from other people with different 
concerns the next day.
    So, we appreciate the chance to come over and just tell you 
a little bit about what we do and what we're trying to do. As 
we also told your staff, if there is any other information we 
can provide you or give to you we will be glad to do that. I 
will take this chance to talk to you very briefly this morning; 
of course, it's supplemented as you know by a written statement 
that we've submitted.
    So, I will be very brief which is sometimes unusual for me. 
I will try to be very brief and just touch on a few things. We 
at the Commission, following through on some of the remarks 
that you made today, try to develop and maintain and administer 
a strong and effective criminal justice system, at least our 
part of it, and at the same time try to be as wise and as 
prudent as we can about being careful not to waste funds and 
not to waste such things as expensive prison cells.
    It's a very expensive thing keeping people in prison.What 
we do essentially is provide the product that keeps the prisons going 
by virtually providing the sentences throughout all of the federal 
prison system. Our budget is very small. At this time of fiscal 
austerity and balanced budgets we've tried to live up to those 
strictures and at the same time we try to run our Commission as 
efficiently as we can. We feel that what we do there is extremely 
important.
    I won't go through my entire written testimony, of course, 
but let me just touch if you will on several of the things that 
we're doing that I think might be of interest to you. First, I 
would mention that for the past several months, we've been 
working extremely hard implementing much of the important crime 
legislation that you people passed in the 104th Congress.
    While there is no single crime bill in 1996, you did pass, 
as you well know, much important crime legislation, some of it 
addressing terrorism, immigration, economic espionage, 
stalking, and child pornography, all of which are very highly 
emotional and highly important topics to the people of this 
nation.
    It's our job after you pass that legislation to translate 
it into the sentencing guidelines to make it usable in the 
courts of this nation in a way that the judges, the lawyers, 
and the probation officers who are working with those laws will 
understand how they should proceed through the sentencing 
process and what kind of sentences should be imposed in most 
cases.
    So, it's a very difficult, time-consuming job to take your 
legislation and to try to understand it as best we can what you 
intended to do, and then to work it into the system so that the 
sentences imposed under that legislation fit into the pattern 
that we have developed at the Commission.
    Secondly, we would like you to know that we're using, as 
best we can, many new technologies wherever possible to 
accomplish the better results and at a lower cost where that 
can be done. We're developing, for instance, together with the 
Administrative Office of the Courts and the Federal Judicial 
Center, a teleconferencing center which will allow us to train 
more federal judges across the nation, more prosecutors, and 
more probation officers.
    Training is one of our most important jobs and one of our 
strongest arms. This we hope will allow us to reduce the need 
to send our staff traveling quite as much as they normally have 
to do it. In addition to that in this area of technology we've 
introduced our own home page on the World Wide Web.
    I have to confess, I don't even know what some of that 
terminology means, but I know how well it works and how we've 
been able to hold conferences through this World Wide Web 
without any of us at the conference ever leaving our offices.
    More importantly than anything else, just yesterday 
afternoon--in fact we thought we'd might be able to bring one 
to the hearing and show them to you on the television screen--
we've developed our first series of public service ads that 
we're hoping we can get stations across the country to use. The 
purpose of it being to demonstrate, especially to young people, 
how severe the sentences are that are imposed in the federal 
courts.
    We perceive through some of the studies that we've made 
that young people across the country still sometimes feel they 
can be involved, particularly in the drug area, and be hit with 
very simple or easy sentences. But I want to tell you, the 
sentences under the federal guidelines are very, very severe.
    We have developed this series of ads that demonstrate that 
in ways that we think will hopefully be impressive. I might 
point out to you that we conducted countless focus groups of 
young people trying to find out who would be most impressive 
with them. The kids told them, don't give us ads with the 
leading governmental figures telling us what to do. Don't bring 
us leading sports figures. Don't bring us popular entertainers. 
We know they're all paid to do that kind of work.
    The person who was impressive most to them was their 
mother, believe it or not. This was across the nation with all 
of these focus groups that they used. So, one of them is very 
interesting, particularly since it's Mother's Day Commissioner 
Gelacak who is with me today, our Vice Chairman, was very 
active in helping us develop these. We hope to have those on 
the air before the end of this month.
    Thirdly, the Commission has been trying to work closely 
with the Bureau of Prisons. We've developed some new 
associations recently to better target our resources and to 
work more closely with the Bureau in trying particularly to 
determine how we can best organize our information so that it 
does translate into the proper use of the facilities at the 
prisons, so that our expertise will mesh with theirs.
    So, that when we're deciding on what kind of sentences we 
should impose, we can immediately translate that into what kind 
of impact it will have and what kind of cost it will be to the 
Bureau of Prisons. We hope to continue to work closely with the 
Bureau on that and to use the data that we collect daily to 
help them to make their decisions.
    In that area, I just want to mention finally, the 
collection of data. That is one of our most important jobs. 
There are approximately 40,000 sentences imposed in the federal 
courts every year. It's been reduced the last couple of years. 
It might be 39,000 last year.
    We monitor every one of those sentences. We collect dataon 
every single sentence. We have a warehouse of data that we're trying to 
use now in a variety of ways, not the least of which will be 
interfacing with people like the Bureau of Prisons to see what an 
impact that information will have on them.
    As an example of it I think we've given to each of you a 
little folder that's just a small example of how our data can 
be used. It shows you how the crime statistics in your specific 
district compare nationwide. I've begun to take that with me 
every place I go in the country to visit district courts and so 
on. They find it one of the most important, most interesting 
pieces of information we have.
    It tells you what kinds of crimes have been prosecuted in 
your districts, how many of those there are, and how that 
compares nationally. It gives you some idea of the fight 
against crime and the efforts to control crime. As you know, 
Mr. Chairman and Members of the subcommittee, one of the other 
things we've tried to do in this past year and a half is to 
strengthen our liaison with the Congress so that we keep more 
close touch with you.
    One of my counsel, Jonathan Wroblewski is here with me 
today. He, in particular, has been assigned by me to develop 
better liaison with the Hill so that we will be more in tune 
with your desires and your concerns about what we're doing.
    We've tried to cover much more in our written testimony. I 
would conclude by just saying to you this past three months, 
and particular yesterday and Monday, we spent hour after hour 
after hour working on important sentencing issues. We had a 
very, very interesting public meeting yesterday trying to 
translate some of the legislation you've just passed on 
immigration, terrorism, and stalking.
    We are trying to take the legislation that you've passed, 
try to understand what it is you want it to accomplish, and 
then translate that into directions for judges across the 
country to use in sentencing that will be in the courts.
    These are just some of the things we try to do on a daily 
basis. I'd be glad to respond to any of your questions. I have 
several members of the staff here with me. As I said, 
Commissioner Gelacak, one of the other Commission members is 
here, and if there are any questions, we'd be glad to do that.
    Mr. Rogers. If you would like to ask the Commissioners to 
raise their hands.
    Mr. Conaboy. Yes.
    [Hands raised.]
    Mr. Conaboy. Mr. Gelacak, by the way, spent a lot of time 
on the Hill here. He was staff director from the Senate 
Judiciary Committee sometime ago. John Kramer was a Staff 
Director for the Sentencing Commission in Pennsylvania. He is a 
professor at the Penn State University.
    When I became Chairman he became Staff Director of the 
Sentencing Commission. He is a renowned person nationwide in 
the whole business of sentencing guidelines. He is the Staff 
Director and he is doing a great job.
    [The statement of Mr. Conaboy follows:]

[Pages 1130 - 1147--The official Committee record contains additional material here.]


    Mr. Rogers. Thanks, Judge Conaboy. Director Hawk.
    Ms. Hawk. Good morning, Mr. Chairman.
    Mr. Rogers. Good morning.

              bureau of prisons director's opening remarks

    Ms. Hawk. I'm pleased to appear before you today to present 
the Administration's 1998 budget request for the Bureau of 
Prisons. I want to begin by thanking you, Mr. Chairman and 
Congressman Mollohan and the other Members of the Subcommittee 
for the wonderful support that you've given to the Bureau of 
Prisons over the years.
    Congress has recognized our continuous growth and the very 
challenging nature of our inmate population and has addressed 
significant overcrowding by providing the resources necessary 
for us to fulfill our responsibilities. I'm also pleased to 
appear here today with my colleagues, Eddie Gonzalez and Judge 
Conaboy.
    Our 1998 request focuses on adding prison beds and 
continuing to reduce overcrowding in our facilities. The 
current system-wide overcrowding rate is 25 percent. However, 
our medium and high security facilities remain dangerously 
overcrowded at rates of 45 and 70 percent over capacity 
respectively. It is specifically the need for additional higher 
security prison beds that's addressed in our 1998 request.
    Nothing could highlight the need more clearly than an 
incident that occurred just this past week in our severely 
crowded Lompoc, California Penitentiary.
    Without any provocation, a correctional officer was 
brutally murdered by an inmate and several other officers were 
attacked. After the hearing today, I'll be heading out to 
California for the memorial service for our slain officer, a 
very dedicated and outstanding young man who leaves behind a 
wife and two very small children. It's a very sad day and a sad 
time for us at the Bureau of Prisons.
    Our 1998 request totals $3.2 billion and provides increases 
to activate a medium security facility at our complex in 
Beaumont, Texas; construct a high security institution at 
Castle Air Force Base in California; convert two dormitory 
style housing units to single cells at two penitentiaries, 
enhance our intelligence gathering--primarily at detention 
centers; and to meet the requirements of the new electronic 
Freedom of Information Act.
    I will not repeat the details of our program increases 
because they are explained in my written statement. I would 
like to focus on one increase in particular and that's the one 
that affects two of our oldest penitentiaries, Lompoc, 
California, and Lewisburg, Pennsylvania. An increase of $16.7 
million is requested to modernize and convert dormitories to 
cells in these penitentiaries.
    As I've stated earlier, our penitentiaries are very 
crowded; Lompoc at 62 percent over capacity and Lewisburg at 54 
percent over capacity. Currently, both Lompoc and Lewisburg 
have over 200 inmates in dormitory settings.
    The resources being requested would permit us to convert 
the dormitory areas to single cells with steel security doors, 
much enhancing the security in those facilities.
    As of April 3, 1997 our total population reached 109,001 
inmates. That includes 11,181 inmates housed outside of the 
Bureau of Prisons in contract facilities and 97,820 within our 
own Bureau of Prisons facilities.
    By the year 2000, we project over 127,000 inmates will be 
in our custody. That's an additional growth of 17 percent. This 
projection does not include the proposal for transferring the 
District of Columbia sentenced felons into our custody. Our 
prison growth continues as a result of increases in the actual 
number of commitments and increases in sentence lengths. We 
expect this trend to continue as the Administration focuses on 
violent crime, particularly gang related activities.
    I'm pleased to report with the resources that Congress has 
provided, we've made substantial progress in adding capacity 
and reducing crowding. During the past four years we've added 
approximately 28,000 beds and an additional 17,000 beds will be 
added by the end of fiscal year 1998.
    While the Bureau's primary responsibility is the 
incarceration of sentenced inmates, we've played an 
increasingly larger role in the custody of pre-trail detainees 
under the care of the Marshals Service. We have in design or 
under construction several new detention facilities. These 
include Brooklyn, Philadelphia, Houston, and Honolulu. Our 
Seattle facility, another new one, has been completed and will 
open within the next couple of months. The other detention 
facilities that I've referenced will be on-line by the year 
2000.
    Mr. Chairman, this request includes only the increases 
necessary to add further inmate capacity, increase our 
intelligence gathering and meet the requirements of the law.
    Again, I would like to thank you, Mr. Chairman and Mr. 
Mollohan, for the wonderful support that you've given the 
Bureau of Prisons. This concludes my prepared remarks. I'd be 
very happy to entertain any questions. Thank you.

[Pages 1150 - 1162--The official Committee record contains additional material here.]


    Mr. Rogers. Thank you. Director Gonzalez.

            U.S. MARSHALS SERVICE DIRECTOR'S OPENING REMARKS

    Mr. Gonzalez. Good morning, Mr. Chairman, Congressman 
Mollohan. Thank you for the opportunity to present the 
President's fiscal year 1998 budget request for the United 
States Marshals Service and for the opportunity to do so in the 
company of the Director of the Bureau of Prisons, Dr. Kathleen 
Hawk, and the Chairman of the Sentencing Commission, Judge 
Richard Conaboy.
    The Bureau of Prisons and the Marshals Service work closely 
on many detention issues. More importantly, the Bureau of 
Prisons currently provides approximately one-third of the jail 
space required to house Marshals Service detainees, a fact for 
which I am very grateful.
    In addition to providing a secure environment in which the 
Federal judiciary may administer the law, our services to the 
judiciary also require the detention and production of Federal 
pre-sentenced prisoners. The Marshals Service is currently 
responsible for nearly 24,500 detainees.
    Our Salaries and Expenses and the Violent Crime Reduction 
Program requests support 4,273 positions, at a cost of $500.8 
million. This reflects an increase of 108 positions and $19.6 
million over the fiscal year 1998 base.
    For Federal prisoner detention the request is for $462.8 
million, an increase of $37.3 million over the fiscal year 1998 
base. The Marshals Service program increase request of 108 
positions and $19.6 million supports the following: 53 
positions and $10.8 million to staff and equip new and 
renovated courthouses in 37 cities; 40 positions and $5.1 
million for fugitive investigations of felony warrants; five 
positions and $468,000 in support of the New York Metro Witness 
Security Safe Site; four positions and $190,000 to support the 
implementation of the Witness Security financial system 
improvement; four positions and $413,000 to implement the 
requirements of the Electronic Freedom of Information Act; and 
two positions and $2.1 million to continue our conversion 
efforts to replace the analog radio system with narrow-band 
digital radios.
    The $37.3 million in program increases for Federal prisoner 
detention provides for increased jail costs. The Marshals 
Service is at the narrow end of the Federal criminal justice 
funnel. We have no control over the number of detainees 
remanded to our custody, and consequently no option but to 
provide housing for them.
    The requested increase in the Federal Prison Detention 
Program is necessary to fund projected increases in the number 
of jail days and in the daily jail day rate needed to support 
the growing Federal detainee population. An additional $35 
million is also requested through the Office of Justice 
Programs to fund the Cooperative Agreement Program. This fund, 
administered by the Marshals Service, will support agreements 
in approximately 20 jurisdictions, providing as many as 1,150 
new beds for the detainees.
    The Marshals Service is not only responsible for the 
safekeeping and housing of all Federal detainees, but also for 
their transportation and security as they are moved to and from 
court and other court-related proceedings. To ensure that this 
operation is carried out in an efficient and safe manner and to 
satisfy judicial mandates, we seek to house our detainees in or 
near the Federal court cities.
    The Department of Justice has consistently adhered to a 
detention strategy which mandates that the Service first 
explore the rental of detention space from state and local 
jurisdictions, utilizing inter-governmental agreements as a 
mechanism to secure the space.
    Local governments, in particular the Sheriff's offices 
across the nation, have been very cooperative. We currently 
have 1,200 IGAs with state and local governments. Those are 
inter-governmental agreements, housing approximately 16,000 or 
more prisoners.
    Unfortunately, the inter-governmental agreements by their 
very nature provide beds on a space available basis. When a 
state or local government experiences an overcrowding problem 
of its own, Federal prisoners are usually the first to go, 
placing the Marshals Service in an untenable position. In those 
instances where insufficient jail space is available, the 
strategy then recommends the use of the Cooperative Agreement 
Program to encourage local jurisdictions to expand the jail 
space which can be made available to the Federal Government.
    In return for a guaranteed number of beds, the Federal 
Government provides construction or renovation funding to the 
local jurisdictions. Cooperative Agreement Program agreements 
are beneficial to both the local jurisdiction and to the 
Federal Government. The local governments are able to expand or 
renovate their facilities and the Marshals Service gets 
additional guaranteed jail space at a much lower cost than if 
we constructed and staffed the Federal facility.
    Contracting with private sector detention providers, is 
another alternative we use, Mr. Chairman. We rely on the 
expertise of the contract provider to know whether the square 
footage being provided for the prisoners is correct, if the 
number of guards is adequate, if the medical services provided 
are appropriate, or how to deal with the multitudes of other 
concerns associated with the management of a correctional 
facility.
    This brings us to the final and most costly alternative in 
the detention strategy, the construction of Bureau of Prisons 
facilities to house Marshals Service detainees. There are 
currently seven BOP detention facilities used to house Marshals 
Service detainees and 18 which housedetainees and sentenced 
prisoners. It is important to recognize that the Marshals Service does 
not request BOP construction until all other detention possibilities 
have been exhausted.
    In spite of the options available to us, the Service still 
experiences shortages throughout the country. So, we're 
experimenting with non-traditional alternatives to relieve the 
distress on the system. With the cooperation of several chief 
judges throughout the country, we're exploring the use of 
electronic technology to address detention concerns.

                         video teleconferencing

    The use of video teleconferencing can be of great benefit 
in those districts in which jail space may not be available in 
the court city, a CAP agreement cannot be negotiated, and the 
shortage is below the 500 bed minimum which could justify 
Federal construction.
    For example, given that the closet available jail space may 
be 50 or 100 miles from the court city, our deputies are 
required to transport the detainees to and from a myriad of 
court appearances, including meetings with attorneys. Fifty or 
100 miles are fixed distances, but I can assure you that they 
represent diverging dimensions throughout the nation.
    Fifty miles in the summer months in Montana may be a 45 
minute drive. The same 50 miles in South California may be a 
two-hour drive. Distances obviously present unique logistical 
and security problems to the courts and the Service. However, 
technology has advanced sufficiently so that we can provide 
secure video teleconferencing for attorneys to discuss cases 
with their clients and for the judiciary to conduct status 
calls, arraignments, and many other court-related functions 
that frequently take less than ten minutes to conclude, but 
impose an enormous transportation and security burden on the 
Service.
    We currently have systems operating in six districts, with 
six more ready to come on line in the near future. Although 
video teleconferencing is now being used primarily for attorney 
and probation officer interviews, I am appreciative of the 
support we have received from the local bar associations and 
the affected district judges.
    Hopefully, this will be expanded to other court-related 
activites. For the Marshals Service the transportation of large 
numbers of prisoners to and from distant locations to the court 
cities for court business presents a real challenge. The most 
challenging is the District of Hawaii where we transport 
prisoners between the mainland and the island routinely.
    I am pleased to report, however, that BOP will soon begin 
construction of a Federal prison which will alleviate that 
situation. In the meantime, we are examining the use of video 
teleconferencing to meet some of the transportation needs.
    In closing, I want to thank the Committee for the past 
support of the Marshals Service. You've recognized that our 
workload is basically dictated by the judiciary and other 
agencies. You have supported our prior year requests. I'd be 
happy to meet with the Subcommittee on any of these items. I 
look forward to answering your questions at this time.
    [The statement of Mr. Gonzalez follows:]

[Pages 1166 - 1176--The official Committee record contains additional material here.]


                       death of officer williams

    Mr. Rogers. Thank you very much. I thank all of you for 
your statements. The three of you handle some of the nation's 
most difficult problems. I'm singling out the Bureau of Prisons 
here, but I don't know of a better run Federal agency than the 
Bureau of Prisons. I've said that at a number of locations. 
Since I've done that, I can say it to you here on the record.
    You mentioned, Director Hawk, in your statement the tragedy 
of the death of Officer Scott Williams at Lompoc Penitentiary 
last week. I hope as you travel there to his funeral today that 
you will convey to his wife and family the deep regret and 
condolences that this Subcommittee, Mr. Mollohan and myself 
especially, have in this respect. We want you to tell the 
family we appreciate very much on behalf of the people of this 
nation the service of Scott Williams.
    Can you tell us more about how that incident took place?
    Ms. Hawk. Yes, Mr. Chairman. I thank you for the comments 
and I will extend them to the family when I see them tomorrow. 
Mr. Williams was monitoring a corridor, a main corridor within 
the penitentiary. It was right after dinner on Thursday 
evening. We have a controlled movement while the inmates move 
either from the dining room or their units to another location 
for a different activity.
    The officer was just doing his job walking down the 
corridor. In fact, we have the whole incident on video tape 
because we have cameras all over the institution. It is so 
painful watching this thing unfold when you know the outcome 
and there is nothing you can do to stop it.
    You see the inmate coming up behind the officer, first 
looking absolutely normal. Then he begins to move very quickly. 
Then you see him reaching in, and in a matter of just a couple 
of seconds pulling out two hand-made home-made knives, one a 
flattened piece of metal sharpened, and the other a rod with a 
point on the end.
    He comes up behind the officer--behind the officer--a very 
cowardly act, grabs him and cuts through his neck severing both 
arteries which made it absolutely impossible to do anything to 
save him even though there was staff all around him. He died 
within seconds.
    The inmate immediately then moves to the next officer. 
Again, when you watch it, there are two seconds unfolding. He 
went from the first officer to the second officer, stabbed him, 
and punctured his lung. He is in very serious condition, but he 
is going to be all right.
    Then, three other officers try to subdue the inmate. You 
see the inmate there just swinging at them all. He was very 
determined to do serious damage to our staff. We know that 
three other officers were injured, but they're okay also. We 
don't know anything that provoked this. This inmate has a 
history of assaulting law enforcement personnel on the street 
before coming into our institutions. He assaulted one of our 
staff at Oxford, Wisconsin. He got three more years added onto 
his sentence for that. Then he was quiet for several years and 
didn't cause us problems.
    We don't know of anything at this point in time that 
provoked his act against Officer Williams other than just a 
desire to hurt correctional staff. We're still working with the 
FBI and the U.S. Attorney's Office and our Board of Inquiry to 
try to figure out what his motivation was.
    Mr. Rogers. What was he in the prison for?
    Ms. Hawk. He was in on a cocaine charge a pretty long 
charge. He was doing, I believe, upwards of 20 years, but he 
did have a history of an old offense of assaulting police on 
the streets.
    Mr. Rogers. Do you have any idea if this qualifies him for 
a possible death penalty prosecution?
    Ms. Hawk. Yes, sir, it should.
    Mr. Rogers. Will you be seeking that?
    Ms. Hawk. Probably. You may recall that we had another 
death of a correctional officer in December of 1994 in Atlanta. 
That case just came to closure two weeks ago. The inmate who 
was convicted of killing that officer was convicted to the 
death sentence. So, we anticipate that we will certainly be 
seeking that again in this case.
    Mr. Rogers. Well, if the decision is not to seek the death 
penalty would you advise the Committee why you did not seek the 
death penalty?
    Ms. Hawk. I certainly will, sir. I certainly will.

                       violence and overcrowding

    Mr. Rogers. Are you experiencing greater violence in your 
facilities due to more violent criminals being incarcerated?
    Ms. Hawk. The numbers indicate that our violence has gone 
down. It kind of went up and peaked a few years ago and is 
drifting down a little bit. It is a little bit deceiving 
because the reality is the violence in our penitentiaries has 
gone up; both violence of inmate-on-inmate and inmate against 
staff. I think the downward turn suggests that we've been 
getting some control over the issue in terms of making sure 
that the violent inmates are moving up to the penitentiaries.
    That again speaks to why our request is for increasing 
higher security capacity. We're finding we need more higher 
security beds so we can keep inmates a little more under 
control, although obviously not completely under control 
because of what happened last week.
    It is clear that inmates coming to us have a much more 
violent history, when you look at their backgrounds. This is 
because the Administration is focusing on the violent street 
gangs, and the violent drug related street gangs. We are 
getting a much more violent population coming into our prisons.
    Mr. Rogers. Are there any initiatives in your budget that 
would alleviate the problem somewhat?
    Ms. Hawk. Some of these would certainly help. The new 
penitentiary at Castle Air Force Base, absolutely. We 
desperately need more high security bed space. The conversion 
of the two open dormitories where it is very difficult to have 
any control over inmates in the housing unit when they're just 
in rows of bunks with maybe little partitions between them. You 
can't even lock them in when you have a problem. So, converting 
those two dormitories at Lompoc, California and in Lewisburg, 
Pennsylvania are both very critical to our getting control over 
these kinds of inmates.
    Mr. Rogers. Apparently overcrowding in the security prisons 
is about 56 percent?
    Ms. Hawk. The 56 percent is what we indicate in the 
testimony. If you remove the super max or admin max in our 
Marion facilities which are very important for super max 
custody, then you have the rest of our regular USPs. If you 
just move those two out and look at the USPs, you're up to 70 
percent overcrowding. So, it's 56 or up, depending upon how you 
wish to count the numbers.
    Mr. Rogers. We've been trying to help accommodate your 
request to build high security prisons. In fact, we have worked 
with you on a couple of prisons that were in the works to 
convert them over to max or high security, instead of medium or 
lower.
    Ms. Hawk. Yes.
    Mr. Rogers. So, we're attuned to your problem here. Can you 
tell us if the overcrowding at the high security prisons may be 
contributing to the violence in some of these facilities?
    Ms. Hawk. I think it certainly exacerbates the problem. 
Whenever you have more inmates in a space than it was ever 
designed to have, I think it certainly contributes to the 
problem. It makes all of our security precautions and our 
security features that much more difficult because you have 
more and more inmates in there.
    I do, again, thank you, Mr. Chairman and this Subcommittee 
for having noticed that problem over the years and giving us 
sufficient resources. We have several penitentiaries that will 
be opening over the course of the next four years. 
Unfortunately, they're not open yet. That's why we have such 
severe overcrowding.

                 DISTRICT OF COLUMBIA SENTENCED FELONS

    Mr. Rogers. Now, I want to talk to you, and I suspect this 
topic is going to consume a lot of time over the next few 
years, today included, that is, the Administration's proposal 
or plan to transfer the District of Columbia's sentenced felons 
primarily housed at Lorton Penitentiary to the Federal Bureau 
of Prisons. Two years ago the Committee heard from you that 
this was not a good idea.
    Ms. Hawk. Yes, sir.
    Mr. Rogers. The recent study requested by our Committee on 
long-term options for Lorton gives a number of alternatives, 
but it appears that the Administration is choosing instead to 
give Lorton and all its problems to the Federal Prison System. 
Now, I think maybe you've changed your mind about Lorton from 
what you told us two years ago.
    Ms. Hawk. Sure. As you know, I testified very clearly in 
opposition to our taking over D.C. Corrections two years ago 
because at that time I believed that the D.C. Corrections 
system could get their system under control with adequate 
resources and adequate support and guidance.
    They had just gotten a brand new Director, Margaret Moore, 
whom I have tremendous respect for. I had faith that they could 
maintain their own system and that we would not need to bring 
them into our system which is already crowded and burdened as 
you well know. In the last two years, though, it's become very 
evident to me that that's not going to happen.
    I think that with the breadth of the problems in D.C., the 
financial problems they're suffering, not just in the 
correctional arena, but across the entire District of Columbia 
Government, I think it became very clear to me and obviously to 
many others that the Federal Government was going to have to 
step in and assist in some substantial way, but still maintain 
that support for Home Rule and the independence of the 
District. One of the obvious functions that they have is not 
had by most cities, but is by states--and that is to maintain 
their sentenced felon population.
    It became obvious that the Federal Government would step in 
and assist in some way, partly because of the large federal 
presence in the District of Columbia and all of the tourists 
that the nation's capital brings including all of the 
international visitors. The need to assist in the criminal 
justice arena and make this area safer was a very clear place 
for the Federal Government to step in. The corrections system 
is clearly in great distress. I finally reached the conclusion 
that they were not going to be able to do it on their own and 
the only obvious solution was for us to take it over.
    Mr. Rogers. So, you think this is the only option?
    Ms. Hawk. I think it's the most viable option. I think it's 
the option that's most likely to succeed because the only other 
options, Mr. Chairman, as you noticed in the NCCD study provide 
for either D.C. keeping their system, privatization, and 
management by the Federal Bureau of Prisons, or somemix of the 
three. We have reviewed each of the options. As I've said, I've lost 
faith because of their serious financial, management structure and 
organizational structure problems, they are going to have difficulty. 
When you bring the private companies into the mix, somebody has to 
oversee them. So, whether it is D.C. overseeing the private companies, 
you've still got the D.C. influence or the D.C. responsibility for 
overseeing those private contracts.
    Then you have the Bureau of Prisons option. I think this 
option that makes the most sense, given our track record of 
being able, as you indicated earlier, to run an effective 
system and manage D.C. sentenced felons, a system where 72 
percent of inmates are medium to high security inmates.
    That's a population where the private sector has really not 
demonstrated a track record yet--in terms of managing medium 
and high security institutions.
    We are very interested and willing to look at a mix--
involvement with the private sector as we do with Bureau of 
Prisons inmates, when as we look at taking over the D.C. 
sentenced felons population. But I think the responsibility for 
the system makes most sense coming to the Bureau of Prisons. I 
don't say that lightly because two years ago I said how over-
burdened we are. I said how we're struggling to manage our own 
population, but I realize this is the right thing to do.

                         lorton operating costs

    Mr. Rogers. Well, the report provided to the Subcommittee 
indicated that a privately-run prison operation at Lorton, or 
at other locations other than Lorton, would offer the lowest 
construction costs overall, the lowest operating costs overall, 
and the shortest amount of time for completion and transition 
of the Lorton prisoners. Plus, it would also leave open the 
possibility of not having to change sentencing guidelines for 
D.C. prisoners. What do you say to that?
    Ms. Hawk. In the NCCD study, you will notice, there are a 
lot of footnotes that caveat a lot of those numbers. The reason 
is that the Bureau of Prisons' numbers, both on construction 
and operating costs are real numbers. They're based on exactly 
what it costs us to do what we're doing today--managing 
populations of this security level and building these 
institutions.
    The D.C. numbers and the private numbers are projections. 
D.C. projected what their standards would be, and then the 
private company projected or estimated what their costs would 
be against those projected D.C. standards. I think NCCD, who 
did this study, did an outstanding job of trying to make those 
as real as possible.
    They were really aiming at an undefined and untested 
standard. They have not yet had to run these kinds of 
institutions with these kinds of inmates. So, I would speculate 
that the cost for the private sector operations are estimated 
on the low side. They match their salaries to D.C. salaries 
currently for their staff.
    When Margaret Moore, the Director of their correctional 
system speaks, she says so often that because their salaries 
are so low, they're not getting the caliber of staff they need 
to be able to manage this kind of population. It results in a 
lot of collusion with the inmates and a fair amount of 
misconduct that we see often times showing up in the paper.
    So, when the private sector matches their salary rates to 
D.C.'s rates, they already start on the low side. The other 
thing that's noted in the NCCD study is the research that's 
been done so far in private corrections in terms of a cost 
issue.
    I support private corrections. Ten percent of our 
population are in private contracts. So, I'm not at all trying 
to project anti-privatization. It is just when you compare the 
cost, I think any correctional system in this country would say 
to you that you don't look to the private companies if what 
you're trying to do is save money.
    There are lots of other reasons why you might look to 
private corrections; because they can do it quicker. They can 
provide you other options. They can help you change your 
culture if you're trying to change your culture in your 
organization. But all the research on cost shows that if there 
is any savings it is basically in the margins.
    Most all of the savings are in the beginning. In Louisiana, 
for example, they showed significant differences in operating 
costs, as you see in this study, projected the first year. But 
by the third year as they started to inch up the salaries after 
the staff got a year experience, two year's experience, three 
year's experience, within three years. their operating costs 
were equal.
    So, the cost savings issue, I think from an operating 
standpoint, number one, is a little bit of a low estimate 
because it's based on a projected operation. Number two, I 
think the cost savings will be short-term.

                   lorton memorandum of understanding

    Mr. Rogers. Now, I'm told the Administration is currently 
negotiating a memorandum of understanding with the District of 
Columbia to transfer Lorton Prison and its prisoners to BOP.
    Ms. Hawk. Yes, Mr. Chairman.
    Mr. Rogers. I understand that you are going along with the 
plan provided, I'm told, a number of strict conditions are met. 
I want to go through those with you as briefly as we can 
herebecause I have taken a lot of time from the other Members.
    One, new facilities: how many and what types of facilities 
will you be required to construct under this plan and where 
would those be built?
    Ms. Hawk. We would need capacity. One of the conditions is 
that we need new capacity or renovated capacity to hold these 
inmates. One of D.C.'s major problems as noted in the study is 
that all of their buildings are antiquated. They're not 
sufficient to manage high security and medium security inmates. 
So, we need new capacity if we're going to manage these 
inmates.
    So, what we would like to do is to renovate two facilities 
that are on the Lorton property. We would save money by 
renovating rather than constructing new, but we would need to 
put some money into them. We would need eight other 
institutions. Our projection is that we would need five high 
security and three medium security facilities.
    Now, those numbers are based upon our speculating there 
would be sentencing changes--85 percent truth-in-sentencing, 
elimination of parole, and having comparable, but not exactly 
Federal sentencing guidelines. We're not asking for that, but 
just comparable lengths of time that inmates would serve. So, 
we're projecting that their population would increase over the 
next several years if we go to the new sentencing.
    So, my numbers here in terms of the beds we'd need are 
based on a higher projected population in the out-years. We 
would need eight new facilities other than the two that we're 
talking about retaining and renovating at Lorton. We would like 
to have two of those on the Lorton property. That property 
already belongs to the Federal Government.
    It's prime property for building institutions. We could run 
a complex right there. I'd like to build a medium and high 
security institution there. Then the remaining six institutions 
would be within a fair distance from D.C. What we see as a fair 
distance is the standard we use for regular Bureau of Prisons 
inmates and that average right now is about 500 miles from 
home. So, we'd like them as close to the D.C. area as possible, 
but aiming at not more than 500 miles from home.
    Mr. Rogers. Now, how much will that construction cost and 
over what period of time would we need to provide the money?
    Ms. Hawk. In terms of our estimates, we use the highest 
amount of money to lay out what this could cost. So, if we 
truly were going to build eight new facilities and renovate 
these two, then we're projecting they would be mostly medium 
and high security, which are obviously more expensive 
institutions.
    We're projecting that we would need approximately $900 
million. Now, if we chose to privatize a sub-section of that 
population, which is certainly possible, it would obviously 
reduce that $900 million a little bit, or if we were able to 
obtain another facility as we've done with a number of 
institutions around the country, the military bases or 
whatever, and convert them, then you can save some money there. 
We thought it would be best to speculate the worst case 
scenario, and that would be approximately $900 million.

                lorton construction and operating costs

    Mr. Rogers. Now, there are going to be some environmental 
clean-up costs, at Lorton. Who is going to pay for that and how 
much is it?
    Ms. Hawk. Well, we don't know for sure. We've initiated an 
environmental assessment to be done. That will take nine months 
or more to have it completed to do a full analysis of what the 
environmental issues are. There is a landfill in the middle of 
the property that's run by Fairfax County. There is some 
seepage going on there.
    So, a lot of the projections of how valuable this property 
is for development really have a bit of a question mark on it 
as far as we're concerned. Until the environmental impact is 
assessed, we don't know if it's going to cost more to clean up 
the land than it is for someone to come in to develop it.
    We have factored that in, in terms of our $900 million for 
construction, what we envision under a routine basis, would be 
needed to clean-up the pieces of the property that we would 
like to use. We're only looking to use 1,000 of the 3,000 acres 
over there. We don't need it all. We don't want it all. We want 
an area large enough for a complex.
    Our construction money of up to $900 million includes 
environmental clean-up on that property, unless something is 
found there that is far worse than we have ever imagined.
    Mr. Rogers. You say your construction figure includes the 
clean-up?
    Ms. Hawk. For the 1,000 acres that we want.
    Mr. Rogers. Right.
    Ms. Hawk. The rest of the property belongs to the Federal 
Government. So, the Federal Government, by current statute, 
would have a requirement to clean it up before it's handed off 
for re-use. There is the possibility that the developer could 
take it at a lesser cost and clean it up themselves. But that 
would have to be negotiated with the government.
    Mr. Rogers. Okay. Now, the operating cost of these 
replacement prisons. Can you tell us about that?
    Ms. Hawk. One of the conditions we have is that it would 
take us three to five years tobe able to get the funding, get 
the institutions, and to spread this transition over a period of time 
so it can be done correctly.
    So, we are projecting that we wouldn't have the 
institutions up and running until about 2002 fully. We're 
projecting an operating cost of about $150 million. This is 
additional now for just these inmates, in 2001. That would go 
up to $300 million added to our base operating cost by about 
the year 2003. Then pretty much stay at that rate, minus 
inflation or plus inflation, in the out-years; about $300 
million. This is counting 10,000 inmates. That's projecting the 
increased number of inmates under the new sentencing.
    Mr. Rogers. How many inmates are there currently?
    Ms. Hawk. There are about 7,000. They're projected to grow 
some even without new sentencing. So, we'd be looking at 7,000 
to 8,000 without revising the sentencing, 10,000 with 
sentencing changes.
    Mr. Rogers. Now, are all of these costs that you've 
mentioned fully covered in the D.C. budget for 1998 and assumed 
in the out-years?
    Ms. Hawk. I don't know, Mr. Chairman. The Office of 
Management and Budget is really working out all of the budget 
issues on the entire President's revitalization plan. So, I'm 
not sure what method they're planning to use for that.
    Mr. Rogers. I'm going to yield to other Members, but I want 
to come back to this after awhile with Judge Conaboy and all of 
you. Mr. Mollohan.

                            prison programs

    Mr. Mollohan. Thank you, Mr. Chairman. I'd like to join the 
Chairman in welcoming everybody to the hearing this morning. 
I'd like to join Chairman McDade in especially welcoming you, 
Judge, to your position.
    Ms. Hawk, the Chairman asked a series of questions about 
overcrowding and the associated security issues. Obviously, 
security is the first requirement of your job. That raises all 
of the confinement issues. You've been dealing very 
aggressively with the confinement issues in your budget 
request. I join the chairman in being really supportive of your 
request to address those confinement issues. I'd like for you 
to speak about that in a broader context of what is happening 
in our prisons with regard to control issues and management 
issues and also rehabilitation issues, if I dare use the word.
    I don't have an ideological agenda here. I'd just like to 
hear you talk about it. What should we be doing in a holistic 
approach in addition to the confinement aspects of the problem?
    Ms. Hawk. Are you speaking just to our part of the picture, 
not to what happens to people before they ever become 
offenders?
    Mr. Mollohan. I'm talking about in your system. We focus 
here, and I say rightly so, on the security and the confinement 
issues. What I'm interested in is hearing a little bit about 
the other dimensions as to what we ought to be doing with 
prisoners. At some point the door is going to be open and 
they're going to get back into society. I'd just like to hear 
how we're doing with regard to that.
    The issue of whether we have enough money to do what we 
should be doing is a totally different question. I'd like to 
have some appreciation for what you think would be a holistic 
approach. Are we doing everything we should be doing? If not, 
what would you like to see added to your overall prison program 
and how you manage prisoners?
    Ms. Hawk. Thank you for the clarification. I want to make 
sure we're just talking about inside the prisons. There are a 
lot of things that we are doing; a lot more that needs to be 
done I think, and again, it all costs money. Clearly, security 
is the first concern, because if you don't have your population 
under control, then any programs you do or any attempts you 
make to make a positive effect on negative behavior is not 
going to work. So, security has to be there.
    Once you get past that, the things that we are doing and I 
think doing very effectively; one is Congress has been very 
generous to us in terms of resources for drug treatment. We're 
extremely proud of our drug treatment program. Congress passed 
a law that says we have to have 100 percent of our eligible 
inmates who need drug treatment into drug treatment by the end 
of this fiscal year. We have achieved that every inmate who 
needs drug treatment who will volunteer, that's one of the 
eligibility criteria. Roughly 70 percent of those who need drug 
treatment are volunteering for it. They're getting the 
treatment in the last three years of their sentence because we 
believe that they need this just before we transition them into 
the street.
    That's a part of our program. It's one of the resources 
you've given us funding for. Our drug treatment program has 
been operational now long enough to be able to see an impact. 
We're seeing that there is a significant impact upon both 
recidivism and on returned drug use among those who have 
entered the drug treatment program. We think that's only going 
to get better because we continue to improve our program as 
time goes on. We have a major research project with the 
National Institute of Drug Abuse to track that over time.
    The other thing that is very effective for us is that our 
inmates work. Every inmate who is physically and medically able 
must work. One of our most valuable programs is ourFederal 
Prison Industry Program, and our Vocational Training Program. The study 
we did a few years ago shows very dramatically that for those inmates 
who work in productive jobs in prison and those who take vocational 
training programs, it has a direct impact among recidivism and a direct 
impact upon having a good job upon release.
    So, we want to maintain that program, having viable jobs, 
inmates working and learning job skills. The other thing we're 
doing is we've developed kind of a variation of our drug 
treatment program for inmates in penitentiaries, because we've 
been running this program in our penitentiaries for some of the 
worst of our inmates.
    We're finding that we can truly have an impact. It's a 
restructuring program. It's the one type of program working 
today across correctional systems in this country. It is kind 
of changing the way inmates think about their values and the 
way they approach the world around them. We're wanting to 
expand that, and it is going to take some additional resources.
    We're hoping to be able to do that within our existing 
resources. If not, we're going to be coming to this Committee 
in future years. We have found that by offering this program to 
inmates in the penitentiary, we have reduced their misconduct 
within the penitentiary by 25 percent. That is very dramatic.
    Mr. Mollohan. What is that program?
    Ms. Hawk. It's a variation on our drug treatment program. 
It's built around cognitive restructuring skills. It's really 
back when Sam and Alan Yokelson, I don't know if you've read 
their book years ago on the criminal personality, it talked 
about the way in which to change----
    Mr. Mollohan. I didn't.
    Ms. Hawk. You didn't read the book?
    Mr. Mollohan. I didn't.
    Ms. Hawk. I'll loan you my copy if you would like. But they 
talked about the way in which you can get to the most difficult 
criminal is, you don't do a lot of the kind of therapeutic 
things that we thought in the past. You know I'm a psychologist 
by profession. A lot of stuff I was trained in doesn't have a 
big impact upon inmates.
    But this really gets into trying to change the way inmates 
think, trying to change their value structure; letting them 
realize that their actions bring about much of the reaction and 
that they can have a lot more control over their environment by 
thinking differently about the way they approach drug use, the 
way they approach their families, and the way they approach 
other people.
    The only way of dealing with a displeasure is not to hit 
somebody, rather deal with it in different ways. It's all built 
around cognitive restructuring principles that are very 
practical, very day-to-day, and very much like trying to get 
them to behave and think much more like the free population 
does in terms of non-offensive behavior.
    It is truly being heard and being reacted to by these 
inmates. They are doing very, very well. In fact, in 
penitentiaries alone, we saw a 49 percent misconduct reduction 
rate among those that have been through the drug treatment 
program. I said 25 percent, but it's even higher than that. 
It's 49 percent, which I think is just profound.
    So, that's the kind of programs that we're very optimistic 
about. We're going to spread it out to at least the 
penitentiaries hopefully this coming year with existing 
resources, if it has the effect we're talking about. The other 
problem we're having and what we're working on now is the gangs 
issue. The gangs are pretty much the basis for a lot of the 
violence in our institutions. It's not the old gangs of Aryan 
Brotherhood, Mexican Mafia, or any of those. It's the street 
gangs. It's the Crips, the Bloods, the Black World Family, the 
Latin Kings who are running the communities out there.
    The Crews here in Washington, D.C., the street gangs that 
battle each other, those gangs are now coming into the prison 
and getting new members within the institutions. They've become 
the dominant gangs in our institutions. So, we're looking at 
probably having to transform the way in which we designate and 
manage our inmate population to try to work at de-ganging these 
inmates.
    The State of Connecticut has a wonderful program there 
where they are working with de-ganging and actually pulling the 
inmates out of the gangs. Now, theirs is a small system. When 
you try to overlay that to a system that has 100,000 inmates in 
it, it's more complicated. But, we're very optimistic that 
we're going to be able to develop a mechanism where we can try 
to pull these inmates out of gangs; basically cut off the 
leaders and separate them because they're the ones drawing the 
younger, more impressionable ones into the gangs.
    Then, we will work with the younger members to try to get 
them in a different direction. We will deal with the leaders in 
another way. If we can get control over the gangs, we think we 
can get some more control over the violence and with these 
other programs, truly impact them.
    It's impacted them not only while we have them to make the 
jobs of our staff safer, but also as you've indicated, the vast 
majority of these inmates are all coming back to our streets. 
If we don't do something effective to change their behavior, 
this is going to be a never-ending cycle.
    Mr. Mollohan. Yes. They're simply having a recruiting 
opportunity in the prison.
    Ms. Hawk. They do.

                 district of columbia sentenced felons

    Mr. Mollohan. Which makes me think about Lorton and how you 
would handle that population after, if you do move forward with 
this federalization program. How would you place the Lorton 
population in the Federal Prison System? How would you 
integrate it into the Federal Prison System?
    Ms. Hawk. That's an excellent question. It leads into one 
of the conditions that we had put forward. We believe the only 
way to do this effectively is for us to be able to utilize all 
of the resources of the Bureau of Prisons to manage these 
inmates, and not just go to a couple of special institutions 
that would just hold D.C. offenders.
    Mr. Mollohan. So, when you talk about a 500-mile radius, 
you're not talking about a 500-mile radius to transport, kind 
of in groups, sub-sections out at Lorton. You're talking about 
placing them within the Federal Prison System that operates 
within the----
    Ms. Hawk. Exactly. So, when I say we need eight new 
institutions, we don't envision filling those eight new prisons 
with just Lorton inmates. What we need is eight more 
institutions worth of beds that we would build wherever, and 
then we would intersperse the Lorton population among those 
eight institutions, plus other Bureau of Prisons populations 
intermixing them so that we can try to change the culture of 
these inmates to more the way we do business in the Bureau of 
Prisons; break down their crews, break down their gangs, 
separate them out and be able to assimilate them into our 
system.
    Mr. Mollohan. Is the Lorton facility one big facility?
    Ms. Hawk. No. It's about seven different prisons over 
there. For example, there is Occoquan. You will hear them 
sometimes reference the different names. They're just all on a 
big piece of property that is referred to as Lorton. There are 
really seven different institutions, males, females, and lots 
of different security levels.
    Mr. Mollohan. This 7,000 population that you referenced is 
males, females, high security, low security, the whole mix?
    Ms. Hawk. It includes every security level. The only 
distinction is their sentence. So, the pre-trial inmates, some 
of which are right now at Lorton, but most of them are in the 
D.C. Jail, would stay with D.C. We would take only those who 
have been sentenced already.
    Mr. Mollohan. In these facilities that you're talking about 
building--one medium and one low at Lorton, and then five high 
and three medium in addition in a dispersed geographical area--
do they replicate, if you will, the institutions that are 
already located at what we call Lorton?
    Ms. Hawk. It wouldn't really because one of the problems at 
Lorton is they have 72 percent medium to high security inmates, 
but mostly all open dormitory facilities. So, their 
institutions are really built to be mostly low security, yet 
they've had to put medium and high security inmates in them.
    As good as I think our system is and our staff are, there 
is no way that we could walk in there tomorrow and run that 
system with the structures they have over there and not be 
without many of the problems they're having. It's an impossible 
situation.
    If I can just clarify one thing. The five and three are the 
total. If you take off the two that would stay at Lorton, that 
two newly constructed medium and high, that would leave six to 
be built.
    Mr. Mollohan. I thought I clearly heard you say you'd 
renovate two at Lorton and then build eight others.
    Ms. Hawk. Yes. Two of them would be at Lorton. Two of the 
eight others would be built at Lorton; a medium and high. We 
would renovate a minimum and a low, build a medium and high. 
So, that's four. There are ten total; eight new and two 
renovated.
    Mr. Mollohan. Okay.
    Ms. Hawk. Sorry.
    Mr. Mollohan. And that's a $900 million price tag; a little 
less than $100 million each.
    Ms. Hawk. On the outside, yes.
    Mr. Mollohan. It is a little less than $1 billion total; a 
little less than $100 million for each. Thank you, Mr. 
Chairman.
    Mr. Rogers. Thank you, Mr. Mollohan. Mr. Latham.
    Mr. Latham. I just have one question for the Judge. We have 
been just focusing on prisons at this point. As far as the 
sentencing guidelines, drug crimes constitute a majority of the 
sentences. I think it's about 41 percent nationally. In Iowa 
it's about 63 percent.
    You have guidelines for specific drug offenses. When 
specific guidelines are increased, is there a change or 
response in the criminal drug community to go to a different 
drug?
    Mr. Conaboy. We certainly don't have any information that 
would confirm that the sentences have any impact on the size of 
events or the number of people involved in the drug business. 
But there are some indications that in the drug business there 
is an effort made to produce and develop drugs that can be 
distributed easier.
    Crack cocaine, and the powder cocaine situation is one of 
those. The reason crack cocaine was developed was there was a 
desire among the purveyors of drugs to begin to sell to poor 
areas of our communities, so they developed a cheap drug--the 
real instigation of crack. Crack is the cheap version of 
cocaine. So, whether or not the sentences and the strength of 
the sentences has any impact on them, I honestly can'tanswer. I 
don't think we have the statistical information to determine that.
    Mr. Kramer. We would probably expect some change to drug 
use, but there is little available data and research.
    Mr. Rogers. You will need to identify yourself.
    Mr. Kramer. I'm sorry. John Kramer. I'm staff director of 
the Commission.
    Mr. Latham. It would seem anyway, even though there is no 
study, it would seem that there are tougher sentences for 
certain drugs. It seems like the market would move in response 
to that.
    Mr. Conaboy. I suppose that would be a logical conclusion 
that if the drug marketeers observed higher penalties for 
certain drugs, they might move into something else.
    Mr. Latham. The penalties were different for cocaine and 
crack.
    Mr. Conaboy. Yes. They are at the present time, yes.
    Mr. Latham. Okay. That's all, Mr. Chairman, Thank you.

                                 gangs

    Mr. Rogers. Thank you. Madam Director, what's wrong with 
just transferring some of those people, breaking up their gangs 
by dispersal to other institutions?
    Ms. Hawk. That's been our response in the Federal Prison 
System for years. We were always able to maintain control of 
the gangs by taking the gang leaders, and move them off in one 
direction, disperse them, take the members and scatter them 
around. You didn't have enough at any one institution to really 
create major damage.
    The numbers of the gangs and the size of these different 
gangs are increasing so dramatically. Now it's the street gangs 
coming in, as I indicated, that are becoming the powerful ones. 
Then they're recruiting new members once they come inside 
because that is their modus operandi on the street. They bring 
that inside so the numbers have become so large.
    What we're doing is locking up a number of the 
troublemakers or separating them as best we can. We lock those 
up who prove that they're wanting to work their gang and work 
it in a very negative way in the institution and threaten or 
trouble others. We're locking those away, but we ran out of 
lock-up space. We've spread them as far as we can. We've locked 
down the ones that we could lock down. We're still not 
resolving the problem.
    Mr. Rogers. Even with rapid transfers?
    Ms. Hawk. Even with rapid transfers. The numbers are just 
so large. We have thousands and thousands of members of these 
gangs. Then you have wars among your gangs. Right now, there is 
a war between the Mexikanemi and the Mexican Mafia that, if we 
let any of those two open on a compound at certain 
institutions, they would literally kill each other.
    So, we lock them down and when we try to let them back out 
they try to kill each other again. Then you get factions The 
syndicate now is aligned with the Mexican Mafia so that if they 
are anywhere there is a Mexikanemi member, then they battle and 
do war. It's just this huge problem that's mushrooming, not 
only across our system but all of the state correctional 
systems too.
    We really feel we need a brand new approach to this. We're 
working on that right now, trying to pull away the more 
impressionable younger offenders, because what we're getting 
from a lot of these street gangs are very, very young men who 
we believe we can actually impact, if we can get to them early 
enough and offer them another direction.
    The program that I was mentioning seems to be helping us do 
that. But we've got to get them away from the other gang 
members who are active and still trying to pull them into the 
gangs. So, we're working on that. I think within the year we'll 
have something to share with you in terms of a new way of 
managing these inmates. They'll get under control.
    Mr. Rogers. We would be really interested, particularly if 
you need any more money.
    Ms. Hawk. I'm sure.

                 district of columbia sentenced felons

    Mr. Rogers. Now, back to the D.C. Lorton Prison proposal. 
Director Gonzalez, would the marshals Service be responsible 
for transporting those inmates as you understand the plan?
    Mr. Gonzalez. Not as I understand the plan, Mr. Chairman. 
In fact, in our negotiations we are trying to ensure that we 
don't pick-up that detail.
    Mr. Rogers. Then who would transport them?
    Mr. Gonzalez. Well.
    Ms. Hawk. Well, I think in terms of who would transport 
them initially, if we opened up a new institution, we envision 
this thing as a gradual switch. As we bring up a Bureau of 
Prisons institution somewhere, we drain off x-number of the 
D.C. inmates. As we open another prison, we'd drain off some 
more. So, it would be a gradual process over three to five 
years.
    The Marshals Service, if they had the resources available, 
would transport them or we may bus them ourselves. Where they 
would become the marshals workload would be once they are a 
part of our system, once they are Federal inmates, then clearly 
they would have the responsibility. But earlier on when they're 
still the D.C. inmates, the Marshals would not be burdened.
    Mr. Rogers. Now, Director Gonzalez, what other 
responsibilities would the Marshals assume under 
theAdministration's proposal?
    Mr. Gonzalez. The real difficulty for us, Mr. Chairman, 
would be if we were to lose the 100 to 300 beds that are 
sometimes available to us at Lorton to house overflow 
prisoners.
    Mr. Rogers. Pre-trial prisoners?
    Mr. Gonzalez. Pre-trial. We house, depending on the 
situation at the D.C. Jail, as many as 300 at Lorton. If we 
were to lose those beds, we'd have to find other space within 
the District. There is a correctional treatment facility right 
next to the D.C. Jail that has about 1,000 beds. We could work 
through them to get some bed space. That would relieve our 
situation.
    Mr. Rogers. Is that physically possible there?
    Mr. Gonzalez. We're working on that now.
    Mr. Rogers. It could be renovated to accommodate your 
needs?
    Mr. Gonzalez. Yes, sir.
    Mr. Rogers. What kind of additional costs would you incur 
as a result of the MOU?
    Mr. Gonzalez. It would be privately-owned, Mr. Chairman. 
There wouldn't be any outlay for us. It would just be the 
payment of the per diem.
    Mr. Rogers. Irrespective of that, what's the total cost to 
the Marshals Service of the MOU that we're talking about?
    Mr. Gonzalez. Virtually zero.
    Mr. Rogers. Now, Judge Conaboy, how many persons are 
sentenced as felons or for Class A misdemeanors in the Federal 
system annually? Can you give us that figure?
    Mr. Conaboy. We have about somewhere short of 40,000 
sentences that we monitor annually.
    Mr. Rogers. How many of those are in D.C.? Do you know?
    Mr. Conaboy. In the D.C. system I understand there is 
somewhere between 10,000 and 12,000 annually. But then they 
would not be included in the 40,000 that I'm talking about.
    Mr. Rogers. That's on top of the 40,000.
    Mr. Conaboy. Yes.
    Mr. Rogers. Assuming for the moment that the Federal 
Government takes over responsibility for D.C. prisoners, if 
Federal sentencing guidelines or their equivalent are applied 
to D.C. criminal cases, how much of an increase would we see in 
the size of a prison population that the Federal Government 
would be responsible for?
    Mr. Conaboy. Well, I have not been involved there, nor has 
the Commission been involved in this transitional process at 
all. From the information I have is that there are 10,000 to 
12,000 inmates sentenced each year in D.C. that will become 
involved with the system.
    Mr. Rogers. I wonder if you could, you and your staff could 
look at this question and get back to us on it. It may take 
some calculations.
    Mr. Conaboy. They haven't involved us, Mr. Chairman, at all 
because apparently the agreement that's being worked out would 
presume a new Sentencing Commission apart from us. We wouldn't 
have any----
    Mr. Rogers. I understand. What I'm asking though is if we 
applied the same standards to D.C. prisoners as you do in all 
others, what kind of a new prison population would that 
generate for us?
    Mr. Conaboy. We could generate some statistics on that.
    [The information follows:]

    Estimating the Prison Impact of Applying the Federal Sentencing 
                 Guidelines to the District of Columbia

    In trying to assess the prison impact of applying the 
federal sentencing guidelines to felony cases prosecuted in the 
local District of Columbia (``DC'') courts, the Commission has 
consulted with the DC courts, the Criminal Division of the 
Department of Justice, and the Bureau of Prisons. The 
Commission has also reviewed several recent studies of the DC 
courts and the DC corrections systems. Based on these 
consultations and reviews, we have determined that the quality 
of data maintained by the DC courts and Department of 
Corrections is inadequate to make a reliable estimate of the 
effect on the sentenced population of applying the federal 
guidelines to DC cases. However, we agree with the Bureau of 
Prisons and a recent study completed by the National Council on 
Crime and Delinquency that applying the federal guidelines in 
DC cases would significantly increase the sentenced felon 
population and associated costs. This would occur in part 
because over 40% of DC inmates are convicted of or charged with 
drug crimes, primarily crack cocaine offenses, and these crimes 
receive very lengthy sentences under the federal guidelines.

    Mr. Rogers. I think what will happen in all of this, is 
that we're going to have to find a way to apply the sentencing 
guidelines to these new prisoners.
    Mr. Conaboy. And it will multiply the number of prison 
years and need for prison facilities considerably.
    Mr. Rogers. Director Hawk would like to know your answer as 
well, I suspect. Under the draft MOU, D.C. sentencing 
guidelines would ultimately be the responsibility of a 
successor Federally funded agency under the Judiciary. Do you 
think that would be the U.S. Sentencing Commission or do we 
know yet?
    Mr. Conaboy. I don't know. We really have no information on 
that as to what the contemplation is. It would be a substantial 
change for us. What I envision is the Sentencing Commission 
operation would be the size of a small state sentencing 
commission. So, it would be--well you can imagine. We now 
handle some 40,000 sentences. To add 25 percent to that is a 
substantial increase.
    Mr. Rogers. What would be the impact on your Commission if 
you took over that role from the D.C. court system? What would 
you need, do you think?
    Mr. Conaboy. I truly haven't given it enough thought to 
answer that intelligently or fully at least.
    Mr. Rogers. Would you think it over and let us know?
    Mr. Conaboy. Yes. I'd be glad to do that.
    Mr. Rogers. You can provide that information for the 
record.
    [The information follows:]

Impact on the Sentencing Commission of Applying the Federal Sentencing 
                 Guidelines to the District of Columbia

    While it is difficult to fully and precisely assess the 
impact on the Sentencing Commission of applying the federal 
sentencing guidelines to felony cases in the local District of 
Columbia (``DC'') courts, it is clear that the Commission's 
work would be greatly impacted by such a change in policy. 
Applying the federal guidelines to DC felons would impact all 
of the Commission's primary functions and would require 
significant work by all of the Commission's components.
    Legal Analysis: If the guidelines were to apply to DC 
felony cases, the Commission would need to review the 
applicable DC Code sections and make some assessment of how 
each of the DC crimes would be sentenced under the guidelines. 
Even if the Commission chose not to specifically reference 
these sections in the guidelines, this review would be 
necessary in order to properly train practitioners on the use 
of the guidelines and to respond to inquiries. This would be a 
significant amount of work and would require significant lead 
time between the passage of any legislation and the 
implementation of the guidelines. The lead time will need to be 
particularly long if the guidelines are to be amended to 
reference the DC statutes and to reflect any unique aspects of 
DC law. In addition, the Commission would have to work with 
Congress, the Department of Justice, and the DC Council to 
ensure that all necessary legislative changes are made to the 
US and DC Codes. Also, on an ongoing basis, as changes are made 
in federal sentencing statutes, the Commission will have to 
work with the DC Council to ensure that similar changes, when 
appropriate, are made in the DC Code. Finally, as part of the 
legal staff's appellate monitoring function, the Commission 
would need to review DC appellate case law to facilitate 
training and compile appellate conflicts.
    Policy Analysis: To adapt the guidelines to DC felony 
cases, the Commission will have to complete some research on 
the nature of DC criminal docket and current sentencing 
practices in DC courts. This type of research will require both 
time and resources. In addition, the Commission is the logical 
choice and would arguably be required by current statutes to 
compile and release, on an annual basis, data concerning DC 
cases sentenced under the guidelines.
    Monitoring: The Commission is clearly in the best position 
and would arguably be required by current statutes to monitor 
the application of the federal guidelines in DC Superior Court. 
This additional monitoring function will result in a 
substantial increase in the Commission's workload and will 
require new resources. Currently, a sizable part of the 
Commission's budget (and more than one third of the 
Commission's staff) is devoted to the monitoring function. 
According to the best available data, approximately 10,000 
felony cases are sentenced in DC Superior Court. If the 
Commission were required to process these cases through the 
monitoring unit, this would increase the current monitoring 
caseload by approximately 25 percent. In addition, the 
Commission would have to significantly adjust the monitoring 
systems--for example, adding the DC statutory code to its 
current statutory database and merging this database with our 
current offense codes database. These adjustments would be 
labor intensive. There would also be new computer hardware and 
software needs in addition to new personnel needs.
    Training: The Commission is the logical choice and would 
arguably be required by current statutes to train DC judges, 
prosecutors, probation officers, and defense attorneys in the 
use of the guidelines. This would be a very significant 
undertaking and would require significant additional resources 
and lead time before implementation of the guidelines to DC 
cases. The Commission's hotline function would also need to be 
greatly expanded to meet expected demand.
    In summary, we believe that applying the federal guidelines 
to DC felony cases will be a significant undertaking for the 
Commission and will require significant new resources and 
significant lead time before the guidelines could be 
implemented.

    Mr. Conaboy. We will take a look at it and make a response 
to that

                             death penalty

    Mr. Rogers. I understand the Administration's current 
proposal assumes that the death penalty would not be included 
in the new D.C. sentencing guidelines. Two people commit the 
same crime and only one is given the death penalty. What impact 
would that have on the inmate population, do you think?
    Mr. Conaboy. Well, I think one of the concerns that you can 
see that undergirds this discussion is exactly what you're 
getting at, Mr. Chairman, is to have a one-prison population 
that's been sentenced under one system and another that's much 
more severe. I would imagine that the people in the prisons 
would agree that that would cause a great deal of mischief and 
exaggerate the problems that they now already have.
    Mr. Rogers. Do you want to address that, Director Hawk?
    Ms. Hawk. Yes, Mr. Chairman. That logic holds for us on all 
other sentencing, except for the death penalty, in that we 
would like to see all other sentencing very much equal. The 
death penalty is used relatively inconsistently in this 
country, not only at the Federal level, but at the state level.
    There is so much variation in terms of who does or does not 
get the death penalty. It's not as sure I think as the other 
kinds of sentencing from the sentencing guidelines, where it's 
pretty clear as to what kind of sentence someone is going to 
get.
    The death penalty has so many unique provisions around it 
that it's not standardized. You're not always assured of like 
offenses always getting the death penalty. So, there is already 
going to be variance. So, to say that D.C. would not have to 
impose a death penalty does not concern us.
    Mr. Rogers. Well, to make this case relevant, suppose the 
prisoner who killed the guard in Lompoc were a D.C. prisoner, 
would you be allowed to seek the death penalty?
    Ms. Hawk. We would because the offense now occurred in our 
Federal institution. It would be a presenting offense. For the 
offense that first brought them into prison, they would not be 
able to get the death penalty. Once they come to us, they're 
now in our custody, on Federal property, commit a Federal 
offense, there is a new charge and a new offense.

             conditions in the memorandum of understanding

    Mr. Rogers. Now, I want to get back to the other conditions 
that you are insisting upon in the MOU if we take over the 
system. Can you tell us about the other conditions that you are 
going to insist upon before you assume the responsibility?
    Ms. Hawk. We've really discussed most of them. One is the 
time frame, the three to five years. No one could take it over 
overnight without building sufficient capacity and having the 
monies available to build that sufficient capacity. So, time, 
money, and new capacity are a part of the conditions. So is the 
truth-in-sentencing, the comparable sentencing structure; not 
the Federal sentencing guidelines, but comparable in that there 
would be no parole, 85 percent truth-in-sentencing which is 
being required in any other state in this country to get 
Federal funding. Then we would see like sentences for like 
offenses.
    The other things are more like being able to retain a 
portion of the Lorton property because we think it is important 
to have some institutions very, very close to the District. 
That would encourage good behavior from the D.C. inmates that 
are being housed in other states within 500 miles from there, 
because they would be wanting very much to get back to D.C.
    So, we have to retain a portion of that which is Federal 
property over there to build some institutions. One other issue 
is their staff. We would be very interested in hiring some of 
their staff, very experienced talented people. We would want 
them to reapply and be hired under Federal standards so that 
issues of felony, past felony convictions, drug use, major 
misconduct within the institutions, all of those could enable 
us to screen out those staff who would not meet Federal hiring 
standards.
    We would not want to have to simply absorb all of their 
staff because as we see oftentimes, there is a fair number of 
people within their staffing who would not meet our standards, 
and we would not want to have them working in the Bureau of 
Prisons. Those are most of the conditions. There is an issue of 
parole--whether they would retain their Parole Commission or 
whether the Federal Parole Commission would take over parole 
for those inmates that now come into the Federal system.
    I think the time frame, the money, new capacity, Federal 
hiring standards, changes in sentencing and getting to retain a 
piece of the Lorton property, are the primary conditions we're 
looking for, all of which I think are extremely reasonable.
    Mr. Rogers. Do you understand that D.C. is prepared to 
accept those conditions?
    Ms. Hawk. They're working through the MOU right now. The 
newspaper I think just this morning said that they are moving 
nicely along on all other elements. There have been a lot of 
discussions about the sentencing. The initial misunderstanding 
was that they would have to totally absorb the entire Federal 
sentencing guidelines, and that's not what we're saying.
    We're talking about comparability. The Administration is, I 
think, very interested in allowing D.C. to play a major role 
and having their own sentencing commission that can craft the 
sentences forD.C. citizens. I think we're getting closer and 
closer and they're anticipating an MOU perhaps by next week.
    Mr. Rogers. Next week?
    Ms. Hawk. Yes.
    Mr. Rogers. Now, if they don't agree to these conditions, 
are you prepared, is the Administration prepared, to call off 
the deal?
    Ms. Hawk. Yes, sir.
    Mr. Rogers. I'm trying to understand the process here that 
D.C. and the Federal Government would have a Memorandum of 
Understanding which would incorporate these conditions, among 
other things I suspect, that we're talking about here today. 
Then what would happen?
    Ms. Hawk. The Administration is drafting legislation that 
would actually make all of these understandings between the 
Administration and the D.C. Government in the proper format and 
then come to Congress for consideration, by the D.C. Oversight 
Committees, Appropriations, and probably our Judiciary 
Oversight Committee because of the impact it would have on us.
    And every other interested party in Congress can then work 
with the legislation it would need to be enacted to make all of 
this become real. The belief was clearly that we needed to make 
sure that the District of Columbia is in agreement to all of 
this before anything comes to Congress and that there is an 
agreed upon foundation here to then come to Congress.
    Mr. Rogers. So, the timetable hopefully would be this year?
    Ms. Hawk. Yes.
    Mr. Rogers. And the first year would be fiscal year 1998?
    Ms. Hawk. Yes.
    Mr. Rogers. If all goes well?
    Ms. Hawk. Yes, Mr. Chairman.
    Mr. Rogers. According to your point of view?
    Ms. Hawk. Yes.

                    Funding for DC sentenced felons

    Mr. Rogers. So, how much money would you seek from us for 
this project in 1998?
    Ms. Hawk. We would be looking for, if all goes as planned, 
coming to Congress for $300 million in construction money to be 
able to begin the renovations of the facilities we want to 
renovate at Lorton and start the new construction. Then we 
would be looking at $900 million in three-year increments.
    So, we would be looking at $300 million, in 1998, 1999 and 
2000, so that the capacity would start coming on within a 
couple of years and we could start absorbing the D.C. inmates 
into our system. It would be construction money only for the 
first three years.
    Mr. Colgate. Excuse me, Mr. Chairman. Steve Colgate. We are 
not seeking $300 million from this Subcommittee for fiscal year 
1998. We'd be looking at a reimbursement in the D.C. 
Appropriations to the Bureau of Prisons in Fiscal year 1998. I 
just wanted to clarify, Mr. Chairman, that we would be seeking 
a reimbursement from another appropriations bill to the 
Buildings and Facilities appropriation.
    Mr. Rogers. Now, would that be true for all three years?
    Mr. Colgate. No sir. As the Director has pointed out, there 
are these transition issues. Eventually, we would be looking 
for the CJS bill to support these operations. We're still 
working out these arrangements with the Office of Management 
and Budget for fiscal year 1998.
    It is my understanding that it will essentially be a 
reimbursement from the D.C. Appropriations to the Buildings and 
Facilities appropriation within the Bureau of Prisons for this 
capital construction. Once the legislation is enacted, there 
would be a subsequent reallocation.
    Mr. Rogers. The first monies would be used, I'm assuming, 
to renovate the old buildings that you're going to keep at 
Lorton.
    Ms. Hawk. Some of that, yes, sir.
    Mr. Rogers. Would some of it be used for new construction?
    Ms. Hawk. Yes, sir.
    Mr. Rogers. At Lorton?
    Ms. Hawk. Whichever. It could be there or it could be 
another site.
    Mr. Rogers. Well, the first $300 million that would come 
out of the D.C. Subcommittee in 1998, what would that money be 
used for?
    Ms. Hawk. The first $300 million would be to renovate the 
two and then it would be for new construction. It would also 
include demolition of the existing structures and the site 
infrastructure work. There is a vehicle maintenance building 
there that is very much retainable. We would put a little bit 
of money into that. Then we would need to construct two new 
facilities. That could all come out of that first $300 million.
    We would want to begin construction of a high in the first 
year and a medium in the first year. Whether those would be 
actually on the Lorton site or elsewhere, that's not been 
decided yet.
    Mr. Rogers. But you can get going that quickly on new 
facilities, new construction?
    Ms. Hawk. Yes, once we identify a site.
    Mr. Rogers. Well, it's going to take you two or three years 
to go through your hoops to get to actually building that new--
--
    Ms. Hawk. Well, one of the things we were hoping for and to 
speed it up obviously is, as you know, Mr. Chairman, at some of 
the sites that we've been able to get in the last few years, 
we've gone in looking for a large enough site to be able to put 
multiple institutions, so that even though we're only building 
one today, that we could build another one later on.
    What we would like to be able to do is on some of these 
early ones that we could get them up quickly because as you're 
suggesting the environmental impact study takes a long time. 
Doing the site work takes a long time; finding the site. We 
have some sites out there where we have an institution and 
sufficient property already in place. That would really speed 
up the process dramatically for us.
    Mr. Rogers. I see. So, the first three years, you will be 
seeking from either the D.C. Subcommittee or this Subcommittee 
$300 million a year just for construction.
    Ms. Hawk. Yes.
    Mr. Rogers. And renovation.
    Ms. Hawk. Yes.
    Mr. Rogers. In what year would the first operating costs 
surface?
    Ms. Hawk. If things go very quickly with the renovations, 
let's say if we get the money in 1998 and we're actually able 
to renovate the two facilities on site over there and get them 
operational, we could incur some operating costs to the tune of 
$12 million perhaps, in our best estimate for fiscal year 1999 
in operating costs. That could go up to $20 million by 2000 in 
operating costs. That would probably be first getting the 
minimum up and beginning some work on the low, getting the low 
up. Then that could go up to $44 million by 2001. Those are our 
most optimistic numbers in terms of getting beds up and ready 
to go very, very quickly with renovation.
    Mr. Rogers. Now, the prison inmate load that we're talking 
about here, are you anticipating that load based on applying 
the same sentencing guidelines or equivalents that we have on 
other prisons?
    Ms. Hawk. The 10,000 number of inmates that we're using to 
base our need for the $900 million of construction is kind of a 
variation between. It's not quite the Federal sentencing 
guidelines, but it does consider 85 percent truth-in-
sentencing, which means reducing the good time significantly 
from what D.C. has now, eliminating parole, and looking at 
comparability in sentences, not identical, but comparability to 
where like offenses would get similar kinds of sentences.
    So, it's a point somewhere between where D.C. is right now 
and where the Federal sentencing guidelines would need to be; a 
point that we're comfortable with, with a little bit of 
variation. We just don't want dramatic variation.
    Mr. Rogers. Now, on the D.C. Subcommittee funding 
contribution to the effort, tell us what you know about the 
situation as it is now, which may be somewhat limited.
    Mr. Colgate. I'll give you my best understanding. What 
we're looking at is through the D.C. Subcommittee there would 
be language in that appropriation that would essentially 
provide $300 million and there would actually be language that 
would be specific; $300 million that would be reimbursed to the 
Buildings and Facilities account of the Bureau of Prisons for 
construction and renovation for these facilities.
    So, the appropriation, as I understand it in my discussions 
with the Office of Management and Budget would be language that 
was in that amount appropriated to D.C. That there would be 
this reimbursement to the Buildings and Facilities account.
    Mr. Rogers. That's year one.
    Mr. Colgate. That's correct; fiscal year 1998.
    Mr. Rogers. Year two?
    Mr. Colgate. Year two, that's what we are still working on. 
In the outyears we would essentially be looking at including 
these estimates in the Department of Justice request. We 
believe that would give sufficient time for us to complete 
these legislative packages and resolve these other issues, as 
well as allow for the Congress to make appropriate adjustments 
to allocations between the Subcommittees in order to 
accommodate this. This is something, sir, that I'm still 
working on with the Office of Management and Budget. But that's 
my best tentative understanding at this point.
    Mr. Rogers. Well, if this Committee is charged with funding 
the Bureau of Prisons, the Justice Department, I can imagine 
the complexity if you kept D.C. prisoners separate somehow in 
the appropriations process.
    Mr. Colgate. That's right. For 1998, because we're still in 
this transition----
    Mr. Rogers. I understand 1998. but I would not understand 
anything beyond that.
    Mr. Colgate. We're moving in the direction that we're 
told--I'll give you my best estimate. We're still trying to 
nail some of these things down.
    Mr. Rogers. I understand. Director Hawk, do you have any 
thoughts or comments about this topic?
    Ms. Hawk. Mr. Colgate knows much more about it than I do.
    Mr. Rogers. Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. Where would the $300 
million come from in the first year? I know it comes from the 
D.C. appropriation. Where do they get it? What's being given 
up?
    Mr. Colgate. Sir, I just don't know. I've just been working 
on this from essentially the receiving end.
    Mr. Mollohan. That's a good end to work on if that's what 
you're receiving.
    Mr. Colgate. Hopefully.
    Mr. Rogers. If the Gentleman will yield?
    Mr. Mollohan. Mr. Chairman.
    Mr. Rogers. On that topic, if I understand correctly, 
you're going to try to generate the monies, the $300 million 
give or take, by eliminating the Federal payment to D.C.
    Mr. Colgate. We will be earmarking it.
    Mr. Rogers. Earmarking it for the court system operations 
and the Lorton Prison.
    Mr. Colgate. Yes, sir, to be a reimbursement----
    Ms. Hawk. Not the construction money; not the B&F funds.
    Mr. Colgate. I believe in the first year 1998--I'll clarify 
that for the record.
    Mr. Rogers. If you would please.
    [The information follows:]

    As currently proposed by the Administration, the Federal 
Bureau of Prisons (BOP) will assume responsibility for persons 
convicted of a felony offense under the D.C. Code. Construction 
and renovation funding will be requested over 3 years for a 
total of $900 million. In 1998, $300 million will be requested 
from the District of Columbia Appropriations Subcommittee. This 
funding will provide the initial resources required for 
renovations at Lorton and new construction. Funding will be 
requested in 1999 and 2000 from the CJS Subcommittee for the 
BOP Buildings and Facilities account. When BOP requires 
operations funding--earliest estimate is 1999--this will also 
be requested of the CJS Subcommittee.

    Mr. Rogers. I believe if that's the case over a period of 
time we will be left with a shortfall. One of the problems that 
we would have with the proposal is that over the next five 
years it's expected that the functions that we're talking about 
transferring would cost $3.9 billion, but the savings from the 
Federal payment would only be $3.56 million, leaving a 
shortfall of about $400 million that somebody has to absorb. 
Even if I'd like to, we don't have the money. What do you think 
about that?
    Mr. Colgate. I can appreciate your concern. We do know that 
when you take a look at the sentencing issues, that we would be 
holding these individuals for longer periods of time, and you 
look at the Federal operating cost such as salaries and 
expenses versus D.C., that we face increasing costs.
    I appreciate the issue. I understand the shortfall that 
you're raising, if you look at the cost of operating now under 
the present D.C. system versus the increased cost that we would 
face operating under the Federal system, whether there would be 
issues or wages or other expenses or increased lengths of 
sentences. It is a cost issue.
    Mr. Rogers. But you're aware of this as we go along.
    Mr. Colgate. I am basically aware of the issue.
    Mr. Rogers. Mr. Mollohan.
    Mr. Mollohan. Go ahead, Mr. Chairman.
    Mr. Rogers. I was going to move on to something else.
    Mr. Mollohan. I think that's all the questions.
    Mr. Rogers. Let me move on to something else.
    Mr. Mollohan. Just one question.
    Mr. Rogers. Yes.

                    location of dc sentenced felons

    Mr. Mollohan. What do you do with the prisoners if you are 
going to renovate two facilities in the short-term, what do you 
do? Do those prisoners go into the Federal system immediately? 
You have to vacate some space at Lorton in order to renovate 
space. What do you do with the prisoners?
    Ms. Hawk. We haven't gotten that far working out the 
details, but you're right. We would probably absorb them into 
our existing institutions. Our minimum and lows are not as 
overly crowded as our highs are right now. So, we would be able 
to do that.
    Mr. Mollohan. Without a budgetary impact; without 
additional requests to this Committee?
    Ms. Hawk. I think so in terms of operating costs. There are 
a small number of minimum and low security inmates. There are 
not that many. It's the medium and highs when you get into the 
large numbers.
    Mr. Mollohan. But that would happen in fiscal year 1998?
    Ms. Hawk. Right. We could absorb some of those if we wanted 
to renovate the minimum first, we could absorb those and 
actually maybe even use some of the inmates to help do the 
work, which brings the cost down.
    Mr. Mollohan. How many inmates are you talking about having 
to absorb?
    Ms. Hawk. Well, with the renovation?
    Mr. Mollohan. Yes.
    Ms. Hawk. It's only about 500 of each; about 1,000 between 
the two.
    Mr. Mollohan. Why does that sound like a lot to me? That 
sounds like a lot to absorb without a budgetary impact?
    Ms. Hawk. Well, I guess what I'm saying is I think that 
when you take 500 inmates, you're talking really marginal costs 
because we're just absorbing that into an existing institution. 
If we absorb 50 inmates into ten different institutions, the 
cost per day per inmate when the institution is already up and 
running is only about $9 and something.
    It's really not that much. It is just the extra food they 
eat. The beds are already there. The staff is already there. 
You can do that without having to increase your staffing to 
cover 50 more inmates. I couldn't do that as easily with medium 
and highs.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Latham.
    Mr. Latham. I just want to talk to the Judge here. We heard 
some testimony earlier from the Supreme Court Justices here 
about mandatory sentences. Several judges resigned because they 
lost their discretion in their sentencing. I'd just like your 
thoughts on that.
    Mr. Conaboy. Well, what you're talking about Congressman is 
the impact of a structured process that was imposed on all of 
the Federal judges in this country as opposed to a system in 
which each judge had to use his or her own discretion after 
they would get a pre-sentence report and a background on what 
the defendant was involved in. They just had to use their own 
discretion within the maximum term limit that was set by 
Congress to decide what the sentence would be.
    After the sentencing guidelines came into existence, there 
was a whole new structure that requires each judge to go 
through a very defined process to decide what the sentence will 
be in each case. There are many judges who felt that, that 
prevented them from designing sentences that would be more 
appropriate in a given case.
    We're finding that as time goes on, we're nearing our first 
decade under this process, we're finding among other things 
that judges who've never sentenced in any other manner are not 
as averse to this new system as other judges are, although we 
constantly hear not only from judges but from others that there 
is a need to make some changes in the present system that would 
allow more responsibility to thesentencing court to try to 
design a sentence that's appropriate for that given case. And we do 
that occasionally with amendments that we make to the system. But 
that's the nature of that complaint.
    Mr. Latham. What is your view on it? Is it justified?
    Mr. Conaboy. I used to say that I was much more critical of 
the system before I became Chairman. I was under the old system 
where we had total freedom. I was one of the original judges in 
the country who felt that we needed some kind of a guideline 
system because to not have any guidance or any direction as to 
where you start when you're going to sentence a person to me is 
abominable.
    What has happened is that the initial guideline systems 
that were installed in states around the country were not 
nearly as defined and refined as the Federal system. So, we're 
trying now. One of the projects that we have ongoing in our 
commission is to look at state systems across the country and 
compare them to see areas of ours that should be redone and 
then to add some capacity other than a departure capacity which 
we have now which you can only use under very restrictive 
conditions. It's something we're constantly looking at.
    Mr. Latham. Thank you very much.
    Mr. Rogers. Now, Director Gonzalez, you manage about 75 
percent of the Federal detainee population. The INS handles the 
other 25 percent. You both accomplish that by renting jail 
space from state and local facilities and private companies and 
the use of Federally-owned detention facilities. Two years ago 
the Department successfully merged the prisoner transportation 
operations of the U.S. Marshals and the Immigration Service.
    I understand, based on a request by Congress last year, the 
Department is undertaking a comprehensive review of the 
possibility of consolidating the detention responsibilities. Do 
you know what the status of that study is?
    Mr. Gonzalez. I believe it is in the data collection stage, 
Mr. Chairman. I believe the Justice Management Division is 
doing this study for the Department. That's where they're at 
now.
    Mr. Rogers. Well, in your opinion, and based on the 
successful merger of the transportation functions, is it 
possible that Marshals could take over some or even all of the 
INS detention functions?
    Mr. Gonzalez. I guess anything is possible, Mr. Chairman. 
I'd rather wait to see the results of the analysis on the 
appropriateness of doing that.
    Mr. Rogers. Do you have input into that study?
    Mr. Gonzalez. Yes, We do.
    Mr. Rogers. Well, are you going to recommend it or not?
    Mr. Gonzalez. Well, I'm not recommending it, but it's being 
looked at. I'd like to have an opportunity to look at what the 
data shows before I commit one way or another.
    Mr. Rogers. Couldn't you gain a lot of efficiencies by 
managing all of the inter-governmental agreements with state 
and local jails rather than have them done separately?
    Mr. Gonzalez. Well, we're already doing some of that with 
INS. In fact, in Utah, INS and the Marshals Service are 
combining together to do one IGA, so that the jails only have 
to pay one person.
    Mr. Rogers. It seems to me like that makes so much sense to 
do it that way as a general rule; doesn't it?
    Mr. Gonzalez. And that may be very well what that study 
recommends if we do it in that fashion.
    Mr. Rogers. So, you'll do whatever they tell you to do?
    Mr. Gonzalez. I'm going to do what's best, depending on 
what the study shows.
    Mr. Rogers. Who is in the group doing the study?
    Mr. Gonzalez. Well, we're all participating in the study; 
all of the detention components, INS, the Bureau of Prisons, 
and the United States Marshals Service. The study is actually 
being coordinated through the Justice Management Division.
    Mr. Rogers. Mr. Colgate has his hand up.
    Mr. Colgate. My mother told me I should do that. I 
apologize for that. The Deputy Attorney General has charged the 
Justice Management Division to coordinate this study. We're 
running it through our Detention Planning Committee. The U.S. 
Marshals Service, the Bureau of Prisons, the Immigration 
Service, the Executive Office for Immigration Review as well as 
the U.S. Attorneys are all involved in this. We're looking at 
all issues, whether they be consolidation within the 
organizations and consolidation of like functions.
    We plan to have our report to the Deputy Attorney General 
by June 30 of this year. We will, and we're making a commitment 
that we will have the final report which is due to Congress on 
November 15, 1997. Cooperation is good. We are in the data 
collection phase.
    We're adding an additional task to it and that is bringing 
in an accounting firm to help us do the cost-benefit analysis. 
We will keep your staff apprised of this significant milestone.
    Mr. Rogers. Well, we'd like to know as soon as possible 
because it will probably be after our appropriations process 
for 1998 takes place. We could reprogram later on to 
accommodate any changes you might recommend. It seems to me 
that this is another area where we can save some money, time, 
and trouble for everybody, including the local people who don't 
understand why there are three or four Federal agencies 
askingthe same thing.
    Mr. Gonzalez. We've actually amongst ourselves, Mr. 
Chairman, agreed to do our jail inspections. If the Bureau of 
Prisons goes in and does a jail inspection at the facility at 
County General, Kentucky, there is no reason for the Marshals 
to come in two weeks later and then INS three weeks later.
    Mr. Rogers. Absolutely.
    Mr. Gonzalez. So, we're working jointly on some of those 
projects.
    Mr. Rogers. And number two, we can save money.
    Mr. Gonzalez. Yes, sir.

                          INFECTIOUS DISEASES

    Mr. Rogers. Now, Director Hawk, do we have a real serious 
problem of Hepatitis C in the prison system?
    Ms. Hawk. Infectious disease in general is a serious 
problem for all correctional systems in a confined population. 
Hepatitis C is a problem because of its volume, but not because 
it's contagious. Hepatitis C is a very serious illness in that 
there is no vaccine so we can't inoculate people against 
catching it as we do for Hepatitis B.
    All of our staff can be inoculated for Hepatitis B and 
protected in that way. For Hepatitis C, there is no 
inoculation. There is really no treatment that has proven to be 
very effective for large numbers of people who have Hepatitis 
C.
    The thing that makes Hepatitis C the problem is just its 
volume. On average it's 30 to 40 percent of inmates across the 
entire country, not just in the Federal system, but across the 
entire country. The thing that makes it less troubling for us 
than, for example, Hepatitis B and perhaps Tuberculosis and 
HIV, is that Hepatitis C is only contagious through blood, not 
other body fluids.
    You cannot contract Hepatitis C simply through sputum or 
someone spitting when they're talking or any of those kinds of 
things. It really has to be blood contact; blood-on-blood 
contact. So, we exercise universal precautions in all of our 
institutions.
    Whenever there is any blood spill, an inmate is injured, a 
staff member is injured, everyone knows we have the plastic 
gloves all around. Everyone is taught the universal precautions 
that are to be utilized to make sure you don't come in contact, 
skin to blood.
    So, it is serious because of the numbers. It's serious 
because it is deadly, but it's not as contagious as some of the 
other things like TB and HIV.
    Mr. Rogers. What's your policy regarding screening and 
treatment for Hepatitis C?
    Ms. Hawk. Inmates coming into us who present histories. 
Most Hepatitis C is contracted through needles, injection, drug 
injection. So, if an inmate has a history of drug injections, a 
history of intravenous drug use, then we do test many of those. 
We don't test everybody coming in. We don't even test random 
percentages as we do with HIV.
    We test those that have a history or those that demonstrate 
any kinds of symptoms of Hepatitis C are tested to determine 
whether they have the disease.
    Mr. Rogers. Well, I appreciate very much all of your 
testimony this morning, both your prepared remarks and your 
responses to the question. As I've said at the outset, I'm not 
reminding you of anything because you know, that you're dealing 
with some of the toughest problems this country has to offer.
    You're doing it, in my judgment, very well. I have a great 
respect for all of these three agencies that are here this 
morning. We know we're throwing at you, new laws and new 
crimes, Federal crimes, that you're having to administer and 
clean up after. We appreciate that especially in view of the 
new dynamics that are impacting all of you; the gangs, the 
drugs, the new types of violence.
    We want you to know that we're here to help you do your job 
because when you do your job well, it helps our constituents. 
So, keep in touch. If you see a problem, feel free to let us 
know.
    Ms. Hawk. Thank you.
    Mr. Rogers. Madam Director, again, if you will convey to 
the family of Scott Williams our sincere and deep regrets.
    Ms. Hawk. I will. Thank you, sir.
    Mr. Rogers. We're adjourned.

[Pages 1204 - 1217--The official Committee record contains additional material here.]








                           W I T N E S S E S

                              ----------                              
                                                                   Page
Bilchik, Shay....................................................   897
Bosley, D.B......................................................     1
Boswell, E.J.....................................................   647
Brann, J.E.......................................................   897
Bromwich, J.R....................................................   495
Colgate, S.R..............................................199, 495, 577
Conaboy, R.P.....................................................  1125
Constantine, T.A.................................................   699
Curtis, A.A....................................................199, 577
DiBattiste, Carol................................................   699
Donnelly, Tony...................................................     1
Duff, J.C........................................................     1
Freeh, L.J.....................................................577, 647
Gonzalez, Eduardo................................................  1125
Hantman, A.M.....................................................    29
Hawk, K.M........................................................  1125
Heyburn, Judge J.G., II..........................................    47
Houk, W.B........................................................   577
Kennedy, Hon. A.M................................................     1
Lorson, Frank....................................................     1
Mecham, L.R......................................................    47
Meissner, Doris...............................................199, 1011
Moscato, Anthony.................................................  1011
Pregnall, W.S., III..............................................    29
Reno, Hon. Janet.................................................   199
Robinson, Laurie.................................................   897
Roper, M.J.....................................................199, 577
Ryan, Mary.......................................................  1011
Souter, Hon. D.H.................................................     1
Warren, M.L......................................................   699
Wilcox, P.C., Jr.................................................   647
Young, Judge W.G.................................................    47
Zobel, Judge R.W.................................................    47










                               I N D E X

                              ----------                              
The Supreme Court of the United States:
                                                                   Page
    Additional Police Positions..................................    11
    Caseload.....................................................    13
    Civil Caseload...............................................    19
    Dividing the Ninth Circuit...................................    23
    Federalism...................................................    21
    Habeas Corpus Reform.........................................    16
    In Forma Pauperis Cases......................................    17
    Judicial Salaries............................................    13
    Mandatory Sentencing.........................................    21
    Opening Remarks..............................................     1
    Police Radio System..........................................    12
    Questions Submitted by Honorable Forbes......................    26
    Schematic Design.............................................    13
    Statement of Justice Kennedy.................................     2
    Televising Court Proceedings.................................17, 24

Architect of the Capitol.........................................    29
    Biography and Statement of Alan M. Hantman, AIA..............    31
    Building Improvements Study..................................    30
    Building Improvements Study, Further Discussion..............    44
    Capital Reinvestment Issues..................................    42
    Closing Comments.............................................    45
    Five Year Capital Budget.....................................    43
    Opening Statement............................................    29
    Security Improvements........................................    45
    Witnesses....................................................    29

The Federal Judiciary and the Administrative Office..............    47
    Administrative Office of the United States Courts:
        Administrative Office Needs..............................   133
        Administrative Office Staffing...........................   182
        Federal Judicial Center and Administrative Office........    49
        Prepared Statement of Leonidas Ralph Mecham..............   134
        Request for the Administrative Office....................   112
        The AO's Teleconferencing Program........................   164
    Biographies:
        John G. Heyburn II.......................................    65
        William G. Young.........................................   65A
        Leonidas Ralph Mecham....................................   145
        Rya W. Zobel.............................................  125A
    Budget Presentation in Obligations...........................   146
    Budget Summary...............................................    66
        Administrative Office of the United States Courts........   112
        Courts of Appeals, District Courts, and Other Judicial 
          Services...............................................    98
        Federal Judicial Center..................................   115
        Payments to Judicial Trust Funds.........................   118
        Summary Tables...........................................    80
        U.S. Court of Appeals for the Federal Circuit............    94
        U.S. Court of International Trade........................    96
        U.S. Sentencing Commission...............................   120
        Violent Crime Trust Fund.................................   122
    Carryover Funds:
        Carryover Estimate.......................................   168
        Sources of Carryover Funds...............................   147
    Chairman's Opening Statement.................................    47
    Courthouses:
        Courthouse Construction and Renovation...................   155
        Courtroom Sharing........................................   165
        Need for Judgeships and Court Facilities.................   151
    Court Security:
        Need for Court Security Increase.........................   169
        Reimbursements for Shared Security.......................   171
    D.C. Courts Funding..........................................   187
    Defense Costs:
        Death Penalty Defense Costs..............................   161
        Impact of Major Death Penalty Cases......................   168
    Dual Responsibilities of the Judiciary.......................    48
    Federal Judicial Center:
        Connections Newsletter...................................   173
        Federal Judicial Center and Administrative Office........    49
        FJC Improvements.........................................   171
        FJC Teleconferences......................................   163
        FJC's Use of Technology..................................   160
        Prepared Statement of Judge Rya W. Zobel.................   123
        Request of the FJC.......................................   115
    Five-Year Courthouse Plan 1998-2002..........................   157
    Government Performance and Results Act.......................   189
    Impact of Appropriations Cuts................................   148
    Implementation of Efficiencies...............................   150
    Judgeships:
        Impact of Judgeship Vacancies............................   153
        Need for Judgeships and Court Facilities.................   151
    Justification for the Judiciary's Requested Increase.........   147
    Optimal Utilization of Judicial Resources....................   149
    Prepared Statement of Judge Glenn L. Archer..................   126
    Prepared Statement of Judge Gregory W. Carman................   131
    Prepared Statement of Judge John G. Heyburn II...............    50
    Prepared Statement of Leonidas Ralph Mecham..................   134
    Prepared Statement of Judge Rya W. Zobel.....................   123
    Questions Submitted by Congressman Forbes....................   196
    Space to be Delivered in FY 1998-Prospectus..................   167
    Teleconferencing:
        FJC Teleconferences......................................   163
        The AO's Teleconferencing Program........................   164
    Verbal Statement of Judge John G. Heyburn II.................    47

Attorney General.................................................   199
    Abortion:
        Clinic Violence..........................................   472
        Costs....................................................   473
    Asset Forfeiture Fund........................................   493
    Biography, Attorney General Janet Reno.......................   223
    Border Patrol Increases......................................   394
    Brady Handgun Act............................................   451
    Budget:
        Request..................................................
          205, 423...............................................
        Summary..................................................   224
    Bureau of Prisons, Budget Request............................   212
    Campaign Financing...............................200, 203, 429, 445
    Citizenship USA:
        Actions Taken............................................
          412, 444...............................................
        Applicants, Increase in..................................   412
        Approvals, Erroneous.....................................   443
        Cost.....................................................   443
        Criminal Records Check..................425, 427, 432, 433, 436
        Election, Relationship to................................   435
        Fingerprint Check.......................432, 433, 435, 439, 440
        Inspector General Report.................................   396
        Pressure to Accelerate...................................   413
        Problems..........................................200, 394, 412
        Reprogramming Notifications............................413, 417
        Revocations............................................439, 443
        Timing, Program Development..............................   416
        Vice President's Office................................413, 414
        Voter Registration.....................................434, 438
    Congressional Deception..........................394, 395, 396, 409
    Community Oriented Policing Service (COPS):
        Budget Request.........................................210, 424
        Evaluation...............................................   486
        Law Enforcement Scholarship Program......................   474
        Police Officers Hired....................................   486
        Rural Officers...........................................   489
        State and Local Funding of Officers....................474, 489
        Status of................................................   453
    Community Prosecution Program................................   478
    Counterterrorism Fund........................................   216
    District of Columbia:
        Operation Ceasefire......................................   476
        Police Department......................................476, 479
        Relationship with........................................   476
    Drug Certification...........................................   487
    Drug Courts................................................215, 424
    Drug Enforcement Administration:
        Budget Request.........................................214, 220
        Methamphetamine..........................................   490
    Drug Trafficking.............................................   214
    Federal Bureau of Investigation:
        Budget Request.........................................214, 220
        Freedom of Information and Privacy Act Backlogs..........   452
        Laboratory Investigation.................................   481
    Food Stamp Cases.............................................   494
    Freedom of Information and Privacy Act Backlogs..............   452
    Government Performance and Results Act.......................   455
    Immigration and Naturalization Service:
        Budget Request.........................................218, 219
        Citizenship USA........................................411, 416
        Congressional Deception.................394, 395, 396, 409, 410
        Cooperation, Inspector General.........................402, 404
        Disciplinary Action....................................398, 401
        Employee Misconduct..........................394, 395, 396, 482
        Field Management.........................................   422
        General Accounting Office Report..................395, 417, 436
        Growth............................................201, 396, 420
        Hiring.................................................413, 420
        I-19 Checkpoint..........................................   442
        Management Improvements.................410, 419, 421, 424, 481
        Operation Gatekeeper.....................................   410
        Problems, General......................................200, 394
        San Clemente Checkpoint..................................   441
        State and Local Assistance...............................   431
    Independent Counsel........................................204, 429
    Inspector General:
        Citizenship USA........................................444, 449
        FBI Laboratory.........................................445, 481
        Growth, Need for.......................................411, 474
        INS, Failure to Cooperate................................   402
        Employee Misconduct...............................396, 409, 410
        San Clemente.............................................   442
    Interagency Crime and Drug Enforcement Task Force, Budget 
      Request....................................................   215
    Investigations:
        Campaign Financing................................204, 429, 445
        Citizenship USA..........................................   411
        Congressional Deception.................394, 395, 396, 409, 410
        FBI Laboratory.........................................445, 481
        Operation Gatekeeper.....................................   410
        San Clemente Checkpoint..................................   442
        Various..................................................   445
    Legal Divisions, Resources...................................   220
    Local Law Enforcement Block Grants.........................446, 490
    Management Initiatives...........................206, 413, 420, 423
    Mexico Certification.......................................448, 487
    National Instant Check System................................   451
    Naturalization:
        Actions Taken, Corrective.........................412, 444, 482
        Applicants, Increase in..................................   412
        Approvals, Erroneous...................................434, 443
        Citizenship USA..........................................   411
        Cost.....................................................   443
        Criminal Records Check..................425, 427, 432, 433, 436
        Election, Relationship to................................   435
        Fingerprint Check.......................432, 433, 435, 439, 440
        Inspector General Report.................................   396
        Pressure to Accelerate.................................413, 486
        Problems..........................................200, 394, 412
        Reprogramming Notifications............................413, 417
        Revocations............................................439, 443
        Timing, Program Development..............................   416
        Vice President's Office................................413, 414
        Voter Registration................................434, 438, 486
    Operation Ceasefire..........................................   476
    Operation Gatekeeper.........................................   410
    Overseas Operations........................................461, 472
    Prosecutors Grant Program....................................   447
    Questions for the Record.....................................   455
    Statement:
        Formal, Janet Reno.......................................   205
        Opening:
            Mr. Mollohan.........................................   201
            Ms. Reno.............................................   203
            Mr. Rogers...........................................   199
    Telephone Service Merger Analysis............................   479
    Travel, Foreign and Domestic.................................   460
    Victim Assistance............................................   211
    Violent Crime:
        Abortion Clinic..........................................   472
        Budget Request...........................................   208
        Gangs..................................................208, 475
        Violence Against Women...................................   211
        Violent Offender and Truth in Sentencing Grants..........   212
    Youth Violence...................................208, 424, 447, 475

Justice Inspector General........................................   495
    Audits:
        COPS Grants..............................................   569
        Methodology..............................................   575
    Automation Initiatives................................498, 543, 553
    Biography, Inspector General, Michael R. Bromwich............   534
    Budget Request.............................................499, 570
    Citizenship USA..................................496, 546, 556, 572
    Community Oriented Policing Services (COPS):
        Assessment of the Program................................   499
        Audits of COPS Grants....................................   569
    Criminal Records Checks......................................   546
        Case Files Reviewed......................................   550
        IDENTS, Distribution.....................................   548
        Naturalized Persons, Distribution........................   549
    Disciplinary Actions.......................................537, 541
    Federal Bureau of Investigation:
        Information Leaks........................................   562
        Investigation, Crime Laboratory........................498, 574
        Laboratory, Report.......................................   561
        Management Issues........................................   563
        Responsibilities, Scope of Oversight.....................   563
    Green Cards..................................................   559
    Illegal Immigration Reform and Immigrant Responsibility Act 
      of 1996 (IIRIRA)...........................................   573
    Immigration and Naturalization Service:
        Automation........................................498, 543, 553
        Border Patrol:
            Agents...............................................   572
            Operation Gatekeeper.................................   565
            San Clemente Checkpoint............................497, 568
        Citizenship USA..............................496, 546, 556, 572
        Control, Out of..........................................   551
        Criminal Records Checks..................................   546
        Disciplinary Actions...................................537, 541
        ENFORCE..................................................   544
        IDENT....................................................   544
        IIRIRA...................................................   573
        Investigation, Obstruction of............................   538
        Naturalization Program:
            Green Cards..........................................   559
            Review, Postponement of Planned......................   555
        Performance............................................558, 559
        Program Review...........................................   535
        Recommendations, Procedures..............................   538
        San Clemente Checkpoint..................................   497
        Status of Investigations:
            Miami..............................................496, 536
            Citizenship USA......................................   496
            Operation Gatekeeper.................................   496
        Systems, Other...........................................   544
        Technology Upgrades......................................   544
    Investigations Division:
        FBI Crime Laboratory.....................................   498
        Immigration and Naturalization Service...................   496
        Oversite.................................................   573
        Recommendations..........................................   538
    Management Issues............................................   563
    Miami-INS Investigation......................................   536
    Misconduct, Allegations of.................................572, 575
    Naturalization Program.....................................555, 559
    Operation Gatekeeper.......................................496, 565
    Performance, INS...........................................558, 559
    Questions for the Record.....................................   568
    San Clemente Checkpoint....................................497, 568
    Statement:
        Formal...................................................   501
        Opening..................................................   495
    Technology:
        ENFORCE..................................................   544
        IDENT....................................................   544
        Immigration and Naturalization Service...................   544

Federal Bureau of Investigation..................................   577
    Abortion Clinic Bombings.....................................   635
    Atlanta Bombing Investigation................................   585
    Allegations, Investigation of................................   615
    Anti-Drug Activities.........................................   642
    Applicant Checks.............................................   609
    Biography, Louis J. Freeh....................................   603
    Budget Request...............................................   588
        Counterterrorism.........................................   621
        Digital Telephony and Tactical Operations, Status........   622
    CALEA, Implementation Plan...................................   636
    Citizenship Applicants, Increased............................   605
    Citizenship USA, INS.........................................   604
    Computer Crimes..............................................   633
    Counterterrorism Funding.....................................   621
    Criminal Records Checks...............................608, 609, 613
        Applicant................................................   609
        Citizenship, Response Times for INS Checks...............   608
        Citizens Without Full Record Checks, Number..............   608
    D.C. Metropolitan Police Force...............................   616
    Equipment:
        Technical................................................   622
    Files......................................................584, 641
    Fingerprints:
        Authenticity.............................................   615
        Checks...................................................   604
        Fingerprinting...........................................   614
        Processing........................................606, 614, 615
        Warning..................................................   605
    Freedom of Information Act.................................600, 628
    Fundraising Investigation....................................   611
    Headquarters:
        Special Agents, Reduction................................   620
    Hiring: Craig Livingstone....................................   614

Counterterrorism Programs........................................   647
    Department of State:
        Antiterrorism Assistance Program.........................   693
        Appropriations...........................................   687
        Biographies:
            Boswell, Eric J......................................   697
            Wilcox, Philip C., Jr................................   684
        Border Security--Passports/Visa Fraud....................   691
        Border Security Program..................................   694
        Building Security Certification..........................   694
        Coordinated Interagency Process........................679, 695
        Counterterrorism:
            General..............................................   685
            Programs.............................................   688
            Rewards Program......................................   692
            U.S. Foreign Policy..................................   683
        Crisis Response, Exercises...............................   680
        Current Threat...........................................   677
        Defense/State MOU........................................   694
        Enforcing the Rule of Law................................   680
        Identifying State Sponsors Of Terrorism..................   681
        Interagency Cooperation and Coordination.................   694
        International Consultations, Role of The G-7/P8 
          Fundraising............................................   681
        Physical Security........................................   689
        Policies, Basic..........................................   679
        Protection...............................................   690
        Other Investigations.....................................   691
        Other State Counterterrorism Activities..................   681
        Overseas:
            Operations...........................................   688
            Security Advisory Council............................   692
            Security Policy Board................................   694
        Research and Development.................................   682
        Security:
            Domestic Facilities..................................   690
            Resources Allocation For Overseas Missions...........   687
            Technical............................................   689
        Statement:
            Boswell, Eric J......................................   685
            Wilcox, Jr., Philip C................................   677
        Working Together at Embassies/Consulates.................   695
    Federal Bureau of Investigation (FBI):
        Acknowledgments..........................................   649
        Biography, FBI Director, Louis J. Freeh..................   676
        Budget Request...........................................   673
        Chairman's Opening Remarks...............................   647
        Conclusion...............................................   674
        Counterterrorism:
            Initiative 1996......................................   669
            Initiative 1997......................................   670
            Resources............................................   667
            Supplemental 1995....................................   668
        Current Threat...........................................   677
        Deterring Terrorism......................................   664
        Domestic Terrorism Threat................................   655
        FBI Roles and Responsibilities...........................   662
        Formalized Extremist Groups..............................   653
        International Radical Fundamentalists....................   654
        International Terrorist Threats..........................   652
        Militia Groups...........................................   657
        Policy On Terrorism......................................   650
        Puerto Rican Terrorist Groups............................   659
        Revolutionary and Insurgent Groups.......................   655
        Right-Wing Extremist Groups..............................   656
        Special Events Management................................   667
        Special Interest Terrorist Groups........................   660
        State-Sponsored Terrorism................................   652
        Statement, Freeh, Louis J................................   648
        Terrorism, Responding to.................................   664
        Terrorist Threats, Nature of.............................   651
        Vulnerabilities, Reducing................................   662
        Weapons of Mass Destruction..............................   666

Drug Enforcement Programs........................................   699
    Criminal Division:
        Activities...............................................   792
        Bottlenecks..............................................   820
        Biography, Deputy Assistant Attorney General, Mary Lee 
          Warren.................................................   805
        Budget Request:
            Antidrug.............................................   800
            Non-Drug.............................................   803
        Cooperation, Agencies....................................   779
        Drug Control:
            Strategy...........................................777, 780
        Federal Capital Cases....................................   796
        Geographic Targeting Order...............................   794
        Initiatives:
            Southwest Border.....................................   793
        International Coordination Efforts.......................   798
        International Emergency Economic Powers Act..............   799
        Methamphetamine, Strategy................................   794
        National Drug Control Strategy.........................777, 780
        OCDETF, Restructure......................................   778
        Southwest Border Initiatives.............................   793
        Statement, Warren, Mary Lee:
            Formal...............................................   780
            Opening..............................................   777
    Drug Enforcement Administration:
        ADP Funding..............................................   895
        Agents:
            Attorneys, Requested.................................   853
            Investigative Workyears, FY 92-96....................   867
            Mexico...............................................   809
        ARCOS Reports............................................   870
        Biography, DEA Director, Thomas A. Constantine...........   723
        Budget Request....................................720, 834, 835
        Colombian/Mexico Situation...............................   828
        Cooperation, Agencies....................................   826
        Corruption...............................................   822
        Deaths, Drug Overdose....................................   701
        Diversion Control Fee Account..........................870, 890
        Drugs:
            Case Initiations, by Category........................   868
            Emerging Problems....................................   714
            Intelligence, Sharing................................   852
            Laboratories.........................................   814
            Mexico..............................806, 812, 816, 819, 822
            Prevention, LE Programs..............................   811
            Problems, Domestic...................................   820
            Strategy, Law Enforcement............................   808
            Supply...............................................   851
            Youth Using........................................825, 827
        Drug Investigations:
            Agent FTE, FBI.......................................   869
            Category.............................................   854
        Drug Matters Filed and Terminated........................   854
        Drug Prevention, Concentration, Lack of..................   821
        Extradition..............................................   830
        Federal Register.........................................   881
        Fenfluramine, De-Schedule................................   843
        Gangs....................................................   701
        Global Drug Trafficking..................................   718
        Heroin:
            Resurgence...........................................   701
            Smuggling............................................   703
        History of Drug Enforcement Costs, 1992 through 1998.....   845
        ICDE:
            Program..............................................   856
            Structure............................................   858
            Southwest Border Initiative Cases....................   859
        Intelligence, International..............................   836
        Marijuana, Use...........................................   839
        Methamphetamine........................................714, 860
            Designer Drugs, Explosion............................   818
            Resurgence...........................................   701
            Strategy.............................................   848
        Mexico..................................806, 812, 816, 819, 822
        Mobile Enforcement Teams...............................702, 893
        National Methamphetamine Strategy........................   848
        Office of Diversion Control, Cost FY 94-97...............   875
        Organized Crime:
            Federal Response.....................................   716
            International........................................   706
            Surrogates...........................................   712
            Technology Use.......................................   703
        OCDETF:
            Investigations, Initiated............................   865
            Resource Tracking, FY 92-97..........................   866
            Task Forces..........................................   846
        Sentences, Mandatory Minimum.............................   827
        Southwest Border Initiative............................702, 848
        Statement, Thomas A. Constantine:
            Formal...............................................   705
            Opening..............................................   699
        Trafficking:
            Investigation and Prosecution........................   846
            Major................................................   702
            Mexico...............................................   709
            Violent Drugs........................................   713
        War On Drugs.............................................   832
    United States Attorneys (USA):
        Agents/Attorneys, Requested..............................   853
        Biography, Director, USA, Carol DiBattiste...............   775
        Budget Request...........................................   727
        Child Support Recovery Act...............................   747
        Cooperation, Partnership.................................   724
        Counterterrorism.........................................   729
        Court Appearances, Police Overtime.......................   872
        District of Columbia:
            Crime Rate, Reduction................................   873
            Police Officers, Unable To Testify...................   871
        Drug Matters Filed and Terminated........................   855
        Fingerprinting...........................................   873
        Freedom of Information Act...............................   769
        Judicial System, Bottlenecks.............................   820
        Litigation, Civil Defense................................   738
        National Advocacy Center, Activation.....................   762
        Narcotics..............................................731, 815
        Organized Crime..........................................   736
        Southwest Border Initiative..............................   742
        Statement, Carol DiBattiste:
            Formal...............................................   726
            Opening..............................................   724
        Superior Court, District of Columbia.....................   749
        Victims and Witnesses....................................   733

State and Local Law Enforcement Programs.........................   897
    Community Oriented Policing Services (COPS)..................   936
        Biography, Director COPS, Joseph E. Brann................   952
        COPS Program..........................................937, 1007
        Funding, Counseling for Local Jurisdictions..............   962
        Funding, 1997 Carry-Over.................................   953
        Funding Issues, Local....................................   957
        Grants, Prior Year.......................................   957
        International Association of Chiefs of Police..........939, 941
        Local Law Enforcement Block Grant Program................   961
        Matching Funds, Local....................................   954
        New Cops, Number......................................953, 1007
        New Cops, Localities Retention of........................   959
        New Grants, Impact of Local Funding Requirements.........   955
        Police Corps Program.....................................   985
        Positions, Retention.....................................   965
        Prevention Programs......................................   964
            Communities, Graduating..............................   965
            Iowa, Evaluation.....................................   964
        Technology and Equipment, Funding........................   957
        Questions for the Record..............................985, 1007
        Statement, Joseph E. Brann, Director:
            Formal...............................................   943
            Opening..............................................   936
        Witnesses, Introduction of...............................   897
    Office of Justice Programs...................................   897
        Association of Missing & Exploited Children's 
          Organizations (AMECO)..................................  1003
        Biography:
            Bilchik, Shay........................................   915
            Robinson, Laurie.....................................   935
        Boot Camps:
            Cost Savings.........................................  1010
            Evaluation of........................................  1008
            State Results........................................  1009
        Budget Request, FY 1998..................................   909
        Bureau of Justice Assistance (BJS):
            National Sexual Offender Registry....................   913
        Byrne Discretionary Grant Program........................   999
        Communication............................................   907
        Communities, Empowering..................................   902
        Coordination, Collaboration and........................903, 904
        Correction Facilities Grants:
            Byrne Discretionary Grant Program....................   999
            Drug Testing for State Prisoners.....................   990
        Drugs:
            Administration's Message.............................   978
            Drug Courts..........................................   976
            Drug-Related Programs................................   910
            Drug Use.............................................   977
            Drug Use and Juveniles...............................   967
            Juvenile Drug Abuse Strategy.........................   973
            Legalization.........................................   976
            Marijuana Use, Ages 12 to 17.........................   971
            Media Outreach.......................................   980
            Statistics...........................................   977
            Testing............................................990, 993
            Trends in Youthful Drug Use..........................   969
        Drug Testing:
            Federal Arrestees....................................   993
            State Prisoners......................................   990
        Initiatives:
            Juvenile Crime and Drug Use:
                Assistance for Delinquent and At-Risk Youth......   979
            Bryne Discretionary Grants...........................   999
        Juvenile Justice & Delinquency Prevention:
            Boot Camps...........................................  1008
            Children-at-Risk Program...........................979, 994
            Grants.............................................994, 996
            Juvenile Crime Prevention Program....................   994
            Juvenile Justice Programs............................   996
            Law Related Education Program........................  1006
            Missing & Exploited Children Programs.1000, 1001, 1004, 1005
            National Alzheimer Patient Alert Program.............  1001
            Office of............................................  1008
            Training & Technical Assistance, Title IV............  1002
        Local Law Enforcement Block Grant Program..............961, 984
            Application Processing/Grants Management System......   984
            Block Grant Funds, Flexibility.......................   984
            University of Maryland Report........................   982
        Maryland Report on Crime Program.......................982, 989
        Media and Drugs:
            Juvenile Drug Abuse Strategy.........................   973
        Public Information Campaigns.............................   980
        Missing & Exploited Children Program.................1000, 1001
            Community-Based Approaches...........................  1004
            Criminal Parental Kidnaping Training.................  1005
            International Child Abduction Attorney Network.......  1004
            International Parental Abductions, Issues............  1004
            National Center......................................  1001
            Parent Resources Support Network.....................  1005
        National Alzheimer Patient Alert Program.................  1001
        National Crime Information Center (NCIC).................  1003
        National Sexual Offender Registry........................   913
        National Institute of Justice:
            Drug Use Forecasting.................................   913
            Understanding Violence Against Women Report..........   913
        National Missing Children Data Archive...................  1003
        NISMART II...............................................  1003
        Positions, Retention.....................................   965
        Prevention Programs......................................   964
            Communities, Graduating..............................   965
            Iowa, Evaluation.....................................   964
        Training & Technical Assistance, Title IV................  1002
        Questions for the Record.................................   984
            Byrne Discretionary Grant Program....................   999
            Criminal Parental Kidnaping Training.................  1005
            Drug Testing for Federal Arrestees...................   993
            Drug Testing for State Prisoners.....................   990
            Juvenile Crime Prevention Program....................   994
            Law Related Education Program........................  1006
            Local Law Enforcement Block Grant Program............   984
            Maryland Report on Crime Programs....................   989
            Missing Children's Programs..........1000, 1001, 1003, 1004
            National Alzheimer Patient Alert Program.............  1001
            National Crime Information Center....................  1003
            NISMART II...........................................  1003
            Parent Resources Support Network.....................  1005
            Training & Technical Assistance, Title IV............  1002
            Violence Against Women Grants........................   998
        Research and Evaluation..................................   905
        Statement, Laurie Robinson, AAG:
            Formal...............................................   900
            Opening..............................................   898
        Statement, Shay Bilchik, Administrator, Office of 
          Juvenile Justice and Delinquency Prevention:
            Formal...............................................   918
            Opening..............................................   916
        Formula Grants Program...................................   912
        Violence Against Women Act:
            Violence Against Women Grants........................   998
        Witnesses, Introduction of...............................   897

Immigration Issues...............................................  1011
    Department of State:
        Accomplishments......................................1060, 1064
        Biography, Assistant Secretary of State for Consular 
          Affairs, Mary A. Ryan..................................  1075
        Border Crossing Cards................................1061, 1069
        Border Security......................................1060, 1063
        Customer Service.........................................  1071
        FBI Information, Access to...........................1071, 1089
        Fee Repeal, 245(i).......................................  1115
        Status...................................................   622
        IAFIS....................................................   624
        Information Sharing, FBI and INS.........................   640
        Initiatives:
            International Law Enforcement........................   596
            La Costa Nostra......................................   598
            Southwest Border.....................................   599
            Technology Crimes....................................   595
            Telecommunications Carrier Compliance..............593, 635
        International Law Enforcement............................   596
        Investigations:
            Allegations of Criminal Conduct......................   615
            Fundraising..........................................   611
            Olympics Bombing, Atlanta..........................585, 626
            TWA Flight 800.....................................616, 643
            Whitehurst.........................................619, 639
        Laboratory..............................583, 589, 619, 621, 639
        La Costa Nostra..........................................   598
        Legal Attache Offices....................................   636
        Livingston, Hiring.......................................   614
        Misconduct...............................................   638
        National Instant Criminal Background Check System, Status   629
        Naturalization Programs, INS:
            Citizenship Applicants, Advising FBI.................   605
            Citizenship USA......................................   604
            Criminal Records Checks.......................608, 609, 613
            Fingerprint Checks.................................604, 615
        NCIC 2000................................................   624
        Olympic Bombing..........................................   626
        Opening Remarks:
            Chairman Livingston..................................   579
            Chairman Rogers......................................   577
            Mr. Mollohan.........................................   581
        Personnel, Hiring Status.................................   622
        Professional Responsibility, Office of...................   610
        Southwest Border.........................................   599
        Special Agents, Reduction at Headquarters................   620
        Statement:
            Formal...............................................   587
            Opening..............................................   582
        Technology Crimes......................................595, 633
        Telecommunications Carrier Compliance....................   593
        Terrorism................................................   623
        TWA Flight 800...........................................   616
        Whitehurst Investigation.................................   619
        Illegal Immigration Reform and Immigrant Responsibility 
          Act....................................................  1061
        Immigration and Naturalization Service, Cooperation with. 
                                                       1061, 1068
        Machine Readable Visas...............................1060, 1063
        Passport Issuances...................................1062, 1071
        Retention Rates Overseas.................................  1098
        Statement:
            Formal...............................................  1063
            Opening..............................................  1060
        Visas:
            Non-Immigrant....................................1061, 1071
            Machine Readable.....................................  1063
    Executive Office for Immigration Review (EOIR):
        Achievements.........................................1051, 1054
        Adjudication Programs, Status of.........................  1054
        Biography, EOIR Director Anthony C. Moscato..............  1059
        Budget Request, EOIR.................................1051, 1057
        Deportation Orders Outstanding...........................  1112
        Illegal Immigration Reform and Immigrant Responsibility 
          Act, Impact of.....................................1051, 1055
        Port Court...............................................  1111
        Removal Orders, Criminal Aliens..........................  1113
        Statement:
            Formal...............................................  1053
            Opening..............................................  1051
    Immigration and Naturalization Service (INS):
        Achievements, INS:
            Assistance to States.................................  1026
            Border Control.......................................  1017
            Olympics, Support to.............................1028, 1083
            Removal of Illegal Aliens............................  1020
            Services.............................................  1025
            Technology Improvements..........................1023, 1081
            Worksite Enforcement.................................  1021
        Automation Systems...................................1083, 1084
        Biography, INS Commissioner, Doris Meissner..............  1049
        Border:
            Control..............................................  1017
            IAFIS Interface..................................1084, 1087
            INDENT/ENFORCE.............................1023, 1038, 1083
            Initiative...........................................  1037
        Border Patrol Agents:
            Attrition Rates......................................  1097
            Number Requested.................................1082, 1094
        Budget Request.......................................1033, 1081
        Citizenship USA:
            Actions Taken, Corrective............1031, 1077, 1079, 1101
            Applicants, Numbers of...............................  1076
            Audit, KPMG Peat Marwick...................1031, 1077, 1079
            Cost, INS Providing Fingerprint Service..............  1103
            Deportation Orders, Subject to...................1079, 1112
            Designated Fingerprint Services..................1100, 1102
            Erroneous Grants of..................................  1077
            FBI, Discussions with................................  1096
            Fingerprint Verification.............1077, 1079, 1099, 1101
            Locating Felons......................................  1096
            Managers, Accountability of..........................  1080
            Program..........................................1030, 1076
            Quality Assurance Program............................  1077
            Revocation...........................................  1097
            Services and Benefits................................  1045
        Criminal Alien, Removal of:
            Achievements.........................................  1020
            Budget Request.......................................  1039
        Employee Misconduct......................................  1029
        Exit Control Strategy....................................  1114
        Fee Repeal, 245(i)....................................... 12115
        General Accounting Office Report.....................1015, 1100
        Hiring:
            Border Patrol........................................  1195
            Plan.................................................  1191
        IDENT System:
            Accomplishments......................................  1023
            Inspector General Report.............................  1083
        Illegal Aliens, Removal of:
            Achievements.........................................  1020
            Deportation Orders Outstanding.......................  1112
            Detention Program................................1110, 1114
            Numbers Removed......................................  1109
            Port Court...........................................  1110
        Infrastructure...........................1023, 1081, 1083, 1094
        Initiatives:
            Automation...........................................  1083
            Border Control.......................................  1037
            Professionalism......................................  1034
        INSPASS..............................................1024, 1083
        Inspectors...............................................  1095
        Inspector General Report.............................1083, 1100
        Interior Deterrence......................................  1043
        Investigators............................................  1106
        Law Enforcement Support Center...........................  1120
        Management Accountability................................  1105
        Management Reforms.............................1012, 1077, 1104
        Miami Visit..............................................  1029
        National Academy for Public Administration Report........  1013
        Naturalization:
            Citizenship USA..................................1012, 1030
            Reports, Monthly.....................................  1118
            Services and Benefits................................  1045
        Nogales Interstate 19 Checkpoint.........................  1095
        Operation Gatekeeper.................................1020, 1032
        Operation Mountain Passes................................  1123
        Questions for the Record.................................  1118
        Personnel Increases..................................1081, 1095
        Personnel Selection......................................  1106
        Position, Authorized v. Funded...........................  1107
        Reorganization.......................................1013, 1104
        Southwest Border Committee Visit.....................1012, 1089
        State Department, Cooperation with...................1024, 1084
        Statement:
            Formal...............................................  1014
            Opening..............................................  1012
        Status, German De La Roche...............................  1118
        Technology:
            Achievements...............................1023, 1081, 1083
            DataShare........................................1024, 1084
            Personnel Needs, Balance with........................  1094
        Voter Registration...................................1089, 1091
        Worker Preference Program................................  1121
        Worksite Enforcement and Verification:
            Achievements.........................................  1021
            Budget Request.......................................  1043
            Positions, Funded....................................  1108

Bureau of Prisons, U.S. Marshals Service, U.S. Sentencing 
  Commission.....................................................  1125
    Bureau of Prisons (BOP)......................................  1148
        Biography, BOP Director, Kathleen M. Hawk................  1161
        Budget Request...........................................  1151
        Death of Officer Williams................................  1177
        Death Penalty............................................  1193
        District of Columbia:
            Death Penalty........................................  1193
            Lorton Operating Costs...........................1180, 1183
            Memorandum of Understanding......................1182, 1194
            Sentenced Felons...............1179, 1187, 1190, 1195, 1199
            Takeover of D.C. Prison System.......................  1207
        Facilities, Maintaining..................................  1159
        Funding, DC Sentenced Felons.............................  1195
        Gangs....................................................  1189
        Health Care Initiatives..............................1158, 1209
        Infectious Diseases......................................  1202
        Inmate Populations:
            Growth/Projections...................................  1154
            Overcrowding, Reduction of...........................  1157
        Location of DC Sentenced Felons..........................  1199
        Lorton:
            Construction and Operating Costs.....................  1183
            Memorandum of Understanding..........................  1182
            Operating Costs......................................  1180
            Sentenced Felons...........................1179, 1187, 1190
        Memorandum of Understanding..........................1182, 1194
        Privatization............................................  1157
        Programs, Prison.........................................  1184
        Sentenced Felons...................1179, 1187, 1190, 1195, 1199
        Sentencing Guidelines, Federal:
            Impact, Applying District of Columbia................  1191
            Impact, Sentencing Commission........................  1192
        Statement, Kathleen Hawk:
            Formal...............................................  1150
            Opening..............................................  1148
        Summary..................................................  1160
        Takeover of D.C. Prison System...........................  1207
        Violence and Overcrowding................................  1178
    U.S. Marshals Service (USMS).................................  1174
        Assets Forfeiture Program................................  1210
        Audit Initiatives........................................  1172
        Biography, USMS Director, Eduardo Gonzalez...............  1176
        Chief Information Officer................................  1172
        Cooperation, Interagency.................................  1173
        Court Security Program...................................  1216
        D.C. Prisoner System Takeover Impacts....................  1207
        Forfeited Assets, Internal Control.......................  1210
        Joint Automated Booking Station..........................  1173
        Justice Prisoner and Alien Transportation System.........  1175
        Statement, Eduardo Gonzalez:
            Formal...............................................  1166
            Opening..............................................  1163
        Video Teleconferencing...................................  1164
    U.S. Sentencing Commission...................................  1125
        Agenda...................................................  1140
        Biography, Judge Richard P. Conaboy......................  1147
        Budget History...........................................  1132
        Budget Request:
            Public Service Announcements.........................  1204
        Employment, On-Board.....................................  1204
        Federal Sentencing Reform................................  1134
        Guideline Simplification.................................  1205
        Introduction.............................................  1130
        Justification............................................  1134
        Questions for the Record.................................  1204
        Responsibilities.........................................  1136
        Resources Requested......................................  1133
        Statement, Richard P. Conaboy:
            Formal...............................................  1130
            Opening..............................................  1126
        Witness List.............................................  1147

                                <all>
</pre></body></html>
